<html>
<title> - CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA ANNUAL REPORT 2012</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]







                       CONGRESSIONAL-EXECUTIVE 
                         COMMISSION ON CHINA

                             ANNUAL REPORT

                                  2012

=======================================================================

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                            OCTOBER 10, 2012

                               __________

 Printed for the use of the Congressional-Executive Commission on China


         Available via the World Wide Web: http://www.cecc.gov







 
                        CONGRESSIONAL-EXECUTIVE 
                          COMMISSION ON CHINA

                             ANNUAL REPORT


                                  2012

=======================================================================

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                            OCTOBER 10, 2012

                               __________

 Printed for the use of the Congressional-Executive Commission on China



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>





         Available via the World Wide Web: http://www.cecc.gov

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

76-190 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001












              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS


House                                Senate

CHRISTOPHER H. SMITH, New Jersey,    SHERROD BROWN, Ohio, Cochairman
Chairman                             MAX BAUCUS, Montana
FRANK WOLF, Virginia                 CARL LEVIN, Michigan
DONALD A. MANZULLO, Illinois         DIANNE FEINSTEIN, California
EDWARD R. ROYCE, California          JEFF MERKLEY, Oregon
TIMOTHY J. WALZ, Minnesota           SUSAN COLLINS, Maine
MARCY KAPTUR, Ohio                   JAMES RISCH, Idaho
MICHAEL M. HONDA, California

                     EXECUTIVE BRANCH COMMISSIONERS

                  SETH D. HARRIS, Department of Labor
                    MARIA OTERO, Department of State
              FRANCISCO J. SANCHEZ, Department of Commerce
                 KURT M. CAMPBELL, Department of State
     NISHA DESAI BISWAL, U.S. Agency for International Development

                     Paul B. Protic, Staff Director

                 Lawrence T. Liu, Deputy Staff Director

                                  (ii)
















                             C O N T E N T S

                              ----------                              
                                                                   Page
I. Executive Summary.............................................     1

    Overview.....................................................     1
    Specific Findings and Recommendations........................     7
    Political Prisoner Database..................................    46

II. Human Rights.................................................    49

    Freedom of Expression........................................    49
    Worker Rights................................................    59
    Criminal Justice.............................................    69
    Freedom of Religion..........................................    78
    Ethnic Minority Rights.......................................    87
    Population Planning..........................................    90
    Freedom of Residence and Movement............................    96
    Status of Women..............................................   100
    Human Trafficking............................................   104
    North Korean Refugees in China...............................   108
    Public Health................................................   111
    The Environment..............................................   114

III. Development of the Rule of Law..............................   120

    Civil Society................................................   120
    Institutions of Democratic Governance........................   125
    Commercial Rule of Law.......................................   133
    Access to Justice............................................   141

IV. Xinjiang.....................................................   148

V. Tibet.........................................................   156

VI. Developments in Hong Kong and Macau..........................   169

VII. Endnotes....................................................   172

      Political Prisoner Database................................   172
      Freedom of Expression......................................   173
      Worker Rights..............................................   178
      Criminal Justice...........................................   185
      Freedom of Religion........................................   192
      Ethnic Minority Rights.....................................   199
      Population Planning........................................   202
      Freedom of Residence and Movement..........................   209
      Status of Women............................................   212
      Human Trafficking..........................................   216
      North Korean Refugees in China.............................   220
      Public Health..............................................   223
      The Environment............................................   226
      Civil Society..............................................   234
      Institutions of Democratic Governance......................   238
      Commercial Rule of Law.....................................   250
      Access to Justice..........................................   257
      Xinjiang...................................................   260
      Tibet......................................................   267
      Developments in Hong Kong and Macau........................   283






                          I. Executive Summary

                                Overview

    Two countervailing trends exemplified human rights and rule 
of law developments in China this past year. On the one hand, 
the Commission observed the Chinese people, often at great 
risk, exercising the basic freedoms to which they are entitled 
and demanding recognition of these rights from their leaders. 
This development did not arise from any external force, but 
originated from the Chinese people themselves, and was evident 
not just among a handful of activists but at all levels of 
Chinese society. At the same time, the Commission observed a 
deepening disconnect between the growing demands of the Chinese 
people and the Chinese government's ability and desire to meet 
such demands. In a year marked by a major internal political 
scandal and leadership transition, Chinese officials appeared 
more concerned with ``maintaining stability'' and preserving 
the status quo than with addressing the grassroots calls for 
reform taking place all over China.
    Citizen protests against lack of basic freedoms and 
official abuse cut across the diverse issues monitored by the 
Commission and in some cases were unprecedented. In late 2011 
and early 2012, China's beleaguered workers continued to strike 
and organize for higher wages and better working conditions in 
reportedly the most significant series of demonstrations since 
the summer of 2010. The Commission documented demonstrations in 
multiple industries taking place in at least 10 provincial-
level areas during that period. A tragic and unprecedented wave 
of self-immolations across the Tibetan plateau indicated a new 
level of frustration with the Communist Party and government's 
increasing cultural and religious repression. During the 
Commission's 2012 reporting year, 45 (39 reported fatal) 
Tibetan self-immolations focused on political and religious 
issues reportedly took place, out of a total of 50 since 
February 2009. Mongols in the Inner Mongolia Autonomous Region 
held a series of protests in April, June, and July over the 
confiscation of grassland for government and private 
development projects. Demonstrators took to the streets in 
large numbers to protest against land seizures, pollution, and 
large-scale energy projects. From July until September, tens of 
thousands of Hong Kong residents protested a controversial 
Beijing-backed national education policy forcing a dramatic 
retreat by Hong Kong's Chief Executive C Y Leung. The number of 
mass incidents in China has reportedly doubled since 2005.
    Chinese citizens' desire for the free flow of information 
and an unfettered channel for expressing grievances and 
questioning government policies continued to have a powerful 
presence on the Internet. The number of Internet users in China 
continued to rise rapidly, reaching 538 million in June 2012. 
By April 2012, there were reportedly more than one billion 
mobile phone accounts in China. While some major events either 
went unreported or faced heavy censorship in the state-
controlled media, citizens flocked to the Internet, 
particularly China's popular microblog services, in a bid to 
freely share and gain information about important issues of 
public concern. These included the scandal involving ousted 
Political Bureau member and Chongqing Party Secretary Bo Xilai 
and massive flooding in Beijing in July. After graphic photos 
were widely disseminated on the Internet, citizens across China 
expressed outrage at the case of Feng Jianmei, a woman 
kidnapped and forced by local officials to undergo an abortion, 
unmasking the workings of China's repressive population 
planning policy. Democracy advocates such as Chen Wei and Chen 
Xi received harsh sentences for sharing their views online.
    Chinese citizens also sought to engage with and strengthen 
China's weak political and legal institutions. Officials 
continued to wield heavy control over local people's congress 
elections, but that did not prevent large numbers of 
independent candidates from attempting to run in this past 
year's elections held across the country. Not surprisingly, 
many of these candidates faced intense pressure and harassment, 
and many were winnowed out before the actual elections took 
place. Concerned citizens continued to make information 
requests under China's open government information laws, in 
hopes of increasing the transparency of China's opaque 
institutions. As government officials considered amending some 
of the country's major laws and regulations, citizens sought to 
make known their views about the proposed legislation. They 
supported, for example, amendments to the PRC Criminal 
Procedure Law that would better protect the rights of the 
accused.
    The Chinese government and Communist Party failed to keep 
pace with citizens' rising demands. In many areas, officials 
responded with half-measures that did not fully address citizen 
concerns and in some cases increased the government's capacity 
for abuse. On the much-discussed PRC Criminal Procedure Law, 
the government passed major amendments in March that, while 
including some improvements, legalized forms of secret 
detention that put Chinese citizens at risk of torture and 
abuse and have been used against dissidents in the past. 
Beginning in January, government officials in some areas 
expanded environmental transparency to a limited degree by 
making public information on fine particulate pollution 
(PM2.5), but also were poised to erect barriers to independent 
monitoring of the environment. In February, officials issued a 
circular outlining policies intended to reform China's hukou 
system, which limits the rights of Chinese citizens to freely 
determine their permanent place of residence. Chinese scholars 
and media criticized the vague nature and limited scope of the 
proposed policies. The government continued to expand access to 
the Internet, but passed measures aimed at stemming ``rumors'' 
and preventing anonymity that could have a chilling effect on 
free expression. The government signaled a desire for 
government-approved religious groups to participate in some 
areas of civil society, but religious affairs bureaus became 
more intrusive. Repression against unsanctioned religious 
groups, including house churches and Falun Gong, continued, and 
relations with the Holy See deteriorated. Authorities continued 
to imprison, detain, and fine Uyghur Muslims for engaging in 
``illegal religious activities.''
    In other areas, reform and forward movement have simply 
stalled. On the issue of the International Covenant on Civil 
and Political Rights (ICCPR), which Chinese officials have 
expressed an intent to ratify for a number of years, the 
government's position remained unchanged. In its 2012-2015 
National Human Rights Action Plan, released in June, the 
government said it had carried out unspecified ``administrative 
and judicial reforms'' to prepare for approval of the ICCPR at 
an unspecified future date--an even vaguer formulation of a 
similar claim made in the government's 2009-2010 action plan. 
Equally troubling, the 2012-2015 action plan removed language 
appearing in the 2009-2010 action plan that referred to the 
ICCPR and the Universal Declaration of Human Rights as 
``fundamental principles'' on which the plan was created. In 
the area of civil society, the government continued to delay 
amendments to national regulations that would remove obstacles 
to the registration of civil society organizations, preferring 
piecemeal experimentation at the local level. Resumption of 
dialogue with representatives of the Dalai Lama did not occur, 
extending the longest break from dialogue since talks resumed 
in 2002.
    Meanwhile, egregious human rights abuses continued along 
with attempts to increase official capacity for repression. The 
government persisted in detaining and repatriating North Korean 
refugees to the Democratic People's Republic of Korea (DPRK), 
despite the severe punishments refugees face once returned. 
Arbitrary detention of activists remained commonplace as 
authorities handed down harsh sentences for political writings, 
pro-democracy activity, and petitioning. In the case of 
prominent human rights lawyer Gao Zhisheng, who had been 
missing for years, Chinese officials claimed he violated the 
conditions of his parole less than a week before his five-year 
suspended sentence was set to expire, meaning he would have to 
serve out his original three-year sentence.
    In the face of protests in ethnic minority areas of China, 
including Tibetan autonomous areas and Xinjiang, authorities 
continued to respond with policies that can only be expected to 
further trample on the protection of language, culture, and 
religion, as well as impede prospects for local autonomous 
governance that the Chinese Constitution and law are supposed 
to protect. Officials in Xinjiang expanded the implementation 
of the ``bilingual education'' policy, which promotes the use 
of Mandarin in education at the expense of Uyghur and other 
``ethnic minority'' languages. In Qinghai province, Tibetan 
students protested the attempted substitution of Tibetan-
language textbooks with Chinese-language textbooks. In a sign 
that the government and Party may be considering even more 
counterproductive policies, Zhu Weiqun, the Executive Deputy 
Head of the Party's United Front Work Department and an 
influential voice on ethnic minority affairs, wrote an article 
in February 2012 supporting greater ethnic assimilation, a 
policy change that almost certainly would further undercut 
protection of ethnic minorities' languages, cultures, and 
religions. A campaign to eliminate Falun Gong and ``transform'' 
its practitioners entered its third year. In the name of 
``social management,'' the Party and government expanded their 
reach into society, enhancing surveillance and monitoring of 
not only democracy and rights advocates but also the citizenry 
at large.
    The Commission observed potential bright spots this past 
year. Officially reported deaths from mining accidents have 
reportedly decreased, and the Chinese government issued 
measures that reward workers who report occupational safety 
hazards and coverups of accidents in the workplace. The newly 
revised PRC Criminal Procedure Law now provides for expanded 
access to legal defense, recorded interrogations, longer trial 
deliberations, mandatory appellate hearings, and more rigorous 
judicial review. Officials continued to increase funding for 
legal aid and expand access to this important service. The 
draft of the country's first national mental health law, 
currently being reviewed by the National People's Congress 
Standing Committee, contains provisions that could constrain 
officials from abusing psychiatric detention, although it fails 
to mandate independent reviews of an initial diagnosis and 
lacks safeguards such as time limits on involuntary commitment. 
Rhetorically, Chinese officials continued to offer promising 
pledges, such as abolishing organ harvesting from death-row 
prisoners and not discriminating against political and human 
rights groups wishing to register for legal status. As he has 
been in the past, Premier Wen Jiabao continued to be a lone 
voice at the top willing to state publicly his support for 
political reform, albeit within one-party rule, and curbing the 
power of the Party and government. These encouraging statements 
and legal and policy developments appeared modest at best, 
however, either because they were not backed by concrete plans 
for implementation or because they failed to address the root 
of the problem: Chinese citizens' continuing lack of the 
fundamental rights to which they are entitled under both 
Chinese and international law.
    The Commission continued to observe divergent voices within 
the Chinese government, including support for some reforms. In 
February 2012, the Development Research Center of the State 
Council and the World Bank issued ``China 2030: Building a 
Modern, Harmonious, and Creative High-Income Society.'' While 
acknowledging China's economic successes over the past 30 
years, the report said that China had ``reached another turning 
point in its development path, one that calls for a second 
strategic, and no less fundamental, shift.'' The report called 
for reforming China's state-owned sector, which is an important 
source of trade conflicts. It called for allowing Chinese 
people greater freedom of movement by accelerating reforms of 
the hukou system. The report said greater public participation 
was needed to empower China's citizens to contribute to the 
country's development and raise standards of living. ``The 
government should respond proactively to these needs and grant 
rights to individuals, households, enterprises, communities, 
academia, and other non-governmental organizations through 
clear rules that encourage broad participation,'' the report 
said. Finally, the report argued forcefully for strengthening 
the rule of law in China. According to the report, China ``will 
need to transform itself into a lean, clean, transparent, and 
highly efficient modern government that operates under the rule 
of law.'' The report underscored the strong relationship 
between the human rights and rule of law issues monitored by 
the Commission and China's long-term economic stability.
    The Commission's legislative mandate tasks the Commission 
with monitoring China's compliance with human rights, 
particularly those contained in the International Covenant on 
Civil and Political Rights and in the Universal Declaration of 
Human Rights, as well as monitoring the development of the rule 
of law in China. As part of its mandate, the Commission issues 
an annual report every October, covering the preceding 12-month 
period and including recommendations for U.S. legislative or 
executive action. What follows are the Commission's main 
recommendations to Members of the U.S. Congress and 
Administration officials, followed by more specific findings 
and recommendations for each of the 19 issue areas covered in 
this report.

                          Main Recommendations

        <bullet> International Law and Fundamental Freedoms. 
        Members of the U.S. Congress and Administration 
        officials should urge Chinese officials to ratify and 
        implement in law the International Covenant on Civil 
        and Political Rights (ICCPR) immediately. China signed 
        the ICCPR in 1998 and has repeatedly pledged to ratify 
        it. The ICCPR is an important basis for the many 
        freedoms Chinese officials continue to systematically 
        deny citizens, as documented in this report, including 
        the freedoms of expression, religion, association, and 
        movement. Workers cannot form independent trade unions. 
        Religious worshippers of all faiths--including 
        Buddhists, Catholics, Falun Gong practitioners, 
        Muslims, Protestants, and Taoists--and civil society 
        groups cannot freely associate and are subject to heavy 
        government oversight. China's more than half a billion 
        Internet users cannot freely share information on the 
        Internet, and China's press remains heavily censored. 
        Dissidents cannot freely travel.
        <bullet> Political Prisoners and Rights Advocates. 
        Members of the U.S. Congress and Administration 
        officials should urge Chinese officials to immediately 
        release and cease the harassment and abuse of Chinese 
        citizens who have exercised internationally recognized 
        human rights, including Nobel Peace Prize winner and 
        imprisoned political activist Liu Xiaobo; housing 
        rights advocate and lawyer Ni Yulan; human rights 
        lawyer Gao Zhisheng; Tibetan nomad Ronggye Adrag; 
        Catholic bishop Su Zhimin; Uyghur journalist Gheyret 
        Niyaz; democracy advocate Chen Wei; elections expert 
        Yao Lifa; well-known artist and rights advocate Ai 
        Weiwei; and others named in this report.
        <bullet> Rule of Law. Members of the U.S. Congress and 
        Administration officials should urge Chinese officials 
        to strengthen the rule of law in all areas. Officials 
        should be encouraged to consider the recommendations of 
        the China 2030 report, including the creation of a 
        ``highly efficient modern government that operates 
        under the rule of law.'' In order to reach this point, 
        officials should be urged to end unfair trading 
        practices, such as currency manipulation, industrial 
        policies, and the use of quotas and subsidies, and to 
        ensure that China fully complies with its commitments 
        as a member of the World Trade Organization. Chinese 
        officials should be encouraged to dismantle incentives 
        that encourage rule of law violations, such as quotas 
        and rewards that encourage local officials to commit 
        forced abortions and sterilizations. Officials should 
        also be encouraged to ensure the independence of the 
        judiciary by removing the influence of the Communist 
        Party. As the case of Chen Guangcheng is emblematic of 
        rule of law challenges in China, officials should be 
        encouraged to fulfill the commitment to investigate 
        abuses committed against Chen and his family and seek 
        just punishment under China's laws. Only by improving 
        the rule of law in all areas, not just in the economic 
        sphere, can China realize the economic development 
        goals laid out in the China 2030 report.
        <bullet> Ethnic Minority Policy. Developments in the 
        area of ethnic minority policy appear especially 
        troubling, given the unprecedented and ongoing wave of 
        self-immolations occurring across the Tibetan plateau. 
        Members of the U.S. Congress and Administration 
        officials should urge Chinese officials to guarantee 
        the fundamental rights of ethnic minorities and to 
        increase promptly and substantially dialogue and public 
        engagement with all ethnic minority communities and 
        their representatives, including the representatives of 
        the Dalai Lama, without preconditions.
        <bullet> Transparency. This report found that across 
        many issue areas, a common problem has been the Chinese 
        government's glaring lack of transparency. From the 
        carrying out of Internet censorship to the release of 
        environmental pollution data, Chinese officials too 
        often prefer secrecy over transparency. Chinese 
        officials should be urged to ensure that government and 
        Party actions and information--including decisionmaking 
        and judicial processes, government data and statistics, 
        opinions, and directives--enjoy broad transparency and 
        are open to public input and public participation. In 
        particular, the government should encourage the use of 
        the 2008 Open Government Information Regulations by 
        Chinese citizens and provide greater incentives for 
        government agencies to release information.

    The Commission's Executive Branch members have participated 
in and supported the work of the Commission. The content of 
this Annual Report, including its findings, views, and 
recommendations, does not necessarily reflect the views of 
individual Executive Branch members or the policies of the 
Administration.

The Commission adopted this report by a vote of 19 to 
0.<dagger>

                 Specific Findings and Recommendations

    A summary of specific findings follows below for each 
section of this Annual Report, covering each area that the 
Commission monitors. In each area, the Commission has 
identified a set of issues that merit attention over the next 
year, and, in accordance with the Commission's legislative 
mandate, submits for each a set of recommendations to the 
President and the Congress for legislative or executive action.

                         Freedom of Expression

                                Findings

        <bullet> During the Commission's 2012 reporting year, 
        Chinese officials continued to maintain a broad range 
        of restrictions on free expression that do not comply 
        with international human rights standards, including 
        Article 19 of the International Covenant on Civil and 
        Political Rights and Articles 19 and 29 of the 
        Universal Declaration of Human Rights. While such 
        standards permit states to restrict expression in 
        limited circumstances to protect interests such as 
        national security and public order, Chinese 
        restrictions covered a much broader range of activity, 
        including peaceful dissent and expression critical of 
        the Communist Party.
        <bullet> According to the China Internet Network 
        Information Center, the administrative agency 
        responsible for Internet affairs, there were over 538 
        million Internet users in China by the end of June 
        2012--an increase of 53 million users over the previous 
        year. The Chinese government has pledged to expand 
        access to mobile technologies and the Internet to 
        promote economic development and to expand government 
        propaganda.
        <bullet> During the reporting year, China's Twitter-
        like microblogging (weibo) sites continued strong 
        growth and continued to develop as prominent places for 
        Internet users to voice discontent over controversial 
        topics, organize collective actions, and circulate 
        independent news reports. China's microblogging sites--
        including China's most popular microblog site, Sina 
        Weibo--experienced dramatic growth with 250 million 
        registered accounts at the end of 2011, compared with 
        63 million at the end of 2010.
        <bullet> While international and domestic observers 
        continued to note the vibrancy of Internet and cell 
        phone use in China, government and Party officials 
        showed little sign of loosening political control. This 
        past year, Chinese authorities continued attempts to 
        block and filter content deemed politically sensitive 
        by implementing large-scale deletions, instituting 
        real-name registration requirements, forcing Web site 
        closures, implementing censorship directives, and 
        carrying out detentions.
        <bullet> Officials continued to restrict expression 
        arbitrarily by abusing vague criminal law provisions 
        and broad regulations and registration requirements 
        applicable to journalists, publishers, news media, and 
        the Internet. Citizens who criticized the government 
        were charged with national security crimes such as 
        ``inciting subversion.'' Official campaigns to train 
        and supervise journalists conducted in the name of 
        combating corruption continued to be heavily imbued 
        with political indoctrination.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:


        <all> Raise concerns over and draw enhanced 
        international attention to the Chinese government's 
        continued insistence that its restrictions on freedom 
        of expression are consistent with international 
        standards. Chinese officials assert that such measures 
        are taken to protect national security or public order, 
        while available information indicates that many 
        measures are aimed at silencing opposition to the Party 
        or blocking the free flow of information on politically 
        sensitive topics.
        <all> Emphasize that the Chinese government's position 
        undermines international human rights standards for 
        free expression, particularly those contained in 
        Article 19 of the International Covenant on Civil and 
        Political Rights and Articles 19 and 29 of the 
        Universal Declaration of Human Rights.
        <all> Emphasize to Chinese officials that Communist 
        Party and government censorship of the Internet and the 
        press can lead to instability by eroding public faith 
        in the media and government.
        <all> Engage in dialogue and exchanges with Chinese 
        officials on the issue of how governments can best 
        ensure that restrictions on freedom of expression are 
        not abused and do not exceed the scope necessary to 
        protect national security, minors, and public order. 
        Emphasize the importance of procedural protections such 
        as public participation in formulation of restrictions 
        on free expression, transparency regarding 
        implementation of such restrictions, and independent 
        review of such restrictions.
        <all> Highlight Chinese officials' own calls for 
        greater transparency and public participation in 
        lawmaking. Such discussions may be part of a broader 
        discussion on how the U.S. and Chinese governments can 
        work together to ensure the protection of common 
        interests on the Internet, including protecting minors, 
        computer security, and privacy.
        <all> Acknowledge the Chinese government's efforts to 
        expand access to the Internet and cell phones, 
        especially in rural areas, while continuing to press 
        officials to comply with international standards. 
        Support the research and development of technologies 
        that enable Chinese citizens to access and share 
        political and religious content that they are entitled 
        to access and share under international human rights 
        standards. Support practices and Chinese-language tools 
        and training materials that enable Chinese citizens to 
        access and share content in a way that ensures their 
        security and privacy. Support the dissemination of 
        online Chinese-language information on the Internet, 
        especially popular Chinese social media sites, that 
        discusses the rights and freedoms to which Chinese 
        citizens are entitled under international standards.
        <all> Raise concerns regarding Chinese officials' 
        instrumental use of the law, including vague national 
        security charges, as a tool to suppress citizens' 
        rights to freedom of expression, and question whether 
        such actions are in keeping with the spirit of the 
        ``rule of law.''
        <all> Elevate concern over the increased harassment of 
        foreign journalists, who this past year have been 
        beaten or expelled. Raise concerns over reports that 
        authorities repeatedly have delayed or denied the 
        approval of journalists' visa applications.

                             Worker Rights

                                Findings

        <bullet> Workers in China are not guaranteed, either by 
        law or in practice, full worker rights in accordance 
        with international standards, including the right to 
        organize into independent unions. The All-China 
        Federation of Trade Unions (ACFTU), the official union 
        under the direction of the Communist Party, is the only 
        legal trade union organization in China. All lower 
        level unions must be affiliated with the ACFTU.
        <bullet> Tasked with Party and government loyalty, 
        local-level unions did not consistently or uniformly 
        advance the rights of workers. ACFTU branches 
        reportedly continued to prioritize ``harmony'' and 
        ``stability'' in labor relations even at the expense of 
        workers' rights. In some cases this past year, union 
        representatives sought to end disputes expediently 
        without necessarily addressing workers' grievances.
        <bullet> Concerned with the effect of worker actions on 
        ``harmony'' and ``stability,'' officials in some cases 
        used force against or detained demonstrating workers 
        while seeking to stop worker demonstrations. For 
        example, in October 2011, officials in Shaoyang 
        municipality, Hunan province, ordered coal worker Zhao 
        Zuying to serve 10 days of administrative detention 
        after Zhao and 18 other coal workers gathered in a 
        public square in Shaoshan and expressed labor-related 
        grievances. The Commission documented cases in which 
        officials used force against demonstrating workers in 
        Dongguan city, Guangdong province; Shanghai 
        municipality; Huzhou municipality, Zhejiang province; 
        and Chengdu city, Sichuan province.
        <bullet> In January 2012, the Provisions on 
        Consultation and Mediation for Enterprise Labor 
        Disputes (Provisions) took effect, requiring all medium 
        and large enterprises to establish committees 
        responsible for mediating disputes in the workplace. 
        The Provisions stipulate some limited protections for 
        worker rights but fail to address the fact that workers 
        in China are not guaranteed the right to organize into 
        independent unions, leaving the government, Communist 
        Party, and employers with greater bargaining power in 
        the process of dispute resolution.
        <bullet> Migrant workers remained particularly 
        vulnerable to exploitation in the workplace. This past 
        year, migrant workers continued to face problems such 
        as wage arrears, ineffective means of redress for 
        grievances, and abuse from managers. As China faced a 
        growing migrant worker population, an increasing 
        urbanization rate, and a new generation of young, more 
        educated, rights-conscious migrant workers, some local 
        governments took steps to accommodate migrant workers 
        seeking to integrate into urban areas.
        <bullet> In early 2012, Apple Inc. and Foxconn agreed 
        to a set of measures designed to improve working 
        conditions at Foxconn factories, including bringing 
        working hours into full compliance with Chinese law by 
        July 1, 2013. Some observers have argued that these 
        measures, if implemented as described, could create 
        incentives for other employers in China to improve 
        conditions for workers. It is too early to assess the 
        effects of the proposed measures, but Hong Kong-based 
        non-governmental organization Students and Scholars 
        Against Corporate Misbehavior reported ongoing problems 
        with working conditions at Foxconn factories in May 
        2012.
        <bullet> Chinese workers, especially those in the coal 
        mining sector, continued to face persistent 
        occupational safety and health risks. Fatalities have 
        been consistently reduced over the past few years, but 
        officially reported cases of disease in the mining 
        sector have increased during the same period. There 
        were reports that some mine managers and local 
        officials attempted to conceal information about mine 
        accidents. In May 2012, the State Administration of 
        Work Safety and the Ministry of Finance issued the 
        Measures on Rewards for Safe Production Reporting, 
        which stipulate cash rewards and protection under the 
        law for whistleblowers who report occupational safety 
        hazards. In December 2011, an amendment to the PRC Law 
        on Prevention and Control of Occupational Diseases (PRC 
        Occupational Disease Law) took effect. The amended PRC 
        Occupational Disease Law contains provisions that could 
        help workers obtain the certification they need in 
        order to receive compensation for work-related 
        diseases, but workers continued to face obstacles to 
        obtaining compensation. Such obstacles included 
        difficulty obtaining a diagnosis and proving a working 
        relationship with their employer, steps that are 
        required for the certification process.
        <bullet> It is unclear how widespread the use of child 
        labor is in China, in part because the government does 
        not release data on child labor despite frequent 
        requests by the U.S. Government, other countries' 
        governments, and international organizations. While a 
        national legal framework exists to address the issue, 
        systemic problems in enforcement have weakened the 
        effects of these legal measures. Reports of child labor 
        continued to surface this past reporting year. For 
        example, in February 2012, Suzhou authorities 
        reportedly found over 10 child workers at an 
        electronics factory in Suzhou.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:


        <all> Support projects promoting reform of Chinese 
        labor laws and regulations to reflect internationally 
        recognized labor principles. Prioritize projects that 
        not only focus on legislative drafting and regulatory 
        development but also analyze implementation and measure 
        progress in terms of compliance with internationally 
        recognized labor principles at the shop-floor level.
        <all> Engage in dialogue with government officials, 
        workers, and trade union officials in locations that 
        have experienced successful cases of collective 
        bargaining; identify ways to increase awareness of 
        those experiences; and convey those experiences to 
        officials and trade unions in areas that have had less 
        success with collective bargaining. Where possible, 
        prioritize programs that demonstrate the ability to 
        conduct collective bargaining pilot projects even in 
        factories that do not have an official union presence.
        <all> Convey support for direct elections of trade 
        union representatives. Engage in dialogue with 
        government and local trade union officials to identify 
        opportunities to increase awareness of successful 
        experiences with direct elections of trade union 
        representatives.
        <all> Encourage the expansion of exchanges between U.S. 
        collective bargaining practitioners and Chinese labor 
        rights advocates in non-governmental organizations, the 
        bar, academia, and the official trade union. Prioritize 
        exchanges that emphasize face-to-face meetings with 
        hands-on practitioners and trainers.
        <all> Encourage research that identifies factors 
        underlying inconsistency in enforcement of labor laws 
        and regulations. Such research could include the 
        compilation and analysis of Chinese labor dispute 
        litigation and arbitration cases and guidance documents 
        issued by, and to, courts at the provincial level and 
        below, leading to the publication of Chinese-language 
        casebooks for use by workers, arbitrators, judges, 
        lawyers, employers, union officials, and law schools in 
        China.
        <all> Support capacity-building programs to strengthen 
        Chinese labor and legal aid organizations involved in 
        defending the rights of workers. Encourage Chinese 
        officials at local levels to develop, maintain, and 
        deepen relationships with labor organizations inside 
        and outside of China, and to invite these groups to 
        increase the number of training programs in China. 
        Support programs that train workers in ways to identify 
        problems at the factory-floor level, equipping them 
        with skills and problem-solving training so they can 
        communicate their concerns to employers effectively.
        <all> Where appropriate, share the United States' 
        ongoing experience and efforts in protecting worker 
        rights--through legal, regulatory, or non-governmental 
        means--with Chinese officials. Expand site visits and 
        other exchanges for Chinese officials to observe and 
        share ideas with U.S. labor rights groups, lawyers, the 
        U.S. Department of Labor (USDOL), and other regulatory 
        agencies at all levels of U.S. Government that work on 
        labor issues.
        <all> Support USDOL's exchange with China's Ministry of 
        Human Resources and Social Security (MOHRSS) regarding 
        setting and enforcing minimum wage standards; 
        strengthening social insurance; improving employment 
        statistics; and promoting social dialogue and exchanges 
        with China's State Administration of Work Safety (SAWS) 
        regarding improving workplace safety and health. 
        Support the annual labor dialogue with China that USDOL 
        started in 2010 and its plan for the establishment of a 
        safety dialogue. Support USDOL's technical cooperation 
        program with SAWS on workplace safety and health and 
        the expansion of mining cooperation into broad 
        occupational safety and health areas. Support pilot 
        projects that establish public-private partnerships to 
        address workplace safety and health concerns.

                            Criminal Justice

                                Findings

        <bullet> During the Commission's 2012 reporting year, 
        Chinese government officials promised to strike a 
        balance between crime control and the protection of 
        individual rights. In March, the National People's 
        Congress reviewed and passed its first major overhaul 
        of the PRC Criminal Procedure Law (CPL) since 1996. In 
        June 2012, the State Council Information Office 
        released a new National Human Rights Action Plan for 
        the period from 2012 to 2015. These reforms appear to 
        contain some encouraging policy goals for the fair and 
        lawful treatment of criminal suspects and defendants.
        <bullet> Actions taken by law enforcement authorities 
        in the exercise of their police powers threaten to 
        undermine recent reforms and reflect a continuing focus 
        on ``maintaining social stability'' and the Party's 
        monopoly control above all else. The 2012 reporting 
        year saw further expansion of local authority without 
        requisite accountability, culminating in the fall of 
        former Politburo member and former Communist Party 
        Secretary of Chongqing municipality, Bo Xilai. Bo 
        authorized an allegedly lawless campaign against 
        organized crime in Chongqing, which a group of 16 
        retired Party officials condemned as a ``guise'' for 
        the torture and persecution of critics and rights 
        defenders.
        <bullet> Chinese officials continue to harass and 
        intimidate writers, artists, Internet bloggers, 
        lawyers, reform advocates, and ordinary citizens who 
        advocate for their rights or the rights of others. 
        These individuals are subjected to various forms of 
        extralegal detention, including enforced 
        disappearances, confinement in ``black jails,'' and 
        commitment to psychiatric hospitals in the absence of 
        compelling medical need. Article 73, a new provision in 
        the revised CPL, lends itself to manipulation and 
        effectively legalizes such actions by law enforcement 
        authorities.
        <bullet> Chinese defendants continue to confront 
        obstacles in presenting an adequate defense. While the 
        revised CPL has the potential to improve access to 
        counsel for many individuals in detention, barriers 
        still exist for those suspected of ``endangering state 
        security'' and other politically sensitive crimes. In 
        addition, Article 306 of the PRC Criminal Law, which 
        imposes criminal liability on lawyers who force or 
        induce a witness to change his or her testimony or 
        falsify evidence, continues to hinder effective 
        criminal defense.
        <bullet> A double standard appears to exist for citizen 
        activists who peacefully advocate for their lawful 
        rights, as opposed to other citizens accused of 
        criminal behavior. Recent reforms promise protections 
        for the latter while legalizing the repression and 
        abuse of the former. The rights to which citizen 
        activists are entitled under such a system fall short 
        of those guaranteed under the Universal Declaration of 
        Human Rights and the International Covenant on Civil 
        and Political Rights, as well as under the CPL and 
        China's Constitution.
        <bullet> There were a number of positive developments 
        during the 2012 reporting year. A spate of unnatural 
        deaths of individuals in custody helped prompt new 
        regulations that prohibit the humiliation, corporal 
        punishment, or abuse of those in detention, prison, and 
        reeducation through labor. Criminal liability is now 
        prescribed in certain instances. In addition, the 
        Chinese government has taken steps toward increasing 
        transparency and improving standards of review for 
        sentencing decisions, including in death penalty cases. 
        It continues to keep information about executions a 
        state secret, however, and has disclosed that the 
        harvesting of organs from death-row prisoners provides 
        up to two-thirds of China's limited supply of livers, 
        kidneys, hearts, lungs, and corneas for 
        transplantation.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

        <all> Call on the Chinese government to guarantee the 
        rights of criminal suspects and defendants in 
        accordance with international human rights standards 
        and to provide the international community with a 
        specific timetable for ratification of the 
        International Covenant on Civil and Political Rights, 
        which the Chinese government signed in 1998 but has not 
        yet ratified.
        <all> Make clear that the international community 
        regards as laudable the commitments to fair trial 
        rights and detainee rights that the Chinese government 
        has made in the 2012-2015 National Human Rights Action 
        Plan. Request information on the formalization of those 
        commitments into laws and regulations and on what 
        further steps authorities will take to ensure their 
        successful implementation. Support bilateral and 
        multilateral cooperation and dialogue to support such 
        efforts.
        <all> Encourage the Chinese government to fulfill the 
        promises that it has made through the revised CPL and 
        to eliminate the dual track that provisions such as 
        Article 73 create for citizen activists and all other 
        citizens. Press the Chinese government to immediately 
        release advocates who are in prison or detention for 
        the exercise of their lawful rights and to adhere to 
        fair trial standards and ensure procedural protections 
        in cases that involve easily abused concepts such as 
        ``endangering state security.''
        <all> Press the Chinese government to adopt the 
        recommendation of the UN Committee against Torture to 
        investigate and disclose the existence of ``black 
        jails'' and other secret detention facilities as a 
        first step toward abolishing such forms of extralegal 
        detention. Ask the Chinese government to extend an 
        invitation to the UN Working Group on Arbitrary 
        Detention to visit China.
        <all> Support the establishment of exchanges between 
        Chinese provincial law enforcement agencies and U.S. 
        state law enforcement agencies to study policing, 
        evidence collection, inmate rights, and other criminal 
        justice reforms currently underway in China.

                          Freedom of Religion

                                Findings

        <bullet> The Chinese government continued in the past 
        reporting year to restrict Chinese citizens' freedom of 
        religion. China's Constitution guarantees ``freedom of 
        religious belief'' but limits protections for religious 
        practice to ``normal religious activities,'' a term 
        applied in a manner that contravenes international 
        human rights protections for freedom of religion. The 
        government continued to recognize only five religions--
        Buddhism, Catholicism, Islam, Protestantism, and 
        Taoism--and required groups belonging to these 
        religions to register with the government. Registered 
        groups received some legal protection for their 
        religious activities but remained subject to ongoing 
        state controls. Members of both unregistered and 
        registered groups deemed to run afoul of state-set 
        parameters for religion faced risk of harassment, 
        detention, and other abuses. Some unregistered groups 
        had space to practice their religions, but this limited 
        tolerance did not amount to official recognition of 
        these groups' rights. Authorities also shut down the 
        activities of some unregistered groups and maintained 
        bans on other religious or spiritual communities, 
        including Falun Gong. [For separate findings and 
        recommendations relating to freedom of religion in 
        Xinjiang and Tibet, see those sections.]
        <bullet> The government continued to use law to control 
        religious practice in China rather than protect the 
        religious freedom of all Chinese citizens, continuing 
        efforts in the past reporting year to revise or pass 
        new legal measures. Newly issued legal measures, like 
        others passed in recent years, build on provisions 
        contained in the 2005 Regulation on Religious Affairs 
        (RRA). Recent legal measures have added uniformity to 
        existing provisions in the RRA but also have enhanced 
        already tight controls.
        <bullet> Authorities continued to ensure that Buddhist 
        doctrines and practices conformed to Party and 
        government objectives.
        <bullet> Authorities continued to deny Catholics the 
        freedom to recognize the authority of the Holy See in 
        matters relating to the practice of their faith, 
        including selecting Chinese bishops. Authorities 
        continued to harass, detain, and place under 
        surveillance some unregistered priests and bishops, as 
        well as forced some bishops to attend what the Holy See 
        considers illegitimate state-controlled church events 
        against their will.
        <bullet> Local governments across China continued to 
        prohibit Muslims from engaging in religious outreach 
        and preaching activities independent of state-set 
        parameters.
        <bullet> The continued harassment and detention of 
        Protestants, pressure on landlords to refuse to rent 
        premises to house church congregations, information 
        gathering, and increased contact with unregistered 
        groups by officials of religious affairs bureaus all 
        indicate the resolve of authorities to pressure house 
        church groups to affiliate with the government-
        sponsored Three-Self Patriotic Movement.
        <bullet> Authorities maintained controls over Taoist 
        activities and urged that Taoism be ``modernized.''
        <bullet> Authorities are continuing and may extend the 
        three-year campaign to pressure Falun Gong 
        practitioners to renounce their belief in and practice 
        of Falun Gong. This campaign is part of a broader 
        campaign--lasting more than a decade--that has been 
        extensive, systematic, and in some cases violent.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

        <all> Call on the Chinese government to guarantee to 
        all citizens freedom of religion in accordance with 
        Article 18 of the Universal Declaration of Human Rights 
        and to remove the government's framework for 
        recognizing only select religious communities for 
        limited state protections. Stress to Chinese 
        authorities that freedom of religion includes the right 
        to practice a religion, as well as the right to hold 
        religious beliefs, and that China's limited protections 
        for ``normal religious activities'' do not meet 
        protections for freedom of religion as defined by 
        international human rights standards. Call on officials 
        to integrate steps to protect freedom of religion into 
        initiatives to improve human rights in China. Stress to 
        the Chinese government that the right to freedom of 
        religion includes: The right of Buddhists to carry out 
        activities in temples independent of state controls 
        over religion, and the right of Tibetan Buddhists to 
        express openly their respect or devotion to Tibetan 
        Buddhist teachers, including the Dalai Lama; the right 
        of Catholics to recognize the authority of the Holy See 
        in matters relating to the practice of their faith, 
        including to make bishop appointments; the right of 
        Falun Gong practitioners to freely practice Falun Gong 
        inside China; the right of Muslims to engage in 
        religious outreach and preaching activities independent 
        of state-set parameters and not face curbs on their 
        internationally protected right to freedom of religion 
        in the name of ``upholding stability''; the right of 
        Protestants to worship free from state controls over 
        doctrine and to worship in unregistered house churches, 
        free from harassment, detention, and other abuses; and 
        the right of Taoists to interpret their teachings free 
        from government guidance.
        <all> Call for the release of Chinese citizens 
        confined, detained, or imprisoned in retaliation for 
        pursuing their right to freedom of religion (including 
        the right to hold and exercise spiritual beliefs). Such 
        prisoners include: Sonam Lhatso (a Tibetan Buddhist nun 
        sentenced in 2009 to 10 years' imprisonment after she 
        and other nuns staged a protest calling for Tibetan 
        independence and the Dalai Lama's long life and return 
        to Tibet); Su Zhimin (an unregistered Catholic bishop 
        who disappeared after being taken into police custody 
        in 1996); Wang Zhiwen (a Falun Gong practitioner 
        serving a 16-year sentence for organizing peaceful 
        protests by Falun Gong practitioners in 1999); Nurtay 
        Memet (a Muslim man sentenced to five years' 
        imprisonment for a ``superstition''-related activity 
        connected to his religion); Fan Yafeng (a legal 
        scholar, religious freedom advocate, and house church 
        leader kept under home confinement since November 2010 
        in connection with his advocacy for unregistered 
        Protestant communities and coinciding with a broader 
        crackdown on rights advocates), as well as other 
        prisoners mentioned in this report and in the 
        Commission's Political Prisoner Database.
        <all> Call for authorities to freely allow Chinese 
        lawyers to represent religious citizens and to 
        challenge the legality of laws, regulations, rulings, 
        or actions by officials, police, prosecutors, and 
        courts that relate to religion.
        <all> Call for officials to eliminate criminal and 
        administrative penalties that target religions and 
        spiritual movements and have been used to punish 
        Chinese citizens for exercising their right to freedom 
        of religion. Specifically, call for officials to 
        eliminate Article 300 of the PRC Criminal Law (which 
        criminalizes using a ``cult'' to undermine 
        implementation of state laws) and Article 27 of the PRC 
        Public Security Administration Punishment Law (which 
        stipulates detention or fines for organizing or 
        inciting others to engage in ``cult'' activities and 
        for using ``cults'' or the ``guise of religion'' to 
        disturb social order or to harm others' health).
        <all> Promote legal exchanges that bring Chinese 
        experts to the United States, and American experts to 
        China, to increase knowledge of international human 
        rights standards for the protection of freedom of 
        religion, including the rights of religious citizens, 
        religious communities, and faith-based charities. 
        Support non-governmental organizations that collect 
        information on conditions for religious freedom in 
        China and that inform Chinese citizens how to defend 
        their right to freedom of religion against Chinese 
        government abuses. Support organizations that help 
        religious practitioners appeal prisoners' sentences and 
        orders to serve reeducation through labor stemming from 
        citizens' exercise of freedom of religion; challenge 
        government seizure of property; and challenge job 
        discrimination based on religion.

                         Ethnic Minority Rights

                                Findings

        <bullet> During the Commission's 2012 reporting year, 
        ethnic minorities in China continued to face unique 
        challenges in upholding their rights, as defined in 
        both Chinese and international law. The International 
        Covenant on Civil and Political Rights stipulates that 
        ethnic, religious, and linguistic minorities within a 
        state ``shall not be denied the right, in community 
        with the other members of their group, to enjoy their 
        own culture, to profess and practice their own 
        religion, or to use their own language.'' The PRC 
        Regional Ethnic Autonomy Law stipulates some 
        protections for minority rights and provides for a 
        system of regional autonomy in designated areas. Limits 
        in the substance and implementation of government 
        policies, however, prevented ethnic minorities from 
        fully enjoying their rights in line with international 
        standards and from exercising meaningful autonomy in 
        practice.
        <bullet> Government controls were harshest in areas 
        where authorities perceived the greatest threat to 
        their authority, including in the Tibet Autonomous 
        Region and other Tibetan autonomous areas, Xinjiang 
        Uyghur Autonomous Region, and Inner Mongolia Autonomous 
        Region. [See separate findings and recommendations on 
        Xinjiang and Tibet.] Government authorities continued 
        to detain or hold in extralegal detention ethnic 
        Mongols who attempted to promote their rights or were 
        perceived to challenge state power.
        <bullet> Leading Chinese officials and scholars stepped 
        up discussion of proposals to scale back ethnic 
        autonomy and promote assimilative policies in ethnic 
        minority areas. An article published in a Communist 
        Party publication, as well as commentary published on a 
        Web page hosted by the State Ethnic Affairs Commission, 
        featured discussion of a uniform application of 
        policies throughout China, and the abandonment of 
        policies specific to ethnic minorities.
        <bullet> The Chinese government continued to implement 
        top-down development policies that brought some 
        economic improvement but undercut the promotion of 
        regional autonomy and limited the rights of ethnic 
        minorities to maintain their unique cultures, 
        languages, and livelihoods. The government continued to 
        implement longstanding grasslands policies that impose 
        grazing bans and require herders to resettle from 
        grasslands and abandon pastoral livelihoods, a 
        development that affects Mongols, Tibetans, Kazakhs, 
        and other ethnic minority groups in China.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

        <all> Support rule of law programs and exchange 
        programs that raise awareness among Chinese leaders of 
        different models for governance that protect ethnic 
        minorities' rights and allow them to exercise 
        meaningful autonomy over their affairs, in line with 
        both Chinese law and international human rights 
        standards.
        <all> Support programs that promote models for economic 
        development in China that include participatory 
        decisionmaking from ethnic minority communities. Call 
        on the Chinese government to examine the efficacy of 
        existing grasslands policies in ameliorating 
        environmental degradation and to take steps to ensure 
        that the rights of herders are also protected.
        <all> Support non-governmental organizations that 
        address human rights conditions for ethnic minorities 
        in China, enabling them to continue their research and 
        develop programs to help ethnic minorities increase 
        their capacity to protect their rights. Encourage such 
        organizations to develop training programs on promoting 
        economic development that includes participatory 
        decisionmaking from ethnic minority communities; 
        programs to protect ethnic minority languages, 
        cultures, and livelihoods; and programs that document 
        conditions and research rights abuses in the Inner 
        Mongolia Autonomous Region, Xinjiang Uyghur Autonomous 
        Region, Tibet Autonomous Region, and other ethnic 
        minority areas.
        <all> Encourage human rights and rule of law programs 
        operating in China to develop projects that address 
        issues affecting ethnic minorities in China.
        <all> Call on the Chinese government to release people 
        detained, imprisoned, or otherwise held in custody for 
        advocating ethnic minority rights, including Mongol 
        rights advocate Hada (who remains in custody without 
        apparent legal basis despite the expiration of his 15-
        year sentence in December 2010) and other prisoners 
        mentioned in this report and in the Commission's 
        Political Prisoner Database.

                          Population Planning

                                Findings

        <bullet> Chinese government officials continued to 
        implement population planning policies that interfere 
        with and control the reproductive lives of citizens, 
        especially women. Officials employed various methods 
        including fines, withholding of state benefits and 
        permits, threats of eviction or home demolition, forced 
        sterilization, forced abortion, and arbitrary detention 
        to punish policy violations.
        <bullet> The Commission observed during the 2012 
        reporting year that local governments continued to 
        carry out population planning policies and measures 
        with a special focus on migrant workers.
        <bullet> The PRC Population and Family Planning Law is 
        not consistent with the standards set forth in the 1995 
        Beijing Declaration and the 1994 Programme of Action of 
        the Cairo International Conference on Population and 
        Development. Controls imposed on Chinese women and 
        their families, and additional abuses engendered by 
        China's population planning system, from forced 
        abortion to discriminatory policies against ``out-of-
        plan'' children, also violate standards in the 
        Convention on the Rights of the Child, and the 
        International Covenant on Economic, Social and Cultural 
        Rights. China is a state party to these treaties and is 
        bound to uphold their terms.
        <bullet> Chinese law prohibits official infringement 
        upon the rights and interests of citizens while 
        implementing population planning policies but does not 
        define what constitutes a citizen's right or interest. 
        Chinese law does not stipulate punishment for officials 
        who demand or implement forced abortion. Provincial 
        population planning regulations in at least 18 of 
        China's 31 provinces explicitly endorse mandatory 
        abortions, often referred to as a ``remedial measure'' 
        (bujiu cuoshi), as an official policy instrument.
        <bullet> Chinese officials have allowed for limited 
        relaxation of local population planning policies during 
        this reporting year, yet continue to rule out the near-
        term possibility of major nationwide population 
        planning policy reform or cancellation. Citizens have 
        increased calls this year for population policy reform.
        <bullet> The Chinese government's population planning 
        policies continue to exacerbate the country's 
        demographic challenges, which include an aging 
        population, diminishing workforce, and skewed sex 
        ratio.
        <bullet> Chen Guangcheng, a self-trained legal advocate 
        who has been the object of continued official 
        harassment and maltreatment after he publicized 
        population planning abuses in 2005, escaped from 
        illegal home confinement in April 2012 and left for the 
        United States with his family in May. Chen has 
        expressed frustration with the Chinese government's 
        failure to conduct an investigation into official 
        abuses against him and his family, and concern 
        regarding the continued harsh treatment of family 
        members who remain in Shandong.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

        <all> Urge Chinese government officials to cease 
        coercive methods of enforcing family planning policies. 
        Urge the Chinese government to dismantle coercive 
        population controls and employ a human rights-based 
        approach to provide greater reproductive freedom and 
        privacy for all citizens, especially women.
        <all> Urge Chinese officials to reevaluate the PRC 
        Population and Family Planning Law and bring it into 
        conformance with international standards set forth in 
        the 1995 Beijing Declaration and the 1994 Programme of 
        Action of the Cairo International Conference on 
        Population and Development, as well as the Convention 
        on the Rights of the Child and the International 
        Covenant on Economic, Social and Cultural Rights.
        <all> Urge China's central and local governments to 
        enforce vigorously provisions under Chinese law that 
        provide for punishments of officials and other 
        individuals who violate the rights of citizens when 
        implementing population planning policies and to 
        clearly define what these rights entail. Urge the 
        Chinese government to establish penalties, including 
        specific criminal and financial penalties, for 
        officials and individuals found to commit abuses such 
        as coercive abortion and coercive sterilization--
        practices that continue in China. Urge the Chinese 
        government to bar material, career, and financial 
        incentives and disincentives that motivate officials to 
        use coercive or unlawful practices in implementing 
        family planning policies.
        <all> Support the development of programs and 
        international cooperation on legal aid and training 
        that help citizens pursue compensation under the PRC 
        State Compensation Law and that help citizens pursue 
        other remedies against the government for injury 
        suffered as a result of official abuse related to 
        China's population planning policies.
        <all> Urge the Chinese government to discontinue all 
        forms of reprisal against those connected to Chen 
        Guangcheng and to thoroughly investigate the officially 
        sanctioned abuses he and his family have suffered.

                   Freedom of Residence and Movement

                                Findings

        <bullet> The Chinese government's household 
        registration (hukou) system continues to limit the 
        right of Chinese citizens to freely establish their 
        permanent place of residence and hinders access to 
        social services. Hukou regulations that condition legal 
        rights and access to social services on residency 
        status have resulted in discrimination against rural 
        hukou holders who migrate to urban areas for work. The 
        discriminatory effect of these regulations is 
        especially pronounced in the area of education.
        <bullet> Chinese authorities continued to relax some 
        hukou restrictions consistent with earlier efforts. The 
        key provisions of these reforms make it easier for some 
        rural hukou holders to transfer residency status to 
        urban areas, based on meeting certain criteria. Despite 
        these limited attempts to relax hukou criteria, most 
        reforms still exclude the majority of migrants.
        <bullet> The Chinese government introduced new 
        guidelines on hukou reform that reflect a gradual and 
        controlled approach to hukou reform. Some notable 
        reforms include prohibiting coercive requisition and 
        conversion of rural residents' land in exchange for 
        urban hukous and barring future policies that use hukou 
        status as a precondition for access to social services. 
        Chinese scholars and media outlets, however, have 
        criticized the lack of specifics and limitations of 
        these measures, leading some to question their eventual 
        effectiveness.
        <bullet> The Chinese government continued to impose 
        restrictions on freedom of movement that are 
        inconsistent with the Universal Declaration of Human 
        Rights and the International Covenant on Civil and 
        Political Rights. During the Commission's 2012 
        reporting year, Chinese authorities continued to 
        arbitrarily prevent rights defenders, advocates, and 
        critics from leaving China.
        <bullet> The Chinese government also continued to place 
        restrictions on liberty of movement within China to 
        punish and control rights defenders, advocates, and 
        critics. These restrictions, which appear to violate 
        international legal standards, were especially harsh 
        during politically sensitive periods. Authorities 
        employed a range of measures including stationing 
        plainclothes police or hired personnel to monitor the 
        homes of rights defenders, forcing rights advocates to 
        ``drink tea'' with security personnel, moving or 
        relocating rights defenders from their homes to unknown 
        locations, and imprisoning them.
        <bullet> Chinese authorities used particularly forceful 
        techniques to intimidate and control the family members 
        and supporters of human rights advocates during this 
        reporting period.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

        <all> Support programs, organizations, and exchanges 
        with Chinese policymakers and academic institutions 
        engaged in research and outreach to migrant workers in 
        order to advance legal assistance programs for migrant 
        workers and encourage policy debates on the hukou 
        system.
        <all> Encourage U.S. academic and public policy 
        institutions to consult with the Commission on avenues 
        for outreach to Chinese academic and public policy 
        figures engaged in policy debates on reform of the 
        hukou system.
        <all> Stress to Chinese government officials that non-
        compliance with international agreements regarding 
        freedom of movement negatively impacts confidence 
        outside of China that the Chinese government is 
        committed to complying with international standards 
        more generally.
        <all> Call on the Chinese government to revise the PRC 
        Exit and Entry Control Law and the PRC Passport Law to 
        clarify the meaning and scope of harm or loss to state 
        security or national interests under Article 12(5) and 
        Article 13(7), respectively.
        <all> Raise specifically Chinese authorities' 
        restriction on liberty of movement of rights defenders, 
        advocates, and critics including Liu Xia, wife of Nobel 
        Peace Prize Laureate Liu Xiaobo; Dong Xuan, daughter of 
        housing rights advocate and lawyer Ni Yulan; and family 
        members and supporters of self-trained legal advocate 
        Chen Guangcheng.

                            Status of Women

                                Findings

        <bullet> Chinese officials continue to promote existing 
        laws that aim to protect women's rights, including the 
        amended PRC Law on the Protection of Women's Rights and 
        Interests and the amended PRC Marriage Law; however, 
        ambiguity and lack of clearly outlined responsibilities 
        in China's national-level legislation limit progress on 
        concrete protections of women's rights.
        <bullet> In its domestic laws and policy initiatives 
        and through its ratification of the Convention on the 
        Elimination of All Forms of Discrimination against 
        Women (CEDAW), the Chinese government has committed to 
        ensuring female representation in government. Female 
        representation at all levels of government appears to 
        have made no significant progress in the 2012 reporting 
        year.
        <bullet> In August 2011, the Supreme People's Court 
        issued a new interpretation of the PRC Marriage Law, 
        which, some have argued, leaves women's property rights 
        unprotected.
        <bullet> In June 2012, the Shenzhen Municipal Fifth 
        People's Congress Standing Committee passed the 
        Shenzhen Special Economic Zone Gender Equality 
        Promotion Regulations, the first legislation of its 
        kind in China to focus on gender equality.
        <bullet> China has committed under CEDAW to take ``all 
        appropriate measures to eliminate discrimination 
        against women in the field of employment.'' While 
        China's existing laws such as the PRC Labor Law, the 
        amended PRC Law on the Protection of Women's Rights and 
        Interests, and the PRC Employment Promotion Law 
        prohibit gender discrimination, women continue to 
        experience widespread discrimination in areas including 
        job recruitment, promotion, wages, and retirement.
        <bullet> The amended PRC Law on the Protection of 
        Women's Rights and Interests (LPWRI) and the amended 
        PRC Marriage Law prohibit domestic violence, and 
        individuals charged with the crime of domestic violence 
        are punishable under the PRC Criminal Law. These 
        national legal provisions leave many who encounter 
        domestic violence unprotected, however, as they do not 
        define domestic violence or outline specific 
        responsibilities of government departments in 
        prevention, punishment, and treatment. Domestic 
        violence reportedly remains pervasive, affecting men, 
        women, and children. China's amended LPWRI also 
        prohibits sexual harassment and provides an avenue of 
        recourse for victims. The LPWRI does not, however, 
        provide a clear definition of sexual harassment or 
        specific standards and procedures for prevention and 
        punishment, presenting challenges for victims in 
        protecting their rights. Surveys show that sexual 
        harassment remains commonplace in China.
        <bullet> Statistics and analysis from studies published 
        in recent years regarding China's skewed sex ratio 
        suggest that sex-selective abortion remains widespread, 
        especially in rural areas, despite the government's 
        legislative and policy efforts to deter the practice. 
        Some observers, including Chinese state-run media, have 
        linked China's skewed sex ratio with an increase in 
        forced prostitution, forced marriages, and other forms 
        of human trafficking.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

        <all> Support programs in China that increase women's 
        leadership training through U.S.-China exchanges and 
        international conferences. Support exchanges and legal 
        programs that promote women's land rights, especially 
        in rural areas, and urge higher levels of government to 
        increase supervision over village committees to ensure 
        that local rules and regulations are in accordance with 
        national-level laws and policies and to ensure adequate 
        protection of women's rights and interests.
        <all> Urge the Chinese government to take steps to 
        faithfully implement provisions in the PRC Labor Law, 
        the amended PRC Law on the Protection of Women's Rights 
        and Interests, and the PRC Employment Promotion Law 
        that prohibit gender discrimination. Urge Chinese 
        officials to address specifically gender discrimination 
        in job recruitment, promotion, wages, and retirement. 
        Support programs that teach women how to protect and 
        advocate for their rights and interests in the 
        workplace.
        <all> Urge the Chinese government to follow through on 
        stated plans to enact comprehensive national-level 
        legislation that clearly defines domestic violence, 
        assigns responsibilities to government and civil 
        society organizations in addressing it, and outlines 
        punishments for offenders. Urge officials to release 
        drafts of such legislation for public comment. Urge the 
        Chinese government to further revise the PRC Law on the 
        Protection of Women's Rights and Interests or enact new 
        comprehensive national-level legislation to provide a 
        clear definition of sexual harassment and specific 
        standards and procedures for prevention and punishment. 
        Support training programs that increase awareness among 
        judicial and law enforcement personnel of domestic 
        violence and sexual harassment issues.

                           Human Trafficking

                                Findings

        <bullet> China remains a country of origin, transit, 
        and destination for the trafficking of men, women, and 
        children. The majority of human trafficking cases are 
        domestic and involve trafficking for sexual 
        exploitation, forced labor, and forced marriage. The 
        full extent of the forced labor problem in China is 
        unclear.
        <bullet> The Chinese government acceded to the UN 
        Protocol to Prevent, Suppress and Punish Trafficking in 
        Persons, Especially Women and Children (UN TIP 
        Protocol) in December 2009; however, Chinese domestic 
        legislation still does not fully conform with the UN 
        TIP Protocol.
        <bullet> As Chinese law conflates human smuggling, 
        illegal adoption, and child abduction with human 
        trafficking, accurate official statistics on the number 
        of trafficking cases the government investigated and 
        prosecuted during the past reporting year are not 
        available. In cooperation with non-governmental 
        organizations and international organizations, Chinese 
        authorities took limited steps to improve protection, 
        services, and care for victims of trafficking but 
        continued to focus efforts on women and children.
        <bullet> The Chinese government does not offer legal 
        alternatives to deportation for foreign victims of 
        trafficking, and continues to deport North Korean 
        refugees under the classification of ``economic 
        migrants,'' regardless of whether or not they are 
        victims of trafficking.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

        <all> Urge the Chinese government to abide by its 
        commitments under the UN Protocol to Prevent, Suppress 
        and Punish Trafficking in Persons, Especially Women and 
        Children; and to bring anti-trafficking legislation 
        into alignment with international standards. 
        Specifically, urge the Chinese government to legally 
        distinguish the crimes of human smuggling, child 
        abduction, and illegal adoption from that of human 
        trafficking, and to expand the current definition of 
        trafficking to include all forms of trafficking, 
        including offenses against adult male victims, certain 
        forms of non-physical coercion, and commercial sex 
        trade of minors.
        <all> Call on the Chinese government to provide more 
        protective services for trafficking victims. Support 
        expanding training programs for law enforcement 
        personnel and shelter managers that help raise 
        awareness and improve processes for identifying, 
        protecting, and assisting trafficking victims. Support 
        legal assistance programs that advocate on behalf of 
        both foreign and Chinese trafficking victims.
        <all> Object to the continued deportation of North 
        Korean trafficking victims as ``economic migrants.'' 
        Urge the Chinese government to abide by its 
        international obligations under the 1951 Convention 
        relating to the Status of Refugees and its 1967 
        Protocol with regard to North Korean trafficking 
        victims and provide legal alternatives to repatriation.

                     North Korean Refugees in China

                                Findings

        <bullet> During the Commission's 2012 reporting year, 
        central and local authorities continued policies 
        classifying all North Korean refugees in China as 
        ``illegal'' economic migrants and forcibly repatriating 
        North Korean refugees in China, amid rising concerns 
        over humanitarian crises and political instability in 
        the Democratic People's Republic of Korea (DPRK).
        <bullet> The Chinese government continued to deny the 
        UN High Commissioner for Refugees (UNHCR) access to the 
        Chinese-North Korean border and to North Korean 
        refugees in northeast China. The inability of the UNHCR 
        to access North Koreans seeking asylum in China makes 
        it difficult for the UNHCR and human rights 
        organizations to obtain accurate information on the 
        number of North Korean refugees and de facto stateless 
        persons, the reasons behind the North Korean 
        defections, and the concerns of North Korean refugees 
        over forced repatriation.
        <bullet> North Korean women in China continue to be 
        trafficked into forced marriage and commercial sexual 
        exploitation. The Chinese government's repatriation of 
        trafficked North Korean women contravenes the 1951 
        Convention relating to the Status of Refugees (1951 
        Convention) and its 1967 Protocol (Protocol), as well 
        as Article 7 of the UN Protocol to Prevent, Suppress 
        and Punish Trafficking in Persons, Especially Women and 
        Children (UN TIP Protocol). The Chinese government's 
        failure to take adequate measures to prevent North 
        Korean women from being trafficked and to protect North 
        Korean victims of trafficking contravenes its 
        obligations under Article 9 of the UN TIP Protocol and 
        Article 6 of the Convention on the Elimination of All 
        Forms of Discrimination against Women (CEDAW).
        <bullet> During this reporting year, Chinese 
        authorities forcibly detained, tortured, and deported 
        those who attempted to assist North Korean refugees in 
        China, including foreign aid workers and those involved 
        with humanitarian organizations.
        <bullet> Chinese local authorities near the border with 
        the DPRK continued to deny household registration 
        (hukou) to the children of North Korean women married 
        to Chinese citizens. Without household registration, 
        these children live in a stateless limbo and cannot 
        access education and other social benefits.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

        <all> Support the efforts of the UNHCR to gain 
        unfettered access for itself and its implementing 
        partners to North Korean refugees and de facto 
        stateless populations in China, beginning with children 
        born to a North Korean parent in China. Encourage the 
        Chinese government to work with the UNHCR in enacting 
        and implementing national asylum legislation that 
        conforms with China's obligations under the 1951 
        Convention and its Protocol. Urge the Chinese 
        government to immediately cease detaining and 
        repatriating North Koreans in China.
        <all> Urge central and local Chinese government 
        officials to abide by their obligations under the UN 
        TIP Protocol (Article 9) and CEDAW (Article 6) to 
        prosecute human traffickers in northeastern China and 
        along the border with the DPRK.
        <all> Urge Chinese officials to grant residency status 
        and related social benefits to North Koreans married to 
        Chinese citizens and to grant the same to their 
        children. In particular, urge local Chinese officials 
        to allow these children to receive an education in 
        accordance with the PRC Nationality Law (Article 4) and 
        the PRC Compulsory Education Law (Article 5). Urge the 
        Chinese government to provide greater numbers of North 
        Korean refugees with safe haven and secure transit 
        until they reach third countries.
        <all> Support exchanges between U.S. agencies and 
        Chinese public security officials on issues regarding 
        human trafficking, asylum processing, immigration, and 
        border control.

                             Public Health

                                Findings

        <bullet> Public health advocates continued to face 
        government harassment and interference in their 
        advocacy work during the Commission's 2012 reporting 
        year. Restrictions that central authorities placed on 
        registration and funding of non-governmental 
        organizations (NGOs) in 1998 and 2009, respectively, 
        remain in effect and have reportedly been used to 
        monitor, control, and limit NGO activities. In the 
        Commission's 2012 reporting year, Beijing Huiling, an 
        NGO that provides housing and services to disabled 
        persons, continued to face obstacles in securing 
        registration, which could impact its operations.
        <bullet> The Chinese government's domestic legislation 
        explicitly forbids discriminatory practices in 
        employment, and as a state party to the International 
        Covenant on Economic, Social and Cultural Rights, the 
        Chinese government has committed to eliminate 
        discrimination in employment and education against 
        persons with disabilities or infectious diseases. 
        Health-based discrimination in employment and education 
        remains commonplace, and those who seek legal recourse 
        face challenges. Reports also indicate that 
        discrimination based on HIV status remains a barrier 
        that prevents many from accessing adequate healthcare.
        <bullet> The Chinese government reviewed revised drafts 
        of the first national mental health law in October 2011 
        and August 2012. The drafts contain revisions that, if 
        faithfully implemented, could further constrain 
        officials from abusing psychiatric detention to stifle 
        or punish dissent. Despite these potential 
        improvements, the revised drafts continue to raise 
        concerns regarding the law's compliance with the UN 
        Convention on the Rights of Persons with Disabilities, 
        which China has signed and ratified.
        <bullet> In March 2012, a top Chinese health official 
        announced plans to ``abolish'' the practice of organ 
        harvesting from death-row prisoners within three to 
        five years. The announcement follows a trend in recent 
        years of increased government regulation surrounding 
        the transfer of human organs, and comes amid numerous 
        reports of illegal organ transplant cases this year.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

        <all> Call on the Chinese government to stop repression 
        of public health advocates and provide more support to 
        U.S. organizations that work with Chinese NGOs to 
        address public health issues in China.
        <all> Urge Chinese officials to focus attention on 
        effective implementation of the PRC Employment 
        Promotion Law and related regulations that prohibit 
        discrimination in employment, education, and healthcare 
        against persons living with HIV/AIDS, Hepatitis B 
        virus, and other illnesses or disabilities. Support 
        Chinese NGO programs that raise rights awareness among 
        individuals living with medical conditions.
        <all> Urge the Chinese government to address concerns 
        that individuals and NGOs have raised regarding the 
        most recent drafts of the Mental Health Law. Urge 
        Chinese officials to enact the Mental Health Law in a 
        timely manner and then to ensure the consistent 
        implementation of the law across localities.
        <all> Urge the Chinese government to close gaps in the 
        2007 Regulations on Human Organ Transplantation in 
        which illegal organ trafficking currently operates. 
        Urge Chinese officials to take prompt measures to 
        accomplish their stated goal of abolishing the practice 
        of organ harvesting from death-row prisoners in three 
        to five years.

                            The Environment

                                Findings

        <bullet> Despite some progress, pollution problems 
        remain severe, especially in rural areas, and the 
        associated financial costs continue to grow. In 
        addition to the migration of polluting industries, 
        pollution incidents and environmental protests continue 
        to pose long-term challenges. Authorities continue to 
        develop a regulatory framework to address these 
        environmental problems, although some efforts appear 
        stifled. Authorities released draft revisions to the 
        PRC Environmental Protection Law (EPL) to the public 
        for comments. The draft contained some incentives for 
        greater transparency and official accountability, but 
        did not contain language that specified stronger 
        support for public participation that had been present 
        in previous drafts. Work to pass an administrative 
        guideline regarding public participation in 
        environmental impact assessments appeared to have 
        stalled. In a positive development, 2011 revisions to 
        the PRC Criminal Law expanded the scope of behaviors 
        affecting the environment that could be considered 
        criminal. Significant challenges for the development of 
        the rule of law in the sector remain, including lax 
        enforcement and non-compliance with environmental laws 
        and regulations.
        <bullet> Access to formal legal remedies remains 
        unreliable, despite potential advancements in public 
        interest law. In October 2011, an environmental 
        tribunal in Yunnan province accepted an environmental 
        public interest lawsuit filed jointly by non-
        governmental organizations and a local environmental 
        protection bureau. Citizens, however, continued to face 
        barriers in bringing environmental cases to court, 
        including judges reluctant to accept cases.
        <bullet> During the reporting year, authorities also 
        continued to harass or in some cases detain 
        environmental advocates, including Liu Futang, Wu 
        Lihong, and Zhang Changjian. In February 2012, 
        authorities in Sichuan province detained three 
        environmental advocates associated with the Tawu 
        Environmental Protection Association. In addition, 
        there are many cases of citizens who complain about 
        pollution problems and later face retribution from 
        officials.
        <bullet> Protests regarding pollution are increasing 
        and are often a tool of last resort for citizens 
        seeking justice or the alleviation of environmental 
        harms. Official and academic reports reportedly give a 
        combined range of 20 to 30 percent increase in protests 
        annually, although the academic report notes the actual 
        number remains a secret. In some of these cases, 
        protesters became destructive, and authorities beat, 
        detained, or sentenced protesters.
        <bullet> Authorities in various locations took steps to 
        improve some aspects of environmental information 
        transparency, but some locations have not made much 
        progress, and a report highlighted the widening gap in 
        information disclosure between more transparent eastern 
        coastal regions and western and central regions. Some 
        news reports highlighted cases of non-transparency 
        related to environmental accidents. In addition, 
        central government officials are revising a regulation 
        that, if passed in its current form, could strengthen 
        the government's tight control over environmental 
        quality monitoring and reporting. During the reporting 
        year, however, central environmental authorities passed 
        measures to gradually improve air quality information 
        transparency. In addition, citizens have become more 
        proactive in making requests for environmental data, 
        but barriers to obtaining information remain.
        <bullet> During this reporting year, the State Council 
        issued the 12th Five-Year Greenhouse Gas Emissions 
        Control Work Program and a white paper on climate 
        change, which outlined a variety of actions and plans 
        to mitigate and adapt to climate change. Chinese 
        leaders have pledged to improve data reliability and 
        transparency related to energy use and climate change, 
        as well as baseline data related to international 
        greenhouse gas reduction projects. Nevertheless, 
        reports detailed significant challenges in this regard.
        <bullet> Some hydroelectric dam projects reportedly 
        continued to involve involuntary relocation practices 
        and arbitrary detention. Grassland herder relocation 
        programs, reportedly conducted by authorities to 
        address grassland degradation as well as modernize the 
        animal husbandry industry, have also in some cases been 
        involuntary.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

        <all> Call upon the Chinese government to cease 
        punishing citizens for their grassroots environmental 
        activism or for utilizing official and 
        institutionalized channels to voice their environmental 
        grievances or to protect their rights. Support efforts 
        by Chinese and U.S. groups working in China to expand 
        awareness of citizens' environmental rights and to 
        promote the protection of those rights. Include 
        environmental law issues in the bilateral human rights 
        and legal expert dialogues.
        <all> Support multilateral exchanges regarding 
        environmental enforcement and compliance tools, 
        including environmental insurance, market mechanisms, 
        criminal prosecution of serious environmental 
        infringements, and public interest litigation 
        mechanisms. Encourage Chinese leaders to strengthen 
        environmental impact assessment processes and citizen 
        participation in those processes. Engage Chinese 
        officials and others who seek to devise a fair 
        compensation system for people harmed by pollution.
        <all> Support continued expansion of environmental 
        information disclosure in China. Share U.S. Government 
        experiences with the Toxics Release Inventory Program 
        and other U.S. programs that seek to provide more 
        environmental transparency. Support programs that 
        educate Chinese citizens about China's system of open 
        government information. In addition, continue U.S. 
        Government engagement with relevant individuals and 
        organizations in developing China's capacity to 
        reliably measure, report, publicize, and verify 
        emissions reduction strategies and techniques.
        <all> Encourage the development of environmental non-
        governmental organizations (NGOs) in China, including 
        incorporating joint U.S.-China non-governmental 
        participation into bilateral projects. Support efforts 
        to raise the technical and operational capacity of 
        Chinese environmental NGOs.
        <all> Urge Chinese authorities to end non-voluntary 
        relocation of nomadic herders and to conduct relocation 
        programs in a manner consistent with international 
        scientific and human rights norms. To this end, urge 
        authorities to consider the suggestions contained in 
        the 2012 Report of the Special Rapporteur on the Right 
        to Food; Addendum, Mission to China, to the United 
        Nations High Commissioner for Human Rights.

                             Civil Society

                                Findings

        <bullet> Chinese civil society organizations continue 
        to grow in number and engage in valuable educational 
        work, social welfare service provision, and issue 
        advocacy. A restrictive regulatory environment, 
        however, limits the development of an independent civil 
        society. Official policy is to control the development 
        of civil society by expanding and bringing under 
        government control groups that promote Chinese 
        government and Communist Party objectives, while 
        marginalizing groups that seek to operate more 
        independently.
        <bullet> The government's broad restrictions on a 
        citizen's ability to form an organization contravene 
        the right to freedom of association guaranteed in 
        Article 22 of the International Covenant on Civil and 
        Political Rights, which China has signed and declared 
        an intention to ratify.
        <bullet> Chinese law recognizes three main types of 
        civil society organizations--social organizations 
        (SOs), non-governmental and non-commercial enterprises 
        (NGNCEs), and foundations. These organizations must 
        obtain a government-approved sponsor organization and 
        register with the Ministry of Civil Affairs or its 
        provincial or local counterpart. The government tightly 
        restricts the number of organizations that cover an 
        issue and requires minimum thresholds for staff and 
        funding. Once registered, the organization remains 
        subject to annual government reviews and sponsor 
        organization oversight. Organizations that try to carry 
        out activities independently without registration are 
        considered illegal. A 2009 State Administration of 
        Foreign Exchange circular that places bureaucratic 
        burdens and foreign exchange restrictions on foreign 
        funding remains in place, and authorities continue to 
        express suspicion toward foreign-funded groups.
        <bullet> Chinese officials, scholars, state-controlled 
        media, and non-governmental organization (NGO) leaders 
        continued to criticize the current system, pointing to 
        the large number of groups that cannot register because 
        they are unable to secure a sponsor organization and 
        the slow growth of registered groups. Unregistered 
        groups and those registered as businesses do not enjoy 
        certain tax benefits, are ineligible for government 
        projects, cannot legally solicit donations, and face 
        the risk of shutdown at any time. Official campaigns 
        against unregistered groups continue.
        <bullet> Harassment of NGOs engaged in advocacy on 
        issues the government and Party deem politically 
        sensitive continued this past year. A crackdown on NGOs 
        advocating for workers in the manufacturing center of 
        Guangdong province was reported to have started early 
        in 2012 and continued throughout the summer.
        <bullet> Chinese officials continue to pursue local and 
        provincial initiatives intended to streamline the 
        registration process, but not fundamentally alter the 
        government's role in approving and overseeing all 
        groups. This past year, the Commission observed 
        examples of such developments in the Shenzhen Special 
        Economic Zone and in Yunnan and Guangdong provinces. At 
        the national level, such proposals have reportedly 
        stalled. In July 2012, the Ministry of Civil Affairs 
        published regulations for the management of foundations 
        in an effort to improve transparency and accountability 
        of charitable donations.
        <bullet> The Minister of Civil Affairs reportedly said 
        political and human rights NGOs would be treated 
        equally in the registration process, but reiterated the 
        government's broad discretion to decide who may form an 
        organization. The government and Party also issued an 
        opinion to ``encourage and standardize'' religious 
        communities' participation in public service, including 
        calling for ``equal treatment'' of religious groups in 
        establishing charitable organizations. The opinion 
        emphasizes, however, consistency with the Party's basic 
        policy on religion.
        <bullet> The National People's Congress Standing 
        Committee passed an amendment to the PRC Civil 
        Procedure Law in August 2012 which states that 
        ``relevant organizations'' (youguan zuzhi) determined 
        by law will be able to bring to court public interest 
        cases on environmental protection and consumer rights 
        issues, among others. It is not yet clear to what 
        extent NGOs will be included in this broad term.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

        <all> Ask Chinese officials for updates on recent 
        reforms at the local level relating to registration of 
        NGOs, domestic financial support to NGOs via 
        foundations and government procurement of services from 
        NGOs, the role of NGOs in public interest litigation, 
        and other aspects of civil affairs. Encourage these 
        officials to broaden reform efforts that relax 
        constraints on NGOs and apply them to other parts of 
        the country through national legislation and regulatory 
        development.
        <all> Ask the Chinese government to refrain from 
        applying uneven or selective enforcement of regulations 
        to intimidate groups that they consider to be handling 
        sensitive work. Request the Chinese government to 
        revisit the recently issued State Administration of 
        Foreign Exchange circular concerning overseas donations 
        to Chinese organizations. Emphasize that NGOs, both 
        domestic and international, are outlets for citizens to 
        channel their grievances and find redress, and in turn 
        contribute to the maintenance of a stable society. 
        Conversely, point out that stricter controls over civil 
        society organizations could remove a potentially useful 
        social ``safety valve,'' thereby increasing the sources 
        of instability. During discussions with Chinese 
        officials, mention the Tsinghua University report that 
        found that, even as the government increased spending 
        on public security and tightened its control over civil 
        society, social conflicts were happening with greater 
        regularity.
        <all> Take measures to facilitate the participation of 
        Chinese citizens who work in the NGO sector in relevant 
        international conferences and forums, and support 
        training opportunities in the United States to build 
        their leadership capacity in nonprofit management, 
        public policy and public interest legal advocacy, 
        strategic planning, and media relations.

                 Institutions of Democratic Governance

                                Findings

        <bullet> During the 2012 reporting year, the Communist 
        Party continued to dominate political affairs, 
        government, and society through networks of Party 
        committees or branches that exist at all levels in 
        government, legislative, and judicial agencies, as well 
        as in businesses, major social groups (including 
        unions), the military, and most residential 
        communities. Party officials stepped up efforts to 
        expand Party organizations and focused Party-building 
        and Party-loyalty campaigns in universities, non-state-
        owned businesses, social organizations, and the 
        military.
        <bullet> China's political institutions do not comply 
        with the standards defined in Article 25 of the 
        International Covenant on Civil and Political Rights, 
        which Chinese leaders have signed and declared an 
        intention to ratify. Nor do China's political 
        institutions comply with the standards outlined in the 
        Universal Declaration of Human Rights. During this 
        reporting year, at least one top central-level Chinese 
        leader continued to make public statements about 
        ``political structural reform.'' The statements, 
        however, lacked details, and any proposed reforms would 
        still take place within the framework of one-party 
        control. Local governments issued measures meant to 
        improve the efficiency of bureaucratic governance and 
        to bolster trust in the Party.
        <bullet> Authorities continued to detain, arrest, and 
        sentence democracy advocates who exercised their right 
        to freedoms of assembly, speech, movement, and 
        association guaranteed in China's Constitution and 
        under international human rights standards. This 
        reporting year, authorities imposed particularly harsh 
        prison sentences, including those of Chen Wei, Chen Xi, 
        Li Tie, Zhu Yufu, and Xue Mingkai. Other democracy 
        advocates given long prison sentences over the last 
        four years remained imprisoned, including Liu Xiaobo, 
        Liu Xianbin, Guo Quan, Zhou Yongjun, Xie Changfa, and 
        Huang Chengcheng.
        <bullet> The Party continues to strengthen its 
        legitimacy and control in the political realm by 
        intensifying and extending its reach into citizens' 
        social lives through institutions at all administrative 
        levels in the name of ``social management'' and 
        maintaining ``social stability.'' Party and government 
        leaders plan to establish ``social management 
        structures'' under the leadership of the Party and with 
        roles for government, social organizations, and the 
        general public. Mass organizations, residence 
        committees, workplace personnel, students, and ordinary 
        citizens will assist with social management tasks, 
        including monitoring of citizens.
        <bullet> During the reporting year, elections continued 
        for local people's congress deputies at the township 
        and county levels. Party authorities influenced 
        elections through investigative groups sent to lower 
        levels with control and supervision tasks. In some 
        places, the groups acted to ``optimize'' nomination 
        lists. Officials took a variety of other actions to 
        interfere in local congress elections and to prevent 
        independent candidates from being nominated or elected 
        as delegates.
        <bullet> Village elections for ``villager committees'' 
        have spread throughout China; their implementation, 
        however, remains problematic. Ongoing problems with 
        elections included vote buying, ballot stuffing, 
        cancelled elections, interference from township 
        officials, lack of transparency, and higher level 
        officials' efforts to ``optimize'' the mix of personnel 
        on villager committees.
        <bullet> Central authorities reportedly encouraged the 
        strengthening of open government information (OGI) 
        procedures and policies, and also clarified conditions 
        under which information would not be disclosed. 
        Proactive disclosure of information remained sporadic. 
        Citizens continued to be proactive in making open 
        government information requests. Nevertheless, 
        challenges in accessing information and bringing OGI 
        cases to court remained.
        <bullet> Central and provincial authorities encouraged 
        policies to enhance government accountability. The lack 
        of accountability, however, remained a challenge. In 
        October 2011, an official media report noted the 
        prevalence of ``selective governance'' at the 
        grassroots level in some areas. The cases of Wang 
        Lijun, Bo Xilai, and Gu Kailai raise issues of official 
        lack of accountability, abuse of power, and non-
        transparency.
        <bullet> Corruption reportedly remains high and Chinese 
        authorities took regulatory steps to address it. 
        Corruption in state-owned enterprises and public 
        institutions increased. Protections for whistleblowers 
        remained insufficient and authorities continued to have 
        little tolerance for non-governmental anticorruption 
        efforts.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

        <all> Support U.S. research programs that shed light on 
        the structure, functions, and development of the 
        Chinese Communist Party, including its roles within 
        government institutions, non-state-owned companies, and 
        social organizations. Urge Chinese officials to further 
        increase the transparency of Party affairs. Support 
        research by U.S. citizens that focuses on understanding 
        China's shift toward ``social management.'' Make 
        inquiries into recent campaigns to ``send down to the 
        countryside'' teams of Party and government officials.
        <all> Call on the Chinese government to release people 
        detained or imprisoned for exercising their right to 
        call for political reform within China, and other 
        political prisoners mentioned in this report and in the 
        Commission's Political Prisoner Database, including 
        Chen Wei, Chen Xi, Li Tie, Zhu Yufu, Xue Mingkai, Zhou 
        Yongjun, Liu Xiaobo, Liu Xianbin, Guo Quan, Xie 
        Changfa, and Huang Chengcheng.
        <all> Support continued substantive exchanges between 
        Members of the U.S. Congress and delegates of the 
        National People's Congress and the Chinese People's 
        Political Consultative Conference, especially in 
        relation to congressional oversight processes and 
        responding to constituent demands. Support research 
        programs for U.S. citizens to study political and 
        social developments at the grassroots level in China. 
        Expand the number of U.S. consulates throughout the 
        country to facilitate understanding of China.
        <all> Support projects by U.S. or Chinese organizations 
        that research village and local people's congress 
        elections in China. Support programs that include 
        expansion of domestic election monitoring systems, 
        training of Chinese domestic election monitors, and 
        joint U.S.-Chinese election monitoring activities.
        <all> Support projects of U.S. or Chinese organizations 
        that seek to work with local Chinese governments in 
        their efforts to improve transparency and 
        accountability, especially efforts to expand and 
        improve China's government information disclosure 
        initiatives. Such projects might include joint efforts 
        to better publicize the Open Government Information 
        (OGI) Regulations at local levels and citizen and group 
        trainings about how to submit OGI requests.
        <all> Support programs that assist local governments, 
        academics, and the nonprofit sector in expanding 
        transparent public hearings and other channels for 
        citizens to incorporate their input into the 
        policymaking process. Such programs could include pilot 
        projects in China in which citizens' suggestions to 
        authorities about draft laws, regulations, or policies 
        are made available to the public.

                         Commercial Rule of Law

                                Findings

        <bullet> December 11, 2011, was the 10th anniversary of 
        China's accession to the World Trade Organization 
        (WTO). Supporters of China's membership in the WTO had 
        hoped that WTO membership would bring about changes in 
        China, which appeared at the time to be developing a 
        market economy. The Chinese government, however, has 
        flouted WTO rules and ``gamed the system.'' Over the 
        past five years, the Chinese government has developed a 
        state-capitalist system that is not compatible with the 
        WTO, and has intensified the state's intervention in 
        the economy.
        <bullet> China has been a party to several WTO cases 
        since acceding to the WTO. In March 2012, the United 
        States, in coordination with the European Union and 
        Japan, requested consultations with China in a case 
        concerning restraints on exports of rare earths, 
        tungsten, and molybdenum, and in July the WTO 
        established a panel to hear the dispute. The United 
        States also brought two WTO cases against China 
        concerning the auto industry. The first case, initiated 
        in July, challenges China's imposition of antidumping 
        and countervailing duties on certain automobiles from 
        the United States. The United States requested 
        consultations in the second case in September 2012, 
        challenging certain of China's export subsidies to auto 
        and auto parts manufacturers.
        <bullet> The Chinese government reportedly intimidates 
        some foreign companies that raise concerns with China's 
        WTO compliance, threatening ``to withhold necessary 
        approvals or take other retaliatory actions against 
        foreign enterprises if they speak out against 
        problematic Chinese policies or are perceived as 
        responding cooperatively to their government's efforts 
        to challenge them.'' This makes it difficult for other 
        WTO members to bring WTO cases against China.
        <bullet> Foreign investment into China must undergo a 
        government approval process to ensure that it is in 
        keeping with Chinese policies on economic growth. In 
        2012, the Chinese government revised the foreign 
        investment guidance catalogue, listing industries in 
        which investment is encouraged, restricted, or 
        forbidden. Investments in industries that are not 
        listed are allowed. Chinese authorities issued the 
        first foreign investment guidance catalogue in 1995, 
        and have amended it five times, including the 2012 
        amendment. The 2012 amendment reflected policies 
        outlined in the 12th Five-Year Plan on National 
        Economic and Social Development, which was passed in 
        March 2011, including those for development of seven 
        ``strategic emerging industries.''
        <bullet> Chinese outbound investment has continued to 
        grow, with investments in the form of mergers and 
        acquisitions tending to be in mining, manufacturing, 
        transportation, electric power, and retailing and 
        wholesaling. Like foreign investment in China, Chinese 
        outbound investment is highly regulated.
        <bullet> Though the value of the yuan rose about 8 
        percent against the U.S. dollar between June 2010 and 
        May 15, 2012, according to the U.S. Treasury 
        Department, the yuan is still undervalued. China has 
        taken several measures to loosen controls on cross-
        border capital flows, however, with the goal of 
        internationalizing the yuan.
        <bullet> China continued to have serious food safety 
        problems during the 2012 reporting year, impacting 
        consumers in China and in other countries, including 
        the United States. While China has taken a number of 
        regulatory and other measures to deal with food safety, 
        the efficacy of these measures is limited; authorities 
        have found it difficult to control China's small and 
        scattered food producers.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

        <all> Develop and support a project surveying the role 
        of China's industrial policies in the Chinese economy 
        from the perspective of WTO requirements, including how 
        the development of these policies and the role they 
        play in directing China's economy influence 
        transparency, rule of law, and China's compliance with 
        its international commitments.
        <all> Through the Office of the U.S. Trade 
        Representative (USTR), the International Trade 
        Enforcement Center, or other channels, conduct a 
        comprehensive study of situations in which Chinese 
        authorities have intimidated or retaliated against U.S. 
        companies for speaking out against Chinese government 
        policies or actions. Support USTR in developing or 
        furthering a strategy of challenging Chinese regulatory 
        procedures, including the approval process and other 
        administrative licensing procedures, that provide 
        channels for Chinese authorities to engage in 
        intimidation or retaliation against U.S. companies.
        <all> Through bilateral dialogues between (1) USTR and 
        the U.S. Department of Commerce and (2) China's 
        Ministry of Commerce, the National Development and 
        Reform Commission, and the State-Owned Assets 
        Supervision and Administration Commission, obtain 
        details on the amount of Chinese investment (other than 
        in financial instruments) in the United States, the 
        criteria Chinese authorities use in making approval 
        decisions concerning such investment, and how such 
        investment is financed.
        <all> Implement capacity-building programs for Chinese 
        food safety regulators on U.S. best practices in food 
        safety programs. Pass legislation authorizing a larger 
        U.S. Food and Drug Administration presence in China, 
        with additional inspectors; support training programs 
        in China conducted by U.S. inspectors, producers, and 
        food safety experts; and ensure that regulated products 
        imported from China into the United States are 
        certified by the relevant bodies in China.

                           Access to Justice

                                Findings

        <bullet> Chinese citizens' ability to seek redress of 
        perceived wrongs continued to face significant 
        challenges during the Commission's 2012 reporting year. 
        Authorities continued to promote a ``harmonious'' 
        socialist society with Chinese characteristics. Key 
        policies and regulations during the past year reflect 
        the Communist Party's ongoing concern with handling 
        social conflicts and maintaining stability.
        <bullet> Party and government officials continued to 
        limit judicial independence and exert political control 
        over courts and judges. Although Article 126 of China's 
        Constitution specifically guarantees judicial 
        independence from ``any administrative organ, public 
        organization or individual,'' China's judiciary 
        continued to be subject to a variety of internal and 
        external controls--from political legal committees to 
        official interference--that significantly limit its 
        ability to engage in independent decisionmaking.
        <bullet> During the reporting year, Chinese citizens 
        continued to use petitioning as a means to seek 
        redress. The petitioning--or xinfang (often translated 
        as ``letters and visits'')--system exists to provide a 
        channel, outside of formal legal challenges, through 
        which citizens may present their grievances and seek to 
        appeal government, court, and Communist Party 
        decisions.
        <bullet> Citizen petitioners seeking redress of their 
        grievances continued to face reprisals, harassment, 
        violence, and detention, especially by local 
        governments, due to incentive structures linked to 
        citizen petitioning. This past year, some Chinese media 
        reports addressed the phenomenon of citizens ``having 
        faith in petitioning and not having faith in the law.''
        <bullet> During the 2012 reporting year, government and 
        Party officials continued to promote ``people's 
        mediation'' (renmin tiaojie) as a tool to maintain 
        social stability. In his work report to the National 
        People's Congress, Supreme People's Court President 
        Wang Shengjun emphasized the role of mediation in 
        resolving disputes and highlighted that 67.3 percent of 
        civil cases in 2011 were either mediated or withdrawn.
        <bullet> During the reporting year, official Chinese 
        sources announced increased funding for legal aid and 
        the expansion of legal aid access. In February 2012, 
        the Ministry of Justice reported a substantial increase 
        in the number of cases involving legal aid. Local legal 
        aid agencies handled a total of 844,624 cases in 2011, 
        up 16.1 percent from 2010 statistics. The central 
        government allocated 200 million yuan (US$31.4 million) 
        during the year to help with legal aid, up from 100 
        million yuan (US$15.7 million) in the previous year, 
        and central special lottery funds for legal aid 
        programs increased to 100 million yuan in 2011 from 50 
        million yuan (US$7.8 million) in 2010.
        <bullet> Officials at various levels of government 
        continued to discourage, intimidate, and detain human 
        rights lawyers who take on issues, cases, and clients 
        that officials deem to be ``sensitive.'' Officials 
        employed a spectrum of measures, including stationing 
        police to monitor the homes of rights defenders; 
        forcing them to travel to unknown areas or to attend 
        meetings to ``drink tea'' with security personnel; and 
        imprisoning them.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

        <all> Support the U.S. State Department's International 
        Visitor Leadership Program and other bilateral exchange 
        programs that bring Chinese human rights lawyers, 
        advocates, and scholars to the United States for study 
        and dialogue. Support similar programs in the non-
        governmental organization and academic sectors that 
        partner with China's human rights lawyers and nonprofit 
        legal organizations.
        <all> Support exchange, education, and training in 
        legal aid expertise with Chinese criminal defense 
        lawyers, legal professionals, and law schools.
        <all> Continue to monitor the policy of mediation as 
        the Chinese government's preferred way to resolve 
        disputes. Achieve a clear understanding of its 
        implications for Chinese citizens' access to justice 
        and the Chinese government's compliance with 
        international standards.
        <all> Express concern to Chinese authorities over 
        treatment of petitioners and encourage Chinese leaders 
        to examine the incentive structures at the local level 
        that lead to abuse of petitioners who seek to express 
        their grievances.
        <all> Object to the continued harassment of human 
        rights lawyers and advocates. Call for the release of 
        lawyers and activists who have been subject to unlawful 
        home confinement, ``disappearance,'' or harassment by 
        officials for their activities defending and promoting 
        the rights of Chinese citizens.

                                Xinjiang

                                Findings

        <bullet> Chinese government and Communist Party 
        authorities continued to commit serious human rights 
        abuses in the Xinjiang Uyghur Autonomous Region (XUAR). 
        Authorities in the XUAR used repressive security 
        policies to stifle peaceful expression and dissent, 
        especially among Uyghurs. Authorities have applied the 
        ``three forces'' label (terrorism, separatism, and 
        religious extremism) to include peaceful political 
        dissent and religious activity outside of state 
        control, while providing limited and conflicting 
        information to support claims of terrorist or 
        separatist threats. The Chinese government continued to 
        obscure information about people tried in connection 
        with the July 2009 demonstrations and riots in Urumqi 
        city. The number of trials completed in the XUAR in 
        2011 for crimes of endangering state security--a 
        category of criminal offenses that authorities in China 
        have used to punish citizen activism and dissent--
        increased over 2010.
        <bullet> During the Commission's 2012 reporting year, 
        central government-led development projects, which 
        authorities have strengthened in recent years, undercut 
        the rights of Uyghurs and other non-Han groups to 
        maintain their cultures, languages, and livelihoods. 
        Authorities intensified regional development objectives 
        announced at the Xinjiang Work Forum, convened in 
        Beijing in 2010 by central government and Party 
        leaders. XUAR authorities bolstered efforts to relocate 
        and resettle farmers and herders away from grasslands.
        <bullet> Authorities strengthened campaigns against 
        ``illegal religious activities'' during this reporting 
        year, and maintained harsh legal restrictions over 
        religion in the XUAR. Authorities used the specter of 
        ``religious extremism'' to enforce continuing controls 
        over the practice of Islam, continued to identify 
        ``religious extremism'' as one of the ``three forces'' 
        threatening stability in the region, and targeted 
        religious practice in security campaigns. Some Muslims 
        continued to serve prison sentences in connection with 
        exercising their faith. Reports of official campaigns 
        to prevent men from wearing ``large beards'' and women 
        from wearing veils or clothing perceived to have 
        religious connotations appeared to increase during the 
        reporting year, based on Commission monitoring. 
        Officials required some recipients of welfare benefits 
        in the XUAR to agree not to wear veils or large beards. 
        Officials also continued to place controls over the 
        observance of the Islamic holiday of Ramadan.
        <bullet> Some government and private employers in the 
        XUAR continued to discriminate against non-Han 
        (``ethnic minority'') job candidates. Authorities also 
        continued programs to ``transfer the excess rural labor 
        force'' to jobs outside workers' home areas, a practice 
        that has focused on young non-Han men and women.
        <bullet> Chinese government development policies 
        continued to prevent Uyghurs from preserving their 
        cultural heritage. Authorities continued to demolish 
        and rebuild the Old City section of Kashgar city, as 
        part of a five-year project launched in 2009 that has 
        drawn opposition from Uyghur residents and other 
        observers for requiring the resettlement of the Old 
        City's 220,000 residents and for undermining cultural 
        heritage protection. State media also reported on 
        demolitions and the resettlement of residents in 
        traditionally Uyghur communities in areas throughout 
        the XUAR, with XUAR authorities stating that 1.5 
        million homes would be ``reconstructed'' regionwide by 
        2015.
        <bullet> This past year, Western media reported that 
        authorities sentenced 16 of the 20 Uyghur asylum 
        seekers who were forcibly returned from Cambodia to 
        China in 2009 to prison terms ranging from 16 years to 
        life in prison. Chinese officials had earlier linked 
        some of the asylum seekers to terrorism, but the exact 
        charges they were convicted of are unknown. The 
        ``refoulement'' of such asylum seekers raised concerns 
        regarding the risk of unfair trials, torture, and other 
        types of mistreatment that Uyghur asylum seekers may 
        face after fleeing to neighboring countries under the 
        sway of China's influence and its disregard for 
        international law.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

        <all> Support legislation that expands U.S. Government 
        resources for raising awareness of human rights 
        conditions in the Xinjiang Uyghur Autonomous Region 
        (XUAR), for protecting Uyghur culture, and for 
        increasing avenues for Uyghurs to protect their human 
        rights.
        <all> Raise concern to Chinese officials about human 
        rights conditions in the XUAR and condemn the use of 
        security campaigns to suppress human rights. Call on 
        the Chinese government to release people imprisoned for 
        advocating for their rights or for their personal 
        connection to rights advocates, including Gheyret Niyaz 
        (sentenced in 2010 to 15 years in prison for ``leaking 
        state secrets'' after giving interviews to foreign 
        media); Nurmemet Yasin (sentenced in 2005 to 10 years 
        in prison for allegedly ``inciting racial hatred or 
        discrimination'' or ``inciting separatism'' after 
        writing a short story); Alim and Ablikim Abdureyim 
        (adult children of activist Rebiya Kadeer, sentenced in 
        2006 and 2007 to 7 and 9 years in prison, respectively, 
        for alleged economic and ``separatist'' crimes), as 
        well as other prisoners mentioned in this report and in 
        the Commission's Political Prisoner Database.
        <all> Call on the Chinese government to provide details 
        about each person detained, charged, tried, or 
        sentenced in connection with demonstrations and riots 
        in the XUAR in July 2009, including each person's name, 
        the charges (if any) against each person, the name and 
        location of the prosecuting office (i.e., 
        procuratorate), the court handling each case, and the 
        name of each facility where a person is detained or 
        imprisoned. Call on the Chinese government to ensure 
        people suspected of crimes in connection with events in 
        July 2009 are able to hire a lawyer and exercise their 
        right to employ legal defense in accordance with 
        Articles 33 and 96 of the PRC Criminal Procedure Law 
        and to ensure suspects can retain legal defense of 
        their own choosing.
        <all> Support non-governmental organizations that 
        address human rights issues in the XUAR to enable them 
        to continue to gather information on conditions in the 
        region and develop programs to help Uyghurs increase 
        their capacity to preserve their rights and protect 
        their culture, language, and heritage. Provide support 
        for media outlets devoted to broadcasting news to the 
        XUAR and gathering news from the region to expand their 
        capacity to report on the region and provide uncensored 
        information to XUAR residents. Provide support for 
        libraries that hold Uyghur-language collections to 
        increase their capacity to collect and preserve books 
        and journals from the XUAR. Support organizations that 
        can research and take steps to safeguard tangible and 
        intangible cultural heritage in the XUAR.
        <all> Call on the Chinese government to support 
        development policies in the XUAR that promote the broad 
        protection of XUAR residents' rights and allow the XUAR 
        government to exercise its powers of regional autonomy 
        in making development decisions. Call on central and 
        XUAR authorities to ensure equitable development that 
        not only promotes economic growth but also respects the 
        broad civil and political rights of XUAR residents and 
        engages these communities in participatory 
        decisionmaking.
        <all> Raise concern about the demolition of the Old 
        City section of Kashgar city, as well as demolitions 
        and the resettlement of residents in traditionally 
        Uyghur communities in areas throughout the XUAR. Call 
        on authorities to ensure that development projects take 
        into account the particular needs and input of non-Han 
        ethnic groups, who have faced unique challenges 
        protecting their rights in the face of top-down 
        development policies and who have not been full 
        beneficiaries of economic growth in the region. Call on 
        authorities to ensure that residents have input into 
        resettlement initiatives and receive adequate 
        compensation. Call on authorities to take measures to 
        safeguard the rights of herders to preserve their 
        cultures and livelihoods.
        <all> Call on the Chinese government to ensure 
        government and private employers abide by legal 
        provisions barring discrimination based on ethnicity 
        and cease job recruiting practices that reserve 
        positions exclusively for Han Chinese. Call on 
        authorities to monitor compliance with local directives 
        promoting job opportunities for non-Han groups, who 
        continue to face discrimination in the job market. Call 
        on Chinese authorities to investigate reports of 
        coercion and exploitative working conditions within 
        labor transfer programs that send rural non-Han men and 
        women to jobs in other regions of China.
        <all> Call on the Chinese government to provide 
        information on the whereabouts and current legal status 
        of Uyghur asylum seekers forcibly returned from 
        Cambodia in December 2009. Raise the issue of Uyghur 
        refugees and asylum seekers with Chinese officials and 
        with officials from international refugee agencies and 
        from transit or destination countries for Uyghur 
        refugees. Call on Chinese officials and officials from 
        transit or destination countries to respect the asylum 
        seeker and refugee designations of the UN High 
        Commissioner for Refugees and the refugee and 
        citizenship designations of other countries. Call on 
        transit and destination countries for Uyghur asylum 
        seekers, refugees, and migrants to abide by 
        requirements on ``refoulement'' in the 1951 Convention 
        relating to the Status of Refugees and the Convention 
        against Torture.

                                 Tibet

                                Findings

        <bullet> Formal dialogue between the Dalai Lama's 
        representatives and Chinese Communist Party and 
        government officials has been stalled since the January 
        2010 ninth round, the longest interval since such 
        contacts resumed in 2002. During the Commission's 2012 
        reporting year, Chinese officials reiterated positions 
        that seek to prevent Tibetans from securing protection 
        for their culture, language, religion, and environment, 
        and instead pressure the Dalai Lama to support Party 
        positions on Tibetan history and the relationship 
        between China and Taiwan. The Dalai Lama's 
        representatives--his Special Envoy and Envoy--resigned 
        their positions effective on June 1, 2012, citing ``the 
        deteriorating situation inside Tibet since 2008 leading 
        to the increasing cases of self-immolations by 
        Tibetans.''
        <bullet> The incidence of Tibetans resorting to self-
        immolation accelerated sharply this past year and 
        spread from Sichuan province into Qinghai and Gansu 
        provinces and the Tibet Autonomous Region (TAR). Forty-
        five Tibetan self-immolations (39 fatal) reportedly 
        took place during the period from October--the start of 
        the Commission's reporting year--through August 27, 
        2012. Reports of self-immolators' calls for Tibetan 
        freedom and the Dalai Lama's return are concurrent with 
        increasing Chinese government and Party use of legal 
        measures to repress and control core elements of 
        Tibetan culture, and with the China-Dalai Lama 
        dialogue's failure to achieve any sign of progress. The 
        Party and government have not indicated any willingness 
        to consider Tibetan grievances in a constructive manner 
        and to hold themselves accountable for Tibetan 
        rejection of Chinese policies, and handled the crisis 
        as a threat to state security and social stability 
        instead of as a policy failure.
        <bullet> The status of religious freedom for Tibetan 
        Buddhists declined steeply. The government and Party 
        initiated unprecedented measures to further strengthen 
        control over the Tibetan Buddhist religion and monastic 
        institutions and transform them into entities 
        prioritizing loyalty to the Party and patriotism toward 
        China while seeking to bring to an end the Dalai Lama's 
        influence on Tibetans. Officials opened a TAR 
        ``comprehensive school for Tibetan Buddhism'' that the 
        Party expects to ``establish a normal order'' for the 
        religion that conforms to current Party and government 
        objectives. The Party established management committees 
        whose members are Party and government officials within 
        all TAR monasteries and nunneries. In a signed 
        statement, the Dalai Lama rejected Party attempts to 
        use historical misrepresentation and government 
        regulation to impose unprecedented control over 
        lineages of teachers whom Tibetan Buddhists believe are 
        reincarnations.
        <bullet> The Party and government increased pressure on 
        and interference with the Tibetan people's aspiration 
        to preserve the viability and vibrancy of their culture 
        and language. A senior Party official influential on 
        Tibet policy expressed views favoring ethnic 
        assimilation and ending or changing some policies that 
        have the potential to benefit ethnic minority cultures, 
        such as educational programs in ethnic minority 
        languages. Such views, if implemented, could adversely 
        affect the Tibetan people's cultural and linguistic 
        identity and further deepen resentment against the 
        government. The Party deployed teams of cadres to every 
        village-level administrative entity in the TAR to 
        strengthen Party grassroots control. The first-ever 
        such deployment will last at least through 2014. Public 
        security officials continued to detain Tibetan writers, 
        entertainers, and cultural advocates; Tibetan students 
        continued to protest language policy.
        <bullet> The Party and government continued to impose 
        ``adherence to a development path with Chinese 
        characteristics and Tibetan traits,'' a policy the 
        Political Bureau of the Party Central Committee 
        established in 2010 that subordinates Tibetan culture 
        and aspirations to Party economic, social, and 
        political objectives. A senior Party official 
        influential on Tibet policy called for development 
        initiatives in ethnic minority areas to promote 
        ``consolidating national unification and central 
        authority,'' and to promote and make irreversible 
        ``mixed habitation'' among ethnic groups. TAR officials 
        called for accelerating railroad construction; the 
        central government issued an opinion calling for the 
        settlement of all herders nationwide (including on the 
        Tibetan plateau) to be ``basically'' accomplished by 
        2015. Officials continued to detain Tibetans who 
        protested against development initiatives they consider 
        harmful to the environment.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

        <all> Urge the Chinese government to engage in 
        substantive dialogue with the Dalai Lama or his 
        representatives, without preconditions. Urge dialogue 
        on matters including protecting the Tibetan culture, 
        language, religion, and heritage within the Tibet 
        Autonomous Region (TAR) and the Tibetan autonomous 
        prefectures and counties in Qinghai, Gansu, Sichuan, 
        and Yunnan provinces. As tensions continue to rise in 
        Tibetan areas and Tibetans express their respect for 
        the Dalai Lama, a Chinese government decision to engage 
        in dialogue can result in a durable and mutually 
        beneficial outcome for the Chinese government and 
        Tibetans that will improve the outlook for local and 
        regional security in coming decades.
        <all> Urge the Chinese government to consider the role 
        of government regulatory measures and Party policies in 
        the wave of Tibetan self-immolations. Point out to 
        Chinese officials that if the government and Party 
        address Tibetan grievances in a constructive manner, 
        the results could benefit state security and social 
        stability; point out to Chinese officials that 
        strengthening the measures and policies that Tibetans 
        resent most strongly is unlikely to result in 
        conditions that could be characterized as consistent 
        with ``social stability'' or a ``harmonious society.''
        <all> Convey to the Chinese government the urgent 
        importance of refraining from expanding use of 
        intrusive management committees or legal measures to 
        infringe upon and repress Tibetan Buddhists' right to 
        the freedom of religion. Point out to Chinese officials 
        that government- and Party-led campaigns to establish a 
        new ``order'' for Tibetan Buddhism are inconsistent 
        with state respect for ``freedom of religious belief''; 
        and that increased pressure on Tibetan Buddhists 
        created by aggressive use of regulatory measures, 
        ``patriotic'' and ``legal'' education, and anti-Dalai 
        Lama campaigns is likely to harm ``social stability,'' 
        not protect it. Urge the government to respect the 
        right of Tibetan Buddhists to identify and educate 
        religious teachers in a manner consistent with Tibetan 
        preferences and traditions.
        <all> Request that the Chinese government follow up on 
        a 2010 statement by the Chairman of the TAR government 
        that Gedun Choekyi Nyima, the Panchen Lama whom the 
        Dalai Lama recognized in 1995, is living in the TAR as 
        an ``ordinary citizen'' along with his family. Urge the 
        government to invite a representative of an 
        international organization to meet with Gedun Choekyi 
        Nyima so that Gedun Choekyi Nyima can express to the 
        representative his wishes with respect to privacy; 
        photograph the international representative and Gedun 
        Choekyi Nyima together; and publish Gedun Choekyi 
        Nyima's statement and the photograph.
        <all> Convey to the Chinese government the importance 
        of respecting and protecting the Tibetan culture and 
        language. Urge Chinese officials to promote a vibrant 
        Tibetan culture by honoring the Chinese Constitution's 
        reference to the freedoms of speech, association, 
        assembly, and religion, and refraining from using the 
        security establishment, courts, and law to infringe 
        upon and repress Tibetans' exercise of such rights. 
        Urge officials to respect Tibetan wishes to maintain 
        the role of both the Tibetan and Chinese languages in 
        teaching modern subjects and not to consign Tibetan 
        language to inferior status by discontinuing its use in 
        teaching modern subjects.
        <all> Encourage the Chinese government to take fully 
        into account the views and preferences of Tibetans when 
        the government plans infrastructure, natural resource 
        development, and settlement or resettlement projects in 
        the Tibetan areas of China. Encourage the Chinese 
        government to engage appropriate experts in assessing 
        the impact of such projects and in advising the 
        government on the implementation and progress of such 
        projects.
        <all> Increase support for U.S. non-governmental 
        organizations to develop programs that can assist 
        Tibetans to increase their capacity to peacefully 
        protect and develop their culture, language, and 
        heritage; that can help to improve education, economic, 
        health, and environmental conservation conditions of 
        ethnic Tibetans living in Tibetan areas of China; and 
        that create sustainable benefits for Tibetans without 
        encouraging an influx of non-Tibetans into these areas.
        <all> Continue to convey to the Chinese government the 
        importance of distinguishing between peaceful Tibetan 
        protesters and rioters; condemn the use of security 
        campaigns to suppress human rights; and request the 
        Chinese government to provide complete details about 
        Tibetans detained, charged, or sentenced for protest-
        related crimes. Continue to raise in meetings and 
        correspondence with Chinese officials the cases of 
        Tibetans who are imprisoned as punishment for the 
        peaceful exercise of human rights. Representative 
        examples include: former Tibetan monk Jigme Gyatso (now 
        serving an extended 18-year sentence for printing 
        leaflets, distributing posters, and later shouting pro-
        Dalai Lama slogans in prison); monk Choeying Khedrub 
        (sentenced to life imprisonment for printing leaflets); 
        Bangri Chogtrul (regarded by Tibetan Buddhists as a 
        reincarnated lama, serving a sentence of 18 years 
        commuted from life imprisonment for ``inciting 
        splittism''); and nomad Ronggye Adrag (sentenced to 8 
        years' imprisonment for shouting political slogans at a 
        public festival).
        <all> Encourage the Chinese government to respect the 
        right to freedom of movement of Tibetans who travel 
        domestically, including for the purpose of visiting 
        Tibetan economic, cultural, and religious centers, 
        including Lhasa; to provide Tibetans with reasonable 
        means to apply for and receive documents necessary for 
        lawful international travel; to respect the right of 
        Tibetan citizens of China to reenter China after 
        traveling abroad; and to allow access to the Tibetan 
        autonomous areas of China to international journalists, 
        representatives of non-governmental organizations, 
        representatives of the United Nations, and United 
        States government officials.

                  Developments in Hong Kong and Macau

                                Findings

        <bullet> During the Commission's 2012 reporting year, 
        Hong Kong held its first elections since the 
        Legislative Council (LegCo) passed legislation in 2011 
        implementing electoral reforms that fell short of 
        provisions in Hong Kong's Basic Law concerning 
        universal suffrage. A 1,200-member selection committee 
        chose Hong Kong's chief executive in March 2012 in a 
        process that was inherently non-democratic. The 
        selection was characterized by extensive interference 
        by the mainland government, disregarding the principle 
        of ``one country, two systems.''
        <bullet> On September 9, 2012, Hong Kong held its first 
        LegCo elections since the 2011 electoral reforms. 
        Democracy advocates picked up three of the five new 
        seats created under the electoral reforms, and retained 
        the one-third of the seats needed to block 
        ``fundamental changes'' in Hong Kong laws, which may be 
        critical when LegCo considers legislation for the 2017 
        elections. However, pro-Beijing parties gained seats as 
        well, potentially leading to legislative gridlock.
        <bullet> In the run-up to the LegCo election, thousands 
        took part in demonstrations against Hong Kong's 
        controversial National Education Plan, and some Hong 
        Kong students and teachers staged a hunger strike to 
        protest the plan. In the face of the demonstrations, 
        Hong Kong's Chief Executive C Y Leung withdrew the 
        requirement that schools start teaching the Beijing-
        backed curriculum by 2015. Former chief executive 
        Donald Tsang initiated the plan in 2010, which the 
        People's Daily defended as in keeping with 
        international practice of ``patriotic education.'' 
        However, in an editorial in the New York Times, one 
        Hong Kong parent who took part in a demonstration 
        against the plan in July 2012 described the new 
        curriculum as a ``one-sided, totally positive portrayal 
        of Communist Party rule . . . .''
        <bullet> According to one journalists' organization, 
        press freedom deteriorated in Hong Kong in 2011, with 
        Hong Kong's international ranking dropping to 54th from 
        34th the previous year. Another organization listed the 
        Hong Kong press as ``partly free.'' Journalists in Hong 
        Kong report that press freedom has deteriorated, with 
        one prominent representative citing a number of causes, 
        including government control of information, rough 
        treatment of reporters, denial of media access to 
        events, restrictions on movement around government 
        offices, self-censorship, and censorship by media 
        outlets, many of the owners of which have business 
        interests in the mainland.
        <bullet> The government of Macau proposed reforms to 
        its electoral system, seeking an opinion from the 
        mainland Chinese National People's Congress Standing 
        Committee on the procedure for reform, and undergoing 
        two consultation exercises. The first consisted of 8 
        sessions, only 1 of which was open to the public, and 
        the second consisted of 10 sessions, only 3 of which 
        were open to the public. The final reforms were minor. 
        Some civil groups said the consultation exercise was 
        manipulated to ``fabricate'' public opinion. In June, 
        the National People's Congress Standing Committee 
        approved the proposed reforms, providing for the 
        addition of two directly elected and two indirectly 
        elected seats to the Legislative Assembly, and 
        increasing the number of members of the Chief Executive 
        Selection Committee from 300 to 400. In August, Macau's 
        Legislative Assembly passed laws making the proposed 
        changes, which one legislator had earlier described as 
        ``democracy rolling back.''

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

        <all> Continue to make every effort to visit Hong Kong 
        when traveling to mainland China. U.S. Government 
        delegations' meetings in Hong Kong should include 
        meetings with members of the Hong Kong Legislative 
        Council, officials with the Hong Kong government 
        administration, members of the judiciary, and 
        representatives of reporters' organizations. Such 
        meetings show U.S. support for a high degree of 
        autonomy in Hong Kong under the system of ``one 
        country, two systems'' and for rule of law.
        <all> In meetings with Chinese government officials, 
        urge them to allow the people of Hong Kong to enjoy the 
        high degree of autonomy articulated in the Basic Law 
        and the Sino-U.K. Joint Declaration, especially in 
        matters concerning elections, and to allow the 
        introduction of universal suffrage with ``one man, one 
        vote,'' if this is the wish of the people of Hong Kong.
        <all> Make every effort to visit Macau when traveling 
        to mainland China or Hong Kong. While there, meet with 
        members of the Legislative Assembly, especially 
        directly elected members, with the Macau government 
        administration, and with leaders outside the 
        government.
        <all> Support and encourage agencies and organizations 
        to explore projects to support the development of 
        democracy, and to strengthen democratic practices and 
        rule of law in Macau.

                      Political Prisoner Database

                            Recommendations

    When composing correspondence advocating on behalf of a 
political or religious prisoner, or preparing for official 
travel to China, Members of Congress and Administration 
officials are encouraged to:

        <bullet> Check the Political Prisoner Database (PPD) 
        (http://ppd.cecc.gov) for reliable, up-to-date 
        information on a prisoner or groups of prisoners. 
        Consult a prisoner's database record for more detailed 
        information about the prisoner's case, including his or 
        her alleged crime; specific human rights that officials 
        have violated; stage in the legal process; and location 
        of detention or imprisonment, if known.
        <bullet> Advise official and private delegations 
        traveling to China to present Chinese officials with 
        lists of political and religious prisoners compiled 
        from database records.
        <bullet> Urge U.S. state and local officials and 
        private citizens involved in sister-state and sister-
        city relationships with China to explore the database 
        and to advocate for the release of political and 
        religious prisoners in China.


                    a powerful resource for advocacy


    The Commission's 2012 Annual Report provides information 
about Chinese political and religious prisoners\1\ in the 
context of specific human rights and rule of law abuses. Many 
of the abuses result from the Chinese Communist Party's and 
government's application of policies and laws. The Commission 
relies on the Political Prisoner Database (PPD), a publicly 
available online database maintained by the Commission, for its 
own advocacy and research work, including the preparation of 
the Annual Report, and routinely uses the database to prepare 
summaries of information about political and religious 
prisoners for Members of Congress and Administration officials. 
The Commission invites the public to read about issue-specific 
Chinese political imprisonment in sections of this Annual 
Report and to access and make use of the upgraded PPD at http:/
/ppd.cecc.gov. (Information on how to use the PPD is available 
at: http://www.cecc.gov/pages/victims/index.php.)
    The PPD received approximately 61,900 online requests for 
prisoner information during the 12-month period ending August 
31, 2012. During the 12-month period ending in August 2012, the 
United States was the country of origin of the largest share of 
requests for information (approximately 51 percent), followed 
by China (20 percent), Germany (7 percent), France (4 percent), 
and Great Britain (3 percent). Approximately 19 percent of the 
requests originated from worldwide commercial (.com) Internet 
domains, 16 percent from worldwide network (.net) domains, 11 
percent from U.S. Government (.gov) domains, 5.4 percent from 
domains in Germany (.de), 2.9 percent from domains in France 
(.fr), 2.1 percent from U.S. education (.edu) domains, 1.0 
percent from domains in the Russian Federation (.ru), 0.8 
percent from worldwide nonprofit organization (.org) domains, 
0.8 percent from domains in Japan (.jp), and 0.6 percent from 
domains in Australia (.au). Approximately 36 percent of the 
requests for information were from numerical Internet addresses 
that do not provide information about the name of the 
registrant or the type of domain.


                          political prisoners


    The PPD seeks to provide users with prisoner information 
that is reliable and up-to-date. Commission staff members work 
to maintain and update political prisoner records based on the 
staff member's area of expertise. The staff seek to provide 
objective analysis of information about individual prisoners 
and about events and trends that drive political and religious 
imprisonment in China.
    As of September 1, 2012, the PPD contained information on 
6,989 cases of political or religious imprisonment in China. Of 
those, 1,475 are cases of political and religious prisoners 
currently known or believed to be detained or imprisoned, and 
5,514 are cases of prisoners who are known or believed to have 
been released, or executed, who died while imprisoned or soon 
after release, or who escaped. The Commission notes that there 
are considerably more than 1,475 cases of current political and 
religious imprisonment in China. The Commission staff works on 
an ongoing basis to add cases of political and religious 
imprisonment to the PPD.
    The Dui Hua Foundation, based in San Francisco, and the 
former Tibet Information Network, based in London, shared their 
extensive experience and data on political and religious 
prisoners in China with the Commission to help establish the 
database. The Dui Hua Foundation continues to do so. The 
Commission also relies on its own staff research for prisoner 
information, as well as on information provided by non-
governmental organizations (NGOs), other groups that specialize 
in promoting human rights and opposing political and religious 
imprisonment, and other public sources of information.


                   more powerful database technology


    The PPD has served since its launch in November 2004 as a 
unique and powerful resource for the U.S. Congress and 
Administration, other governments, NGOs, educational 
institutions, and individuals who research political and 
religious imprisonment in China or who advocate on behalf of 
such prisoners. The July 2010 PPD upgrade significantly 
leveraged the capacity of the Commission's information and 
technology resources to support such research, reporting, and 
advocacy.
    The PPD aims to provide a technology with sufficient power 
to cope with the scope and complexity of political imprisonment 
in China. The most important feature of the PPD is that it is 
structured as a genuine database and uses a powerful query 
engine. Each prisoner's record describes the type of human 
rights violation by Chinese authorities that led to his or her 
detention. These types include violations of the right to 
peaceful assembly, freedom of religion, freedom of association, 
and free expression, including the freedom to advocate peaceful 
social or political change and to criticize government policy 
or government officials.
    The design of the PPD allows anyone with access to the 
Internet to query the database and download prisoner data 
without providing personal information to the Commission and 
without the PPD downloading any software or Web cookies to a 
user's computer. Users have the option to create a user 
account, which allows them to save, edit, and reuse queries, 
but the PPD does not require a user to provide any personal 
information to set up such an account. The PPD does not 
download software or a Web cookie to a user's computer as the 
result of setting up such an account. Saved queries are not 
stored on a user's computer. A user-specified ID (which can be 
a nickname) and password are the only information required to 
set up a user account.

                            I. Human Rights


                         Freedom of Expression


                              Introduction

    During the Commission's 2012 reporting year, Chinese 
officials took steps to restrict free expression, control 
access to information, and punish those who peacefully 
expressed their opinions. The restrictions and punishments not 
only failed to comply with international human rights 
standards, but also violated rights and protections afforded 
under Chinese domestic legislation and the Constitution. While 
international standards permit states to restrict expression in 
limited circumstances to protect interests such as national 
security and public order, Chinese restrictions covered a much 
broader range of activity--including peaceful expression 
critical of the Communist Party and independent news reporting 
on human rights developments.
    Over the past year, Chinese authorities called for 
strengthening the Party's guidance of online opinion, targeted 
so-called ``online rumors,'' and consistently censored 
politically sensitive information. The dramatic increase in 
Internet users and microblog services appeared to create new 
challenges, and opportunities, for official censorship. As 
citizen expression on China's popular microblogs has grown, 
Chinese officials have implemented new regulations to exert 
stricter control over social media providers and users.
    Chinese authorities continued to harass and punish citizens 
for exercising their right to free expression. Officials 
continued to abuse vague criminal charges--including ``inciting 
subversion of state power''--to target peaceful discussion of 
government policies and political debate. Newly adopted 
regulations on journalists and real-name registration 
requirements on microblog users threatened to end online 
anonymity and produce a chilling effect. At the same time, 
Chinese authorities maintained broad regulations and 
registration requirements applicable to journalists, 
publishers, news media organizations, and Internet users.

              International Standards for Free Expression

    Many official Chinese restrictions on free expression 
failed to comply with international human rights standards. 
Article 19 of the International Covenant on Civil and Political 
Rights (ICCPR) and Articles 19 and 29 of the Universal 
Declaration of Human Rights permit officials to restrict 
expression so long as it is (1) for the purpose of respecting 
the rights or reputations of others or protecting national 
security, public order, public health or morals, or the general 
welfare; (2) set forth in law; and (3) necessary and the least 
restrictive means to achieve the purported aim.\1\ Regarding 
the purpose requirement, the UN Human Rights Council (UNHRC) 
has said restrictions on ``discussion of government policies 
and political debate,'' ``peaceful demonstrations or political 
activities, including for peace or democracy,'' and 
``expression of . . . dissent,'' are inconsistent with Article 
19 of the ICCPR.\2\ In June 2012, the UNHRC passed a landmark 
resolution supporting freedom of expression on the Internet, 
affirming that ``the same rights that people have offline must 
also be protected online, in particular freedom of expression, 
which is applicable regardless of frontiers and through any 
media of one's choice.'' \3\
    As outlined in this section, Chinese officials continued to 
restrict expression on the Internet and in the media for 
purposes that are impermissible under international law, such 
as to stifle peaceful criticism of the Communist Party. As to 
restrictions clearly set forth in law, this past year, Chinese 
officials abused vaguely worded criminal law provisions and 
resorted to extralegal measures to restrict free expression 
arbitrarily. As documented in this section, Chinese 
restrictions continued to be overly broad and disproportionate 
in protecting stated interests.

                  Internet and Other Electronic Media


                BLOCKING AND FILTERING POLITICAL CONTENT

    This past year, Chinese authorities continued attempts to 
block and filter online content deemed politically sensitive by 
implementing large-scale deletions, instituting real-name 
registration requirements, forcing Web site closures, 
implementing censorship directives, and carrying out 
detentions.\4\ Chinese officials remained non-transparent in 
disclosing content that is blocked or why it is blocked, and 
officials continued to block content arbitrarily for purposes 
impermissible under international standards.\5\ Chinese 
official censors maintained a growing list of blacklisted 
keywords as they tried to prevent the public from circulating 
information about controversial developments and news topics, 
including legal advocate Chen Guangcheng's April 2012 escape 
from illegal home confinement, the June 2012 Tianjin shopping 
mall fire,\6\ the August 2012 Gu Kailai criminal trial,\7\ and 
the 2011 anticorruption and land rights protests in Wukan 
village.\8\
    In late 2011, Chinese authorities announced plans to step 
up efforts to ``stop rumors and punish individuals and Web 
sites spreading rumors.'' \9\ In late March and early April 
2012, officials intensified the clampdown on Internet users and 
microbloggers following controversial news developments and 
various unsubstantiated reports of a coup in Beijing.\10\ 
Xinhua, for instance, reported on March 30 that the State 
Internet Information Office (SIIO) and Beijing public security 
officials closed 16 Web sites and detained 6 people responsible 
for ``fabricating or disseminating online rumors.'' \11\ 
Chinese authorities initiated an unprecedented three-day 
suspension of comment functions on two of China's most popular 
microblogging service providers, Sina and Tencent, from March 
31 to April 3.\12\ A lack of government transparency 
surrounding the suspension of services and Web site closures 
makes it difficult to confirm the nature of information being 
targeted and to determine the legitimacy of these actions. The 
suspensions and closures, in some cases, appeared politically 
motivated and appeared to counter internationally promoted 
standards on freedoms of opinion and expression.\13\
    In addition to restrictions on social media Web sites, 
Chinese regulators issued new regulations on online video 
content. In July 2012, the SIIO and the State Administration of 
Radio, Film and Television (SARFT) jointly issued a circular 
that requires online video content providers to review videos 
before making them available online and informs content 
providers that they will be held responsible for online video 
content on their sites.\14\ In discussing the circular, a 
spokesperson for SARFT claimed that the policy will ``adhere to 
the correct orientation and dissemination of mainstream 
values.'' \15\ A China Daily report quoted a film theorist who 
said that online videos and micro-films (commonly referring to 
short-length films appearing on the Internet) require 
supervision in order to avoid negatively influencing the 
masses.\16\ Internet users, however, reportedly criticized the 
efforts to further manage and control online content.\17\
    Officials continued to detain and harass Chinese citizens 
who sought to share online material that authorities deem to be 
politically sensitive. In April 2012, public security officials 
in Guangzhou city, Guangdong province, criminally detained 
Internet user Xu Lin and later held him under ``residential 
surveillance'' at an undisclosed location, after he attended a 
public protest in support of officials' financial disclosure 
and posted ``sensitive'' material online.\18\ Authorities 
prevented Xu's lawyers and family members from visiting him 
until July, stating that Xu's case involved ``state secrets.'' 
\19\ On July 5, authorities reportedly sent Xu home and placed 
him under ``soft detention'' (ruanjin), a form of illegal home 
confinement.\20\
    Chinese regulatory and legal measures do not clearly define 
prohibited online content. Chinese Internet regulations contain 
vague and broad prohibitions on content that, for example, 
``harms the honor or interests of the nation,'' ``spreads 
rumors,'' or ``disrupts national policies on religion.'' \21\ 
Chinese law does not define these concepts, and Chinese law 
does not contain specific benchmarks to establish whether an 
action presents a ``harm'' to the ``honor or interests of the 
nation.'' \22\ In China, the government places the burden on 
Internet service and content providers to monitor and remove 
content based on these vague standards and to maintain records 
of such activity and report it to the government.\23\

------------------------------------------------------------------------
                    Microblogging and Free Expression
-------------------------------------------------------------------------
  During this reporting year, China's Twitter-like microblogging (weibo)
 sites continued strong growth and continued to develop as prominent
 places for Internet users to voice discontent over controversial
 topics, organize collective actions, and circulate independent news
 reports.\24\ China's microblogging sites--including China's most
 popular microblog site Sina Weibo--experienced dramatic growth with 250
 million registered accounts at the end of 2011, compared with 63
 million at the end of 2010.\25\ Despite weibo censorship and
 blacklisted keywords, rights advocates, citizen journalists, and others
 successfully used various methods to circumvent official guidelines and
 circulate information online throughout the reporting year.\26\ In
 addition, advocates and activists used virtual private networks (VPNs),
 among other techniques, to access U.S.-based microblogging service
 provider Twitter (which has been blocked in China since June 2009),\27\
 as well as other social networking sites blocked in China.\28\ In 2012,
 academics at Massachusetts Institute of Technology, Harvard University,
 Carnegie Mellon University, and the University of Hong Kong released
 separate reports and data on how weibo censors work and on official
 trends in weibo censorship.\29\ In the Harvard study, for instance,
 researchers found that ``criticism of the state, its leaders, and its
 policies are not more likely to be censored''; however, the censors
 focused on ``curtailing collective action by silencing comments that
 represent, reinforce, or spur social mobilization, regardless of
 content.'' \30\
  With the rising popularity of microblogging services, Chinese
 authorities announced calls for restrictions over microblog service
 providers and users, citing official concerns over the dissemination of
 ``online rumors'' (wangluo yaoyan).\31\ While China's central
 government news agency Xinhua reported ``surging numbers of online
 rumors,'' the calls also appeared to target citizens' legitimate rights
 to free expression.\32\ In recent years, microblog users have used
 online services to publicize controversial incidents or news--including
 the 2011 Wenzhou train collision,\33\ the 2011 Gansu school bus
 crash,\34\ and information related to the investigation of former
 Political Bureau of the Communist Party Central Committee (Politburo)
 member and former Party Secretary of Chongqing municipality Bo Xilai
 \35\--despite strict directives censoring the topics in state-run news
 media. The widespread dissemination of sensitive microblog posts
 appeared to have influenced official reactions in high-profile cases,
 such as the investigation of Wang Lijun, former vice-mayor and head of
 the public security bureau in Chongqing.\36\
------------------------------------------------------------------------


------------------------------------------------------------------------
              Microblogging and Free Expression--Continued
-------------------------------------------------------------------------
  Government agencies and departments also used social media Web sites
 and microblogging tools for official purposes. In August 2012, Sina, a
 leading Chinese Web site, released its first report on microblogs
 operated by ministry-level departments.\37\ According to the report,
 the Chinese government, at all levels, manages more than 50,000
 microblog accounts.\38\ Official statements on microblogging have
 consistently emphasized using social media technology ``to promote
 social harmony and stability.'' \39\ On October 18, 2011, a document
 circulated at the Sixth Plenary Session of the 17th Central Committee
 of the Chinese Communist Party advocated ``strengthening the guidance
 and management of social networks and instant communication tools.''
 \40\ In December 2011, Beijing municipality and other cities issued
 microblog regulations that require users to provide real-name
 registration information to their microblogging service provider in
 order to verify identities of users.\41\ In June 2012, the State
 Internet Information Office announced plans to expand these pilots
 nationally by amending national measures that oversee the
 administration of Internet sites, including blogs and microblog service
 providers.\42\ In addition to requiring real-name registration, the new
 regulations would also strengthen legal enforcement by requiring
 Internet companies to cooperate with public security bureau branches
 and by threatening criminal and administrative punishments for failing
 to comply.\43\
  In line with official actions, Chinese officials also appeared to
 pressure domestic social media companies to enforce stricter guidelines
 and controls over user content. In an August 2011 visit to the Beijing
 headquarters of Sina Corporation, which operates Sina Weibo, Politburo
 member Liu Qi reportedly told Internet companies to ``step up the
 application and management of new technology, and absolutely put an end
 to fake and misleading information.'' \44\ In May 2012, in line with
 increased sensitivity surrounding high-profile incidents, Sina Weibo
 introduced new user guidelines covering what users can post online and
 instituting a points-based self-censorship structure.\45\
------------------------------------------------------------------------

          EXPANDING OVERALL ACCESS, WHILE MAINTAINING CONTROL

    According to the China Internet Network Information Center, 
the administrative agency responsible for Internet affairs, 
there were over 538 million Internet users in China by the end 
of June 2012--an increase of 53 million users since June 
2011.\46\ By April 2012, statistics indicated there were 1.02 
billion mobile phone accounts, according to information from 
three of the country's leading telecommunications 
operators.\47\
    The Chinese government has pledged to expand access to 
mobile technologies and the Internet to promote economic 
development and increase government propaganda.\48\ According 
to the Ministry of Industry and Information Technology's 
``Internet Industry `12th Five-Year Development Plan,''' 
Chinese officials expect the number of Internet users to grow 
to more than 800 million people by 2015, including more than 
200 million rural Internet users.\49\ In the 2012-2015 National 
Human Rights Action Plan, the Chinese government also sets its 
target of increasing Internet penetration in the country to 
more than 45 percent by 2015.\50\
    Official statements and actions continue to emphasize 
control rather than freedom on the Internet.\51\ Nevertheless, 
international observers and foreign media continue to note the 
difficulties officials have in controlling this emerging and 
vibrant space for expression, including expression of criticism 
of the government and discussion of some politically sensitive 
topics.\52\

            Abuse of Criminal Law To Punish Free Expression

    Officials continued to use vague criminal charges to 
imprison rights advocates, writers, Internet essayists, 
democracy advocates, and citizen journalists who engaged in 
peaceful expression and assembly.\53\ In late 2011 and early 
2012, Chinese officials sentenced numerous rights advocates and 
writers in connection with the crackdown that followed protests 
in the Middle East and North Africa and calls for ``Jasmine'' 
protests domestically.\54\ For instance, the Hangzhou City 
Intermediate People's Court in Zhejiang province sentenced 
writer and democracy rights advocate Zhu Yufu to seven years' 
imprisonment for ``inciting subversion of state power.'' \55\ 
The prosecutor's indictment reportedly included a poem Zhu 
wrote as evidence, as well as ``other writings he had published 
online, his calls for monetary donations for prisoners of 
conscience, and interviews that he had given.'' \56\ The harsh 
sentence against Zhu followed other severe sentences imposed by 
Chinese courts in December and January, including sentences 
against writers and democracy advocates Chen Wei, Chen Xi, and 
Li Tie.\57\
    Officials also sentenced rights advocates on charges of 
``creating disturbances,'' a crime under Article 293 of the PRC 
Criminal Law.\58\ In April 2012, for example, the Xicheng 
District People's Court in Beijing municipality sentenced 
housing rights advocate and lawyer Ni Yulan to two years and 
eight months' imprisonment on charges that included ``creating 
a disturbance'' by hanging a banner outside her residence.\59\ 
The same court sentenced her husband to two years' imprisonment 
for ``creating a disturbance.'' \60\ The actual threat these 
citizens posed to state security and public order--or the 
motivation for official action--is unclear, as details 
regarding many of these cases remain limited. Available 
information suggests that officials targeted the citizens to 
suppress political expression and dissent.\61\
    Many of those targeted during the year had records of 
criticizing the government and Communist Party and advocating 
for democracy and human rights.\62\ In addition, Chinese 
criminal defense lawyers and suspects in free speech cases 
continued to face substantial obstacles in ensuring procedural 
safeguards and compliance with the right to a fair trial.\63\

                         Extralegal Harassment

    Chinese officials continued to physically harm, restrict 
the travel of, and otherwise extralegally harass citizens to 
control information and stifle expression.\64\ In suppressing 
free speech rights, Chinese security authorities not only 
targeted Chinese citizens who sought to express their opinions 
peacefully, but also targeted their family members and 
acquaintances. In March 2012, officials forced the closure of 
democracy rights advocate Yao Lifa's blog. According to the 
non-governmental organization (NGO) Chinese Human Rights 
Defenders, authorities had subjected Yao and his family members 
to a range of abuses since 2011, including repeated arbitrary 
detention and harassment.\65\ In January 2012, author and 
former vice president of the Independent Chinese PEN Center, Yu 
Jie, left China for the United States with his family, after 
reportedly being subjected to years of official harassment.\66\ 
At a January 18, 2012, press conference in Washington, D.C., Yu 
detailed how police harassed and tortured him while he was 
detained in December 2010.\67\
    Beijing authorities continued to harass well-known artist 
and rights advocate Ai Weiwei, who was charged with tax evasion 
while detained at an undisclosed location for 81 days under 
``residential surveillance'' in 2010.\68\ According to a March 
2012 New York Times article, officials reportedly held Ai in 
harsh conditions and threatened him with a range of criminal 
charges, including subversion, during his off-site 
detention:\69\

          In two different centers, Mr. Ai was confined to a 
        cramped room with guards watching him around the clock. 
        The second site, a military compound, was harsher, he 
        said: lights remained on 24 hours, a loud fan whirred 
        and two men in green uniforms stared silently from less 
        than three feet away. Mr. Ai got two to five hours of 
        sleep each night. He stuck to a minute-by-minute 
        schedule dictating when he would eat, go to the toilet 
        and take a shower. Mr. Ai . . . lost 28 pounds.\70\

    Although authorities released Ai on bail in June 2011, 
ongoing surveillance and a tax evasion case against Ai led the 
artist and his supporters to claim that this official 
harassment was politically motivated, amounting to retribution 
for his outspoken criticism of official actions and government 
policies.\71\ In a June 2012 online video, Ai claimed that 
officials continued to hold him under ``soft detention'' (ruan 
jin), an illegal form of limited home confinement, to ``punish 
[him] because [of his] activities in criticizing the violation 
of . . . very essential human rights . . . .'' \72\

------------------------------------------------------------------------
      Chinese Authorities React to the ``Chen Guangcheng Incident''
-------------------------------------------------------------------------
  Following the high-profile escape of legal advocate Chen Guangcheng
 from illegal home confinement in Linyi city, Shandong province, Chinese
 authorities strictly controlled information about Chen and censored
 keywords related to Chen and his escape.\73\ According to international
 news reports, Chinese search engines removed a number of keywords that
 could directly or indirectly refer to Chen, including variations of
 Chen's name (in Chinese and English), Chaoyang Hospital, U.S. Embassy,
 ``blind man,'' and ``UA898.'' \74\ Internet users searching censored
 terms on Sina Weibo received the message: ``According to relevant laws
 and policies, results are not displayed.'' \75\
------------------------------------------------------------------------


------------------------------------------------------------------------
Chinese Authorities React to the ``Chen Guangcheng Incident''--Continued
-------------------------------------------------------------------------
  Despite the tight controls, some Chinese Internet users were able to
 post and circulate information about the case using coded language to
 circumvent restrictions. Some users, for instance, referred to Chen as
 ``A Bing,'' a well-known Chinese blind folk singer.\76\ (Chen is also
 blind.) One online user reportedly discussed the escape through a story
 of ``a mole who was surrounded by a pack of wolves, but with the help
 of some mice he managed to escape.'' \77\ Other Internet users
 reportedly re-posted popular quotes and images related to the rights
 advocate.\78\
------------------------------------------------------------------------

                          Freedom of the Press

    Chinese government and Communist Party control over the 
press continued to violate international standards. 
International experts have identified media serving ``as 
government mouthpieces instead of as independent bodies 
operating in the public interest'' as a major challenge to free 
expression.\79\ In its annual press freedom index, for 
instance, NGO Reporters Without Borders ranked China 174th out 
of 179 countries in terms of press freedoms, citing various 
concerns including those over official actions to prevent 
critical news reporting and efforts to increase ``censorship 
and propaganda.'' \80\
    In China, officials expect the media to serve as the Party 
and government's ``mouthpiece.'' \81\ In December 2011, some 
Chinese Internet users reacted critically to comments 
reportedly made by Hu Zhanfan--then chief editor of the 
Guangming Daily and current president of state-run broadcaster 
China Central Television (CCTV)--in January of the same 
year.\82\ In his public remarks, Hu condemned journalists for 
failing to view ``their own role in terms of the propaganda 
work of the Party'' and reportedly said that ``the first and 
foremost social responsibility [of journalists] is to serve 
well as a mouthpiece tool.'' \83\ Officials and state-run media 
agencies frequently criticized journalists who undertook 
``negative'' (fumian) news reporting.\84\ In May 2012, for 
instance, the Beijing Daily, official newspaper of the Beijing 
Municipality Communist Party Committee, published an editorial 
criticizing the ``poison'' of Western-style journalism and 
negative press reports on topics such as food safety and 
official corruption.\85\ The editorial censured media workers 
who ``indiscreetly criticize under the banner of `objective 
reporting,''' claiming that China needed media professionals 
who ``are responsible and reliable, [who] truly protect the 
fundamental interests of the nation, the public and the Chinese 
peoples.'' \86\

                       PUNISHMENT OF JOURNALISTS

    While the 2012-2015 National Human Rights Action Plan of 
China announced official intentions to safeguard ``the 
legitimate rights and interests of news agencies, journalists, 
editors and other persons concerned,'' Chinese authorities 
continued to punish journalists, news anchors, and news media 
outlets that publish sensitive or independent news reports.\87\
    The Commission observed numerous reports of Chinese press 
companies taking actions to punish, suspend, or remove 
outspoken and independent journalists and newspaper staff. In 
October 2011, for example, popular news magazine Caijing 
reportedly forced Shanghai municipality-based reporter Yang 
Haipeng to resign after he publicized apparent procedural 
abuses in the Shanghai Mihang District People's Court case 
against his wife.\88\ (Yang's wife was sentenced to four years 
imprisonment on corruption charges the week following his 
resignation.) \89\ In November, Yang claimed the resignation 
followed pressure on the magazine from Shanghai authorities and 
warnings to ``remain silent'' on the matter.\90\ In some cases, 
state-run media responded with disciplinary actions against 
journalists and news anchors who exercised free speech. In 
April 2012, authorities reportedly suspended CCTV news anchor 
Zhao Pu after he posted a microblog message warning people, 
especially children, to avoid consuming yogurt in apparent 
connection to concerns that yogurt and jelly products contained 
industrial gelatin made from discarded leather shoes.\91\ In 
July 2012, the Xi'an Evening News terminated the contract of 
journalist Shi Junrong after Shi reported on a local Communist 
Party meeting at which attendees smoked a costly brand of 
luxury cigarettes.\92\ Also in July, Chinese officials 
reportedly ordered the reshuffling of staff positions at a 
newspaper in Shanghai and a newspaper in Guangzhou 
municipality, Guangdong province, to remove top editorial staff 
in a move that the International Federation of Journalists 
characterized as a political shakeup.\93\

     POLITICAL CONTROL OF MEDIA THROUGH REGULATION OF EDITORS AND 
                              JOURNALISTS

    All media organizations in China are subject to an 
extensive licensing system and government supervision.\94\ In 
order to report the news legally, domestic newspapers, 
magazines, Web sites, and individual journalists must obtain a 
license or accreditation from the government.\95\ Radio and 
television broadcast journalists must pass a government-
sponsored exam that tests them on basic knowledge of Marxist 
views of news and Communist Party principles.\96\
    In order to address official concerns over ``false 
information'' in news reports, the General Administration of 
Press and Publication (GAPP) released regulations in mid-
October 2011 that aim to control journalists' use of 
``unverified information'' and to regulate news agencies' 
review procedures.\97\ The regulations prohibit Chinese 
journalists from directly including ``unverified information'' 
obtained from the Internet or mobile text messages in their 
reporting.\98\ In addition, the regulations require that news 
agencies improve the system of accountability for ``fake'' or 
``false'' news reports, terms which are not defined in the 
regulations.\99\ Some mainland Chinese journalists decried the 
regulations as ``another move to step up censorship,'' and one 
Oriental Morning Post journalist claimed the regulations could 
endanger cross-regional reporting--which refers to instances 
when media in one region reports on sensitive events or local 
governments in another region.\100\

                          FOREIGN JOURNALISTS

    This past year the Commission continued to monitor official 
harassment of foreign journalists as they attempted to report 
on news and events considered sensitive by Chinese officials. 
In February 2012, journalists with French broadcaster France 24 
and the Netherlands Press Association reported being assaulted 
by what appeared to be plainclothes police or ``hired thugs'' 
while investigating illegal land seizures in Panhe village, 
Cangnan county, Wenzhou municipality, Zhejiang province.\101\ 
The Foreign Correspondents Club in China (FCCC) issued a 
statement on these assaults and a separate incident involving a 
Dutch journalist who was reportedly attacked by men ``who 
appeared to be plain-clothes police.'' \102\ The FCCC also 
warned members to be ``especially alert'' while reporting in 
Panhe village.\103\ In August 2012, the Foreign Correspondents' 
Club, Hong Kong released a statement on a series of incidents 
in which international news reporters working in China were 
threatened, harassed, and beaten.\104\ The statement, co-signed 
by the Beijing-based FCCC and its sister organization in 
Shanghai, expressed alarm over the frequency of abuses and said 
the incidents represented ``a clear risk of serious physical 
harm to journalists merely carrying out their professional 
duties in China.'' \105\
    Chinese authorities also reportedly took action against at 
least one foreign news agency. In May 2012, Chinese officials 
forced the closure of Al Jazeera English's Beijing bureau 
office after authorities ``refused to renew its correspondent's 
press credentials and visa, or allow a replacement 
journalist,'' according to an Al Jazeera report.\106\ The FCCC 
released a statement following the decision addressing 
officials' lack of transparency: ``[Chinese officials] 
expressed unhappiness with the general editorial content on Al 
Jazeera English and accused [its English-language reporter] of 
violating rules and regulations that they [did] not 
[specify].'' \107\ The statement called the expulsion ``a grave 
threat to foreign reporters' ability to work in China.'' \108\ 
The reporter was the first accredited foreign journalist to be 
denied reporting privileges since 1998.\109\

                             Worker Rights


                              Introduction

    Workers in China still are not guaranteed, either by law or 
in practice, full worker rights in accordance with 
international standards, including the right to organize into 
independent unions. Authorities continued to harass, abuse, and 
detain advocates for worker rights. The All-China Federation of 
Trade Unions (ACFTU), the official union under the direction of 
the Communist Party, is the only legal trade union organization 
in China. All lower level unions must be affiliated with the 
ACFTU.
    During the 2012 reporting year, the Chinese government and 
Communist Party faced the challenge of accommodating an 
increasingly rights-conscious workforce during a domestic 
macroeconomic slowdown. Worker demonstrations continued in 
various locations and industries, in some instances in response 
to cost-cutting measures taken by management that threatened 
workers' wages or benefits.
    Following international reports on working conditions at 
suppliers for Apple, Inc., Apple and Foxconn--a Taiwan-based 
multinational electronics manufacturer, major supplier for 
Apple, and reportedly the largest private employer in China--
began implementing a program to improve conditions at Foxconn 
factories across China. Some observers have argued that this 
plan, if implemented as described, could create incentives for 
other employers in China to improve conditions for workers.

                         Freedom of Association

    The Chinese government continued to prevent workers from 
exercising their constitutional right to freedom of association 
\1\ this past year. Trade union activity can only be organized 
under the All-China Federation of Trade Unions (ACFTU),\2\ an 
organization under the direction of the Communist Party.\3\ 
Leading union officials hold concurrent high-ranking positions 
in the Party.\4\ The ACFTU Constitution and the PRC Trade Union 
Law task the ACFTU with protecting the legal rights and 
interests of workers while supporting the leadership of the 
Party and the broader goals and interests of the government.\5\
    Beginning in early 2012, authorities in Shenzhen 
municipality, Guangdong province, reportedly increased pressure 
on several worker services non-governmental organizations 
(NGOs) to stop their work. Between February and May, the 
landlords of four such NGOs terminated their leases early, 
reportedly under pressure from local authorities.\6\ The 
landlord of a fifth NGO ordered that organization to leave its 
rented office two years before the end of its lease, and 
officials from a local commerce bureau ordered a sixth NGO to 
stop work or move out because it had not registered with the 
government.\7\ In August 2012, local fire department officials 
inspected another such NGO in Shenzhen, a step that reportedly 
had preceded the lease terminations in at least two of the 
earlier cases.\8\ According to media sources, since the start 
of the crackdown, the total number of NGOs that have been 
forced to close had reached 10 by early September.\9\ In May 
2012, authorities in Guangdong established a coalition of 
worker services NGOs under the leadership of the provincial 
trade union,\10\ and at least some of the NGOs that experienced 
harassment reportedly believed that, through the coalition, 
local officials intended to bring NGOs viewed as cooperative 
under their supervision while isolating more independent 
NGOs.\11\

                         COLLECTIVE BARGAINING

    Tasked with Party and government loyalty, local-level 
unions did not consistently or uniformly advance the rights of 
workers this past year. ACFTU branches reportedly continued to 
prioritize ``harmony'' and ``stability'' in labor 
relations,\12\ and in some cases union representatives sought 
to end disputes expediently without necessarily addressing 
workers' grievances. For example, after a December 2011 strike 
over bonus reductions at an electronics factory in Nanjing 
municipality, Jiangsu province, high-level Nanjing Party and 
union officials reportedly instructed local union officials to 
resolve the dispute quickly and maintain ``stability.'' \13\ 
Local union representatives reportedly did not make demands on 
behalf of workers in negotiations and instead tried to persuade 
them to return to work.\14\ In other cases, workers lacked 
knowledge of union functions, preventing them from accessing 
union representation. For example, out of more than 35,000 
Foxconn workers surveyed in a March 2012 Fair Labor Association 
report, 70 percent reported they did not know whether worker 
representatives participated in their factory's decisionmaking 
processes.\15\

                         COLLECTIVE CONTRACTING

    In May 2012, the Ministry of Human Resources and Social 
Security reportedly announced it had begun consulting with 
other authorities, including the ACFTU, to research options for 
legislation to further promote the use of collective 
contracts,\16\ but the Commission observed no further reports 
on this initiative. Collective contracts--contracts produced 
through consultations between workers and management that 
regulate issues such as compensation, work hours, breaks and 
vacations, safety and health, and insurance and benefits \17\--
have been part of Chinese labor relations since the 1990s,\18\ 
and the ACFTU has championed collective contracts and 
negotiations as important foundations for trade union work at 
the enterprise level.\19\

------------------------------------------------------------------------
             Direct Union Elections in Shenzhen Municipality
-------------------------------------------------------------------------
  Authorities in Guangdong province took steps this past year to promote
 direct elections of trade union representatives. On May 27, 2012,
 workers at the Omron electronics factory elected a union chair through
 direct, secret ballot elections for the first time, after several
 hundred employees demanded direct elections.\20\ Wang Tongxin, Vice
 Chairman of the Shenzhen Municipal Federation of Trade Unions,
 reportedly said most enterprises did not have a system of direct union
 elections but that local ACFTU branches in Shenzhen would ``guide'' 163
 Shenzhen-based enterprises to change their leadership in 2012 through
 ``democratic elections.'' \21\
------------------------------------------------------------------------

                             Worker Actions

    During the past reporting year, workers continued to stage 
protest demonstrations in various locations in China in 
response to systemic labor-related grievances, such as 
inadequate pay or benefits,\22\ excessive overtime demands,\23\ 
and abusive management practices.\24\ For example, from late 
fall 2011 through early 2012, workers held a series of 
demonstrations that some international media and worker rights 
advocates characterized as the most significant since the 
summer of 2010.\25\ The exact number of worker actions that 
occurred during this period is difficult to determine, but they 
involved multiple industries and occurred in at least 10 
provincial-level areas.\26\ The demonstrations coincided with a 
reported slowdown in China's manufacturing and export 
sectors,\27\ and, in some cases, workers demonstrated in 
response to cost-cutting measures that threatened workers' 
wages or benefits.\28\ In some of those cases, workers said 
their motivations for demonstrating included management's 
failure to consult with them in implementing cost-cutting 
measures.\29\
    The government and Party continued to express concern over 
the effect of worker actions on ``harmony'' and ``stability.'' 
For example, in a February 15, 2012, statement, the Ministry of 
Human Resources and Social Security (MOHRSS) described 
``harmonious labor relations'' as an ``urgent and important 
political duty that we must grasp.'' \30\ In another example, 
in a July 2012 article in the People's Daily--the official news 
media of the Communist Party--ACFTU Vice Chairman Zhang Mingqi 
said, ``Currently, China's overall labor relations are 
harmonious and stable, but at the same time, a situation is 
emerging in which labor disputes, in particular collective 
labor disputes, are happening more easily and in greater 
numbers.'' \31\ Tasked with ``maintaining stability,'' 
officials in some cases reportedly used force against or 
detained demonstrating workers. For example, in October 2011, 
public security officials in Shaodong county, Shaoyang 
municipality, Hunan province, reportedly ordered coal worker 
Zhao Zuying to serve 10 days of administrative detention after 
Zhao and 18 others gathered in a public square in Shaoshan 
city, Xiangtan municipality, Hunan, and expressed grievances 
over restructuring of the mines where they worked.\32\ 
Officials reportedly used force to stop worker demonstrations 
in locations including Dongguan city, Guangdong province;\33\ 
Shanghai municipality;\34\ Huzhou municipality, Zhejiang 
province;\35\ and Chengdu city, Sichuan province.\36\

------------------------------------------------------------------------
    Labor Rights Advocate Li Wangyang  Dies Under Police Surveillance
-------------------------------------------------------------------------
  On June 6, 2012, hospital authorities in Shaoyang city, Hunan
 province, notified the family of labor rights advocate and 1989
 Tiananmen protester Li Wangyang that Li had committed suicide by
 hanging himself in the hospital while under police surveillance.\37\ Li
 previously served 11 years in prison for trying to form an independent
 union and 10 years for going on a hunger strike to demand compensation
 for maltreatment suffered in prison.\38\ Li's family, Hong Kong
 officials, and Hong Kong and international supporters expressed doubts
 that Li's death was a suicide,\39\ in part due to his positive demeanor
 before his death and disabilities that hindered his mobility.\40\
  Authorities at the hospital reportedly prevented access to Li before
 and after his death. Authorities prohibited Li's sister Li Wangling
 \41\ and brother-in-law Zhao Baozhu from approaching the body or taking
 pictures.\42\ On June 3, officials took into custody two rights
 advocates who visited Li,\43\ and, on June 7, officials took Zhao and
 Li Wangling into custody.\44\ Officials claimed that an autopsy was
 conducted on June 8 that ruled the death a suicide, but family members
 denied ever signing off on such report.\45\ Hong Kong-based and
 international observers criticized the government's handling of the
 case, prompting officials to announce further investigations.\46\
 Subsequent investigations by officials concluded Li killed himself, but
 Australian forensic experts who examined the available information
 raised questions in an August 2012 report regarding the evidence for
 suicide and whether the investigations met international standards.\47\
------------------------------------------------------------------------

 Provisions on Consultation and Mediation for Enterprise Labor Disputes

    On November 30, 2011, the MOHRSS issued the Provisions on 
Consultation and Mediation for Enterprise Labor Disputes 
(Provisions), effective January 1, 2012.\48\ The PRC Labor 
Dispute Mediation and Arbitration Law allows workers (or unions 
acting on behalf of workers) and management to appoint 
representatives to committees responsible for mediating 
disputes in the workplace,\49\ and the Provisions require all 
medium and large enterprises to establish such committees.\50\ 
The Provisions also stipulate some additional, limited 
protections for worker rights. For example, upon receiving a 
complaint from workers about the implementation of a contract, 
collective contract, labor statute, or internal enterprise 
regulation, mediation committees must either coordinate with 
the enterprise to rectify the problem or give workers an 
explanation.\51\ The Provisions also require these committees 
to publicize labor laws, regulations, and policies in the 
workplace,\52\ and the Provisions clarify consultations by 
stipulating that the parties can specify a length of time for 
consultations \53\ and that agreements reached through 
consultations are binding.\54\
    The Provisions, however, fail to address the fact that 
workers in China are not guaranteed the right to organize into 
independent unions, leaving the government, Party, and 
employers with greater bargaining power in dispute resolution. 
The Provisions require enterprises to ``guide workers to 
protect their rights rationally'' \55\ and require local 
bureaus of the MOHRSS to ``guide enterprises'' to respect laws, 
regulations, and policies related to worker rights.\56\ The 
Provisions also stipulate that state-sanctioned unions ``may 
take the initiative to participate in the handling of labor 
dispute consultations and protect workers' lawful rights and 
interests.'' \57\

                            Migrant Workers

    Migrant workers--rural residents who have left their place 
of residence to seek non-agricultural jobs in cities \58\--
remained particularly vulnerable to exploitation in the 
workplace, facing problems such as wage arrears, ineffective 
means of redress of grievances, and abuse from managers. 
Migrant workers typically lack urban residency status and have 
low levels of education, income, and perceived social 
status.\59\ In one 2012 case, prior to the spring festival--a 
period when many migrant workers return home to their 
families--managers at a construction company in Xiangtan 
municipality, Hunan province, reportedly withheld 1,666,000 
yuan (US$264,000) in wages from 300 migrant workers.\60\ Local 
officials reportedly declined to investigate at first, in an 
effort to ``maintain stability,'' but began investigating after 
the workers publicly expressed their grievances.\61\ In another 
case, in April 2010, the Qi County Human Resources and Social 
Security Bureau in Kaifeng municipality, Henan province, 
reportedly filed a case with a local court on behalf of migrant 
workers with unpaid wages, but the court had not accepted the 
case as of January 18, 2012.\62\ The court reportedly claimed 
the bureau never submitted paperwork for the case; the bureau 
reportedly claimed it submitted the paperwork, but did not pay 
the processing fee at the time.\63\ In another case, on January 
16, 2012, a construction company manager in Xianyang 
municipality, Shaanxi province, cut a migrant worker's fingers 
with a knife after the worker asked the manager to pay unpaid 
wages to another migrant worker.\64\
    Faced with a growing migrant worker population (reportedly 
over 250 million in 2011),\65\ an increasing urbanization 
rate,\66\ and a new generation of young, more educated, rights-
conscious migrant workers,\67\ some local governments took 
steps to accommodate migrant workers seeking to integrate into 
urban areas. For example, in October 2011, the Beijing 
Municipal People's Government issued a notice that, for the 
first time, allowed non-Beijing residents to apply for public 
housing in Beijing.\68\ In June 2012, authorities in Guangdong 
province launched the 2012 Dream Project, part of an ongoing 
program to help young migrant workers receive a college 
education.\69\

                            Social Insurance

    This past year, workers continued to face challenges to 
receiving social insurance, including employers who delayed 
registering employees for insurance and employers who did not 
pay insurance contributions (``social insurance'' includes old-
age insurance, medical insurance, occupational injury 
insurance, unemployment insurance, and maternity 
insurance).\70\ For example, the PRC Law on Social Insurance 
requires employers to register employees with insurance 
providers within 30 days of employment,\71\ but some factories 
of the Hong Kong-based electronics manufacturer VTech \72\ in 
Dongguan municipality, Guangdong province, reportedly waited 
between 6 and 10 months,\73\ while a Dongguan cement factory 
reportedly required workers to work at least 1 year before they 
could purchase social insurance.\74\ Official Chinese media 
reported in March 2012 that a state-owned firm in Ling county, 
Shandong province, owed employees tens of thousands of yuan 
(10,000 yuan is US$1,850) in social insurance 
contributions.\75\ The report said the unpaid insurance 
contributions caused ``a wicked incident of workers striking 
and causing trouble,'' which in turn ``caused an evil influence 
on society.'' \76\ Following a recommendation of the Fair Labor 
Association, Apple Inc.'s supplier Foxconn worked with the 
municipal government in Shenzhen during the reporting year to 
allow migrant workers to claim social insurance benefits 
locally. Shenzhen authorities issued a provision this year to 
allow all migrant workers in the city to claim unemployment 
insurance benefits either at their home province or in 
Shenzhen, effective January 1, 2013.\77\

                                 Wages


                 WAGE ARREARS AND NON-PAYMENT OF WAGES

    Wage arrears and non-payment of wages remained serious 
problems this past year, especially for migrant workers.\78\ 
[See Migrant Workers above for more information.] In a January 
2012 report, Apple, Inc., documented problems with wages at its 
suppliers in China, such as wage arrears, the use of wage 
deductions as punishment, and overtime pay that did not meet 
statutory requirements.\79\ A March 2012 Fair Labor Association 
investigation further documented wage problems at Foxconn 
factories.\80\ For example, some workers did not receive pay 
for attending work-related meetings outside of work hours.\81\ 
In some cases, workers received pay based on 30-minute 
increments, so that workers who worked an extra 29 minutes 
would receive no additional pay.\82\

                              MINIMUM WAGE

    As the Commission observed in 2011, the Chinese government 
reportedly has assembled a ``basic framework'' for a national 
wage regulation, in part to address official concern over 
wealth disparities across China.\83\ The Ministry of Human 
Resources and Social Security (MOHRSS) began formulating the 
regulation in 2007, and officials reportedly started soliciting 
comments and suggestions for a completed draft in early 
2009.\84\ Some domestic media reports indicated the regulation 
would be approved sometime in 2010, but one MOHRSS official 
later said that was never the case.\85\ In a July 2011 press 
conference, MOHRSS spokesperson Yin Chengji said the regulation 
was being ``researched and discussed'' and that there was ``no 
definite release date.'' \86\ The Commission has not observed 
any subsequent reports on the draft regulation's status.
    Local governments continued to increase minimum wages 
during this reporting year. This past year, the Commission 
observed reports from local governments and Chinese media 
organizations describing increases in statutory minimum wages 
in nine provincial-level areas \87\ and the Shenzhen Special 
Economic Zone.\88\

                        Other Working Conditions


                          OCCUPATIONAL SAFETY

    Workers, especially in the mining sector, continued to face 
significant occupational safety risks this past year,\89\ 
although officially reported deaths from mining accidents in 
early 2012 were fewer than those from the same period in 2011. 
Central government news agency Xinhua reported that 185 
accidents and 289 deaths occurred in China's mining sector in 
the first quarter of 2012.\90\ The reported death total was 
16.5 percent lower than the first quarter of 2011.\91\ Chinese 
media organizations continued to report on cases in which mine 
managers and local officials concealed information about mine 
accidents.\92\ In May 2012, the State Administration of Work 
Safety and the Ministry of Finance issued the Measures on 
Rewards for Safe Production Reporting (Measures), which 
stipulate cash rewards for workers who report occupational 
safety hazards, such as unlicensed construction activity, the 
use of equipment that the government has banned for safety 
reasons, and coverups of workplace accidents.\93\ The Measures 
also stipulate protection under the law for whistleblowers who 
report such issues.\94\

                          OCCUPATIONAL HEALTH

    Workers' health continued to face a variety of risks, 
including inadequate government supervision of industry 
compliance with occupational health standards,\95\ illegal 
actions by employers,\96\ a lack of transparency in diagnosing 
and certifying diseases,\97\ and a lack of knowledge among 
workers about health in the workplace.\98\ Officially reported 
cases of occupational disease have grown at increasing rates in 
recent years, especially in the mining sector, although the 
Ministry of Health (MOH) noted in a 2009 report that ``experts 
estimate that the actual number of occupational diseases in 
China every year is larger than the reported number.'' \99\

  <SUP>ncrease Over Previous Year)h1Percent of Total Cases of Occupational
                  <SUP>Disease From the Coal Mining Sectorj
------------------------------------------------------------------------
                                                       Percent of Total
                                                           Cases of
    Year        New Cases of Occupational Disease        Occupational
              (Percent Increase Over Previous Year)    Disease From the
                                                      Coal Mining Sector
------------------------------------------------------------------------
2010* \100\   27,240...............................               57.75
              (50.26)..............................
------------------------------------------------------------------------
2009* \101\   18,128...............................               41.38
              (31.90)..............................
------------------------------------------------------------------------
2008** \102\  13,744...............................               39.81
              (-3.86)..............................
------------------------------------------------------------------------
2007* \103\   14,296...............................               45.84
              (CECC has not observed relevant data)
------------------------------------------------------------------------
<dagger>The Commission has not observed relevant official data on cases
  of occupational disease beyond 2010.
*MOH data for this year does not include the Tibet Autonomous Region.
**MOH data for this year does not include the Tibet Autonomous Region or
  Beijing municipality.

                         WORKERS' COMPENSATION

    Under the PRC Social Insurance Law, effective July 1, 2011, 
workers are entitled to compensation for occupational injury or 
disease if they obtain certification that the injury or disease 
is work-related.\104\ Workers, however, reportedly continued to 
face obstacles in obtaining compensation, such as difficulty 
obtaining a diagnosis or proving a working relationship with 
their employer,\105\ steps required for the certification 
process under the PRC Regulations on Occupational Injury 
Insurance (Regulations).\106\ In addition, officials in some 
cases have implemented the law in an uneven manner. For 
example, sanitation worker Zhang Zhijuan suffered a brain 
hemorrhage while working overtime in Harbin municipality, 
Heilongjiang province, but local officials refused to recognize 
her condition as an occupational injury because she did not 
die,\107\ citing a provision in the Regulations that says a 
worker's condition shall be treated as an occupational injury 
if the worker contracts a disease and ``dies suddenly or, after 
rescue is ineffective, dies within 48 hours.'' \108\ In 2010, 
however, a case similar to Zhang's reportedly occurred in 
Beijing, and authorities recognized a worker's brain hemorrhage 
as an occupational injury under the Regulations.\109\
    An amendment to the PRC Law on Prevention and Control of 
Occupational Diseases (Occupational Disease Law), effective 
December 31, 2011,\110\ contains provisions that could help 
workers obtain the certification they need in order to receive 
compensation for occupational diseases.\111\ It also requires 
the government and employers to take general measures to 
protect the health of workers, including dedicating sufficient 
funding to the prevention and control of occupational 
diseases.\112\

------------------------------------------------------------------------
                 Working Conditions at Foxconn Factories
-------------------------------------------------------------------------
  In a March 2012 report, the Fair Labor Association (FLA) documented
 poor working conditions at three factories owned by Foxconn (one in
 Chengdu municipality, Sichuan province, and two in Shenzhen Special
 Economic Zone),\113\ a Taiwan-based multinational electronics
 manufacturer,\114\ major supplier for Apple,\115\ and reportedly the
 largest private employer in China.\116\ The report found workers
 exceeding the legal limit for overtime and working without the legally
 required one-day break per week, ``numerous'' health and safety issues,
 worker alienation from management-appointed health and safety
 committees, uncompensated overtime, and barriers to insurance
 access.\117\ Apple and Foxconn agreed to ensure ``elections of worker
 representatives without management interference,'' reduce overtime to
 the legal limit by July 2013 while protecting workers' pay, improve
 recordkeeping of accidents, pay workers fairly for overtime, and
 explore private options for providing unemployment insurance to migrant
 workers.\118\
------------------------------------------------------------------------


------------------------------------------------------------------------
           Working Conditions at Foxconn Factories--Continued
-------------------------------------------------------------------------
  Some observers have argued that these measures, if implemented, could
 create incentives for other employers in China to improve conditions
 for workers.\119\ A June 2012 China Labor Watch report documented
 similar problems with working conditions in 10 China-based Apple
 supplier factories, including one Foxconn factory, based on
 investigations from January to April 2012.\120\ The same report also
 found extensive use of dispatched workers in some factories.\121\
 According to the PRC Labor Contract Law, dispatched workers are
 normally to be used for ``temporary, auxiliary, or substitute
 positions.'' \122\ In May 2012, Hong Kong-based non-governmental
 organization Students and Scholars Against Corporate Misbehavior
 (SACOM) reported ongoing problems with working conditions at Foxconn
 factories.\123\ For example, SACOM reported that workers at two Foxconn
 factories said the factories reduced overtime hours but increased
 production quotas, in some cases leading workers to work unpaid
 overtime to achieve quotas.\124\ Other problems that SACOM reported
 included public humiliation of workers,\125\ unsafe working
 environments,\126\ and harsh living conditions in factory
 dormitories.\127\ In August 2012, the FLA issued a followup report on
 conditions at the three Foxconn factories reviewed in the March 2012
 report, based on investigations from June 25 to July 6, 2012.\128\ The
 August report noted some changes in policies and procedures that, if
 implemented, could address problems noted in the March report. For
 example, all three factories established procedures designed to improve
 worker participation in factory policymaking,\129\ and Foxconn
 established a new requirement that factories conduct worker training
 during normal work hours and pay overtime for any training outside of
 normal work hours.\130\ The long-term effects of such policies and
 procedures on conditions for Foxconn workers in practice, however,
 remain unclear.
------------------------------------------------------------------------

                              Child Labor

    This past year, illegal child labor continued to be 
reported in China. In a September 2011 report, the U.S. 
Department of Labor reported it had ``reason to believe'' six 
categories of goods--electronics, textiles, bricks, cotton, 
fireworks, and toys--were being produced in China with child 
labor, in violation of international standards.\131\ Apple's 
January 2012 supplier report noted cases of child labor in five 
of Apple's supplier facilities,\132\ and in February 2012, 
Chinese authorities reportedly discovered over 10 child 
laborers at an electronics factory in Suzhou municipality, 
Jiangsu province.\133\
    As a member of the International Labour Organization (ILO), 
China has ratified the two core conventions on the elimination 
of child labor.\134\ The PRC Labor Law and related legislation 
prohibit the employment of minors under 16 years old.\135\ Both 
national and local legal provisions prohibiting child labor 
stipulate punishments for employing children.\136\ The PRC 
Criminal Law stipulates a punishment of up to 10 years in 
prison for anyone who ``forces any other person to work by 
violence, threat or restriction of personal freedom,'' although 
the eighth amendment to the PRC Criminal Law--which took effect 
on May 1, 2011--removed language that specifically mentioned 
the employment of minors under 16 years of age.\137\ In May 
2012, the Dongguan Municipal People's Government in Guangdong 
province offered incentives to whistleblowers when it issued 
municipal regulations authorizing cash awards to those who 
report cases of child labor.\138\ Monitoring the extent of 
child labor in practice, however, is difficult, in part because 
the Chinese government does not release data on child labor 
despite frequent requests by the U.S. Government, other foreign 
governments, and international organizations. In 2011, the 
ILO's Committee of Experts on the Applications of Conventions 
and Recommendations expressed concern over this lack of 
transparency and urged the Chinese government to ``take the 
necessary measures to ensure that sufficient up-to-date data on 
the situation of working children is made available. . . .'' 
\139\ A 2010 report by a global risks advisory firm rated China 
``amongst those with the most widespread abuses of child 
workers'' and estimated there were ``between 10 to 20 million 
underage workers.'' \140\
    The Chinese government, which has condemned the use of 
child labor and pledged to take stronger measures to combat 
it,\141\ continued to permit ``work-study'' programs and 
activities that in practical terms perpetuated the practice of 
child labor and were tantamount to official endorsement of it. 
National provisions prohibiting child labor provide that 
``education practice labor'' and vocational skills training 
labor organized by schools and other educational and vocational 
institutions do not constitute use of child labor when such 
activities do not adversely affect the safety and health of the 
students.\142\ The PRC Education Law supports schools that 
establish work-study and other related programs, provided that 
the programs do not negatively affect normal studies.\143\ 
China has ratified the ILO's Worst Forms of Child Labour 
Convention,\144\ but in a 2011 report on China's compliance 
with this convention, the ILO's Committee of Experts on the 
Applications of Conventions and Recommendations noted ``serious 
concern at the compulsory nature of the work performed . . . by 
schoolchildren under the age of 18 within the context of work-
study programmes.'' \145\ The Committee cited reports of 
students performing labor-intensive tasks in factories and 
fields for extended periods of time, including cotton picking 
in the Xinjiang Uyghur Autonomous Region (XUAR).\146\ The 
Commission continued to note similar reports this past 
year.\147\ In September 2011, for example, a school in the XUAR 
reportedly postponed classes for 15 days so that students as 
young as third grade could pick cotton, leading some to suffer 
heat stroke and hand injuries.\148\

                            Criminal Justice


                              Introduction

    During the Commission's 2012 reporting year, the Chinese 
government's intention to ``maintain social stability'' (weihu 
shehui wending, or wei wen) and the Communist Party's 
determination to maintain its monopoly on power guided 
developments in criminal law and justice. At a conference held 
in November 2011, Zhang Jun, Vice President of the Supreme 
People's Court, reminded officials, legal practitioners, and 
scholars that criminal punishment plays a critical role in 
managing society and resolving social conflict.\1\ The 
transformation of criminal punishment into a social management 
tool has helped pave the way for continued growth of the 
domestic security establishment, which has in turn facilitated 
ongoing abuses of police power in the name of ``stability.''
    While numerous repressive policies remained in place during 
the past year, some statements from high-ranking officials were 
crafted to acknowledge the priorities and expectations set 
forth under international law. Leaders promised to strike a 
balance between crime control and the protection of individual 
rights,\2\ releasing a new National Human Rights Action Plan 
for the period from 2012 to 2015,\3\ and the revised PRC 
Criminal Procedure Law (CPL) that will take effect on January 
1, 2013.\4\ The CPL revision was heralded by officials as a 
sort of ``mini-Constitution'' that would serve to constrain the 
power of the state \5\ by providing greater protections for the 
mentally ill,\6\ better guarantees for access to legal 
defense,\7\ exclusion of evidence obtained through torture,\8\ 
and more rigorous review of death penalty convictions,\9\ among 
other things.
    Recent criminal justice reforms remain at risk of being 
undermined in practice by the authorities responsible for their 
implementation. This is particularly apparent in actions taken 
against some of China's citizen activists. At multiple stages 
throughout the criminal process, authorities appeared to take 
advantage of recent reforms to establish a dual track for 
criminal punishment: one that applied by default to the vast 
majority of suspects and defendants and one that applied to 
writers, artists, Internet bloggers, lawyers, reform advocates, 
and other citizens who engage in advocacy on issues that 
authorities deem politically sensitive.

                         Abuse of Police Power

    Chinese government domestic security entities, including 
public security, state security, and People's Armed Police 
(PAP) forces, have grown in stature and influence since the 
17th Communist Party Congress in October 2007. The rise of Zhou 
Yongkang from Minister of Public Security and Politburo member 
to Secretary of the Communist Party Central Committee Political 
and Legal Affairs Commission (zhengfawei, or PLAC) and member 
of the Politburo Standing Committee helped to strengthen the 
Party's longstanding emphasis on ``maintaining social 
stability.'' \10\ Under Zhou's guidance and with the PLAC 
responsible for the oversight of China's public security, 
procuratorate, and court systems, law enforcement agencies' 
budgets, staff, and exercise of authority have grown 
substantially since 2008.\11\
    Much of this expansion has taken place at the local 
level.\12\ This past year, citizens who lodged complaints or 
sought to defend their rights or the rights of others found 
themselves at risk of harassment, assault, kidnapping, and 
illegal detention by or at the behest of local authorities. The 
use of arbitrary detention and torture by local authorities 
against rights activists spiked in 2011, with Chinese Human 
Rights Defenders documenting a total of 3,833 incidences of 
individuals arbitrarily detained for their rights activism \13\ 
and 159 incidences of torture during such detentions.\14\ Of 
the 3,833 cases that were documented, 3,289 cases reportedly 
had no basis in Chinese law.\15\
    Authorities use vague provisions to crack down on those 
they view as a potential threat to their authority. For 
example, in February 2012, a Chinese court sentenced democracy 
advocate Zhu Yufu to seven years in prison for ``inciting 
subversion of state power.'' \16\ Zhu's conviction came in the 
wake of online calls for ``Jasmine'' protest rallies and was 
based, in part, on a poem he had posted online. Democracy 
advocate Chen Wei was convicted in December 2011 and sentenced 
to nine years in prison for authoring essays discussing 
democracy, equality, and human rights that were posted on 
overseas Web sites.\17\ Western analysts who monitor criminal 
justice developments in China maintain that charges such as 
``subversion'' and ``inciting subversion of state power,'' 
along with ``splittism'' and ``leaking state secrets,'' are 
characterized as ``endangering state security'' \18\ and are 
used to silence citizen activists.\19\ A March 2012 article 
published in the Chinese press asserts that ``the accusation of 
endangering state security is really a way of saying [an 
individual is] endangering the regime's security.'' \20\ Since 
2008, state security-related indictments have been at a 
historic high.\21\
    At a May 2012 symposium on the newly revised PRC Criminal 
Procedure Law, Zhou Yongkang called on law enforcement agencies 
to place equal emphasis on the dual goals of punishing crime 
and safeguarding human rights.\22\ With Zhou expected to retire 
after the 18th Party Congress this fall,\23\ domestic 
commentators have grown increasingly vocal in criticizing the 
high level of power that law enforcement agencies amassed under 
his leadership. In an open letter dated May 4, 2012, 16 retired 
Party officials condemned the allegedly lawless campaign 
against organized crime that was instituted in Chongqing 
municipality by Bo Xilai, the former Chongqing Party Secretary 
and former member of the Political Bureau of the Communist 
Party Central Committee. Calling the campaign a ``guise'' for 
the torture and persecution of critics and rights 
defenders,\24\ the letter claimed that Zhou not only took part 
in, but also helped to advocate for, some of the allegedly 
heavy-handed tactics used.\25\ A number of officials have 
called for an inquiry into related complaints, including 
accusations that Bo's crackdown involved abuses such as 
torture.\26\

                          Arbitrary Detention

    The UN Working Group on Arbitrary Detention defines the 
deprivation of personal liberty to be ``arbitrary'' if it meets 
one of the following criteria: (1) There is clearly no basis in 
law for such deprivation; (2) an individual is deprived of his 
or her liberty for having exercised rights guaranteed under the 
Universal Declaration of Human Rights (UDHR) and International 
Covenant on Civil and Political Rights (ICCPR); or (3) there is 
grave noncompliance with fair trial standards set forth in the 
UDHR and other international human rights instruments.\27\ The 
ICCPR sets forth the additional requirement that an individual 
must be promptly informed of the reasons for his or her 
detention and the charges against him or her in order for such 
deprivation of liberty to be considered permissible.\28\
    Arbitrary detention takes several different forms in China, 
including:

        <bullet> ``Soft detention'' (ruanjin), a range of 
        extralegal controls under which an individual may be 
        subjected to home confinement, surveillance, restricted 
        movement, and limitations on contact with others;
        <bullet> ``Enforced disappearances'';
        <bullet> Detention in secret ``black jails'' (hei 
        jianyu);
        <bullet> Reeducation through labor (laojiao), an 
        administrative, rather than criminal, punishment of up 
        to three years with the possibility of a one-year 
        extension for alleged minor offenses;
        <bullet> Forced commitment to a psychiatric hospital 
        for the criminally insane (ankang); and
        <bullet> Shuanggui (``double regulation'' or ``double 
        designation''), a disciplinary measure used by the 
        Party to investigate its own members, most often in 
        cases of suspected corruption.

    Many forms of arbitrary detention violate China's own 
laws.\29\

               SOFT DETENTION AND ENFORCED DISAPPEARANCES

    Prior to the March 2012 revision of the PRC Criminal 
Procedure Law (CPL), Article 60 established ``residential 
surveillance'' as a compulsory measure (qiangzhi cuoshi) \30\ 
to be used principally for specific categories of individuals, 
such as those who are gravely ill, pregnant, or 
breastfeeding.\31\ In recent years, however, authorities have 
used residential surveillance to place high-profile rights 
activists such as Chen Guangcheng under close watch. Chen, a 
self-trained legal advocate who helped bring international news 
media attention to local population planning abuses in Linyi 
city, Shandong province, completed his four-year-and-three-
month prison sentence for allegedly disturbing public order and 
destroying public property on September 10, 2010.\32\ Upon his 
release, local authorities immediately confined Chen and his 
family to detention at their home in Dongshigu village.\33\ 
Chen escaped one year and seven months later, on April 22, 
2012, and was granted permission to travel along with his wife 
and their children to the United States.\34\ Despite his 
initial confidence in the central government's agreement to 
investigate local authorities for the abuses perpetrated 
against him,\35\ Chen has since expressed frustration with the 
government's failure to act, and concern regarding the 
continued harsh treatment of family members and supporters who 
remain in Shandong.\36\ Chen, his family, and his supporters 
expressed concern that Chen's nephew Chen Kegui--who faces 
charges of intentional homicide for allegedly wounding several 
government-appointed personnel--may have been subjected to 
torture,\37\ and that authorities had forced Chen Kegui to 
accept government-appointed lawyers.\38\ An August 2012 Radio 
Free Asia report noted that the case against Chen Kegui was 
marred with procedural irregularities and violations.\39\
    Authorities have continued to resort to ``soft detention'' 
to keep writers, artists, Internet bloggers, lawyers, and 
reform advocates out of the public eye.\40\ During the 2012 
reporting year, as in the previous reporting year,\41\ the 
Commission observed numerous instances of Chinese citizens who 
had gone ``missing'' or ``disappeared'' into official custody, 
with little or no information available about their whereabouts 
or the potential charges against them. According to an 
international media report, more than 10,000 Chinese citizens 
were secretly held in government custody during the first three 
months of 2012.\42\ In one case, Chinese officials held 
prominent human rights lawyer Gao Zhisheng incommunicado on 
numerous occasions after he was sentenced in December 2006 to 
three years in prison, suspended for five years, for ``inciting 
subversion of state power.'' \43\ Less than one week before 
Gao's period of suspension was set to expire, Chinese state 
media reported that he had violated applicable probation rules 
and would serve his original three-year sentence effective as 
of December 2011.\44\ In January 2012, relatives received 
notice that Gao was undergoing a three-month ``education 
period'' and that he would be denied visitors for at least that 
length of time.\45\
    The Chinese government has given the extralegal practices 
outlined above the imprimatur of law under the revised CPL. 
Article 73 authorizes the secret detention of an individual 
suspected of endangering state security, terrorism, or major 
instances of bribery at a fixed place of residence other than 
his or her own home. The only limitations on this authority are 
that it may be exercised only with approval from an upper level 
law enforcement agency and only in cases in which authorities 
maintain that keeping the individual at his or her home would 
likely ``hinder the investigation.'' \46\ Investigators do not 
need to notify the individual's family if they assert that 
notification is impossible.\47\ Notification to family members 
need not disclose the reason or location of the individual's 
detention, details that Articles 83 (relating to detention) and 
91 (relating to arrest) were also revised to leave out.\48\ 
While a citizen under residential surveillance is allowed to 
appoint and speak with a defense lawyer while under 
investigation, those suspected of endangering state security, 
terrorism, or bribery must first seek and obtain approval from 
the investigating authority.\49\
    When the draft of CPL Article 73 was released for public 
comment in August 2011, it drew widespread attention and 
criticism in China.\50\ The earlier version of the clause was 
eventually abandoned, but the version that remains continues to 
raise concern among legal analysts and rights activists both 
inside and outside of China. On the eve of the final vote to 
approve the revised CPL, Chinese lawyers argued that granting 
investigators broader exercise of power in cases alleged to 
involve endangering state security, terrorism, and bribery 
would help pave the way for the arbitrary detention of 
activists \51\ and serve the interests of national security and 
anti-corruption enforcement agencies more than the public.\52\ 
Human rights lawyer Jiang Tianyong cautioned that the decision 
to allow otherwise illegal official use of power under Article 
73 signaled China's shift toward becoming more of a police 
state, under which the leadership's intention to ``maintain 
social stability'' is paramount.\53\ After the National 
People's Congress passed the revision, an article on the 
Supreme People's Procuratorate (SPP) Web site acknowledged that 
vague, undefined phrases such as ``hinder the investigation'' 
and ``impossible to notify'' provide so much discretion as to 
lend themselves to abuse by authorities.\54\ The SPP is in the 
process of revising its Criminal Procedure Rules of the 
People's Procuratorates in order to clarify the specific 
scenarios that might constitute ``hindering the 
investigation.'' \55\ These rules would guide procuratorates in 
their investigation of major cases of bribery, but they would 
not apply to public security bureaus, which possess 
investigative jurisdiction over state security and terrorism 
cases.\56\

                            ``BLACK JAILS''

    ``Black jails'' operate outside of China's official 
criminal justice system.\57\ The Chinese government has 
repeatedly denied their existence,\58\ but anecdotal accounts 
indicate that private security firms run numerous such sites as 
``ad-hoc prisons'' \59\ to detain and punish petitioners 
seeking redress for their grievances against the 
government.\60\ In August 2011, public security officials shut 
down a ``black jail'' in Changping district, Beijing 
municipality, which reportedly held petitioners who had been 
intercepted en route to Beijing from five other provinces and 
municipalities.\61\ Beijing's public security bureau launched a 
six-month crackdown effective December 2011, which targeted 
firms that illegally operated ``black jails'' at the behest of 
local officials in other parts of China.\62\ In addition to 
imposing fines of 20,000 to 100,000 yuan, public security 
authorities threatened violating individuals and firms with 
criminal investigation.\63\
    Professor Yu Jianrong of the Chinese Academy of Social 
Sciences praised Beijing's crackdown but also pointed out that 
the cases of illegal detention that were exposed were ``merely 
the tip of the iceberg.'' \64\ At least one critic has 
questioned whether, despite the threat of criminal 
investigation, local authorities who use illegal means to 
suppress petitioners actually receive their due punishment.\65\ 
In one case reported by state media in September 2011, a 
tourist named Zhao Zhifei traveled from Luoyang city, Henan 
province, to Beijing and was mistakenly beaten because he 
shared a guestroom with several petitioners while there.\66\ 
The Luoyang government later investigated six individuals for 
allegedly authorizing the beating and imposed punishments that 
ranged from an order to apologize to the dismissal of the head 
of the local petitioning office.\67\

                       REEDUCATION THROUGH LABOR

    Human rights advocates and legal experts in China have long 
debated the merits of reeducation through labor (RTL, also 
known as laojiao), which empowers public security authorities 
to hold individuals in custody without judicial review.\68\ The 
case of Tang Hui, the mother of a young victim of rape and 
forced prostitution whose efforts to petition the government 
about her daughter's case resulted in her confinement to an RTL 
center in August 2012, helped bring this debate back into the 
spotlight.\69\ On August 14, 2012, a group of 10 Chinese 
lawyers sent an open letter to the Ministry of Public Security 
and the Ministry of Justice, calling for greater transparency 
and legal protections in the RTL decisionmaking process.\70\ 
State media have since criticized the RTL system as a tool that 
has been abused by local authorities to retaliate against 
petitioners.\71\ Previous attempts to reform the RTL system 
stalled in 2005 and 2010, and media sources attribute the 
ongoing impasse to disagreements between public security and 
judicial agencies over who should hold decisionmaking 
power.\72\

                     FORCED PSYCHIATRIC COMMITMENT

    The PRC Criminal Law authorizes compulsory medical 
treatment for those who commit crimes but suffer from mental 
illness.\73\ The Ministry of Public Security directly 
administers 22 psychiatric hospitals for such purposes (also 
known as ankang facilities), but regulations governing who may 
or may not be committed lack clarity.\74\ Without a clearly 
delineated diagnostic and determination process, officials have 
broad discretion to classify a person as in need of psychiatric 
treatment.\75\ In an August 2012 report on the abuse of 
involuntary psychiatric commitment in China, Chinese Human 
Rights Defenders asserted that ``[t]hose who have the means--
power and money--to either compel or pay psychiatric hospitals 
to detain individuals out of a desire to punish and silence 
them have been able to do so with impunity.'' \76\ Civil Rights 
and Livelihood Watch, a Chinese monitoring group, maintains a 
database of over 900 cases in which an individual was 
misdiagnosed as mentally ill (bei jingshenbing) and forced into 
psychiatric care--a number that the group claims is a mere 
``drop in the bucket of total cases.'' \77\
    According to a U.S. Department of State report, petitioners 
and rights defenders are sometimes reportedly confined along 
with the mentally ill.\78\ In 2010, a native of Shiyan city, 
Hubei province, was forcibly committed to a psychiatric 
hospital for taking photos of petitioners who had gathered on 
the street, according to a March 2012 report.\79\ His case and 
subsequent lawsuits against the relevant public security bureau 
and hospital attracted national attention and renewed 
discussion of the draft Mental Health Law.\80\ Currently under 
review by the National People's Congress Standing Committee, 
the draft law seeks to constrain official abuse by limiting the 
power to diagnose and forcibly commit individuals to 
psychiatric care.\81\ Critics remain concerned about the 
draft's failure to make independent reviews of an initial 
diagnosis mandatory, the lack of provision for the appointment 
of legal counsel, and the absence of time limits on involuntary 
commitment.\82\ [For more information on the progress of the 
draft Mental Health Law, see Section II--Public Health.]

             Barriers to Adequate Defense and a Fair Trial

    Most defendants in China face significant bias \83\ in the 
criminal justice system and do without adequate legal 
assistance. According to Yu Ning, former president of the All 
China Lawyers Association, the participation rate of lawyers in 
criminal cases is reportedly no more than 30 percent.\84\ Even 
when a lawyer is involved, mounting a defense can prove 
challenging.\85\ The abuse of Article 306 of the Criminal Law 
(the so-called ``lawyer perjury'' clause) has worsened in 
recent years,\86\ and experts estimate that hundreds of defense 
lawyers may have been prosecuted under it.\87\ In March 2012, 
criminal defense lawyer Li Zhuang submitted a petition to have 
his case retried by the Chongqing No. 1 Intermediate People's 
Court after new evidence emerged to indicate that police in 
Chongqing municipality may have prevented a witness from 
testifying on his behalf at trial.\88\ A Chongqing court 
convicted Li under Article 306 of the Criminal Law \89\ and 
sentenced him to one year and six months in prison after a 
client claimed that Li had encouraged him to lie in court.\90\ 
Some legal scholars and practitioners assert that the same law 
enforcement authorities who prosecute a case should not also 
have the authority to investigate the lawyer defending that 
case.\91\ The newly revised Criminal Procedure Law (CPL) 
contains a provision remedying this problem,\92\ but critics 
argue that it still falls short of what is needed to guard 
against potential conflicts of interest.\93\
    The revised CPL includes a number of provisions that could 
help strengthen criminal defense, if faithfully implemented. 
One recent study found that approximately 95 percent of the 
criminal cases surveyed relied on defendant confessions,\94\ 
and that the vast majority of defense efforts failed to 
challenge confessions.\95\ Article 50 of the CPL now guards 
against self-incrimination, as well as the use of torture or 
threats to gather evidence.\96\ Article 53 prohibits conviction 
based on a confession alone, without additional 
corroboration.\97\ Illegally obtained evidence must be excluded 
from trial under Article 54,\98\ and investigators are 
authorized to record the interrogation process (and must do so 
as a matter of course in more serious cases) under Article 
121.\99\ Tian Wenchang, Chair of the Criminal Affairs Committee 
of the All China Lawyers Association, has questioned how 
effective these new provisions will prove in practice.\100\ 
Tian argues that stronger protections, such as the right to 
remain silent, remain necessary to eliminate reliance on an 
individual's confession as the primary basis for 
conviction.\101\

                      Torture and Abuse in Custody

    Chinese law prohibits the torture and abuse of individuals 
in custody.\102\ Despite the central government's efforts to 
address this longstanding problem,\103\ abusive practices 
remain widespread.\104\ Li Wangyang, a labor rights advocate 
and 1989 Tiananmen protester, reported that successive beatings 
during his imprisonment left him nearly deaf and blind.\105\ In 
June 2012, Li's body was found hanging in the hospital room 
where he had been receiving medical treatment since his release 
from prison in 2011.\106\ Officials authorized an autopsy, 
which was conducted in the absence of his family members by the 
same coroner who ruled the December 2011 death of a man in 
police custody during anticorruption and land and election 
rights protests in Wukan village, Lufeng city, Guangdong 
province, to be of natural causes.\107\ The suspicious 
circumstances surrounding Li's death, much like those in the 
Wukan death, prompted domestic calls for an investigation.\108\ 
Hong Kong legislator Lee Cheuk-yan called Li's death a 
``political murder'' and cautioned that ``[i]f the case is not 
properly investigated, it shows that China now is more 
oppressive--that [officials] can even take away the life of a 
person without responsibility, without justice.'' \109\
    On July 30, 2012, the Supreme People's Court circulated for 
feedback a judicial interpretation that seeks to further 
identify acts prohibited as torture and require the recording 
of interrogations taking place outside a detention center.\110\ 
The Chinese government has also issued two new regulations to 
govern the conduct of those responsible for prison and 
detention oversight.\111\ The State Council stepped in for the 
first time to release a Detention Center Regulation, which took 
effect on April 1, 2012.\112\ The new regulation prohibits the 
humiliation, corporal punishment, or abuse of those in 
administrative detention or detained by a court.\113\ Because 
it applies only to persons in custody for minor offenses, its 
scope is limited.\114\ Moreover, earlier provisions, specifying 
the punishment of detention guards who violate the regulation 
and requiring notification of family members within 12 hours of 
detention, are absent from the final version, according to a 
media report.\115\ By contrast, regulations jointly issued by 
the Ministry of Supervision, Ministry of Human Resources and 
Social Security, and Ministry of Justice, which went into 
effect on July 1, 2012, include specific punishments for the 
illegal behavior of guards in prisons and reeducation through 
labor centers. If faithfully implemented, these regulations 
would subject those directly responsible, as well as their 
supervisors, to criminal liability and disciplinary action 
(including demerits, demotion, and dismissal) for the extended 
confinement, beating, corporal punishment, and abuse of 
prisoners.\116\

                 Sentencing, Punishment, and Execution

    According to a February 2011 report by the Dui Hua 
Foundation (Dui Hua), in ``recent years'' more than 25 percent 
of Chinese prisoners have been granted sentence reductions, 
parole, or medical parole.\117\ Chinese courts granted sentence 
reductions for over 1 million prison inmates and released 
another 68,000 on parole in 2009 and 2010.\118\ According to 
the same report, these privileges appear to no longer extend to 
political prisoners.\119\ In a video released in February 2011, 
self-taught legal advocate Chen Guangcheng alleged that despite 
his accumulation of enough good behavior ``points'' to qualify 
for a sentence reduction, authorities failed to take action on 
his application for early release.\120\ Dui Hua noted that 
local regulations applicable in Chen's case prohibit the 
granting of parole to prisoners found guilty of ``endangering 
state security'' and name such prisoners among groups to be 
``strictly handled'' for sentence reductions.\121\ New 
regulations issued by the Supreme People's Court (SPC) in 
November 2011 and effective on July 1, 2012, help to clarify 
the type of behavior that qualifies a prisoner for early 
release,\122\ but leave it to the discretion of the court to 
determine whether there is adequate risk that a prisoner might 
commit another crime to warrant denial of parole, regardless of 
other circumstances in his or her favor.\123\
    The SPC has taken steps toward increasing transparency and 
improving standards of review in death penalty cases. Since 
taking back the power of review over the death penalty in 
2007,\124\ it has overturned 10 percent of all death sentences 
\125\ and has pushed for the adoption of more stringent 
guidelines for the examination and judgment of evidence in 
death penalty trials.\126\ The newly revised Criminal Procedure 
Law now provides for expanded access to legal defense,\127\ 
recorded interrogations,\128\ longer trial deliberations,\129\ 
mandatory appellate hearings,\130\ and more rigorous judicial 
review.\131\
    The Chinese government still maintains its policy of not 
releasing information about the thousands of prisoners 
reportedly executed each year and continues to keep data on 
such executions a state secret.\132\ Experts estimate that 
4,000 people were likely executed in China in 2011, more than 
the number of executions in the rest of the world 
combined.\133\ Vice Minister of Health Huang Jiefu confirmed in 
2012 that the harvesting of organs from executed prisoners 
provides up to two-thirds of China's limited supply of livers, 
kidneys, hearts, lungs, and corneas for transplantation.\134\ 
Huang has promised new regulations to impose greater 
supervision over the transplant process and to ``strike hard'' 
against illegal trade in human organs.\135\ [For more 
information on organ transplants, see box titled Organ 
Transplants in China: Developments and Controversies in Section 
II--Public Health.]

                          Freedom of Religion

    During the Commission's 2012 reporting year, the Chinese 
government and Communist Party continued to restrict Chinese 
citizens' freedom of religion. China's Constitution provides 
for ``freedom of religious belief,'' but protects only ``normal 
religious activities.'' \1\ In its 2012-2015 National Human 
Rights Action Plan, the government reiterated protection only 
for what it deems to be ``normal religious activities.'' \2\ 
The narrow protections for religious activity in China 
contravene international human rights standards. Article 18 of 
the International Covenant on Civil and Political Rights 
recognizes not only the right to ``freedom of thought, 
conscience, and religion'' but also the right to manifest 
religion or belief through ``worship, observance, practice and 
teaching.'' \3\ The government continued to legally recognize 
only five religions: Buddhism, Catholicism, Islam, 
Protestantism, and Taoism.\4\ Groups wishing to practice these 
religions must register with the government and are subject to 
ongoing state controls.\5\ Some unregistered religious groups 
had limited space to practice their religions,\6\ but such 
tolerance did not constitute official recognition of these 
groups' rights. Authorities maintained bans on other religious 
or spiritual communities, including Falun Gong.\7\ Members of 
both unregistered groups and registered groups deemed to run 
afoul of state-set parameters for religion continued to face 
risk of harassment, detention, and other abuses.\8\

     The Chinese Government, Communist Party, and Five Associations

    The Chinese government and Communist Party continued to 
view religion as an instrument for state policy and to 
emphasize state control over it. The government imposes control 
over religion through the State Administration for Religious 
Affairs (SARA) under the State Council.\9\ SARA's aim is to 
``guide religions to fit into socialist society,'' including 
``[t]hrough intensive ideological and political work.'' \10\ 
SARA's guiding principles for 2012 include ``thorough 
implementation'' of regulations, ``positive guidance'' of 
religious affairs, and advancement of ``harmony and 
stability.'' \11\ SARA Director Wang Zuo'an continued to note 
what officials describe as the ``positive'' role religion can 
play in aiding government and Party policy objectives.\12\ In a 
December 2011 People's Daily article, Wang wrote, ``We cannot 
snuff out religious culture, but instead must guide it.'' \13\ 
Government control of the five state-recognized religions is 
exercised through five ``patriotic'' associations: The Buddhist 
Association of China (BAC), the Catholic Patriotic Association 
(CPA), the Islamic Association of China (IAC), the Three-Self 
Patriotic Movement of Protestant Churches in China (TSPM), and 
the Chinese Taoist Association (CTA).\14\ According to a 
Chinese legal academic, ``The agencies for religious 
administration provide supervision and guidance on the 
political orientation, personnel matters, finance, religious 
activities, training of clergymen, foreign affairs, conversion 
of believers and other aspects of the religious 
organizations.'' \15\
    The United Front Work Department (UFWD), directly 
subordinate to the Communist Party Central Committee, is the 
key organization through which the Party implements control of 
religion.\16\ In September 2011, Jia Qinglin, a member of the 
Standing Committee of the Political Bureau of the Communist 
Party Central Committee and Chairman of the Chinese People's 
Political Consultative Conference, speaking to the IAC, 
reiterated the Party's policy that religious leaders should 
``unswervingly support the Communist Party's leadership.'' \17\ 
In April 2012, then UFWD Head Du Qinglin wrote: ``We must dig 
deeply into the essence of religious culture and remove the 
chaff,'' ``guide people in the religious world and the masses 
of the faithful,'' and ``better adapt religion to socialist 
society.'' \18\ The Party also uses its control over the media 
to restrict the freedom of religion. A May 2012 article by a 
Norwegian human rights organization found ``a link between the 
state media's encouragement of popular indifference or 
hostility towards religious matters and the state's repression 
of religious freedom.'' \19\ Two Chinese scholars noted in 
February 2012 that ``publicity concerning important events 
involving ethnicities and religion . . . must be cautious and 
follow the reporting guidelines of the Communist Party Central 
Committee.'' \20\
    The government continued to use law, regulation, and policy 
to control religious practice in China. This past year, SARA 
issued or amended numerous legal and policy measures \21\ to 
implement the 2005 Regulation on Religious Affairs.\22\ While 
potentially providing greater uniformity and some safeguards, 
the recent regulatory measures appeared to codify and enhance 
already tight state controls of religious activities.\23\ For 
example, in February 2012, SARA and five other government 
agencies issued an opinion on public interest charitable 
activities by religious groups. While appearing to encourage 
greater participation in charitable activities by religious 
organizations, language in the opinion continued to emphasize 
``standardization'' (guifan), ``supervision'' (jiandu), and 
``management'' (guanli) of organizations and activities, as 
well as ``guiding religion and socialist society to mutually 
adapt'' (yindao zongjiao yu shehuizhuyi xiang shiying) and 
promoting ``unity of thinking'' (tongyi sixiang) among 
officials.\24\ According to the International Center for Not-
for-Profit Law, it is difficult for religious groups in China 
to obtain government approval to establish a charity, and they 
are ``often much more closely monitored'' than some other 
groups.\25\ SARA's 2011 work report and 2012 work plan outlined 
strengthened management in such areas as administration, 
finances, information and statistics, media relations, 
personnel, religious sites, religious bases for patriotic 
education, and doctrine.\26\ One Chinese scholar characterized 
China's regulation of religion as ``rule by law'' rather than 
the ``rule of law.'' \27\

                         Buddhism (Non-Tibetan)

    During this reporting year, the Chinese government and 
Communist Party continued to ensure that Buddhist doctrines and 
practices conformed to Party and government objectives. For 
example, at meetings convened by local branches of SARA and the 
Buddhist Association of China (BAC), government officials urged 
the local BAC to ``study and implement'' the ``spirit'' of the 
recent national and local Party Congresses.\28\ In January 
2012, the People's Daily reported that SARA had ``performed 
activities to interpret and exchange Buddhist . . . 
scriptures.'' \29\ SARA's 2012 work plan included Buddhist 
exchange activities, speaking tours, and definition of 
themes.\30\ The SARA-approved Henan Buddhist Institute 
officially opened in April 2012.\31\ At the World Fellowship of 
Buddhists conference in South Korea in June, China's Buddhist 
representatives expressed displeasure at the presence of 
Tibetan Buddhists, echoing Chinese government authorities' 
policy toward Tibetan Buddhists. The delegation of 17 Chinese 
``monks and officials'' reportedly walked out of the conference 
after the organizers failed to disinvite three attendees from 
the Tibetan government-in-exile.\32\ [For information on 
Tibetan Buddhists, see Section V--Tibet.]

                              Catholicism

    The Chinese government and Communist Party continued to 
repress the freedom of religion for Catholics in China. Tension 
between the Catholic Patriotic Association (CPA) and 
``underground'' Catholics continued, and some Catholic bishops 
and priests continued to serve reeducation through labor or 
imprisonment.\33\

          INTERFERENCE WITH RELIGIOUS PERSONNEL AND ACTIVITIES

    The government and Party do not recognize the authority of 
the Holy See to name or approve bishops in China, but in recent 
years tolerated discreet papal involvement in the selection of 
some bishops. According to a Catholic news agency, however, in 
2011 the Chinese government ``broke an unspoken arrangement 
with Rome by ordering the ordination of several bishops without 
papal approval.'' \34\ This past year authorities reportedly 
pressured Holy See-recognized bishops to join CPA public 
ceremonies to provide what they deemed to be a sense of unity 
and legitimacy.\35\ On July 6, 2012, the CPA ordained a bishop 
it selected for Harbin, located in Heilongjiang province, 
without Holy See concurrence.\36\ Ahead of the ceremony, 
authorities took into custody the Holy See-recognized apostolic 
administrator of Harbin and another priest who opposed the 
consecration.\37\ Though officials released them after the 
ceremony, the two were reportedly ``forced to stay away from 
their church.'' \38\ When the Holy See issued a statement that 
it had not approved the ordination and had excommunicated the 
new bishop, the State Administration for Religious Affairs 
called the response ``unreasonable,'' ``shocking,'' and 
``rude.'' \39\ In the case of the July 2012 ordination of Ma 
Daqin, the Holy See and the CPA had both approved Ma's 
ordination as a bishop in Shanghai municipality, but at the 
ordination ceremony Ma reportedly refused to allow the 
participation of a CPA bishop.\40\ Ma publicly resigned from 
the CPA as the ceremony concluded; officials immediately 
sequestered him at a Catholic seminary while the CPA 
investigated whether he had violated its regulations.\41\

                        HARASSMENT AND DETENTION

    Pressures on Catholic clergy to affiliate with the CPA and 
recognize its leaders continued during the Commission's 2012 
reporting period. The Commission observed reports of priests, 
seminarians, and lay Catholics being forced to attend political 
indoctrination sessions.\42\ In January 2012, for example, 
authorities in the Inner Mongolia Autonomous Region reportedly 
took six Catholic priests into custody. Four were released 
within several days, but the whereabouts of the two other 
priests were reportedly not known. The released priests said 
they were forced to attend indoctrination classes and to 
celebrate a mass with government-approved bishops and 
priests.\43\ As of May 2012, authorities continued to restrict 
access to Donglu village, Qingyuan county, Baoding 
municipality, Hebei province, the site of a Marian shrine. 
Officials checked vehicles entering the area, set up tents in 
locations likely to be gathering places, put up banners with 
slogans such as ``independently self-managed church'' and 
``resist foreign infiltration, fight crimes,'' and monitored 
the homes of leading worshippers.\44\

                               Falun Gong

    During the Commission's 2012 reporting year, the Chinese 
government and Communist Party continued to carry out a 
campaign--initiated in 1999--of extensive, systematic, and in 
some cases violent efforts to pressure Falun Gong practitioners 
to renounce their belief in and practice of Falun Gong.\45\ The 
government and Party refer to this process as ``transformation 
through reeducation,'' or simply ``transformation.'' The three-
year campaign to ``transform'' Falun Gong practitioners that 
the Commission reported on last year \46\ entered its third 
year, and local reports indicate ``transformation'' work will 
continue into subsequent years.\47\ In its 2012 report on 
China, Amnesty International described the campaign as ``a 
process through which individuals were pressured, often through 
mental and physical torture, to renounce their belief.'' \48\ 
In January 2012, New Tang Dynasty Television reported that 
``rights groups documented dozens of deaths'' of practitioners 
from torture and mistreatment.\49\ A Web site ``dedicated to 
reporting on the Falun Gong community worldwide'' counted 3,553 
deaths since the persecution of the movement began in 1999 
through June 2012.\50\ The Falun Dafa Information Center 
reported more than 55 deaths in 2011.\51\
    Concurrent with the three-year campaign, the Commission 
observed this past year official Web sites providing education 
and training materials for local officials.\52\ Words such as 
``battle,'' ``struggle,'' and ``attack'' \53\ indicate the 
nature of the campaign and the priority that government and 
Party continue to place on the suppression of Falun Gong. 
Authorities labeled practitioners as ``obsessives'' (chimi) 
\54\ affected by ``superstition'' (mixin),\55\ in ``ideological 
shackles'' (sixiang zhigu).\56\ An article on anti-cult work in 
Xinzhou district, Wuhan municipality, Henan province, said 
that, ``for stubborn, obsessed persons and those who have 
committed criminal activities, the public security organs will 
force them into classes to learn.'' \57\ A public security Web 
site article about a reeducation through labor (RTL) center in 
Ge'ermu (Golmud or Kermo) city, Haixi Mongol and Tibetan 
Autonomous Prefecture, Qinghai province, lauded its work with 
``inmates, drug addicts, and Falun Gong cult personnel.'' \58\

             HARASSMENT, DETENTION, AND ``TRANSFORMATION''

    This past year, government authorities and the 6-10 
Office--an extralegal, Party-run security apparatus created in 
June 1999 to eliminate the Falun Gong movement--continued to 
take measures to ``transform'' Falun Gong practitioners \59\ in 
prisons, RTL centers, and ``transformation through reeducation 
centers.'' \60\ Authorities committed some practitioners to 
psychiatric hospitals (ankang).\61\ Reports continued to 
document the involuntary administration of drugs, use of 
electric shock, beatings, and cruel treatment in these 
hospitals.\62\ Local authorities conducted ``anti-cult'' 
campaigns, which can include public ``cult awareness'' meetings 
and the signing of ``anti-cult'' pledge cards.\63\ Web pages 
and SMS (text) messages were also used.\64\
    On June 18, 2012, Bruce Chung, a Falun Gong practitioner 
from Taiwan who visited relatives in Jiangxi province, was 
detained for 54 days and interrogated regarding his earlier 
efforts to introduce Falun Gong materials to the mainland, 
circumventing the Chinese government's Internet and broadcast 
controls. He reported that security personnel monitored him in 
his cell around the clock, subjected him to long hours of 
questioning without access to counsel, and conditioned his 
release on a signed and videotaped confession ``not of my own 
volition.'' \65\ In addition to detaining Falun Gong 
practitioners,\66\ the government and Party continued to harass 
and detain persons who attempted to assist them, including 
lawyers such as Wei Liangyue and Wang Yonghang.\67\ In December 
2011, less than a week before missing human rights lawyer Gao 
Zhisheng's five-year suspended sentence was set to expire, 
Chinese officials claimed he had violated the conditions of his 
parole and ordered him to begin serving his original three-year 
criminal sentence. Gao had drawn the attention of authorities 
for his defense of persecuted Falun Gong practitioners and 
Christians.\68\

                                 Islam

    Officials continued to repress religious freedom for 
Muslims in China. In a September 2011 speech, Jia Qinglin, a 
member of the Standing Committee of the Political Bureau of the 
Communist Party Central Committee and Chairman of the Chinese 
People's Political Consultative Conference, described the 
Islamic Association of China (IAC) as ``an important bridge 
linking the [P]arty and the government'' to Muslims in 
China.\69\ The president of the IAC called on Muslims in China 
to promote ``harmony, stability, unity and development.'' \70\ 
In a May 2012 article on ``Ethnic Solidarity,'' the Party 
Secretary and the Chairman of the People's Government of 
Ningxia Hui Autonomous Region (NHAR) stated that the Party and 
the government manage religious matters; protect ``orderly 
conduct'' of ``normal religious activities''; resist ``foreign 
use of religion to conduct infiltration activities''; and 
``strike down pursuant to law the use of religion to conduct 
illegal criminal activities.'' \71\
    Government authorities continued to regulate the 
confirmation of religious leaders and overseas pilgrimages to 
accord with Chinese government and Communist Party objectives. 
The Chinese government controlled the education of imams 
through certification and supervision of the curriculum at 10 
state-run Muslim universities.\72\ The first requirement for 
government recognition of imams is that they ``love the 
motherland, support the socialist system and the leadership of 
the Communist Party of China, comply with national laws, [and] 
safeguard national unity, ethnic unity, and social stability.'' 
\73\ The government conducts regular training courses for 
clerics and mosque managers \74\ and provides support for 
``harmonious mosques.'' \75\ The IAC organizes the authorized 
Hajj pilgrimages to Mecca; many included ``patriotic 
education.'' \76\ In its 2012 annual work plan, SARA said it 
would formulate and strengthen measures on the ``management of 
pilgrimage work.'' \77\
    Authorities also continued to control the content of 
sermons and the ability of Muslims to share their religion with 
others. According to an article on its work in the People's 
Daily, SARA has interpreted Islamic scripture.\78\ Through its 
China Islamic Affairs Steering Committee, SARA aims to adapt 
Islam to ``socialist society,'' to ``safeguard the principle of 
national unity,'' and to combat what authorities deem to be 
``extremism.'' The IAC deliberated the ``selection and 
compilation of state-prescribed teachings of Islam,'' \79\ and 
it reportedly distributed hundreds of thousands of copies of a 
lecture series providing scriptural interpretations to Islamic 
groups throughout China.\80\ Some local governments issued bans 
against dawa (missionary) preaching. According to a report from 
Changde municipality in Hunan province, authorities ``promptly 
stopped the multiple occurrences of people with a `dawa 
preaching group' background coming to our city and carrying out 
illegal proselytizing activities.'' \81\ Public security 
officers in Menyuan Hui Autonomous County, Haibei Tibetan 
Autonomous Prefecture, Qinghai province, described educating 
religious believers to ``vigorously resist the infiltration 
activities of dawa preaching.'' \82\
    Government control of religious venues continued to limit 
Muslims' freedom to practice their faith. In late December, for 
example, villagers in the NHAR clashed with police after 
authorities reportedly declared a mosque ``illegal'' and 
demolished it.\83\ The Organization for Islamic Cooperation 
(OIC) ``expresse[d] its concern at the destruction of a place 
of worship and the loss of life'' and stated it expects ``the 
authorities in China to fully accord the rights of Muslims to 
construct and maintain their places of worship and to also 
observe their basic rights of conducting congregational rituals 
freely.'' \84\ After local courts sentenced 14 individuals to 
prison terms for opposing the demolition, a Beijing-based 
Chinese lawyer told Radio Free Asia, ``[L]ocal lawyers don't 
dare to offer their services'' to file an appeal.\85\ [See 
Section IV--Xinjiang for information on conditions in the 
Muslim-majority Xinjiang Uyghur Autonomous Region.]

                             Protestantism

    The Chinese government and Communist Party continued to 
restrict the freedom of religion for Protestants in China. The 
Three-Self Patriotic Movement of Protestant Churches in China 
(TSPM) and the China Christian Council (CCC) are the Protestant 
associations recognized and controlled by the government. 
Tension between these ``official'' organizations and house 
churches continued.
    The Chinese government used positive and negative 
incentives to pressure house churches to submit to government 
control by joining the TSPM in order to register and obtain 
legal status.\86\ Without legal status, congregations face 
difficulty in obtaining fixed sites for worship, attracting 
pastors with formal theological education, and establishing 
charities.\87\ The Shandong province January 2012 implementing 
regulations for the national Regulation on Religious Affairs, 
for example, recognize religious believers' right to worship in 
their own homes and in designated places of worship, but make 
no reference to group gatherings that are characteristic of 
house churches.\88\
    Cases since late 2010 suggest that authorities' 
sensitivities intensified toward members of unregistered 
Protestant congregations.\89\ In April 2012, ChinaAid reported 
that, in 2011, SARA and the Ministries of Public Security and 
Civil Affairs issued a planning document on handling house 
churches in three phases over 10 years, which ChinaAid 
characterized as an investigation phase to develop 
comprehensive files, a ``cleaning up'' phase, and eventually 
``wip[ing] out'' house churches in a third phase.\90\ According 
to ChinaAid, a senior SARA official, Jiang Jianyong, told the 
January 2012 National Work Conference on Religious Affairs that 
SARA is ``certifying and creating files on clergy.'' \91\ An 
article that described work to develop files on religious 
personnel in Yuhuan county, Taizhou municipality, Zhejiang 
province, noted it will ``ensure that the sites for religious 
activities are in accordance with the law and conduct orderly 
religious activities.'' \92\ A Chinese scholar recently 
reviewed province and city plans to ``manage privately set-up 
Christian meeting sites according to law.'' \93\ The plans 
emphasize dealing individually with unregistered congregations 
after study of their circumstances, registering those willing 
to register, combining some with registered congregations, 
asking clergy of registered churches to guide unregistered 
groups toward registration, and, if these measures fail, 
``forcefully'' banning those congregations that are 
``subordinate to unlawful organizations,'' or ``influenced or 
controlled by overseas infiltrating organizations'' or by 
``cult organizations.'' The author noted that government 
management campaigns have ``required enormous manpower, 
material resources, and energy.'' \94\

     HARASSMENT, DETENTION, AND INTERFERENCE WITH PLACES OF WORSHIP

    The Chinese government continued to harass, detain, and 
imprison Protestants who worship outside of state-approved 
parameters, and interfered with their religious activities.\95\ 
Protestants arrested in previous crackdowns continued to serve 
sentences in prisons or reeducation through labor centers, 
though some were released early.\96\ According to reports, even 
when individuals were detained for only a few hours or a few 
days for questioning about house church activities, authorities 
often did not return Bibles, hymnals, books, computers, 
audiovisual equipment, or money.\97\

        <bullet> Conflict between the authorities and Shouwang 
        Church in Beijing continued during this reporting year. 
        Dozens of church members were detained for questioning. 
        The congregation met outdoors because of government 
        pressure against any building owner who would provide a 
        worship space.\98\
        <bullet> In Xilinhot city, Xilingol league, Inner 
        Mongolia Autonomous Region, local authorities demanded 
        that the New Canaan Church affiliate with the TSPM. In 
        January 2012, public security officials raided the 
        house church, confiscated Bibles and hymnals, installed 
        new locks, pressured the landlord to terminate the 
        lease, and interrogated the pastor and two members of 
        the congregation for several hours before releasing 
        them.\99\
        <bullet> In April 2012, a church in Feixi county, Hefei 
        municipality, Anhui province, which had agreed to move 
        to new premises to make way for a development, was 
        still discussing details with local authorities when a 
        demolition crew bulldozed the church building.\100\
        <bullet> In May 2012, services at house churches in 
        Shijiazhuang city, Hebei province, and Langzhong city, 
        Nanchong municipality, Sichuan province, were 
        interrupted by police who told parishioners to worship 
        only at a TSPM church.\101\

 GOVERNMENT AND PARTY SEEK TO CONTROL PROTESTANT DOCTRINE AND PRACTICES

    In 2011, SARA reported that it ``continued to develop the 
theological trends of Christianity,'' and in its 2012 work plan 
it aimed to ``guide the Christian community,'' ``deepen the 
construction of theological thought, use theological thought 
propaganda teams,'' ``establish Chinese church ministry 
showrooms,'' ``and show the new achievements of the healthy 
development of the Chinese church.'' \102\ The publication of 
religious materials remained subject to national printing 
regulations that restrict publication and distribution of 
materials with religious content.\103\ Sale of Bibles was 
limited to TSPM and CCC book outlets in churches and 
seminaries. Individuals could not order Bibles directly from 
publishers, and the government-run Xinhua bookshops throughout 
China do not sell Bibles.\104\ Chinese law criminalizes ``evil 
cults,'' judicially defined in 1999 as ``those illegal 
organizations that have been established under the guise of 
religion, Qigong or other forms, deifying their leading 
members, enchanting and deceiving others by concocting and 
spreading superstitious fallacies, recruiting and controlling 
their members and endangering the society.'' \105\ A 2012 
academic study included a partial list of 16 banned 
``Christian-related'' groups and ``cults.'' \106\ The 
Commission has not observed any public criteria for 
determining, or procedures for challenging, such a designation. 
A crackdown on Christian ``cults'' reportedly began in the run-
up to the 18th Party Congress.\107\

                                 Taoism

    During the Commission's 2012 reporting year, the Chinese 
government's control over Taoism and Taoist activities 
paralleled restrictions on other religious communities, 
including on doctrine, clergy, religious activity, and sites of 
worship. As in the past, the Chinese Taoist Association (CTA) 
maintains organizational measures to achieve objectives 
including ``upholding the leadership of the Communist Party and 
the socialist system''; ``active participation in socialist 
material, political, spiritual, and ecological civilization''; 
and ``making a contribution to the protection of religious 
harmony, national unity, social harmony, unity of the 
motherland, and world peace.'' \108\ In addition to 
interpreting Taoist doctrine and urging Taoists to accept 
government and Party goals, the CTA provides ``educational 
guidance'' to organizations and temples and ``organizes and 
guides . . . educational activities.'' \109\ According to its 
report on work completed during the ``11th Five-Year Program'' 
period, SARA ``performed activities to interpret . . . Taoist 
scriptures.'' \110\ A former vice chairman of the National 
People's Congress Standing Committee said that ``discussion, 
selection and elimination'' of concepts in Taoist scriptures 
are necessary to develop a Taoist philosophy for the 21st 
century.\111\
    In October 2011, Xinhua paraphrased remarks by the 
president of the CTA that ``China has mapped out a strategy 
this month to reform and develop its culture, and Taoism should 
be seen as a kind of soft power of the country.'' \112\ An 
article in the New York Review of Books by a non-Chinese 
journalist who attended an international Taoist studies 
conference in China in June 2011, however, noted that the 
Chinese authorities ``not only shunned it but put up 
roadblocks. It was almost canceled at the last moment and was 
eventually curtailed from five to three days, with many panels 
cut or abbreviated.'' \113\ With regard to plans for a 2012 
international conference in Germany, the journalist reported, 
``One [Chinese] official later said to me that it should be up 
to the Chinese government, not a non-government organization of 
scholars, to determine when an important Daoist conference 
should be held.'' \114\ The journalist noted, ``Despite the 
rebuilding of temples, religious life is still tightly 
limited.'' \115\

                      Other Religious Communities

    The Chinese government's recognition of only five religions 
excludes, for example, Judaism, the Eastern Orthodox Church, 
the Baha'i faith, the Unification Church, the Church of Jesus 
Christ of Latter-day Saints, and folk religions among others. A 
January 2011 report from SARA's Religious Research Center said 
that other religions were ``vying'' for religious believers in 
China and ``assaulting'' China's ``traditional religious 
structures.'' \116\ The 2012 SARA work plan includes research 
on religions other than the officially acknowledged five.\117\ 
Foreign expatriate members and a small number of Chinese 
citizen members of the Church of Jesus Christ of Latter-day 
Saints living in China continue to be permitted to assemble for 
weekly worship services.\118\ Orthodox Christian congregations 
exist in a few areas of China--including the Xinjiang Uyghur 
Autonomous Region and Heilongjiang, Zhejiang, and Guangdong 
provinces. When Metropolitan Hilarion of Volokolamsk, head of 
the Moscow Patriarchate's Department of External Church 
Relations, visited China in June 2012, he met with a CPA-
approved Catholic bishop, Ma Yinglin, whose ordination was not 
approved by the Holy See. AsiaNews reported that, although 
``for years, the Russian Orthodox have tried to have their 
small community recognized, . . . there has been no movement in 
the issue so far.'' \119\

                         Ethnic Minority Rights


                              Introduction

    Ethnic minorities in China continued to face challenges in 
upholding their rights, including the right to maintain their 
unique languages, cultures, and religions as provided in 
Chinese and international law.\1\ The PRC Regional Ethnic 
Autonomy Law allows for regional autonomy in designated areas 
with ethnic minority populations,\2\ but limits in both the 
substance and implementation of this law and various related 
policies have prevented meaningful autonomy in practice. A 2012 
article by a high-level official published in a Communist Party 
publication proposed shifts in future policy regarding ethnic 
autonomy and language rights.\3\ New Tibetan protests and a 
series of self-immolations during the Commission's 2012 
reporting year highlighted continuing tensions and citizen 
grievances toward government minority policies. Government 
controls were harshest over groups deemed to challenge state 
authority, including those in the Tibet Autonomous Region and 
other Tibetan autonomous areas, the Xinjiang Uyghur Autonomous 
Region, and the Inner Mongolia Autonomous Region. [See Section 
IV--Xinjiang and Section V--Tibet for additional information on 
these areas. See text below for information on broader 
government policies toward ethnic minorities and on conditions 
in the Inner Mongolia Autonomous Region.]

                         State Minority Policy

    Government steps to address ethnic minorities' grievances 
remained limited in the 2012 reporting year, while authorities 
emphasized the role of top-down development in integrating 
``ethnic minority'' populations into Chinese economic and 
social spheres.\4\ The acceleration of top-down development 
policies \5\ has undercut the promotion of regional autonomy 
and limited the rights of ethnic minorities to maintain their 
unique cultures, languages, and livelihoods, while bringing 
some economic improvement to minority areas.\6\
    In June 2012, the State Council published the 2012-2015 
National Human Rights Action Plan.\7\ The plan guarantees a 
broad range of ethnic minority rights, including ``ethnic 
minorities' right to learn, use and develop their own spoken 
and written languages,'' but also calls for the promotion of 
``bilingual education.'' \8\ Non-Han groups have criticized 
``bilingual education'' for prioritizing Mandarin in schools in 
minority areas and removing minority languages from 
instruction. [See Section IV--Xinjiang and Section V--Tibet for 
more information on bilingual education and related policies on 
the use of language in education.] In July 2012, the State 
Council issued a five-year plan for social and economic 
development in ``ethnic minority'' areas that includes 
protections for ``traditional minority cultures.'' \9\ The plan 
follows the February issuance of a national five-year blueprint 
for cultural reform and development that emphasizes state-
defined cultural identity rather than the grassroots 
development of minority culture.\10\
    Leading Chinese officials and scholars stepped up 
discussion of proposals to scale back ethnic autonomy and 
promote assimilative policies on language, family planning, and 
other programs in ethnic minority areas.\11\ Communist Party 
United Front Work Department Executive Deputy Head Zhu Weiqun 
published an article in February that proposes the removal of 
ethnic identity information from household registration (hukou) 
cards in the interests of ``national cohesion'' and 
``amalgamation.'' \12\ Zhu suggested that the state's failure 
to dilute distinct ethnic identities could lead to the 
breakaway of ethnic minority areas from the PRC.\13\ A new Web 
page hosted by the State Ethnic Affairs Commission featured 
discussion among leading scholars regarding a ``second 
generation'' of state ethnic policies.\14\ Under ``second 
generation'' reforms, regional and local autonomy frameworks 
and corresponding policy provisions would be abandoned in favor 
of the uniform application of policies.\15\

            Grasslands Policy and Protests in Inner Mongolia

    The Chinese government continued to implement longstanding 
grasslands policies that impose grazing bans and require 
herders to resettle from grasslands and abandon traditional 
pastoral livelihoods, a development that limits the rights of 
Mongols, Tibetans, Kazakhs, and other minority groups in China 
to practice their traditional cultures.\16\ Regional-level 
regulations that took effect in the Inner Mongolia Autonomous 
Region (IMAR) in December 2011 stipulate fines for unauthorized 
use of grasslands.\17\ Some international scholars have 
questioned the efficacy of state grasslands policies in meeting 
the declared goal of ameliorating grasslands degradation,\18\ 
while affected communities have reported forced resettlement, 
inadequate compensation, minimal recourse for grievances, and 
poor living conditions, along with challenges in upholding 
traditional pastoral livelihoods and preserving their 
cultures.\19\ [For more information on rights abuses related to 
grasslands policies, see Section II--The Environment.]
    The proliferation of mines in the IMAR has reportedly 
contributed to the loss of grasslands due to environmental 
destruction and confiscation.\20\ State-controlled media 
reported in February that, in a regionwide overhaul of the 
mining sector in the IMAR in 2011, authorities suspended 
operations at 887 mines and shut down 73 mines.\21\ In July, a 
Beijing court sentenced the former IMAR Party secretary to life 
in prison for accepting bribes, especially in return for 
licenses for the requisition of land for mining.\22\ State 
efforts to place limitations on the mining sector, toward the 
goal of ameliorating grasslands degradation, have occurred as 
local governments continue to mandate an increase in coal 
output, and unlicensed mine operators reportedly use official 
connections to avoid being shut down.\23\
    Mongols in the IMAR held a series of demonstrations in 
April, June, and July 2012 to protest the confiscation of 
grasslands for government and private development projects.\24\ 
The Southern Mongolian Human Rights Information Center reported 
that local authorities detained and beat a number of herders 
who took part in the protests.\25\ In October 2011, a herder 
near Ordos municipality was struck and killed by an oil 
transport truck while protesting against the damage done to 
grazing lands and livestock by trucks carrying oil and gas.\26\ 
The death followed protests that took place in May 2011, after 
mining workers in Xilingol league, IMAR, killed two Mongol 
protestors in separate incidents.\27\

                          Political Prisoners

    The continued extralegal detention of Mongol rights 
advocate Hada underscores the repercussions Mongols have faced 
from officials for promoting their rights and the recent heavy-
handed state tactics employed to silence rights defenders 
across China. Throughout the Commission's 2012 reporting year, 
Hada remained in official custody, without apparent legal 
basis, despite the expiration of his 15-year legal sentence on 
December 10, 2010. Authorities imprisoned Hada after he 
organized peaceful protests for Mongols' rights in 1995. An 
overseas rights group, citing a relative of Hada, reported in 
May 2012 that Hada was moved to a ``luxury resort'' in Chifeng 
city, but that he remained in poor health.\28\ In April, 
authorities reportedly released Hada's wife Xinna, who was 
arrested in December 2011 around the same time as their son 
Uiles, after handing her a three-year suspended prison 
term.\29\ However, both Xinna and Uiles reportedly remain under 
home confinement.\30\ An overseas rights group reported in 
September 2011 that police in Tongliao city, IMAR, beat author 
and rights advocate Govruud Huuchinhuu, whose current 
whereabouts are unknown, multiple times while she was being 
detained by the Horchin district Public Security Bureau.\31\ 
Police reportedly detained Huuchinhuu in January 2011 in an 
``enforced disappearance'' after she was released from a 
hospital where she was being treated for a serious medical 
condition.\32\ Authorities originally placed Huuchinhuu under 
home confinement in November 2010 after she published calls on 
the Internet for Mongols to show support for the release of 
Hada.\33\ A number of ethnic Mongols remain in prison or 
detention for political reasons, including Batzangaa, who was 
sentenced to three years' imprisonment with a four-year 
reprieve in 2011; Erden-uul (pen name Unaga), who was detained 
in December 2010; and Sodmongol, who was detained in April 
2010.\34\

                          Population Planning


                              Introduction

    Chinese officials continue to actively promote and 
implement population planning policies which, in both their 
nature and implementation, violate international standards. 
During the Commission's 2012 reporting year, central and local 
authorities continued to monitor and control the reproductive 
lives of Chinese citizens, and in some cases inflicted 
harassment and abuse in violation of Chinese law. Under China's 
current population planning policies, most women in urban areas 
are limited to bearing one child, while slightly more than half 
of Chinese women--often located in rural areas--may bear a 
second child if their first child is a girl.\1\
    The Chinese government requires married couples to obtain a 
birth permit before they can lawfully bear a child and forces 
them to employ contraceptive methods at other times. For those 
who become pregnant but do not meet the necessary requirements 
to bear the child, officials in some cases impose heavy fines, 
threaten or execute eviction or home demolition, or perform 
forced abortions or sterilizations. Officials in some 
localities experimented this year with policy reform, while at 
least one top-level official publicly ruled out national-level 
reform for at least the next five years.\2\

                         International Standards

    China's population planning policies in both their nature 
and implementation constitute human rights violations according 
to international standards. The PRC Population and Family 
Planning Law and provincial implementing guidelines limit 
couples' freedom of reproductive choice by stipulating if, 
when, and how often they may bear children.\3\ Other domestic 
policies coerce compliance with population planning targets 
through heavy fines.\4\ Controls imposed on Chinese women and 
their families and additional abuses engendered by the system, 
including forced abortions, violate standards in the 1995 
Beijing Declaration and Platform for Action \5\ and the 1994 
Programme of Action of the Cairo International Conference on 
Population and Development.\6\ China participated as a state 
party in the negotiations and adoption of both.\7\ Acts of 
official violence committed in the implementation of population 
planning policies \8\ and the fact that these acts are not 
clearly punishable under Chinese law contravene provisions 
under the Convention against Torture and Other Cruel, Inhuman 
or Degrading Treatment or Punishment,\9\ which China has signed 
and ratified.\10\ Further, discriminatory policies against 
``out-of-plan'' children are in violation of the Convention on 
the Rights of the Child \11\ and the International Covenant on 
Economic, Social and Cultural Rights.\12\ China is a state 
party to these treaties and is bound to uphold their terms.

                        Coercive Implementation

    Chinese law prohibits official infringement upon the rights 
and interests of citizens while implementing population 
planning policies but does not define what constitutes a 
citizen's right or interest.\13\ Chinese law does not stipulate 
punishment for officials who demand or implement forced 
abortion.\14\ Further, provincial-level population planning 
regulations in at least 18 of China's 31 provincial-level 
jurisdictions explicitly endorse the practice, often referred 
to as a ``remedial measure'' (bujiu cuoshi), as an official 
policy instrument.\15\ Reports from this year continue to 
document official use of coercive methods--including arbitrary 
detention, forced abortion, and forced sterilization--to 
implement population planning policies.

                           OFFICIAL CAMPAIGNS

    During the 2012 reporting year, authorities in a wide range 
of localities implemented population planning enforcement 
campaigns that employed coercive measures to prevent or 
terminate ``out-of-plan'' pregnancies. In a March 2012 
announcement of one such campaign, the Luxi town government in 
Luxi county, Pingxiang city, Jiangxi province, outlined ``focal 
points'' for population planning work, including sterilizing 
couples in ``rural two-daughter households,'' collecting social 
maintenance fees, and terminating ``out-of-plan'' 
pregnancies.\16\ Luxi family planning officials were encouraged 
to ``concentrate time, concentrate force, and concentrate 
leadership to fight the family planning battle,'' to ``ensure 
the prompt implementation of `remedial measures' on `out-of-
plan' pregnancy targets,'' and to ensure that ``not a single 
`out-of-plan' [baby] makes it to the ground.'' \17\
    Official speeches and government reports from jurisdictions 
across China continued to reflect an emphasis on strengthening 
enforcement measures with apparent disregard for official 
restraint. Between October 2011 and August 2012, the Commission 
noted township, county, and city government reports from at 
least eight provinces (Jiangxi,\18\ Hubei,\19\ Hunan,\20\ 
Guangdong,\21\ Anhui,\22\ Guizhou,\23\ Fujian,\24\ and Shandong 
\25\) using phrases such as ``spare no efforts'' (quanli yifu), 
``use all means necessary'' (qian fang bai ji), ``implement 
man-on-man military tactics'' (shixing ``rendingren'' 
zhanshu),\26\ or ``assault and storm the fortifications (tuji 
gongjian)'' \27\ to urge officials to implement family planning 
measures, including ``remedial measures,'' the ``two 
inspections'' (intrauterine device (IUD) inspections and 
pregnancy inspections),\28\ and the ``four procedures'' (IUD 
implants, first-trimester abortions, mid- to late-term 
abortions, and sterilization).\29\

------------------------------------------------------------------------
   Individual Representative Cases of Coercion  (Arranged by Province)
-------------------------------------------------------------------------
<bullet> Shandong. In October 2011, local family planning officials
 forcibly brought Ma Jihong, six months pregnant with her third child,
 to the local hospital for a forced abortion.\30\ Officials reportedly
 ignored Ma's onset of respiratory difficulties, forced her to provide
 her fingerprint to indicate consent, and performed the procedure.\31\
 After hours of waiting with no information, Ma's family reportedly
 forcibly entered the operating room to find that Ma had died during the
 procedure and the medical team had left.\32\
------------------------------------------------------------------------


------------------------------------------------------------------------
  Individual Representative Cases of Coercion--Continued  (Arranged by
                                Province)
-------------------------------------------------------------------------
<bullet> Zhejiang. In November 2011, local officials reportedly
 ``tricked'' eight-months-pregnant Hu Qiaoqun into going to the family
 planning committee office for a pregnancy examination. During the
 examination, officials reportedly forcibly injected Hu with a substance
 that caused the abortion. Officials later criminally detained two of
 Hu's family members for ``assembling a crowd and creating a
 disturbance'' when peacefully protesting the forced abortion.\33\
<bullet> Jiangxi. In March 2012, government officials in Huangqiao town,
 Jishui county, reportedly dispatched over ``20 strong men'' to detain
 46-year-old Mao Yuanchun, who was no longer able to have children. The
 men brought her to the local family planning office against her will
 and forced her to undergo a tubal ligation. Mao's husband reported that
 the town government implemented the forced sterilization in retaliation
 for his petitioning efforts related to their daughter's death.\34\
<bullet> Fujian. In April 2012, ``men working for a local official'' in
 Daji township, Xianyou county, Putian city, reportedly detained eight-
 months-pregnant Pan Chunyan with two other women. Four days later, they
 brought her to a hospital and forced her to provide her fingerprint to
 indicate consent to an abortion. Nurses reportedly injected Pan with a
 drug that caused the abortion. According to Pan's husband, the couple
 had already paid the required fine of US$8,700 for this ``out-of-plan''
 birth.\35\
<bullet> Hunan. In June 2012, local family planning officials in
 Changsha municipality detained five-months-pregnant Cao Ruyi and took
 her to the hospital, threatening to forcibly abort her child unless she
 paid a fine of 150,000 yuan (US$23,563). Officials reportedly released
 Cao after she paid a 10,000 yuan (US$1,571) ``deposit,'' but they
 required that she still return for an abortion to recoup the
 deposit.\36\ At the time of the most recent reports, Cao and her
 husband were in hiding.\37\
<bullet> Shaanxi. In June 2012, local family planning officials in
 Ankang city reportedly detained seven-months-pregnant Feng Jianmei,
 blindfolded her, took her to the hospital against her will, and forced
 her to sign consent for an abortion. Five men then forcibly injected
 her with a substance that caused the abortion, according to Feng's
 husband. Feng's family reportedly had not paid the required 40,000 yuan
 (US$6,284) fine to have a second child. Local family planning officials
 reportedly denied holding Feng against her will and claimed the
 abortion was legal.\38\ National- and provincial-level family planning
 authorities reportedly launched an investigation into the case,\39\ and
 the Ankang city government acknowledged that officials had ``violated
 regulations by inducing labor in advanced months [of pregnancy]'' and
 apologized for causing the family ``serious harm.'' \40\ The city
 reportedly later fired two officials, gave five officials formal
 warnings, and agreed to compensate the couple US$11,200.\41\
------------------------------------------------------------------------

                     Punishments for Non-Compliance

    Chinese authorities continued to use various methods of 
punishment and reward to manage citizens' compliance with 
population planning policies. In accordance with national 
measures,\42\ local governments direct officials to punish non-
compliance with heavy fines, termed ``social maintenance fees'' 
(shehui fuyang fei), which force many couples to choose between 
undergoing an unwanted abortion and incurring a fine much 
greater than the average annual income.\43\ Officials in some 
cases threatened or imposed employment repercussions, expulsion 
from the Communist Party, destruction of personal property, 
arbitrary detention, or even violence against couples who were 
pregnant with or gave birth to an unauthorized child.\44\ Often 
with court approval, family planning officials are permitted to 
take ``forcible'' actions against families who are unwilling or 
unable to pay the fines.\45\ The PRC Population and Family 
Planning Law, however, prohibits infringements on citizens' 
personal, property, and other rights.\46\
    Additionally, some children may go without household 
registration (hukou) in China because they are born ``out-of-
plan'' and their parents do not pay the necessary fines.\47\ 
These children live in a legal limbo that may deny them the 
rights accorded to other citizens. Lack of a valid hukou raises 
barriers to access to social benefits typically afforded to 
registered citizens, including health insurance, public 
education, and pensions.\48\ [For additional discussion of 
China's hukou system, see Section II--Freedom of Residence and 
Movement.]

                        Focus on Migrant Workers

    Local governments appear to encourage harsher population 
planning measures on migrant populations due to the inherent 
difficulties migrants' mobility presents for keeping track of 
birth quotas. Chinese officials collect and monitor citizens' 
reproductive information, including marital history, pregnancy 
history, contraception history, reproductive health 
information, the results of periodic gynecological tests, and 
information on any children born to them, using a nationwide 
database called the Women of Childbearing Age Information 
System (WIS).\49\ The National Population and Family Planning 
Commission first issued standards on the WIS in January 
2006,\50\ specifically guiding officials in rural areas to 
adhere to the standards,\51\ and hailing the system's ability 
to meld the work of ``management'' together with ``services.'' 
\52\ Guidelines for the system include a particular focus on 
migrant women, and specific language used in national and 
provincial WIS directives appears to stress the efficiency of 
the WIS in promoting and enhancing overall management of the 
migrant population.\53\ Local governments in several localities 
also continued this year to conduct population planning 
campaigns that specifically mentioned or targeted migrants.\54\ 
Officials conducted these campaigns during the spring festival 
timeframe, when many migrant workers return to their hometowns 
to be with family. [For additional information on official 
treatment of migrant workers, see Section II--Freedom of 
Residence and Movement and Section II--Worker Rights.]

                      Prospects for Policy Reform

    Chinese officials have allowed for limited relaxation of 
local population planning policies during this reporting year, 
yet continue to rule out the near-term possibility of major 
nationwide population planning policy reform or cancellation. 
In November 2011, Henan province became the last of China's 31 
provincial-level jurisdictions to implement a ``two-child 
policy'' (shuang du), permitting married couples to have two 
children if both parents were only children themselves.\55\
    Citizens have increased calls this year for population 
policy reform. In July, for example, a group of Chinese 
scholars issued an open letter calling on the National People's 
Congress to ``begin the important work of comprehensively 
revising the `Population and Family Planning Law' as soon as 
possible.'' \56\ While the National Population and Family 
Planning Commission (NPFPC) led a special campaign this year to 
``tidy up'' offensive, and in some cases violent, family 
planning propaganda slogans that have been displayed around the 
country for decades,\57\ top Communist Party and government 
leaders, as well as state media outlets, continue to publicly 
defend the national-level policy and rule out the possibility 
of its cancellation.\58\

                        Demographic Consequences

    The Chinese government's population planning policies 
continue to exacerbate the country's demographic challenges, 
which include an aging population, diminishing workforce, and 
skewed sex ratio. Affected in recent decades by government 
restrictions on the number of births per couple, China's total 
fertility rate has dropped from 6.1 births per woman in 1949 
\59\ to an estimated 1.55 births per woman in 2012,\60\ 
resulting in the rapid growth of China's aging population and 
decline in the working-age population.\61\ [For additional 
information on China's projected labor shortage, see Section 
II--Worker Rights.]
    Chinese parents continue the illegal practice of sex-
selective abortion,\62\ in response to government-imposed birth 
limits and in keeping with a traditional cultural bias for 
sons.\63\ China's male-female ratio at birth has therefore 
become severely skewed, and is reportedly the highest in the 
world.\64\ Some social and political scientists have warned 
that large numbers of ``surplus males'' could create social 
conditions that the Chinese government may choose to address by 
expanding military enlistment.\65\ Reports have also suggested 
a link between China's large number of ``surplus males'' and an 
increase in the trafficking of women and children for forced 
marriage or commercial sexual exploitation.\66\ In August 2011, 
the State Council issued the PRC Outline for the Development of 
Children (2011-2020), urging officials to crack down further on 
``non-medically necessary sex determination and sex-selective 
abortion,'' \67\ and, in June 2012, the State Council issued 
its 2012-2015 National Human Rights Action Plan, reiterating 
this call.\68\ A May 2012 Global Times report, citing Wang Xia, 
head of the NPFPC, stated that, with regard to the progress of 
the ban, ``authorities have investigated 15,000 cases and 
punished 13,000 people for violating family planning laws since 
the launch of the campaign in 2011.'' \69\
    Chinese and international news media reports continue to 
indicate that the Chinese government's restrictive family 
planning policies have contributed in part to what a November 
2011 Global Times article referred to as China's ``massive and 
lucrative baby market.'' \70\ In some cases, family planning 
officials reportedly have coerced parents to relinquish their 
children born in excess of their parents' birth quotas, later 
making a profit when transferring the children into the care of 
local orphanages.\71\ In other cases, individuals have abducted 
or purchased children for the purpose of subsequently selling 
them into domestic or international adoption \72\ or forced 
labor situations.\73\

------------------------------------------------------------------------
                      Case Update: Chen Guangcheng
-------------------------------------------------------------------------
  In April 2012, Chen Guangcheng--a self-trained legal advocate who drew
 international news media attention to population planning abuses in
 2005 \74\--escaped from his home outside of Linyi city, Shandong
 province, after being subjected to extralegal home confinement
 (ruanjin) with his family for one year and seven months.\75\
 Authorities subjected Chen and his wife Yuan Weijing to harsh, and in
 some cases violent, treatment during the period of his home
 confinement.\76\ Authorities also prohibited them from leaving their
 home,\77\ and their daughter was prevented from attending primary
 school for approximately one year.\78\ Authorities later permitted her
 to attend school only with a police escort.\79\ International and
 domestic activists who attempted to visit Chen's village during his
 confinement were reportedly blocked, sometimes with violence.\80\ After
 escaping, Chen took shelter in the U.S. Embassy in Beijing on April 26,
 and, on May 2, he left the embassy to seek medical care at a nearby
 hospital for a foot injury and an intestinal illness.\81\ On May 19,
 Chen, Yuan, and their two children left China for the United States,
 where Chen had secured a fellowship to study at the New York University
 School of Law.\82\ Despite his initial confidence in the central
 government's agreement to investigate local authorities for the abuses
 perpetrated against him,\83\ Chen has since expressed frustration with
 the government's failure to act, and concern regarding the continued
 harsh treatment of family members who remain in Shandong.\84\ Chen, his
 family, and his supporters expressed concern that Chen's nephew Chen
 Kegui--who faces charges of intentional homicide for allegedly wounding
 several government-appointed personnel--may have been subjected to
 torture,\85\ and that authorities had forced Chen Kegui to accept
 government-appointed lawyers.\86\ An August 2012 Radio Free Asia report
 noted that the case against Chen Kegui was marred with procedural
 irregularities and violations.\87\ [See Section III--Access to Justice
 for more information on harassment of lawyers who offered to represent
 Chen Kegui.]
------------------------------------------------------------------------

                   Freedom of Residence and Movement


                          Freedom of Residence

    The Chinese government continued to enforce the household 
registration (hukou) system it first established in the 
1950s.\1\ The hukou system places limitations on the right of 
Chinese citizens to freely determine their permanent place of 
residence. Initially used to control migration of the rural 
population to China's cities, the hukou system today has 
developed into a ``mechanism determining one's eligibility for 
full citizenship, social welfare, and opportunities for social 
mobility.'' \2\ The hukou system classifies Chinese citizens as 
either rural or urban hukou holders and confers legal rights 
and access to social services based on the classification.\3\ 
The implementation of these regulations discriminates against 
rural hukou holders who migrate to urban areas by denying them 
equal access to social security benefits and many public 
services guaranteed to registered urban residents.\4\ The hukou 
regulations appear to contravene the freedoms guaranteed in 
Article 13 of the Universal Declaration of Human Rights and 
Articles 12 and 26 of the International Covenant on Civil and 
Political Rights, which include ``the right to liberty of 
movement and freedom to choose [one's] residence.'' \5\
    The hukou system's discriminatory effect lies in the unfair 
division of various social benefits and rights to which it is 
linked and through which rural migrants continue to face 
unequal chances for development and social status. Government 
officials and scholars estimate that between 200 and 250 
million migrant workers living in cities are denied access to 
social services because they lack urban hukou status.\6\ 
Statistics and analyses from studies published in 2011 on 
China's migrant population found migrants living in urban areas 
had lower rates of labor and social welfare protection 
coverage.\7\ The continued use of the hukou system to deny 
social benefits to migrant workers in cities exacerbates 
discord and division between rural and urban hukou holders.\8\ 
Migrant children, for instance, continue to face significant 
difficulties gaining access to urban public schools, while an 
estimated 58 million children left in rural areas by their 
migrant parents face disadvantages accessing quality schooling 
and basic nutrition.\9\ In some cases, concerns over access to 
equal education led to protests and violent clashes involving 
migrants.\10\ A report published by the Chinese Acacdemy of 
Social Sciences (CASS) in August 2012 emphasized the 
significant challenges China would face over the next 15 to 20 
years in incorporating an estimated 500 million rural residents 
into urban society in part because of the uneven distribution 
of public services in China's cities.\11\
    During the Commission's 2012 reporting year, high-level 
Chinese officials and scholars publicly acknowledged the need 
for hukou reforms, including the need to provide migrant 
workers equal access to social services.\12\ One Chinese 
scholar warned that the large gap in social services access 
marginalized migrants and ``ultimately poses a challenge to 
social stability.'' \13\ Central authorities have advocated a 
gradual approach to hukou reform that emphasized relaxing hukou 
admission standards for a limited number of areas, improving 
access to social services, and strengthening protection of 
rural residents' land rights and interests.\14\ During the 
National People's Congress in March, Premier Wen Jiabao 
stressed that the government would ``prudently carry forward 
the reform of the household management system,'' while also 
reforming the land requisition system and promoting the equal 
distribution of public resources in urban and rural areas.\15\ 
In July, the State Council issued a five-year national plan for 
basic public services, which aims to gradually separate the 
allocation of social services from the hukou system.\16\ The 
implications of these latest hukou reform proposals remain 
unclear.
    In February 2012, the State Council General Office issued a 
circular passed in February 2011 outlining a series of new 
policies intended to reform the hukou system. Some notable 
reforms include relaxing hukou registration standards in 
county- and prefectural-level cities, prohibiting coercive 
requisition and conversion of rural residents' land in exchange 
for urban hukous, and barring future policies that use hukou 
status as a precondition for access to social services.\17\ 
Several Chinese scholars and media outlets have criticized the 
vague nature and limited scope of these measures, leading some 
to question the circular's potential effectiveness.\18\ At 
least one Chinese scholar expressed concern that local 
officials may not comply with the measures because the circular 
has no implementation date.\19\
    Local governments continued to relax certain hukou 
restrictions, consistent with earlier reform efforts. While 
details vary by location, the key provisions of these reforms, 
in some instances, allow some rural residents to transfer their 
hukou status from rural to urban status or apply for a 
residency permit (juzhu zheng), based on certain criteria.\20\ 
These criteria usually include education and income standards 
aimed at attracting elite rural hukou holders with specialized 
skill sets and wealth. In some cases, reforms require that 
rural migrants possess both a stable source of income and 
stable place of residence for a specified period of time as 
conditions for obtaining local hukou.\21\ Despite these limited 
attempts to relax hukou criteria, most reforms still exclude 
the majority of migrants who do not have a college education, 
specialized skills, or stable employment and residence.\22\

                          Freedom of Movement

    Chinese authorities continue to restrict freedom of 
movement to penalize citizens who express views that 
authorities deem objectionable or sensitive. The Chinese 
government has placed restrictions on movement that are 
inconsistent with the Universal Declaration of Human Rights and 
the International Covenant on Civil and Political Rights, which 
China has signed and expressed an intent to ratify.\23\
    Chinese authorities continue to arbitrarily prevent rights 
defenders, advocates, and critics from leaving China. The PRC 
Passport Law and PRC Exit and Entry Control Law give officials 
the discretion to prevent Chinese citizens from traveling 
abroad when they believe that a citizen's leaving China might 
harm ``state security'' or harm or cause ``major loss'' to 
national interests.\24\ The meaning and scope of harm or loss 
to state security or national interests are undefined, however, 
which has led to official abuse and arbitrary enforcement.
    In numerous cases, authorities prevented Chinese citizens 
from leaving China for political reasons:

        <bullet> Li Sihua. In June 2012, Chinese authorities in 
        Guangzhou city, Guangdong province, prevented rights 
        activist and independent provincial People's Congress 
        candidate Li Sihua from traveling to Hong Kong. Border 
        control officers informed Li that authorities had 
        suspended his passport two months earlier in his home 
        province of Jiangxi and he would not be permitted to 
        travel to Hong Kong en route to Switzerland.\25\ 
        Jiangxi officials said a pending civil case involving 
        Li was the pretense for suspending his passport, 
        although they did not provide any details regarding the 
        case. Li's travel ban appears to be related to his 
        activities as an independent candidate in Jiangxi 
        Province People's Congress elections.\26\ Authorities 
        previously detained Li on February 25 after returning 
        from a human rights training program in Thailand.\27\
        <bullet> Chen Yunfei. In June 2012, authorities in 
        Sichuan province prevented democracy activist Chen 
        Yunfei from boarding a plane to Europe, where he had 
        planned to take part in a human rights legal exchange 
        program.\28\ National security officers subsequently 
        questioned Chen about his travel itinerary before 
        eventually letting him go. Chen has been the target of 
        police harassment for many years due to his 
        activism.\29\
        <bullet> Ai Weiwei. In June 2012, authorities informed 
        well-known artist and rights advocate Ai Weiwei that he 
        was barred from traveling abroad, despite the 
        expiration of a one-year bail imposed after his release 
        from detention in 2011. Police informed Ai that he 
        still was under investigation for a series of crimes 
        and would not be allowed to leave the country.\30\ As 
        of June 2012, authorities had not returned his 
        passport.\31\ Authorities detained Ai in April 2011 for 
        81 days without official confirmation of his 
        whereabouts amid a government crackdown following calls 
        for nonviolent, ``Jasmine'' protests in various cities 
        in China. He was later released on bail and indicted on 
        charges of tax evasion. He was ordered to pay 15 
        million yuan (US$2.4 million) in back taxes and 
        fines.\32\ Under the reported terms of his release on 
        bail last year, Ai is barred from leaving Beijing and 
        talking with foreign media.\33\

   Home Confinement, Surveillance, and Harassment of Chinese Citizens

    The Chinese government continued to place restrictions on 
liberty of movement within China to punish and control rights 
defenders, advocates, and critics in contravention of 
international legal standards.\34\
    As in previous years, authorities continued to employ a 
range of measures to restrict liberty of movement, including: 
Stationing plainclothes police or hired personnel to monitor 
the homes of rights defenders; \35\ forcing them to have 
informal chats over tea (``drink tea'') with security 
personnel; \36\ removing them to unknown locations; \37\ and 
imprisoning them.\38\ Restrictions on liberty of movement were 
especially prominent during politically sensitive periods, 
including the annual meetings of the National People's Congress 
and the Chinese People's Political Consultative Conference in 
March 2012,\39\ the anniversary of the 1989 Tiananmen 
protests,\40\ and the four-year anniversary of the May 2008 
Sichuan earthquake.\41\
    The Commission notes that, during this reporting period, 
authorities employed particularly forceful techniques to punish 
and control family members and supporters of human rights 
defenders and activists. Authorities, for example, continued to 
confine, harass, and abuse family members and supporters of 
self-trained legal advocate Chen Guangcheng after he left China 
for the United States with his immediate family in May 
2012.\42\ Following the death of labor advocate and 1989 
Tiananmen protester Li Wangyang in June 2012, officials 
confined, harassed, and removed to unknown locations Li's 
family members and supporters, including arresting Li's close 
friend and advocate Zhu Chengzhi on the charge of ``inciting 
subversion of state power,'' and ordering rights activist Xiao 
Tong to serve 18 months' reeducation through labor apparently 
for expressing concerns with official accounts of Li's 
death.\43\ In April 2012, officials also placed Dong Xuan, the 
daughter of housing rights advocate and lawyer Ni Yulan, under 
``soft detention'' (ruanjin) and 24-hour surveillance.\44\ In 
January 2012, authorities had prevented Dong from traveling to 
the Netherlands to accept a Dutch government human rights award 
on behalf of her mother.\45\ Authorities also continued to hold 
Liu Xia, wife of the Nobel Peace Prize Laureate Liu Xiaobo, 
under extralegal confinement in her home, where she has been 
arbitrarily detained since October 2010.\46\

                            Status of Women


                            Gender Equality

    Through its international commitments and domestic efforts, 
the Chinese government has agreed to ensure gender-equal 
political participation; however, current official statistics 
reveal that women remain underrepresented. China is a state 
party to the Convention on the Elimination of All Forms of 
Discrimination against Women,\1\ and as such has committed to 
ensuring the right of women, on equal terms with men, ``to 
participate in the formulation of government policy and the 
implementation thereof and to hold public office and perform 
all public functions at all levels of government.'' \2\ In 
accordance with this commitment, the Chinese government has 
passed several laws \3\ and policy initiatives \4\ which aim to 
promote gender equality by setting broad goals and minimum 
standards for political positions filled by women. Most 
recently, China released its 2012-2015 National Human Rights 
Action Plan in June 2012, stating plans to increase female 
representation at national and local levels of government, and 
to ensure rural women's land rights.\5\
    Against the backdrop of these legislative and policy 
efforts, female representation at the highest levels of the 
central government and the Communist Party falls short of 
international norms \6\ and remains far from equal to that of 
males. For example, in 2012, women held 1 out of 25 positions 
in the Political Bureau of the Communist Party Central 
Committee,\7\ 13 out of 204 full memberships in the Communist 
Party Central Committee,\8\ and 4 out of 35 positions in the 
State Council.\9\ In July 2011, official state media reported 
that women made up 21.3 percent of deputies to the National 
People's Congress (NPC).\10\ This figure has shown little 
growth since the early 1970s.\11\ This year several NPC 
deputies highlighted the need for increased female political 
representation.\12\
    Despite reported increases in women's participation in 
government in some local jurisdictions during the Commission's 
2012 reporting year, the percentage of women in local 
leadership positions across China reportedly remains low.\13\ 
Domestic media reports this past year noted an increase in 
female representation in village-, city-, county-, and 
provincial-level governments and Party organizations, in some 
cases as a result of scheduled reshuffling of government 
positions in 2011.\14\ These increases follow national-level 
legislative efforts in late 2010 to increase quotas for female 
representation in village committees and village representative 
assemblies.\15\ However, women continue to face challenges 
protecting their land rights due to factors including the lack 
of ``concrete means and mechanisms to supervise, control, and 
manage villagers' decisions and local rules.'' \16\

                           Legal Developments

    In August 2011, the Supreme People's Court issued a new 
interpretation of the PRC Marriage Law, which, some have 
argued, leaves women's property rights unprotected. The 
interpretation states that, in the case of divorce, full 
ownership of property is afforded solely to the person in whose 
name it was purchased and registered.\17\ Under cultural norms 
in China, this is traditionally the man.\18\
    In June 2012, the Shenzhen Municipality Fifth People's 
Congress Standing Committee passed the Shenzhen Special 
Economic Zone Gender Equality Promotion Regulations 
(Regulations), the first legislation of its kind in China to 
focus on gender equality.\19\ The Regulations are set to take 
effect in January 2013.\20\ If implemented, the Regulations 
could provide greater protections against and punishment for 
gender discrimination, sexual harassment, and domestic 
violence.\21\

                       Employment Discrimination

    Gender-based employment discrimination with respect to 
issues such as wages, recruitment, promotion, and retirement 
age remains widespread in China, despite government efforts to 
eliminate it and promote women's employment. The Chinese 
government has committed under international standards \22\ as 
well as with several of its domestic laws \23\ and policies 
\24\ to prohibit gender discrimination and promote gender 
equality in the workplace. A number of domestic reports and 
surveys from the 2012 reporting year highlighted challenges 
that women continue to face in employment due to their gender, 
as noted below:

        <bullet> Discrimination in hiring, promotion. Several 
        surveys noted continued gender discrimination in hiring 
        and promotion. An All-China Women's Federation (ACWF) 
        and National Bureau of Statistics (NBS) joint survey 
        released in October 2011 found that approximately one 
        out of four college students and one out of five 
        ``female professional respondents'' reported 
        encountering discrimination in job hiring.\25\ The 
        survey also polled women who held senior positions in 
        education, engineering, government, and enterprises--
        and found that 31 percent of these respondents reported 
        slower rates of promotion than equally qualified male 
        coworkers.\26\ Results of a China University of 
        Political Science and Law Constitutionalism Research 
        Institute survey released in November 2011 showed an 
        increase in gender discrimination in civil service 
        hiring since 2010.\27\ The survey also pointed out that 
        ``even the All-China Women's Federation had barred 
        women from certain positions.'' \28\ In a stance 
        against one continued form of gender discrimination in 
        recruiting, in March 2012, non-governmental 
        organization Beijing Yirenping Center published an open 
        letter to the government calling for the revision or 
        elimination of provisions which require women to submit 
        to gynecological tests when applying for civil service 
        positions.\29\
        <bullet> Wage disparity. The October 2011 ACWF and NBS 
        joint survey, a result of responses from over 105,000 
        women, found that ``[t]he annual income of female 
        urbanites is 67 percent of that of their male 
        counterparts, and women laborers earn only half of what 
        men do in rural areas.'' \30\ Similarly, in April 2012, 
        international non-profit business organization Catalyst 
        reported that ``women [in China] earned on average 31% 
        less than men for doing similar work.'' \31\
        <bullet> Discriminatory actions during maternity leave. 
        In March 2012, a woman in Guangdong province filed a 
        lawsuit against her former employer for terminating her 
        employment during her maternity leave.\32\ This is 
        reportedly the first such gender discrimination case in 
        Guangdong to elevate beyond labor dispute arbitration 
        committees and reach court.\33\ Job termination on the 
        grounds of maternity leave is prohibited under Article 
        27 of the PRC Law on the Protection of Women's Rights 
        and Interests.\34\ In April 2012, the State Council 
        issued the Special Provisions for the Work Protection 
        of Female Employees,\35\ which include such guarantees 
        as protection against job termination on the grounds of 
        maternity or nursing \36\ and more time allotted for 
        maternity leave (extended from 90 \37\ to 98 days).\38\
        <bullet> Forced early retirement. Mandatory retirement 
        ages for women in China continue to be 5 to 10 years 
        earlier than those for men, depending on their position 
        of employment.\39\ Public discussion on retirement age 
        this year continued to reveal varying views regarding 
        for whom the retirement age should be raised, if at 
        all. In March, China's top labor official reportedly 
        announced plans to raise the retirement age for both 
        men and women; \40\ however, he did not provide a 
        timeline.\41\ At the annual session of the NPC that 
        same month, one NPC deputy proposed that the retirement 
        age be raised specifically for ``highly educated'' 
        female workers.\42\ Non-government workers, university 
        students, and academics, however, have expressed 
        hesitation about a delayed retirement age, noting that 
        such a change would push already over-taxed laborers to 
        work ``extra years,'' and that it might limit job 
        opportunities and exacerbate existing pressure on 
        China's pension system.\43\

                         Violence Against Women


                           DOMESTIC VIOLENCE

    Domestic violence is prohibited and punishable under 
Chinese law,\44\ yet the problem of domestic violence remains 
widespread.\45\ Current national-level legal provisions 
regarding domestic violence leave many victims unprotected by 
prohibiting domestic violence without defining the term or 
clarifying the specific responsibilities of public and private 
sector organizations in prevention, punishment, and 
treatment.\46\ As in previous years,\47\ Chinese advocates 
called for clear national-level legislation on domestic 
violence,\48\ and nationwide attention to the issue appears to 
have increased following several high-profile domestic violence 
cases this year involving women and children.\49\ State media 
reported in March 2012 that ``[d]omestic violence is listed on 
the 2012 legislative agenda of the [NPC],'' \50\ and China's 
2012-2015 National Human Rights Action Plan, issued in June, 
also included goals to ``formulate'' a domestic violence 
law.\51\

                           SEXUAL HARASSMENT

    Sexual harassment remains widespread in China, and those 
who are targeted face difficulties in defending their rights 
under Chinese law. China has committed under international 
standards to taking ``all appropriate measures to eliminate 
discrimination against women in the field of employment.'' \52\ 
Accordingly, Chinese law prohibits sexual harassment and allows 
for legal recourse for victims.\53\ Chinese law does not 
clearly define sexual harassment or provide standards and 
procedures for prevention and punishment.\54\ Survey findings 
in recent years show that many who face sexual harassment 
choose to ``tolerate'' it.\55\ Other reports indicate that 
those who decide to take legal action may risk losing their 
lawsuits due to the challenge of supplying adequate 
evidence.\56\

                 Impact of Population Planning on Women

    In response to government-imposed birth limits and in 
keeping with a traditional cultural bias for sons, some Chinese 
parents choose to engage in sex-selective abortion, especially 
rural couples whose first child is a girl \57\--a practice that 
has contributed to China's skewed sex ratio, which some have 
linked to China's ongoing problem of human trafficking. The 
male-female ratio of newborns in 2008 was greater than 120:1, 
and in 2011 it was above 117:1.\58\ National regulations issued 
in 2003 banned prenatal gender determination and sex-selective 
abortion; \59\ however, statistics and analysis from recent 
years \60\ show that the practice remains commonplace, 
especially in rural areas, and suggest that implementation of 
the ban on sex-selective abortion remains uneven. In August 
2011, the State Council issued the PRC Outline for the 
Development of Children (2011-2020), urging officials to crack 
down further on ``non-medically necessary sex determination and 
sex-selective abortion,'' \61\ and, in June 2012, the State 
Council issued its 2012-2015 National Human Rights Action Plan, 
reiterating this call.\62\ Observers, including Chinese state 
media, have linked China's skewed sex ratio with an increase in 
forced prostitution, forced marriages, and other forms of human 
trafficking.\63\ [For more information regarding China's skewed 
sex ratio, see Section II--Population Planning.]
    The international non-governmental organization Human 
Rights Watch reported in January 2012 that ``women's 
reproductive rights remain severely curtailed in 2011 under 
China's family planning regulations,'' citing the pressures of 
``administrative sanctions, fines, and forced abortions'' on 
women in rural areas, female migrant workers in urban areas, as 
well as women living in ethnic minority areas.\64\

                           Human Trafficking


                              Introduction

    The Chinese government faces persistent challenges as it 
continues to combat human trafficking that occurs both within 
and across Chinese borders. With respect to human trafficking, 
the Chinese government has taken steps to increase public 
awareness, expand social services, and improve international 
cooperation. Yet, officials' focus on the abduction and sale of 
women and children,\1\ while giving proportionally less 
attention to other forms of trafficking, limits the support 
rendered to the trafficking victims who need it. Despite 
improvements to the PRC Criminal Law in 2011, gaps between 
domestic legislation and international standards on human 
trafficking remain and limit the scope and effectiveness of 
related efforts. Domestic and international observers have 
linked certain longstanding risk factors to the human 
trafficking problem in China, including the government's 
population planning policies and their exacerbation of China's 
skewed sex ratio; migrant mobility; uneven enforcement of anti-
trafficking laws; lack of anti-trafficking training, education, 
and resources; and government corruption.

                      Anti-Trafficking Challenges

    The Chinese government acceded to the UN Protocol to 
Prevent, Suppress and Punish Trafficking in Persons, Especially 
Women and Children (UN TIP Protocol) in December 2009,\2\ but 
has not revised domestic legislation to come into full 
compliance. While the PRC Criminal Law prohibits the 
trafficking of persons,\3\ Chinese law addresses the crime more 
narrowly, in some ways, than does the UN TIP Protocol. For 
example, provisions in the PRC Criminal Law do not appear to 
cover all forms of trafficking, such as certain types of non-
physical coercion \4\ and the commercial sex trade of 
minors.\5\ Nor does the definition of trafficking provided 
under Article 240 clearly include offenses against male 
victims,\6\ although other articles in the PRC Criminal Law 
address some aspects of these crimes.\7\ Each of these forms of 
trafficking are covered under Article 3 of the UN TIP 
Protocol.\8\ In other ways, the Chinese legal definition of 
trafficking is overly broad in comparison to that provided in 
the UN TIP Protocol. For example, under Chinese law, the crime 
of ``trafficking'' includes the purchase or abduction of 
children for subsequent sale without specifying the end purpose 
of these actions.\9\ Several Chinese and international media 
reports in the past year highlighted such cases--referring to 
them as ``trafficking'' cases--and indicated that a significant 
amount of anti-trafficking work in China is focused on 
investigating or prosecuting these types of cases.\10\ Under 
the UN TIP Protocol, the purchase or abduction of children for 
subsequent sale only constitutes trafficking if the end purpose 
of the sale is exploitation, such as sexual exploitation, 
labor, or servitude.\11\
    Chinese officials also continue to conflate human 
trafficking with human smuggling and therefore treat some 
victims of trafficking as criminals.\12\ According to the UN 
Office on Drugs and Crime, the main international body 
responsible for implementing the UN TIP Protocol, ``human 
trafficking'' and ``migrant smuggling'' mainly differ with 
respect to consent, exploitation, and transnationality.\13\ 
Commonly, human trafficking involves the exploitation of an 
individual (either domestically or after they have crossed 
borders) without the individual's consent, or if the individual 
initially consented, the consent was ``rendered meaningless by 
the coercive, deceptive, or abusive actions of the 
traffickers,'' whereas migrant smuggling involves the cross-
border transport of an individual with the individual's consent 
and ends when the migrant arrives at his or her 
destination.\14\ In conflating the two, Chinese officials may 
consider an individual's illegal entry into China to be a crime 
of ``human smuggling'' and punish the individual accordingly, 
while giving less consideration to the role exploitation may 
have played in the border crossing.\15\ The Chinese government 
continues to deport all undocumented North Koreans as illegal 
``economic migrants'' and does not provide legal alternatives 
to repatriation for foreign victims of trafficking.\16\ [For 
more information, see Section II--North Korean Refugees in 
China.]

                               Prevalence

    China remains a country of origin, transit, and destination 
for the trafficking of men, women, and children.\17\ The 
majority of trafficking cases are domestic; \18\ however, human 
traffickers continue to traffic women and children from China 
to countries around the world.\19\ Women and girls from 
countries across Asia, as well as some countries in Europe and 
Africa, are also trafficked into China and forced into 
marriages, employment, and sexual exploitation.\20\ Forced 
labor of men, women, and children continues, and certain cases 
gained media attention during the Commission's 2012 reporting 
year; \21\ however, the full extent of the forced labor problem 
in China is unclear.\22\ Of note, an internal memo issued in 
2012 by the Lhasa Public Security Bureau in the Tibet 
Autonomous Region (TAR) reported a recent spike in the 
trafficking of women and children from the TAR to other areas 
of China to serve ``as `brides' or household servants.'' \23\ 
[See Section II--Worker Rights for more information on child 
labor.] According to the UN TIP Protocol, ``the recruitment, 
transportation, transfer, harbouring or receipt'' of any person 
under 18 years of age for exploitative purposes constitutes 
trafficking in persons.\24\

                              Risk Factors

    Experts link the reported growth \25\ of the trafficking 
market in China to several political, demographic, economic, 
and social factors. Reports indicate that China's sex ratio 
\26\--which has become severely skewed against the backdrop of 
China's population planning policies and Chinese families' 
preference for sons \27\--has increased the demand for 
trafficking for forced marriage and commercial sexual 
exploitation.\28\ In recent years, domestic and international 
observers have also linked the growing trafficking problem with 
a continued lack of awareness among potential victims, a 
continued lack of education on trafficking prevention for 
vulnerable women and parents,\29\ and challenging conditions in 
bordering countries such as instability in Burma and poverty in 
the Democratic People's Republic of Korea.\30\ [For additional 
information on China's skewed sex ratio, see Section II--
Population Planning.]

------------------------------------------------------------------------
  Representative Human Trafficking Cases  from the 2012 Reporting Year
                         (Arranged by Province)
-------------------------------------------------------------------------
<bullet> Henan. In September 2011, officials in Henan province
 reportedly rescued 30 people with mental disabilities from slave labor
 conditions in illegal brick kilns in several locations in the
 province.\31\ The case has reportedly raised concerns regarding
 official efforts to prevent forced labor of persons with mental
 disabilities, following a similar case in Shaanxi province in 2007.\32\
<bullet> Jiangsu. According to a December 2011 Xinhua article, a 22-year-
 old Burmese woman was rescued and returned home in July 2011 after a
 year and a half of forced marriage to a farmer who was ``mentally
 handicapped.'' The woman reportedly had difficulty escaping the abusive
 situation because she could not speak Chinese.\33\
<bullet> Jiangsu. In February 2012, officials in Suzhou city launched an
 investigation into a local electronics factory after Suzhou police
 received an online tip reporting child labor there. The police found at
 least 10 underage workers, including 1 as young as 9 years old,
 employed at the factory. The youths were reportedly forced to work
 under harsh conditions, including 12-hour daily shifts, and they
 reportedly suffered from poor nutrition.\34\
<bullet> Yunnan. Eight persons between the ages of 12 and 22 in Pucheng
 town, Puning county, Kunming municipality, have disappeared in a series
 of alleged abductions since May 2011. Police launched an investigation
 into these cases only after another young person escaped a brick kiln
 on April 25, 2012, and reported to authorities that he had been
 abducted off the street and forced into labor. Parents of the
 disappeared reported that when they approached the police about the
 disappearances, the police accused them of ``starting rumors.'' \35\
------------------------------------------------------------------------

                        Anti-Trafficking Efforts

    The Chinese government, non-governmental organizations, and 
individuals continued efforts to combat human trafficking. In 
December 2009, the National People's Congress Standing 
Committee (NPCSC) approved China's accession to the UN Protocol 
to Prevent, Suppress and Punish Trafficking in Persons, 
Especially Women and Children (UN TIP Protocol).\36\ On 
February 25, 2011, the NPCSC revised the PRC Criminal Law, 
making amendments to provisions on forced labor,\37\ a crime 
that constitutes human trafficking under the UN TIP 
Protocol.\38\ The revised legislation broadens the scope of 
activity considered punishable for forced labor and strengthens 
punishments for ``serious'' crimes of forced labor; however, 
the legislation still does not clearly define what constitutes 
forced labor.\39\ The Commission did not observe changes to 
other areas in which China's domestic legislation does not 
comply with the UN TIP Protocol during the 2012 reporting 
year.\40\

                           GOVERNMENT EFFORTS

    Chinese authorities, in cooperation with non-governmental 
organizations and international organizations, took limited 
steps to improve protection, services, and care for victims of 
trafficking but continued to focus such efforts only on women 
and children identified as victims through the government's 
definition of trafficking. The United Nations Interagency 
Project on Human Trafficking and the International Organization 
for Migration each conducted training sessions during the 
Commission's 2012 reporting year that reportedly addressed 
issues including victim protection and services, as well as 
worker rights.\41\ The U.S. State Department reported in 2012 
that the All-China Women's Federation (ACWF) ``continued to 
allocate an unknown amount of funds to operate `women's homes,' 
'' \42\ a network of shelters where women could access 
referrals for legal aid, report human trafficking violations, 
and seek assistance from social workers.\43\ China signed the 
Mekong River Sub-regional Cooperation Anti-Trafficking Memo in 
2004, committing to meet on an annual basis with senior 
officials from Thailand, Burma, Laos, and Cambodia to discuss 
anti-trafficking work.\44\ The Chinese government has eight 
border offices with neighboring countries to combat cross-
border trafficking.\45\
    Authorities continued outreach and education campaigns in 
concert with the ACWF and international organizations. The 
government continued trafficking education campaigns in areas 
with high numbers of migrant workers, including train and bus 
stations, and through television, cell phones, and the 
Internet, informing workers of their rights. The ACWF in 
conjunction with an international organization also reportedly 
aided in integrating awareness messages into school 
curricula.\46\ Chinese authorities continue to operate national 
and local hotlines for reporting suspected trafficking 
cases,\47\ although there appears to be limited public data on 
their use.
    As Chinese law conflates human smuggling, illegal adoption, 
and child abduction with human trafficking, accurate official 
statistics are not available on the number of trafficking cases 
the government investigated and prosecuted during the past 
reporting year.\48\
    In addition to provisions in the newly issued 2012-2015 
National Human Rights Action Plan calling for continued and 
improved anti-trafficking efforts and provision of victim 
services,\49\ the government reportedly is working in 
conjunction with international organizations to draft a 
specific ``National Plan of Action'' to combat human 
trafficking. The draft is expected to be released in December 
2012 and reportedly factored into the U.S. State Department's 
decision to waive ``an otherwise required downgrade to Tier 3'' 
in its 2012 Trafficking in Persons Report.\50\ The U.S. State 
Department thus placed China on its Tier 2 Watch List for the 
eighth consecutive year in 2012,\51\ listing several areas in 
which China's anti-trafficking efforts remain insufficient.\52\

                     North Korean Refugees in China


                         Unlawful Repatriation

    During the Commission's 2012 reporting year, the Chinese 
government persisted in detaining and repatriating North Korean 
refugees to the Democratic People's Republic of Korea (DPRK), 
despite the severe punishments refugees face once returned.\1\ 
The Chinese government continues to classify all North Korean 
refugees in China as ``illegal'' economic migrants and not 
refugees (nanmin) \2\ and continues its policy of repatriating 
them based on a 1961 treaty with the DPRK and a subsequent 1986 
border protocol, documents which are still not publicly 
available.\3\ A former vice minister in the South Korean 
Ministry of Unification and South Korean activists have said 
that China repatriates 5,000 North Korean refugees every 
year.\4\ In May, one non-governmental organization (NGO) expert 
estimated that there were between 100,000 and 200,000 North 
Korean refugees living in China.\5\ China's forced repatriation 
of North Korean refugees, including those who leave the DPRK 
for fear of persecution, contravenes obligations under the 1951 
Convention relating to the Status of Refugees (1951 Convention) 
and its 1967 Protocol (1967 Protocol), to which China has 
acceded.\6\
    During this reporting year, central and local authorities 
increased security measures along the North Korean border and 
implemented new campaigns to crack down on North Korean 
refugees.\7\ Sources cited in international media reported in 
March that Chinese authorities had installed silent alarm 
systems ``in every house'' in Yanbian Korean Autonomous 
Prefecture, Jilin province. The silent alarm systems are 
designed to allow local residents to notify police if North 
Korean refugees sought assistance from them.\8\ In late May, 
public security authorities in Yanbian launched a five-month 
crackdown on illegal immigrants, targeting North Korean 
refugees as well as international NGOs and religious 
organizations that assist refugees.\9\ Additional media reports 
this past year indicated increased collaboration between North 
Korean and Chinese security officials in apprehending North 
Korean refugees, as well as the presence of North Korean 
security agents operating in China.\10\
    In early 2012, international media outlets and advocacy 
organizations raised human rights concerns about lethal 
crackdowns on North Koreans following the death of North Korean 
leader Kim Jong-il in December 2011. Some news reports claimed 
that the DPRK's new leader Kim Jong-un threatened to 
``exterminate three generations'' of any family with a member 
caught defecting from the DPRK during the 100-day mourning 
period.\11\ In February 2012, Chinese authorities reportedly 
detained between 24 and 33 North Korean refugees over a week-
long period in separate arrests in Liaoning and Jilin 
provinces.\12\ In early March 2012, Yonhap News Agency and CNN 
cited activists and a South Korean official who indicated that 
they believed Chinese officials forcibly repatriated the 
detained North Korean refugees.\13\
    China's public security bureau agencies have held detained 
North Korean refugees and asylum seekers in detention centers 
that are not subject to independent monitoring.\14\ Refugees 
and asylum seekers cannot challenge their detention in 
court.\15\ The Chinese government continued to deny the UN High 
Commissioner for Refugees permission to work along its 
northeastern border with the DPRK.\16\
    Another problem that reportedly stems from China's unlawful 
repatriation policy is the denial of education and other public 
services for the children of North Korean refugees married to 
Chinese citizens.\17\ The scope of this problem, however, is 
unclear due to limited public information.

                         Punishment in the DPRK

    North Koreans repatriated by the Chinese government face 
the threat of imprisonment, torture, and capital punishment in 
the DPRK.\18\ Under the 2004 revised North Korean Penal Code, 
border crossers can receive sentences of up to two years' 
imprisonment in a ``labor-training center.'' \19\ North Korean 
authorities assign harsher punishment, including long sentences 
and public execution, to repatriated North Koreans deemed to 
have committed ``political'' crimes, which include attempted 
defection; conversion to Christianity; and having had extensive 
contact with religious groups, South Koreans, or Americans.\20\
    The North Korean government's imprisonment and torture of 
repatriated North Koreans renders North Koreans in China 
refugees ``sur place,'' or those who fear persecution upon 
return to their country of origin.\21\ Under the 1951 
Convention and its 1967 Protocol, China is obligated to refrain 
from repatriating refuges ``sur place.''

                   North Korean Women and Trafficking

    The Chinese government's policy of forcibly repatriating 
North Korean refugees and denying them legal status increases 
the likelihood that they will be abused, trafficked, and 
exploited in China. North Korean women are especially 
vulnerable to inhumane treatment and indentured servitude.\22\ 
Although Chinese authorities have taken limited steps to combat 
trafficking and protect trafficking victims,\23\ traffickers 
continue to traffic an estimated 80 to 90 percent of the North 
Korean women in China,\24\ and Chinese authorities refuse to 
provide these victims with legal alternatives to 
repatriation.\25\ NGOs and researchers estimate that as many as 
70 percent of North Korean refugees in China are women.\26\ In 
March 2012, the director of a South Korean NGO said that 
between 20,000 and 30,000 North Korean women were trapped in 
``what many observers see as a form of slavery.'' \27\ 
Traffickers, many of whom operate in organized networks, have 
used false promises to lure North Korean women into China, and 
have abducted those entering China on their own.\28\ 
Traffickers reportedly blackmailed North Korean women in China 
by warning them that if they did not obey, they would be 
reported to Chinese authorities, who would forcibly repatriate 
them.\29\
    The trafficking of North Korean women has created a black 
market in which refugees have been ``moved and traded like 
merchandise, with many sold as `brides,' kept in confinement, 
and sexually assaulted,'' according to sources cited in a March 
2011 Radio Free Asia report.\30\ There has been a high demand 
for wives in northeastern China where severe sex ratio 
imbalances have spurred the Chinese market for trafficked North 
Korean brides, and where poor, disabled, or elderly men have 
difficulty finding wives.\31\ In other cases, North Korean 
women have been trafficked into commercial sexual exploitation 
and forced to work as prostitutes or in Internet sex 
operations.\32\ Some women reportedly have been sold and resold 
multiple times,\33\ and trafficked North Korean women have 
testified to being beaten, sexually abused, and locked up to 
prevent escape.\34\
    The Chinese government's repatriation of trafficked North 
Korean women contravenes the 1951 Convention and its 1967 
Protocol,\35\ and the Chinese government is obligated under 
Article 7 of the UN Protocol to Prevent, Suppress and Punish 
Trafficking in Persons, Especially Women and Children (UN TIP 
Protocol) to ``consider adopting legislative or other 
appropriate measures that permit victims of trafficking to 
remain in its territory, temporarily or permanently . . . 
giving appropriate consideration to humanitarian and 
compassionate factors.'' \36\ The Chinese government's failure 
to prevent trafficking of North Korean women and protect them 
from revictimization also contravenes its obligations under 
Article 9 of the UN TIP Protocol and Article 6 of the 
Convention on the Elimination of All Forms of Discrimination 
against Women.\37\

                      Foreign Aid Workers in China

    Chinese authorities also forcibly detained, tortured, and 
deported those who attempted to assist North Korean refugees, 
including foreign aid workers and those involved with 
humanitarian organizations.\38\ In March 2012, for example, 
Chinese state security officials in Dalian municipality, 
Liaoning province, detained four South Korean activists on 
charges of ``endangering state security,'' after they allegedly 
interviewed North Korean refugees hiding there.\39\ The four 
South Korean detainees reportedly had interviewed refugees to 
collect information about their circumstances and the situation 
in the DPRK.\40\ After their release in July 2012, one of the 
detainees, Kim Young-hwan, alleged he was tortured while in 
Chinese custody.\41\

                             Public Health


                         Public Health Advocacy

    Despite official recognition of the positive role non-
governmental actors have played in raising awareness about 
health concerns, combating stigma, and promoting prevention of 
diseases,\1\ some Chinese civil society organizations and 
individual citizens continued to face government harassment and 
interference in their public health advocacy work during the 
Commission's 2012 reporting year. Restrictions that central 
authorities placed on registration \2\ and funding \3\ of non-
governmental organizations (NGOs) in 1998 and 2009, 
respectively, remain in effect and have reportedly been used to 
monitor, control, and limit NGO activities.\4\ Nineteen 
provinces and regions have begun experimenting with direct 
registration of NGOs, but a civil affairs official in Guangdong 
province noted that the health sector is not included.\5\
    Challenges for public health advocates and organizations 
continued during this reporting year, as illustrated in the 
following three cases:

        <bullet> Hu Jia. Officials have repeatedly subjected 
        Beijing-based HIV/AIDS advocate Hu Jia to harassment 
        and monitoring since his June 2011 release from prison 
        upon completion of his three-and-a-half-year sentence 
        for ``inciting subversion.'' Specific instances of 
        official harassment of Hu Jia during this reporting 
        year included police threatening him in October 2011; 
        \6\ officials following and filming him on a visit to 
        the Ministry of Health in November 2011; \7\ officials 
        searching his home, confiscating his computer, and 
        calling him in for questioning in January 2012; \8\ and 
        officials briefly detaining him in both April and June 
        2012.\9\ Hu Jia reportedly has been under constant 
        surveillance by a team of at least 16 people.\10\
        <bullet> Beijing Huiling. In March 2012, the Beijing 
        News profiled the experience of Beijing Huiling, an NGO 
        that provides housing and services to disabled persons. 
        Beijing Huiling has reportedly faced several 
        difficulties in trying to secure registration as a 
        civil society organization and has been unable to do so 
        for 12 years.\11\ Beijing Huiling reported that, if it 
        could not successfully register as a ``social 
        organization'' by May 2012, it would have to close due 
        to lack of funding.\12\ [For additional information on 
        Beijing Huiling's situation and the impact of 
        registration restrictions on NGOs, see Section III--
        Civil Society.]
        <bullet> HIV/AIDS NGOs in Hebei province. Hebei 
        officials reportedly announced in February 2012 that 
        every social organization in the province must register 
        with their local civil affairs bureau before May 1, 
        2012, or else they would be ``banned.'' \13\ In an 
        interview with Caixin regarding the crackdown, one 
        representative from an unregistered Hebei HIV/AIDS NGO 
        communicated concern that the organization would have 
        to discontinue future activities, noting, ``It is not 
        that we don't want to have legal status. Rather, it is 
        simply impossible for HIV/AIDS organizations to meet 
        civil affairs registration standards. Currently the 
        government deems our activities illegal. . . .'' \14\

                      Health-Based Discrimination


                      DISCRIMINATION IN EMPLOYMENT

    Health-based employment discrimination is prohibited under 
Chinese law,\15\ yet the problem remains widespread.\16\ 
Reports this year have shed light on the unique difficulties 
that people living with HIV/AIDS face when seeking legal 
recourse for employment discrimination based on their HIV 
status.\17\ For example, many public institutions continue to 
set physical requirements for job applicants based on the 
General Standards for Civil Service Recruitment Examinations 
(General Standards),\18\ despite the fact that the General 
Standards are in apparent conflict with other Chinese laws and 
regulations prohibiting discrimination.\19\ In addition, the 
manual accompanying the General Standards contains outdated and 
incorrect information on the risks of HIV/AIDS,\20\ posing 
added challenges for people living with HIV/AIDS in securing 
employment.\21\ Health-based employment discrimination with 
respect to other forms of illness such as Hepatitis B virus 
\22\ and diabetes,\23\ as well as physical disabilities,\24\ 
also remains commonplace, according to several reports in this 
past year. Lawsuits filed to challenge health-based 
discrimination in Anhui,\25\ Sichuan,\26\ and Guizhou \27\ 
provinces in the past year have been unsuccessful, even when 
appealed.\28\

                      DISCRIMINATION IN HEALTHCARE

    Reports from the 2012 reporting year indicate that 
discrimination based on HIV status remains a barrier preventing 
many from accessing adequate healthcare.\29\ In one 
representative example, an HIV-positive burn victim reportedly 
sought treatment in three hospitals in Guangdong province, but 
each denied her care due to her HIV status.\30\ In addition to 
common denial of medical treatment due to HIV status,\31\ 
concerns regarding lack of patient confidentiality remain a 
deterrent for those seeking medical attention for HIV/AIDS.\32\

                      DISCRIMINATION IN EDUCATION

    Health-based discrimination remains a barrier in access to 
education. For example, in September 2011, Beijing municipal 
authorities refused radio broadcasting student Dong Lina's 
application to take certain exams to progress in her media 
studies due to her visual impairment.\33\ In connection with 
this, the NGO Beijing Yirenping launched a campaign to raise 
awareness of education discrimination against the visually 
impaired.\34\

                             Mental Health

    China has signed and ratified the International Covenant on 
Economic, Social and Cultural Rights, and in doing so, China 
has committed to ensuring ``the right of everyone to the 
enjoyment of the highest attainable standard of physical and 
mental health.'' \35\ During the Commission's 2012 reporting 
year, Chinese authorities continued to move the country's first 
national mental health law through the final stages of 
consideration. In June 2011, a draft was released for public 
comment,\36\ and in October 2011, the National People's 
Congress (NPC) Standing Committee reviewed a revised draft of 
the proposed legislation.\37\ The NPC Standing Committee 
conducted a review of an amended draft in August 2012.\38\ The 
drafts contain revisions that, if faithfully implemented, could 
further constrain officials from abusing psychiatric detention 
\39\ to stifle or punish dissent.\40\ Despite these potential 
improvements, the drafts raise concerns regarding the law's 
compliance with the UN Convention on the Rights of Persons with 
Disabilities (CRPD),\41\ which China has signed and 
ratified.\42\ Specific concerns include the drafts' failure to 
make independent reviews of an initial diagnosis mandatory, 
lack of provision for the appointment of legal counsel, and 
lack of safeguards that would place time limits on involuntary 
commitment.\43\ In August 2012, Chinese Human Rights Defenders 
submitted a report to the CRPD monitoring body that details 
abuses of involuntary psychiatric commitment in China and 
includes recommendations for provisions to the mental health 
law to stem such violations.\44\ The Commission has not 
observed official statements providing information on an 
expected finalization timeframe for the mental health law.\45\

------------------------------------------------------------------------
       Organ Transplants in China: Developments and Controversies
-------------------------------------------------------------------------
  On March 22, 2012, a top Chinese health official announced that,
 within three to five years, central authorities would ``abolish'' the
 practice of harvesting organs from death-row prisoners, a group that
 reportedly has been the primary source of organs for transplants in
 China.\46\ The announcement follows a trend in recent years of
 increased government regulation surrounding the transfer of human
 organs, including the 2007 Regulations on Human Organ Transplants (2007
 Regulations),\47\ the 2009 establishment of an official national organ
 donation database,\48\ and the 2011 revision to the PRC Criminal Law,
 which, for the first time, categorized organ trafficking as a
 crime.\49\ In 2012, the Chinese government prosecuted organ traffickers
 \50\ and conducted a multi-province crackdown on organ-trafficking
 rings,\51\ and legal experts called for amendments to the 2007
 Regulations to stop organ trafficking.\52\ Nevertheless, there continue
 to be reports of illegal organ transplants in recent years \53\ and
 allegations of organ harvesting from non-consenting Falun Gong
 practitioners.\54\ Dr. Luc Noel, an expert from the World Health
 Organization, reported in May 2012 that, ``while commercial [organ]
 transplantation is now forbidden by law in China, that's difficult to
 enforce; there's been a resurgence [in China] in the last two or three
 years.'' \55\ Dr. Noel also noted that China's military hospitals may
 be involved in such transplant operations.\56\ [See Section II--
 Criminal Justice--Sentencing, Punishment, and Execution for more
 information.]
------------------------------------------------------------------------

                            The Environment


  Environmental Challenges, Legal Developments, and Enforcement Issues


                      SEVERE POLLUTION CHALLENGES

    During the Commission's 2012 reporting year, despite some 
progress,\1\ pollution problems remain a significant 
challenge,\2\ and the associated financial costs continue to 
grow.\3\ Severe water,\4\ air,\5\ and solid waste \6\ problems 
persist. Pollution in rural areas reportedly is surpassing that 
in urban areas.\7\ Heavy metal pollution remains severe,\8\ 
even as officials prioritize closing or cleaning up related 
enterprises.\9\ Environmental accidents sustained high numbers. 
A China Daily article, citing official statistics, reported 542 
environmental accidents handled in China in 2011.\10\ Water 
quantity problems also are prominent.\11\ In addition, 
officials in many coastal areas tasked with transforming their 
economies have closed many highly polluting enterprises, which 
reportedly led to two main problems: factories leaving behind 
contaminated sites, or ``brownfields''; \12\ and some polluting 
industries migrating to less developed areas where 
environmental protection capacity is weaker.\13\

                   LEGAL DEVELOPMENTS AND ENFORCEMENT

    Authorities continue to develop a regulatory framework to 
address these environmental problems, although some efforts 
appear stifled. In late August 2012, the National People's 
Congress Standing Committee completed the first reading of the 
draft amendment to the 1989 PRC Environmental Protection Law 
(EPL) and released draft revisions for public comment.\14\ The 
draft revisions contained some of the incentives for greater 
transparency and official accountability present in previous 
drafts,\15\ although revisions do not contain proposed language 
that specifies stronger support for public participation.\16\ 
Efforts to pass technical guidelines regarding public 
participation in environmental impact assessments appear to 
have stalled.\17\ In 2011, in a potentially positive 
development, the revisions to the PRC Criminal Law expanded the 
scope of behaviors affecting the environment that could be 
considered criminal.\18\ In November 2011, the State Council 
issued the Opinion Regarding Strengthening Key Environmental 
Protection Work, which includes provisions intended to improve 
environmental supervision; \19\ and in December, it issued the 
National 12th Five-Year Plan for Environmental Protection, 
which states support for transparency, and public participation 
and supervision.\20\ Authorities passed several other measures 
regarding water conservation,\21\ hydroelectric dams,\22\ 
environmental impact assessments,\23\ environmental damage 
assessments,\24\ and company environmental reporting \25\ that 
include provisions relating to accountability, public 
participation, or transparency. In addition, the 2012-2015 
National Human Rights Action Plan issued in June 2012 included 
a section on ``environmental rights.'' \26\
    Despite efforts to develop a regulatory framework, 
significant challenges remain for the development of rule of 
law in the environmental sector. These challenges include lax 
enforcement and non-compliance,\27\ local environmental 
protection bureau (EPB) dependence on local governments and 
lack of authority vis-a-vis other departments,\28\ official 
evaluation criteria and incentives that overemphasize economic 
development,\29\ environmental penalties that are too low to 
deter polluting behavior,\30\ and corruption--which reports say 
is increasing.\31\

  Access to Justice and Suppression of Citizen Demands for a Cleaner 
                              Environment

    Access to formal legal remedies remains unreliable,\32\ 
despite potential advancements in public interest law and 
growth in the number of specialized environmental court pilot 
projects, which increased from several in 2009 to at least 61 
nationally by July 2012.\33\ Legal remedies remain unreliable 
in part because of judges' reluctance to accept some 
environmental cases.\34\ For example, a group of fishermen 
filed a case in the United States against ConocoPhillips 
reportedly because a Chinese court would not accept a similar 
suit.\35\

                   ENVIRONMENTAL PUBLIC INTEREST LAW

    In August 2012, Chinese officials passed an amendment to 
the PRC Civil Procedure Law with an article that, for the first 
time, allows ``agencies and relevant organizations stipulated 
by law'' to initiate lawsuits for ``acts that harm the public 
interest,'' including environmental pollution.\36\ According to 
Chinese media, experts say judicial interpretation or 
additional laws and regulations are needed to determine what 
constitutes a public interest (PI) suit and which organizations 
have standing to file; \37\ currently, the vagueness of the 
article gives considerable discretion to implementing 
officials. Local officials have already allowed such suits, 
including a court in Yunnan province, which in October 2011 
accepted a lawsuit involving alleged illegal dumping of 
chromium sludge brought in part by two non-governmental 
organizations (NGOs) not directly affiliated with government 
agencies,\38\ marking the second time independent NGOs have 
participated in filing a PI lawsuit.\39\ The NGOs involved 
reportedly faced challenges in gathering evidence and preparing 
for the Yunnan case, including being harassed by security 
guards from one of the suspected companies.\40\

            SUPPRESSION OF OUTSPOKEN ENVIRONMENTAL ADVOCATES

    Officials continue to harass or in some cases detain 
environmental advocates. Authorities in Hainan province 
detained former forestry official Liu Futang in mid-July on 
suspicion of ``illegal business activities.'' \41\ Liu had 
reportedly posted critical comments about a proposed power 
plant,\42\ and his microblog sites were reportedly blocked two 
months after a large-scale protest in April 2012 over the 
plant.\43\ Liu also published a book titled ``Hainan's Tears'' 
in Hong Kong, but did not obtain a PRC publication number.\44\ 
He reportedly was critical of other projects and had received 
threatening phone calls from an unnamed source.\45\ Police in 
Yixing city, Jiangsu province, continue to monitor the 
activities of environmental advocate Wu Lihong.\46\ One report 
indicates officials placed security cameras outside of his 
home, blocked his access to the Internet, routinely followed 
him, and did not allow him to work.\47\ The Commission 
continues to monitor the case of environmental advocate Zhang 
Changjian in Pingnan county, Fujian province, whom local 
officials accused of conducting ``illegal activities in the 
name of a social organization'' in July 2011 after he held 
legal education programs for farmers.\48\ Authorities released 
him after a brief detention but indicated they would continue 
to investigate his activities.\49\ In February 2012, 
authorities in Sichuan province reportedly detained four 
environmental advocates including Lubum, Dragpa, and Dawa, all 
of whom belonged to the Tawu Environmental Protection 
Association, a group that had opposed mining, deforestation, 
fishing in sacred rivers, and smuggling of wildlife 
products.\50\ In some cases, citizens who complain about 
pollution later face retribution from officials. For example, 
in November 2011, officials in Qingshu village, Hunan province, 
reportedly retaliated against people who had been filing 
complaints about pollution from a local coal mine for 
years.\51\ Media reports noted other instances of retribution 
against people complaining about or protesting pollution in 
Zhejiang \52\ and Fujian \53\ provinces.

              LARGE-SCALE PROTESTS: CHANNEL OF LAST RESORT

    Protests regarding pollution are increasing and are often a 
tool of last resort for citizens seeking remedies from 
environmental harms. Official and academic estimates of the 
annual increase in the number of environmental protests range 
between 20 and 30 percent, although the actual number 
reportedly remains a well-guarded secret.\54\
    Citizens took to the streets in large numbers to 
demonstrate against hydroelectric dams and new or expanding 
sources of pollution. In mid-December 2011, 10,000 to 50,000 
people protested for several days regarding expansion of a 
coal-fired power plant in Haimen town, Shantou city, Guangdong 
province.\55\ Plant officials reportedly partially disregarded 
orders from environmental authorities to halt construction.\56\ 
Some protesters reportedly blocked a highway, surrounded 
government buildings, and burned police cars after authorities 
refused to meet with them.\57\ Reports suggest police beat 
protesters, injuring dozens, and detained five demonstrators 
for ``vandalism.'' \58\ Authorities denied entry to and 
detained Hong Kong journalists, and erased images from their 
cameras.\59\ Officials reportedly warned people not to talk to 
anyone about the protests or they may face imprisonment.\60\ In 
March and April 2012, thousands of people in Yinggehai 
township, Hainan province, demonstrated against a coal-fired 
power plant.\61\ In July, thousands of citizens clashed with 
police during a protest against a planned molybdenum-copper 
project in Shifang city, Sichuan province.\62\ Authorities 
claimed student participants had been ``incited'' by ``some 
people'' with ``ulterior motives,'' \63\ and used tear gas to 
disperse protesters.\64\ Officials suspended the project, but 
warned they would investigate people who allegedly had ``spread 
rumors.'' \65\ Li Chengpeng, a blogger, reported that 
authorities demanded that he delete his report on the Shifang 
case.\66\
    Other protests involved citizens seeking redress for 
longstanding environmental grievances. In September 2011, 
hundreds of citizens in Haining city, Zhejiang province, 
protested pollution from a photovoltaic panel producer.\67\ 
During the conflict, protesters overturned cars and stormed the 
factory.\68\ News reports indicate security officials beat 
protesters and detained at least 20, including some for 
speaking with reporters and 1 for ``dissemination of false 
information.'' \69\ In July 2012, in Qidong city, Jiangsu 
province, thousands protested plans to pipe waste from a paper 
mill to the ocean because of concerns waste would pollute a 
fishery.\70\ Authorities abandoned plans for the project after 
the protest.\71\ Officials reportedly censored news of the 
protest on microblogs,\72\ pressured students to pledge not to 
join the ``illegal protest,'' warned residents not to gather or 
``spread rumors,'' \73\ and police reportedly beat a Japanese 
reporter.\74\ In August, police shot and killed a Tibetan named 
Nyima and detained six others during a protest involving 
approximately 1,000 people against a mining site in a township 
in Changdu (Chamdo) prefecture, Tibet Autonomous Region.\75\ 
Authorities had suspended the project after residents voiced 
opposition, but reportedly now will move forward.\76\

          Environmental Transparency and Public Participation

    Authorities in various locations took steps to improve some 
aspects of environmental information disclosure, and Premier 
Wen Jiabao voiced support for greater transparency.\77\ A joint 
study by Chinese and international non-governmental 
organizations on open government information conducted in 113 
cities during 2011 noted overall improvements in transparency, 
including advances in releasing information about official 
enforcement actions. Some locations, however, have not made 
much progress and others have fallen further behind.\78\ The 
report emphasized the widening gap in information disclosure 
between more transparent eastern coastal regions and western 
and central regions.\79\
    During the reporting year, central environmental 
authorities passed measures to gradually improve air quality 
information transparency. In February 2012, authorities added 
fine air particulates (PM2.5),\80\ ozone, and carbon monoxide 
to the revised air quality index (AQI).\81\ The revised AQI 
will not go into effect until 2016, but select pilot cities 
will implement the index starting in 2012.\82\ After an 
official announcement about impending future revisions to the 
AQI in September 2011, there was a swell of public pressure to 
disclose PM2.5 data.\83\ People utilized social media,\84\ 
submitted suggestions to officials regarding legal 
measures,\85\ and filed information requests for PM2.5 data, 
which authorities denied in November and December for a variety 
of reasons.\86\ Several cities began to release PM2.5 data to 
the public in early and mid-2012.\87\
    Despite steps toward greater disclosure, news reports 
highlighted non-transparency related to environmental accidents 
and pollution monitoring data. A Chinese Academy of Social 
Sciences (CASS) study indicated only 13 of 26 surveyed 
provincial-level environmental departments released a list of 
the enterprises involved in ``serious or major'' pollution 
incidents as required by law; \88\ and the director of a center 
at CASS noted ``. . . a lot of [pollution] incidents have been 
concealed.'' \89\ In January 2012, for example, city-level 
officials in Guangxi Zhuang Autonomous Region did not publicly 
disclose information about a major cadmium spill for nine 
days.\90\ Authorities maintain control over environmental 
quality data monitoring and publication, and central officials 
are revising a regulation \91\ that, if passed in its current 
form, may strengthen this control. Environmental groups 
submitted suggestions regarding the draft revisions, including 
one proposal urging authorities to emphasize citizens' right to 
access information.\92\
    Since the passage of the Open Government Information 
Regulation (OGI) in 2008,\93\ citizens have become more 
proactive in making requests for environmental data, but 
barriers to obtaining information remain. In March 2012, the 
Ministry of Environmental Protection (MEP) issued its annual 
report on OGI work. According to the report, the MEP received 
334 requests for information in 2011, a 48 percent increase 
over the previous year.\94\ The MEP received 111 administrative 
reconsideration requests.\95\ After the August 2011 chromium 
slag dumping case in Yunnan province, a Yunnan environmental 
non-governmental organization (NGO) filed open government 
information requests regarding the source of credit for the 
company implicated in the case.\96\ The group, along with 23 
other organizations, also filed requests with 16 banks.\97\ Two 
government ministries and a state-owned bank denied information 
requests from the Yunnan group.\98\ In the autumn of 2011, 
officials from two environmental protection bureaus (EPBs) 
denied requests by the All-China Environment Federation (ACEF), 
a quasi-governmental NGO affiliated with the MEP, about water 
pollution from a milk plant in a city in Guizhou province. The 
ACEF filed a lawsuit challenging the denial and won.\99\ One 
report notes an expert's opinion that many people cannot obtain 
the pollution emissions data they need to protect their 
rights.\100\ During 2011, local and provincial environmental 
authorities in Jiangsu province denied resident Xie Yong's 
multiple requests for information regarding pollution emissions 
from a waste incineration power plant on the grounds that the 
information was a ``commercial secret,'' and the company 
involved must approve its disclosure.\101\ Xie plans to sue the 
provincial EPB for its refusal.\102\ Xie believes pollution 
from the power plant is associated with his son's health 
problems.\103\ Reports indicate Xie lost a court case and an 
appeal against the power plant on the grounds that he could not 
provide conclusive data.\104\

 Climate Change: Rule of Law, Public Participation, Transparency, and 
                          Rights Infringements

    China's efforts to address climate change depend on the 
development of the rule of law, the incorporation of public 
participation in policy processes, and transparency. During 
this reporting year, the International Energy Agency said China 
made the world's largest contribution to the global increase of 
carbon dioxide emissions.\105\ Chinese authorities reported on 
past actions and outlined future plans to mitigate and adapt to 
climate change in a white paper on climate change.\106\ The 
State Council also reportedly issued a Greenhouse Gas Emissions 
Control Work Plan (2011 to 2015) that mentioned gradual 
development of a carbon emissions trading market and a total 
emissions control system.\107\ While citizens, environmental 
groups, professional associations, and mass organizations may 
participate in activities to address climate change,\108\ they 
have little influence in setting national policies toward 
climate change.\109\ Some professional associations directly 
linked to government agencies or the Communist Party, however, 
purportedly play a role in formulating standards and promoting 
technology linked to energy conservation.\110\ Chinese leaders 
have pledged to improve greenhouse gas data reliability.\111\ 
Nevertheless, reports noted challenges in this regard, 
including reported gaps between national and provincial-level 
statistics on carbon dioxide emissions \112\ and insufficient 
information provided about data sources used to assess energy 
efficiency gains.\113\
    Chinese authorities plan to reduce dependence on fossil 
fuels and increase reliance on renewable energy, including 
constructing nuclear power plants and hydroelectric dams.\114\ 
Some of the dam projects are reported to involve involuntary 
relocation practices and arbitrary detention. In February, 
authorities in Hanyuan county, Sichuan province, detained 
rights advocate Cao Xianglan, saying they would hold her for 
one month in administrative detention for petitioning against 
the demolition of her home, which officials said was necessary 
to make way for the Pubugou Dam.\115\ In August 2011, 39 
citizen representatives from Hongjiang city, Hunan province, 
reportedly traveled to Beijing to file complaints about being 
relocated to make way for the Tongwan and other dams.\116\ 
Local authorities purportedly sentenced or administratively 
detained the representatives upon their return.\117\
    Grassland herder relocation programs, which authorities 
reportedly conducted to address grassland degradation and to 
modernize the animal husbandry industry, have in some cases 
been non-voluntary.\118\ As noted by the UN Special Rapporteur 
on the Right to Food, herder relocation programs in China, 
sometimes labeled ``environmental migrations,'' have involved 
situations in which herders have no choice but to sell their 
herds, and in some respects have not adhered to international 
standards of grasslands science.\119\ Herder relocation 
programs reportedly also have diminished citizens' economic 
independence, resulting in the loss of land and traditional 
livelihoods.\120\

                  III. Development of the Rule of Law


                             Civil Society


                      Government and Party Control

    Chinese civil society organizations continue to grow in 
number and engage in valuable educational work, social welfare 
service provision, and issue advocacy. A restrictive regulatory 
environment, however, limits the development of an independent 
civil society. Official policy is to control the development of 
civil society by expanding and bringing under government 
control groups that promote Chinese government and Communist 
Party objectives, while marginalizing groups that seek to 
operate more independently.\1\ Chinese law does not provide for 
a positive right to establish a civil society organization, and 
authorities have considerable discretion in determining which 
groups attain legal recognition.\2\ This broad discretion 
contravenes Article 22 of the International Covenant on Civil 
and Political Rights, which provides that: ``No restrictions 
may be placed on the exercise of [the freedom of association] 
other than those which are prescribed by law and which are 
necessary in a democratic society in the interests of national 
security or public safety . . . .'' \3\
    Chinese law recognizes three main types of civil society 
organizations--social organizations (SOs), non-governmental and 
non-commercial enterprises (NGNCEs), and foundations--and 
requires those wishing to establish one of these groups to 
register with the Ministry of Civil Affairs or its provincial 
or local counterpart.\4\ An important prerequisite to 
registering is securing the backing of a sponsor 
organization.\5\ Sponsor organizations are government and Party 
departments, or mass organizations (the All-China Federation of 
Trade Unions, for example) approved by the government or 
Party.\6\ Sponsor organizations must agree to assume the burden 
of actively supervising the civil society organizations they 
sponsor.\7\ According to the authors of a comprehensive paper 
on Chinese non-governmental organizations (NGOs), the sponsor 
organization's role in the establishment and day-to-day running 
of Chinese civil society organizations ``effectively prevents 
any political activity or other activities by [non-profit 
organizations] which in the view of the Chinese government pose 
a challenge to its own power or the unity of the country.'' \8\
    The government imposes additional restrictions on groups 
wishing to register. Both the SO and NGNCE regulations prevent 
the establishment of two organizations with similar mandates in 
the same administrative region.\9\ The SO regulation requires a 
minimum of 50 members and 30,000 yuan (US$4,735) in funds.\10\ 
Organizations that try to carry out activities independently 
without registration are considered illegal.\11\ This past 
year, the government continued to crack down on unregistered 
groups, including campaigns in Ganzi Tibetan Autonomous 
Prefecture, Sichuan province,\12\ and Hebei province.\13\
    Once registered, groups remain subject to numerous 
restrictions. They must undergo an annual inspection,\14\ which 
groups that offend authorities reportedly face difficulties 
passing.\15\ In recent years, authorities have tightened 
restrictions on foreign funding, which had been a main source 
of support for some groups.\16\ A 2009 State Administration of 
Foreign Exchange circular requires, among other things, that 
the non-governmental organization (NGO) present authorities 
with a notarized donation agreement stating the purpose of the 
donation, and that the foreign donation goes into a special 
foreign exchange bank account.\17\ Authorities remain 
suspicious of foreign-funded groups.\18\
    During the Commission's 2012 reporting year, Chinese 
officials, scholars, state-controlled media, and NGO leaders 
continued to criticize the regulatory environment for NGOs as 
unnecessarily restrictive. A May 2012 China Newsweek article 
featured proponents of reform, including a Tsinghua University 
professor who singled out the sponsorship requirement as the 
main reason why, according to his estimates, 3 to 4 million 
groups operate without registration in China (compared to about 
460,000 groups that are registered).\19\ In the same article, 
top officials at the Ministry of Civil Affairs' Civil 
Organization Management Bureau expressed concern with the 
government's heavy influence over most registered groups and 
the slow pace of growth (2 to 3 percent) of registered groups 
in recent years.\20\ These officials noted that the system, 
originally designed to ensure that social organizations were 
``politically reliable,'' was now ``completely blocking 
[groups] that should not be blocked.'' \21\ In March 2012, the 
Beijing News profiled the experience of a group helping 
disabled persons, Beijing Huiling, which had been unable to 
secure registration for 12 years.\22\ The report highlighted 
numerous difficulties Beijing Huiling faced, from the inability 
to find a sponsor organization to officials deeming the group 
unnecessary because another organization was already meeting 
the ``needs of all the disabled'' in that jurisdiction.\23\ A 
member of an HIV/AIDS advocacy group, commenting on the 
crackdown on unregistered groups in Hebei province, told Radio 
Free Asia in March that most of the country's 118 HIV/AIDS 
organizations were unregistered because they could not find a 
sponsor organization or were too small to meet legal 
requirements.\24\
    Some civil society organizations choose to register as 
businesses and they, along with unregistered groups, struggle 
to survive without the advantages afforded to registered civil 
society organizations. Unregistered groups and those registered 
as businesses do not enjoy certain tax benefits, are ineligible 
for government projects, and cannot solicit public 
donations.\25\ The head of Beijing Huiling, which is registered 
as a business, noted in March 2012 that the organization was in 
debt last year and was having difficulty paying employee 
salaries. ``Without a legal identity as a charity organization, 
we cannot enjoy tax exemption, and it's difficult for us to 
raise funds from enterprises or the public as we cannot even 
provide a formal receipt to our donors,'' she said.\26\ In 
April 2012, the Ministry of Civil Affairs issued draft 
regulations intended to improve transparency of foundations 
\27\ but which would also bar them from giving funds to for-
profit businesses, further marginalizing civil society 
organizations registered as businesses.\28\ Chinese foundation 
leaders criticized this aspect of the draft during the public 
comment period.\29\ In the officially promulgated regulations 
released on July 29, 2012, as ``Certain Regulations Concerning 
Standards of Foundation Behavior,'' the provision that had 
barred the funding of for-profit organizations in the draft 
version was revised to ``foundations should not financially 
support profit-seeking activities.'' \30\
    Harassment of NGOs engaged in advocacy on issues the 
Chinese government and Communist Party deem politically 
sensitive continued this past year. The government reportedly 
remains wary of advocacy, religious, and policy-oriented 
groups.\31\ A crackdown on NGOs advocating for workers in the 
manufacturing center of Guangdong province was reported to have 
started in early 2012 and has continued throughout the summer. 
According to media reports, several worker services NGOs 
encountered surveillance, tax audits, inspections from multiple 
government agencies, and harassment from landlords who evicted 
them or cut off their water and electricity, leading many of 
the NGOs to close.\32\ Ten Shenzhen-based worker services NGOs 
reportedly have been targeted.\33\ In the case of the Times 
Female Workers Service Center, officials reportedly ordered it 
to relocate or stop operations because of its unregistered 
status.\34\

                Regulatory and Legislative Developments

    In recent years, officials have considered limited measures 
to make it simpler for groups to register, including removing 
the sponsor organization requirement and allowing groups to 
directly register with the government. At the national level, 
such proposals reportedly have stalled. In March 2012, Premier 
Wen Jiabao told a national meeting of civil affairs officials 
to ``speed up reform of the registration and management system 
for social organizations,'' including allowing certain 
organizations to register directly with the government without 
needing a sponsor organization.\35\ Civil affairs officials 
cited in a May 2012 China Newsweek article noted, however, that 
little progress had been made with proposed amendments to the 
three main national regulations governing social organizations, 
non-governmental and non-commercial enterprises, and 
foundations. The Ministry of Civil Affairs (MCA) submitted the 
amendments to the State Council Legislative Affairs Office 
(SCLAO) in March 2011.\36\ According to officials from the MCA 
Social Organizations Management Department, the SCLAO has not 
yet submitted the draft for review during a State Council 
executive meeting.\37\ An SCLAO official told China Newsweek 
that, barring special circumstances, he did not expect the 
``three regulations'' to appear (on the agenda) in 2012.\38\
    Limited reforms continue at the provincial and local level 
but do not fundamentally alter the government's role in 
approving and overseeing all groups. The MCA has entered into 
cooperative agreements with select localities in recent years, 
and reportedly will assess local-level experiments for possible 
national expansion.\39\ In recent years, the governments of 
Beijing municipality,\40\ Shanghai municipality,\41\ and 
Shenzhen Special Economic Zone \42\ have passed measures aimed 
at streamlining the registration process, including allowing 
certain categories of groups to register directly with civil 
affairs departments without a sponsor organization. This trend 
continued in the past year. In February, Yunnan province 
announced plans to allow ``philanthropic, social welfare, and 
social service'' groups to apply directly with civil affairs 
departments later in 2012 and to ``launch a provincial-level 
pilot project'' on shifting sponsor organizations to a more 
advisory role.\43\
    A social management regulation \44\ took effect in March 
2012 in Shenzhen that reportedly expands the types of 
organizations that can register directly with the civil affairs 
bureau to include ``culture, ecology, social service and sports 
organizations,'' \45\ in addition to the ``econom[ic], social 
welfare, and public welfare'' groups that have been permitted 
to register directly since 2008.\46\ A direct registration 
program took effect in Guangdong province in July 2012,\47\ 
reportedly leading to an initial marked increase in 
registration applications. Moreover, the Guangdong Province 
Department of Finance released in early August a catalogue for 
government procurement of services from social 
organizations.\48\ Yet, according to a Guangdong NGO worker, 
the crackdown on worker services NGOs ``has raised a lot of 
questions about whether this is a real opening or just a new 
series of social management policies.'' \49\ A prominent 
activist has warned that government contract work may co-opt 
civil society organizations (CSOs) in that these organizations 
would be less likely to criticize the government (from which 
they aim to win contracts), thus diminishing their 
``vitality,'' ``function,'' and ``mission.'' \50\ CSO leaders 
in Guangdong and a Tsinghua University scholar also have 
expressed concern that the government is not planning for 
longer term sustainability, transparency, or the fair 
distribution of resources among social organizations with 
respect to registration and procurement policies.\51\
    While removing entry barriers to some groups' registration, 
officials continued to tighten controls over registered groups' 
activities. In June 2012, an MCA working group issued the 
Measures for the Administration of Seminar and Forum Activities 
by Social Organizations, which places certain restrictions on 
civil society organizations' hosting of seminars and 
forums.\52\ For example, Article 4 of the measures requires 
CSOs to notify their sponsor organizations of the purpose, 
content, and scope of the activity, as well as names of 
participants, time and location of the activity, and its source 
of funding.\53\
    This past year, authorities also made symbolic gestures to 
signal a more accommodating stance toward human rights, 
political, and religious groups. These gestures were limited, 
however, and intended not to guarantee the independence of 
organizations but rather to co-opt their usefulness in pursuing 
overarching state aims. In May 2012, Minister of Civil Affairs 
Li Liguo reportedly said that human rights and political 
organizations would be treated equally in the registration and 
review process.\54\ He noted, however, the government's 
considerable discretion to approve such groups based on vague 
criteria such as an organization's ``founding conditions, 
necessity of establishment, activity objective and their roles 
in social and economic development.'' \55\ In February 2012, 
the State Administration for Religious Affairs, MCA, and four 
other government departments issued an opinion to ``encourage 
and standardize'' religious communities' participation in 
public service activities.\56\ The opinion, which notes that 
``some localities and departments did not adequately recognize 
the positive significance of religious communities 
participating in charitable activities,'' \57\ calls for, among 
other things, ``equal treatment'' of religious groups in 
establishing charitable organizations.\58\ The opinion 
emphasizes, however, consistency with the Party's basic policy 
on religion and the potential that religious communities can 
play in ``promoting economic development and social harmony,'' 
rather than guaranteeing the independence of such groups from 
government intervention.\59\ The government's emphasis on 
controlling the development of civil society to serve state 
aims was also reflected in the government's 2012-2015 National 
Human Rights Action Plan, which calls for ``encouraging orderly 
participation by social organizations in social construction.'' 
\60\
    Revisions to the PRC Civil Procedure Law that authorities 
passed in August 2012 anticipate a role for environmental 
protection and consumer rights groups, among other 
organizations, in public interest litigation.\61\ Early drafts 
of an article in the amendment to the law led groups to submit 
suggestions advocating for revision of language that 
potentially would limit the kinds of organizations able to act 
as parties in public interest litigation.\62\ Following passage 
of the revised law,\63\ the Deputy Director of the National 
People's Congress Legislative Affairs Commission, Wang 
Shengming, stated that the terminology chosen for the final 
version of the article in question substituted ``relevant 
organizations'' (youguan zuzhi) for ``relevant social groups'' 
(youguan shehui tuanti) because this would ``expand the scope 
of those organizations eligible to be plaintiffs in public 
interest litigation.'' \64\ The amendment, however, does not 
make clear which organizations, including non-governmental 
ones, will be able to file.\65\ [See Section II--The 
Environment for more information on developments in 
environmental public interest litigation.]

                 Institutions of Democratic Governance


    Context for Institutions of Democratic Governance: Party Control


                REACH OF THE STATE UNDER ONE-PARTY RULE

    During the Commission's 2012 reporting year, the Chinese 
Communist Party continued to dominate China's authoritarian 
political system, and Party authorities stepped up efforts to 
expand Party organizations into and exert influence over every 
sector of society. An August 2012 article noted the Party had 
more than 82 million members and 4 million Party 
organizations.\1\ Party organizations penetrate every level of 
society, including villages and urban neighborhoods,\2\ public 
service organizations (including hospitals, schools, and 
research institutes),\3\ government departments, and quasi-
governmental organizations.\4\ Chinese leaders continued to 
impose Party leadership over the Internet and through the media 
by limiting the media's role and by exerting control over 
content,\5\ as well as through the promotion of ``socialist 
culture with Chinese characteristics.'' \6\ In addition, to 
strengthen the Party's reach, Party officials this year focused 
Party-building and Party-loyalty campaigns on grassroots 
organizations,\7\ the legal profession,\8\ universities,\9\ 
non-state-owned businesses,\10\ social organizations,\11\ and 
the military.\12\ China's political institutions continue to be 
out of compliance with the standards defined in Article 25 of 
the International Covenant on Civil and Political Rights,\13\ 
which China has signed and declared an intention to ratify.\14\ 
Nor have Chinese officials complied with the standards outlined 
in the Universal Declaration of Human Rights.\15\ The Communist 
Party continues to dominate government and allows only limited 
independent political participation.\16\

        STRENGTHENING POLITICAL CONTROL BY EXTENDING REACH INTO

 SOCIAL AFFAIRS: PRIORITY TASKS OF ``SOCIAL MANAGEMENT'' AND ``SOCIAL 
                              STABILITY''

    The Party strengthens its legitimacy and control in the 
political realm by intensifying and extending its reach into 
citizens' social lives through institutions at all levels in 
the name of ``social management'' and maintaining ``social 
stability.'' President and Party General Secretary Hu Jintao 
has said that ``social stability'' is ``an important 
prerequisite for reform and development.'' \17\ In September 
2011, the top Party-government body \18\ that leads work in 
``maintaining social order,'' first established in 1991,\19\ 
expanded from 29 Party organizations and government agencies to 
40 agencies, and it changed its name to the Central Committee 
for Comprehensive Administration of Social Management.\20\ 
Provincial committees have begun to follow suit.\21\ With the 
thematic shift from ``social order'' to ``social management,'' 
the central-level committee's scope of operations reportedly 
has expanded.\22\
    Zhou Yongkang, Secretary of the Communist Party Central 
Committee Political and Legal Affairs Commission and member of 
the Standing Committee of the Political Bureau of the Communist 
Party Central Committee, has stated that ``social management'' 
is the ``foremost duty and task'' of Party and government 
organizations.\23\ ``Social management'' is a broad term that 
authorities first articulated in 1998 \24\ and have emphasized 
in the Party's agenda at least since 2007.\25\ One scholar 
explained that ``social management'' is a basic function of 
government,\26\ and that it connotes the government ``manages 
and regulates social affairs, social organizations, and social 
life.'' \27\ He noted that, in addition to public security and 
``social stability,'' ``social management'' encompasses other 
issues including interest coordination, food safety, and 
emergency management.\28\ He also explained that the ``ultimate 
purpose of social governance reform lies in mitigating the 
threat of social conflicts and safeguarding social order and 
stability.'' \29\
    Party and government leaders plan to establish ``social 
management structures'' ``under the leadership of the Party, 
with responsibilities delegated to the government, with 
coordination by society, and with participation from the 
public.'' \30\ Some provinces, municipalities, and cities have 
already established ``social management work departments'' or 
``social affairs committees.'' \31\ ``Coordination by society'' 
\32\ and ``participation from the public'' mean that 
authorities will involve mass organizations,\33\ residence 
committees,\34\ workplace personnel,\35\ students,\36\ and 
ordinary citizens,\37\ among others, in ``social management'' 
work, including monitoring of citizens.\38\
    During the reporting year, senior Party and government 
leaders emphasized strengthening ``innovations in social 
management'' at the grassroots level.\39\ As part of these 
efforts, central and local Party and government leaders 
initiated campaigns to send tens of thousands of Party and 
government cadres in work teams down to rural grassroots areas 
and into households.\40\ These campaign activities allow 
officials to monitor and gauge if citizens are a threat to 
``stability,'' while simultaneously managing social welfare 
issues.\41\ In the Tibet Autonomous Region \42\ and the 
Xinjiang Uyghur Autonomous Region,\43\ this year's campaigns 
were invasive, long term, and tasked with preventing 
``incidents.'' [For more information, see Sections IV--Xinjiang 
and V--Tibet.]
    Under the banner of ``social management'' and ``social 
stability,'' authorities expanded the scope of efforts to 
``manage'' ``critical'' personnel, including rights defenders, 
petitioners, former prisoners, and labor activists.\44\ One 
international rights group reportedly estimated that Chinese 
officials might be targeting 1 in every 1,000 citizens for 
control measures, which would equate to ``managing'' 1.3 
million people nationwide.\45\ These efforts have been 
financially lucrative for some.\46\ In addition, some 
``management'' efforts have become increasingly repressive, as 
illustrated in the cases of Chen Guangcheng, Yao Lifa, and 
other democracy and rights advocates.\47\

              Official Actions Against Democracy Advocates

    Authorities continued to detain, arrest, and impose 
sentences on democracy advocates who exercise their rights to 
freedoms of assembly, speech, movement, and association. During 
the reporting year, authorities imposed particularly harsh 
sentences. In December 2011, authorities sentenced democracy 
advocate Chen Wei to nine years in prison for ``inciting 
subversion of state power'' in connection with political essays 
he wrote that were posted on overseas Web sites.\48\ Also in 
December, authorities in Guiyang city, Guizhou province, 
sentenced democracy advocate and rights defender Chen Xi to 10 
years in prison for ``inciting subversion'' for 36 essays he 
posted online.\49\ Chen was also involved in the ``Guizhou 
Human Rights Forum'' network and had tried to run for a local 
people's congress seat.\50\ In January 2012, authorities 
sentenced Li Tie to 10 years' imprisonment for ``subversion of 
state power.'' \51\ Li has written about democracy, 
constitutional government, and direct elections at the local 
level and organized activities to honor Lin Zhao, a well-known 
activist.\52\ In February, authorities sentenced Zhu Yufu to 
seven years in prison for ``inciting subversion of state 
power'' for his alleged association with the China Democracy 
Party and for his writings, including a poem that allegedly 
``incited'' people to ``subvert state power'' during the time 
of online calls for ``Jasmine'' protest rallies.\53\ In 
addition, March reports indicate that court officials sentenced 
democracy advocate Xue Mingkai to four years in prison for 
``subversion of state power.'' \54\ Other democracy advocates 
remained in prison or reeducation through labor (RTL) 
facilities including: Liu Xiaobo (11 years), Liu Xianbin (10 
years),\55\ Guo Quan (10 years),\56\ Zhou Yongjun (9 
years),\57\ Xie Changfa (13 years),\58\ and Huang Chengcheng (2 
years).\59\ Authorities ordered Huang to serve two years of RTL 
for ``inciting subversion of state power'' for posting messages 
on the Internet in February and March 2011.\60\ In addition, 
authorities in Qianjiang city, Hubei province, continued to 
restrict elections expert Yao Lifa's freedoms.\61\ Local 
officials and school staff from Yao's place of employment 
continued to escort him to work and back daily and even follow 
him to the bathroom.\62\ He reported that officials have also 
not let him teach or interact with other people.\63\

            Elections and High-Level Debate Regarding Reform

    Some leaders continued to voice support for vaguely defined 
political and government reforms, but proposed reforms would 
only take place within the framework of the one-party 
system.\64\ In March 2012, at the annual meetings of the 
National People's Congress and the Chinese People's Political 
Consultative Conference (Two Sessions), Premier Wen Jiabao 
said, ``We must press ahead with both economic structural 
reform and political structural reform in particular reform in 
the leadership system of our Party and country,'' according to 
Al Jazeera.\65\ Wen, however, did not provide details regarding 
reforms and emphasized that China must ``develop our socialist 
democracy in a step-by-step manner.'' \66\ A Caijing report 
noted Wen said ``[we] need to change the Party substituting for 
the government'' and the ``overconcentration of government 
power.'' \67\ Along these lines, the Beijing municipal 
government issued an opinion noting a plan to reorganize 
governmental authority over the next five years with the two 
main goals of preventing corruption and decentralizing the 
concentration of power within and among government 
organizations.\68\ Echoing Wen's statements, the 2012-2015 
National Human Rights Action Plan, issued in June 2012, 
outlined the government's plans to ``strengthen restraints on 
and supervision over the exercise of power, and earnestly 
guarantee citizens' right of democratic supervision.'' \69\

   LOCAL PEOPLE'S CONGRESS ELECTIONS AND HARASSMENT OF ``INDEPENDENT 
                              CANDIDATES''

    During the reporting year, authorities held local people's 
congress elections, which began in May 2011 and will be 
completed prior to the end of 2012.\70\ At the lowest 
administrative levels, including the county and township 
levels, citizens, in theory, directly vote for people's 
congress delegates.\71\ Above this level, people's congresses 
elect delegates for congresses at the next highest level.\72\ 
Ten or more citizens may nominate ``independent candidates,'' 
otherwise known as ``voter-nominated'' candidates.\73\ Reports 
surfaced, however, noting authorities in some locations did not 
accept the nomination of some of these ``voter-nominated'' 
candidates.\74\ In this election period, as in past cycles, 
large numbers of ``independent candidates'' were winnowed out, 
leaving few to compete in elections.\75\ Higher level Party 
officials exerted influence over elections by sending Party 
investigative groups to lower levels during elections not only 
to prevent corruption, but also to complete ``control and 
supervision tasks,'' \76\ including:

        <bullet> ``Preventing internal or external hostile 
        forces from having a hand in ruining elections, 
        organized crime or evil forces from manipulating 
        elections, clans and religious forces from interfering 
        in elections'';
        <bullet> ``Investigating candidates' qualifications'' 
        to ``prevent `problem individuals' from becoming 
        nominees or representatives.'' \77\
    In some locations, authorities ``optimized'' people's 
congresses to make sure certain populations, such as workers 
and farmers, had a number of representatives that they deemed 
appropriate.\78\
    Prior to and during elections in some locations, local 
officials reportedly arrested,\79\ detained, and monitored 
potential ``independent candidates,'' \80\ as well as pressured 
their families, employers, and nominators.\81\ Officials also 
obstructed nomination processes and campaign or voter education 
activities.\82\ Reports indicate officials employed censorship 
tactics to minimize information about ``independent 
candidates'' and elections.\83\ In addition, in some cases, 
officials detained newly elected deputies,\84\ ``guided'' 
voters at the polls,\85\ hindered secret ballots,\86\ prevented 
voters from going to the polls,\87\ removed ballot boxes, or 
did not count votes in public.\88\

            VILLAGE AUTONOMY AND VILLAGE COMMITTEE ELECTIONS

    Village elections for ``village committees'' \89\ have 
spread throughout China; their implementation, however, remains 
problematic. During the reporting period, ongoing problems with 
village elections included instances of vote buying, 
interference from township and town officials, stuffing ballot 
boxes, cancelled elections, and higher level officials removing 
recently elected officials.\90\ Authorities in some areas 
reportedly ``optimized'' the mix of personnel on villager 
committees.\91\ Some township cadres apparently have cited 
rampant vote buying as a reason to call for dismantling village 
committee elections and allowing township officials to appoint 
village leaders.\92\
    During the reporting period, authorities continued to take 
steps to improve ``grassroots autonomy,'' including village 
elections, as well as promote ``stability'' and economic 
development. Authorities continued seeking to improve the 
caliber of village officials. The Party Central Organization 
Department sent over 26,000 university students to serve as 
village committee and village Party committee officials in a 
three-year program.\93\ The trend toward electing officials 
with higher education and experience levels continued.\94\ 
There reportedly continues to be an increase in the number of 
women cadres assuming leadership roles.\95\ To ``maintain 
stability'' and improve transparency of village finances, 
authorities reportedly are also continuing to set up 
``supervisory committees'' or similar organizations in villages 
as stipulated in the revised 2010 PRC Organic Law of the 
Villagers' Committees.\96\ Nationally, 514,000 villages have 
established village affairs supervisory mechanisms.\97\ In some 
areas, officials claimed that ``supervisory committees'' 
reduced the frequency of complaints villagers lodged at higher 
levels against local officials.\98\
    The village elections in Wukan village, Lufeng city, 
Shanwei municipality, Guangdong province,\99\ widely touted as 
innovative, are unlikely to be replicated. The Party Secretary 
of Guangdong, Wang Yang, said the elections were not 
``innovations'' and noted ``[w]hat made the Wukan election 
special was that the Organic Law and election rules were fully 
observed and implemented in detail this time, unlike previous 
pro forma elections.'' \100\ What made the elections in Wukan 
unique was that relevant laws \101\ did not provide for some of 
the procedures the villagers initiated. For example, 
authorities allowed Wukan citizens to vote for the election 
committee that oversaw village elections, through modified 
procedures not provided for by law.\102\

          Party and Government Accountability and Transparency


           TRANSPARENCY AND OPEN PARTY AND GOVERNMENT AFFAIRS

    Central authorities seemed to encourage the strengthening 
of open government information (OGI) institutions \103\ and 
policies at the national,\104\ local, and grassroots 
levels.\105\ During 2011, central-level government departments 
issued 81 OGI-related provisions,\106\ and provincial-level 
authorities issued 98.\107\ The Supreme People's Court (SPC) 
drafted a new measure, opening it for public comment in early 
November 2011,\108\ which clarifies six conditions under which 
officials should not disclose information, including if 
disclosure would be harmful to national security or ``social 
stability.'' \109\ In April 2012, Premier Wen Jiabao called on 
provincial governments to disclose expenditures fully on 
overseas trips, food and entertainment, and vehicles (sangong); 
he also promoted disclosure of government department budgets 
within two years.\110\ In May 2012, the State Council issued a 
circular that emphasized promotion of transparency in eight 
areas, including food safety, environmental protection, 
government finances, and safe production.\111\
    Proactive official disclosure of information remained 
sporadic, despite stated support for transparency from high-
level leaders. The National People's Congress' compliance with 
the commitment to post drafts of all trade and economic rules 
and regulations for public comment for 30 days deteriorated 
during the period between mid-March 2011 and mid-March 2012; it 
only released three of nine laws passed for public comment 
during the drafting or revision process.\112\ The State Council 
has complied inconsistently during the same period, but 
compliance has improved since 2008.\113\ In February, the 
Chinese Academy of Social Sciences (CASS) reportedly issued the 
results of a study examining the implementation of OGI 
Regulations,\114\ which noted some improvement in the proactive 
disclosure of information by government departments.\115\ 
Results also indicated that only 25 out of 59 central 
departments and commissions posted draft regulatory documents 
online and provided channels for feedback.\116\ According to an 
academic report, provincial governments were more willing to 
disclose information than central departments.\117\ A different 
academic report noted that only 7 out of 81 city governments 
surveyed met set requirements for fiscal transparency.\118\ The 
first academic report on judicial transparency found that some 
provincial- and city-level court Web sites lagged ``far 
behind'' government department Web sites in information 
disclosure.\119\
    Citizens continued to be proactive in making open 
government information requests,\120\ but challenges to 
accessing information and bringing OGI cases to court remained. 
The CASS transparency study reportedly asserted that 
authorities sometimes refused to disclose information for 
several reasons, including:
        <bullet> The information is in ``internal documents''; 
        \121\
        <bullet> The ``information requested is not within the 
        scope of the organization''; \122\
        <bullet> The information could be found online (even 
        though it could not be found); \123\
        <bullet> The information ``involved company secrets.'' 
        \124\
    In addition, authorities apparently more often demanded 
citizens provide information about how they would utilize the 
information requested, and denied requests on that basis.\125\ 
In some cases where government officials declined information 
requests, citizens have taken their cases to court.\126\ While 
some citizens have won cases, courts reportedly were unwilling 
to hear or ``refused to handle'' half of the open government 
information cases submitted.\127\

                       GOVERNMENT ACCOUNTABILITY

    Central and provincial authorities encouraged policies 
intended to enhance government accountability at the local 
\128\ and grassroots \129\ levels. In December 2011, the 
National People's Congress Standing Committee announced that 
they suggested the revision of the PRC Administrative Procedure 
Law be included in the 2012 legislative plan.\130\ Many 
scholars reportedly believe the scope of allowable lawsuits 
citizens may file against government departments is too 
narrow.\131\ In February, central authorities announced a 
decision to tighten top-down supervision over officials in 
rural areas and investigate social issues that might lead to 
mass incidents.\132\
    Despite efforts to improve supervision measures, 
accountability remains elusive. One Chinese scholar reportedly 
asserted that 50 to 60 percent of Chinese villages encounter 
problems with non-accountable officials.\133\ A Xinhua article 
noted the prevalence of ``selective governance'' at the 
grassroots level in some areas.\134\ A Human Rights Watch 
report detailed 150 cases of rights abuses between July 2010 
and March 2012 linked to chengguan, officials who enforce urban 
administrative regulations.\135\ The abuses include 
disappearances, mistreatment in detention, lack of due process, 
arbitrary fines for confiscated items, and forced evictions 
from homes.\136\ Many chengguan engaged in abuses with 
impunity.\137\ A February People's Daily editorial quoted in a 
Xinhua article criticized local leaders for unethical or 
illegal behaviors: ``[I]n some regions or public organizations, 
leaders are engaged in lying, empty talk, fabricating 
statistics, or trumping up political achievements.'' \138\ 
During the reporting period, the press covered calls to reform 
the official ``responsibility system'' \139\ (wenze zhidu) and 
public dissatisfaction regarding officials resuming public 
office after having been dismissed from former posts.\140\ One 
article asserted the cadre responsibility system faced a 
``crisis of trust'' because the phenomenon of dismissed 
officials resuming office is so pervasive.\141\ The Chinese 
media examined numerous specific related cases.\142\

                  Wang Lijun, Bo Xilai, and Gu Kailai

    The cases of former Chongqing vice mayor and public 
security chief Wang Lijun, and ousted Party leader Bo Xilai and 
his wife Gu Kailai (also referred to in the Chinese press as 
Bogu Kailai)--who was sentenced for the homicide of British 
citizen Neil Heywood--raise issues of official lack of 
accountability, abuse of power, and non-transparency. On 
September 24, 2012, the Chengdu Intermediate People's Court in 
Chengdu municipality, Sichuan province, sentenced Wang Lijun to 
15 years in prison with deprivation of political rights for one 
year for ``bending the law for selfish ends,'' ``defection,'' 
``abuse of power,'' and ``accepting bribes.'' \143\ Authorities 
charged Wang in part for allegedly neglecting his duty and 
bending the law to shield Gu Kailai from criminal 
investigation, for leaving his post on his own accord and 
defecting to the U.S. consulate in Chengdu, and for utilizing 
``technical reconnaissance measures'' without approval.\144\ 
Chinese media reported on Gu's case and her court sentence of 
death with a two-year reprieve for intentional homicide, which 
a judge handed down on August 20, 2012.\145\ International 
media, however, noted issues with Internet censorship \146\ and 
procedural fairness,\147\ and called the proceedings a ``show 
trial'' \148\ or mentioned questions about the politics behind 
the case.\149\ On March 14, central Party authorities removed 
Bo Xilai from his posts as Chongqing Party Committee member, 
secretary, and standing committee member.\150\ In early April, 
central authorities suspended Bo Xilai from the Party Central 
Committee and Politburo.\151\ In late September 2012, Politburo 
authorities expelled Bo Xilai from the Party and dismissed him 
from his public posts in the Party Central Committee and 
Politburo, indicating his case would be transferred to judicial 
authorities for a number of suspected legal violations 
including abuse of power, improper affairs with women, and 
bribery.\152\ After Bo's removal from office and his wife's 
detention, central authorities used the occasion to showcase 
``socialist rule of law,'' \153\ asserted that the public 
supported the decisions,\154\ and utilized the media to call 
for stability and unity.\155\

                          OFFICIAL CORRUPTION

    Official corruption reportedly remains high, despite anti-
corruption measures. Corruption in state-owned enterprises and 
public institutions increased.\156\ High levels of corruption 
continued to concern Chinese leaders, and Premier Wen Jiabao 
said, ``[C]orruption is the most crucial threat to the ruling 
party.'' \157\ Wen asserted that, when authority is overly 
concentrated in various departments that are impervious to 
supervision, corruption occurs easily and often.\158\ Central-
level authorities continued to build institutions and issued 
plans to address growing corruption problems. The drive to 
establish anticorruption bureaus at the provincial, autonomous 
prefecture, and municipal levels continued.\159\ The Supreme 
People's Procuratorate began a two-year anticorruption campaign 
in rural areas.\160\ Party and government authorities jointly 
issued a regulation seeking to control nepotism and corruption 
among civil servants.\161\
    Protections for whistleblowers remained insufficient, and 
authorities continued to have little tolerance for non-
governmental anticorruption efforts. Authorities in Shenzhen 
city, Guangdong province, continued to harass anticorruption 
advocate Guo Yongfeng.\162\ In June 2012, Hengshui city, Hebei 
province authorities ordered Liu Ruisheng to serve one year and 
three months of reeducation through labor for petitioning 
against alleged corruption among local officials.\163\ In 
April, People's Armed Police reportedly injured approximately 
100 Tibetans during a protest against allegedly corrupt 
officials, and police may have detained some of the 
protesters.\164\ Nearly 1,000 residents in Ya'an city, Sichuan 
province, protested alleged corruption associated with 
reconstruction efforts after the Wenquan earthquake, and a news 
report noted some beatings.\165\ In July, authorities in Xi'an 
municipality, Shaanxi province, suspended journalist Shi 
Junrong reportedly for writing an article about local officials 
smoking luxury cigarettes.\166\

                         Commercial Rule of Law

    December 11, 2011, marked the 10th anniversary of China's 
accession to the World Trade Organization (WTO).\1\ When it 
joined the WTO, China made numerous promises to reduce trade 
barriers, open its markets, increase transparency, protect 
intellectual property rights, and reform its legal system to 
make it consistent with WTO requirements.\2\ Proponents of 
China's accession were optimistic--one U.S. official commented 
shortly after China's accession, ``The WTO requirements for 
legal consistency and fairness will help further develop the 
rule of law in China, which will benefit our companies as well 
as the growing private sector in China.'' \3\ However, China's 
WTO accession has not brought about the anticipated changes. 
Indeed, China has developed what some, including the U.S. 
ambassador to the WTO, have called ``state capitalism,'' with 
the state guiding investment and industrial development, and 
favoring its state-owned enterprises (SOEs).\4\

               Continued Role for the State-Owned Sector

    The state-owned sector continues to play a key role under 
China's ``state capitalism.'' \5\ While the size of the state-
owned sector has declined since China began to liberalize its 
economy in 1978, according to Chinese government statistics, 
SOEs control key sectors.\6\ Chinese policy mandates seven 
``strategic'' industries--civil aviation, coal, defense, 
electric power and grid, oil and petrochemicals, shipping, and 
telecommunications--where ``state capital must play a leading 
role in every enterprise''; and requires that companies in 
certain ``pillar'' industries, including, for example, 
automotive, chemicals, construction, equipment manufacturing, 
information technology, iron and steel, and nonferrous metals, 
must be state-controlled.\7\
    The benefits and preferential status that the Chinese 
government provides to SOEs raise potential trade issues. SOEs 
enjoy a number of benefits, including direct subsidies, 
guaranteed market share, ability to raise funds in Chinese 
capital markets, preferential borrowing, and relatively cheap 
land.\8\ According to the United States Trade Representative 
(USTR), ``In 2011, the prevalence of interventionist policies 
and practices, coupled with the large role of state-owned 
enterprises in China's economy, continued to generate 
significant concerns among U.S. stakeholders.'' \9\ The Chinese 
government has made some minor commitments to level the playing 
field, such as giving foreign companies fair treatment in the 
``strategic, newly-emerging industries,'' providing foreign-
invested enterprises the same subsidies and other preferences 
it gives to domestic Chinese manufacturers of new energy 
vehicles, and promoting Chinese enterprises' use of licensed 
software.\10\ In addition to these indirect commitments, China 
committed when it joined the WTO that SOEs would make purchase 
and sale decisions strictly on a commercial basis, and that the 
Chinese government would not influence commercial 
decisions.\11\ According to USTR, however, the Chinese 
government ``was intent on heavily intervening in the 
commercial decisions of state-owned enterprises. . . .'' \12\
    During the Commission's 2012 reporting year, two events 
highlighted an ongoing debate in China concerning the role of 
China's state-owned sector: The publication of ``China 2030: 
Building a Modern, Harmonious, and Creative High-Income 
Society,'' a report by the World Bank in collaboration with the 
Development Research Center of the State Council advocating a 
loosening of state control,\13\ and the downfall of Politburo 
member and Chongqing Communist Party Secretary Bo Xilai, who 
advocated a greater role for the state in industry.\14\ The 
resolution of this debate may impact China's WTO 
obligations.\15\ The China 2030 report proposes a ``new 
development strategy.'' \16\ This strategy calls for reforming 
SOEs and allowing greater competition in all sectors of the 
economy, including the strategic and pillar industries, and 
recommends ``breaking up state monopolies or oligopolies in key 
industries. . . .'' \17\ The release of the report triggered 
discussions within the Chinese Communist Party on the role of 
SOEs. In March, articles in Party journals Red Flag and Seeking 
Truth argued for maintaining SOEs, because they are the 
foundation of the Party and the Chinese economic system, and 
because the privatization of SOEs would leave the national 
economy vulnerable to foreign interests.\18\ In April, the head 
of state-owned military and civil aviation company, Aviation 
Industry Corporation of China, called the push to privatize 
SOEs a ``foreign plot.'' \19\ Bo Xilai's ``Chongqing model'' 
emphasized a greater role for the state.\20\ In the midst of 
this debate, however, Bo was purged in April 2012.\21\ 
According to the Economist, ``Mr. Bo was much loved by a `new 
left' force in Chinese politics which admired his big spending 
on public welfare, especially social housing, and his fondness 
for state-owned enterprises.'' \22\
    A few developments, however, may indicate some willingness 
to allow challenges to the supremacy of SOEs. In May 2010, the 
State Council issued an opinion on opening up state-dominated 
sectors to private investment, including, for example, 
railways, public utilities, finance, energy, 
telecommunications, education, and healthcare.\23\ In February 
2012, the State Council set a deadline of the end of June 2012 
for the relevant Chinese government departments to draft and 
publish implementing rules concerning such private 
investment.\24\ In July 2012, the National Development and 
Reform Commission published on its Web site a compilation of 42 
documents from the relevant departments relating to private 
investment.\25\ According to U.S. government officials, Chinese 
government departments have interpreted ``private investment'' 
as meaning domestic investment only.\26\ In a related 
development, in September 2012, at the World Economic Forum in 
Tianjin, Premier Wen Jiabao stated that foreign-invested 
enterprises should receive the same treatment as domestic 
entities.\27\ In May 2012, the Supreme People's Court issued 
rules on civil litigation under the PRC Antimonopoly Law that 
may make it easier to sue SOEs for abuse of dominance.\28\

                      Foreign Investment in China

    Foreign investment in China is highly regulated, and the 
Chinese government uses the approval process to ensure that 
foreign investment is in keeping with government policy.\29\ 
The two government departments with primary responsibility for 
foreign investment approval are the National Development and 
Reform Commission (NDRC) and the Ministry of Commerce 
(MOFCOM).\30\ Policymakers' goals for economic development are 
set out in the foreign investment catalogue, which lists 
industries in which foreign investment is encouraged, 
restricted, or forbidden.\31\ In 1995, Chinese foreign 
investment approval authorities issued the first foreign 
investment catalogue, which has been amended five times, most 
recently with effect in January 2012.\32\ For the first time, 
the most recent revised draft was put on the Internet for 
public comment prior to finalization.\33\ The revisions 
implement the Chinese government's policies on development of 
seven ``strategic emerging industries,'' as outlined in the 
12th Five-Year Plan on National Economic and Social 
Development.\34\ Further, in order to ``limit overcapacity and 
improve the strength of domestic automakers,'' the revisions 
remove vehicle manufacturing from the encouraged list, thereby 
potentially eliminating certain tax breaks for foreign 
automakers in China.\35\
    During this reporting year, the environment for foreign-
invested companies has become more difficult. In a recent 
survey of members of the American Chamber of Commerce in China, 
37 percent of respondents indicated that obtaining licenses 
(needed for doing business in China) has become more 
difficult.\36\ The chamber also noted in its 2012 White Paper 
that the recent revision to the foreign investment guidance 
catalogue has tightened market access.\37\ The chamber 
recommends that China put in place a ``fair and transparent'' 
process for foreign investment, ultimately discarding the 
catalogue entirely and replacing the approval requirement with 
notification.\38\
    The foreign investment approval process is one avenue by 
which the Chinese government can retaliate against foreign 
companies that compete with SOEs.\39\ As noted in a February 
2012 Wall Street Journal article, ``[W]hen a U.S. company goes 
to China to compete with a Chinese company, it often finds 
itself competing instead with the state. And it is the state 
that has the handy advantage of approving or rejecting the 
foreigner's investment, or demanding the newcomer transfer 
technology to China before getting access.'' \40\

                          Outbound Investment

    Like foreign investment into China, outbound investment is 
highly regulated and must undergo a government approval 
process.\41\ During this reporting year, Chinese authorities 
tweaked the regulatory framework to stem losses by SOEs,\42\ 
ensure the safety of Chinese citizens working overseas, and 
allow residents in the eastern city Wenzhou to invest overseas, 
thereby liberalizing capital account restrictions.\43\ In 2011, 
the State-Owned Assets Supervision and Administration 
Commission (SASAC) issued two sets of regulations on the 
overseas financial activities of central-level SOEs,\44\ and in 
April 2012, SASAC issued an order that SOEs' overseas 
investments must be in their core businesses.\45\ There are 
almost 1.2 million Chinese expatriates overseas, and in 
February 2012, MOFCOM issued a guidebook on the safety of 
Chinese overseas investments and personnel.\46\ Finally, NDRC 
is preparing a law on outbound investment.\47\
    China's outbound investment has been strategic, furthering 
China's goals for economic growth.\48\ According to one bank 
executive cited in China Daily, during the past five years, 
over half of Chinese companies' mergers and acquisitions 
overseas have been in natural resources.\49\ Currently, 
according to Xinhua, there is a shift away from investments in 
resources to investments in technology, brands, and 
distribution.\50\ This is in keeping with the 12th Five-Year 
Plan on National Economic and Social Development and with 
certain industrial policies.\51\ Thus, in a move toward ``soft 
power,'' as supported by China's cultural industrial policy, 
China has been investing in newspapers and Confucius Institutes 
overseas, largely under Party control.\52\ According to 
People's Daily, under an agreement between China's Export-
Import Bank and the General Administration of Press and 
Publications, the bank will provide financing for cultural 
enterprises' activities overseas.\53\ State broadcaster China 
Central Television is expanding internationally, and the 
government is supporting the establishment of press operations 
overseas.\54\ Further, China's largest cinema chain, Wanda 
Cinema Lines Corp., acquired all or part of U.S. cinema group 
AMC Entertainment.\55\
    Chinese companies' outbound investment has continued to 
grow over the past year. According to China Economic Net, by 
the end of 2011, Chinese investors had established 18,000 
entities in 178 countries. Compared to 2010, investments in 
Europe and Africa grew 57.3 percent and 58.9 percent, 
respectively.\56\ Investments in the form of mergers and 
acquisitions tended to be in mining, manufacturing, 
transportation, electric power, and retailing and 
wholesaling.\57\

                        Foreign Exchange Control

    Though the value of the yuan rose about 8 percent against 
the U.S. dollar between June 2010 and May 15, 2012, according 
to the U.S. Treasury Department, the yuan is still 
undervalued.\58\ While experts disagree on the amount of this 
undervaluation, economists from the Peterson Institute found 
the yuan to be undervalued by 24 percent against the dollar in 
a November 2011 report.\59\ Trade lawyer Alan Price argued in a 
December 2011 Commission hearing that China's currency 
manipulation is a violation of China's WTO commitments.\60\ In 
April 2012, China's central bank widened the yuan's trading 
band in what experts cited by Xinhua described as a step toward 
internationalization of the yuan.\61\
    Chinese authorities have taken measures to loosen controls 
on cross-border capital flows,\62\ including increasing 
convertibility of the yuan in the capital account, signing 
currency swap agreements, and approving outbound 
investment.\63\ During this reporting year, Chinese regulators 
have put in place or announced several measures to bring 
offshore yuan back to China. For example, in October 2011, the 
Ministry of Commerce issued a circular on use of the yuan in 
foreign direct investment in China, and People's Bank of China 
(PBOC) issued measures on processing yuan settlements for such 
investments.\64\ According to the Wall Street Journal, in 
February, PBOC announced it would allow Chinese companies to 
use yuan when trading with foreign companies, and PBOC and five 
other departments issued a circular on management of yuan 
settlement for payment of exported goods.\65\ Chinese 
authorities have also increased the amount certain foreign 
investors can invest in China in yuan,\66\ and are considering 
allowing Chinese companies to borrow yuan funds offshore and 
bring the proceeds back to China.\67\ Shanghai municipality 
will play a key role in internationalization of the yuan, 
according to the ``Plan for Establishment of a Shanghai 
International Financial Center During the Period of the 12th 
Five-Year Plan.'' \68\
    China has ample foreign currency reserves--roughly US$3.2 
trillion as of the end of 2011, according to Chinese state 
media--to fund outbound investment and acquisition of foreign 
resources.\69\ Some investment will be through government-
funded investment vehicles affiliated with the State 
Administration of Foreign Exchange.\70\ China's Minister of 
Commerce has indicated that China would like to use its U.S. 
debt reserves to invest in American infrastructure.\71\

                            China in the WTO

    December 2011 marked the 10-year anniversary of China's 
accession to the WTO.\72\ There is, as former Under Secretary 
of Commerce for International Trade Grant Aldonas testified at 
a 2002 Commission hearing on China's membership in the WTO, 
``the inescapable link between WTO compliance and the 
development of the rule of law in China.'' \73\ Witness Alan 
Price at a December 2011 Commission hearing noted that ``many 
in the United States and around the world believed China's WTO 
membership would bring it into compliance with an enforceable, 
rules-based international trading regime . . . .'' \74\ While 
the Chinese government initially took many steps to implement 
its WTO commitments and has reaped enormous benefits from WTO 
membership,\75\ according to one analyst, China has ``figured 
out how to get around the rules . . . . The state-capitalist 
system they have developed is incompatible with much of the WTO 
structure.'' \76\ In its 2011 report on China's WTO compliance, 
the United States Trade Representative (USTR) notes that China 
has been intensifying state intervention in the economy over 
the past five years, and implementing policies to benefit SOEs 
and domestic industries to the detriment of foreign 
companies.\77\ China has ``not yet fully embraced the key WTO 
principles of market access, non-discrimination and 
transparency,'' according to the report.\78\
    During this reporting year, the United States used WTO 
tools outside the dispute settlement process to address Chinese 
practices. For example, in October 2011, USTR requested through 
the WTO information on China's Internet restrictions.\79\ The 
United States also requested that China notify all its 
subsidies to the WTO as required.\80\
    Under China's regulatory and economic system, the 
government plays an active role in foreign investment, foreign 
exchange activities, and purchases by SOEs, providing 
authorities with ample opportunity for retaliation.\81\ In a 
statement at the WTO in November 2011, a U.S. official noted 
that Chinese regulatory authorities have used intimidation 
against companies that raise concerns with China's WTO 
compliance, threatening ``to withhold necessary approvals or 
take other retaliatory actions against foreign enterprises if 
they speak out against problematic Chinese policies or are 
perceived as responding cooperatively to their government's 
efforts to challenge them.'' \82\ The official continued, 
``This type of conduct is at odds with fundamental principles 
of the WTO's rules-based system.'' \83\ China's use of 
intimidation or retaliation also may make it difficult for 
other WTO members to challenge Chinese actions through the WTO 
dispute settlement process.\84\ The fear of retaliation extends 
to trade cases outside the WTO. In a U.S. Commerce Department 
antidumping investigation of China's solar products, six U.S. 
solar panel manufacturers exercised an option to remain 
anonymous.\85\ According to the New York Times, ``That 
anonymity could help relieve them and their executives from 
fears of retaliation by the Chinese government, which could 
come in the form of denying them access to the Chinese market 
or denying them visas.'' \86\
    Since joining the WTO in December 2001, China has been a 
respondent in 28 dispute settlement cases, a complainant in 10, 
and a third-party participant in 91.\87\ In 2012, the United 
States brought two WTO cases against China concerning the auto 
industry.\88\ The first case, initiated in July, challenges 
China's imposition of antidumping and countervailing duties on 
certain automobiles from the United States.\89\ Some saw the 
duties as retaliation by China for tariffs the United States 
imposed on certain Chinese tires in 2009,\90\ an action that 
China unsuccessfully challenged at the WTO.\91\ The United 
States requested consultations in the second case in September 
2012, challenging certain of China's export subsidies to auto 
and auto parts manufacturers.\92\ In March 2012, the United 
States, in coordination with the European Union and Japan, 
requested consultations with China in a case concerning 
restraints on exports of rare earths, tungsten, and molybdenum, 
and in July, the WTO established a panel to hear the 
dispute.\93\ The case followed a 2009 case brought by the 
United States, the European Union, and Mexico challenging 
similar restraints on the export of raw materials,\94\ in which 
a WTO panel found against China in July 2011.\95\ China 
appealed the decision, which the Appellate Body upheld in 
January 2012.\96\ Other active WTO cases against China, 
including those brought by other WTO members, concern 
electronic payment services,\97\ antidumping and countervailing 
duties on chicken broiler products, and antidumping and 
countervailing duties on grain-oriented electrical steel (all 
from the United States); \98\ and antidumping duties on iron 
and steel fasteners, and antidumping duties on X-ray security 
inspection equipment (both from the European Union).\99\

      Intellectual Property Rights and Forced Technology Transfer

    During the 2012 reporting year, China's weak protection and 
poor enforcement of intellectual property rights (IPR) has 
continued to be a problem and pose risks for the Chinese people 
and for consumers and companies elsewhere.\100\ The Chinese 
government has taken certain measures to foster IPR protection, 
though with little success.\101\ American Chamber of Commerce 
in China's 2012 business climate survey found that 66 percent 
of respondents said China's enforcement of IPR has stayed the 
same or deteriorated.\102\ In order to foster certain key 
sectors such as Chinese cultural products, next generation 
Internet technology, and ``strategic emerging industries'' with 
``self-reliant'' intellectual property (IP), however, Chinese 
authorities are recommending greater IP protection and 
support.\103\
    According to a 2012 U.S. Customs report, China is the 
source of the majority of counterfeit goods entering the United 
States.\104\ As noted in a USTR report, many counterfeit 
products, such as pharmaceuticals, food, auto parts, and toys, 
pose a threat to consumers in China and elsewhere.\105\ The 
Customs report states that, in 2011, ``The number of consumer 
safety and critical technology seizures increased by 44% . . 
.,'' and ``the domestic value of counterfeit pharmaceutical 
seizures rose by . . . almost 200%.'' \106\ In one 
pharmaceuticals case, Chinese police arrested 114 people in a 
ring that used starch, corn powder, iron powder, incitant, and 
diazepam in fake medicines sold under the names of ``reputable 
pharmaceutical companies. . . .'' \107\
    The Chinese government has taken measures directly and 
indirectly to acquire foreign technology, such as stealing 
trade secrets, or forcing foreign companies to transfer key 
technology to Chinese entities in return for access to the 
Chinese market. In February 2012, U.S. prosecutors indicted 
state-owned Pangang Group for conspiring to steal trade secrets 
from DuPont, and an employee of U.S. company American 
Superconductor Corporation pleaded guilty in an Austrian court 
to selling trade secrets to Chinese wind turbine company 
Sinovel.\108\ Reportedly, Chinese spy agencies have conducted a 
``far-reaching industrial espionage campaign'' in a range of 
industries, including biotechnology, telecommunications, 
nanotechnology, and clean energy.\109\ Chinese authorities have 
also used the approval process for foreign investment to force 
foreign companies to transfer technology to China, which is 
contrary to WTO rules.\110\ Such forced transfer often occurs 
through requirements to enter into joint ventures with Chinese 
partners, to set up research and development centers, or to 
partner with ``national champions and transfer the latest 
technology in exchange for current and future business 
opportunities.'' \111\

                          Food and Drug Safety

    During the Commission's 2012 reporting year, China 
continued to have serious food safety problems, impacting 
consumers in China and overseas, as Chinese food exports 
continued to grow. According to the U.S. Food and Drug 
Administration (FDA), from October 2006 through September 2011, 
shipments of FDA-regulated products from China grew from 1.3 to 
2.1 million, including drugs and medical devices and human food 
products.\112\
    Food safety cases in China have ranged from dangerous to 
gross, and covered Chinese staples such as tea and salt.\113\ A 
particularly noxious product, ``gutter oil,'' initially was 
made of restaurants' waste oil but later expanded to include 
oil from rotten animal parts.\114\ Officials cracked one 
criminal network for gutter oil operating across six 
provinces.\115\
    At the national level, Chinese authorities have responded 
to China's food safety problems by issuing a food safety work 
plan and regulations and standards, and publishing a food 
safety program.\116\ At a February 2012 meeting of the National 
Food Safety Commission, officials called for continuation of 
strict punishment for food safety crimes, but noted 
difficulties in controlling China's small and scattered food 
producers.\117\ Authorities have also brought highly publicized 
actions for food safety violations against foreign companies, 
such as Coca-Cola, Walmart, and Red Bull.\118\

                           Access to Justice


                              Introduction

    During the Commission's 2012 reporting year, the promotion 
of key policies and programs relating to access to justice 
reflected the Communist Party's ongoing concern with handling 
social conflicts and ``maintaining stability.'' Authorities 
continued to promote mediation as a solution to social 
conflicts and an alternative to litigation. Chinese officials 
also promoted legal services through the growth of legal aid 
resources and the continuing standardization of legal aid 
procedures.\1\ While officials announced measures to improve 
the petitioning system,\2\ authorities' concern with 
``maintaining stability'' at all costs led to numerous reports 
of human rights violations and abuse of petitioners. Many 
Chinese citizens remain unable to access justice through the 
available channels. Chinese government agencies remained 
unable, in many circumstances, to deliver outcomes that were 
fair and accessible to all, irrespective of wealth or status.
    In addition to Chinese legislation guaranteeing access to 
formal and informal legal remedies, Article 8 of the Universal 
Declaration of Human Rights (UDHR) states that ``[e]veryone has 
the right to an effective remedy by the competent national 
tribunals for acts violating the fundamental rights granted him 
by the constitution or by law.'' \3\ Article 2 of the 
International Covenant on Civil and Political Rights (ICCPR) 
requires states to ensure that persons whose rights or freedoms 
are violated ``have an effective remedy, notwithstanding that 
the violation has been committed by persons acting in an 
official capacity.'' \4\

                         Judicial Independence

    Party and government officials continue to limit judicial 
independence and exert political control over courts and 
judges. Although Article 126 of China's Constitution guarantees 
judicial independence from ``any administrative organ, public 
organization or individual,'' \5\ China's judiciary continues 
to be subject to a variety of internal and external controls--
from political-legal committees to official interference--that 
significantly limit its ability to engage in independent 
decisionmaking. In 2012, for instance, China's legal experts 
and courts continued to react to influencing factors 
surrounding the controversial capital case of Li Changkui, a 
criminal defendant who had been found eligible for a death 
sentence with a two-year reprieve before the court reversed its 
decision, sentencing him to immediate execution, apparently due 
to public pressure. In the Beijing Municipal High Court 2012 
Work Report, President Chi Qiang urged that courts systemically 
prevent lenient sentences in homicide cases by making all 
intermediate courts the trial courts of first instance in 
homicide cases, since lower level courts have no jurisdiction 
to impose life imprisonment or more severe punishments. 
According to a report by the Dui Hua Foundation, a human rights 
advocacy organization, the Li Changkui case ``demonstrates the 
negative effect of public opinion and official interference on 
death penalty reform in China.'' \6\
    Legal experts and scholars both inside and outside of China 
continued to criticize China's lack of judicial independence 
during the reporting year.\7\ After leaving China, self-trained 
legal advocate Chen Guangcheng criticized the role of 
political-legal committees in a New York Times editorial: ``In 
real life . . . cases of any significance are controlled at 
every level of the judicial system by a Communist Party 
political-legal committee. . . . These political-legal 
committees have eroded decades of progress in implementing the 
rule of law.'' \8\ He Weifang, professor of law at Peking 
University Law School, in May 2012 said, ``Unless we resolve 
the basic problem of judicial independence, then it will be 
impossible to improve judicial fairness . . .. [T]he legal 
system itself wants to solve the problem of fairness, but this 
internal force cannot overcome external interference.'' \9\
    Chinese officials continued policies that target rights 
lawyers handling sensitive cases and that restrain these 
lawyers from representing their clients fairly or effectively. 
In recent years, Chinese authorities have pressured human 
rights lawyers who take on sensitive cases (such as those 
involving pro-democracy advocates, house church activists, 
Falun Gong practitioners, and victims of illegal property 
seizures) or engage in sensitive causes by denying professional 
license renewals during the ``annual inspection and assessment 
process'' (niandu jiancha kaohe).\10\ For instance, by late 
March 2012, the Beijing Bureau of Justice (BBJ) had not issued 
a decision on the annual assessment of Qijian Law Firm, headed 
by prominent human rights lawyer Liu Xiaoyuan.\11\ While the 
BBJ eventually renewed professional licenses for Qijian Law 
Firm's lawyers after last year's assessment in late in summer 
2011, judicial authorities reportedly delayed processing the 
law firm's assessment.\12\
    In March 2012, the Ministry of Justice issued a notice 
requiring first-time applicants and lawyers seeking to renew 
their professional licenses to take an oath that includes 
pledges to fulfill the ``sacred mission of socialism with 
Chinese characteristics'' and to ``uphold the leadership of the 
Communist Party of China.'' \13\ Prominent human rights lawyer 
Mo Shaoping told Reuters that the oath was ``inappropriate,'' 
stating, ``As a lawyer, you should only pay attention to the 
law and be faithful to your client.'' \14\
    In August 2012, domestic and international media reports 
detailed the public controversy over draft provisions within a 
Supreme People's Court judicial interpretation on the amended 
PRC Criminal Procedure Law that will enter into effect on 
January 1, 2013.\15\ The judicial interpretation would allow 
judges to prohibit legal representatives from participating in 
litigation for between six months to a year, if they ``disrupt 
the order'' of hearings.\16\ In some circumstances, the courts 
could recommend longer term punishments.\17\ The restrictions 
reportedly may extend to emailing about hearings or publicizing 
hearing information through microblog (weibo) services.\18\ 
Some critics expressed concerns that the penalties represented 
a ``step backward for a modern judicial system,'' according to 
the Global Times (a publication that operates under the 
official People's Daily).\19\ Professor Feng Yujun at Renmin 
University of China Law School said, ``The interpretation by 
the supreme court should be limited within the legitimate 
sphere of the law, instead of overreaching to create new 
punishments and clauses to constrain lawyers' rights.'' \20\

                     Citizen Petitioning (Xinfang)

    During the reporting year, Chinese citizens continued to 
use petitioning as a means to seek redress. The petitioning--or 
xinfang (often translated as ``letters and visits'')--system 
\21\ exists to provide a channel outside of formal legal 
challenges for citizens to seek to appeal government, court, 
and Party decisions and present their grievances.\22\ China's 
Constitution and the 2005 PRC National Regulations on Letters 
and Visits, in theory, provide that Chinese citizens have the 
right to petition without retribution. Because of institutional 
weaknesses in the judiciary and limits on citizens' ability to 
seek redress, the petitioning system remains the most popular 
form of public appeal. Petitioning cases often involve a range 
of complaints about local corruption, alleged abuses of power, 
and unfair land compensation.\23\
    Many Chinese citizens still view petitioning to central 
authorities as the last channel for redress against wrongdoing 
by local officials, even though only approximately 0.2 percent 
of petitioners resolve their grievances through petitioning, 
according to a 2004 study conducted by the Chinese Academy of 
Social Sciences.\24\ This past year, some Chinese articles 
addressed the phenomenon of ``having faith in petitioning and 
not having faith in the law'' \25\--where citizens prefer 
petitioning to formal legal channels. According to a June 2012 
Guangzhou Daily article, more than 80 percent of the 118,466 
petitioning cases handled locally ``should have'' gone through 
legal channels.\26\ The source, quoting a sample survey of 
1,000 Guangzhou municipal residents, found that 35.4 percent of 
respondents expressed a preference for court proceedings while 
30.2 percent said that petitioning was more ``convenient and 
easier.'' \27\ Survey respondents claimed that the time and 
cost associated with litigation made petitioning a preferable 
option.\28\
    During the reporting year, Chinese officials continued to 
publicize the government's intention to improve mechanisms for 
handling petitions and to broaden petitioning channels within 
the formal legal system.\29\ In January 2012, Zhou Yongkang, 
Secretary of the Communist Party Central Committee Political 
and Legal Affairs Commission and member of the Standing 
Committee of the Political Bureau of the Communist Party 
Central Committee, called on government departments and 
officials to ``better address public grievances through more 
efforts in handling public petitions and resolving disputes.'' 
\30\ The 2012-2015 National Human Rights Action Plan (NHRAP), 
released in June 2012, followed the 2009-2010 NHRAP in calling 
for improvements to the petitioning system: ``The mechanism 
whereby the masses express their wishes will be improved, and 
the channels for people to make petitions in the form of 
letters and personal visits will remain unblocked and be 
broadened.'' \31\ Chinese authorities reportedly expanded 
petitioning offices within people's courts across China and 
promoted ``petitioning windows,'' where petitioners can access 
consulting services, pre-litigation mediation, and other 
services. In the 2012 Work Report of the Supreme People's 
Court, President Wang Shengjun claimed 90 percent of courts 
across the country had established petition reception 
offices.\32\ According to Supreme People's Court 2011 
statistics, Chinese courts, at all levels, handled 
approximately 790,000 cases of petitions and complaints, which 
is nearly 25 percent fewer petitions than they handled in 
2010.\33\
    Despite calls for improving petitioning system access, 
authorities appeared to continue to use a range of new and old 
measures to hinder citizens from filing petitions. On January 
1, 2012, for instance, Chinese authorities instituted a real-
name ticket purchasing system for railway tickets across the 
country--which could potentially impede petitioners' access to 
petitioning offices in Beijing.\34\ According to Yu Jianrong, a 
professor at the Chinese Academy of Social Sciences, the 
development may hinder access to petitioning offices at higher 
administrative levels for some petitioners: ``There is a 
network that keeps the information of some petitioners deemed 
risks to social stability. Train stations could simply refuse 
to sell you tickets if you are one of them.'' \35\
    Chinese authorities and private company ``interceptors'' 
continued to intimidate and retaliate against petitioners by 
detaining them in ``black jails'' (hei jianyu), psychiatric 
hospitals, and reeducation through labor (RTL) centers.\36\

        <bullet> In late 2011, RTL authorities in Chongqing 
        municipality ordered petitioner and village 
        representative Zhang Dingfen to serve two years of RTL 
        after she petitioned in Beijing regarding land rights 
        violations in her village.\37\
        <bullet> In April 2012, unidentified personnel 
        allegedly hired by local officials kidnapped and raped 
        Heilongjiang petitioner Zhu Guiqin in Beijing 
        municipality, before holding Zhu in a ``black jail'' 
        and at her home in Fushun city.\38\ Zhu reportedly 
        contacted the local public security bureau to initiate 
        an investigation but was refused assistance.\39\
        <bullet> In August 2012, the Yongzhou city RTL 
        management committee ordered Tang Hui, whose daughter 
        was raped and forced into prostitution, to serve 18 
        months of RTL for ``disturbing social order.'' \40\ The 
        order followed Tang's repeated petitioning over the 
        handling of her daughter's case and her campaigning for 
        harsher sentences for those involved.\41\ The case 
        created an online outcry, gained national attention, 
        and revived debate over the use of RTL.\42\ Authorities 
        released Tang after reviewing her appeal.\43\

    Chinese authorities continued to use ``black jails''--
secret detention sites established by local officials--to 
detain and punish petitioners who travel to Beijing and 
provincial capitals to voice complaints and seek redress for 
injustices.\44\ Those detained are denied access to legal 
counsel and often denied contact with family members or 
associates.\45\ In recent years, domestic Chinese media 
organizations have reported on ``black jails'' and on the 
network of private security personnel hired by officials to 
intercept and detain petitioners.\46\ In December 2011, Chinese 
state-run media reported that the Beijing Public Security 
Bureau launched an official six-month crackdown on illegal 
detentions of petitioners by private security companies.\47\ 
The crackdown came after Chinese news media exposed instances 
of abuse by ``private security companies'' under contract by 
local governments to prevent petitioners from airing their 
grievances to the central government.\48\

                 Promotion of People's Mediation System

    During the 2012 reporting year, government and Party 
officials continued to promote ``people's mediation'' (renmin 
tiaojie) as a tool in their efforts to maintain social 
stability.\49\ In December 2011, Minister of Justice Wu Aiying 
announced that grassroots localities had established more than 
31,000 grassroots mediation organizations across China and that 
these organizations had resolved over 400,000 disputes in 
2011.\50\ Between January and November 2011, all levels of 
judicial administrative agencies and mediation organizations 
reportedly resolved more than 7 million mediation cases.\51\ In 
his work report to the National People's Congress, Supreme 
People's Court President Wang Shengjun emphasized the role of 
mediation in handling disputes and highlighted that 67.3 
percent of civil cases were handled through mediation or 
withdrawn.\52\ In July 2012, the People's Daily, the official 
news media of the Communist Party, reported that people's 
mediators and people's mediation committees succeeded in 
handling 97.3 percent of mediated disputes during the first 
five months of 2012.\53\
    The PRC People's Mediation Law became effective in January 
2011,\54\ and the law stresses the need to resolve civil 
disputes through mediation and to maintain social harmony and 
stability.\55\ The PRC People's Mediation Law encourages 
disagreeing parties to reach a voluntary resolution through 
people's mediation committees.\56\ While mediation is an 
effective tool in some types of cases, concerns about mediation 
center on three main issues: Curtailed access to courts for 
Chinese citizens, adequate resolution of disputes without 
coercion, and effective enforcement.\57\ In addition, people's 
mediators' lack of professional qualifications may also impact 
potential outcomes and oversight.\58\ In terms of mediated 
labor disputes, China Labour Bulletin, a Hong Kong-based non-
governmental organization, reported in March 2012 that workers 
in labor dispute cases almost invariably received less through 
mediation than they would have in court. The cost of legal 
representation, however, remained prohibitively high for most 
workers.\59\

                         Expansion of Legal Aid

    During the reporting year, Chinese official sources 
announced increased funding for legal aid and the expansion of 
access. In February 2012, the Ministry of Justice reported a 
substantial increase in the number of cases handled by local 
legal aid agencies. In 2011, local legal aid agencies handled a 
total of 844,624 cases, up 16.1 percent from 2010 statistics, 
with 946,690 people receiving legal assistance, including 
313,427 migrant workers.\60\ More than 726,000 of the total 
were civil cases, reportedly often related to ``payment and 
employment cases, marriage and domestic affairs, as well as 
traffic accidents.'' \61\ Xinhua, the central government news 
agency, reported that the Ministry of Justice expected legal 
aid agencies to handle more than 1 million cases in 2012.\62\ 
According to official sources, funding for China's legal aid 
system also increased markedly in 2011. The central government 
allocated 200 million yuan during the year to help with legal 
aid, up from the 100 million yuan in the previous year, and 
central special lottery funds for legal aid programs increased 
to 100 million yuan in 2011 from 50 million yuan in 2010. The 
total allocation for legal aid in China in 2011 amounted to 
1.277 billion yuan, an increase of 24.9 percent over the 
previous year's allocation.\63\
    The right to counsel is necessary to guarantee the right to 
a fair trial and to ensure that all citizens have equal access 
to justice. Currently, Chinese law grants criminal defendants 
the right to hire an attorney but guarantees pro bono legal 
defense only if the defendant is a minor, faces a possible 
death sentence, or is blind, deaf, or mute.\64\ In other cases 
in which defendants cannot afford legal representation, courts 
may appoint defense counsel \65\ or defendants may apply for 
legal aid, in theory as early as the investigative stage of 
their cases.\66\ Amendments to the PRC Criminal Procedure Law 
(CPL) passed in February 2012, however, changed requirements 
for legal aid in capital cases, expanding legal aid access for 
those criminal suspects and defendants who may be sentenced to 
capital punishment or life imprisonment.\67\ Under the 1997 
CPL, the people's court was solely responsible for appointing 
an attorney; \68\ under Article 34 of the new CPL (which will 
enter into effect January 1, 2013), public security and 
procuratorate investigators also will be required to notify the 
legal aid agency responsible if criminal suspects do not retain 
attorneys on their own.\69\
    Since 2003, when the State Council promulgated the ``Legal 
Aid Regulations,'' officials have expanded the legal aid system 
dramatically and also have standardized certain procedures.\70\ 
To address standardization concerns, the Ministry of Justice 
(MOJ), the Supreme People's Court, the Supreme People's 
Procuratorate, and the Ministry of Public Security, in recent 
years, have formulated various regulations on legal aid work to 
guide and standardize legal aid case procedures.\71\ In May 
2012, the MOJ passed the ``Provisions on Handling Legal Aid 
Cases and Procedural Requirements,'' which will reportedly 
bring current legal aid practices in line with the newly 
revised PRC Criminal Procedure Law, the PRC Lawyers Law, the 
Regulations of Legal Aid, and other laws, regulations, basic 
provisions, and requirements of legal aid.\72\

   Harassment and Intimidation of Human Rights Lawyers and Defenders

    The Commission observed continued efforts by Chinese 
authorities to discourage, intimidate, and physically harm 
human rights lawyers and defenders--as well as their families 
and associates who took on ``sensitive'' causes. Local 
government agencies continued to employ a spectrum of harsh 
measures--from stationing police personnel outside of homes to 
monitoring the whereabouts of rights defenders \73\--forcing 
rights defenders to ``travel'' to remote or unknown 
locations,\74\ inviting them to ``drink tea'' (bei hecha) with 
security personnel,\75\ and detaining them.\76\
    The following examples demonstrate official actions taken 
against human rights lawyers and defenders during 2011 and 
2012.

        <bullet> In May 2012, Chinese authorities subjected 
        human rights lawyer Jiang Tianyong to harassment and 
        physical abuse--including interrogation and beatings--
        after Jiang attempted to visit his former client, self-
        trained legal advocate Chen Guangcheng.\77\
        <bullet> In May 2012, Chinese authorities blocked 
        prominent human rights lawyers from representing Chen 
        Kegui, the nephew of Chen Guangcheng. Authorities 
        criminally charged Chen Kegui with intentional homicide 
        in connection to an altercation with local officials. 
        Criminal defense lawyers who offered to represent the 
        nephew were reportedly threatened or unable to renew 
        their lawyer licenses.\78\ One of the lawyers, Song Ze, 
        was criminally detained and authorities reportedly 
        refused to disclose his location.\79\
        <bullet> In June 2012, Beijing authorities repeatedly 
        detained prominent activist and human rights lawyer Xu 
        Zhiyong following his online publication of an essay 
        calling for a ``New Citizens' Movement.'' \80\
    In addition, during this reporting year, the Chinese 
government continued to target family members and acquaintances 
of human rights defenders.\81\ [See Section II--Freedom of 
Residence and Movement for more information on authorities' 
targeting of family members and supporters of human rights 
defenders and activists.]

                              IV. Xinjiang


                              Introduction

    During the Commission's 2012 reporting year, Chinese 
government and Communist Party authorities used repressive 
security policies to stifle peaceful expression and dissent, 
especially among Uyghurs, in the Xinjiang Uyghur Autonomous 
Region (XUAR). Chinese officials continued to commit serious 
human rights abuses in the XUAR. Central government-led 
development projects, which authorities have strengthened in 
recent years, undercut the rights of Uyghurs and other non-Han 
groups to maintain their cultures, languages, and livelihoods. 
Government officials continued steps to demolish and 
``reconstruct'' the Old City section of Kashgar city and 
relocate residents. Authorities strengthened campaigns against 
``illegal religious activities'' and enforced policies to 
restrict the freedom of religion. Officials continued to 
obscure information on criminal trials deemed sensitive, while 
unofficial sources reported in 2012 on long prison terms and 
life sentences for asylum seekers forcibly returned from 
Cambodia in 2009.

                           Security Measures

    Official XUAR security campaigns to promote ``social 
stability'' resulted in the continued and systematic repression 
of human rights. The XUAR Communist Party Congress annual 
report, delivered in late October 2011, stressed that the 
``stability situation is still grave'' and described ``opposing 
ethnic separatism and protecting national unity and security'' 
as ``the main mission in protecting social stability.'' \1\ The 
report called for continuing measures to ``strike hard'' 
against the ``three forces'' of terrorism, separatism, and 
religious extremism.\2\ Authorities have applied the ``three 
forces'' label to include peaceful political dissent and 
religious activity outside of state control,\3\ while providing 
limited and conflicting information to support claims of 
terrorist or separatist threats.\4\ Official media reported in 
December 2011 that a clash occurred between police forces and a 
group of ``violent terrorists'' allegedly headed to Central 
Asia for terrorist training.\5\ Local sources cited by Radio 
Free Asia (RFA), however, confirmed the clash but said the 
group consisted of men, women, and children fleeing curbs on 
their religion.\6\ The differing accounts follow other 
incidents in recent years in which reports by independent 
sources have conflicted with official accounts.\7\ In June 
2012, police in Hoten city, Hoten prefecture, conducted house-
to-house searches of the Gujiangbage (Gujanbagh) neighborhood 
as part of a campaign against Islamic schools that authorities 
deemed to be illegal.\8\
    Officials called for further ``normalization'' of work to 
``uphold stability'' \9\ and took steps to strengthen police 
capacity in the region. In January 2012, state media reported 
that XUAR authorities would deploy 8,000 public security forces 
to rural areas to ensure each XUAR village had one officer 
present.\10\ The officers' tasks ``will mainly include security 
patrols, management of the migrant population and cracking down 
on illegal religious activities,'' according to a Party 
spokesperson paraphrased by state media.\11\ [See Freedom of 
Religion in this section for more information on controls over 
religious activity.] Official media reported in November 2011 
that the XUAR Party Committee transferred ``thousands'' of 
officers from the region's Special Weapons and Tactics teams to 
the XUAR capital of Urumqi and placed them under the 
municipality's public security bureau, with a top XUAR Party 
official describing the transfer as a ``major decision'' taken 
to ensure the stability of the social situation in the capital 
and throughout the XUAR.\12\

                          Xinjiang Work Forum

    During this reporting period, XUAR authorities intensified 
regional development objectives announced at the Xinjiang Work 
Forum (Forum), convened in Beijing in May 2010 by central 
government and Party leaders. The Forum's strategies for 
economic and political development prioritize state economic 
and political goals over the promotion of regional autonomy and 
broader protection of XUAR residents' rights.\13\ Government 
and Party officials in 2012 strengthened ``counterpart 
support'' programs that bring funding and personnel assistance 
to the XUAR from provinces and cities outside of the region, 
placing an emphasis on promoting ethnic unity alongside 
regional economic development.\14\
    The implementation of initiatives announced during and 
after the Forum has deepened existing policies that have made 
it difficult for Uyghurs and other non-Han groups to maintain 
their cultures, languages, and livelihoods. In 2012, XUAR 
authorities bolstered efforts to relocate and resettle farmers 
and herders away from grasslands, as part of programs launched 
at the Forum and existing policies and programs that XUAR 
authorities have said were aimed at combating degradation of 
grasslands.\15\ These policies and programs have affected 
groups with livelihoods that are based on traditional nomadic 
herding practices.\16\
    The post-Forum acceleration of urban development throughout 
the XUAR has raised concerns about the resettlement of 
residents, equitable distribution of resources, and cultural 
preservation. In 2012, XUAR and Urumqi authorities continued to 
increase oversight of migrants that began in the wake of July 
2009 demonstrations and riots in Urumqi, in line with official 
claims that Uyghur migrants staying in unregulated rental 
housing had ``incited'' demonstrations and riots on July 5, 
2009.\17\ The mayor of Urumqi told local lawmakers in February 
2012 that the Urumqi government would relocate 60,000 families 
living in the city's ``shantytowns'' by 2015 after demolishing 
their old houses,\18\ as part of ``slum transformation'' 
projects that were initiated soon after the Forum.\19\ [See 
Preservation of Cultural Heritage in this section for more 
information.]

                   Criminal Law and Access to Justice

    Legal developments at the national level in 2012 bolstered 
XUAR authorities' capability to use criminal measures to 
silence dissent. In March, the National People's Congress (NPC) 
Standing Committee passed changes to the PRC Criminal Procedure 
Law (CPL) forbidding those involved in collecting evidence for 
a criminal case from using torture to extract confessions.\20\ 
However, legal scholars and human rights advocates have 
criticized the amendments to the CPL for upholding the power of 
law enforcement agencies to detain those suspected of crimes 
related to national security or terrorism without disclosing 
the location of detention or providing the suspect with access 
to a lawyer for up to six months.\21\ In October 2011, the NPC 
Standing Committee issued a decision (jueding) on 
``strengthening anti-terrorism work.'' \22\ The decision 
includes definitions of terrorist activities and groups, 
designates a national counterterrorism organization, 
establishes a terrorist watchlist and process for freezing the 
assets of suspected terrorist groups, and promotes 
international cooperation in fighting terrorism.\23\ Chinese 
officials and scholars said the definitions in the decision 
would remove ambiguities in Chinese law and reinforce Chinese 
government aims to rule through legal means.\24\ The extent to 
which authorities will prioritize adhering to legal guidelines 
rather than fulfilling policy objectives remains unclear; 
moreover, critics have observed that, even if faithfully 
implemented, the definitions appear to be sufficiently vague to 
encompass acts of (non-violent) dissent.\25\
    Information remained limited on trials connected to the 
July 2009 demonstrations and riots in Urumqi. The first annual 
work report of the XUAR High People's Court, issued in January 
2012, included no information on trials connected to the July 
2009 events,\26\ though Rozi Ismail, president of the court, 
made a brief reference in January 2011 to ongoing cases 
connected to the events.\27\ XUAR government chairperson Nur 
Bekri reported in March 2010 that courts had tried 198 people 
in 97 cases in connection to the July 2009 events.\28\
    The number of criminal trials concluded in the XUAR in 2011 
for crimes of endangering state security (ESS)--a category of 
criminal offenses that authorities in China have used to punish 
citizen activism and dissent \29\--increased over 2010. In 
2011, courts in the XUAR tried and completed 414 cases, an 
increase of 38 cases over the previous year.\30\ In contrast, 
authorities completed 268 ESS cases in the region in 2008 and 
437 cases in 2009.\31\ In 2012, Western media and advocacy 
groups highlighted cases of continued political imprisonment 
connected to the July 2009 events that have involved ESS 
charges, including the cases of Gulmira Imin, Gheyret Niyaz, 
Nijat Azat, Dilshat Perhat, and Nureli Obul.\32\

                     Controls Over Free Expression

    Local governments in the XUAR continued to implement 
censorship campaigns focused on religious and political 
publications during the reporting period. The campaigns have 
targeted pirated and pornographic items in addition to 
publications deemed ``illegal'' solely because of their 
religious or political content.\33\ In March 2012, Western 
media reported that authorities in Aksu prefecture destroyed 
more than 13,000 ``illegal propaganda materials'' as part of a 
campaign to ``Sweep Away Pornography and Strike Down Illegal 
Publications.'' \34\ More than 1,600 students and teachers from 
local schools reportedly observed the destruction of the 
materials, which, according to Western media, included 
electronic versions of the Quran and other religious items.\35\ 
In November, the XUAR Transportation Department published a 
statement indicating that, through the end of October, regional 
transportation officials had investigated and prosecuted 20 
cases of ``illegal publications,'' including 4,386 copies of 
``illegal religious publications'' as part of a similar 
campaign.\36\ Other localities within the XUAR also reported 
targeting or confiscating religious and political items.\37\
    Uyghurs continued to serve prison sentences as a result of 
exercising their right to free speech or for expressing 
dissent. Webmasters Dilshat Perhat and Nijat Azat, who were 
tried in 2010 on charges related to endangering state security, 
continued to serve 5- and 10-year prison sentences, 
respectively.\38\ Family members connected the cases to the 
Webmasters' not deleting postings about hardships in the XUAR 
and, in one instance, permitting posting of announcements for 
the July 2009 demonstrations in Urumqi.\39\ The three-year 
prison sentence of Nureli Obul, the Webmaster of the Uyghur Web 
site Selkin, was due to expire in early August 2012.\40\ Nureli 
Obul was detained in the aftermath of the July 2009 protests 
and riots and sentenced in 2010 at the same trial as Webmasters 
Dilshat Perhat and Nijat Azat.

                          Freedom of Religion

    XUAR authorities used the specter of ``religious 
extremism'' to justify the continuing enforcement of controls 
over religion, especially Islam, and maintained harsh legal 
restrictions over religion.\41\ Authorities continued to 
identify ``religious extremism'' as one of the ``three forces'' 
threatening stability in the region and targeted religious 
practice in security campaigns.\42\ A new plan to deploy 8,000 
public security officers to XUAR villages included ``cracking 
down on illegal religious activities'' among its aims.\43\ In 
addition, central government officials in charge of religious 
affairs emphasized the need to strengthen the ``management'' of 
Hajj pilgrimages and ``train'' religious figures and cadres 
doing religious work.\44\
    Some Muslims continued to serve prison sentences as a 
result of exercising their faith. Courts in Kashgar prefecture 
in May 2012 sentenced nine Uyghurs to prison sentences ranging 
from 6 to 15 years on charges related to their participation in 
``illegal religious activities.'' \45\ Western media reported 
that in February 2012, in Hoten prefecture, public security 
officials detained 129 people and authorities fined nearly 
3,000 people and shut down more than 200 religious sites in 
conjunction with a ``strike hard'' campaign against ``illegal 
religious activities.'' \46\
    In June in Hoten, 12 children, 2 school staff, and 3 
policemen were injured when police raided an ``illegal'' 
religious school where Communist Party-affiliated and state-run 
media said teachers had confined students.\47\ According to 
official media reports, suspects at the school set off 
explosives during the raid, causing a blaze that injured the 
children.\48\ Uyghur human rights advocates reported, however, 
that tear gas used by police in the raid injured the 
children.\49\ Radio Free Asia (RFA) reported that in June in 
Korla city, Bayangol Mongol Autonomous Prefecture (BMAP), an 
11-year-old Uyghur child named Mirzahid died while in police 
custody after being detained for engaging in Islamic prayer 
studies at an unsanctioned school.\50\ Official Chinese media 
said Mirzahid's death was the result of a beating he received 
from his religious instructor prior to his detention.\51\ 
However, unnamed sources cited by RFA claimed he had been 
tortured to death in detention.\52\
    Reports of official campaigns to prevent men from wearing 
``large beards'' \53\ and women from wearing veils or clothing 
perceived to have religious connotations appeared to increase 
during the reporting year, based on Commission monitoring. In 
Hejing county, BMAP, an official reported at a September 2011 
meeting of 550 households receiving minimum social welfare 
guarantees (dibao jiating) that women wearing veils, men with 
``large beards,'' and guardians of minors who illegally enter 
mosques would be cut off from this social welfare support.\54\ 
RFA reported in July 2012 that officials required recipients of 
monthly welfare stipends in areas such as Hoten, Aksu, and 
Kashgar to sign a pledge promising not to cover their faces for 
religious reasons, and promising to report to local authorities 
if they witnessed women covering their faces.\55\ Local 
governments in 2012 also continued steps to bring women 
religious specialists known as buwi under tighter government 
regulation, following an official proposal in 2008 to place 
these religious figures under stricter state control.\56\
    Local governments throughout the XUAR continued to place 
controls over the observance of the Islamic holiday of Ramadan, 
forbidding some people from fasting, ordering restaurants to 
stay open, and emphasizing the need for Islamic clergy to 
promote ethnic unity and combat separatism.\57\ RFA reported 
that authorities fined nearly 100 Uyghurs in Kuchar county, 
Aksu prefecture, for studying the Quran in ``unauthorized 
sessions'' during Ramadan in July and August 2012, and that 
there was an increased security presence at mosques in Urumqi 
during this period.\58\ In addition, RFA reported that 
authorities had banned tourists from visiting mosques in Urumqi 
during Ramadan.\59\ Western media agencies reported that 
municipalities throughout the XUAR implemented ``security and 
stability work plans'' for Ramadan that mandated schools and 
local governments to ensure that students and officials did not 
fast or visit mosques.\60\ RFA reported that security officials 
questioned Beijing-based Uyghur professor and Webmaster Ilham 
Tohti on August 8 and told him not to publish any more articles 
on religion or Ramadan, and not to speak with foreign 
journalists.\61\ The Web site Tohti founded, Uyghur Online, 
published an article discussing increased restrictions during 
this year's Ramadan,\62\ and Tohti spoke with Western news 
agencies in August about increasing restrictions on the 
practice of Islam in the XUAR.\63\ [See Section II--Freedom of 
Religion for additional information on religion in China, 
including cases from the XUAR.]

                Language Policy and Bilingual Education

    The XUAR government continued to expand implementation of 
``bilingual education,'' a policy that has drawn objections 
from non-Han groups for prioritizing Mandarin Chinese in XUAR 
schools at the expense of other languages spoken in the region. 
The policy contravenes legal protections for non-Han groups to 
maintain and use their own languages, as provided in Chinese 
and international law,\64\ and underscores government failure 
to maintain the use of Uyghur and other languages as lingua 
franca within the XUAR in line with the promotion of regional 
autonomy. Official media reported in October 2011 that 1.2 
million students from preschool to high school were enrolled in 
``bilingual education'' classes, making up 48 percent of the 
ethnic minority student population.\65\ The number appears to 
be an increase of more than 446,000 students since 2009, based 
on figures from that year.\66\ Education officials have said 
that 1.8 million ethnic minority students, comprising about 75 
percent of the ethnic minority student population at primary 
and secondary schools, would receive ``bilingual education'' by 
2015,\67\ and that ``bilingual education'' would be implemented 
in 90 percent of XUAR schools by 2020.\68\
    In addition to the ``bilingual education'' policy, since 
1997, XUAR authorities have implemented a program of sending 
Uyghur and other non-Han students from the XUAR to high schools 
in eastern Chinese cities, where they attend classes taught 
exclusively in Mandarin Chinese. Authorities accelerated the 
program, known as ``Xinjiang classes'' (xinjiang ban or 
xinjiang neidi gaozhong ban), following the May 2010 Xinjiang 
Work Forum. Human rights groups have criticized the program 
over concerns regarding its strict adherence to a Mandarin-only 
language policy, both in and out of the classroom, as well as 
concerns over the placement of young Uyghur and other non-Han 
students into an unfamiliar cultural landscape.\69\ According 
to the XUAR Education Department, authorities planned to enroll 
a total of 27,000 students in ``Xinjiang classes'' in fall 
2012, at 85 schools in 44 cities.\70\ These numbers represent 
an increase of 5,000 students, 19 schools, and 8 cities since 
November 2010,\71\ at which time figures had already 
significantly increased since the Xinjiang Work Forum.\72\

                      Population Planning Policies

    The XUAR government continued to implement a ``special 
rewards system'' for non-Han households (``ethnic minority'' 
households) that have been ``certified'' as having fewer 
children than allowed under the region's population and family 
planning regulations.\73\ The system is one of the reward 
mechanisms present throughout China's population planning 
system, though with special focus on ethnic minority 
households. Authorities started the program in three southern 
XUAR prefectural-level areas in 2007 \74\ and announced plans 
in 2009 to extend it to an additional 26 ``poor and border 
counties.'' \75\ A December 2011 report from the Xinjiang 
Academy of Social Sciences reported that over 268,000 people 
were receiving rewards under the program.\76\ Authorities 
expanded the program in 2011 to any XUAR county or city where 
rural ethnic minorities comprise over 50 percent of the 
population.\77\
    During the reporting period, authorities in the XUAR and 
some other regions of China with Muslim populations reported on 
the implementation of a program entitled ``Muslim Reproductive 
Health Project'' (musilin shengzhi jiankang shangmu).\78\ 
According to official media, the project aims to provide 
reproductive health information and health checks for Muslim 
women of reproductive age, while ``creating a harmonious happy 
family.'' \79\ XUAR authorities decided on regional 
implementation of the program in July 2011, and set aside 10 
million yuan (US$1.5 million) each year for the next two years 
to carry it out.\80\ State media reports emphasized the role of 
religious leaders in conveying Party policy on the project.\81\

                                 Labor


                             DISCRIMINATION

    Some government and private employers in the XUAR continued 
to discriminate against non-Han job candidates. As in past 
years, some job announcements reserved positions exclusively 
for Han Chinese in civil servant posts and private-sector jobs, 
in contravention of provisions in Chinese law that forbid 
discrimination.\82\
    On February 1, 2012, the Standing Committee of the XUAR 
Party Committee announced that new legal measures on employment 
promotion were taking effect on the same day. The new measures 
stipulate procedures to prevent discrimination and promote the 
hiring of non-Han (``ethnic minority'') groups in the 
region.\83\ Some provisions of the measures mirror those in the 
national PRC Employment Promotion Law, but the measures also 
stipulate subsidies, absent in the national law,\84\ for 
employers that hire ethnic minorities.\85\ The potential impact 
of the measures remains unclear, however, as extant laws and 
directives promoting equal employment and the hiring of non-Han 
groups appear to have had limited impact to date in stemming 
discriminatory hiring policies.\86\

                            LABOR TRANSFERS

    XUAR authorities continued programs to ``transfer the 
excess rural labor force'' \87\ to jobs in other parts of the 
XUAR and other provinces, a practice that has focused on young 
non-Han men and women. In March 2012, the central government 
published statistics indicating that, in 2011, more than 2.58 
million people had been transferred to jobs outside of their 
home area or outside of the region.\88\ As documented by the 
Commission in recent years, some participants and their family 
members have reported coercion to participate in the programs, 
the use of underage workers, and exploitative working 
conditions.\89\ In 2012, XUAR authorities described the 
programs as a way for XUAR workers to gain income, build job 
skills, and ``liberate'' participants' ``thinking.'' \90\

                   Preservation of Cultural Heritage

    Chinese government development policies continued to 
prevent Uyghurs from preserving their cultural heritage. 
Authorities continued to demolish and rebuild the Old City 
section of Kashgar city, as part of a five-year project 
launched in 2009 that has drawn opposition from Uyghur 
residents and other observers for requiring the resettlement of 
the Old City's 220,000 residents and for undermining cultural 
heritage protection.\91\ Official media reported that, as of 
November 2011, 18,818 homes in the Old City had been 
``transformed,'' comprising 38.3 percent of ``transformation'' 
work.\92\ A blogger using Google Earth technology estimated, 
based on an overlay of satellite images taken over several 
years, that approximately two-thirds of the Old City had been 
demolished up to November 2011.\93\ According to official media 
reports, government authorities consulted the Old City's 
residents regarding their opinions about how demolition, 
reconstruction, and compensation would be carried out.\94\ 
Reports from the New York Times and other international media 
outlets, however, have described instances of officials 
allegedly ignoring Uyghur grievances regarding the way 
demolitions were being carried out.\95\
    A report issued by a Uyghur human rights organization in 
April detailed concerns regarding the demolition of Kashgar's 
Old City, as well as demolitions and the resettlement of 
residents in traditionally Uyghur communities in other areas of 
Kashgar prefecture; Turpan prefecture; the Heijiashan 
(Tashbulaq) area of Tianshan district, Urumqi city; the cities 
of Hoten, Ghulja (city under Ili Kazakh Autonomous Prefecture), 
Kumul, Aksu, and Korla (city under Bayangol Mongol Autonomous 
Prefecture); and other localities in the XUAR.\96\ In March, 
according to official media reports, XUAR authorities stated 
that 1.5 million homes would be ``reconstructed'' regionwide by 
2015.\97\

               Prison Sentences of Uyghur Asylum Seekers

    In January 2012, Western media reported on prison sentences 
given in September 2011 to 16 of the 20 Uyghur asylum seekers 
who were forcibly returned from Cambodia to China in 2009. 
Previous information on the legal status of the 20 asylum 
seekers was limited to June 2010 reports from Chinese 
authorities that 17 of the Uyghur asylum seekers had links to 
terrorism. According to Radio Free Asia in January 2012, local 
sources reported that a court in the XUAR tried 16 of the men 
on December 24, 2010, and sentenced them in September 2011 to 
prison terms ranging from 16 years to life imprisonment.\98\ 
Information from family members and lawyers indicated that 
lawyers were prevented from presenting a full defense of their 
clients.\99\ The charges against the men are not known, but the 
Chinese government asserted in June 2010 that they were 
suspected of terrorist-related activity.\100\ The 16 men 
sentenced were among a group of 22 Uyghurs who were in the 
process of applying for refugee status at the UN High 
Commissioner for Refugees (UNHCR) in Phnom Penh. Cambodian 
authorities forcibly returned 20 of the 22 asylum seekers in 
December 2009, before the UNHCR could make a determination of 
their refugee status.\101\ Even if made at the time of 
extradition, the Chinese government's assertions regarding the 
asylum seekers' links to terrorism would not have precluded an 
assessment of the asylum cases by UN officers.\102\ Most group 
members had fled China after the July 2009 demonstrations and 
riots in the XUAR,\103\ and one group member said in his 
statement to the UNHCR that he fled China after learning of 
``mass detentions'' of Uyghurs following the July 2009 
events.\104\

                                V. Tibet


  Status of Negotiations Between the Chinese Government and the Dalai 
                      Lama or His Representatives

    Formal dialogue between the Dalai Lama's representatives 
and Chinese Communist Party and government officials has 
stalled since the January 2010 ninth round,\1\ the longest 
interval since such contacts resumed in 2002.\2\ Zhu Weiqun, 
Executive Deputy Head of the Party's United Front Work 
Department,\3\ Director of the Party's General Office of the 
Central Coordinating Group for Tibet Affairs,\4\ and principal 
interlocutor for the Dalai Lama's envoys,\5\ reiterated Party 
positions seeking to prevent Tibetans from securing protection 
for their culture, language, religion, and environment, and 
instead pressure the Dalai Lama to support Party positions on 
Tibetan history and China's relationship with Taiwan.\6\ In 
return for compliance, officials offered to discuss the Dalai 
Lama's ``personal future'' in China \7\--a basis for 
negotiation he rejects.\8\
    In January 2012, Under Secretary of State for Civilian 
Security, Democracy, and Human Rights Maria Otero reiterated 
grave concern over Tibetan self-immolations in Tibetan areas of 
China \9\ and called on the Chinese government ``to resume 
substantive, results-oriented dialogue with the Dalai Lama or 
his representatives to address the underlying grievances of 
China's Tibetan population.'' \10\
    Effective June 1, 2012, the Dalai Lama's Special Envoy, 
Lodi Gyari, and Envoy, Kelsang Gyaltsen, resigned citing ``the 
deteriorating situation inside Tibet since 2008 leading to the 
increasing cases of self-immolations by Tibetans.'' \11\ Their 
resignation letter reportedly pointed out that a principal 
interlocutor in the dialogue had ``advocated abrogation of 
minority status as stipulated in the Chinese Constitution 
thereby seeming to remove the basis of autonomy.'' \12\ The 
referenced interlocutor is Zhu Weiqun. [See Party Official 
Favors Ethnic Assimilation in this section.]

                        Tibetan Self-Immolation

    The incidence of Tibetans resorting to self-immolation 
accelerated sharply during the Commission's 2012 reporting year 
and spread from Sichuan province into Qinghai and Gansu 
provinces and the Tibet Autonomous Region (TAR).\13\ [See table 
below showing 50 self-immolations as of August 27, 2012.] Of 
these, 45 Tibetan self-immolations (39 reported fatal) 
reportedly took place from October 2011--the start of the 
Commission's 2012 reporting year--through August 27, 2012.\14\ 
In comparison, five self-immolations (two reported fatal) 
occurred from February 2009 through September 2011; all of 
these five took place in Tibetan autonomous prefectures in 
Sichuan.\15\ During the period from October 2011 to August 27, 
2012, 31 self-immolations occurred in Sichuan, and 14 took 
place in Tibetan autonomous areas located in Qinghai,\16\ 
Gansu,\17\ and the TAR.\18\ Of the 50 self-immolations as of 
August 27, 2012, 33 occurred in Aba (Ngaba) Tibetan and Qiang 
Autonomous Prefecture (T&QAP), Sichuan; 21 Aba self-immolators 
were current or former monks at Kirti Monastery in Aba county, 
the site of an ongoing security and political crackdown 
following protests (and some rioting) in March 2008.\19\
    Reports of self-immolators' anti-government slogans and 
calls for Tibetan freedom and the Dalai Lama's return \20\ are 
concurrent with increasing Chinese government and Party use of 
legal measures to repress and control core elements of Tibetan 
culture, including the Tibetan Buddhist religion and monastic 
institutions,\21\ and with the China-Dalai Lama dialogue's 
failure to achieve any sign of progress.\22\ An Oxford 
University sociologist described the Tibetan self-immolations 
as ``one of the biggest waves of self-immolation in the last 
six decades'' and noted that within a ``small ethnic group'' it 
indicates ``intensity.'' \23\
    The Party and government have not indicated any willingness 
to consider Tibetan grievances in a constructive manner and to 
hold themselves accountable for Tibetan rejection of Chinese 
policies, and handled the crisis as a threat to state security 
and social stability instead of as a policy failure.\24\ 
Government and Party officials blamed self-immolations on the 
Dalai Lama and organizations and individuals the Party 
associates with him (``the Dalai Clique'').\25\ Officials 
attempted to discredit self-immolators by describing them or 
their actions in pejorative terms (e.g., terrorist,\26\ 
criminal,\27\ copycat \28\). Zhu Weiqun \29\ blamed the Dalai 
Lama directly:
          The Dalai Lama wants to turn Tibetan Buddhism into a 
        religion of suiciders and self-immolators in order to 
        serve his own political purpose; this is the 
        fundamental reason that these incidents occurred.\30\

      <SUP><INF>onh1Self-Immolation Location (Prov./Pref./County)h1Statusj
------------------------------------------------------------------------
                                                     Self-
                                                   Immolation
          Date of Self- Name Sex /   Occupation     Location
   No.     Immolation     Approx.    Affiliation    (Prov./      Status
                            Age                      Pref./
                                                    County)
------------------------------------------------------------------------
   2009
------------------------------------------------------------------------
      1   February 27   Tashi       Monk          Sichuan/     Detained
                         (Tabe)     Kirti          Aba T&QAP/   in
                        M/24         Monastery     Aba county   hospital
                                                                 \31\

------------------------------------------------------------------------
   2011
------------------------------------------------------------------------
      2   March 16      Phuntsog    Monk          Sichuan/     Deceased
                        M/20        Kirti          Aba/ Aba     \32\
------------------------------------------------------------------------
      3   August 15     Tsewang     Monk          Sichuan/     Deceased
                         Norbu      Nyitso         Ganzi TAP/   \33\
                        M/29         Monastery     Daofu
                                                   county
------------------------------------------------------------------------
   4, 5   September 26  Lobsang     Monks         Sichuan/     Both
                         Kalsang,   Kirti          Aba/ Aba     hospital
                         Lobsang                                ized \34
                         Konchog                                \
                        Both M/18
------------------------------------------------------------------------
      6   October 3     Kalsang     Monk          Sichuan/     Hospitali
                         Wangchug   Kirti          Aba/ Aba     zed \35\
                        M/17
------------------------------------------------------------------------
   7, 8   October 7     Choephel,   Former monks  Sichuan/     Both
                         M/19       Kirti          Aba/ Aba     deceased
                        Khayang, M/                              \36\
                         18
------------------------------------------------------------------------
      9   October 15    Norbu       Former monk   Sichuan/     Deceased
                         Dradul     Kirti          Aba/ Aba     \37\
                        M/19
------------------------------------------------------------------------
     10   October 17    Tenzin      Nun           Sichuan/     Deceased
                         Wangmo     Dechen         Aba/ Aba     \38\
                        F/20         Choekorling
                                     Nunnery
------------------------------------------------------------------------
     11   October 25    Dawa        Monk          Sichuan/     Hospitali
                         Tsering    Gepheling      Ganzi TAP/   zed then
                        M/30s        Monastery     Ganzi        released
                                                   county        \39\
------------------------------------------------------------------------
     12   November 3    Palden      Nun           Sichuan/     Deceased
                         Choetso    Gaden          Ganzi/       \40\
                         (Choesang   Choeling      Daofu
                         )           Nunnery
                        F/35
------------------------------------------------------------------------
     13   December 1    Tenzin      Householder   TAR/         Deceased
                         Phuntsog    (father)      Changdu      \41\
                        M/46        (Former        prefecture/
                                     monk, Karma    Changdu
                                     Monastery)    county
------------------------------------------------------------------------
   2012
------------------------------------------------------------------------
 14, 15   January 6     Tsultrim,   Current or    Sichuan/     Both
                         Tennyi      former        Aba/ Aba     deceased
                        Both M/      monks                       \42\
                         about 20   Kirti
------------------------------------------------------------------------
     16   January 8     Sonam       Monk          Qinghai/     Deceased
                         Wanggyal   Dungkyob       Guoluo TAP/  \43\
                         (Zoepa)     Monastery      Dari
                        M/42                       county
------------------------------------------------------------------------
     17   January 14    Lobsang     Former monk   Sichuan/     Deceased
                         Jamyang    Andu           Aba/ Aba     \44\
                        M/21         Monastery
------------------------------------------------------------------------
     18   February 8    Rigzin      Former monk   Sichuan/     Deceased
                         Dorje      Kirti          Aba/ Aba     \45\
                        M/19
------------------------------------------------------------------------
     19   February 9    Sonam       Monk          Qinghai/     Hospitali
                         Rabyang    Lab            Yushu TAP/   zed \46\
                        M/mid-30s    Monastery     Chenduo
                                                   county
------------------------------------------------------------------------
     20   February 11   Tenzin      Nun           Sichuan/     Deceased
                         Choedron   Dechen         Aba/ Aba     \47\
                        F/18         Choekorling
------------------------------------------------------------------------
     21   February 13   Lobsang     Monk          Sichuan/     Hospitali
                         Gyatso     Kirti          Aba/ Aba     zed \48\
                        M/19
------------------------------------------------------------------------
     22   February 17   Damchoe     Monk          Qinghai/     Deceased
                         Zangpo     Bongtag        Haixi        \49\
                        M/38         Monastery     M&TAP/
                                                   Wulan
                                                   county
------------------------------------------------------------------------
     23   February 19   Nangdrol    Layman        Sichuan/     Deceased
                         (Nyadrol)                 Aba/         \50\
                        M/18                       Rangtang
                                                   county
------------------------------------------------------------------------
     24   March 3       Tsering     Middle-       Gansu/       Deceased
                         Kyi         school        Gannan TAP/  \51\
                        F/19         student        Maqu
                                                   county
------------------------------------------------------------------------
     25   March 4       Rinchen     Widowed       Sichuan/     Deceased
                        F/32         mother        Aba/ Aba     \52\
------------------------------------------------------------------------
     26   March 5       Dorje       Layman        Sichuan/     Deceased
                        M/18                       Aba/ Aba     \53\
------------------------------------------------------------------------
     27   March 10      Gepe        Monk          Sichuan/     Deceased
                        M/18        Kirti          Aba/ Aba     \54\
------------------------------------------------------------------------
     28   March 14      Jamyang     Monk          Qinghai/     Hospitali
                         Palden     Rongbo         Huangnan     zed,
                        M/34         Monastery     TAP/         removed
                                                   Tongren      by monks
                                                   county       \55\
------------------------------------------------------------------------
     29   March 16      Lobsang     Monk          Sichuan/     Deceased
                         Tsultrim   Kirti          Aba/ Aba     \56\
                        M/20
------------------------------------------------------------------------
     30   March 17      Sonam       Farmer        Qinghai/     Deceased
                         Dargyal     (father)      Huangnan/    \57\
                        M/44                       Tongren
------------------------------------------------------------------------
     31   March 28      Sherab      Monk          Sichuan/     Deceased\
                         (Lobsang   Kirti          Aba/ Aba     58\
                         Sherab)
                        M/20
------------------------------------------------------------------------
 32, 33   March 30      Tenpa       Monks         Sichuan/     Both
                         Dargyal,   Tsodun         Aba/         deceased
                         M/22        Monastery     Ma'erkang     \59\
                        Chime                      county
                         Palden, M/
                         21
------------------------------------------------------------------------
 34, 35   April 19      Choephag    Laymen        Sichuan/     Both
                         Kyab,                     Aba/         deceased
                         Sonam                     Rangtang      \60\
                        Both M/
                         early 20s
------------------------------------------------------------------------
 36, 37   May 27        Dorje       Both          TAR/         Deceased
                         Tseten, M/  restaurant   Lhasa         \61\
                         19          staff         municipali
                        Dargye, M/  (Dargye:       ty/Lhasa
                         25          Former        city
                                     monk,
                                     Kirti)

------------------------------------------------------------------------
     38   May 30        Rikyo       Wife and      Sichuan/     Deceased
                         (Rechog)    mother        Aba/         \63\
                        F/33                       Rangtang
------------------------------------------------------------------------
     39   June 15       Tamdrin     Settled       Qinghai/     Deceased
                         Thar        nomad,        Huangnan/    \64\
                        M/50s        father        Jianza
                                                   county
------------------------------------------------------------------------
 40, 41   June 20       Tenzin      Former monk,  Qinghai/     Both
                         Khedrub,    Zilkar        Yushu/       deceased
                         M/24        Monastery     Chenduo       \65\
                        Ngawang     Carpenter
                         Norphel,    (hailed
                         M/22        from Rikaze
                                     prefecture,
                                     TAR)
------------------------------------------------------------------------
     42   July 7        Tsewang     Settled       TAR/ Lhasa/  Deceased
                         Dorje       nomad         Dangxiong    \66\
                        M/22                       county
------------------------------------------------------------------------
     43   July 17       Lobsang     Monk          Sichuan/     Deceased
                         Lozin      Tsodun         Aba/         \67\
                        M/18         Monastery     Ma'erkang
------------------------------------------------------------------------
     44   August 6      Lobsang     Monk          Sichuan/     Deceased
                         Tsultrim   Kirti          Aba/ Aba     \68\
                        M/21
------------------------------------------------------------------------
     45   August 7      Drolkar     Wife and      Gansu/       Deceased
                         Tso         mother        Gannan/      \69\
                        F/26                       Hezuo
                                                   county
------------------------------------------------------------------------
     46   August 10     Choepa      Nomad         Sichuan/     Deceased
                        M/24                       Aba/ Aba     \70\
------------------------------------------------------------------------
 47, 48   August 13     Lungtog, M/ Monk, Kirti   Sichuan/     Both
                         20         Former monk,   Aba/ Aba     deceased
                        Tashi, M/    Kirti                       \71\
                         21
------------------------------------------------------------------------
 49, 50   August 27     Lobsang     Monk, Kirti
                         Kalsang,
                         M/18
                        Lobsang
                         Damchoe,
                         M/17
                                                  Sichuan/     Both

------------------------------------------------------------------------

    In January 2012, Tibetan protests in three Sichuan counties 
\73\ resulted in official use of gunfire and were linked to 
posters sympathetic with self-immolators or warning of 
additional self-immolation.\74\ Security personnel reportedly 
opened fire and killed a total of at least six protesters.\75\ 
State-run media implied that in two locations security forces 
fired in self-defense.\76\ Some media reports indicated that 
protesters became violent after security officials opened 
fire.\77\

                Religious Freedom for Tibetan Buddhists

    The status of religious freedom for Tibetan Buddhists 
declined steeply this past year. Commission analysis 
demonstrated an apparent correlation between monastic self-
immolation and increasing Chinese Communist Party and 
government repression of freedom of religion in Tibetan 
Buddhist monasteries and nunneries.\78\ Thirty-one of the 45 
self-immolators from October 2011 through August 27, 2012, were 
current or former monks or nuns.\79\ [See table above.]

            UNPRECEDENTED MEASURES STRENGTHEN PARTY CONTROL

    The Chinese Communist Party and government initiated two 
unprecedented measures \80\ to further strengthen control over 
the Tibetan Buddhist religion and monastic institutions \81\ 
and transform them into entities prioritizing loyalty to the 
Party and patriotism toward China,\82\ while seeking to bring 
to an end the Dalai Lama's influence on Tibetans.\83\ The first 
development was the October 20, 2011, opening of the Tibetan 
Buddhism Theological Institute (TBTI)--the TAR's ``first high-
level comprehensive school for Tibetan Buddhism.'' \84\ Zhu 
Weiqun, Executive Deputy Head of the Communist Party United 
Front Work Department (UFWD), and Director of the Party's 
General Office of the Central Coordinating Group for Tibet 
Affairs,\85\ said the TBTI is necessary ``to establish a normal 
order for Tibetan Buddhism, to conform with the development of 
our times, and to resist the Dalai clique's religious 
infiltration.'' Zhu's reference to ``our times'' apparently 
signifies Party intent to establish an updated ``normal order'' 
that conforms to current Party and government objectives. Zhu 
stated that ``under the new situation'' Tibetan Buddhism, among 
other things, should: \86\

        <bullet> ``Make the correct historical choice'';
        <bullet> ``Struggle against the Dalai clique'';
        <bullet> ``Safeguard the motherland's reunification and 
        ethnic unity'';
        <bullet> ``Accept the government's management according 
        to law'';
        <bullet> ``Remove the crude customs and habits that are 
        not in line with social progress'';
        <bullet> ``Actively adapt to socialist society''; and
        <bullet> ``Maintain the correct direction of Tibetan 
        Buddhism's development.''

    The second unprecedented measure, initiated in November 
2011 and completed in February 2012,\87\ was the establishment 
of a Monastery Management Committee (MMC) headed by Party 
cadres \88\ and government officials \89\ in all 1,787 TAR 
monasteries.\90\ TAR Party Secretary Chen Quanguo told Party 
members on February 2 that ``the broad ranks of cadres 
stationed in monasteries'' should ensure that monks and nuns 
``become an important force in loving their country, loving 
their religion, observing regulations, abiding by laws, 
safeguarding stability, and building harmony.'' \91\ A Party 
newspaper reported that cadres must seek to befriend monks and 
nuns and compile information on them and their family 
members.\92\ In turn, cadres must incentivize family members to 
``guide'' monks and nuns to be ``patriotic and progressive.'' 
\93\ Chen called on MMCs to ``guide'' monks and nuns ``to 
actively vie with one another'' to attain recognition for 
themselves and their monastic institutions.\94\ In May 2012, 
the same Party newspaper published a list of 59 ``harmonious 
model monasteries'' and 6,774 ``patriotic law-abiding advanced 
monks and nuns'' \95\ (out of approximately 46,000 in the TAR 
\96\). The citations were the first of their kind.\97\
    MMCs, in terms of status and function, are more intrusive 
and repressive than Masses Supervision and Appraisal Committees 
(MSACs) established in Qinghai province by prefectural-level 
Tibetan Buddhist affairs regulations.\98\ MSACs are not headed 
entirely by Party and government officials,\99\ members do not 
directly manage monastic affairs,\100\ and they do not all 
reside within a monastic institution.\101\

              THE DALAI LAMA'S STATEMENT ON REINCARNATION

    In a September 24, 2011, signed statement,\102\ the Dalai 
Lama rejected Party attempts to use historical 
misrepresentation \103\ and government regulation \104\ to 
impose unprecedented control over one of Tibetan Buddhism's 
most important features \105\--lineages of teachers (trulkus) 
who Tibetan Buddhists believe are reincarnations and can span 
centuries. The Dalai Lama denounced as ``outrageous and 
disgraceful'' \106\ the PRC Measures on the Management of the 
Reincarnation of Living Buddhas in Tibetan Buddhism.\107\ He 
concluded with a ``declaration'' summing up his basis for 
rejecting Party interference with identifying trulkus and 
outlined measures he would take to protect the legitimacy of a 
possible subsequent Dalai Lama.\108\ The declaration's main 
points included:

        <bullet> Trulkus guide their own reincarnations, not 
        the Party.\109\
        <bullet> Tibetan Buddhists will not accept continued 
        Party interference.\110\
        <bullet> Around 2025, when the Dalai Lama is about 
        90,\111\ he and others will determine whether there 
        will be another Dalai Lama.\112\
        <bullet> A named organization would lead a search for a 
        15th Dalai Lama.\113\
        <bullet> The Dalai Lama's written instructions would 
        guide a search.\114\

    Tibetan Buddhists in China likely regard the statement as 
of high importance due to its wording, formality, and 
significance to Tibetan Buddhism's future.\115\

                        ADDITIONAL DEVELOPMENTS

    Regulating pilgrimage. In December 2011, TAR authorities 
considered measures to manage ``society's floating personnel 
engaged in religious activities''--a broad phrase that could 
include long-term pilgrimage or pilgrimage by non-monastic 
persons--and to ``cleanse and rectify'' such activity.\116\ 
Substantial numbers of Tibetan farmers and herders engage in 
pilgrimage seasonally.\117\ New regulatory measures may 
heighten tension between Tibetan Buddhists and the 
government.\118\
    ``Mass detention'' for attending Dalai Lama teaching. In 
January and February 2012, security officials reportedly 
detained hundreds of Tibetans as they returned from a Tibetan 
Buddhist teaching--the Kalachakra--by the Dalai Lama in 
India.\119\ As many as 7,000 to 10,000 Tibetans traveled from 
China to India for the teaching.\120\ Officials held detainees 
in various locations for two to four months of ``education'' 
\121\ and released most of them by April.\122\ Based on the 
reports cited above, authorities treated attending the teaching 
as a political infraction, not as an issue linked to the 
adequacy of travel documents.\123\
    Abandoned monasteries. In December 2011 and January 2012, 
monks and nuns in Biru (Driru) county, Naqu (Nagchu) 
prefecture, TAR, reportedly abandoned five monasteries and one 
nunnery rather than conform to recent regulations.\124\ In 
March 2012, security officials in Biru detained five Tibetan 
men for planning a protest to demand, among other things, ``the 
reopening of monasteries with full rights given to monks to 
study and practice religion.'' \125\
    Monastic legal education. As of May 2012, ``rule-of-law 
propaganda-themed education activities'' were underway in 
monastic institutions throughout the TAR.\126\ Pema Choling 
(Baima Chilin), Chairman of the TAR People's Government and 
Deputy Secretary of the TAR Party Committee, told a conference 
the education campaign guides monks and nuns ``to love the 
country, love religion, abide by the law, forsake evil and 
promote harmony, and pray for peace.'' \127\

                       Status of Tibetan Culture


               PARTY OFFICIAL FAVORS ETHNIC ASSIMILATION

    This past year, the Chinese Communist Party and government 
increased pressure on and interference with the Tibetan 
people's aspiration to preserve the viability and vibrancy of 
their culture and language. Zhu Weiqun, UFWD Executive Deputy 
Head and Director of the Party's General Office of the Central 
Coordinating Group for Tibet Affairs,\128\ wrote in a February 
13, 2012, article that he favors ending or changing some 
policies that have the potential to benefit ethnic minority 
cultures. Instead, Zhu advocated ethnic ``amalgamation.'' \129\ 
His views, if implemented, could adversely affect the Tibetan 
people's cultural and linguistic identity and further deepen 
resentment against the government. Zhu's suggestions included:

        <bullet> Promoting the assimilation of ethnic minority 
        groups as ``natural amalgamation''; \130\
        <bullet> Establishing no further ethnic autonomous 
        areas; \131\
        <bullet> Ending inclusion of ethnic information on 
        household registration (hukou) cards; \132\
        <bullet> ``Desegregating'' education (i.e., ending 
        minority-language education programs); \133\ and
        <bullet> ``Popularizing'' the spoken and written use of 
        Mandarin Chinese ``without fail.'' \134\

    Zhu did not suggest ending the system of ethnic autonomy 
established under the PRC Constitution \135\ and the PRC 
Regional Ethnic Autonomy Law (REAL),\136\ or comment on whether 
reducing ethnic rights would require amending the Constitution 
or REAL.
    On February 23, academic experts on ethnic minority issues 
convened a symposium in Beijing under the auspices of the 
Chinese Academy of Social Sciences to discuss ``current hot-
button ethnic theoretical and practical issues.'' \137\ A 
published summary of symposium views referred to a ``leading 
cadre''--likely Zhu--and warned of increasing risks posed by 
the declining status of ethnic minority affairs:

          The blind spot in knowledge, the erroneous zone in 
        education, and the deficiency in mutual trust, which 
        can be seen everywhere across the ethnic spectrum in 
        today's China, are turning gradually into a social 
        governance tragedy.\138\

                  PARTY DEPLOYS TEAMS TO TAR VILLAGES

    As of March 2012, the TAR Party Committee had deployed 
teams of cadres to all 5,451 TAR village-level administrative 
entities to strengthen Party grassroots control.\139\ The 
measure was concurrent with the Party's establishment of 
Monastery Management Committees in TAR monasteries and 
nunneries [see above].\140\ The first-ever such deployment 
involved more than 21,000 cadres and will last at least through 
2014, according to Oezer (Weise), the Director of the TAR 
Supervision Department.\141\ TAR officials attending the 
National People's Congress in March told President and Party 
General Secretary Hu Jintao that the deployment educates 
Tibetans on ``indebtedness to the Party'' and ``further 
solidified the social foundation for . . . development and 
stability.'' \142\ TAR Party Secretary Chen Quanguo told a 
September 2011 teleconference prior to the deployment that the 
Party should ``thoroughly and meticulously carry out . . . the 
ideological work,'' ``strictly prevent the interference and 
involvement of hostile forces abroad and the Dalai clique,'' 
and ``insist on considering the work of safeguarding stability 
as a political task that overrides everything.'' \143\

                        ADDITIONAL DEVELOPMENTS

    Cultural advocates detained. This past year, public 
security officials detained Tibetan writers, entertainers, and 
cultural advocates including Lolo,\144\ Dawa Dorje,\145\ Urgyen 
Tenzin,\146\ Drubpa Kyab,\147\ Athar,\148\ Gyatso,\149\ 
Lhaten,\150\ Choepa Lugyal,\151\ and Choegon.\152\ A court 
sentenced Dawa.\153\
    Students protest language policy.\154\ On March 4, 2012, 
approximately 700 Tibetan middle-school students in Tongren 
(Rebgong) county, Huangnan (Malho) TAP, Qinghai province, 
protested against the replacement of Tibetan-language textbooks 
with Chinese-language textbooks.\155\ Approximately 2,500 
students in Tongren and Zeku (Tsekhog) county staged support 
protests.\156\ Officials told the Tongren middle-school 
students they would receive Tibetan-language textbooks in 
September.\157\ On March 14, students in Gangcha (Kangtsa) 
county, Haibei (Tsojang) TAP, Qinghai province, reportedly 
staged a protest calling for ``equality for languages.'' \158\ 
Authorities allegedly fired a Zeku education official and the 
heads of two Zeku middle schools, following the protests.\159\
    Private schools shut down, teachers detained. Qinghai 
officials reportedly closed a private school in Zaduo (Dzatoe) 
county, Yushu (Yushul) TAP, on February 12, 2012, and detained 
the director, Lama Gewa, on March 8.\160\ Sichuan public 
security officials shut down a private school in Ganzi (Kardze) 
county, Ganzi TAP, that reportedly was established with 
official approval in the late 1980s, and detained the director, 
Nyandrag, and a teacher, Yama Tsering.\161\ Gansu officials in 
early May closed a private orphanage school in Luqu (Luchu) 
county, Gannan (Kanlho) TAP, and detained two teachers, Sanggye 
Dondrub and Jamyang.\162\

             Economic Development Policy and Implementation

    The Chinese Communist Party and government continued to 
impose ``adherence to a development path with Chinese 
characteristics and Tibetan traits,'' \163\ a policy the 
Standing Committee of the Political Bureau of the Party Central 
Committee established at the January 2010 Fifth Tibet Work 
Forum.\164\ The policy subordinates Tibetan culture and 
aspirations to Party economic, social, and political 
objectives.\165\ TAR Party Secretary Chen Quanguo said in his 
November 2011 report to the TAR Party Congress that development 
is ``the foundation on which to resolve all of Tibet's 
problems.'' \166\ Zhu Weiqun in his February 2012 article 
articulated views on how the Party should use development 
initiatives to transform ethnic minority areas demographically, 
socially, and politically.\167\ Development plans, among other 
things, should:

        <bullet> Promote ``consolidating national unification 
        and central authority''; \168\
        <bullet> Promote the trend of ``mixed habitation'' 
        among ethnic groups and ``make it irreversible''; \169\
        <bullet> Focus on geographic factors, not support for a 
        specific ethnic group, and thereby ``produce different 
        results in social and political direction''; \170\ and
        <bullet> Consider how every economic investment in 
        ethnic minority areas can ``produce economic and 
        political results.'' \171\

                     UPDATES ON DEVELOPMENT TOPICS

    Railroad construction. The government provided construction 
updates on some segments of the railway network planned to 
crisscross the Tibetan plateau by 2020.\172\

        <bullet> Sichuan-Tibet railway, Yunnan-Tibet railway. 
        In November 2011, Chen Quanguo called for acceleration 
        of work on both railways.\173\
        <bullet> Lhasa-Linzhi (Nyingtri) railway. In April 
        2012, TAR officials met with Ministry of Railways 
        officials and called for starting construction in 2012 
        of the eastbound segment from Lhasa to Linzhi \174\ 
        that would be part of the Sichuan-Tibet railway and the 
        Yunnan-Tibet railway.\175\
        <bullet> Lhasa-Rikaze (Shigatse) railway. A TAR 
        official said in January 2012 that the westbound 
        segment from Lhasa to Rikaze would be complete by 
        2015.\176\ A September 2011 report stated that service 
        would begin in 2014 \177\ (the initial date was 2010 
        \178\). An April 2012 report implied labor problems on 
        the project,\179\ and a November 2011 report referred 
        to China's railway construction as ``cash-starved.'' 
        \180\
        <bullet> Chengdu-Lanzhou railway. In March 2012, the 
        Aba (Ngaba) T&QAP government reported funding was 
        available to start construction of the Aba section of 
        the ``Cheng-Lan'' railway.\181\ The line will traverse 
        Mao, Songpan (Zungchu), and Jiuzhaigou counties in 
        Aba,\182\ and Zhouqu (Drugchu) county in Gannan 
        (Kanlho) TAP, Gansu province.\183\

    Forced settlement. State-run media reported in January 2012 
that 1.85 million herdsmen had been settled in the TAR by 
2011.\184\ An August 2011 central government opinion on 
``development'' of pastoral areas called for settlement of all 
herders nationwide and provision of public services to them to 
be ``basically'' accomplished by 2015 and ``fully improved'' by 
2020.\185\
    Environmental protest. Tibetans continued to protest 
against development initiatives they consider harmful to the 
environment. In February 2012, public security officials 
reportedly detained ``activists'' Lubum, Dawa, and Dragpa, 
members of an environmental protection group in Daofu (Tawu) 
county, Ganzi TAP, Sichuan province.\186\ In March, posters 
appeared in Henan (Yulgan) Mongol Autonomous County, Huangnan 
(Malho) TAP, Qinghai province, calling for, among other things, 
the Tibetan environment's preservation.\187\

         Summary: Tibetan Political Detention and Imprisonment

    As of September 1, 2012, the Commission's Political 
Prisoner Database (PPD) contained 1,312 records of Tibetan 
political prisoners detained on or after March 10, 2008--a 
figure certain to be far from complete.
    Among the 1,312 PPD records of Tibetan political detentions 
reported since March 2008 are 21 Tibetans ordered to serve 
reeducation through labor (17 are believed released upon 
completion of their terms), and 237 Tibetans whom courts 
sentenced to periods of imprisonment ranging from six months to 
life (101 are believed released upon completion of their 
sentences). Of the 237 Tibetan political prisoners sentenced to 
imprisonment since March 2008, sentencing information is 
available for 224 prisoners: The average sentence length is 
five years and one month based on PPD data as of September 1, 
2012.\188\

          CURRENT TIBETAN POLITICAL DETENTION AND IMPRISONMENT

    As of September 1, 2012, the PPD contained records of 626 
Tibetan political prisoners believed or presumed to be 
currently detained or imprisoned. Of those records, 597 are of 
Tibetans detained on or after March 10, 2008; \189\ 29 are 
records of Tibetans detained prior to March 10, 2008. PPD 
information for the period since March 2008 is far from 
complete.
    Of the 597 Tibetan political prisoners believed or presumed 
currently detained or imprisoned and who were detained on or 
after March 10, 2008, according to PPD data as of September 1, 
2012:

        <bullet> 283 (47 percent) are Tibetan Buddhist monks, 
        nuns, teachers, or trulkus.
        <bullet> 517 (87 percent) are male, 55 (9 percent) are 
        female, and 25 are of unknown gender.
        <bullet> More than half (308) are believed or presumed 
        to be detained or imprisoned in Sichuan province; the 
        rest are believed or presumed to be detained or 
        imprisoned in the Tibet Autonomous Region (188), 
        Qinghai province (66), Gansu province (33), the 
        Xinjiang Uyghur Autonomous Region (1), and Beijing 
        municipality (1).
        <bullet> 140 Tibetan political prisoners reportedly 
        were sentenced to periods of imprisonment (136 persons) 
        or reeducation through labor (4 persons) ranging from 
        one year and six months to life. Sentencing information 
        is available for 130 of the prisoners: the average 
        sentence is seven years.\190\ Sixty-five (50 percent) 
        of the prisoners with known sentences are Tibetan 
        Buddhist monks, nuns, teachers, or trulkus.

    Sentencing information is available on 23 of the 29 Tibetan 
political prisoners detained prior to March 10, 2008, and 
believed currently imprisoned. Their sentences range from 5 
years to life imprisonment; the average is 14 years and 6 
months.\191\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                VI. Developments in Hong Kong and Macau


                               Hong Kong


                         ELECTIONS IN HONG KONG

    During the Commission's 2012 reporting year, Hong Kong held 
the first election of members of the Legislative Council 
(LegCo) and selection of the new Chief Executive (CE) under the 
2011 electoral reforms. The Hong Kong Legislative Council 
(LegCo) passed legislation in 2011 implementing the reforms, 
which broadened the electoral base somewhat for the 2012 
election of LegCo by adding 10 new members to the previous 60-
member council, and increased the membership of the selection 
committee that chooses the CE from 800 to 1,200.\1\ Of the 10 
new LegCo members, 5 were elected by geographical 
constituencies and 5 through a newly formed territory-wide 
District Council constituency.\2\ These reforms fell short of 
provisions in the Hong Kong Basic Law which state, ``The 
ultimate aim is the selection of the Chief Executive by 
universal suffrage upon nomination by a broadly representative 
nominating committee in accordance with democratic 
procedures''; and ``The ultimate aim is the election of all the 
members of the Legislative Council by universal suffrage.'' \3\
    On March 25, 2012, the 1,200-member selection committee 
chose Leung Chun-ying (C Y Leung) as Hong Kong's next CE, in a 
process characterized by ``chaos and scandal-mongering'' \4\ 
and that the Wall Street Journal described as ``an unusually 
colorful brawl.'' \5\ The selection of the CE is inherently 
non-democratic in that an unelected 1,200-member selection 
committee (out of a population of over 7 million) chooses the 
CE.\6\ The selection process was characterized by extensive 
interference by the mainland government, which initially 
supported Henry Tang, the former chief secretary.\7\ Tang was 
involved in a series of scandals, which had a negative impact 
on his public support.\8\ The mainland government shifted its 
support to Leung, long considered a ``closet Communist,'' 
according to the Economist.\9\ A few weeks before the 
selection, a ``source from Beijing'' predicted the result, 
saying that Xi Jinping--likely incoming president of China and 
the Beijing official in charge of Hong Kong affairs at the 
time--had determined that Leung would get over 700 votes, Tang 
200, and Democratic Party candidate Albert Ho 100, remarkably 
close to the final tally.\10\ Disregarding the principle of 
``one country, two systems,'' the central government 
communicated with members of the selection committee that they 
should vote for Leung.\11\
    On September 9, 2012, Hong Kong held its first LegCo 
election since the reforms. In the election, democracy 
advocates won three of the five seats created under Hong Kong's 
2011 legislative reforms, retaining the one-third of the seats 
needed to block ``fundamental changes'' in Hong Kong laws.\12\ 
This may be critical as LegCo considers legislation for the 
2017 elections.\13\ The more radical group of democracy 
advocates added seats, while the more traditional Democratic 
Party lost seats.\14\ Pro-Beijing parties gained seats as well, 
potentially leading to legislative gridlock.\15\
    In the face of tens of thousands of protesters and on the 
eve of the LegCo elections, on September 8, C Y Leung removed 
the requirement that by 2015 Hong Kong schools start teaching a 
Beijing-backed national education curriculum that one article 
characterized as ``contemporary Chinese history with a heavy 
dose of nationalism and a favorable interpretation of the 
Communist Party's role . . ..'' \16\ Tens of thousands of 
protestors had demonstrated for nine consecutive days, and 
emigrant groups staged protests overseas.\17\ Reportedly, there 
were even signs the activism could spread to the mainland.\18\
    The protests started in July, when thousands took part in 
demonstrations against the controversial plan.\19\ In August, 
some Hong Kong students and teachers commenced a hunger strike 
to protest the plan.\20\ Former chief executive Donald Tsang 
initiated the plan in 2010,\21\ which the People's Daily 
defended as in keeping with international practice of 
``patriotic education.'' \22\ However, in an editorial in the 
New York Times, one parent who took part in a demonstration 
against the plan in July 2012 described the new curriculum as a 
``one-sided, totally positive portrayal of Communist Party 
rule. . . .'' \23\ An editorial in the Party-controlled Global 
Times refuted claims that the plan constitutes 
``brainwashing.'' \24\ Notwithstanding Leung's September 8 
retreat, protests continued, with students from several Hong 
Kong tertiary institutions boycotting classes on September 11, 
indicating that Leung's concessions were not enough, and 
demanding that the curriculum be removed completely.\25\

                      ACTIVE DISSENT IN HONG KONG

    During this reporting year, Hong Kong citizens have 
continued to express their dissent. A few weeks before the 
selection of the Chief Executive (CE), thousands took part in 
``fiery protests'' against then-CE Donald Tsang and the process 
by which his replacement was to be selected.\26\ Pro-democracy 
protesters demonstrated against the selection of C Y Leung as 
CE.\27\ Tens of thousands of people attended the 2012 annual 
vigil commemorating the 1989 Tiananmen protests, more than the 
number who attended in 2011,\28\ and tens of thousands 
protested the government's proposed national education plan. 
[See above.]

                         FREEDOM OF EXPRESSION

    Press freedom reportedly deteriorated in Hong Kong in 2011. 
According to non-governmental organization Reporters Without 
Borders' 2011-2012 report, Hong Kong's Press Freedom Index 
ranking dropped from 34th in 2010 to 54th in 2011, out of 179 
countries.\29\ The report noted, ``Arrests, assaults and 
harassment worsened working conditions for journalists to an 
extent not seen previously, a sign of worrying change in 
government policy.'' \30\ (For comparison, the United States 
dropped from 20th to 47th during the same period because of 
actions during protests, and China dropped from 171st to 
174th.) \31\ U.S.-based Freedom House in its 2012 Global Press 
Freedom Rankings listed Hong Kong as ``partly free.'' \32\ In 
an April 2012 survey by the Hong Kong University public opinion 
program, half the 1,012 respondents thought the media practiced 
self-censorship, but saw the media as more willing to criticize 
the Hong Kong government than the central government.\33\ 
According to Mak Yin Ting, chair of the Hong Kong Journalists 
Association, in a survey of journalists in Hong Kong, 87 
percent said press freedom had deteriorated since 2007.\34\ Mak 
cited a number of causes, including government control of 
information, rough treatment of reporters, denial of media 
access to events, restrictions on movement around government 
offices, self-censorship, and censorship by media outlets, many 
of the owners of which have business interests in the mainland.

                                 Macau


        ABILITY OF MACAU CITIZENS TO INFLUENCE THEIR GOVERNMENT

    During this reporting year, there was some discussion 
concerning electoral reforms in Macau, but no real progress 
toward universal suffrage or greater participation by the 
people of Macau in the political process. As is the case in 
Hong Kong, the ability of the people of Macau to influence 
their government is restricted by the territory's 
constitutional system. Under Macau's system, prior to reforms 
approved this year [see below], the chief executive (CE) is 
selected by a 300-person committee, and only 12 of 29 seats in 
the Legislative Assembly (AL) are filled by direct 
election.\35\ In November 2011, Macau's Chief Executive 
Fernando Chui Sai On raised the possibility of reform in his 
annual policy address, saying that the government would ``put 
forward proposals on need for and possible change to the 
composition of 5th Legislative Assembly (AL) in 2013 and the 
way to elect the fourth Chief Executive in 2014.'' \36\
    Some assembly members' initial responses to Chui's remarks 
were positive.\37\ After obtaining guidance from the mainland 
National People's Congress (NPC),\38\ in January 2012, the 
Macau government held a consultation exercise--which some civil 
groups criticized as flawed and one group said was manipulated 
to ``fabricate'' public opinion--for reporting to the NPC.\39\ 
The ``consultation'' consisted of eight sessions, only one of 
which was open to the public.\40\ During the consultation, 
speakers at some sessions called for greater suffrage or other 
changes such as greater transparency in the selection of 
appointed lawmakers, and others said the current system should 
remain unchanged.\41\
    After this first consultation exercise, Chui submitted a 
proposal to the NPC Standing Committee to increase the number 
of seats in the CE selection committee and the number of 
directly elected seats in the AL, which the NPC approved in 
March.\42\ Mainland officials made clear, however, that any 
changes must be in keeping with the Macau Basic Law, which has 
no provision for direct election of the CE or timetable for 
democratic reform.\43\ The Macau government held a second 
consultation exercise, consisting of 10 meetings, 3 of which 
were open to the public.\44\ Like the first consultation, the 
second was severely flawed. According to one Macau lawmaker, 
the process was ``manipulated'' \45\ to fabricate support for 
the government's proposal, which provided for the addition of 
two directly elected and two indirectly elected seats to the AL 
and an extra 100 members to the CE selection committee.\46\ On 
June 30, the NPC Standing Committee issued its approval.\47\ 
After ``long hours of debate,'' in August, Macau's Legislative 
Assembly approved bills making the changes,\48\ which one 
legislator had earlier described as ``democracy rolling back.'' 
\49\

                             VII. Endnotes

    <dagger>Voted to adopt: Representatives Smith, Wolf, Manzullo, 
Royce, Walz, Kaptur, and Honda; Senators Brown, Baucus, Levin, 
Feinstein, Merkley, Collins, and Risch; Deputy Secretary Harris, Under 
Secretary Otero, Under Secretary Sanchez, Assistant Secretary Campbell, 
and Assistant Administrator Biswal.

    Notes to Section I--Political Prisoner Database

    \1\ The Commission treats as a political prisoner an individual 
detained or imprisoned for exercising his or her human rights under 
international law, such as peaceful assembly, freedom of religion, 
freedom of association, free expression, including the freedom to 
advocate peaceful social or political change, and to criticize 
government policy or government officials. (This list is illustrative, 
not exhaustive.) In most cases, prisoners in the Political Prisoner 
Database were detained or imprisoned for attempting to exercise rights 
guaranteed to them by China's Constitution and laws, or by 
international law, or both. Chinese security, prosecutorial, and 
judicial officials sometimes seek to distract attention from the 
political or religious nature of imprisonment by convicting a de facto 
political or religious prisoner under the pretext of having committed a 
generic crime. In such cases defendants typically deny guilt but 
officials may attempt to coerce confessions using torture and other 
forms of abuse, and standards of evidence are poor. If authorities 
permit a defendant to entrust someone to provide him or her legal 
counsel and defense, as China's Criminal Procedure Law guarantees in 
Article 32, officials may deny the counsel adequate access to the 
defendant, restrict or deny the counsel's access to evidence, and not 
provide the counsel adequate time to prepare a defense.
    Notes to Section II--Freedom of Expression

    \1\ International Covenant on Civil and Political Rights (ICCPR), 
adopted by UN General Assembly resolution 2200A (XXI) of 16 December 
66, entry into force 23 March 76, art. 19(3); Universal Declaration of 
Human Rights, adopted and proclaimed by UN General Assembly resolution 
217A (III) of 10 December 48, arts. 19, 29. The UN Special Rapporteur 
on the Promotion and Protection of the Right to Freedom of Opinion and 
Expression has also used this three-factor test to describe the 
standard for determining when a restriction is permissible under 
Article 19, paragraph 3 of the ICCPR. UN Human Rights Council, Report 
of the Special Rapporteur on the Promotion and Protection of the Right 
to Freedom of Opinion and Expression, Frank La Rue, 16 May 11, A/HRC/
17/27, para. 24.
    \2\ UN GAOR, Hum. Rts. Coun., 12th Sess., Promotion and Protection 
of All Human Rights, Civil, Political, Economic, Social and Cultural 
Rights, Including the Right to Development, adopted by Human Rights 
Council resolution 12/16, A/HRC/RES/12/16, 12 October 09, para. 
5(p)(i).
    \3\ UN GAOR, Hum. Rts. Coun., 20th. Sess., Promotion and Protection 
of All Human Rights, Civil, Political, Economic, Social and Cultural 
Rights, Including the Right to Development, Agenda Item 3, A/HRC/20/
L.13, 29 June 12; ``Human Rights Council Backs Internet Freedom,'' 
Agence France-Presse, reprinted in Google, 5 July 12.
    \4\ See, e.g., David Bamman et al., ``Censorship and Deletion 
Practices in Chinese Social Media,'' First Monday, Vol. 17, No. 3, 5 
March 12; Josh Rudolph, ``Bloomberg Blocked After Revealing Xi Family 
Wealth,'' China Digital Times, 29 June 12; ``China Blocks Bloomberg 
Website After Report on Wealth of Next President's Extended Family,'' 
Associated Press, reprinted in Washington Post, 29 June 12; Anne 
Henochowicz, ``Ministry of Truth: Wang Lijun,'' China Digital Times, 10 
April 12; Anne Henochowicz, ``Directives From the Ministry of Truth, 
February 6-March 7, 2012,'' China Digital Times, 12 March 12.
    \5\ Article 19 in both the International Covenant on Civil and 
Political Rights (ICCPR), which China signed and has committed to 
ratify, and the Universal Declaration of Human Rights (UDHR), provide a 
general right to ``impart information and ideas through any media.'' 
Despite international human rights standards, Chinese authorities have 
a well-documented track record of censoring politically sensitive news 
reporting that should be protected under international law. While 
governments may, under Article 19, impose limited restrictions on free 
expression--if such restrictions are for the purpose of protecting the 
rights and reputations of others, national security or public order, or 
public health and morals--Article 19 does not allow Chinese officials 
to restrict expression for the purpose of preventing Chinese citizens 
from imparting information that the Chinese government or Communist 
Party deem to be politically sensitive for other reasons. China's 
Censorship of the Internet and Social Media: The Human Toll and Trade 
Impact, Hearing of the Congressional-Executive Commission on China, 17 
November 11, Testimony of Gilbert Kaplan, Partner, King & Spalding, 
President, Committee to Support U.S. Trade Laws.
    \6\ David Bandurski, ``China's Censors Turn on `Micro Films,''' 
China Media Project, 10 July 12.
    \7\ Laurie Burkit, ```Body Double' Blocked Online Amid Speculation 
About Gu Kailai,'' Wall Street Journal, 21 August 12.
    \8\ Anne Henochowicz, ``Directives From the Ministry of Truth, 
February 6-March 7, 2012,'' China Digital Times, 12 March 12; Joe 
McDonald and Didi Tang, ``Chen Guangcheng, Escaped Blind Activist, 
Censored by Chinese Government,'' Associated Press, reprinted in 
Huffington Post, 1 May 12; Reporters Without Borders, ``News Blackout 
on Wukan Revolt, Grip Tightens on Micro-Blogs,'' 16 December 11.
    \9\ ``Three People Punished for Spreading Rumors Online,'' Xinhua, 
25 October 11.
    \10\ Tania Branigan, ``China's Censors Tested by Microbloggers Who 
Keep One Step Ahead of State Media,'' Guardian, 15 April 12; Tania 
Branigan, ``Censorship in China: Crackdown on Bloggers as Rumours of 
Coup Swirl,'' Guardian, 31 March 12.
    \11\ ``Websites Closed, Six Detained for Spreading Rumors,'' 
Xinhua, 31 March 12.
    \12\ Priscilla Jiao, ``Microbloggers Back in Action,'' South China 
Morning Post, 4 April 12.
    \13\ See, e.g., Liang Chen, ``Blocking of Hepatitis B Website 
Raises Ire,'' Global Times, reprinted in People's Daily, 30 July 12; 
Loretta Chao, ``Beijing Cracks Down on Web Commentary To Quell 
Political Speculation,'' Wall Street Journal, 1 April 12; Keith B. 
Richburg, ``Amid Rumors of Unrest, China Cracks Down on the Internet,'' 
Washington Post, 31 March 12; UN GAOR, Hum. Rts. Coun., 20th. Sess., 
Promotion and Protection of All Human Rights, Civil, Political, 
Economic, Social and Cultural Rights, Including the Right to 
Development, Agenda Item 3, A/HRC/20/L.13, 29 June 12; ``Human Rights 
Council Backs Internet Freedom,'' Agence France-Presse, reprinted in 
Google, 5 July 12.
    \14\ State Administration of Radio, Film and Television, ``State 
Administration of Radio, Film and Television and the State Internet 
Information Office Jointly Issued a Circular To Guide and Regulate the 
Healthy Development of Online Dramas, Microfilms and Internet Video 
Programming'' [Guojia guangdian zongju he guojia hulianwang xinxi 
bangongshi lianhe xia fa tongzhi yindao he guifan wangluo ju, wei 
dianying deng wangluo shiting jiemu jiankang fazhan], 9 July 12; Josh 
Rudolph, ``SARFT Extends Internet Video Censorship,'' China Digital 
Times, 12 July 12; ``China Steps Up Online Video Regulation,'' Xinhua, 
reprinted in People's Daily, 10 July 12.
    \15\ State Administration of Radio, Film and Television (SARFT), 
``SARFT Spokesperson Answers Reporters' Questions on the `Circular To 
Further Strengthen Management of Online Dramas, Microfilms, and 
Internet Video Programming'' [Guangdian zongju xinwen fayanren jiu 
``guanyu jinyibu jiaqiang wangluo ju, wei dianying deng wangluo shiting 
jiemu guanli de tongzhi'' da jizhe wen], 9 July 12.
    \16\ Sun Li, ``Measures To Manage Online Programs,'' China Daily, 
10 July 12.
    \17\ David Bandurski, ``China's Censors Turn On `Micro Films,''' 
China Media Project, 10 July 12.
    \18\ Chinese Human Rights Defenders, ``China Human Rights Briefing 
Weekly May 29--June 4, 2012,'' 6 June 12.
    \19\ Chinese Human Rights Defenders, ``China Human Rights Briefing 
Weekly July 7--12, 2012,'' 13 July 12.
    \20\ Ibid.
    \21\ State Council, Measures for the Administration of Internet 
Information Services [Hulianwang xinxi fuwu guanli banfa], issued and 
effective 25 September 00, art. 15.
    \22\ See, e.g., a November 2010 China Daily article that notes the 
concerns of one Chinese professor, who said there is a need for 
specific laws to determine when citizens have ``spread rumors.'' Li 
Xinzhu, ``Latest Batch of Rogue Netizens Exposed,'' China Daily, 3 
November 10.
    \23\ State Council, Measures for the Administration of Internet 
Information Services [Hulianwang xinxi fuwu guanli banfa], issued and 
effective 25 September 00, arts. 15-16; Provisions on the 
Administration of Internet News Information Services [Hulianwang xinwen 
xinxi fuwu guanli guiding], issued 25 September 05, effective 25 
September 05, arts. 19-21.
    \24\ Alexa Olesen, ``Sina Weibo, China's Twitter, Leads Microblog 
Craze,'' Associated Press, reprinted in Huffington Post, 2 August 12; 
Human Rights Watch, ``World Report 2012: China,'' January 2012, 3.
    \25\ Gao Yuan, ``Rate of Rise in Web Use Falls,'' China Daily, 6 
February 12.
    \26\ Louisa Lim, ``Chinese Activists Turn to Twitter in Rights 
Cases,'' National Public Radio, 28 October 11.
    \27\ Chenda Ngak, ``China Shuts Down Twitter-Like Accounts Amid 
Political Scandal,'' CBS News, 25 April 12.
    \28\ Ralph Jennings, ``China Internet Users Use VPN Servers To 
Cross Firewall,'' Reuters, 28 January 10; Peter Simpson, ``Chinese 
Police Raid Home of Human Rights Activist Hu Jia,'' Telegraph, 12 
January 12.
    \29\ Andrew Phelps, Nieman Journalism Lab, ``Reverse Engineering 
Chinese Censorship: When and Why Are Controversial Tweets Deleted?'' 30 
May 12; Gary King et al., Harvard University, ``How Censorship in China 
Allows Government Criticism but Silences Collective Expression,'' 18 
June 12; David Bamman et al., ``Censorship and Deletion Practices in 
Chinese Social Media,'' First Monday, Vol. 17, No. 3, 5 March 12.
    \30\ Gary King et al., Harvard University, ``How Censorship in 
China Allows Government Criticism but Silences Collective Expression,'' 
18 June 12.
    \31\ Wang Zhen, ``Actively Launch Microblog Public Opinion Guidance 
Work'' [Jiji kaizhan weiboke yulun yindao gongzuo], People's Daily, 28 
November 11.
    \32\ ``210,000 Posts Removed, 42 Websites Closed in China Rumor 
Cleanup,'' Xinhua, 12 April 12.
    \33\ James T. Areddy, ``China Blasts High-Speed Rail System,'' Wall 
Street Journal, 29 December 11.
    \34\ ``Fury Over Gift of Buses,'' Radio Free Asia, 28 November 11.
    \35\ Reporters Without Borders, ``Beijing Tries To Suppress 
Information About Politically-Charged Affair,'' 13 April 12.
    \36\ Xinhua, the official state news agency, appeared to respond to 
certain microblog, or weibo, controversies, such as Wang Lijun's 
investigation in February 2012. See, e.g., ``Authorities Investigating 
Chongqing Vice Mayor's Entering Into U.S. Consulate,'' Xinhua, 9 
February 12.
    \37\ Dong Changqing, ``First Report on Ministries' Microblogging 
Operations Available'' [Shou fen buwei weibo yunying baogao mianshi], 
Beijing Daily, 25 August 12.
    \38\ Ibid.
    \39\ See, e.g., Wang Zhen, ``Actively Carry Out Microblog Public 
Opinion Guidance Work'' [Jiji kaizhan weiboke yulun yindao gongzuo], 
People's Daily, 28 November 11.
    \40\ PRC Central People's Government, ``Central Committee Decision 
Concerning the Major Issue of Deepening Cultural System Reforms, 
Promoting the Great Development and Prosperity of Socialist Culture'' 
[Zhongyang guanyu shenhua wenhua tizhi gaige ruogan zhongda wenti de 
jueding], passed 18 October 11.
    \41\ Beijing People's Municipal Government, Several Provisions on 
the Development and Management of Microblogs in Beijing Municipality 
[Beijing shi weiboke fazhan guanli ruogan guiding], issued and 
effective 17 December 11; ``Four Biggest Weibo Will All Require Real-
Name Registration by March 16; Unregistered Accounts Will Be Restricted 
from Posting and Reposting'' [Si da weibo 16 ri quanbu shiming zhuce 
wei shiming yonghu jiang jin fayan zhuanfa], Caijing, reprinted in 
Southern Metropolitan Daily, 7 February 12; Yang Jingjie, ``Real-Name 
Weibo Expanded,'' Global Times, 23 December 11; ``Beijing Requires Real 
Names in Microblog Registration,'' Xinhua, 16 December 11, For CECC 
analysis, see ``Chinese Authorities Implement Real Name Microblog 
Regulations,'' Congressional-Executive Commission on China, 10 May 12.
    \42\ Elaine Kurtenbach, ``China Looks To Boost Internet Limits on 
Microblogs,'' Associated Press, 7 June 12.
    \43\ Ibid.
    \44\ Josh Chin and Loretta Chao, ``Beijing Communist Party Chief 
Issues Veiled Warning to Chinese Web Portal,'' Wall Street Journal, 24 
August 11.
    \45\ ``China's Sina Weibo Unveils New Censorship System,'' Voice of 
America, 29 May 12; Michael Wines, ``Crackdown on Chinese Bloggers Who 
Fight the Censors With Puns,'' New York Times, 28 May 12; Josh Chin, 
``Censorship 3.0? Sina Weibo New `User Credit' Points System,'' Wall 
Street Journal, 29 May 12.
    \46\ China Internet Network Information Center, ``The 30th 
Statistical Report on Internet Development in China'' [Di 30 ci 
zhongguo hulianwangluo fazhan zhuangkuang tongji baogao], June 2012, 4.
    \47\ ``China Mobile Subscribers Rise 1.1 Pct to 1.02 Bln in 
April,'' Reuters, 21 May 12.
    \48\ Ministry of Industry and Information Technology, Internet 
Industry ``12th Five-Year Development Plan'' [Hulianwang hangye ``shier 
wu'' fazhan guihua], 18 October 11; ``Chinese Internet Users To Hit 
800m by 2015,'' Xinhua, reprinted in China Daily, 5 May 12.
    \49\ Ibid.
    \50\ State Council Information Office, ``National Human Rights 
Action Plan of China (2012-2015),'' 11 June 12, sec. I (6).
    \51\ ``China To Tighten Internet Control With New Rules,'' Agence 
France-Presse, 7 June 12.
    \52\ Guobin Yang, ``China's Gradual Revolution,'' New York Times, 
13 March 11; Keith B. Richburg, ``In China, Microblogging Sites Become 
Free-Speech Platform,'' Washington Post, 27 March 11; Li Yongchun, 
``Vacuum-Cleaning the Internet,'' Caixin, 13 July 12; Malcolm Moore, 
``China Cuts Off Internet Access in Bid To Exert Control,'' Telegraph, 
12 April 12; Canada Centre for Global Security Studies, Citizen Lab, 
``Casting a Wider Net,'' 11 October 11; Michael Wines, ``China's 
Censors Misfire in Abuse-of-Power Case,'' New York Times, 17 November 
10.
    \53\ See, e.g., Sui-Lee Wee, ``Writer Sentenced to 10 Years for 
Subversion,'' Reuters, reprinted in South China Morning Post, 19 
January 12; Human Rights in China, ``Dissident Zhu Yufu Sentenced to 
Seven Years for `Inciting Subversion,''' 10 February 12; ``Chinese 
Disabled Lawyer Ni Yulan Is Sentenced'' [Zhongguo canjiren lushi ni 
yulan bei panxing], Voice of America, 10 April 12.
    \54\ Chinese Human Rights Defenders, ``Dissident Zhu Yufu Sentenced 
to Seven Years for `Inciting Subversion' as Heavy Punishments 
Continue,'' 10 February 12.
    \55\ Chinese Human Rights Defenders, ``Chinese Dissident Zhu Yufu 
Tried for `Inciting Subversion,' No Verdict Announced,'' 31 January 12; 
Josh Rudolph, ``Zhu Yufu Sentenced to Seven Years,'' China Digital 
Times, 10 February 12.
    \56\ Chinese Human Rights Defenders, ``Dissident Zhu Yufu Sentenced 
to Seven Years for `Inciting Subversion' as Heavy Punishments 
Continue,'' 10 February 12.
    \57\ Chinese Human Rights Defenders, ``Chinese Democracy Activist 
Li Tie Jailed for Ten Years for `Subversion,''' 18 January 12; Damian 
Grammaticas, ``When Words Are Crimes in China,'' BBC, 19 January 12.
    \58\ PRC Criminal Law [Zhonghua renmin gongheguo xingfa], issued 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, art. 293.
    \59\ Josh Chin, ``Housing Rights Defender Jailed for 
`Disturbance,''' Wall Street Journal, 10 April 12; ``Court Jails 
Activist Lawyer, Husband,'' Radio Free Asia, 10 April 12; ``Chinese 
Disabled Lawyer Ni Yulan Criminally Sentenced'' [Zhongguo canji ren 
lushi ni yulan bei panxing], Voice of America, 9 April 12; Sui-Lee Wee, 
``China Rights Lawyer Jailed for 2 Years, 8 Months,'' Reuters, 
reprinted in New York Times, 10 April 12.
    \60\ Josh Chin and Olivia Geng, ``Housing Rights Defender Jailed 
for `Disturbance,''' Wall Street Journal, 10 April 12; ``Court Jails 
Activist Lawyer, Husband,'' Radio Free Asia, 10 April 12; ``Chinese 
Disabled Lawyer Ni Yulan Criminally Sentenced'' [Zhongguo canji ren 
lushi ni yulan bei panxing], Voice of America, 9 April 12; Sui-Lee Wee, 
``China Rights Lawyer Jailed for 2 Years, 8 Months,'' Reuters, 
reprinted in New York Times, 10 April 12.
    \61\ Damian Grammaticas, ``When Words Are Crimes in China,'' BBC, 
19 January 12; Jessica Colwell, ``China Christmas Crackdown on 
Activists Going Strong,'' Shanghaiist, 29 December 11; ``China Rights 
Situation Deteriorating, Say Activists,'' BBC, 9 March 12.
    \62\ See, e.g., ``Activist Released `Under Surveillance,''' Radio 
Free Asia, 2 December 11; Sui-Lee Wee, ``China's Ai Weiwei Threatened 
With Bigamy, Pornography Charges,'' Reuters, 21 June 12; ``Chinese 
Dissident Receives Second Subversion Conviction in 3 Years,'' 
Associated Press, 28 March 12.
    \63\ See, e.g., Chinese Human Rights Defenders, ``Communique on 
Behalf of Chen Xi, Citizen of the People's Republic of China, Alleging 
Arbitrary Arrest or Detention, and Violations of Right to Freedom of 
Expression and the Rights to Freedom of Peaceful Assembly and of 
Association,'' 27 March 12; Chinese Human Rights Defenders, 
``Communique on Behalf of Xie Fulin, Citizen of the People's Republic 
of China, Alleging Arbitrary Arrest or Detention, Torture, and 
Violation of Right to Freedom of Expression,'' 13 April 12; Zhou Yue, 
Chinese Human Rights Defenders, ``Panyu Public Security Bureau Refuses 
Lawyers' Visit to Xu Lin, Claiming Excuse of `Case Secrets''' [Panyu 
gong'an ju yi xu lin ``anjian she mi'' wei you jujue lushi huijian], 29 
May 12.
    \64\ See, e.g., ``Ai Weiwei: Foreign Travel Ban `Disappointing,''' 
BBC, 22 June 12; Chinese Human Rights Defenders, ``News: Rights 
Defenders Gu Chuan, Li Xin'ai Intercepted at Beijing International 
Airport'' [Kuaixun: weiquan renshi guchuan, li xin'ai zai beijing guoji 
jichang bei lanjie], 4 April 12; Human Rights in China, ``Dissident 
Writer-in-Exile Yu Jie Details Torture by Police,'' 18 January 12; 
``Chen Supporters Detained in Shandong,'' Radio Free Asia, 12 November 
11.
    \65\ Chinese Human Rights Defenders, ``China Human Rights Briefing 
March 13-19, 2012,'' 20 March 12; Chinese Human Rights Defenders, 
``Elections Expert Yao Lifa Faces Controls on Freedom for Over One 
Year, Has Blog Shut Down'' [Xuanju zhuanjia yao lifa bei xianzhi ziyou 
yi nian zhi jiu, boke zao fengsha], 14 March 12.
    \66\ Committee to Protect Journalists, ``Under Pressure at Home, 
Chinese Writer Chooses Exile,'' 13 January 12; Human Rights in China, 
``Dissident Writer-in-Exile Yu Jie Details Torture by Police,'' 18 
January 12; Verna Yu, ``Writer Flees to the US With His Family,'' South 
China Morning Post, 13 January 12; Chris Buckley, ``Chinese Christian 
Dissident Seeks U.S. Exile,'' Reuters, 13 January 12.
    \67\ Human Rights in China, ``Dissident Writer-in-Exile Yu Jie 
Details Torture by Police,'' 18 January 12.
    \68\ Jerome A. Cohen, U.S.-Asia Law Institute, New York University, 
School of Law, ``Incommunicado Detention in China,'' 18 April 12; 
``Artist Ai Weiwei: China Crushes Dissenting Voices,'' Associated 
Press, reprinted in Fox News, 11 June 12; Edward Wong, ``First a Black 
Hood, Then 81 Captive Days for an Artist in China,'' New York Times, 26 
March 12.
    \69\ Edward Wong, ``First a Black Hood, Then 81 Captive Days for an 
Artist in China,'' New York Times, 26 March 12.
    \70\ Ibid.
    \71\ ``China Artist Ai Weiwei's Tax Evasion Appeal Rejected,'' BBC, 
20 July 12; Tania Branigan, ``Artist Ai Weiwei Released on Bail, 
Chinese Police Say,'' Guardian, 22 June 11. For examples of official 
criticism of Ai Weiwei, see ``Ai Weiwei's Tax Evasion Case Takes a New 
Twist,'' Global Times, 7 November 11; Alexis Lai, ``Chinese Artist Ai 
Weiwei Places Himself Under Home Surveillance,'' CNN, 5 April 12; 
``Artist Ai Weiwei: China Crushes Dissenting Voices,'' Associated 
Press, 11 June 12.
    \72\ Ai Weiwei, ``Ai Weiwei's Message for Art & Cinema for Peace,'' 
Cinema for Peace Foundation, reposted on Youtube, 11 June 12; ``Artist 
Ai Weiwei: China Crushes Dissenting Voices,'' Associated Press, 11 June 
12.
    \73\ Steven L. Meyers and Mark Landler, ``Behind Twists of 
Diplomacy in the Case of a Chinese Dissident,'' New York Times, 9 May 
12; ``Chen Guangcheng Escapes House Arrest,'' Radio Free Asia, 27 April 
12; Bo Gu, ``Blind Chinese Activist Chen Guangcheng Escapes From House 
Arrest,'' NBC News, 27 April 12; Helier Cheung, ``Activists Debate 
China Lawyer Chen Guangcheng's Escape,'' BBC, 27 April 12.
    \74\ Anne Henochowicz, ``Sensitive Words: Chen Guangcheng,'' China 
Digital Times, 7 May 12; Steven Jiang, ``Chinese Censors Block News on 
Blind Activist's Escape,'' CNN, 30 April 12.
    \75\ Steven Jiang, ``Chinese Censors Block News on Blind Activist's 
Escape,'' CNN, 30 April 12.
    \76\ Joe McDonald and Didi Tang, ``Chen Guangcheng, Escaped Blind 
Activist, Censored by Chinese Government,'' Associated Press, reprinted 
in Huffington Post, 1 May 12.
    \77\ David Bandurski, ``Chen Guangcheng and the Riddle of the Mouse 
and Mole,'' China Media Project, 28 April 12.
    \78\ Helier Cheung, ``Activists Debate China Lawyer Chen 
Guangcheng's Escape,'' BBC, 27 April 12; Kate Woodsome, ``Chen 
Guangcheng Pop Art Goes Viral,'' Voice of America, 3 May 12.
    \79\ UN Human Rights Council, ``Tenth Anniversary Joint 
Declaration: Ten Key Challenges to Freedom of Expression in the Next 
Decade,'' Addendum to Report of the Special Rapporteur on the Promotion 
and Protection of the Rights to Freedom of Opinion and Expression, 25 
March 10, A/HRC/14/23/Add. 2, art. 1(a).
    \80\ Reporters Without Borders, ``Press Freedom Index 2011/2012.''
    \81\ J. David Goodman, ``Journalists Should Be Government 
Mouthpieces, Chinese Media Leader Says,'' New York Times, 5 December 
11.
    \82\ J. David Goodman, ``Journalists Should Be Government 
Mouthpieces, Chinese Media Leader Says,'' New York Times, 5 December 
11; ``China Web Users Criticise New State TV Boss,'' Agence France-
Presse, reprinted in Google News, 4 December 11; Malcolm Moore, 
``Chinese Journalists Must Be `Mouthpieces' of the State,'' Telegraph, 
5 December 11.
    \83\ David Bandurski, ``Goebbels in China?'' China Media Project, 5 
December 11.
    \84\ See, e.g., Zhou Hua, ``The Construction of Journalistic Ethics 
Must Strengthen Self-Discipline and Regulatory Mechanisms'' [Xinwen 
zhiye daode jianshe yao qianghua zilu he jianguan jizhi], Guangming 
Daily, 21 November 11; Chang Shi, ``Singing the Main Melody Is the 
Social Responsibility of the Chinese Media'' [Chang xiang zhuxuanlu shi 
zhongguo meiti de shehui zeren], Beijing Daily, 18 May 12.
    \85\ Chang Shi, ``Singing the Main Melody Is the Social 
Responsibility of the Chinese Media'' [Chang xiang zhuxuanlu shi 
zhongguo meiti de shehui zeren], Beijing Daily, 18 May 12.
    \86\ For an English translation of Chang Shi's Beijing Daily 
editorial, see David Bandurski, ``Who Is Beijing Daily Speaking for?'' 
China Media Project, 18 May 12; Chang Shi, ``Singing the Main Melody Is 
the Social Responsibility of the Chinese Media'' [Chang xiang zhuxuanlu 
shi zhongguo meiti de shehui zeren], Beijing Daily, 18 May 12.
    \87\ State Council Information Office, ``National Human Rights 
Action Plan of China (2012-2015),'' 11 June 12, sec. I(7).
    \88\ International Federation of Journalists, ``Chinese 
Investigative Journalist Forced To Resign,'' 16 November 11.
    \89\ Ibid.
    \90\ Pi Ai'er, ``Caijing Dismisses Reporter Yang Haipeng Due to 
Political Pressure'' [Caijing zazhi yin zhengzhi yali jiepin jizhe yang 
haipeng], Deutsche Welle, 14 November 11; International Federation of 
Journalists, ``Chinese Investigative Journalist Forced To Resign,'' 16 
November 11.
    \91\ Reporters Without Borders, ``TV Presenter Suspended After 
Microblog Warning About Tainted Gelatine,'' 25 April 12.
    \92\ David Bandurski, ``No Power for Media, No Power for 
Citizens,'' China Media Project, 3 July 12; ``China Fires Journalist, 
Blocks Agency,'' Radio Free Asia, 3 July 12; Reporters Without Borders, 
``Authorities Extend Censorship, Step Up Reprisals Against 
Dissidents,'' 3 July 12.
    \93\ ``China Editors Removed Ahead of Leadership Change,'' Agence 
France-Presse, 19 July 12; David Bandurski, ``Top Editor Reshuffled at 
Guangzhou Paper,'' China Media Project, 17 July 12; ``China Removes Top 
Editors,'' Radio Free Asia, 18 July 12.
    \94\ He Qinglian, The Fog of Censorship: Media Control in China 
(New York: Human Rights in China, 2008), 25.
    \95\ Provisions on the Administration of Internet News Information 
Services [Hulianwang xinwen xinxi fuwu guanli guiding], issued and 
effective 25 September 05, arts. 7, 8, 11; Regulations on the 
Administration of Publishing [Chuban guanli tiaoli], issued 25 December 
01, effective 1 February 02, art. 15; Measures for Administration of 
News Reporter Cards [Xinwen jizhe zheng guanli banfa], issued 24 August 
09, effective 15 October 09, arts. 11, 12, 16.
    \96\ Zhejiang Province Radio, Film and Television Bureau, ``2010 
Nationwide Radio and Television Editors and Reporters, Broadcasters, 
and Hosts Qualification Exam'' [2010 nian quanguo guangbo dianshi 
bianji jizhe, boyin yuan zhuchi ren zige kaoshi dagang], 30 July 10, 
chap. 2, art. 6.
    \97\ General Administration of Press and Publication, ``Several 
Provisions To Prevent and Guard Against False Reporting'' [Guanyu 
yanfang xujia xinwen baodao de ruogan guiding], 19 October 11, art. 
1(4); Michael Wines, ``China Rolls Out Tighter Rules on Reporting,'' 
New York Times, 11 November 11.
    \98\ Ibid., art. 2(3); Michael Wines, ``China Rolls Out Tighter 
Rules on Reporting,'' New York Times, 11 November 11.
    \99\ Ibid., art. 3(3). For CECC analysis, see ``Chinese Authorities 
Issue Regulations To Control Journalists and `Unverified Reports,''' 
Congressional-Executive Commission on China, 8 May 12.
    \100\ Priscilla Jiao, ``Crackdown on Use of Online News Sources,'' 
South China Morning Post, 11 November 11.
    \101\ Committee to Protect Journalists, ``International Journalists 
Attacked While Covering Land Dispute,'' 17 February 12.
    \102\ ``Foreign Correspondents' Club in China Warns Reporters,'' 
BBC, 20 February 12.
    \103\ J. David Goodman, ``Western Journalists Attacked in Chinese 
Village Amid Unrest,'' New York Times, 16 February 12; ``Foreign 
Correspondents' Club in China Warns Reporters,'' BBC, 20 February 12.
    \104\ Foreign Correspondents' Club, Hong Kong, ``Foreign 
Correspondents' Clubs in China Jointly Express Extreme Concern Over 
Abuse of Journalists,'' 21 August 12.
    \105\ Ibid.
    \106\ ``Al Jazeera English Forced Out of China,'' Al Jazeera, 9 May 
12.
    \107\ Foreign Correspondents' Club of China, ``Correspondent 
Expelled,'' 8 May 12.
    \108\ Ibid.
    \109\ Michael Wines, ``China Expels Al Jazeera English-Language 
Channel,'' New York Times, 7 May 12.
    Notes to Section II--Worker Rights

    \1\ PRC Constitution, issued 4 December 82, amended 12 April 88, 29 
March 93, 15 March 99, 14 March 04, art. 35.
    \2\ PRC Trade Union Law [Zhonghua renmin gongheguo gonghui fa], 
enacted and effective 3 April 92, amended 27 October 01, arts. 4, 11-
13; Constitution of the Chinese Trade Unions [Zhongguo gonghui 
zhangcheng], adopted 26 September 03, amended 21 October 08, General 
Principles.
    \3\ Constitution of the Chinese Trade Unions [Zhongguo gonghui 
zhangcheng], adopted 26 September 03, amended 21 October 08, General 
Principles.
    \4\ For example, during the past year, ACFTU Chairman Wang Zhaoguo 
was concurrently a member of the Political Bureau of the Communist 
Party Central Committee. See All-China Federation of Trade Unions, 
``Wang Zhaoguo, ACFTU Chairman'' [Wang zhaoguo, quanguo zong gonghui 
zhuxi], last visited 14 June 12.
    \5\ PRC Trade Union Law [Zhonghua renmin gongheguo gonghui fa], 
enacted and effective 3 April 92, amended 27 October 01, art. 4; 
Constitution of the Chinese Trade Unions [Zhongguo gonghui zhangcheng], 
adopted 26 September 03, amended 21 October 08, General Principles.
    \6\ Jiang Zijian and Xu Kun, ``Over Ten Shenzhen Labor NGOs 
Experience `Unusual Time' '' [Shenzhen shi yu jia laogong NGO zaoyu 
``teshu shiqi''], New Business Weekly, reprinted in QQ, 21 August 12; 
Chinese Human Rights Defenders, ``China Human Rights Briefing June 12-
19, 2012,'' 20 June 12; Zhang Zhiru, ``Guangdong Labor NGOs Face Big 
Purge, Government Equally Incorporates With One Hand and Suppresses 
With the Other'' [Guangdong laogong NGO mianlin dazhengsu, zhengfu 
shoubian he daya liang shou bingzhong], China Worker Rights Net, 8 June 
12. For more information, see Fiona Tam, ``Guangdong Shuts Down at 
Least Seven Labour NGOs,'' South China Morning Post, 27 July 12.
    \7\ Zhang Zhiru, ``Guangdong Labor NGOs Face Big Purge, Government 
Equally Incorporates With One Hand and Suppresses With the Other'' 
[Guangdong laogong NGO mianlin dazhengsu, zhengfu shoubian he daya 
liang shou bingzhong], China Worker Rights Net, 8 June 12.
    \8\ Jiang Zijian and Xu Kun, ``Over Ten Shenzhen Labor NGOs 
Experience `Unusual Time' '' [Shenzhen shi yu jia laogong NGO zaoyu 
``teshu shiqi''], New Business Weekly, reprinted in QQ, 21 August 12.
    \9\ Deng Jingyin, ``Forced To Close, NGOs Win Sympathy,'' Global 
Times, 10 September 12; ``Many Shenzhen Labor Rights NGOs Are Forced To 
Move Following Inspections'' [Shenzhen duojia laogong weiquan jigou zao 
jiancha hou bei qiangzhi yaoqiu banqian], Radio Free Asia, 10 September 
12.
    \10\ ``Provincial Union Leads Construction of First Worker Service 
Hub Social Organization'' [Sheng zong gonghui qiantou goujian shou ge 
zhigong fuwu lei shuniu xing shehui zuzhi], Southern Daily, 17 May 12.
    \11\ Chinese Human Rights Defenders, ``China Human Rights Briefing 
June 12-19, 2012,'' 20 June 12.
    \12\ See, e.g., Zhang Lu, ``Shanghai Federation of Trade Unions 
Formulates the Construction of a Harmonious Labor Relations `Progress 
Schedule' '' [Shanghai gonghui zhiding goujian hexie laodong guanxi 
``jindu biao''], Workers' Daily, 6 June 12; Zhao Xiaozhan, ``Face to 
Face, Heart to Heart, Honest Services for Workers at the Grassroots 
Level: Xinjiang Federation of Trade Unions Large-Scale Investigations, 
Large-Scale Visits To Solve Conflicts in Labor Relations'' 
[Mianduimian, xintiexin, shidashi fuwu zhigong zai jiceng: xinjiang 
gonghui da paicha da zoufang huajie laodong guanxi maodun], Workers' 
Daily, 5 June 12; Wu Zhiqiang, ``Relevant State Ministries and 
Committees Investigate the Situation of Baiyin City Creating Events To 
Construct Harmonious Labor Relations in the Taxi Industry'' [Guojia 
xiangguan buwei diaoyan wo shi chuzuche hangye goujian hexie laodong 
guanxi chuangjian huodong qingkuang], Baiyin Daily, reprinted in Baiyin 
Municipal People's Government, 25 May 12; Xiao Yubao, ``Zhang Guangmin, 
Vice Head of the Fujian Provincial People's Congress Standing Committee 
and Chairman of the Provincial Federation of Trade Unions, Proposes 
That Union Cadres Must Be Deep Feeling, Thorough, and Deep Going'' 
[Fujian sheng renda changweihui fu zhuren, sheng zong gonghui zhuxi 
zhang guangmin tichu gonghui ganbu yao shenqing shenru shengeng], 
Worker's Daily, 21 May 12.
    \13\ Collective Bargaining Forum, ``LGD (Nanjing) Strike Incident 
Investigative Report'' [LGD (Nanjing) bagong shijian diaoyan baogao], 3 
May 12.
    \14\ Ibid.
    \15\ Fair Labor Association, ``Independent Investigation of Apple 
Supplier, Foxconn,'' March 2012, 10.
    \16\ ``Launching Special Research Into Collective Contracting 
Legislation,'' Legal Daily, 28 May 12.
    \17\ See, e.g., PRC Labor Contract Law [Zhonghua renmin gongheguo 
laodong hetong fa], issued 29 June 07, effective 1 January 08, art. 51.
    \18\ Simon Clarke et al., ``Collective Consultation and Industrial 
Relations in China,'' British Journal of Industrial Relations, Vol. 42, 
No. 2 (2004), 238-40.
    \19\ Ibid.
    \20\ ``Shenzhen To Initiate Direct Union Elections at 163 
Enterprises, ACFTU Says Will Become the Norm'' [Shenzhen jiang qidong 
163 jia qiye gonghui zhixuan, zong gonghui cheng jiang changtaihua], 
Southern Metropolitan Daily, 28 May 12; China Labour Bulletin, 
``Shenzhen Trade Union Promises More Direct Elections,'' 28 May 12; 
China Labour Bulletin, ``Stirrings of Democracy at a Shenzhen 
Factory,'' 5 June 12.
    \21\ ``Shenzhen To Initiate Direct Union Elections at 163 
Enterprises, ACFTU Says Will Become the Norm'' [Shenzhen jiang qidong 
163 jia qiye gonghui zhixuan, zong gonghui cheng jiang changtaihua], 
Southern Metropolitan Daily, 28 May 12.
    \22\ See, e.g., Jennifer Cheung, China Labour Bulletin, ``Pay 
Disputes and Factory Relocations the Focus of Strike Action in April,'' 
3 May 12; Collective Bargaining Forum, ``LGD (Nanjing) Strike Incident 
Investigative Report'' [LGD (Nanjing) bagong shijian diaoyan baogao], 3 
May 12; China Labor Watch, ``1,000 Workers Strike at Factory That Makes 
Keyboards for Apple and IBM,'' 23 November 11; Tania Branigan, 
``Striking Chinese Workers Blockade Tesco Store,'' Guardian, 30 
November 11.
    \23\ See, e.g., China Labor Watch, ``1,000 Workers Strike at 
Factory That Makes Keyboards for Apple and IBM,'' 23 November 11.
    \24\ Ibid.; ``Clashes Over Migrant Worker's Death,'' Radio Free 
Asia, 29 May 12; ``Female Manager Telling Worker To Jump Off Building 
and Die Causes Over 400 People To Collectively Stop Work'' [Nu zhuguan 
jiao yuangong tiaolou qusi yin 400 duo ren jiti tinggong], Xinhua, 22 
November 11; China Labor Watch, ``Workers at Shenzhen Top Form 
Underwear Co., Limited Go on Strike,'' 22 November 11.
    \25\ Austin Ramzy, ``Amid Slowdown, Increasing Labor Strife in 
China's Manufacturing Belt,'' Time, 25 November 11; Marianne Barriaux, 
``China Hit by Labour Unrest as Global Slowdown Bites,'' Agence France-
Presse, reprinted in Google, 26 November 11.
    \26\ China Labor Watch, ``Workers on Strike at Auto Parts Factory 
in Guangzhou Over Bonus Reduction,'' 28 December 11; ``Several Hundred 
Workers in Fuzhou Strike and Block Road To Demand Wage Arrears'' 
[Fuzhou shubai gongren bagong dulu tao qianxin], Radio Free Asia, 3 
January 12; Zhong Ang and Zhang Xiaohui, ``Strikes at PepsiCo Bottling 
Plants in China,'' Economic Observer, 14 November 11; ``Master Kang and 
PepsiCo Integrate To Form Alliance, Encounter Collective Opposition 
From Factory Workers'' [Kang shifu baishi yinliao zhenghe jiemeng, 
zaoyu gongchang yuangong jiti dizhi], Beijing Business Today, reprinted 
in Xinhua, 15 November 11; China Labour Bulletin, ``Workers at Pepsi 
Bottling Plants in China Protest Takeover,'' 15 November 11; Jennifer 
Cheung, China Labour Bulletin, ``Around 7,000 Workers in Dongguan Stage 
Mass Protest Over Wage Cuts and Dismissals,'' 17 November 11; China 
Labor Watch, ``Workers Strike in Dongguan: New Balance, Yucheng Shoe 
Factory Should Take Responsibility,'' 18 November 11; ``Workers 
Dissatisfied With New Factory Rules in Dongguan Shoe Factory Stop Work 
and Gather at Town Government'' [Dongguan xie chang gongren bu man xin 
chang gui tinggong juji zhen zhengfu], Southern Daily, reprinted in 
Xinhua, 19 November 11; ``Four Hundred People Collectively Stop Work 
After Female Manager in Shenzhen Tells Employee To Jump Off Building'' 
[Shenzhen yi nu zhuguan jiao yuangong qu tiaolou yinfa 400 ren jiti 
tinggong], Yangcheng Evening News, 22 November 11; China Labor Watch, 
``Workers at Shenzhen Top Form Underwear Co., Limited Go on Strike,'' 
22 November 11; China Labor Watch, ``1,000 Workers Strike at Factory 
That Makes Keyboards for Apple and IBM,'' 23 November 11; ``Further 
Investigation Into the Incident of One Hundred Taxis Stopping 
Operations in Liaocheng'' [Liaocheng bai liang chuzuche tingyun shijian 
zai diaocha], People's Daily, 12 December 11; Tania Branigan, 
``Striking Chinese Workers Blockade Tesco Store,'' Guardian, 30 
November 11; Elaine Kurtenbach, ``China Labor Unrest Grows,'' 
Associated Press, reprinted in Huffington Post, 2 December 11; Royston 
Chan, ``Hundreds Strike at Singapore-Owned Plant in China,'' Reuters, 2 
December 11; James Pomfret and Royston Chan, ``China Unrest Spreads to 
Bamboo Furniture Factory,'' Reuters, 8 December 11; ``Road Workers Lay 
Siege to Office Over Unpaid Wages,'' Shanghai Daily, reprinted in China 
Internet Information Center, 21 January 12.
    \27\ ``China's Nov. PMI Falls to 49 Pct, Indicating Contraction,'' 
Xinhua, 1 December 11;, ``China's Export Drops 0.5 Pct Y-O-Y in Jan.,'' 
Xinhua, 10 February 12.
    \28\ See, e.g., Marianne Barriaux, ``China Hit by Labour Unrest as 
Global Slowdown Bites,'' Agence France-Presse, reprinted in Google, 26 
November 11; Rahul Jacob, ``China Labour Unrest Flares as Orders 
Fall,'' Financial Times, 23 November 11; China Labor Watch, ``Workers 
on Strike at Auto Parts Factory in Guangzhou Over Bonus Reduction,'' 28 
December 11; ``Hundreds of Protesters in Fuzhou Block Streets Demanding 
Back Pay'' [Fuzhou shubai gongren bagong dulu tao qianxin], Radio Free 
Asia, 3 January 12.
    \29\ China Labor Watch, ``Workers Strike in Dongguan: New Balance, 
Yucheng Shoe Factory Should Take Responsibility,'' 18 November 11; 
China Labour Bulletin, ``Workers at Pepsi Bottling Plants in China 
Protest Takeover,'' 15 November 11; Zhong Ang and Zhang Xiaohui, 
``Strikes at PepsiCo Bottling Plants in China,'' Economic Observer, 14 
November 11.
    \30\ Ministry of Human Resources and Social Security, ``During 
`12th Five-Year Plan,' County Level and Above Nationwide Will 
Universally Establish Labor and Personnel Dispute Arbitration 
Organizations'' [``Shier wu'' qijian quanguo xian yishang pubian sheli 
laodong renshi zhengyi zhongcai jigou], 15 February 12.
    \31\ Zhang Mingqi, ``Boosting the Construction of a Harmonious 
Society Through Harmonious Labor Relations'' [Yi hexie laodong guanxi 
zhu tui hexie shehui jianshe], People's Daily, 9 July 12.
    \32\ Chinese Human Rights Defenders, ``China Human Rights Briefing 
October 13-20, 2011,'' 21 October 11.
    \33\ Rahul Jacob, ``Chinese Workers Protest Against Wage Cuts,'' 
Financial Times, 18 November 11; Jaime FlorCruz, ``Labor Woes Send 
Shudder Through Beijing,'' CNN, 25 November 11.
    \34\ Elaine Kurtenbach, ``China Labor Unrest Grows,'' Associated 
Press, reprinted in Huffington Post, 2 December 11; Royston Chan, 
``Hundreds Strike at Singapore-Owned Plant in China,'' Reuters, 2 
December 11.
    \35\ James Pomfret and Royston Chan, ``China Unrest Spreads to 
Bamboo Furniture Factory,'' Reuters, 8 December 11.
    \36\ China Labor Watch, ``Chengdu Steel Factory Workers Strike for 
More Pay,'' 4 January 12; Fully Lin, ``10,000 Chengdu Steel Workers Go 
on Strike for Salary Increases,'' Want China Times, 6 January 12.
    \37\ Human Rights in China, ``Relatives Question Hunan Activist's 
`Suicide'; Demand Autopsy,'' 6 June 12.
    \38\ Human Rights in China, ``Prisoner Profile: Li Wangyang,'' last 
visited 15 June 12; Human Rights in China, ``Activist Free After Ten-
Year Term; Three Writers To Be Released This Month,'' 5 May 11. See the 
Commission's Political Prisoner Database for more information on Li 
Wangyang.
    \39\ Human Rights in China, ``Relatives Question Hunan Activist's 
`Suicide'; Demand Autopsy,'' 6 June 12; Union of Catholic Asian News, 
``Activists Question `Suicide' of Dissident,'' 7 June 12; ``China 
Morning Round-Up: HK Chief Discusses Li Wangyang,'' BBC, 15 June 12; 
``Li Wangyang: Hong Kong Official Questions `Suicide,' '' BBC, 12 June 
12; Elizabeth Yuan, ``Calls Grow To Investigate Chinese Dissident's 
Death,'' CNN, 14 June 12; Te-Ping Chen and Brian Spegele, ``Protests 
Erupt Over Death of Tiananmen Dissident,'' Wall Street Journal, 12 June 
12; Simon Lee and Crystal Chui, ``Hong Kong Questions China Claims That 
Dissident Hanged Himself,'' Businessweek, 14 June 12.
    \40\ ``Chinese Dissidents Launch Petition To Find the Truth About 
Li Wangyang's `Suicide,' '' AsiaNews, 8 June 12; ``China, One of the 
Tiananmen Square Leaders Hanged Under Surveillance,'' AsiaNews, 7 June 
12; Human Rights in China, ``Relatives Question Hunan Activist's 
`Suicide'; Demand Autopsy,'' 6 June 12; Elizabeth Yuan, ``Report: 
Chinese Dissident's Death Under Investigation,'' CNN, 15 June 12.
    \41\ See the Commission's Political Prisoner Database for more 
information on Li Wangling.
    \42\ Human Rights in China, ``Relatives Question Hunan Activist's 
`Suicide'; Demand Autopsy,'' 6 June 12.
    \43\ Chinese Human Rights Defenders, ``China Human Rights Briefing 
May 29-June 4, 2012,'' 6 June 12.
    \44\ Human Rights in China, ``Relatives of Li Wangyang Being Held 
by Authorities,'' 7 June 12.
    \45\ Michael Au, ``Pathologist Puzzled by Li Wangyang Case,'' South 
China Morning Post, 24 August 12; ``Li Wangyang Family Members Clarify 
in Interview, Overturn Officials' Repeated Rhetoric'' [Li wangyang 
jiaren shou fang, chengqing tuifan guanfang lianhuan shuoci], Radio 
Free Asia, 12 September 12.
    \46\ ``Liaison Office: Has Reported Li Wangyang Case to Central 
Authorities'' [Zhonglianban: xiang zhongyang fanying li wangyang an], 
Ta Kung Pao, 15 June 12; Elizabeth Yuan, ``Report: Chinese Dissident's 
Death Under Investigation,'' CNN, 15 June 12; ``Hunan Public Security 
Bureau Accepts Interview With Hong Kong China News Agency About Li 
Wangyang's Death'' [Hunan gong'an ting jiu li wangyang siwang shijian 
jieshou zhongtongshe caifang], Hong Kong China News Agency, 14 June 12.
    \47\ Stephen Cordner and Sameera Gunawardena, Monash University 
Victorian Institute of Forensic Medicine, ``Report and Opinion in the 
Case of Li Wangyang (Deceased),'' August 2012, 5, 21-27.
    \48\ Ministry of Human Resources and Social Security, Provisions on 
Consultation and Mediation for Enterprise Labor Disputes [Qiye laodong 
zhengyi xieshang tiaojie guiding], issued 30 November 11, effective 1 
January 12. See also ``Enterprise Labor Dispute Provisions Emphasize 
`Harmony' and `Stability,' Do Not Address Fundamental Worker Rights 
Issues,'' Congressional-Executive Commission on China, 28 February 12.
    \49\ PRC Labor Dispute Mediation and Arbitration Law [Zhonghua 
renmin gongheguo laodong zhengyi tiaojie zhongcai fa], enacted 29 
December 07, effective 1 May 08, art. 10.
    \50\ Ministry of Human Resources and Social Security, Provisions on 
Consultation and Mediation for Enterprise Labor Disputes [Qiye laodong 
zhengyi xieshang tiaojie guiding], issued 30 November 11, effective 1 
January 12, art. 13.
    \51\ Ibid., art. 4.
    \52\ Ibid., art. 16(1).
    \53\ Ibid., art. 10.
    \54\ Ibid., art. 11.
    \55\ Ibid., art. 5.
    \56\ Ibid., art. 7(1).
    \57\ Ibid., art. 9.
    \58\ See, e.g., Ministry of Finance, Temporary Measures on the 
Implementation of Central Financial Awards for Compulsory Education for 
the Children of Migrant Workers Who Enter Cities To Work [Jin cheng 
wugong nongmingong suiqian zinu jieshou yiwu jiaoyu zhongyang caizheng 
jiangli shishi zanxing banfa], issued 10 December 08, art. 2; Chongqing 
Municipal People's Government, Management Measures on the Protection of 
the Rights and Interests of and Services for Migrant Workers Who Enter 
Chongqing Municipality To Work [Chongqingshi jin cheng wugong nongmin 
quanyi baohu he fuwu guanli banfa], issued and effective 13 September 
05, art. 2; Nankai District Bureau of Human Resources and Social 
Security, Health Insurance for Migrant Workers in Tianjin Municipality 
[Tianjinshi nongmingong yiliao baoxian], last visited 15 June 12.
    \59\ See, e.g., ``Still No Obvious Change in Opinion on the 
Situation of China's Migrant Workers'' [Zhongguo nongmingong 
zhuangkuang bing wei mingxian gaiguan], Voice of America, 23 April 12; 
Wu Bo, ``No Further Mention of `Urban Hukou' in Solving Migrant Worker 
Problems'' [Jiejue nongmingong wenti mei zai ti ``chengshi hukou''], 
Southern Metropolitan Daily, 15 December 11; ``Survey Claims New 
Generation Migrant Workers Face Low Income and Other Difficulties in 
Integrating Into Cities'' [Diaocha cheng xinshengdai nongmingong rongru 
chengshi cunzai shouru di deng kunjing], China Youth Daily, reprinted 
in People's Daily, 16 October 11; ``Gaokao in Beijing Still Closed to 
Migrants,'' China Daily, 18 November 11; Shi Wei et al., ``Special Two 
Sessions Report: Delegates Talk About the New Generation of Migrant 
Workers Assimilating Into the Cities'' [Lianghui tebie baodao: daibiao 
weiyuan tan xinshengdai nongmingong rongru chengshi], Farmers' Daily, 
15 March 12. For background information on residency status issues for 
migrant workers, see Congressional-Executive Commission on China, Topic 
Paper: China's Household Registration System: Sustained Reform Needed 
To Protect China's Rural Migrants, 7 October 05.
    \60\ ``Youth Recruited in Shaodong, Hunan, Instructed To Deal With 
Petitioners, 300 Rural Residents in Xiangxiang Demand Return of Their 
Wages'' [Hunan shaodong zhaomu qingnian bei zhi duifu shangfangzhe, 
xiangxiang 300 nongmin yaoqiu guihuan gongzi], Radio Free Asia, 16 
January 12.
    \61\ Ibid.
    \62\ Zhao Sanjun, ``Over One Hundred Migrant Workers in Qi County 
Demand Their Salaries in the Cold Wind, Courts Still Had Not Filed the 
Case in Over a Year'' [Qi xian baiyu nongmingong hanfeng zhong tao xin, 
fayuan yi nian duo wei li'an zhixing], Legal Daily, 18 January 12.
    \63\ Ibid.
    \64\ Yu Zhonghu and Xue Hailong, ``After Seeking To Recover Wages, 
Migrant Worker Has Veins and Nerves in Two Fingers Severed by Project 
Manager With Knife'' [Nongmingong taoxin liang shouzhi xueguan he 
shenjing bei xiangmu zhuguan yong dao qieduan], Xi'an Evening News, 19 
January 12.
    \65\ ``China's Total Number of Migrant Workers Surpasses 250 
Million People'' [Zhongguo nongmingong zongliang chaoguo 2.5 yi ren], 
Xinhua, 28 April 12.
    \66\ ``China Expects Urbanization Rate To Be at 51.5 Percent by 
2015,'' Xinhua, reprinted in People's Daily, 5 March 11.
    \67\ ``Survey Claims New Generation Migrant Workers Face Low Income 
and Other Difficulties in Integrating Into Cities'' [Diaocha cheng 
xinshengdai nongmingong rongru chengshi cunzai shouru di deng kunjing], 
China Youth Daily, reprinted in People's Daily, 16 October 11; All-
China Federation of Trade Unions, ``The Conditions of New Generation 
Migrant Workers in Enterprises: A 2010 Study and Policy 
Recommendations'' [2010 nian qiye xinshengdai nongmingong zhuangkuang 
diaocha ji duice jianyi], 21 February 11, secs. 1(1), 2(8).
    \68\ Beijing Municipality People's Government, Circular Regarding 
Improving the Construction and Management of Beijing Public Housing 
[Guanyu jiaqiang ben shi gonggong zulin zhufang jianshe he guanli de 
tongzhi], 18 October 11, art. 3(1)(3); ``Beijing Tears Down the Wall of 
Residency Status on Public Housing'' [Beijing gong zufang chai le huji 
de qiang], China Youth Daily, reprinted in Xinhua, 21 October 11.
    \69\ Lei Yu, ``One Hundred Fifty Young Workers Invited To Study at 
Peking University'' [150 qing gong huoyao youxue beida], Southern 
Daily, 20 May 12.
    \70\ PRC Social Insurance Law [Zhonghua renmin gongheguo shehui 
baoxian fa], issued 28 October 10, effective 1 July 11, arts. 10-56.
    \71\ Ibid., art. 58.
    \72\ VTech, ``Corporate Information,'' last visited 10 July 12.
    \73\ Institute for Global Labour and Human Rights, ``VTech 
Sweatshop in China: AT&T, Motorola, Wal-Mart and Others Endorse the 
China Model,'' June 2012.
    \74\ China Labor Watch, ``Mattel's Supplier Factory 
Investigation,'' 16 November 11.
    \75\ Jia Fubin et al., ``Luyuan Chemical Engineering of Shandong 
Owes Employees Several Tens of Thousands in Social Insurance 
Contributions, Procuratorate Supervises and Urges Payment'' [Shandong 
luyuan huagong tuoqian zhigong shehui baoxian fei shu bai wan, jiancha 
yuan ducu zhengjiao], Procuratorial Daily, 6 March 12.
    \76\ Ibid.
    \77\ U.S. Department of Labor, Bureau of International Labor 
Affairs.
    \78\ Huang Haoyuan, ``Multiple Measures in Guangdong Ensure That 
Migrant Workers' Wage Arrear Disputes Can Be Cleared Up Before the 
Holidays'' [Guangdong duo cuoshi baozhang nongmingong qianxin jiufen 
jie qian qing'an], Xinhua, 2 December 11; Elaine Kurtenbach, ``China 
Labor Unrest Grows,'' Associated Press, reprinted in Huffington Post, 2 
December 11; ``Youth Recruited in Shaodong, Hunan, Instructed To Deal 
With Petitioners, 300 Rural Residents in Xiangxiang Demand Return of 
Their Wages'' [Hunan shaodong zhaomu qingnian bei zhi duifu 
shangfangzhe, xiangxiang 300 nongmin yaoqiu guihuan gongzi], Radio Free 
Asia, 16 January 12; Zhao Sanjun, ``Over One Hundred Migrant Workers in 
Qi County Demand Their Salaries in the Cold Wind, Courts Still Had Not 
Filed the Case in Over a Year'' [Qi xian baiyu nongmingong hanfeng 
zhong tao xin, fayuan yi nian duo wei li'an zhixing], Legal Daily, 18 
January 12; Yu Zhonghu and Xue Hailong, ``After Seeking To Recover 
Wages, Migrant Worker Has Veins and Nerves in Two Fingers Severed by 
Project Manager With Knife'' [Nongmingong taoxin liang shouzhi xueguan 
he shenjing bei xiangmu zhuguan yong dao qieduan], Xi'an Evening News, 
19 January 12; ``Clashes Over Migrant Worker's Death,'' Radio Free 
Asia, 29 May 12.
    \79\ Apple Inc., ``Apple Supplier Responsibility 2012 Progress 
Report,'' January 2012, 8.
    \80\ Fair Labor Association, ``Independent Investigation of Apple 
Supplier, Foxconn,'' March 2012.
    \81\ Ibid., 9.
    \82\ Ibid.
    \83\ Suo Hanxue, `` `Wage Regulations' Framework Basically 
Solidified, but Difficult To Roll Out by Year's End'' [``Gongzi 
tiaoli'' kuangjia chu ding niannei nan chutai], China Business Net, 19 
November 10.
    \84\ ``Draft of Wage Regulation Faces Pressure From Ministry 
Committees; Accused of Interfering With Internal Management of 
Monopolized Industries'' [Gongzi tiaoli caoan zaoyu buwei yali bei zhi 
ganshe longduan qiye neibu guanli], First Financial Daily, reprinted in 
Jiangxi News, 1 September 10.
    \85\ Ibid.
    \86\ Ministry of Human Resources and Social Security, ``Ministry of 
Human Resources and Social Security Second Quarter of 2011 Press 
Conference'' [Renli ziyuan shehui baozhang bu 2011 nian di er jidu 
xinwen fabu hui], 25 July 11.
    \87\ Beijing Municipality Human Resources and Social Security 
Bureau, Circular Regarding the Adjustment of 2012 Beijing Minimum Wage 
Standards [Guanyu tiaozheng beijing shi 2012 nian zui di gongzi 
biaozhun de tongzhi], 29 December 11; Shanghai Municipality Human 
Resources and Social Security Bureau, Circular Regarding the Adjustment 
of Shanghai Minimum Wage Standards [Guanyu tiaozheng ben shi zui di 
gongzi biaozhun de tongzhi], 14 March 12; Tianjin Municipality Human 
Resources and Social Security Bureau, ``The Adjustment of Minimum Wage 
Standards and Relevant Policy Questions and Answers'' [Zui di gongzi 
biaozhun tiaozheng ji youguan zhengce wenda], 6 March 12; Shandong 
Province Human Resources and Social Security Bureau, ``Shandong 
Province's 10th Adjustment to Minimum Wage Standards'' [Wo sheng di shi 
ci tiaozheng zui di gongzi biaozhun], 6 March 12; Shaanxi Province 
Human Resources and Social Security Bureau, Circular of the Provincial 
Human Resources and Social Security Bureau Regarding Adjustments to 
Shaanxi Province Minimum Wage Standards [Sheng renshe ting guanyu 
tiaozheng shaanxi sheng zui di gongzi biaozhun de tongzhi], 21 December 
11; Shaanxi Province Human Resources and Social Security Bureau, 
Circular of the Provincial Human Resources and Social Security Bureau 
Regarding Adjustments to Shaanxi Province Minimum Wage Standards [Sheng 
renshe ting guanyu tiaozheng shaanxi sheng zui di gongzi biaozhun de 
tongzhi], 1 January 11; Sichuan Province People's Government, Circular 
of the Sichuan Province People's Government Regarding Adjustments to 
Provincial Minimum Wage Standards [Sichuan sheng renmin zhengfu guanyu 
tiaozheng quan sheng zui di gongzi biaozhun de tongzhi], 28 March 12; 
Sichuan Province People's Government, Circular of the Sichuan Province 
People's Government Regarding Adjustments to Provincial Minimum Wage 
Standards [Sichuan sheng renmin zhengfu guanyu tiaozheng quan sheng zui 
di gongzi biaozhun de tongzhi], 26 July 10; ``Jiangxi To Increase 
Minimum Wage Standards Beginning in 2012, Average Increase Across Five 
Types of Areas To Reach 21.5 Percent'' [Jiangxi 2012 nian qi shangtiao 
zui di gongzi biaozhun, wu lei quyu pingjun zengfu da 21.5%], Jxnews, 
23 December 11; ``Liaoning Minimum Wage Standard To Rise by Over 13 
Percent Next Year'' [Liaoning zui di gongzi biaozhun mingnian zhangyu 
13%], Shenyang Daily, 9 December 11; Daqiong, ``Region Increases 
Minimum Wage,'' China Daily, 15 March 12.
    \88\ Shenzhen Municipality Human Resources and Social Security 
Bureau, Circular of the Shenzhen Municipality Human Resources and 
Social Security Bureau Regarding Adjustments to Shenzhen Municipality's 
Minimum Wage Standards [Shenzhen shi renli ziyuan he shehui baozhang ju 
guanyu tiaozheng wo shi zui di gongzi biaozhun de tongzhi], 30 December 
11; Shenzhen Municipality Human Resources and Social Security Bureau, 
Circular of the Shenzhen Municipality Human Resources and Social 
Security Bureau Regarding Adjustments to Shenzhen Municipality's 
Minimum Wage Standards [Shenzhen shi renli ziyuan he shehui baozhang ju 
guanyu tiaozheng wo shi zui di gongzi biaozhun de tongzhi], 7 March 11.
    \89\ For examples outside of the mining sector, see ``Toxic Gases 
Suffocate Four at China Paper Mill,'' Xinhua, 15 May 12; ``Two Killed, 
Three Injured as Equipment Collapses at Railway Construction Site in S 
China,'' Xinhua, 2 December 11; ``Nine Dead in Gas Explosion at 
Restaurant in NW China,'' Associated Press, reprinted in Yahoo!, 14 
November 11; Yang Yijun, ``Mother Commits Suicide `Over Compensation 
Fears,' '' China Daily, 15 May 12.
    \90\ ``289 Killed in Colliery Accidents in Q1,'' Xinhua, 20 April 
12.
    \91\ Ibid.
    \92\ ``Dazhong Mining Prospectus Hides Cave-in Incident, Sponsor 
Representative's Derelection of Duty'' [Dazhong kuangye zhaogushu 
yinman taxian shigu, baojian daibiao ren she shizhi], Economic 
Information, reprinted in Sohu, 25 May 12; Zhi Yun, ``Police Detain 21 
in Alleged Coal Mine Coverup,'' China Daily, 16 April 12; ``Four 
Officials Jailed Over Deadly Colliery Flood in Central China,'' Xinhua, 
25 February 12.
    \93\ State Administration of Work Safety and Ministry of Finance, 
Measures on Rewards for Safe Production Reporting [Anquan shengchan 
jubao jiangli banfa], issued and effective 2 May 12.
    \94\ Ibid.
    \95\ See, e.g., ``Six People Arrested in Guangzhou Glue Poisoning 
Death Incident'' [Guangzhou jiaoshui zhongdu zhisi shijian liu ren bei 
bu], BBC, 15 February 12; ``Glue Poisoning: Chaos Inside the Glue 
Industry Exposed, Experts on Glue Poisoning Call on Factories To Use 
Non-Toxic Water-Based Glue'' [Jiaoshui zhongdu: jiaoshui ye nei 
luanxiang da jiemi, jiaoshui zhongdu zhuanjia huyu gongchang yong wudu 
shuixing jiao], Stock City, 21 February 12.
    \96\ See, e.g., Wang Jing, ``Zhang Haichao From Chest Surgery to 
the Courtroom: The Path for Workers Seeking Legal Redress'' [Zhang 
haichao cong kaixiong dao kaiting: laogong tanxun falu jiuji zhi lu], 
Caixin, reprinted in QQ, 5 March 12; Wang Jing, ``Wielding the Law To 
Defend Black Lung Victims,'' Caixin, 13 March 12.
    \97\ See, e.g., Wang Jing, ``Zhang Haichao From Chest Surgery to 
the Courtroom: The Path for Workers Seeking Legal Redress'' [Zhang 
haichao cong kaixiong dao kaiting: laogong tanxun falu jiuji zhi lu], 
Caixin, reprinted in QQ, 5 March 12.
    \98\ See, e.g., Zheng Li, ``Many Migrant Workers Completely 
Ignorant About Pneumoconiosis'' [Xuduo nongmingong dui chenfeibing yi 
wu suo zhi], Shaanxi Worker's Daily, reprinted in Worker's Daily, 13 
February 12.
    \99\ State Council General Office, Circular of the State Council 
General Office Regarding the Release of the National Occupational 
Illness Prevention and Control Plan (2009-2015) [Guowuyuan bangongting 
guanyu yinfa guojia zhiye bing fangzhi guihua (2009-2015 nian) de 
tongzhi], 24 May 09.
    \100\ Ministry of Health, ``Ministry of Health Bulletin on 2010 
Occupational Illness Prevention and Control Work Situation and 2011 
Work Points'' [Weisheng bu tongbao 2010 nian zhiye bing fangzhi gongzuo 
qingkuang he 2011 nian zhongdian gongzuo], 18 April 11.
    \101\ Ministry of Health, ``Ministry of Health Bulletin on the 
Situation of Occupational Illness Prevention and Control Work in 2009'' 
[Weisheng bu 2009 nian zhiye bing fangzhi gongzuo qingkuang tongbao], 
28 April 10.
    \102\ Ministry of Health, ``Ministry of Health Bulletin on the 
Situation of National Occupational Health Supervision and Management 
Work in 2008'' [Weisheng bu tongbao 2008 nian quanguo zhiye weisheng 
jiandu guanli gongzuo qingkuang], 9 June 09.
    \103\ Ministry of Health, ``Bulletin of the Ministry of Health 
General Office Regarding the Situation of National Occupational Health 
and Radioactive Health Supervision and Management Work in 2007'' 
[Weisheng bu bangongting guanyu 2007 nian quanguo zhiye weisheng he 
fangshe weisheng jiandu guanli gongzuo qingkuang de tongbao], 3 June 
08.
    \104\ PRC Social Insurance Law [Zhonghua renmin gongheguo shehui 
baoxian fa], issued 28 October 10, effective 1 July 11, art. 36.
    \105\ Deng Jianhua, ``Part-Time Working Girl Fights for 
Occupational Injury Compensation for Six Years, Is Actually Sued While 
Seeking Redress'' [Dagong mei 6 nian kangzheng taoyao gongshang 
buchang, tao shuofa fancheng bei gao], Yunnan Net, 18 May 12; Ye Zhuyi, 
``Applying for [Recognition of] Occupational Injury for Heat Stroke 
Cannot Stop at Reminding'' [Zhongshu shenqing gongshang bu neng zhi yu 
tixing], Sohu, 21 May 12; China Labour Bulletin, ``Searching for the 
Missing Link: Miner Struggles To Prove Labour Relationship With Former 
Boss,'' 28 January 12; Zhang Huanping, ``750,000 Cumulative Cases of 
Occupational Illness Reported Nationwide, Pneumoconiosis Makes Up 90 
Percent'' [Quanguo leiji baogao zhiye bing 75 wan li, chenfei bing zhan 
9 cheng], Caixin, 30 June 11.
    \106\ PRC Regulations on Occupational Injury Insurance [Zhonghua 
renmin gongheguo gongshang baoxian tiaoli], issued 27 April 03, amended 
20 December 10, effective 1 January 11, art. 18.
    \107\ Zhang Shiguang, ``Model Worker Zhang Zhijuan Falls Into the 
Trap of Not Having Her Disease Recognized'' [Laomo zhang zhijuan xianru 
kanbuqi bing de kunjing], Worker's Daily, 17 May 12; Zhang Shiguang, `` 
`Model Worker Zhang Zhijuan Falls Into the Trap of Not Having Her 
Disease Recognized' Follow-up Report: Can We Change This Provision?'' 
[``Laomo zhang zhijuan xianru kanbuqi bing de kunjing'' houxu baodao: 
zhe ge tiaokuan neng fou xiugai yi xia], Worker's Daily, 23 May 12; 
China Labour Bulletin, ``Officials Refuse To Sanction Work-Related 
Injury Case Because Victim Did Not Die,'' 23 May 12.
    \108\ PRC Regulations on Occupational Injury Insurance [Zhonghua 
renmin gongheguo gongshang baoxian tiaoli], issued 27 April 03, amended 
20 December 10, effective 1 January 11, art. 15(1); Zhang Shiguang, `` 
`Model Worker Zhang Zhijuan Falls Into the Trap of Not Having Her 
Disease Recognized' Followup Report: Can We Change This Provision? '' 
[``Laomo zhang zhijuan xianru kanbuqi bing de kunjing'' houxu baodao: 
zhe ge tiaokuan neng fou xiugai yi xia], Worker's Daily, 23 May 12.
    \109\ Zhang Shiguang, `` `Model Worker Zhang Zhijuan Falls Into the 
Trap of Not Having Her Disease Recognized' Followup Report: Can We 
Change This Provision? '' [``Laomo zhang zhijuan xianru kanbuqi bing de 
kunjing'' houxu baodao: zhe ge tiaokuan neng fou xiugai yi xia], 
Worker's Daily, 23 May 12.
    \110\ PRC Law on Prevention and Control of Occupational Diseases 
[Zhonghua renmin gongheguo zhiyebing fangzhi fa], enacted 27 October 
01, effective 1 May 02, amended 31 December 11.
    \111\ See, e.g., PRC Law on Prevention and Control of Occupational 
Diseases [Zhonghua renmin gongheguo zhiyebing fangzhi fa], enacted 27 
October 01, effective 1 May 02, amended 31 December 11, arts. 44, 48, 
62.
    \112\ Ibid., arts. 22, 51, 78.
    \113\ Fair Labor Association, ``Independent Investigation of Apple 
Supplier, Foxconn,'' March 2012, 1.
    \114\ ``Profile: Foxconn Technology Co Ltd (2354.TW),'' Reuters, 
last visited 24 June 12.
    \115\ Stanley James and Adam Satariano, ``Apple Opens Suppliers' 
Doors to Labor Group After Foxconn Worker Suicides,'' Bloomberg, 13 
January 12.
    \116\ Fair Labor Association, ``Independent Investigation of Apple 
Supplier, Foxconn,'' March 2012, 1.
    \117\ Ibid., 2-3. Under the PRC Labor Law, an employer shall ensure 
every worker has at least one day's rest per week and that overtime 
shall not exceed 3 hours a day and 36 hours per month. PRC Labor Law 
[Zhonghua renmin gongheguo laodong fa], issued 5 July 94, effective 1 
January 95, amended 10 October 01, arts. 38, 41.
    \118\ Fair Labor Association, ``Independent Investigation of Apple 
Supplier, Foxconn,'' March 2012, 2-3.
    \119\ See, e.g., Loretta Chao et al., ``Apple Pact To Ripple Across 
China,'' Wall Street Journal, 5 April 12; Poornima Gupta and Edwin 
Chan, ``Apple, Foxconn Set New Standard for Chinese Workers,'' Reuters, 
30 May 12.
    \120\ See, e.g., China Labor Watch, ``Beyond Foxconn: Deplorable 
Working Conditions Characterize Apple's Entire Supply Chain,'' 27 June 
12, 33-46, 52-59.
    \121\ China Labor Watch, ``Beyond Foxconn: Deplorable Working 
Conditions Characterize Apple's Entire Supply Chain,'' 27 June 12, 12.
    \122\ See, e.g., PRC Labor Contract Law [Zhonghua renmin gongheguo 
laodong hetong fa], issued 29 June 07, effective 1 January 08, art. 66.
    \123\ See, e.g., Students and Scholars Against Corporate 
Misbehaviour, ``Sweatshops Are Good for Apple and Foxconn, but Not for 
Workers,'' 31 May 12, 5-10.
    \124\ Students and Scholars Against Corporate Misbehaviour, 
``Sweatshops Are Good for Apple and Foxconn, but Not for Workers,'' 31 
May 12, 2, 6-7.
    \125\ Ibid., 9.
    \126\ Ibid., 10.
    \127\ Ibid.
    \128\ Fair Labor Association, ``Foxconn Verification Status 
Report,'' 21 August 12.
    \129\ Ibid., appendices 2-4.
    \130\ Ibid.
    \131\ Office of Child Labor, Forced Labor, and Human Trafficking, 
Bureau of International Labor Affairs, U.S. Department of Labor, ``U.S. 
Department of Labor's List of Goods Produced by Child Labor or Forced 
Labor,'' 3 October 11, 1, 9.
    \132\ Apple Inc., ``Apple Supplier Responsibility 2012 Progress 
Report,'' January 2012, 9.
    \133\ Zhou Wenting, ``Factory Caught Using Child Labor,'' China 
Daily, 14 February 12.
    \134\ ILO Convention (No. 138) Concerning Minimum Age for Admission 
to Employment, 26 June 73, 1015 U.N.T.S. 297; ILO Convention (No. 182) 
Concerning the Prohibition and Immediate Action for the Elimination of 
the Worst Forms of Child Labour, 17 June 99, 2133 U.N.T.S. 161. For 
information on China's ratification of these two conventions, see 
International Labour Organization, ``List of Ratifications of 
International Labour Conventions: China,'' last visited 15 July 12.
    \135\ PRC Labor Law [Zhonghua renmin gongheguo laodong fa], issued 
5 July 94, effective 1 January 95, amended 10 October 01, art. 15; PRC 
Law on the Protection of Minors [Zhonghua renmin gongheguo 
weichengnianren baohu fa], issued 4 September 91, effective 1 January 
92, art. 28; State Council, Provisions on Prohibiting the Use of Child 
Labor [Jinzhi shiyong tonggong guiding], issued 1 October 02, effective 
1 December 02, art. 2.
    \136\ See, e.g., State Council, Provisions on Prohibiting the Use 
of Child Labor [Jinzhi shiyong tonggong guiding], issued 1 October 02, 
effective 1 December 02, art. 6; ``Legal Announcement--Zhejiang Defines 
Four Criteria of the Use of Child Labor'' [Fazhi bobao--zhejiang 
jieding shiyong tonggong si zhong qingxing], Women of China News, 26 
July 08.
    \137\ PRC Criminal Law [Zhonghua renmin gongheguo xing fa], issued 
1 July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, art. 244.
    \138\ Dongguan Municipal People's Government, Dongguan Municipal 
Provisions on Rewards for Reporting the Illegal Actions of Referring or 
Using Child Labor [Dongguan shi jubao jieshao, shiyong tonggong weifa 
xingwei jiangli banfa], issued 16 May 12, effective 1 July 12, art. 5; 
Chen Chen, ``Maximum Reward of 2,000 Yuan for Reporting Illegal Use of 
Child Labor'' [Jubao feifa yong tonggong zuigao jiang 2000 yuan], 
Dongguan Daily, 23 May 12.
    \139\ International Labour Office, ``Report of the Committee of 
Experts on the Application of Conventions and Recommendations,'' 
International Labour Conference, 100th Session, 2011, 296-97.
    \140\ Maplecroft, ``Child Labour Most Widespread in the Key 
Emerging Economies--Maplecroft Study,'' 12 January 10.
    \141\ Zhuang Pinghui, ``Crackdown on Slave Labour Nationwide--State 
Council Vows To End Enslavement,'' South China Morning Post, 21 June 
07.
    \142\ State Council, Provisions on Prohibiting the Use of Child 
Labor [Jinzhi shiyong tonggong guiding], issued 1 October 02, effective 
1 December 02, art. 13.
    \143\ PRC Education Law [Zhonghua renmin gongheguo jiaoyu fa], 
issued 18 March 95, effective 1 September 95, amended 27 August 09, 
art. 58.
    \144\ ILO Convention (No. 182) Concerning the Prohibition and 
Immediate Action for the Elimination of the Worst Forms of Child 
Labour, 17 June 99, 2133 U.N.T.S. 161, art. 3(a); International Labour 
Organization, ``List of Ratifications of International Labour 
Conventions: China,'' last visited 15 July 12.
    \145\ International Labour Office, ``Report of the Committee of 
Experts on the Application of Conventions and Recommendations,'' 
International Labour Conference, 100th Session, 2011, 298.
    \146\ Ibid.
    \147\ See, e.g., Jia Shengli, ``Jia Shengli: Outstanding People in 
the `Third Month of Autumn' '' [Jia shengli: ``san qiu'' shijie de 
fengliu renwu], Bingtuan News Net, 24 September 11; Maopu, ``My Dad Is 
Not a Group Leader, You Made Me Stop Going to School!'' [Wo ba bu shi 
tuanzhang, nimen rang wo tingke!], 22 September 11.
    \148\ Maopu, ``My Dad Is Not a Group Leader, You Made Me Stop Going 
to School!'' [Wo ba bu shi tuanzhang, nimen rang wo tingke!], 22 
September 11.
    Notes to Section II--Criminal Justice

    \1\ Jiang Anjie and Hu Xinqiao, ``Give Full Play to Criminal 
Punishment's Function in the Service of Social Management'' [Chongfen 
fahui xingfa gongneng genghao fuwu shehui guangli], Legal Daily, 30 
November 11.
    \2\ ``Scholar: Criminal Procedure Law Is `Touchstone' of Rights 
Protection'' [Xuezhe: xingsufa shi renquan baozhang ``shijinshi''], 
Xinhua, 1 March 12; ``Law Amendment To Balance Human Rights Protection, 
Penalty in Criminal Procedure: NPC Spokesman,'' Xinhua, 4 March 12; 
``Human Rights Underlined in China's Long-Anticipated Criminal 
Procedure Law Revision,'' Xinhua, 14 March 12; ``Ministry of Public 
Security: Making the Transition From `Apprehending a Suspect To Crack a 
Case' to `Evidence To Determine a Case' '' [Gonganbu: shixian you 
``zhuaren poan'' xiang ``zhengju dingan'' zhuanbian], Xinhua, 4 May 12.
    \3\ State Council Information Office, ``National Human Rights 
Action Plan of China (2012-2015),'' 11 June 12, sec. II(1)-(3).
    \4\ The revised CPL was passed on March 14, 2012, by a vote of 
2,639 in favor, 160 opposed, and 57 abstaining. ``Draft Decision To 
Amend the PRC Criminal Procedure Law Passed at the Closing Session of 
the Fifth Session of the Eleventh National People's Congress'' [Shiyi 
jie quanguo renda wuci huiyi bimuhui biaojue tongguo guanyu xiugai 
zhonghua renmin gongheguo xingshi susong fa de jueding caoan], People's 
Daily, 14 March 12.
    \5\ Ye Doudou, ``Criminal Procedure Law Revision Should Do as Much 
as Possible To Reduce Room for Abuse of Power'' [Xingsufa xiugai ying 
jinliang suojian quanli lanyong kongjian], Caixin, 28 December 11; 
``Scholar: Criminal Procedure Law Is `Touchstone' of Rights 
Protection'' [Xuezhe: xingsufa shi renquan baozhang ``shijinshi''], 
Xinhua, 1 March 12.
    \6\ PRC Criminal Procedure Law [Zhonghua renmin gongheguo xingshi 
susong fa], enacted 1 July 79, amended 17 March 96, 14 March 12, 
effective 1 January 13, part 5, ch. 4.
    \7\ Ibid., arts. 33, 37.
    \8\ Ibid., arts. 54-58.
    \9\ Ibid., arts. 239-240.
    \10\ Zhou oversaw the quelling of riots in Tibet in 2008 and 
Xinjiang in 2009, and has allegedly been at the helm of law 
enforcement's crackdown on rights activists during recent years. Robert 
Saiget, ``Communist Veterans Call for China Police Czar's Ouster,'' 
Agence France-Presse, reprinted in Google, 15 May 12.
    \11\ Wei wen expenditures available to agencies under the PLAC 
increased from 514.0 billion yuan in 2010 to 701.7 billion yuan in 2012 
and now exceed even the public budget of the People's Liberation Army. 
Willy Lam, ``Chen Guangcheng Fiasco Shows Dim Prospects for Political-
Legal Reform,'' China Brief, Vol. XII, No. 10, 11 May 12, 3.
    \12\ According to the blind legal advocate and rights defender Chen 
Guangcheng, wei wen expenditures for his village in Shandong province 
doubled from 30 million yuan in 2008 to 60 million yuan in 2011. Ibid.
    \13\ According to the report, 45 percent of the activists surveyed 
said that they had been held at some point, and, for the majority of 
them, it was either in soft detention or a ``black jail.'' Chinese 
Human Rights Defenders, `` `We Can Dig a Pit and Bury You Alive': 
Annual Report on the Situation of Human Rights Defenders in China,'' 
March 2012, 3.
    \14\ Ibid.
    \15\ Ibid., 6.
    \16\ A copy of the 11-page judgment was obtained and made available 
online by the human rights organization ChinaAid. ChinaAid, ``Dissident 
Zhu Yufu Sentenced to Seven Years on Subversion Charge for Online Poem, 
Score,'' 10 February 12.
    \17\ Chinese Human Rights Defenders, ``Full Text of Judgment 
Against Chen Wei for the Crime of `Inciting Subversion of State Power' 
'' [Chen wei ``shandong dianfu guojia zhengquan zui'' panjueshu 
quanwen], 12 January 12.
    \18\ Subversion and inciting subversion of state power are crimes 
punishable under Article 105 of the PRC Criminal Law. Splittism and 
inciting splittism are punishable under Article 103, while leaking 
state secrets is punishable under Articles 111 and 398. PRC Criminal 
Law [Zhonghua renmin gongheguo xingfa], enacted 1 July 79, amended 14 
March 97, effective 1 October 97, amended 25 December 99, 31 August 01, 
29 December 01, 28 December 02, 28 February 05, 29 June 06, 28 February 
09, 25 February 11, arts. 103, 105, 111, 398.
    \19\ Nicholas Bequelin, ``Legalizing the Tools of Repression,'' New 
York Times, 29 February 12.
    \20\ Chen Jieren, ``Draft Revision of the Criminal Procedure Law 
Should Provide for the Carrying Out of Judicial Conduct Under the Light 
of the Sun'' [Xingsufa xiuzheng'an ying rang sifa xingwei zai yangguang 
xia jinxing], Economic Observer, 9 March 12. For an English version, 
see ``Secret Arrests in China: Protecting the Regime, Not the People,'' 
Worldcrunch, 12 March 12.
    \21\ According to the Dui Hua Foundation, Chinese courts tried 698 
cases involving ``endangering state security'' charges in trials of 
first instance in 2009 and 670 in 2010. Dui Hua Foundation, ``State 
Security Indictments Remain at Historic Highs,'' Human Rights Journal, 
3 October 11.
    \22\ ``Zhou Yongkang: Conscientiously Study and Implement the 
Criminal Procedure Law, Better the Punishment of Crime and Protection 
of People's Interests in Accordance With Law'' [Zhou yongkang: renzhen 
xuexi guanche xingsufa genghao de yifa chengfa fanzui weihu renmin 
quanyi], Xinhua, 26 May 12.
    \23\ New reports indicate that the fall handover may simply be a 
formality and that Zhou has already ceded operational control to Meng 
Jianzhu, the incumbent Minister of Public Security. Jamil Anderlini, 
``Bo Ally Gives Up China Security Roles,'' Financial Times, 13 May 12.
    \24\ Yu Yongqing et al., ``Sixteen Senior Party Officials Put Into 
Writing Demand for Zhou Yongkang, Liu Yunshan To Be Dismissed From 
Their Posts'' [Shiliu ming zhonggong lao dangyuan shangshu yaoqiu 
mianqu zhou yongkang, liu yunshan zhiwu], China Free Press, 9 May 12.
    \25\ Robert Saiget, ``Communist Veterans Call for China Police 
Czar's Ouster,'' Agence France-Presse, reprinted in Google, 15 May 12.
    \26\ Benjamin Kang Lim and Chris Buckley, ``Exclusive: China 
Leadership Rules Bo Case Isolated, Limits Purge: Sources,'' Reuters, 25 
May 12.
    \27\ UN Office of the High Commissioner for Human Rights, Working 
Group on Arbitrary Detention Fact Sheet No. 26, May 2000, sec. IV(B); 
International Covenant on Civil and Political Rights (ICCPR), adopted 
by UN General Assembly resolution 2200A (XXI) of 16 December 66, entry 
into force 23 March 76, arts. 12, 18, 19, 21, 22, 27; Universal 
Declaration of Human Rights (UDHR), adopted and proclaimed by UN 
General Assembly resolution 217A (III) of 10 December 48, arts. 7, 10, 
13, 14, 18, 19, 21. Examples of the first category include individuals 
who are kept in detention after the completion of their prison 
sentences or despite an amnesty law applicable to them, or in violation 
of domestic law or relevant international instruments. The rights and 
freedoms protected under the second category include those in Articles 
7, 10, 13, 14, 18, 19, and 21 of the UDHR and in Articles 12, 18, 19, 
21, 22, and 27 of the ICCPR.
    \28\ International Covenant on Civil and Political Rights (ICCPR), 
adopted by UN General Assembly resolution 2200A (XXI) of 16 December 
66, entry into force 23 March 76, art. 9(2). China became a signatory 
to the ICCPR on October 5, 1998, but has yet to ratify it. As a 
signatory, China is obligated as a matter of international law to 
refrain from taking actions that would undermine the purpose of the 
treaty.
    \29\ See, e.g., PRC Constitution, enacted and effective 4 December 
82, amended 12 April 88, 29 March 93, 15 March 99, 14 March 04, arts. 
35, 37, 41; PRC Criminal Procedure Law [Zhonghua renmin gongheguo 
xingshi susong fa], enacted 1 July 79, amended 17 March 96, 14 March 
12, effective 1 January 13, art. 3; PRC Public Security Administration 
Punishment Law [Zhonghua renmin gongheguo zhian guanli chufa fa], 
enacted 28 August 05, effective 1 March 06, arts. 3, 9, 10, 16; PRC 
Legislation Law [Zhonghua renmin gongheguo lifa fa], enacted 15 March 
00, effective 1 July 00, art. 8(v).
    \30\ Part I, Chapter 6, of the PRC Criminal Procedure Law (CPL) 
provides law enforcement officers with five different ``compulsory 
measure'' options for the pretrial handling of criminal suspects. Of 
the five, two (``criminal detention'' and ``arrest'') involve a 
deprivation of liberty, while a third (``residential surveillance'') is 
a non-custodial measure meant to restrict an individual, but not to 
deprive him of his liberty. Joshua Rosenzweig et al., ``The 2012 
Revision of the Chinese Criminal Procedure Law: (Mostly) Old Wine in 
New Bottles,'' CRJ Occasional Paper, 17 May 12. The CPL establishes 
different time limits for each of the five compulsory measures, and a 
longer time limit of six months is allowed in exchange for the more 
lenient conditions available to an individual under residential 
surveillance. PRC Criminal Procedure Law [Zhonghua renmin gongheguo 
xingshi susong fa], enacted 1 July 79, amended 17 March 96, 14 March 
12, effective 1 January 13, art. 77. (Contrast this with the 37-day 
time limit that is imposed when a suspect is held in detention. Ibid., 
art. 89.)
    \31\ The 2012 PRC Criminal Procedure Law (CPL) now includes a new 
Article 72, which adds that residential surveillance is also available 
where it is ``more appropriate due to the special circumstances of the 
case or requirements of the investigation.''
    \32\ CECC, 2011 Annual Report, 10 October 11, 89.
    \33\ Ibid.
    \34\ On May 4, 2012, China's Ministry of Foreign Affairs released a 
statement indicating that Chen would be allowed to study abroad if 
desired. Ministry of Foreign Affairs, ``Foreign Ministry Spokesperson 
Liu Weimin's Remarks on Chen Guangcheng's Wish To Study Abroad,'' 4 May 
12. This reportedly helped pave the way for Chen to relocate to the 
United States to study under a fellowship sponsored by the U.S. 
Department of State. Edward-Isaac Dovere and Jennifer Epstein, ``U.S. 
Reaches Agreement on Chen,'' Politico, 3 May 12. See also Recent 
Developments and History of the Chen Guangcheng Case, Hearing of the 
Congressional-Executive Commission on China, 3 May 12.
    \35\ Gillian Wong, ``Blind Activist: China Says It'll Investigate 
Abuse,'' Associated Press, reprinted in Yahoo!, 8 May 12.
    \36\ Erik Eckholm, ``Even in New York, China Casts a Shadow,'' New 
York Times, 18 June 12.
    \37\ ``Fears for Chen Family, Supporters,'' Radio Free Asia, 8 May 
12; Human Rights in China, ``Family of Chen Kegui Rejects Officially 
Appointed Lawyers,'' 25 July 12.
    \38\ Human Rights in China, ``Family of Chen Kegui Rejects 
Officially Appointed Lawyers,'' 25 July 12.
    \39\ ``Guards Return to Chen's Village,'' Radio Free Asia, 24 
August 12.
    \40\ A large number of individuals who were outspoken critics of 
the government, including some who attempted to share information about 
the Jasmine Revolution in Tunisia and the subsequent calls for pro-
democracy rallies across China, reportedly ``disappeared'' into 
official custody beginning in mid-February 2011. CECC, 2011 Annual 
Report, 10 October 11, 56.
    \41\ In an April 8, 2011, press release, the UN Working Group on 
Enforced or Involuntary Disappearances expressed ``serious concern at 
the recent wave of enforced disappearances that allegedly took place in 
China over the last few months,'' adding that it had received 
``multiple reports of a number of persons having [been] subject to 
enforced disappearance . . . .'' CECC, 2011 Annual Report, 10 October 
11, 87 (citing UN Office of the High Commissioner for Human Rights, 
``China: UN Expert Body Concerned About Recent Wave of Enforced 
Disappearances,'' 8 April 11).
    \42\ ``Chinese Criminal Procedure Law's Secret Detention Clause 
Ignites Backlash'' [Zhongguo xingsu mimi jubu tiaokuan yinbao fantan], 
Radio France Internationale, 19 March 12.
    \43\ Gao disappeared and was allegedly held by authorities for more 
than 50 days beginning in September 2007, over one year beginning in 
February 2009, and indefinitely as of April 2010. The Case and 
Treatment of Prominent Human Rights Lawyer Gao Zhisheng, Hearing of the 
Congressional-Executive Commission on China, 14 February 12, Testimony 
of Geng He, Wife of Gao Zhisheng. For more information on Gao's earlier 
disappearances, see CECC, 2009 Annual Report, 10 October 09, 97-98.
    \44\ ``Beijing Court Withdraws Probation on Ex-lawyer Convicted of 
Overthrowing State,'' Xinhua, 16 December 11.
    \45\ Alexa Olesen, ``Chinese Rights Lawyer in Remote Jail Denied 
Visits,'' Associated Press, reprinted in Yahoo!, 10 January 12.
    \46\ PRC Criminal Procedure Law [Zhonghua renmin gongheguo xingshi 
susong fa], enacted 1 July 79, amended 17 March 96, 14 March 12, 
effective 1 January 13, art. 73, para. 1.
    \47\ Ibid., art. 73, para. 2.
    \48\ Ibid., art. 83, para. 2, and art. 93, para. 2. One major 
difference between Article 73, on the one hand, and Articles 83 and 91, 
on the other, is that the latter two provisions apply to cases of 
endangering state security and terrorism only, but not to major 
instances of bribery.
    \49\ Ibid., arts. 33 and 37, paras. 1, 3, 5.
    \50\ CECC, 2011 Annual Report, 10 October 11, 88.
    \51\ ``Fears Over Secret Detentions,'' Radio Free Asia, 8 March 12.
    \52\ ``Article 73 Sparks Controversy on Secret Detentions,'' 
Caixin, 12 March 12.
    \53\ Wu Yu, ``Will `Secret Detentions' Make the `State Secure? ' '' 
[``Mimi jubu'' hui shi ``guojia anquan''?], Deutsche Welle, 12 March 
12.
    \54\ Wang Minyuan, ``Notification of Family Members After Custody 
Is a Basic Requirement of the Principles of Human Rights Protection'' 
[Jiya hou tongzhi jiashu shi renquan baozhang yuanze jiben yaoqiu], 
Procuratorial Daily, reprinted in Supreme People's Procuratorate, 22 
March 12. See also Ye Doudou and Wang Heyan, ``Overhaul of the Criminal 
Procedure Law: Changes to the `Secret Detention' Clause'' [Xingsufa 
daxiu: ``mimi jubu'' tiaokuan bianqian], Caixin, 12 March 12; Ye 
Doudou, ``Criminal Procedure Law Revision Should Do as Much as Possible 
To Reduce Room for Abuse of Power'' [Xingsufa xiugai ying jinliang 
suojian quanli lanyong kongjian], Caixin, 28 December 11.
    \55\ Chen Baocheng, ``Supreme People's Procuratorate Criminal 
Procedure Law Interpretation: `Procuratorate Rules' Expected To Detail 
Five Scenarios That `Hinder the Investigation' '' [Gaojian xingsu shifa 
``jiancha guize'' youwang xihua ``youai zhencha'' wu zhong qingxing], 
Caixin, 15 August 12.
    \56\ Ibid.
    \57\ J. David Goodman, ``China's New Law on Detentions Puts 
Spotlight on `Black Jails,' '' New York Times, 13 March 12; ``China's 
`Black Jails' Uncovered,'' Al Jazeera, 27 April 09; ``Inside China's 
Secret `Black Jails,' '' Al Jazeera, 13 March 12; Phelim Kine, Human 
Rights Watch, ``Beijing's Black Jails,'' 15 March 12. For more detailed 
coverage of ``black jails,'' see CECC, 2009 Annual Report, 10 October 
09, 95-96.
    \58\ Phelim Kine, Human Rights Watch, ``Beijing's Black Jails,'' 15 
March 12; ``China's `Black Jails' Uncovered,'' Al Jazeera, 27 April 09. 
Al Jazeera correspondent Melissa Chan noted that her report was ``the 
first time that we got a government official to respond to a question 
about the existence of black jails.'' Rosanna Xia, ``Journalist Can't 
Explain Expulsion From China,'' Los Angeles Times, 14 May 12. In March 
2012, Chan brought cameras into an alleged ``black jail'' in Beijing to 
do a followup report. ``Inside China's Secret `Black Jails,' '' Al 
Jazeera, 13 March 12. In May 2012, Al Jazeera decided to close its 
Beijing bureau after the Chinese government refused to renew Chan's 
press credentials and visa. ``Al Jazeera English Forced Out of China,'' 
Al Jazeera, 9 May 12. Chan speculated that her coverage of ``black 
jails'' may have been a contributing factor. Rosanna Xia, ``Journalist 
Can't Explain Expulsion From China,'' Los Angeles Times, 14 May 12.
    \59\ Phelim Kine, Human Rights Watch, ``Beijing's Black Jails,'' 15 
March 12; Melissa Chan, ``Seeking Answers Inside China's `Black Jails,' 
'' Al Jazeera, 13 March 12.
    \60\ See, e.g., ``Inside China's Secret `Black Jails,' '' Al 
Jazeera, 13 March 12; Melissa Chan, ``Seeking Answers Inside China's 
`Black Jails,' '' Al Jazeera, 13 March 12. For more information about 
China's petitioning, or xinfang (letters and visits) system, see 
Section III--Access to Justice.
    \61\ Hao Tao, ``Beijing Notifies Changping Black Jail: Terminate 
Security Contract With Five Provinces and Municipalities To Intercept 
Petitioners'' [Beijing tongbao changping hei jianyu: cizhi bao'an yu 5 
sheng shi qian xieyi lanjie fangmin], Beijing Morning Post, reprinted 
in Xinhua, 1 December 11.
    \62\ Deng Qifan, ``Beijing Cracks Down on `Black Jails' To Achieve 
Zero Violations by Security Services Companies'' [Beijing daji ``hei 
jianyu'' jiang shixian bao'an fuwu gongsi ling weigui], Worker's Daily, 
reprinted in Xinhua, 3 December 11.
    \63\ Yuan Guoli, ``Beijing Strictly Prohibits Security Company 
Participation in the Interception of Petitioners, Multiple `Black 
Jails' Closed Down'' [Beijing yanjin bao'an gongsi canyu jiefang duochu 
`hei jianyu' zao chafeng], Beijing News, reprinted in Xinhua, 1 
December 11.
    \64\ Deng Jingyin, ``Beijing Police Crack Down on Black Jails,'' 
Global Times, 2 December 11.
    \65\ Yiyi Lu, ``Black Jails: Time To Start Blaming Beijing,'' Wall 
Street Journal, 16 December 11. The crime of ``illegal detention'' is 
set forth under Article 238 of the PRC Criminal Law and provides for 3 
to 10 years in prison where there is serious injury to the victim. PRC 
Criminal Law [Zhonghua renmin gongheguo xingfa], issued 1 July 79, 
amended 14 March 97, effective 1 October 97, amended 25 December 99, 31 
August 01, 29 December 01, 28 December 02, 28 February 05, 29 June 06, 
28 February 09, 25 February 11, art. 238.
    \66\ Pang Zili, ``People's Daily People's Commentary: Only 
`Through' Petitioning Can Society Feel Less `Pain' '' [Renmin ribao 
renmin shiping: xinfang ``tong,'' shehui cai neng shao xie ``tong''], 
People's Daily, 26 September 11.
    \67\ Ibid.
    \68\ CECC, 2011 Annual Report, 10 October 11, 89-90.
    \69\ Tang was taken into custody on August 2, 2012, and ordered to 
serve one year and six months at a reeducation through labor center in 
Yongzhou city, Hunan province. Zhao Yinan, ``Lawyers Calling for Reform 
of Laojiao System,'' China Daily, 16 August 12. She filed an appeal on 
August 7, and authorities released her on August 10. ``Mother of 
Underage Rape Victim Released From Chinese Labor Camp,'' Xinhua, 10 
August 12. Some have attributed the decision to release Tang so soon 
after she was taken into custody to the outcry among Chinese citizens, 
especially on the micro-blogging site Sina Weibo. Lin Xue, ``Time To 
Finally Abolish Unconstitutional System,'' Global Times, 22 August 12; 
Lilian Lin, ``Time for Re-education? Critics Take on China Labor Camp 
System,'' Wall Street Journal, 16 August 12; Anne Henochowicz, 
``Netizen Voices: Abolish Labor Re-education,'' China Digital Times, 7 
August 12.
    \70\ Zhao Yinan, ``Lawyers Calling for Reform of Laojiao System,'' 
China Daily, 16 August 12.
    \71\ Ayi Nuer and Liu Liangheng, ``Expecting the Best Response to 
the `Tang Hui Question' '' [Qidai dui ``tang hui zhi wen'' zui hao de 
huida], Xinhua, reprinted in Zhongguo Wangshi, 11 August 12; Song 
Zhijing, ``Legislative Process To Replace Reeducation Through Labor 
System Blocked'' [Qudai laojiao zhidu lifa jincheng shou zu], Beijing 
News, 16 August 12.
    \72\ Song Zhijing, ``Legislative Process To Replace Reeducation 
Through Labor System Blocked'' [Qudai laojiao zhidu lifa jincheng shou 
zu], Beijing News, 16 August 12.
    \73\ PRC Criminal Law [Zhonghua renmin gongheguo xingfa], issued 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, art. 18, para. 1.
    \74\ Wang Jing et al., ``Non-Standardization of Referrals for 
Treatment Causes Psychiatric Hospitals To Suffer Criticism'' [Song zhi 
bu guifan shide jingshenbing yuan baoshou goubing], China Newsweek, 26 
September 11.
    \75\ Wang Yongjie, ``Conflict and Coordination of New Laws: Taking 
the Draft Mental Health Law and Criminal Procedure Law as an Example'' 
[Xin fa de chongtu yu xietiao--yi ``jingshen weisheng fa'' (caoan) yu 
xin ``xingshi susong fa'' wei li], Journal of the China National School 
of Administration [Guojia xingzheng xueyuan xuebao], Vol. 2 (2012), 14 
June 12.
    \76\ Chinese Human Rights Defenders, `` `The Darkest Corners': 
Abuses of Involuntary Psychiatric Commitment in China,'' 6 August 12, 
3.
    \77\ Barbara Demick, ``China Poised To Limit Use of Mental 
Hospitals To Curb Dissent,'' Los Angeles Times, 16 March 12.
    \78\ Bureau of Democracy, Human Rights, and Labor, U.S. Department 
of State, ``Country Report on Human Rights Practices--2011, China 
(Includes Tibet, Hong Kong, and Macau),'' 24 May 12.
    \79\ Wang Yongjie, ``Conflict and Coordination of New Laws: Taking 
the Draft Mental Health Law and Criminal Procedure Law as an Example'' 
[Xin fa de chongtu yu xietiao--yi ``jingshen weisheng fa'' (caoan) yu 
xin ``xingshi susong fa'' wei li], Journal of the China National School 
of Administration [Guojia xingzheng xueyuan xuebao], Vol. 2 (2012), 14 
June 12; Wang Heyan, ``Suit Against Psychiatric Institution by 
Individual `Misidentified as Mentally Ill' Heard on Appeal'' [``Bei 
jingshenbing'' zhe su jingshenbing yuan er shen kaiting], Caixin, 21 
March 12.
    \80\ Ibid.
    \81\ PRC Mental Health Law (Draft) [Jingshen weisheng fa (caoan)], 
published 10 June 11, revised 29 October 11, arts. 24-27, 32. See also 
Barbara Demick, ``China Poised To Limit Use of Mental Hospitals To Curb 
Dissent,'' Los Angeles Times, 16 March 12.
    \82\ Elizabeth M. Lynch, ``Analysis of China's Draft Mental Health 
Law--An Interview,'' China Law & Policy, 24 October 11.
    \83\ In China, the criminal justice system is designed to place 
significant emphasis on conviction. Internal public security 
regulations reduce an investigator's performance scores if his case is 
returned by the procuratorate for additional investigation. Mike 
McConville et al., Criminal Justice in China: An Empirical Inquiry 
(Cheltenham, U.K.; Northampton, Mass.: Edward Elgar Publishing, 2011), 
142. In turn, a prosecutor's rating is lowered if his cases are not 
concluded with judgments of guilt. Stanley Lubman, ``Criminal Law 
Reform: Some Steps Forward, How Many Back? '' Wall Street Journal, 6 
March 12. Moreover, judges allegedly operate on the understanding that 
they are simply one component of a system leading to the conviction and 
punishment of those who have been apprehended. Stanley Lubman, 
``China's Criminal Justice Value System Makes Reform Moot,'' Wall 
Street Journal, 7 February 12 (citing Mike McConville et al., Criminal 
Justice in China: An Empirical Inquiry (Cheltenham, U.K.; Northampton, 
Mass.: Edward Elgar Publishing, 2011)).
    \84\ ``Let More Lawyers Defend Criminal Cases: Political Advisor,'' 
Xinhua, 11 March 12.
    \85\ Defense lawyers commonly complain about the ``three 
difficulties'' (san nan) that they face in defending a case: Gaining 
access to the client in custody, gaining access to the procuratorate's 
case files, and collecting their own evidence. `` `Big Stick 306' and 
China's Contempt for the Law,'' New York Times, 5 May 11; CECC, 2011 
Annual Report, 10 October 11, 83.
    \86\ Article 306 provides for the detention, arrest, and 
prosecution of any defender accused of fabricating evidence or inducing 
a witness to change his testimony. PRC Criminal Law [Zhonghua renmin 
gongheguo xingfa], issued 1 July 79, amended 14 March 97, effective 1 
October 97, amended 25 December 99, 31 August 01, 29 December 01, 28 
December 02, 28 February 05, 29 June 06, 28 February 09, 25 February 
11, art. 306.
    \87\ `` `Big Stick 306' and China's Contempt for the Law,'' New 
York Times, 5 May 11.
    \88\ Xu Hao, ``Hopeful About New Evidence, Li Zhuang Again Files 
Complaint'' [Jiwang xin zhengju li zhuang zai shensu], China Business 
Net, 24 March 12.
    \89\ Ibid.; PRC Criminal Law [Zhonghua renmin gongheguo xingfa], 
issued 1 July 79, amended 14 March 97, effective 1 October 97, amended 
25 December 99, 31 August 01, 29 December 01, 28 December 02, 28 
February 05, 29 June 06, 28 February 09, 25 February 11, art. 306.
    \90\ For a detailed account of Li's case, see Shiyan Huang, ``Li 
Zhuang: Chinese Defense Lawyer Who Was Found Guilty of Suborning 
Perjury,'' Wrongful Convictions Blog, 31 March 12. Li's client was an 
organized crime boss who had been swept up in Bo Xilai's ``strike 
hard'' campaign in Chongqing. Ibid. As the case entered the trial 
phase, Li applied for the recusal of three prosecutors, three 
adjudicators, and two court secretaries. Qin Xudong, ``Second 
Deliberation of the Criminal Procedure Law Revision: Lawyer Perjury 
Cases To Be Under a Different Jurisdiction'' [Xingsufa xiuding ershen: 
lushi weizheng an ni yidi guanxia], Caixin, 26 December 11. Authorities 
continued to investigate Li for additional crimes even while he was 
still serving his sentence, as well as following his release. Shiyan 
Huang, ``Li Zhuang: Chinese Defense Lawyer Who Was Found Guilty of 
Suborning Perjury,'' Wrongful Convictions Blog, 31 March 12. See also 
``Lawyer Perjury Crime Is a Draconian Law'' [Lushi weizheng zui shi yi 
tiao e'fa], Ming Pao, reprinted in Sina, 17 October 11; Ye Doudou, 
``Criminal Procedure Law Revision Should Do as Much as Possible To 
Reduce Room for Abuse of Power'' [Xingsufa xiugai ying jinliang suojian 
quanli lanyong kongjian], Caixin, 28 December 11.
    \91\ Ye Doudou and Wang Heyan, ``Overhaul of the Criminal Procedure 
Law: Public Authority Advances and Retreats'' [Xingsufa da xiu: gong 
quanli jintui], Caixin, 12 March 12; Qin Xudong, ``Second Deliberation 
of the Criminal Procedure Law Revision: Lawyer Perjury Cases To Be 
Under a Different Jurisdiction'' [Xingsufa xiuding ershen: lushi 
weizheng an ni yidi guanxia], Caixin, 26 December 11. Li's lawyer 
applied to have the case reviewed outside of Chongqing. Ibid.
    \92\ PRC Criminal Procedure Law [Zhonghua renmin gongheguo xingshi 
susong fa], enacted 1 July 79, amended 17 March 96, 14 March 12, 
effective 1 January 13, art. 42.
    \93\ Ye Doudou and Wang Heyan, ``Overhaul of the Criminal Procedure 
Law: Public Authority Advances and Retreats'' [Xingsufa da xiu: gong 
quanli jintui], Caixin, 12 March 12.
    \94\ Mike McConville et al., Criminal Justice in China: An 
Empirical Inquiry (Cheltenham, U.K.; Northampton, Mass.: Edward Elgar 
Publishing, 2011), 72.
    \95\ Mike McConville et al., Criminal Justice in China: An 
Empirical Inquiry (Cheltenham, U.K.; Northampton, Mass.: Edward Elgar 
Publishing, 2011), 259.
    \96\ PRC Criminal Procedure Law [Zhonghua renmin gongheguo xingshi 
susong fa], enacted 1 July 79, amended 17 March 96, 14 March 12, 
effective 1 January 13, art. 50.
    \97\ Ibid., art. 53.
    \98\ Ibid., art. 54.
    \99\ Ibid., art. 121.
    \100\ Lin Yan, ``Lawyer Says Establishing a Criminal Procedure Law 
Right To Remain Silent Difficult, Fears Torture To Extort a Confession 
Hard To Contain'' [Lushi cheng xingsufa she chenmo quan you nandu 
xingxun bigong kong nan ezhi], Legal Daily, reprinted in People's 
Daily, 19 October 11.
    \101\ Ibid.
    \102\ PRC Criminal Law [Zhonghua renmin gongheguo xingfa], issued 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, arts. 247, 248; PRC 
Criminal Procedure Law [Zhonghua renmin gongheguo xingshi susong fa], 
enacted 1 July 79, amended 17 March 96, 14 March 12, effective 1 
January 13, art. 50.
    \103\ In February 2009, three fellow detainees were accused by 
authorities of beating to death 24-year-old Li Qiaoming. The case 
reportedly helped prompt a five-month campaign by the Ministry of 
Public Security and the Supreme People's Procuratorate to improve the 
management of detention centers. Li Xinran, ``New Rules To Cut Abuse at 
Detention Centers,'' Shanghai Daily, reprinted in People's Daily, 2 
March 12. Since March 2011, the Supreme People's Procuratorate, the 
Ministry of Public Security, and the Center for Litigation System and 
Judicial Reform at Renmin University have jointly operated anti-torture 
pilot projects in a number of cities nationwide. Wang Dianxue and Yang 
Zhanghuai, ``Supreme People's Procuratorate, Ministry of Public 
Security Launch Anti-Torture Project in Multiple Locations'' [Zuigao 
jianchayuan gonganbu zai duo di shidian fan kuxing], Southern 
Metropolitan Daily, 13 August 12. The pilot projects involve, among 
other things, training police officers in non-violent interrogation 
tactics and encouraging detainees to speak out through the use of 
anonymous complaint. Ibid.
    \104\ UN Committee against Torture, 41st Session, Consideration of 
Reports Submitted by State Parties Under Article 19 of the Convention: 
Concluding Observations of the Committee against Torture--China, CAT/C/
CHN/CO/4, 12 December 08, paras. 11-12. Although official statistics 
regarding the use of torture are not publicly available, a report by 
the Chinese Society of Juvenile Delinquency Research indicates that an 
average of 400 cases are filed each year against authorities who 
allegedly used force during interrogations. Yan Shuang, ``Deaths in 
Custody,'' Global Times, 20 August 12.
    \105\ Andrew Jacobs, ``Chinese Activist's Death Called Suicide, but 
Supporters Are Suspicious,'' New York Times, 8 June 12; Elizabeth Yuan, 
``Report: Chinese Dissident's Death Under Investigation,'' CNN, 15 June 
12. Li was originally sentenced to 13 years in prison for mobilizing 
local workers during democracy protests in Tiananmen Square in 1989. He 
was released after having served 11 of those 13 years, only to be 
sentenced in 2011 to an additional 10 years in prison for the crime of 
inciting subversion of state power.
    \106\ Andrew Jacobs, ``Chinese Activist's Death Called Suicide, but 
Supporters Are Suspicious,'' New York Times, 8 June 12; Elizabeth Yuan, 
``Report: Chinese Dissident's Death Under Investigation,'' CNN, 15 June 
12.
    \107\ ``Hong Kong Activists Demand Probe Into Dissident's Death,'' 
Voice of America, 13 June 12. Xue allegedly fell ill on his third day 
in detention after participating in protests that began in September 
2011 and lasted until December 2011 in Wukan village, Guangdong 
province. His death while in custody drew criticism from those who 
accused the local government of using heavy-handed tactics in response 
to the protests. James Pomfret and Chris Buckley, ``Villager Dies in 
Custody as China Cracks Down on Riots,'' Reuters, 12 December 11. For 
more information about the Wukan protests, see Section III--
Institutions of Democratic Governance.
    \108\ Li's death became a cause celebre in Hong Kong, where 1,500 
people took to the streets to hold a vigil, and Chief Executive Donald 
Tsang Yam-kuen commented in public about the ``suspicious'' nature of 
the circumstances. Andrew Jacobs, ``China To Investigate Death of Labor 
Activist,'' New York Times, 15 June 12; Phila Siu and Roy Chan, ``Task 
Force Set Up To Probe Activist Death,'' Standard, 15 June 12; Phila 
Siu, ``Tsang Adds Voice to Li Justice Call,'' Standard, 14 June 12.
    \109\ ``Hong Kong Activists Demand Probe Into Dissident's Death,'' 
Voice of America, 13 June 12.
    \110\ Dui Hua Foundation, ``(En)countering Torture in China [Part 1 
of 2],'' Dui Hua Human Rights Journal, 30 August 12.
    \111\ Wang Huazhong, ``New Rules on Prisoner Treatment,'' China 
Daily, 31 May 12.
    \112\ Fu Long, ``Detention Center Regulation Officially in Effect 
as of Today, Provides That Detainees Are Not To Be Humiliated, 
Subjected to Corporal Punishment, Abused'' [``Juliusuo tiaoli'' jin qi 
zhengshi shishi guiding bu de wuru, tifa, nuedai bei juliu ren], 
People's Daily, 1 April 12.
    \113\ State Council, Detention Center Regulation [Juliusuo tiaoli], 
issued 15 February 12, effective 1 April 12, arts. 2, 3.
    \114\ ``Administrative detention'' of up to 20 days is authorized 
by law as an alternative to criminal punishment for ``minor offenses'' 
such as public order disturbances or inciting illegal assembly. PRC 
Administrative Punishment Law [Zhonghua renmin gongheguo xingzheng 
chufa fa], enacted 17 March 96, effective 1 October 96, art. 8(6); PRC 
Public Security Administration Punishment Law [Zhonghua renmin 
gongheguo zhian guanli chufa fa], enacted 28 August 05, effective 1 
March 06, arts. 2, 16. ``Judicial detention'' of up to 15 days is 
available to courts mostly in handling misconduct during trial, 
including forgery or destruction of evidence or inciting others to give 
false testimony. PRC Administrative Procedure Law [Zhonghua renmin 
gongheguo xingzheng susong fa], enacted 4 April 89, effective 1 October 
90, art. 49.
    \115\ ``Detention Center Regulation: Are Police Exempt From 
Liability? '' [Juliusuo tiaoli: jingcha mian ze?], Deutsche Welle, 2 
March 12.
    \116\ Regulations Punishing the Violation of Law and Disciplinary 
Rules by Prison and Reeducation Through Labor People's Police [Jianyu 
he laodong jiaoyang jiguan renmin jingcha weifa weiji xingwei chufen 
guiding], passed 16 December 11, issued and effective 1 July 12, arts. 
3, 5, 7, 9(2).
    \117\ Dui Hua Foundation, ``Chinese Government Appears To Halt 
Sentence Reductions for Political Prisoners,'' Dui Hua Human Rights 
Journal, 22 February 11.
    \118\ ``China Exercises Prudent Application of Death Penalty: 
Report,'' Xinhua, 14 July 11. The Dui Hua Foundation reported in 
February 2011 that China's prison population stands at just under two 
million and that, in 2009 alone, courts handled more than 500,000 
applications for sentence reduction and parole. Dui Hua Foundation, 
``Chinese Government Appears To Halt Sentence Reductions for Political 
Prisoners,'' Dui Hua Human Rights Journal, 22 February 11.
    \119\ Dui Hua Foundation, ``Chinese Government Appears To Halt 
Sentence Reductions for Political Prisoners,'' Dui Hua Human Rights 
Journal, 22 February 11.
    \120\ Ibid. Dui Hua notes that recommendations for a sentence 
reduction are typically made to the court by prison wardens, and that 
courts, until recently, have almost always granted such applications.
    \121\ Ibid.
    \122\ Supreme People's Court Regulations on Several Questions 
Regarding the Specific Laws Applicable When Handling Reduced Sentence 
and Parole Cases [Guanyu banli jianxing, jiashi anjian juti yingyong 
falu ruogan wenti de guiding], issued 21 November 11, effective 1 July 
12, arts. 2, 3, 4.
    \123\ Ibid., art. 15.
    \124\ For more information on the SPC's decision to reclaim this 
power, see CECC, 2007 Annual Report, 10 October 07, 52-56.
    \125\ Dui Hua Foundation, ``Dui Hua Estimates 4,000 Executions in 
China, Welcomes Open Dialogue,'' 12 December 11. Part of this decrease 
is attributed to the 2011 amendment to the PRC Criminal Law, which 
reduced the list of crimes punishable by death by about 20 percent 
(from 68 to 55). ``China Improves Criminal Justice System To Promote 
Human Rights Protection, Rule of Law: White Paper,'' Xinhua, 27 October 
11; ``China Adheres to Limiting Use of Death Penalty,'' Xinhua, 8 March 
12.
    \126\ ``China Exercises Prudent Application of Death Penalty: 
Report,'' Xinhua, 14 July 11. These include regulations that were 
jointly issued with the Supreme People's Procuratorate, the Ministry of 
Public Security, the Ministry of State Security, and the Ministry of 
Justice in 2010, which seek to decrease the historical over-reliance on 
confessions and exclude illegally obtained evidence from trial. Supreme 
People's Court, Supreme People's Procuratorate, Ministry of Public 
Security, Ministry of State Security, and Ministry of Justice, Circular 
Regarding the Issue of ``Provisions Concerning Questions About 
Examining and Judging Evidence in Death Penalty Cases'' and 
``Provisions Concerning Questions About Exclusion of Illegal Evidence 
in Handling Criminal Cases'' [Zuigao renmin fayuan zuigao renmin 
jiancha yuan gongan bu guojia anquan bu sifa bu yinfa ``guanyu banli 
sixing anjian shencha panduan zhengju ruogan wenti de guiding'' he 
``guanyu banli xingshi anjian paichu feifa zhengju ruogan wenti de 
guiding'' de tongzhi], issued 13 June 10; Provisions Concerning 
Questions About Exclusion of Illegal Evidence in Handling Criminal 
Cases [Guanyu banli xingshi anjian paichu feifa zhengju ruogan wenti de 
guiding], effective 1 July 10; Provisions Concerning Questions About 
Examining and Judging Evidence in Death Penalty Cases [Guanyu banli 
sixing anjian shencha panduan zhengju ruogan wenti de guiding], 
effective 1 July 10. See also Wang Heyan, ``Supreme People's Court 
Vice-President Discloses: Quality of Death Penalty Cases Is Worrisome'' 
[Zuigao fayuan fuyuanzhang toulu: sixing anjian zhiliang kanyou], 
Caixin, 9 January 12; CECC, 2011 Annual Report, 10 October 11, 84.
    \127\ PRC Criminal Procedure Law [Zhonghua renmin gongheguo xingshi 
susong fa], enacted 1 July 79, amended 17 March 96, 14 March 12, 
effective 1 January 13, art. 34, para. 3.
    \128\ Ibid., art. 121.
    \129\ Ibid., art. 202, para. 1, art. 232, para. 1.
    \130\ Ibid., art. 223(2).
    \131\ In reviewing a death sentence, the SPC now has the power to 
approve the order, remand the case for a new trial, or reverse the 
order. PRC Criminal Procedure Law [Zhonghua renmin gongheguo xingshi 
susong fa], enacted 1 July 79, amended 17 March 96, 14 March 12, 
effective 1 January 13, art. 239. The newly revised CPL also sets forth 
the expectation that the SPC will interview defendants who have been 
sentenced to death and accept opinions from their defense lawyers, if 
so requested. Ibid., art. 240.
    \132\ Amnesty International has challenged Chinese officials to 
publish data on those executed and sentenced to death, in order to 
confirm claims that reforms have led to a significant reduction in the 
use of the death penalty over the past four years. Amnesty 
International, ``Death Penalty 2011: Alarming Levels of Executions in 
the Few Countries That Kill,'' 26 March 12.
    \133\ Dui Hua Foundation, ``Dui Hua Estimates 4,000 Executions in 
China, Welcomes Open Dialogue,'' 12 December 11; ``China Halves 
Executions to About 4,000 a Year: NGO,'' Agence France-Presse, 
reprinted in Google, 12 December 11; Amnesty International, ``Death 
Penalty 2011: Alarming Levels of Executions in the Few Countries That 
Kill,'' 26 March 12. In 2010, the number of executions in China was 
placed at 6,000, a stark contrast to the 252 reported in the country 
with the next-highest rate of executions (Iran). Keith B. Richburg, 
``In China, Some Are Rethinking the Death Penalty,'' Washington Post, 
25 June 11.
    \134\ Calum MacLeod, ``Organ Harvesting Changes in China Will Be 
Tough To Realize,'' USA Today, 15 May 12; Wang Yongsheng, ``Revision of 
Organ Transplant Regulation To Be Completed by Year's End'' [Qiguan 
yizhi tiaoli nian nei wancheng xiugai], Legal Evening News, 7 March 12. 
According to reports, as many as 1.5 million patients await organ 
transplants, and approximately 10,000 operations are performed each 
year. If accurate, this number would mean either that organs are 
harvested from the overwhelming majority of executed prisoners or that 
the number of executions has been grossly underestimated.
    \135\ Wang Yongsheng, ``Revision of Organ Transplant Regulation To 
Be Completed by Year's End'' [Qiguan yizhi tiaoli nian nei wancheng 
xiugai], Legal Evening News, 7 March 12. In February 2012, 16 
individuals (including medical professionals) were reportedly charged 
with crimes relating to the removal of over 50 kidneys in 2010, which 
allegedly earned them US$1.6 million. Calum MacLeod, ``Organ Harvesting 
Changes in China Will Be Tough To Realize,'' USA Today, 15 May 12. In 
August 2012, state media reported that authorities had successfully 
dismantled a major organ trafficking ring and arrested an additional 
137 individuals. ``China Nabs 137 for Organizing Organ Sale,'' Xinhua, 
4 August 12; ``Health Authorities Pledge Greater Crackdown on Illegal 
Organ Transplants,'' Xinhua, 13 August 12.
    Notes to Section II--Freedom of Religion

    \1\ PRC Constitution, issued 4 December 82, amended 12 April 88, 29 
March 93, 15 March 99, 14 March 04, art. 36.
    \2\ State Council Information Office, ``National Human Rights 
Action Plan of China (2012-2015),'' 11 June 12, sec. II(4).
    \3\ International Covenant on Civil and Political Rights, adopted 
by UN General Assembly resolution 2200A (XXI) of 16 December 66, entry 
into force 23 March 76, art. 18. China did not ratify the Covenant 
during the reporting period; see United Nations Treaty Collection, 
Chapter IV, Human Rights, International Covenant on Civil and Political 
Rights, last visited 27 August 12. For more background, see Katie Lee, 
``China and the International Covenant on Civil and Political Rights: 
Prospects and Challenges,'' Chinese Journal of International Law, Vol. 
6, No. 2 (2007), 447.
    \4\ Fenggeng Yang, Religion in China: Survival and Revival Under 
Communist Rule (New York: Oxford University Press, 2012), 92.
    \5\ Amnesty International, ``Amnesty International Report 2012, the 
State of the World's Human Rights,'' 2012, 108-9. The report stated, 
``The authorities pursued their goal of bringing all religious practice 
under state control, including state oversight over religious doctrine, 
appointment of religious leaders, the registration of religious groups 
and construction of sites of worship. People practising religions 
banned by the state, or without state sanction, risked harassment, 
detention, imprisonment, and in some cases, violent persecution. Banned 
religions included underground Protestant house churches and Catholics 
who accept the authority of the Holy See. Around 40 Catholic bishops 
remained unaccounted for, and were presumed to be held by the 
authorities.''
    \6\ U.S. Commission on International Religious Freedom, ``Annual 
Report 2012,'' March 2012, 137. According to this report, ``Despite 
restrictions, harassment, arrests, and government oversight, the number 
of religious adherents continues to grow in China and the government 
continues to tolerate regular and public worship activities of both 
legally-approved and some unregistered religious groups. Tolerance for 
unregistered religious activity often varies, depending on province or 
locality.''
    \7\ Amnesty International, ``Amnesty International Report 2012, the 
State of the World's Human Rights,'' 2012, 108-9.
    \8\ Ibid.; Freedom House, ``Worst of the Worst 2012: The World's 
Most Repressive Societies,'' 14 June 12, 12. According to the Freedom 
House report, ``Religious freedom is sharply curtailed, and religious 
minorities remain a key target of repression. All religious groups must 
register with the government, which regulates their activities and 
guides their theology. Some faith groups are forbidden, and their 
members face harassment, imprisonment, and torture.'' See also Brian J. 
Grim and Roger Finke, The Price of Freedom Denied: Religious 
Persecution and Conflict in the Twenty-First Century (New York: 
Cambridge University Press, 2011), 121. In their transnational study, 
published at the end of 2010, they said China is a country where 
``religion is viewed as a political threat to the state and freedoms 
are denied.'' See also Brent Fulton, ``Reason for Optimism in Policy 
Toward Chinese Christians,'' Gospel Coalition, 25 March 12. Focusing on 
Christianity, Fulton noted that a variety of factors influenced whether 
local officials tolerated unofficial Christian activities, including 
the ``triggers'' of foreign involvement, perceived political motives, 
the scale of activities, the level of greed or corruption among local 
officials, and ``political winds that blow frequently across China.''
    \9\ Fenggeng Yang, Religion in China: Survival and Revival Under 
Communist Rule (New York, Oxford University Press, 2012), 78-84. The 
senior officials of SARA are listed in the following source: China 
Directory 2012, ed. Radiopress (Tokyo: JPM Corporation, Ltd., December 
2011), 115.
    \10\ ``Promoting Religious Harmony and Serving Scientific 
Development,'' People's Daily, 10 January 11 (Open Source Center, 20 
January 12). See also Wang Zuo'an, ``Bringing Into Play the Positive 
Role of Religious Circles in Cultural Building,'' People's Daily, 28 
December 11 (Open Source Center, 28 December 11). Wang, Director of 
SARA, reiterated that ``Religious circles should accept the 
leadership'' of the Communist Party and ``establish a system of 
religious thinking that . . . meets the requirements of China's social 
development . . . .''
    \11\ State Administration for Religious Affairs, ``State 
Administration for Religious Affairs' 2012 Main Points of Work'' 
[Guojia zongjiao shiwuju 2012 nian gongzuo yaodian], 16 January 12. The 
``harmony and stability'' theme was reiterated by the Chairman of the 
Chinese People's Political Consultative Congress; see Zhang Zongtang, 
``Jia Qinglin Holds a Spring Festival Forum With Responsible Persons of 
Nationwide Religious Organizations'' [Jia qinglin yu quanguoxing 
zongjiao tuanti fuzeren juxing yingchun zuotan], Xinhua, 16 January 12.
    \12\ See, e.g., Wang Zuo'an, ``Bringing Into Play the Positive Role 
of Religious Circles in Cultural Building,'' People's Daily, 28 
December 11 (Open Source Center, 28 December 11). Wang said, 
``[R]eligious citizens have positively plunged into the cause of 
socialist modernization,'' ``religious circles have actively fit into 
socialist society,'' and ``religions in China have continued to expand 
their positive profile and function.''
    \13\ Wang Zuo'an, ``Bringing Into Play the Positive Role of 
Religious Circles in Cultural Building,'' People's Daily, 28 December 
11 (Open Source Center, 28 December 11).
    \14\ Fenggeng Yang, Religion in China: Survival and Revival Under 
Communist Rule (New York: Oxford University Press, 2012), 81. ``In 
practice, the SARA [State Administration for Religious Affairs] and 
lower-level RABs [Religious Affairs Bureaus] usually rule through the 
so-called patriotic religious associations. The associations of the 
five official religions are nongovernmental organizations in name, but 
they function as an extension and delegation of the RAB,'' Yang said.
    \15\ Zheng Leguo, ``A General Interpretation of Religious Policy 
and Tactics in China--Defense of Rights Through Legal Means Against 
Religious Persecution,'' China Law and Religion Monitor, Vol. 7, No. 1 
(January-June 2011), 22-23; Liu Peng, ``House Churches: Issues and 
Solutions,'' Chinese Law and Religion Monitor, Vol. 7, No. 2 (July-
December 11), 66-67. According to Liu, ``[R]eligious organizations 
under the management of government'' became obedient ``subordinates of 
the government,'' ``politicized, bureaucratized and 
institutionalized.'' The relationship between the associations and the 
government is also discussed in Zhang Qianfan and Zhu Yingjing, Pu Shi 
Institute for Social Sciences, ``Religious Freedom and Legal 
Restrictions: Theory and Practice in China,'' 16 February 12, part IV, 
sec. 7.
    \16\ Fenggeng Yang, Religion in China: Survival and Revival Under 
Communist Rule (New York, Oxford University Press, 2012), 78-79. The 
senior officials of the UFWD are listed in the following source: China 
Directory 2012, ed. Radiopress (Tokyo: JPM Corporation, Ltd., December 
2011), 17.
    \17\ Gu Ruizhen, ``Jia Qinglin Meets With the Delegates of the 
Ninth China Islamic National Conference,'' Xinhua, 16 September 11 
(Open Source Center, 16 September 11).
    \18\ Du Qinglin, ``Vigourously Strengthening United Front Cultural 
Construction,'' Qiushi, 1 April 12 (Open Source Center, 2 April 12). 
The article ended with Du's admonition that ``[w]e must . . . defend 
against international enemy forces using culture to conduct 
infiltration and project harmful cultural influences.''
    \19\ Magda Hornemann, ``China: The Media, Popular Opinion, and 
Religious Freedom,'' Forum 18, 21 May 12.
    \20\ Zhang Qianfan and Zhu Yingjing, Pu Shi Institute for Social 
Sciences, ``Religious Freedom and Legal Restrictions: Theory and 
Practice in China,'' 16 February 12.
    \21\ New measures announced on the State Administration for 
Religious Affairs (SARA) Web site during the reporting period were 
SARA, ``Circular on the Printing and Distribution of Records of 
Catholic Bishops (Trial)'' [Guanyu yinfa ``zhongguo tianzhujiao zhujiao 
bei'an banfa (shixing)'' de tongzhi], 5 June 12; SARA, Party Central 
Committee United Front Work Department, National Development and Reform 
Commission, Ministry of Civil Affairs, Ministry of Finance, and State 
Administration of Taxation, ``Opinion on Encouraging and Standardizing 
Involvement by Religious Organizations in Public Interest Charitable 
Activities'' [Guanyu guli he guifan zongjiao jie congshi gongyi cishan 
huodong de yijian], 16 February 12; SARA, Ministry of Human Resources 
and Social Security, Ministry of Finance, Ministry of Civil Affairs, 
and Ministry of Health, ``Circular on Going a Step Farther To Solve the 
Social Benefits of Religious Personnel'' [Guanyu jinyibu jiejue 
zongjiao jiao zhi renyuan shehui baozhang wenti de tongzhi], 27 
December 11. For provincial-level regulations, see, e.g., Shandong 
Province Regulation on Religious Affairs [Shandong sheng zongjiao shiwu 
tiaoli], issued 29 September 11, effective 1 January 12; Gansu Province 
Regulation on Religious Affairs [Gansu sheng zongjiao shiwu tiaoli], 
issued 29 September 11, effective 1 December 12. For CECC analysis, see 
``Gansu and Shandong Provinces Issue New Regulations on Religion,'' 
Congressional-Executive Commission on China, 18 January 12.
    \22\ State Administration for Religious Affairs, Regulation on 
Religious Affairs [Zongjiao shiwu tiaoli], issued 30 November 04, 
effective 1 March 05. SARA's 2005 Regulation on Religious Affairs is 
discussed in Zhang Qianfan and Zhu Yingping, Pu Shi Institute for 
Social Sciences, ``Religious Freedom and Legal Restrictions: Theory and 
Practice in China,'' 16 February 12, part III.
    \23\ Jillian Kay Melchoir, ``China's Catholics Go to Camp,'' Wall 
Street Journal, 9 August 12. According to this report, ``The [2005 
regulations] do not explicitly guarantee religious freedom for minors, 
nor do they codify the rights of parents to offer religious instruction 
to their children. But they do forbid organizations or individuals from 
using religion `to obstruct the state education system,' which is often 
interpreted as a ban on religious private schools and religious 
instruction in public classrooms.''
    \24\ State Administration for Religious Affairs, Party Central 
Committee United Front Work Department, National Development and Reform 
Commission, Ministry of Civil Affairs, Ministry of Finance, and State 
Administration of Taxation, ``Opinion on Encouraging and Standardizing 
Involvement by Religious Organizations in Public Interest Charitable 
Activities'' [Guanyu guli he guifan zongjiaojie congshi gongyi cishan 
huodong de yijian], 16 February 12.
    \25\ Shawn Shieh, International Center for Not-for-Profit Law, 
``NGO Law Monitor: China,'' last visited 30 August 12; ``Charities Open 
to Religious Groups,'' China Daily, 28 June 12. According to the China 
Daily article, the approved types of activity are limited to disaster 
and poverty relief; care of the disabled, seniors, and children; 
providing education opportunities and medical care; environmental 
protection; and public facility construction. See also ChinaAid, ``Six 
Agencies of CCP Central Government Promulgated `Opinions' on Religious 
Charity Activities Aiming To Restrict and Utilize the Social Influence 
of Christianity,'' 5 March 12; ``New Beijing Limits on Religious NGOs 
`Complicate an Already Difficult Life,' '' AsiaNews, 2 March 12.
    \26\ State Administration for Religious Affairs, ``2011 Work 
Situation Report of the State Administration for Religious Affairs'' 
[Guojia zongjiao shiwu ju 2011 nian gongzuo qingkuang baogao], 16 
January 12; State Administration for Religious Affairs, ``State 
Administration for Religious Affairs' 2012 Main Points of Work'' 
[Guojia zongjiao shiwuju 2012 nian gongzuo yaodian], 16 January 12. For 
an example from one province, see ``The Experiences and Revelations of 
the Shandong Province Harmonious Religious Activity Center'' [Shandong 
sheng hexie zongjiao huodong changsuo chuangjian huodong de jingyan yu 
qishi], China Religion, 31 December 11.
    \27\ Gao Guanxi, Pu Shi Institute for Social Sciences, ``The Dual 
System in the Rule of Law in the Regulation of Religious Affairs and 
the Problems of the System in Present China,'' 16 February 12, part II.
    \28\ State Administration for Religious Affairs, ``Shanxi 
Provincial Buddhist Association Holds 8th Permanent Member Conference 
in Taiyuan'' [Shanxi sheng fojiao xiehui ba jie erci changwu lishi 
huiyi zai taiyuan zhaokai], 15 December 11. See also ``Ningbo City 
Buddhist Association Studies Religious Policy Regulations'' [Ningbo shi 
fojiao xiehui zhuanti xuexi zongjiao zhengce fagui fabu shijian], 
Ningbo Nationalities Religion Net, 11 June 12.
    \29\ ``Promoting Religious Harmony and Serving Scientific 
Development,'' People's Daily, 10 January 11 (Open Source Center, 20 
January 12).
    \30\ State Administration for Religious Affairs, ``State 
Administration for Religious Affairs' 2012 Main Points of Work'' 
[Guojia zongjiao shiwuju 2012 nian gongzuo yaodian], 16 January 12.
    \31\ ``First Modern Buddhist College Opens,'' China Daily, 9 April 
12; ``Henan's First Buddhist Colleges and Universities Completed Shi 
Dean,'' Inside China, 8 April 12.
    \32\ ``Chinese Leave Buddhist Fellowship Meeting Because of Tibetan 
Presence,'' AsiaNews, 13 June 12; ``S. Korean Buddhists Regret China's 
Boycott of World Conference,'' Yonhap News Agency, 14 June 12; 
``Editorial: PRC's Religious Freedom Not for All,'' Taipei Times, 16 
June 12.
    \33\ Thirteen Chinese Catholics were listed as prisoners as of July 
23, 2012, on the list maintained by Open Doors USA. ``Chinese 
Prisoners,'' Open Doors USA, last visited 17 July 12. A Catholic 
newspaper in Hong Kong highlighted nine individuals: Bishop Su Zhimin, 
Bishop Shi Enxiang, Father Lu Genjun, Father Zhang Jianlin, Father Cui 
Tai, Father Liu Honggen, Father Ma Wuyong, Father Wang Chengli, and 
Bishop Wu Qinjing. ``Bishops and Priests Currently Being Held in 
China,'' Sunday Examiner, last visited 21 July 12.
    \34\ Francis X. Rocca, ``Calm and Collected: Amid Crisis, Vatican 
Diplomacy Shows `Maturity,' '' Catholic News Service, 6 January 12. 
Cardinal Joseph Zen Ze-kiun provided additional details and perspective 
in ``What Is the True Good of the Church in China,'' AsiaNews, 8 
February 12. See also ``UK Daily Criticizes China's `Short-Sighted' 
Curbs on Religious Practice,'' London Times, 10 July 12 (Open Source 
Center, 11 July 12). The article noted, ``[S]ince the Olympics in 2008, 
attitudes in Beijing have clearly hardened. Numerous bishops have been 
appointed without Vatican approval, reportedly in ceremonies overseen 
by clergy who had been kidnapped.''
    \35\ Bernardo Cervellera, ``Msgr. Savio Hon: Episcopal Ordinations 
With No Papal Mandate Reveal Party's Lack of Ideals and Internal 
Fighting,'' AsiaNews, 15 June 12; Bernardo Cervellera, ``The New Maoism 
That Suffocates the Church and China,'' AsiaNews, 25 April 12; Frank 
Ching, ``EJ Insight: Impasse in Sino-Vatican Ties Unlikely To End 
Anytime Soon,'' Hsin Pao (Hong Kong Economic Journal), 19 July 12 (Open 
Source Center, 19 July 12); Wang Zhicheng, ``Harbin Catholics Oppose 
Ordination Wanted by Party, but Not the Pope,'' AsiaNews, 4 July 12.
    \36\ ``Vatican Blasts `Illicit' Ordination in China,'' Al Jazeera, 
10 July 12.
    \37\ ``China Ordains Bishop, Defies Vatican,'' Agence France-
Presse, 6 July 12; ``Apostolic Administrator of Harbin `Missing' on Eve 
of Illicit Ordination,'' AsiaNews, 4 July 12; Jian Mei, ``Harbin's 
Illicit Ordination Strengthens `Excommunicated.' Apostolic 
Administrator Released,'' AsiaNews, 6 July 12.
    \38\ Eugenia Zhang, ``Card Zen and Hong Kong Catholics Pray for Mgr 
Daqin and the Suffering Church in China,'' AsiaNews, 17 July 12; Jian 
Mei, ``Harbin's Illicit Ordination Strengthens `Excommunicated.' 
Apostolic Administrator Released,'' AsiaNews, 6 July 12.
    \39\ ``State Religious Affairs Administration Spokesman Rebukes 
Vatican on Ordination,'' Xinhua, 4 July 12 (Open Source Center, 4 July 
12). An editorial in the Global Times, which operates under the 
People's Daily, criticized ``the obsession with power which has 
appeared repeatedly in the history of the Holy See.'' ``Vatican Needs 
To Adapt to Local Systems,'' Global Times, 15 July 12 (Open Source 
Center, 16 July 12). See also ``Vatican Note on Harbin Episcopal 
Ordination,'' AsiaNews, 4 July 12; Bernardo Cervellera, ``Beijing's 
Sermon: Vatican `Barbarous and Irrational' Over Harbin Ordination,'' 
AsiaNews, 5 July 12.
    \40\ Bernardo Cervellera, ``A Blow to Patriotic Association: The 
Bishop of Shanghai a Prophet and Hero,'' AsiaNews, 10 July 12.
    \41\ ``Chinese Bishop Held in Isolation After Quitting Government 
Posts in Challenge to Beijing,'' Associated Press, 10 July 12; 
``Catholic Bishop Ma Daqin Loses Freedom of Movement After Withdrawing 
From CPA'' [Ma daqin shenfu tuichu aiguohui hou shiqu xingdong ziyou], 
Voice of America, 9 July 12; Eugenia Zhang, ``Card Zen and Hong Kong 
Catholics Pray for Mgr Daqin and the Suffering Church in China,'' 
AsiaNews, 17 July 12; Jian Mei, ``Mgr Ma Daqin, Auxiliary Bishop of 
Shanghai, Restarts His Blog,'' AsiaNews, 16 July 12; ``China 
`Investigating' Bishop Over Split From State-Sanctioned Catholic 
Group,'' Agence France-Presse, 12 July 12 (Open Source Center, 12 July 
12); Frank Ching, ``EJ Insight: Impasse in Sino-Vatican Ties Unlikely 
To End Anytime Soon,'' Hsin Pao (Hong Kong Economic Journal), 19 July 
12 (Open Source Center, 19 July 12).
    \42\ Wang Zhicheng, ``Police Pressure on Underground Community, 
Easter in the Church of Silence,'' AsiaNews, 7 April 12; ``Underground 
Bishop Undergoes `Study,' '' UCANews, 11 January 12; ``Two Underground 
Bishops Released, but Many Priests Are Arrested,'' AsiaNews, 17 April 
12. See also the comment of Patrick Poon, ``[P]olice tend to confine 
[underground clergy] in detention centers, guesthouses or force them to 
take the so-called learning class for a prolonged period of time 
without giving any reason,'' in ``New Law Leaves Catholics 
Vulnerable,'' UCANews, 22 March 12.
    \43\ Wang Zhicheng, ``Inner Mongolia: Campaign of Persecution 
Against Underground Church,'' AsiaNews, 24 February 12; ``Detained 
Suiyuan Priests Released,'' UCANews, 8 February 12.
    \44\ ``Month Long Chinese Crackdown on Donglu Marian Shrine,'' 
AsiaNews, 24 May 12. The authorities also maintained tight security at 
the Sheshan shrine. See, e.g., Jian Mei, ``Thousands of Pilgrims Reach 
Sheshan on Pope's Day of Prayer,'' AsiaNews, 24 May 12.
    \45\ For a review, see ``A Systematic Suppression of 100 Million 
People,'' Falun Dafa Information Center, 4 July 12.
    \46\ CECC, 2011 Annual Report, 10 October 11, 99-100.
    \47\ Guizhou Province Rural Economic Information Center, ``Banzhu 
Village 2012-2014 Tackling Program Implementation for Education and 
Transformation'' [Banzhu xiang 2012 nian-2014 nian jiaoyu zhuanhua 
gongjian shishi fang'an], 21 April 12. See also Shangcheng District 
Government, ``Shangcheng District, Units Directly Under the Leading 
Groups, 2012-2016 Term Goals,'' 10 May 12. The 2012-2016 goals 
statement for Shangcheng district, Hangzhou city, Zhejiang province, 
emphasized expanded numbers of cult-free city blocks.
    \48\ Amnesty International, ``Amnesty International Report 2012, 
the State of the World's Human Rights,'' 2012, 109.
    \49\ ``Chinese Regime's Persecution of Falun Gong: 2011 Death 
Toll,'' New Tang Dynasty Television, 26 January 12.
    \50\ ``Gruesome Death Toll--3533 Confirmed Dead--Tens of Thousands 
More To Be Confirmed,'' Clear Wisdom, 5 June 12.
    \51\ ``Chinese Regime's Persecution of Falun Gong: 2011 Death 
Toll,'' New Tang Dynasty Television, 26 January 12. The Falun Dafa 
Information Center provides monthly online reports of actions taken by 
Chinese authorities against practitioners. For another update, see 
``After 13 Years of Brutal Suppression, a Turning of the Tide? '' Falun 
Dafa Information Center, 18 July 12.
    \52\ China Anti-Cult Association, ``Xinzhou, Wuhan Wholeheartedly 
Prepares Education Transformation To Strengthen Overall Fight'' 
[Wuhanshi xinzhouqu quanli dahao jiaoyu zhuanhua gonggu zhengti zhang], 
20 June 12; ``National Anti-Cult Association Education Transformation, 
Strengthening, and Consolidation Exchange Conference Opens in 
Chongqing'' [Quanguo fan xiejiao xiehui jiaoyu zhuanhua gong jian yu 
gonggu jingyan jiaoliu hui zai chongqing zhaokai], Bayu Feng, 21 June 
12; Pukou Township People's Government, ``Pukou Township Implementation 
Program To Transform `Falun Gong' Personnel'' [Pukou xiang zhuanhua 
``falun gong'' renyuan shishi fang'an], reprinted in Government 
Information Opening Platform of Gaoyang County, 24 February 12; Ding 
Yixin, ``Exert the Association's Function, Innovate in Social 
Management'' [Fahui xiehui gongneng, chuangxin shehui guanli], China 
Anti-Cult Net, 5 May 12.
    \53\ Pukou Township People's Government, ``Pukou Township 
Implementation Program To Transform `Falun Gong' Personnel'' [Pukou 
xiang zhuanhua ``falun gong'' renyuan shishi fang'an], reprinted in 
Government Information Opening Platform of Gaoyang County, 24 February 
12; Ding Yixin, ``Exert the Association's Function, Innovate in Social 
Management'' [Fahui xiehui gongneng, chuangxin shehui guanli], China 
Anti-Cult Net, 5 May 12. See also Xin'gan County Open Government 
Information Platform, ``Jinchuan Town's 2012 Work Report on Preventing 
and Dealing With Cults'' [Guanyu yinfa ``jinchuan zhen 2012 nian 
fangfan he chuli xiajiao gongzuo yaodian''], 22 April 12; Jiangxi 
Xinfeng Second High School, ``Xinfeng Second High School Anti-Cult 
Warning Educational Propaganda Materials (2)'' [Xinfeng erzhong fan 
xiejiao jingshi jiaoyu xuanchuan ziliao (2)], 3 August 12.
    \54\ See, e.g., Yuhang Science and Technology Museum, ``An 
Investigation of Psychological Intervention Strategy for `Falun Gong' 
Obsessives Based on Motivation Change Theory'' [Jiyu dongji gaibian 
lilun de ``falun gong'' chimizhe xinli ganyu celue tantao], 11 July 12. 
The article added that ``Some researchers conducted personality 
analysis of Falun Gong obsessives, and they found that these persons 
more commonly have paranoid, suspicious, narrow, selfish, and 
introverted personality characteristics.''
    \55\ Li Xiangyong, Hunan Province Anti-Cult Association, ``How To 
Do a Good Job in Educating and Transforming Falun Gong Practitioners'' 
[Qian yi ruhe zuo hao falun gong lianxizhe de jiaoyu zhuanhua gongzuo], 
23 August 12.
    \56\ Liu Jun, ``Xinzhou, Wuhan Wholeheartedly Prepares Education 
Transformation To Strengthen Overall Fight'' [Wuhanshi xinzhouqu quanli 
dahao jiaoyu zhuanhua gonggu zhengti zhang], China Anti-Cult Net, 20 
June 12.
    \57\ Ibid.
    \58\ Ge'ermu Reeducation Through Labor and Drug Rehabilitation 
Center, ``Reform and Development Require Strides, Innumerable Great 
Achievements Create Brilliance--Meritorious Deeds of the Reeducation 
Through Labor and Drug Rehabilitation Center Political Legal System in 
Golmud, Qinghai'' [Gaige fazhan qiu kuayue shuoguo leilei chuang 
huihuang--qinghai sheng ge'ermu laojiao (qiangjie) suo zhengfa xitong 
xianjin shiji cailiao], reprinted in Qinghai Reeducation Through Labor 
Administration and Qinghai Drug Rehabilitation Administration Web site, 
31 May 12.
    \59\ Sarah Cook and Leeshai Lemish, Jamestown Foundation, ``The 610 
Office: Policing the Chinese Spirit,'' China Brief, Vol. 11, No. 17 (16 
September 11); World Organization To Investigate the Persecution of 
Falun Gong, ``Investigative Report on the `610 Office,' '' 8 September 
03, updated 1 February 11; Guangxi Art Institute, ``What Is the 610 
Office? '' 1 March 10. In a recent article on local government measures 
to bring house churches into the government's management system, Yang 
Kaile mentions that 610 offices identify unlawful religious groups. See 
Yang Kaile, ``Basic Principles for Managing Privately Set-Up Christian 
Meeting Sites,'' Chinese Law and Religion Monitor, Vol. 8, No. 1 
(January-June 2012), 77-81, 83; Tongzhou City Government, ``Ordinary 
Job Creating Great Success--District Committee's 610 Office Secretariat 
Chief Wang Xiaomei'' [Pingfan gangwei chuang jiaji--jiqu wei 610 
bangongshi mishu ke kezhang wang xiaomei], 15 June 12. This article on 
the director of the 610 Office in Tongzhou city, Jiangsu province, 
hailed his mastery of the network activity patterns of foreign cults.
    \60\ For a personal testimony on ``reeducation'' classes, see 
Investigating the Chinese Threat, Part Two: Human Rights Abuses, 
Torture and Disappearances, Hearing of the Foreign Affairs Committee, 
U.S. House of Representatives, 25 July 12, Testimony of Li Hai. For 
further analysis on the reasoning behind ``transformation,'' see Ruo 
Shui, ``Analysis of Several Different Modes of Rescue'' [Dui jizhong 
butong wanjiu moshi de fenxi], Kaifeng Net, reprinted in Qianjiangchao 
Net, 10 February 11.
    \61\ Bureau of Democracy, Human Rights, and Labor, U.S. Department 
of State, ``International Religious Freedom Report for 2011, China 
(Includes Tibet, Hong Kong, and Macau),'' 30 July 12, 8.
    \62\ Bureau of Democracy, Human Rights, and Labor, U.S. Department 
of State, ``Country Reports on Human Rights Practices--2011, China 
(Includes Tibet, Hong Kong, and Macau),'' 24 May 12, 4-5. See also 
``Call for End to `Psychiatric' Detention,'' Radio Free Asia, 27 
October 11; ``Chinese Regime's Persecution of Falun Gong: 2011 Death 
Toll,'' New Tang Dynasty Television, 26 January 12; Chinese Human 
Rights Defenders, ``The Darkest Corners: Abuses of Involuntary 
Psychiatric Commitment in China,'' 6 August 12; Human Rights Watch, 
``Chinese Addiction Study and Human Rights,'' 2 August 12.
    \63\ Pi Chengda, China Anti-Cult Association, ``Ezhou, Hubei 
Launches `Families Rejecting Evil Cults' Campaign'' [Hubei ezhoushi 
kaizhan ``jiating jujue xiejiao'' huodong], 15 December 11. For an 
example of anti-cult ``warning'' work, see Ji'an People's Government, 
``Circular on Doing Anti-Cult Education Warning Work Well in Xinjiang 
Village in 2012'' [Xinjiang xiang guanyu zuohao 2012 nian fanxie jiaoyu 
jingshi jiaoyu gongzuo de tongzhi], 17 May 12.
    \64\ Zhao Hongzheng, China Anti-Cult Association, ``Jiangsu, Xinyi 
Anti-Cult Association Appeals to All Members To Use Dragon Boat 
Festival Text Messages To Launch Anti-Cult Propaganda'' [Jiangsu sheng 
xinyi shi fan xiejiao xiehui haozhao quanti huiyuan yong duanwu jie 
duanxin kaizhan fang xie xuanchuan], 24 June 12; China Anti-Cult 
Association, ``Tangshan City, Hebei Province Anti-Cult Association 
Creates Anti-Cult QQ Online Information-Sharing Platform'' [Hebei sheng 
tangshan shi fan xiejiao xiehui jianli fan xiejiao QQ qun goujian fan 
xiejiao wangluo jiaoliu xinxi pingtai], 22 June 12.
    \65\ ``Interview: Bruce Chung Tells of Detention Hell,'' Taipei 
Times, 26 August 12 (Open Source Center, 26 August 12).
    \66\ See, e.g., ``Three Falun Gong Scholars in Chengdu Put in 
Criminal Detention for Transporting Propaganda Material'' [Chengdu san 
falun gong xueyuan yun xuanchuan pin bei xingju], Radio Free Asia, 20 
July 12; ``Having Endured Repeated Detention in the Past, Ms. Wang 
Yanjun Is Illegally Arrested Again,'' Clear Wisdom, 30 October 11; 
``Sichuan Judge Sends Seven Falun Gong Practitioners to Prison After 
Mockery of a Trial,'' Falun Dafa Information Center, 13 October 11.
    \67\ See, e.g., Gu Qing'er, ``Chinese Lawyers Who Defended Falun 
Gong: Wei Liangyue,'' Epoch Times, 16 June 12; ``Inside China: 
Imprisoned Human Rights Lawyer Who Defended Falun Gong in Danger,'' 
Falun Dafa Information Center, 16 June 12; Gu Qing'er, ``Chinese 
Lawyers Who Defended Falun Gong: Wang Yonghang,'' Epoch Times, 16 June 
12.
    \68\ ``Beijing Court Withdraws Probation on Ex-Lawyer Convicted of 
Overthrowing State,'' Xinhua, 16 December 11; Andrew Jacobs, ``Family 
Visits Rights Lawyer Held in China,'' New York Times, 28 March 12; 
ChinaAid, ``ChinaAid News Flash: Gao Zhisheng Alive! Family Visits Him 
in Prison,'' 28 March 12. See the Commission's Political Prisoner 
Database record 2005-00291 for more information on Gao Zhisheng's case.
    \69\ Gu Ruizhen, ``Jia Qinglin Addresses Delegates to Ninth China 
Islamic Conference,'' Xinhua, 16 September 11 (Open Source Center, 16 
September 11).
    \70\ ``Chen Guangyuan Reelected President of Islamic Association of 
China,'' Xinhua, 15 September 11 (Open Source Center, 19 September 11).
    \71\ ``Solidly and Effectively Promoting the Undertaking of 
Progress in Ethnic Solidarity in Ningxia,'' Beijing Qiushi (Open Source 
Center, 1 May 12). See also ``Ningxia Holds Ethnic and Religious 
Affairs Directors Meeting,'' ``Ningxia Vice Chairman Urges Major Role 
for Religious Personages in Maintaining Ethnic Unity,'' and ``Yinchuan 
Firmly Promotes Activities for Establishment of Ethnic Unity and 
Progress,'' in ``Highlights: Reports on Ethnic Stability Issues in PRC 
Provinces 1 September-30 November 2011,'' Open Source Center, 30 
December 11.
    \72\ ``Islam Flourishes in China's Ningxia Region,'' Voice of 
America, 26 June 12.
    \73\ State Administration for Religious Affairs, ``Measures for 
Accrediting Islamic Clergy'' [Yisilan jiao jiaozhi renyuan zige rending 
banfa], 20 December 10.
    \74\ Daisuke Nishimura, ``China's Muslims Making the Pilgrimage to 
Mecca,'' Asahi Shimbun, 31 December 11.
    \75\ ``PRC: Table of Contents of `Blue Book of Religions (2011),' 
'' Open Source Center, 21 January 12.
    \76\ State Administration for Religious Affairs, Regulation on 
Religious Affairs [Zongjiao shiwu tiaoli], issued 30 November 04, 
effective 1 March 05, art. 11. Article 11 states: ``The making of Hajj 
abroad by Chinese citizens who believe in Islam shall be organized by 
the national religious body of Islam.'' For patriotic education, see 
Ananth Krishnan, ``China's Uighur Muslims Yearn for Liberal Hajj 
Regime,'' Hindu, 29 October 11.
    \77\ State Administration for Religious Affairs, ``State 
Administration for Religious Affairs' 2012 Main Points of Work'' 
[Guojia zongjiao shiwuju 2012 nian gongzuo yaodian], 16 January 12.
    \78\ ``Promoting Religious Harmony and Serving Scientific 
Development,'' People's Daily, 10 January 11 (Open Source Center, 20 
January 12).
    \79\ ``Chinese State Shura? China's Islamic Association and Its 
Interpretation of Islamic Texts,'' Xinjiang Review, 28 April 11; 
``Promoting Religious Harmony and Serving Scientific Development,'' 
People's Daily, 10 January 11 (Open Source Center, 20 January 12); 
State Administration for Religious Affairs, ``2011 Work Situation 
Report of the State Administration for Religious Affairs'' [Guojia 
zongjiao shiwu ju 2011 nian gongzuo qingkuang baogao], 16 January 12.
    \80\ State Administration for Religious Affairs, ``2011 Work 
Situation Report of the State Administration for Religious Affairs'' 
[Guojia zongjiao shiwu ju 2011 nian gongzuo qingkuang baogao], 16 
January 12. See also ``Chinese State Shura? China's Islamic Association 
and Its Interpretation of Islamic Texts,'' Xinjiang Review, 28 April 
11.
    \81\ Changde People's Government, ``Municipal Ethnic and Religious 
Affairs Bureau: Serve With Close Feelings, Promote Ethnic and Religious 
Work'' [Shimin zong ju: yi tiexin fuwu cujin minzu zongjiao gongzuo], 
28 December 11.
    \82\ Haidong District Public Security Bureau, ``Haibei Menyuan 
Malian Police Station Uses Real Power of Action To Promote `Three 
Visits Three Appraisals' Activity'' [Haibei menyuan malian paichusuo yi 
shiji xingdong li tui ``san fang san ping'' huodong], reprinted in 
Qinghai Province Public Security Department, 19 January 12.
    \83\ ``Two Villagers Die in Clash Over Mosque's Demolition,'' South 
China Morning Post, 3 January 12 (Open Source Center, 3 January 12). A 
police officer was paraphrased in this South China Morning Post report 
as saying that ``those involved in building the mosque were linked to 
shadowy Islamic groups from the provinces of Yunnan, Gansu and Xinjiang 
and that the building had not been . . . properly approved.'' A local 
resident cited in the report said county officials had authorized the 
construction. He reported that two villagers died in the clash and that 
authorities detained protesters and restricted the free flow of 
information after the incident. Other reports described the mosque as a 
reconstruction or renovation of an earlier structure established in 
1987. See ``Muslims Clash With China Police Who Destroyed Mosque,'' 
Agence France-Presse, 2 January 12 (Open Source Center, 2 January 12); 
``Beijing Rejects Death Claims,'' Radio Free Asia, 4 January 12. See 
also Tongxin County Government, ``Government Work Report'' [Zhengfu 
gongzuo baogao], 4 January 12. The work report, delivered four days 
before the reported demolition, called for ``strictly prohibiting 
arbitrary (suiyi) new construction, expansion, and chaotic construction 
of mosques.''
    \84\ ``OIC Statement on Mosque Destruction in Ningxia Hui 
Autonomous Region, China,'' International Islamic News Agency, 4 
January 12. See also National Model United Nations, ``Organisation of 
Islamic Cooperation,'' last visited 27 July 12, 3, 4.
    \85\ ``China Jails 14 Over Mosque Clash,'' Radio Free Asia, 26 June 
12.
    \86\ For a comprehensive review, see Zhang Shoudong, Pu Shi 
Institute for Social Sciences, ``Analysis of House Churches and the 
Relationship Between State and Religion,'' 16 February 12. Difficulties 
in the process of registration are discussed in Xing Fuzeng, Pu Shi 
Institute for Social Sciences, ``Freedom of Association and Religious 
Freedom: The Regulation and Registration of Chinese Religious 
Organizations,'' 16 February 12, part IV.
    \87\ Liu Peng, ``House Churches: Issues and Solutions,'' Chinese 
Law and Religion Monitor, Vol. 7, No. 2 (July-December 2011), 60, 76-
79.
    \88\ Shandong Province Regulation on Religious Affairs [Shandong 
sheng zongjiao shiwu tiaoli], enacted 29 September 11, effective 1 
January 12.
    \89\ CECC, 2011 Annual Report, 10 October 11, 103.
    \90\ ChinaAid, ``ChinaAid Special Report: Chinese Government 
Launches New Campaign To Eradicate House Churches,'' 22 April 12.
    \91\ Ibid.
    \92\ ``Yuhuan County, Zhejiang, Establishes Electronic Files on 
`Basic Situation of County-Wide Religious Personnel' '' [Zhejiang 
yuhuan xian jianli ``quan xian zongjiao zhi renyuan jiben qingkuang'' 
dianzi dang'an], Buddhism-Online, 16 October 11.
    \93\ Yang Kaile, ``Basic Principles for Managing Privately Set-Up 
Christian Meeting Sites,'' Chinese Law and Religion Monitor, Vol. 8, 
No. 1 (January-June 2012), 77-81.
    \94\ Ibid., 83.
    \95\ ChinaAid, ``Government of Mengka Township, Ximeng County, 
Yunnan Province Confiscates Bibles, Threatens and Suppresses 
Christians,'' 21 July 12; ChinaAid, ``Police Raid House Church in 
Jiangxi Province,'' 8 July 12; ``House Church Baptism Disrupted by 
Raid,'' Voice of the Martyrs, 28 June 12; ChinaAid, ``Chinese Theology 
Association Teacher Training Camp Harassed by State Security, Forced To 
Stop'' [Zhongguo shenxue xiehui jiaoshi xunlianying shou guo'an saorao 
beipo zhongzhi], 26 June 12; ``Sichuan Langzhong Jinya Church Raided: 
Church Sues City Public Security Bureau Director'' [Sichuan langzhong 
jinya jiaohui zao chachao jiaohui zhuanggao shi gong'an juzhang], Radio 
Free Asia, 18 June 12; ``Arrest Notice [24 May 12],'' Chinese Law and 
Religion Monitor, Vol. 8, No. 2 (January-June 2012), 121; ChinaAid, 
``House Churches in Multiple Provinces Attacked by Local Government,'' 
27 April 12; ``Criminal Detention Notice: Many Members of the Daying 
Village House Church, April 2012,'' Chinese Law and Religion Monitor, 
Vol. 8, No. 1 (January-June 2012), 120; ``House Church Raided, 
Believers Detained,'' Voice of the Martyrs, 29 March 12; ``Public 
Security Administrative Penalty Decision: Zhong Shuguang,'' 9 March 12, 
reprinted in Chinese Law and Religion Monitor, Vol. 8, No. 1 (January-
June 2012), 119; ``Christian Student Fellowship Banned in Inner 
Mongolia,'' Voice of the Martyrs, 27 October 11. See, for instance, the 
order of the Lizhou District Bureau for Ethnic and Religious Affairs of 
Guangyuan Municipality, 24 June 11, reprinted in Chinese Law and 
Religion Monitor, Vol. 7, No. 2 (July-December 2011), 107-8; ``Petition 
of Shangxi House Church, September 13, 2011,'' Chinese Law and Religion 
Monitor, Vol. 7, No. 2 (July-December 2011), 108-116; ``The Criminal 
Detention Notice for Pastor Shi Enhao [21 June 11],'' Chinese Law and 
Religion Monitor, Vol. 7, No. 1 (January-June 2011), 78; ``Notification 
of Penalties on Du Xianping and Zhao Ximei [23 February 11],'' Chinese 
Law and Religion Monitor, Vol. 7, No. 1 (January-June 2011), 57; 
``Interrogation Notice for Dr. Fan Yafeng, Nov. 24, 2010,'' Chinese Law 
and Religion Monitor, Vol. 7, No. 1 (January-June 2011), 6; 
``Administrative Detention Notice Issued to Mr. Liu Jintao [9 October 
10],'' Chinese Law and Religion Monitor, Vol. 7, No. 1 (January-June 
2011), 14. Twenty Chinese Protestants are listed as prisoners on the 
list maintained by Open Doors USA. See Open Doors USA, ``Chinese 
Prisoners,'' last visited 17 July 12.
    \96\ ``Update: Pastor Released Early From Prison,'' Voice of the 
Martyrs, 22 September 11; ChinaAid, ``Imprisoned Christian Newspaper 
Editor, South China Church Leader Li Ying Released Five Years Early,'' 
22 February 12.
    \97\ ChinaAid, ``More Details About Raid on House Church in Jiangxi 
Province,'' 11 July 12; ChinaAid, ``Xinjiang House Church Seeking Legal 
Action Against Local Police for Earlier Persecution Is Targeted Again; 
Police Detain 17 Believers, Confiscate Church Books,'' 22 July 12; 
``House Church Raided, Believers Detained,'' Voice of the Martyrs, 29 
March 12; ``Update: House Church Leader Released From Prison,'' Voice 
of the Martyrs, 2 February 12.
    \98\ Yin Yeping, ``Police Stop Illegal House Church Service,'' 
Global Times Online, 22 August 12 (Open Source Center, 22 August 12); 
``Update: New Year Brings Renewed Efforts To Prevent Worship at 
Shouwang Church,'' Voice of the Martyrs, 19 January 12. For a 
comprehensive review of Chinese officials' persecution of Shouwang 
Church members, see Liu Peng, Pu Shi Institute for Social Sciences, 
``How To Treat House Churches: A Review of the Beijing Shouwang Church 
Incident,'' 16 February 12. See also Bureau of Democracy, Human Rights, 
and Labor, U.S. Department of State, ``International Religious Freedom 
Report for 2011: China (Includes Tibet, Hong Kong, and Macau),'' 30 
July 12, 11; Amnesty International, ``Amnesty International Report 
2012, the State of the World's Human Rights,'' 2012, 108-9. For the 
church's youth sports programs, see ChinaAid, ``Shouwang Church Members 
Subjected to Two Days of Persecution Last Weekend,'' 20 June 12.
    \99\ ``House Church in Xilinhot City, IMAR, Oppressed: Attacked, 
Damaged, Locked Up, and People Taken Away'' [Mengguxi shi jiating 
jiaohui zaoshou bipo: chongji, pohuai, shang suo, zhua ren], Voice of 
China, 16 February 12; Joseph DeCaro, ``House Church in Xilinhot 
Raided: Officials Destroy Property, Detain Pastor,'' China Persecution 
Magazine, 24 February 12.
    \100\ ChinaAid, ``Church in Hefei, Anhui Province Illegally 
Demolished by Government-Backed Real Estate Developers,'' 13 May 12.
    \101\ ``House Church Asked To Halt Activities,'' Radio Free Asia, 
22 May 12.
    \102\ ``Promoting Religious Harmony and Serving Scientific 
Development,'' People's Daily, 10 January 11 (Open Source Center, 20 
January 12); State Administration for Religious Affairs, ``State 
Administration for Religious Affairs' 2012 Main Points of Work'' 
[Guojia zongjiao shiwuju 2012 nian gongzuo yaodian], 16 January 12.
    \103\ Fenggeng Yang, Religion in China: Survival and Revival Under 
Communist Rule (New York, Oxford University Press, 2012), 153-54. 
Religious groups must obtain a certificate of permission for 
publications. See also Zhang Qianfan and Zhu Yingjing, Pu Shi Institute 
for Social Sciences, ``Religious Freedom and Legal Restrictions: Theory 
and Practice in China,'' 16 February 12. See also State Administration 
for Religious Affairs, Regulation on Religious Affairs [Zongjiao shiwu 
tiaoli], issued 30 November 04, effective 1 March 05, art. 7.
    \104\ Bureau of Democracy, Human Rights, and Labor, U.S. Department 
of State, ``International Religious Freedom for 2011: China (Includes 
Tibet, Hong Kong, and Macau),'' 30 July 12, 6. See also Andrew Jacobs, 
``Spreading the Faith Where Faith Itself Is Suspect,'' New York Times, 
10 July 12. See also the comments on Bibles in Part III, ``Registration 
of Religious Organizations,'' in Xing Fuzeng, Pu Shi Institute for 
Social Sciences, ``Freedom of Association and Religious Freedom: The 
Regulation and Registration of Chinese Religious Organizations,'' 16 
February 12. See also ChinaAid, ``Shaanxi Province Authorities Target 
House Church, Confiscate Officially Published Bibles,'' 18 July 12.
    \105\ See the Web site of the International Telecommunications 
Union for a copy of the ruling and the definition. Supreme People's 
Court and Supreme People's Procuratorate, ``Explanations of the Supreme 
People's Court and the Supreme People's Procuratorate on Some Questions 
on Specific Applications of the Laws in Handling the Cases of 
Organizing and Using Cults for Criminal Activities,'' 8 October 99.
    \106\ Fenggeng Yang, Religion in China: Survival and Revival Under 
Communist Rule (New York, Oxford University Press, 2012), 103-5, 115-
16. The listed groups were Shouters, Established King, Lightning From 
the East, Lord God Sect, Lingling Sect, All Scope Church, South China 
Church, Disciples Sect (Narrow Gate), Three Ranks of Servants, Cold 
Water Sect, Commune Sect, New Testament Church/Apostles Faith Sect, 
Resurrection Sect, Dami Evangelization Association, and World Elijah 
Evangelism Association. Sixteen qigong ``cults'' were banned the same 
year as Falun Gong.
    \107\ ``Capital Area Cracks Down on Evil Cults To Maintain 
Stability in Lead-Up to 18th Party Congress'' [Jingji yanda xiejiao 
weiwen ying shiba da], Ming Pao, 20 July 12.
    \108\ Chinese Taoist Association, ``Organizational Outline'' 
[Xiehui jianjie], last visited 16 August 12.
    \109\ Ibid.
    \110\ ``Promoting Religious Harmony and Serving Scientific 
Development,'' People's Daily, 10 January 11 (Open Source Center, 20 
January 12).
    \111\ ``Modernize Taoism To Promote the Religion: Former Chinese 
Legislator,'' Xinhua, 25 October 11.
    \112\ ``China Promoting Taoism's Influence Abroad,'' Xinhua, 23 
October 11; Zhao Qiguang, ``Taoism Also Part of China's Soft Power,'' 
People's Daily, 11 July 12.
    \113\ Ian Johnson, ``Are China's Rulers Getting Religion? '' New 
York Review of Books Blog, 29 October 11.
    \114\ Ibid.
    \115\ Ibid.
    \116\ State Administration for Religious Affairs, ``Thoughts on 
Performing Religious Work Well During the `12th Five-Year Plan' 
Period'' [Guanyu zuohao ``shier wu'' shiqi zongjiao gongzuo de sikao], 
29 January 11.
    \117\ State Administration for Religious Affairs, ``State 
Administration for Religious Affairs' 2012 Main Points of Work'' 
[Guojia zongjiao ju shiwuju 2012 nian gongzuo yaodian], 16 January 12.
    \118\ Email from the Director of Public and International Affairs 
of the Church of Jesus Christ of Latter-day Saints, Washington, DC, 31 
July 12.
    \119\ Bernardo Cervellera, ``Hilarion's Act: Russian Orthodox 
Metropolitan Meets Chinese Excommunicated Bishop,'' AsiaNews, 22 June 
12.
    Notes to Section II--Ethnic Minority Rights

    \1\ International Covenant on Civil and Political Rights, adopted 
by UN General Assembly resolution 2200A (XXI) of 16 December 66, entry 
into force 23 March 76, art. 27.
    \2\ See generally PRC Regional Ethnic Autonomy Law [Zhonghua renmin 
gongheguo minzu quyu zizhi fa], issued 31 May 84, effective 1 October 
84, amended 28 February 01.
    \3\ Zhu Weiqun, ``Some Thoughts on Existing Problems in the Field 
of Nationalities'' [Dui dangqian minzu lingyu wenti de jidian sikao], 
Study Times, 13 February 12 (translated in Open Source Center, 20 
February 12).
    \4\ State media reported that, in January, Vice Premier Hui Liangyu 
gave a speech stressing the need to accelerate local implementation of 
centrally directed development in ethnic minority areas in order to 
resolve China's ``ethnic problems.'' See, e.g., ``State Ethnic Affairs 
Commission Plenary Conference Opens in Beijing, Hui Liangyu Attends and 
Gives Speech'' [Guojia minwei weiyuan quanti huiyi zai jing zhaokai, 
hui liangyu chuxi bing jianghua], Xinhua, reprinted in State Ethnic 
Affairs Commission, 6 January 12.
    \5\ The State Council said in February 2012 that it had approved a 
plan for accelerating development in western areas as part of the Great 
Western Development Project that began in 2000. See, e.g., ``China 
Plans Faster Growth in Western Regions,'' Xinhua, 20 February 12.
    \6\ For more information on development projects in past years, 
see, e.g., CECC, 2011 Annual Report, 10 October 11, 196-97, 214-19; 
CECC, 2010 Annual Report, 10 October 10, 207-8, 222-24; CECC, 2009 
Annual Report, 10 October 09, 263-64, 282-88; Uyghur Human Rights 
Project, ``Uyghur Homeland, Chinese Frontier: The Xinjiang Work Forum 
and Centrally Led Development,'' 27 June 12.
    \7\ State Council Information Office, ``National Human Rights 
Action Plan of China (2012-2015),'' 11 June 12, sec. III(1).
    \8\ Ibid.
    \9\ State Council General Office, `` `12th Five-Year' Plan on 
Ethnic Minority Undertakings'' [Shaoshu minzu shiye ``shier wu'' 
guihua], issued 12 July 12; ``China Publishes Plan for Development in 
Minority Areas,'' Xinhua, 20 July 12; ``Jia Qinglin: Spare No Efforts 
To Create New Dimensions in Ethnic Work in `12th Five-Year' Period'' 
[Jia qinglin: fenli kaichuang ``shier wu'' shiqi minzu gongzuo xin 
jumian], Xinhua, reprinted in State Ethnic Affairs Commission, 18 
November 11.
    \10\ Sixth Plenum of the 17th Party Congress, ``Outline of Cultural 
Reform and Development Plan for the Period of the State's `12th Five-
Year' Plan'' [Guojia ``shier wu'' shiqi wenhua gaige fazhan guihua 
gangyao], Xinhua, 16 February 12; ``China To Improve Cultural Services 
for Special Groups,'' Xinhua, 15 February 12, (Open Source Center, 15 
February 12). According to the February 15, 2012, Xinhua article, the 
plan states, ``We will also support the creation of cultural products 
for ethnic groups and translate more quality Mandarin products into 
minority languages,'' but does not mention any plan to promote products 
originally written in ethnic minority languages.
    \11\ James Leibold, Jamestown Foundation, ``Toward a Second 
Generation of Ethnic Policies?'' China Brief, Vol. 12, No. 13, 6 July 
12; Liu Ling, Institute of Ethnology and Anthropology, Chinese Academy 
of Social Sciences, ``Persist in the Basic Political System, Resolve 
Ethnic Issues Through Development--An Outline of the Chinese Ethnic 
Theory Association Symposium'' [Jianchi jiben zhengzhi zhidu--zai 
fazhan zhong jiejue minzu wenti--zhongguo minzu lilun xuehui zuotanhui 
jiyao], 23 February 12 (Open Source Center, 11 July 12); ``Second 
Generation of Ethnic Policies'' [Dier dai minzu zhengce], China 
Ethnicity and Religion Net, last visited 25 July 12; James Leibold, 
``Can China Have a Melting Pot?'' Diplomat, 23 May 12.
    \12\ Zhu Weiqun, ``Several Thoughts on Current Issues in Ethnic 
Spheres'' [Dui dangqian minzu lingyu wenti de jidian sikao], Study 
Times, 13 February 12; Minnie Chan, ``Call To Strike Ethnic Status From 
I.D. Cards,'' South China Morning Post, 15 February 12; Wang Su, 
``Central United Front Work Department Vice Minister Proposes Removing 
Ethnic Information From Identification Cards'' [Zhongyang tongzhanbu 
fubuzhang jianyi shenfenzheng quxiao minzu xinxi], Caixin, 15 February 
12.
    \13\ Zhu Weiqun, ``Several Thoughts on Current Issues in Ethnic 
Spheres'' [Dui dangqian minzu lingyu wenti de jidian sikao], Study 
Times, 13 February 12.
    \14\ James Leibold, ``Can China Have a Melting Pot?'' Diplomat, 23 
May 12; ``Second Generation of Ethnic Policies'' [Dier dai minzu 
zhengce], China Ethnicity and Religion Net, last visited 25 July 12.
    \15\ James Leibold, Jamestown Foundation, ``Toward a Second 
Generation of Ethnic Policies?'' China Brief, Vol. 12, No. 13, 6 July 
12; Liu Ling, Institute of Ethnology and Anthropology, Chinese Academy 
of Social Sciences, ``Persist in the Basic Political System, Resolve 
Ethnic Issues Through Development--An Outline of the Chinese Ethnic 
Theory Association Symposium'' [Jianchi jiben zhengzhi zhidu--zai 
fazhan zhong jiejue minzu wenti--zhongguo minzu lilun xuehui zuotanhui 
jiyao], 23 February 12 (Open Source Center, 11 July 12); ``Second 
Generation of Ethnic Policies'' [Dier dai minzu zhengce], China 
Ethnicity and Religion Net, last visited 25 July 12; James Leibold, 
``Can China Have a Melting Pot?'' Diplomat, 23 May 12.
    \16\ State Council Information Office, ``The Past Year's 
Implementation of a Ban on Grazing in Xinjiang on 1.5 Million Hectares 
of Land'' [Yinian lai xinjiang yi shishi caoyuan jinmu 1.5 yi mu], 14 
August 12; Li Yao and Da Qiong, ``Tibetan Herders Lead Environment 
Effort,'' China Daily, 16 August 12. For information on grasslands 
policy in earlier years, see, e.g., CECC, 2009 Annual Report, 10 
October 09, 148-49, 194.
    \17\ ``The Newly Revised `Regulations on the Protection of Inner 
Mongolian Grasslands' Take Effect Today'' [Xin xiuding de ``nei menggu 
zizhiqu jiben caoyuan baohu tiaoli'' jinri qi zhengshi shixing], 
Xinhua, 1 December 11; ``Chinese Pasture Region Charges Fees for 
Grassland Exploitation,'' Xinhua, 28 February 12.
    \18\ Tenzin Norbu, Human Rights in China, ``A Culture Endangered: 
Depopulating the Grasslands of the Tibetan Plateau,'' July 2012; 
Gregory Veeck and Charles Emerson, ``Develop the West Assessed: 
Economic and Environmental Change in Inner Mongolia Autonomous Region, 
People's Republic of China 2000-2005,'' Asian Geographer, Vol. 25, Nos. 
1-2 (2006), 61 (based on information on page 13 of prepublication 
article on file with the Commission); China's Ethnic Regional Autonomy 
Law: Does It Protect Minority Rights? Staff Roundtable of the 
Congressional-Executive Commission on China, 11 April 05, Testimony of 
Christopher P. Atwood, Associate Professor, Department of Central 
Eurasian Studies, Indiana University; Qiu Lin, ``Scholars Urge 
Improving Grassland Policies,'' Xinhua, 31 July 09.
    \19\ See generally Robert Saiget, ``China's Tibetan Herders Face 
Uncertain Future,'' Agence France-Presse, reprinted in Google, 1 April 
12; Mark Kernan, ``The Fate of Tibet's Nomadic Peoples and the Decline 
of Global Cultural Diversity,'' Tibet Post International, 16 August 12; 
Human Rights Watch, `` `No One Has the Liberty To Refuse': Tibetan 
Herders Forcibly Relocated in Gansu, Qinghai, Sichuan, and the Tibet 
Autonomous Region,'' June 2007.
    \20\ Dorothy Kosich, ``Chinese Officials Hail Inner Mongolian 
Mining Crackdown a Success,'' Mineweb, 20 February 12; Southern 
Mongolian Human Rights Information Center, ``Herders Take to the 
Streets, Four Arrested,'' 23 May 11.
    \21\ ``Inner Mongolia Halts 467 Mining Projects,'' Xinhua, 
reprinted in China Daily, 18 February 12; Dorothy Kosich, ``Chinese 
Officials Hail Inner Mongolian Mining Crackdown a Success,'' Mineweb, 
20 February 12.
    \22\ ``Life Sentence for Former Party Chief Who Killed the 
Mongolian Steppe,'' AsiaNews, 17 July 12; ``Former Deputy Governor of 
Inner Mongolia Liu Zhuozhi Given Indefinite Sentence for Accepting 
Bribes'' [Neimenggu zizhiqu renmin zhengfu yuanfu zhuxi liu zhuozhi yin 
shouhui bei pan wuqi], Xinhua, reprinted in People's Daily, 2 July 12.
    \23\ ``Little Hu and the Mining of the Grasslands,'' Economist, 14 
July 12.
    \24\ ``Inner Mongolians Escalate Land Protest,'' Radio Free Asia, 4 
April 12; ``Inner Mongolian Farmers Demand Authorities Release Arrested 
Villagers'' [Neimeng mengguzu nongmin yaoqiu dangju shifang bei zhua 
cunmin], Voice of America, 4 April 12; Southern Mongolian Human Rights 
Information Center, ``Tensions Rise Between Mongolian Herders and 
Chinese Authorities,'' 8 July 12.
    \25\ Southern Mongolian Human Rights Information Center, ``Southern 
Mongolians Protest Land Expropriation, 22 Arrested,'' 2 April 12; 
``Inner Mongolians Escalate Land Protest,'' Radio Free Asia, 4 April 
12; Wu Yu, ``Explosion of Land Protests in Inner Mongolia, Many 
Arrested'' [Neimeng baofa zhengdi kangyi, duoren zao daibu], Deutsche 
Welle, 4 April 12; Michael Martina, ``China Detains 22 After Inner 
Mongolia Protest: Group,'' Reuters, 3 April 12.
    \26\ Ben Blanchard, ``Truck Kills Herder in China Inner Mongolia 
Protest: Group,'' Reuters, 24 October 11; ``Herdsman Killed by Truck,'' 
Radio Free Asia, 23 October 11; Southern Mongolian Human Rights 
Information Center, ``Another Mongolian Herder Killed by Chinese 
Trucker,'' 23 October 11.
    \27\ For more information, see, e.g., Southern Mongolian Human 
Rights Information Center, ``Herders Take to the Streets, Four 
Arrested,'' 23 May 11; Andrew Jacobs, ``Anger Over Protesters' Deaths 
Leads to Intensified Demonstrations by Mongolians,'' New York Times, 30 
May 11; ``Clampdown in Inner Mongolia,'' Radio Free Asia, 27 May 11; 
Inner Mongolia Autonomous Region Public Security Department, ``Public 
Security Department Holds News Conference, Shares Information on 
Situations Regarding Xilingol `5.11' and `5.15' Incidents and Public 
Security Agencies Cracking the Cases'' [Gonganting juxing xinwen 
fabuhui tongbao xilingguolei meng ``5.11,'' ``5.15'' anjian qingkuang 
he gongan jiguan zhenpo qingkuang], 29 May 11. See analysis in 
``Mongols Protest in Inner Mongolia After Clashes Over Grasslands Use, 
Mining Operations,'' Congressional-Executive Commission on China, 1 
July 11; Southern Mongolian Human Rights Information Center, ``Protests 
Spread in Southern Mongolia, Thousands More Take to the Streets,'' 26 
May 11.
    \28\ Sui-Lee Wee, ``China Moves Long-Missing Mongolian Dissident to 
`Luxury Resort,' '' Reuters, 10 May 12; Southern Mongolian Human Rights 
Information Center, ``Hada Held in `Luxury Resort,' Xinna Sentenced to 
3-Year Term, Uiles Kept Under House Arrest,'' 9 May 12; Southern 
Mongolian Human Rights Information Center, ``Hada's Health Declines 
Under Extrajudicial Custody, Wife in Detention, Son Under House Arrest, 
Relatives Harassed and Threatened,'' 7 March 12; ``Activist's Health 
Deteriorates,'' Radio Free Asia, 7 March 12.
    \29\ ``Mongolian Activist's Wife Sentenced,'' Radio Free Asia, 10 
May 12; Southern Mongolian Human Rights Information Center, ``Hada Held 
in `Luxury Resort,' Xinna Sentenced to 3 Year Term, Uiles Kept Under 
House Arrest,'' 9 May 12.
    \30\ ``Mongolian Activist's Wife Sentenced,'' Radio Free Asia, 10 
May 12; Sui-Lee Wee, ``China Moves Long-Missing Mongolian Dissident to 
`Luxury Resort,' '' Reuters, 10 May 12.
    \31\ Southern Mongolian Human Rights Information Center, 
``Dissident Writer Huuchinhuu Beaten Repeatedly,'' 29 September 11; 
``Dissident Suffers Beatings in Detention,'' Radio Free Asia, 29 
September 11.
    \32\ Ibid.
    \33\ Ibid.
    \34\ For more information on these cases, see, e.g., Southern 
Mongolian Human Rights Information Center, ``Deported United Nations 
Refugee Applicant Batzangaa Tried in China,'' 17 January 11; Southern 
Mongolian Human Rights Information Center, ``Batzangaa, a UN Refugee 
Status Applicant, Sentenced to 3-Year Jail Term in China,'' 30 January 
11; ``Inner Mongolia Writer Unaga Secretly Detained for Publishing New 
Book'' [Neimeng zuojia wunaga ni chuban xinshu zao mimi daibu], Radio 
Free Asia, 19 January 11; ``Mongol Writer Unaga Secretly Arrested in 
Inner Mongolia'' [Mongghul yazghuchisi unaga ichki mongghulda mexpiy 
tutuldi], Radio Free Asia, 18 January 11; Southern Mongolian Human 
Rights Information Center, ``Southern Mongolian Dissident Writer, 
Author of `Forefront of Independence' Arrested and Detained,'' 23 
January 11; UN Human Rights Council, reprinted in UN Office of the High 
Commissioner for Human Rights, Report by the Special Rapporteur on the 
Situation of Human Rights and Fundamental Freedoms of Indigenous 
People, Cases Examined by the Special Rapporteur (June 2009-July 2010), 
A/HRC/15/37/Add.1, 15 September 10. Official Chinese information is not 
available regarding the current legal status of Erden-uul and 
Sodmongol. See also the Commission's Political Prisoner Database for 
more information on the cases of Batzangaa, Erden-uul, and Sodmongol.
    Notes to Section II--Population Planning

    \1\ The population planning policy was first launched in 1979, 
canonized as a ``fundamental state policy'' in 1982, and codified as 
national law in 2002. As of 2007, 19 of China's 31 provincial-level 
jurisdictions--accounting for 53.6 percent of China's population--allow 
rural dwellers to have a second child if their first child is a girl. 
Gu Baochang et al., ``China's Local and National Fertility Policies at 
the End of the Twentieth Century,'' Population and Development Review, 
Vol. 33, No. 1, 133, 138 (2007). Other exceptions to the one-child rule 
vary by provincial-level jurisdiction, and include some exceptions for 
ethnic minorities. See ``The Origin of China's Current Birth Policy'' 
[Zhongguo xianxing shengyu zhengce youlai], China Net, 18 April 08; 
Chinese Human Rights Defenders, ``I Don't Have Control Over My Own 
Body,'' 21 December 10, 6. According to Chinese Human Rights Defenders, 
``In 1984, the Central Committee issued a document outlining its 
`current family planning policy,' which stated that rural residents 
with one daughter could have a second child, while ethnic minorities 
could have between two and four children. Since then, even more 
exceptions to the original `one-child' rule have been added by local 
governments. These exceptions are numerous, detailed and differ across 
the country. For example, the Shandong Provincial Population and Family 
Planning Regulations lists 14 circumstances in which couples are 
permitted to have more than one child.''
    \2\ According to Li Bin, the head of the National Population and 
Family Planning Commission, during the period of the 12th Five-Year 
Plan, China should persist with its current national population 
planning policies and continue to stabilize a low birth rate. Li 
Yongchun, ``Population and Family Planning Commission Director: 
Population Reproduction Should Not Be Oversimplified'' [Renkou jisheng 
wei zhuren: renkou zai shengchan buneng yi fang liao zhi], Caijing, 9 
October 11. For a recent example of local policy reform, see, e.g., 
``All 31 Provinces in China Have Launched Two-Child Policy for Families 
in Which Both Parents Are Only Children'' [Quanguo 31 shengfen jun yi 
fangkai shuangdu jiating sheng ertai zhengce], International Online, 
reprinted in NetEase, 26 November 11; ``From One-Child to Two-Child 
Policy,'' CNC World, 25 January 12.
    \3\ PRC Population and Family Planning Law [Zhonghua renmin 
gongheguo renkou yu jihua shengyu fa], adopted 29 December 01, 
effective 1 September 02, art. 18. According to Article 18, ``The State 
maintains its current policy for reproduction, encouraging late 
marriage and childbearing and advocating one child per couple. Where 
the requirements specified by laws and regulations are met, plans for a 
second child, if requested, may be made.'' Implementing regulations in 
different provinces vary on the ages at which couples may give birth 
and the number of children they are permitted to have. See also Chinese 
Human Rights Defenders, ``I Don't Have Control Over My Own Body,'' 21 
December 10, 6-7.
    \4\ See, e.g., Shaanxi Provincial Implementing Measures for 
Collection and Management of Social Maintenance Fees [Shaanxi sheng 
shehui fuyang fei zhengshou guanli shishi banfa], issued 8 June 04, 
effective 1 August 04, art. 5(1). In Shaanxi province, individuals in 
violation of local population planning regulations can each be fined 
three to six times the amount of the average annual income of a 
resident in their locality, sometimes more, based on statistics from 
the previous year. ``Fengdu County Population and Family Planning 
Administrative Fines, Administrative Penalties Program and Standards'' 
[Fengdu xian renkou he jihua shengyu xingzheng zhengshou, xingzheng 
chufa xiangmu ji biaozhun], Fengdu County Population and Family 
Planning Network, 27 November 11. As noted in this report, residents of 
Fengdu county, Chongqing municipality, are subject to fines amounting 
to two to nine times the local average annual income from the previous 
year if they have an out-of-plan child or illegally adopt. See also 
``Cost of a Second Child: Pair Fined 1.3m Yuan,'' Shanghai Daily, 
reprinted in China Internet Information Center, 31 May 12; Chinese 
Human Rights Defenders, ``I Don't Have Control Over My Own Body,'' 21 
December 10, 19-20.
    \5\ Beijing Declaration and Platform for Action (1995), adopted at 
the Fourth World Conference on Women on 15 September 95, and endorsed 
by UN General Assembly resolution 50/203 on 22 December 95, para. 17. 
The Beijing Declaration states, ``The explicit recognition and 
reaffirmation of the right of all women to control all aspects of their 
health, in particular their own fertility, is basic to their 
empowerment.''
    \6\ Programme of Action of the Cairo International Conference on 
Population and Development, 18 October 94, paras. 7.2, 8. Paragraph 7.2 
of the Programme of Action of the Cairo International Conference on 
Population and Development states that, ``Reproductive health . . . 
implies . . . that people are able to have . . . the capability to 
reproduce and the freedom to decide if, when and how often to do so. 
Implicit in this last condition are the right of men and women to be 
informed and to have access to safe, effective, affordable and 
acceptable methods of family planning of their choice . . . .'' 
Paragraph 8.25 states, ``In no case should abortion be promoted as a 
method of family planning.''
    \7\ United Nations, ``Report of the Fourth World Conference on 
Women,'' 1996, 135. China was a state party at the Fourth World 
Conference on Women, which adopted the Beijing Declaration and Platform 
for Action. Programme of Action of the Cairo International Conference 
on Population and Development, 18 October 94, Introduction. China was 
one of the participating States at the International Conference on 
Population and Development, which reached general agreement on the 
Programme of Action.
    \8\ For two recent examples of acts of official violence in the 
implementation of population planning policies, see ``[Special Report] 
Shandong Province Lilu County Resident Ma Jihong Forced Abortion Case'' 
[(Tegao) shandong lilu xian yunfu ma jihong bei qiangzhi yinchan 
shijian], China Public Welfare Alliance Net, 21 October 11; Yan Shuang, 
``Fury Over `Forced Abortion,' '' Global Times, 14 June 12.
    \9\ UN Convention against Torture and Other Cruel, Inhuman or 
Degrading Treatment or Punishment, adopted by UN General Assembly 
resolution 39/46 of 10 December 84, arts. 1, 4. In 2008, the Committee 
against Torture noted with concern China's ``lack of investigation into 
the alleged use of coercive and violent measures to implement the 
population policy.'' UN Committee against Torture, 41st Session, 
Consideration of Reports Submitted by State Parties Under Article 19 of 
the Convention: Concluding Observations of the Committee against 
Torture--China, CAT/C/CHN/CO/4, 12 December 08, para. 29.
    \10\ See United Nations Treaty Collection, Chapter IV, Human 
Rights, Convention against Torture and Other Cruel, Inhuman or 
Degrading Treatment or Punishment, last visited 18 September 12. China 
signed the convention on December 12, 1986, and ratified it on October 
4, 1988.
    \11\ Convention on the Rights of the Child (CRC), adopted and 
opened for signature, ratification, and accession by UN General 
Assembly resolution 44/25 of 20 November 89, entry into force 2 
September 90, China signed 29 August 90, ratified 2 March 92, arts. 2-
4, 6, 24, 26, 28. Article 2 of the CRC calls upon States Parties to 
``respect and ensure the rights set forth . . . to each child within 
their jurisdiction without discrimination of any kind, irrespective of 
the child's or his or her parent's or legal guardian's . . . national, 
ethnic or social origin . . . birth or other status.'' Article 24 sets 
forth the right of the child to access healthcare, Article 26 sets 
forth the right of the child to social security, and Article 28 sets 
forth the right of the child to free primary education and accessible 
secondary education and higher education. Children born ``out-of-plan'' 
in China may be denied household registration (hukou) and thus face 
barriers to accessing social benefits including health insurance and 
education. See Section II--Freedom of Residence and Movement for more 
information. See also Chinese Human Rights Defenders, ``I Don't Have 
Control Over My Own Body,'' 21 December 10, 26.
    \12\ International Covenant on Economic, Social and Cultural 
Rights, adopted by UN General Assembly resolution 2200A (XXI) of 16 
December 66, entry into force 3 January 76, China signed 27 October 97, 
ratified 27 March 01, art. 10(3). Article 10(3) calls upon States 
Parties to recognize that ``Special measures of protection and 
assistance should be taken on behalf of all children and young persons 
without any discrimination for reasons of parentage or other 
conditions.''
    \13\ PRC Population and Family Planning Law [Zhonghua renmin 
gongheguo renkou yu jihua shengyu fa], enacted 29 December 01, 
effective 1 September 02, arts. 4, 39. Article 4 of the PRC Population 
and Family Planning Law (PFPL) states that officials ``shall perform 
their administrative duties strictly in accordance with the law, and 
enforce the law in a civil manner, and they may not infringe upon the 
legitimate rights and interests of citizens.'' Article 39 states that 
an official is subject to criminal or administrative punishment if he 
``infringes on a citizen's personal rights, property rights, or other 
legitimate rights and interests'' or ``abuses his power, neglects his 
duty, or engages in malpractices for personal gain'' in the 
implementation of population planning policies.
    \14\ Yan Shuang, ``Fury Over Forced Abortion,'' Global Times, 14 
June 12. For one U.S. scholar's analysis of Chinese law with regard to 
forced abortions, see Stanley Lubman, ``The Law on Forced Abortion in 
China: Few Options for Victims,'' Wall Street Journal, 4 July 12.
    \15\ This number is based on Commission analysis of population 
planning measures. These jurisdictions include Tianjin, Zhejiang, 
Guangdong, Shandong, Fujian, Hebei, Hubei, Chongqing, Shaanxi, 
Heilongjiang, Shanxi, Xinjiang, Henan, Qinghai, Jiangxi, Sichuan, 
Guangxi, Anhui, Gansu, Yunnan, and Guizhou. For two specific examples, 
see ``Revised `Guangdong Province Population and Family Planning 
Regulations' Published'' [Xiuding hou de ``guangdong sheng renkou yu 
jihua shengyu tiaoli'' gongbu], Guangzhou Beiyun District Zhongloutian 
Public Information Net, 29 June 09; ``Jiangxi Province Population and 
Family Planning Regulations'' [Jiangxi sheng renkou yu jihua shengyu 
tiaoli], Jiangxi News Net, 11 April 09. See also Bureau of Democracy, 
Human Rights, and Labor, U.S. Department of State, ``Country Report on 
Human Rights Practices--2011, China (Includes Tibet, Hong Kong, and 
Macau),'' 24 May 12, sec. 6. The Beijing Municipal Population and 
Family Planning Commission clearly draws the link between the term 
``remedial measures'' and abortion: ``Early term abortion refers to the 
use of surgery or pharmaceutics to terminate a pregnancy before the 
12th week of gestation; it is a remedial measure taken after the 
failure of contraception.'' See Beijing Municipal Population and Family 
Planning Commission, ``Early Term Abortion'' [Zaoqi rengong liuchan], 
10 April 09.
    \16\ Luxi County People's Government, ``Luxi Town's 2012 Spring 
Population and Family Planning Service Activities Month-Long Work 
Implementation Plan'' [Guanyu yinfa luxi zhen 2012 nian chunji renkou 
he jihua shengyu fuwu huodong yue gongzuo shishi fang'an de tongzhi], 
29 March 12.
    \17\ Ibid.
    \18\ Yiyang County Government, ``The Heart System, Migrants 
Returning Home, Services Entering the Home and Warming Hearts, 
Jigangkou County Spring Population and Family Planning Services 
Activities Implementation Plan'' [Xinxi fanxiang nongmingong fuwu 
jinmen nuan renxin jigangkou zhen chunji jihua shengyu fuwu huodong 
shishi fang'an], 6 January 12; Luxi County People's Government, ``Luxi 
Town's 2012 Spring Population and Family Planning Service Activities 
Month-Long Work Implementation Plan'' [Guanyu yinfa luxi zhen 2012 nian 
chunji renkou he jihua shengyu fuwu huodong yue gongzuo shishi fang'an 
de tongzhi], 29 March 12.
    \19\ Echeng District People's Government, ``Huahu Town Strongly 
Launches Spring Family Planning Service Month Activities'' [Huahu zhen 
zhashi kaizhan chunji jisheng fuwu yue huodong], 11 April 12; Echeng 
District People's Government, ``Xinmiao Town's Four Methods To Complete 
Spring Concentrated Services Activities'' [Xinmiao zhen si xiang cuoshi 
zuohao chunji jizhong fuwu huodong], 5 April 10.
    \20\ Liu Xianghui, ``Xianghua Township: Spare No Efforts To Promote 
Family Planning Concentrated Services Activities'' [Xianghua xiang: 
quanli yifu tuijin jisheng jizhong fuwu huodong], Zixing News Net, 17 
October 11; Jiahe County People's Government, ``Clarify Duties, 
Strengthen Methods, Diligently Initiate a New Phase in County-Wide 
Population and Family Planning Work--A Speech at the 2012 County 
Committee Economic Work Meeting'' [Mingque renwu qianghua cuoshi nuli 
kaichuang quanxian renkou jisheng gongzuo xin jumian--zai 2012 nian 
xianwei jingji gongzuo huiyi shang de jianghua], 10 February 12; 
``Circular Regarding Earnestly Taking Charge of Population and Family 
Planning Work Before and After the Spring Festival'' [Guanyu renzhen 
zhuahao chunjie qianhou renkou jisheng gongzuo de tongzhi], Xintian 
Population and Family Planning Net, 17 January 12.
    \21\ Xingning City Government, Circular Regarding the Rapid Launch 
of City-Wide Family Planning Concentrated Services Activities [Guanyu 
xunsu kaizhan quanshi chunji jisheng jizhong fuwu huodong de tongzhi], 
14 February 12; Puning City Government, ``Xie Jun Arrives in Puning To 
Inspect, Guide Family Planning Work'' [Xie jun dao puning jiancha 
zhidao jisheng gongzuo], 7 March 12; He Xiaoying, Shijiao Town People's 
Government, ``Shijiao Town Five Methods To Promote Success of Family 
Planning Concentrated Services Activities'' [Shijiao zhen wuxiang 
cuoshi cu jisheng jizhong fuwu huodong qude hao chengxiao], reprinted 
in Fogang County Government, 27 March 12.
    \22\ Tongling County Population and Family Planning Committee, 
``Donglian Township: Enter the Village for Rectification After 
Strengthening Family Planning'' [Donglian xiang qianghua jihua shengyu 
hou jincun zhenggai], 31 March 12.
    \23\ Wang Zezong, ``Tongren City Launches Population and Family 
Planning Work Meeting, Emphasizes Making the Most of the Spirit of 
Taking Responsibility, Resolutely Paying Attention to Implementation of 
Measures, Sparing No Efforts To Ensure the Realization of the Goal of 
the `Two Decreases' in Annual Population and Family Planning Work--
Tongren'' [Tongren shi zhaokai renkou he jihua shengyu gongzuo huiyi 
qiangdiao fayang dandang jingshen henzhua cuoshi luoshi quanli yifu 
quebao niandu renkou jisheng ``shuangjiang'' mubiao shixian--tongren], 
Guizhou Population Net, 17 February 12.
    \24\ Gulou District People's Government Office, ``Transform 
Strategy Methods, Grasp Family Planning Tightly and Don't Let Go'' 
[Zhuanbian zhanlue fangshi, jinzhua jisheng bu fangshou], 28 June 12.
    \25\ Jinan Municipal People's Government, ``Municipal Population 
and Family Planning Committee Directors' Study Class Opens Session'' 
[Quanshi renkou jisheng wei zhuren dushuban kaiban], 7 August 12.
    \26\ Tongling County Population and Family Planning Committee, 
``Donglian Township: Enter the Village for Rectification After 
Strengthening Family Planning'' [Donglian xiang qianghua jihua shengyu 
hou jincun zhenggai], 31 March 12.
    \27\ Luxi County People's Government, ``Luxi Town's 2012 Spring 
Population and Family Planning Service Activities Month-Long Work 
Implementation Plan'' [Guanyu yinfa luxi zhen 2012 nian chunji renkou 
he jihua shengyu fuwu huodong yue gongzuo shishi fang'an de tongzhi], 
29 March 12.
    \28\ For one such example in which authorities clearly call for the 
implementation of the ``two examinations and four procedures,'' see 
Central Wanhe Town Committee and Wanhe Town People's Government, 
``Wanhe Town 2012 Population and Family Planning Basic Work Plan To 
Advance the Month's Activities'' [Guanyu yinfa wanhe zhen 2012 nian 
renkou yu jihua shengyu jichu gongzuo tuijin yue huodong fang'an de 
tongzhi], 13 March 12. Some government reports refer to ``three 
examinations,'' instead of two. The third examination in these 
references is an examination for the presence of a gynecological 
disease or illness. Chinese Human Rights Defenders, ``I Don't Have 
Control Over My Own Body,'' 21 December 10, 10.
    \29\ For an official government report enumerating the ``four 
procedures,'' see Yancheng District People's Government, ``The Four 
Surgeries in Family Planning'' [Jihua shengyu sixiang shoushu], last 
visited 5 September 12.
    \30\ ``[Special Report] Shandong Province Lilu County Resident Ma 
Jihong Forced Abortion Case'' [(Tegao) shandong lilu xian yunfu ma 
jihong bei qiangzhi yinchan shijian], China Public Welfare Alliance 
Net, 21 October 11.
    \31\ Ibid.
    \32\ Ibid. For an additional case from Shandong province in which 
officials detained a woman and her infant son until her husband paid a 
60,000 yuan (US$9,518) fine for having an ``out-of-plan'' child, see 
``Linyi Family Planning Authorities Take Over-Quota Mother and Children 
Hostage, Force Family To Pay Fine'' [Linyi jisheng dangju jiang 
chaosheng muzi zuo renzhi bi jiaren jiao fakuan], Radio Free Asia, 15 
December 11.
    \33\ ``Netizens Expose Zhejiang Family Planning Department That 
Forced Over-Quota Pregnant Women To Abort'' [Wangmin jiefa zhejiang 
jisheng bumen qiangpo chaosheng fu duotai], Radio Free Asia, reprinted 
in See China, 16 December 11. For an additional case from Zhejiang 
province in which officials detained seven-months-pregnant Xu Li and 
threatened her with a forced abortion if she did not pay a fine of 
157,000 yuan (US$24,600), see ``Abortion Threatened at 7 Months,'' 
Radio Free Asia, 3 August 12.
    \34\ ``Menopausal Rural Woman Forcibly Given Tubal Ligation'' 
[Juejing nongfu qiangzao jieza], HX blog, via Tengxun Weibo, last 
visited 31 July 12; ``Chinese Woman Alleges Forced Sterilization,'' 
Voice of America, 24 July 12. See also Women's Rights Without 
Frontiers, ``As the U.S.-China Human Rights Dialogue Begins, A 46-Year-
Old Woman Is Forcibly Sterilized in China,'' 23 July 12.
    \35\ Edward Wong, ``Reports of Forced Abortions Fuel Push To End 
Chinese Law,'' New York Times, 22 July 12; ``Pitiable Mother, Pitiable 
Child'' [Kelian de muqin, kelian de haier], [Lawyer] Han Feng's blog, 
via Sina, 6 July 12. For an additional case from Fujian province in 
which officials forcibly brought a woman in for a pregnancy test and 
then attempted to forcibly sterilize her when she refused the test, see 
``Woman Forced To Undergo Sterilization Procedure in Fujian'' [Fujian 
qiangpo funu zuo jueyu shoushu], Radio Free Asia, 12 January 12; 
``Woman Flees Forced Sterilization,'' Radio Free Asia, 12 January 12.
    \36\ ``Five-month Pregnant Woman Cao Ruyi Faces Forced Abortion in 
Hunan, China,'' Agence France-Presse, reprinted in news.com.au, 12 June 
12.
    \37\ Jing Zhang, ``China's One Child Policy: Two Cases,'' American 
Spectator, 15 June 12.
    \38\ Yan Shuang, ``Fury Over `Forced Abortion,' '' Global Times, 14 
June 12.
    \39\ Ibid.; ``Officials Suspended in NW China Forced Abortion 
Case,'' Xinhua, 14 June 12.
    \40\ Ankang City People's Government, ``Ankang City Government 
Demands: Thoroughly Investigate the Situation, Strictly Handle It, 
Firmly Safeguard the People's Rights and Interests'' [Ankang shi 
zhengfu yaoqiu: checha zhenxiang, congyan chuli jianjue weihu hao 
qunzhong hefa quanyi], 14 June 12; See also ``Officials Suspended in NW 
China Forced Abortion Case,'' Xinhua, 14 June 12.
    \41\ Ian Johnson, ``China To Pay Family In a Case of Forced 
Abortion,'' New York Times, 11 July 12. See also Tania Branigan, 
``China Sacks Officials in Forced Abortion Case,'' Guardian, 27 June 
12.
    \42\ PRC Measures for Administration of Collection of Social 
Maintenance Fees [Shehui fuyang fei zhengshou guanli banfa], issued 2 
August 02, effective 1 September 02, arts. 3, 7.
    \43\ See, e.g., Shaanxi Provincial Implementing Measures for 
Collection and Management of Social Maintenance Fees [Shanxi sheng 
shehui fuyang fei zhengshou guanli shishi banfa], 19 October 06, art. 
5(1). In Shaanxi province, individuals in violation of local population 
planning regulations can each be fined three to six times the amount of 
the average income of a resident in their locality, sometimes more, 
based on their income compared to the average income of rural residents 
the previous year. ``Fengdu County Population and Family Planning 
Administrative Fines, Administrative Penalties Program and Standards'' 
[Fengdu xian renkou he jihua shengyu xingzheng zhengshou, xingzheng 
chufa xiangmu ji biaozhun], Fengdu County Population and Family 
Planning Network, 27 November 11. As noted in this report, residents of 
Fengdu county, Chongqing municipality are subject to fines amounting to 
two to nine times the local average annual income from the previous 
year if they have an out-of-plan child or illegally adopt. See also 
``Cost of a Second Child: Pair Fined 1.3m Yuan,'' Shanghai Daily, 
reprinted in China Internet Information Center, 31 May 12. According to 
this report, officials in Ruian city, Zhejiang province, fined a couple 
1.3 million yuan (US$205,000), a record high amount, for exceeding 
their birth quota with a second child. See also Chinese Human Rights 
Defenders, ``I Don't Have Control Over My Own Body,'' 21 December 10, 
18.
    \44\ See, e.g., Qingdao People's Government, Circular Regarding 
Guidelines for Qingdao Municipal Work Units' Responsibilities in 
Population and Family Planning Work [Guanyu yinfa ``qingdao shi danwei 
renkou he jihua shengyu gongzuo zeren guiding'' de tongzhi], 19 June 
12; Binzhou Economic Development Zone Government, ``Dudian Implements 
Family Planning Work Control Mechanism'' [Dudian shishi jihua shengyu 
gongzuo yueshu jizhi], 11 April 12; Yan Shuang, ``Fury Over `Forced 
Abortion,' '' Global Times, 14 June 12; Chinese Human Rights Defenders, 
``I Don't Have Control Over My Own Body,'' 21 December 10, 19-23. See 
also CECC, 2008 Annual Report, 31 October 08, 97.
    \45\ ``Linyi Family Planning Authorities Take Over-Quota Mother and 
Children Hostage, Force Family To Pay Fine'' [Linyi jisheng dangju 
jiang chaosheng muzi zuo renzhi bi jiaren jiao fakuan], Radio Free 
Asia, 15 December 11; ``Woman Flees Forced Sterilization,'' Radio Free 
Asia, 12 January 12; ``In China, A Daring Few Challenge One-Child 
Limit,'' Associated Press, reprinted in USA Today, 24 December 11. For 
information on the role of courts in family planning implementation, 
see Chinese Human Rights Defenders, ``I Don't Have Control Over My Own 
Body,'' 21 December 10, 27.
    \46\ PRC Population and Family Planning Law [Zhonghua renmin 
gongheguo renkou yu jihua shengyu fa], adopted 29 December 01, 
effective 1 September 02, art. 39. According to Article 39, officials 
are to be punished either criminally or administratively for the 
following acts: ``(1) infringing on a citizen's personal rights, 
property rights or other legitimate rights and interests; (2) abusing 
his power, neglecting his duty or engaging in malpractices for personal 
gain; (3) demanding or accepting bribes; (4) withholding, reducing, 
misappropriating or embezzling funds for family planning or social 
maintenance fees; or (5) making false or deceptive statistical data on 
population or family planning, or fabricating, tampering with, or 
refusing to provide such data.''
    \47\ Chinese Human Rights Defenders, ``I Don't Have Control Over My 
Own Body,'' 21 December 10, 13, 26. According to the report, ``The 
management of the hukou system is the domain of the Ministry of Public 
Security and it refuses to issue hukous to children without birth 
permits, children of unmarried parents, and children whose parents for 
some reasons have not completed the required procedures. Without a 
hukou, a child cannot apply for an ID card and thus does not have a 
legal identity, is not a citizen and consequently is deprived of the 
rights accorded to other Chinese citizens.'' Zhang Hui, ``City Cuts 
Fines on Second Child,'' Global Times, 23 August 10. According to one 
expert quoted in this report, ``Children born outside State scrutiny 
will enjoy equal rights as the first child only after the family pays 
the fine and registers them.''
    \48\ ``Separate and Unequal,'' China Economic Review, 5 April 12; 
Yan Hao and Li Yanan, ``Urban Hukou, or Rural Land? Migrant Workers 
Face Dilemma,'' Xinhua, 10 March 10; Tao Ran, ``Where There's a Will, 
There's a Way To Reform,'' China Daily, 22 March 10.
    \49\ ``Women of Childbearing Age Information System (WIS) Basic 
Data Structure and Classification Codes'' [Yuling funu xinxi xitong 
(WIS) jichu shuju jiegou yu fenlei daima], Population and Family 
Planning Development Program Office, reprinted in China Reproductive 
Health Net, 30 April 08, sections 4.2, 5.2.2, 5.2.4-5.2.9. See also 
National Population and Family Planning Commission, Circular Regarding 
the Basic Data Structure and Classification Codes for the Comprehensive 
Personnel Population Case Management System (Trial) [Guojia renkou 
jisheng wei bangongting guanyu yinfa quanyuan renkou gean guanli xinxi 
xitong jichu shuju jiegou yu fenlei daima (shixing) de tongzhi], issued 
26 September 08, categories 016, 022, and section 3.
    \50\ National Population and Family Planning Commission, Circular 
Regarding the Basic Women of Childbearing Age Information System 
Services Information Guidance Work Standards (Trial) [Jishengwei guanyu 
yinfa ``jiceng yuling funu xinxi xitong fuwu xinxi yindao gongzuo 
guifan (shixing)'' tongzhi], issued 1 January 06.
    \51\ Ibid., art. 3.
    \52\ Ibid., art. 26.
    \53\ Hunan Province Population and Family Planning Commission, 
reprinted in Wancheng District Population and Family Planning Bureau, 
Hunan Province Women of Childbearing Age Information System (HNWIS) 
Management Methods (Final Draft) [Hunan sheng yuling funu xinxi xitong 
(HNWIS) guanli banfa (dinggao)], 25 December 07; Hunan Province Women 
of Childbearing Age Information System (HNWIS) [Hunan sheng yuling funu 
xinxi xitong (HNWIS)], Hunan Provincial Family Planning Information 
Center, reprinted on Baidu, May 2007, 4, 5, 34, 37, 38, 40-43.
    \54\ See, e.g., Circular Regarding Earnestly Taking Charge of 
Population and Family Planning Work Before and After the Spring 
Festival [Guanyu renzhen zhuahao chunjie qianhou renkou jisheng gongzuo 
de tongzhi], Xintian Population and Family Planning Net, 17 January 12; 
Jiahe County People's Government, ``Clarify Duties, Strengthen Methods, 
Diligently Initiate a New Phase in Countywide Population and Family 
Planning Work--A Speech at the 2012 County Committee Economic Work 
Meeting'' [Mingque renwu qianghua cuoshi nuli kaichuang quanxian renkou 
jisheng gongzuo xin jumian--zai 2012 nian xianwei jingji gongzuo huiyi 
shang de jianghua], 10 February 12; Yiyang County People's Government, 
``The Heart System, Migrants Returning Home, Services Entering the Home 
and Warming Hearts, Jigangkou County Spring Population and Family 
Planning Services Activities Implementation Plan'' [Xinxi fanxiang 
nongmingong fuwu jinmen nuan renxin jigangkou zhen chunji jihua shengyu 
fuwu huodong shishi fang'an], 6 January 12.
    \55\ ``All 31 Provinces in China Have Launched Two-Child Policy for 
Families in Which Both Parents Are Only Children'' [Quanguo 31 shengfen 
jun yi fangkai shuangdu jiating sheng ertai zhengce], International 
Online, reprinted in NetEase, 26 November 11; ``National Population and 
Family Planning Commission Spokesperson: Over 11% of Population Can 
Have Two Children'' [Jishengwei xinwen fayanren: 11% yishang renkou ke 
sheng liangge haizi], PRC Central People's Government, reprinted in 
Sina, 10 July 07.
    \56\ Zhan Zhongyue et al., translated by ChinaAid, ``A Citizen's 
Proposal To Begin as Soon as Possible a Complete Revision of the 
`Population and Family Planning Law of the People's Republic of China,' 
'' 13 July 12; Josh Chin, ``Another High-Profile Call To Revisit 
China's One-Child Rule,'' Wall Street Journal, 5 July 12.
    \57\ Examples of some of the slogans targeted include, ``Raise 
fewer babies but more piggies'' and ``Houses toppled, cows confiscated, 
if abortion demand rejected.'' See ``Family Planning Slogans To Be 
Overhauled,'' China Daily, 24 February 12; ``Media Checks Family 
Planning Slogans in Various Locations'' [Meiti pandian gedi jihua 
shengyu kouhao], Sina, 24 February 12; ``Family Planning Commission 
Tidies Up `Violent' Posters, Checks Family Planning Slogans in Various 
Locations'' [Jishengwei qingli ``baoli'' biaoyu pandian gedi jihua 
shengyu kouhao], China News Net, 24 February 12; ``Family Planning 
Commission `Face Washing Program' Cleans Up Violent Slogans'' 
[Jishengwei ``xilian gongcheng'' qingchu baoli biaoyu], Beijing Youth 
Report, reprinted in World of Finance, 25 February 12.
    \58\ ``400 Million Births Prevented by One-Child Policy,'' People's 
Daily, 28 October 11. According to this report, ``China will still 
regard the birth-control policy as a fundamental state policy and 
adhere to it for a long period.'' See also Shan Juan, ``Low Birthrate 
Will Be Maintained,'' China Daily, 11 April 12; ``Solve Problems in a 
Coordinated Way: Official,'' Xinhua, 6 March 12.
    \59\ ``Total Population, CBR, CDR, NIR and TFR in China (1949-
2000),'' China Daily, 20 August 10.
    \60\ U.S. Central Intelligence Agency, ``The World Factbook,'' last 
visited 22 August 12. While China's National Bureau of Statistics 
estimated China's fertility rate at 1.8 in 2007, in May 2011, a group 
of Chinese academics publicly disputed the number, stating that it had 
been ``grossly overestimated.'' These academics estimated in 2011 that 
China's total fertility rate more accurately stood anywhere from 1.63 
to below 1.5. See ``China's Total Fertility Rate Grossly Overestimated: 
Academic,'' Caijing, 17 May 11.
    \61\ Tania Branigan, ``China Faces `Timebomb' of Ageing 
Population,'' Guardian, 20 March 12; ``400 Million Births Prevented by 
One-Child Policy,'' People's Daily, 28 October 11.
    \62\ For discussion of the continued practice and its impact, see 
``Ban on Sex Testing To Help Balance Girl-Boy Ratio,'' Global Times, 25 
May 12. See also PRC Population and Family Planning Law [Zhonghua 
renmin gongheguo renkou yu jihua shengyu fa], adopted 29 December 01, 
effective 1 September 02, art. 22. According to Article 22, 
``Discrimination against, maltreatment, and abandonment of baby girls 
are prohibited.'' For regulations prohibiting the practices of non-
medically necessary gender determination tests and sex-selective 
abortion, see State Commission for Population and Family Planning, 
Ministry of Health, State Food and Drug Administration, ``Regulations 
Regarding the Prohibition of Non-medically Necessary Gender 
Determination Examinations and Sex-Selective Termination of Pregnancy'' 
[Guanyu jinzhi fei yixue xuyao de tai'er xingbie jianding he xuanze 
xingbie de rengong zhongzhi renshen de guiding], issued 29 November 02, 
effective 1 January 03. For discussion of these regulations, see 
``China Bans Sex-Selection Abortion,'' Xinhua, reprinted in China Net, 
22 March 03.
    \63\ Shan Juan, ``Gender Imbalance Set To Ease,'' China Daily, 30 
March 12. According to Zhai Zhenwu, head of the social population 
college at Renmin University, there is a deeply rooted tradition of son 
preference, and this tradition remains in some areas, such as Guangdong 
province. Zhai also noted that ``as fertility rates declined due to the 
family planning policy, the figure for male births surged ahead.'' See 
also ``Preference for Boys by Migrants,'' China Internet Information 
Center, 15 December 11.
    \64\ According to United Nations Population Division statistics, 
China's sex ratio at birth (SRB) in 2010 was the highest in the world 
at 120 males per 100 females born. The next highest was Azerbaijan at 
117, followed by Armenia at 115, Federated States of Micronesia at 111, 
and the Republic of Korea at 110. Population Division of the Department 
of Economic and Social Affairs of the United Nations Secretariat, 
``World Population Prospects: The 2010 Revision,'' 31 August 11; 
``China's Sex Ratio at Birth Dropping,'' North Side Net, translated in 
Women of China, 12 July 12. According to the North Side Net report, 
which cites a 2012 National Population and Family Planning Commission 
Bulletin, ``China's sex ratio at birth in 2011 was 117.78, representing 
a drop of 0.16 compared to 2010 . . . . The ratios of 2008, 2009 and 
2010 were respectively 120.56, 119.45 and 117.94.'' See also, Nicholas 
Eberstadt, ``The Demographic Risks to China's Long-Term Economic 
Outlook,'' Swiss Re Center for Global Dialogue, 24 January 11, 7. 
According to Eberstadt's analysis, ``ordinary human populations 
regularly and predictably report [SRBs of] 103 to 105.'' For recent 
statistics regarding sex-selective abortion in China see, Wei Xing Zhu 
et al., ``China's Excess Males, Sex Selective Abortion and One Child 
Policy: Analysis of Data From 2005 National Intercensus Survey,'' 
British Medical Journal, 9 April 09, 4-5. For one observer's analysis 
of these statistics, see ``A Study of Sex-Selective Abortion,'' China 
YouRen blog, 13 May 10.
    \65\ See Valerie M. Hudson and Andrea M. den Boer, Bare Branches: 
Security Implications of Asia's Surplus Male Population (Cambridge: MIT 
Press, 2004); Dudley L. Poston, Jr. and Peter A. Morrison, ``China: 
Bachelor Bomb,'' 14 September 05.
    \66\ See ``China Gender Gap Fuelling Human Trafficking: Report,'' 
Agence France-Presse, reprinted in China Post, 22 September 10. See 
also World Health Organization, Office of the High Commissioner for 
Human Rights, United Nations Population Fund, United Nations Children's 
Fund, and United Nations Entity for Gender Equality and the Empowerment 
of Women, ``Preventing Gender-Biased Sex Selection,'' 14 June 11, 5; 
Susan W. Tiefenbrun and Christie J. Edwards, ``Gendercide and the 
Cultural Context of Sex Trafficking in China,'' 32 Fordham 
International Law Journal 731, 752 (2009); Therese Hesketh et al., 
``The Effect of China's One-Child Family Policy After 25 Years,'' New 
England Journal of Medicine, Volume 353, No. 11 (2005), 1173; Nicholas 
Eberstadt, ``A Global War Against Baby Girls: Sex-Selective Abortion 
Becomes a Worldwide Practice,'' Handbook of Gender Medicine, reprinted 
in All Girls Allowed, 1 May 11. According to this report, ``Some 
economists have hypothesized that mass feticide, in making women 
scarce, will only increase their `value'--but in settings where the 
legal and personal rights of the individual are not secure and 
inviolable, the `rising value of women' can have perverse and 
unexpected consequences, including increased demand for prostitution 
and an upsurge in the kidnapping and trafficking of women (as is now 
reportedly being witnessed in some women-scarce areas in Asia)[.]''
    \67\ PRC State Council, PRC Outline for the Development of Children 
(2011-2020) [Zhongguo ertong fazhan gangyao (2011-2020 nian)], issued 
30 July 11, sec. 3(5).
    \68\ State Council Information Office, National Human Rights Action 
Plan of China (2012-2015), reprinted in Xinhua, 11 June 12, sec. 
III(3). The National Human Rights Action Plan states, ``Discrimination 
against girls will be eliminated. The state . . . bans identification 
of the sex of a fetus for other than medical purposes and termination 
of pregnancy in the case of a female fetus.'' See also ``Ban on Sex 
Testing To Help Balance Girl-Boy Ratio,'' Global Times, reprinted in 
People's Daily, 25 May 12.
    \69\ ``Ban on Sex Testing To Help Balance Girl-Boy Ratio,'' Global 
Times, 25 May 12. For one report of specific arrests and sentences 
related to illegal gender testing and abortions this reporting year, 
see ``25 Jailed for Illegal Abortion in E China,'' Xinhua, 31 July 12.
    \70\ Zhu Shanshan, ``Shandong Baby Trafficking Ring Taken Down,'' 
Global Times, 4 November 11. For reports linking population planning 
policies with the abduction or purchase of children for subsequent 
sale, see, e.g., ``China Rescues 23 Abducted Children Destined for New 
Families, Arrests 12 Trafficking Suspects,'' Associated Press, 
reprinted in Washington Post, 29 March 12; Shangguan Jiaoming, ``In 
Hunan, Family Planning Turns to Plunder,'' Caixin, 10 May 11.
    \71\ Shangguan Jiaoming, ``In Hunan, Family Planning Turns to 
Plunder,'' Caixin, 10 May 11; ``China Babies `Sold for Adoption,' '' 
BBC, 2 July 09.
    \72\ See, e.g., Liu Baijun, ``Representative Chen Xiurong Suggests 
Punishing the Buyer Market in the Trafficking of Women and Children'' 
[Chen xiurong daibiao jianyi chengzhi guaimai funu ertong maifang 
shichang], Legal Daily, 12 March 12; ``2,000 Abducted Children 
Identified Via DNA Bank,'' Xinhua, reprinted in China Daily, 1 March 
12; Zhu Shanshan, ``Shandong Baby Trafficking Ring Taken Down,'' Global 
Times, 4 November 11; John Leland, ``One Answer to Adoption's Difficult 
Questions,'' New York Times, 26 September 11; ``China Babies `Sold for 
Adoption,' '' BBC, 2 July 09; Patricia J. Meier, ``Small Commodities: 
How Child Traffickers Exploit Children and Families in Adoption and 
What the United States Must Do To Fight Them,'' Journal of Gender, Race 
& Justice, Vol. 12, No. 1, Fall 2008; Beth Loyd, ``China's Lost 
Children,'' ABC News, 12 May 08; Peter S. Goodman, ``Stealing Babies 
for Adoption,'' Washington Post, 12 March 06.
    \73\ See, e.g., ``8 Sentenced for Abducting, Murdering Children in 
China as Govt Tries To Combat Trafficking,'' Associated Press, 
reprinted in Washington Post, 15 August 11.
    \74\ Philip P. Pan, ``Who Controls the Family?'' Washington Post, 
27 August 05; Hannah Beech, ``Enemies of the State?'' Time, 12 
September 05; Michael Sheridan, ``China Shamed by Forced Abortions,'' 
Times of London, 18 September 05. See also Congressional-Executive 
Commission on China, ``Population Planning Official Confirms Abuses in 
Linyi City, Shandong Province,'' 3 October 05.
    \75\ Chen Guangcheng was held under extralegal detention in his 
home from the time of his release in prison in September 2009 to the 
time of his escape from home in April 2012. Chinese Human Rights 
Defenders, ``Activist Chen Guangcheng Released After Serving Full 
Sentence,'' 9 September 10; ChinaAid, ``Detained Blind Activist Chen 
Guangcheng's Wife Reveals Details of Torture,'' 16 June 11; Keith B. 
Richburg, ``Blind Chinese Lawyer-Activist Escapes House Arrest,'' 
Washington Post, 27 April 12.
    \76\ ChinaAid, ``Details of Brutal Beating & Torture of Blind Legal 
Activist Chen Guangcheng Emerge,'' 27 October 11; Chinese Human Rights 
Defenders, ``China Human Rights Briefing October 21-26, 2011,'' 26 
October 11; ChinaAid, ``Urgent! Chen and Wife Beaten Severely, Chinese 
Citizens Appeal to America,'' 10 February 11; ChinaAid, ``Detained 
Blind Activist Chen Guangcheng's Wife Reveals Details of Torture,'' 16 
June 11; ChinaAid, ``Exclusive Video Shows Ill Treatment & Illegal 
Detention of Blind Activist Chen Guangcheng,'' 9 February 11. For 
Commission analysis, see ``Chen Guangcheng, Wife Reportedly Beaten 
After Release of Video Detailing Official Abuse,'' Congressional-
Executive Commission on China, 11 March 11. See also CECC, 2011 Annual 
Report, 10 October 10, 116.
    \77\ ``Chen Guangcheng, Wife Reportedly Beaten After Release of 
Video Detailing Official Abuse,'' Congressional-Executive Commission on 
China, 11 March 11; ChinaAid, ``Exclusive Video Shows Ill Treatment & 
Illegal Detention of Blind Activist Chen Guangcheng,'' 9 February 11.
    \78\ Chinese Human Rights Defenders, ``China Human Rights Briefing 
October 21-26, 2011,'' 26 October 11. According to CHRD, ``Chen 
Guangcheng's daughter, Chen Kesi . . . began attending class on 
September 16.'' In a February 2011 video that Chen and Yuan released, 
Yuan mentioned that Kesi had not been permitted to attend school, which 
presumably started in September 2010. ChinaAid, ``Exclusive Video Shows 
Ill Treatment & Illegal Detention of Blind Activist Chen Guangcheng,'' 
9 February 11.
    \79\ Chinese Human Rights Defenders, ``China Human Rights Briefing 
January 31-February 6, 2012,'' 8 February 12.
    \80\ `` `Batman' Star Bale Punched, Stopped From Visiting Blind 
Chinese Activist,'' CNN, 16 December 11; ``Authorities Loosen Some 
Restrictions on Chen Guangcheng and Family, Continue To Hold Them Under 
Tight Control,'' CECC China Human Rights and Rule of Law Update, No. 1, 
24 January 12, 2; ``Chen Supporters Attacked,'' Radio Free Asia, 19 
September 11; `` `Chased With Guns' on Chen Visit,'' Radio Free Asia, 5 
October 11; ``Dozens of People Beaten While Attempting To Visit Blind 
Legal Advocate Chen Guangcheng,'' Human Rights in China, 31 October 11; 
Foreign Correspondents' Club of China, ``Warning: Reporting on Chen 
Guangcheng,'' 17 February 11; ChinaAid, ``Government Retaliation 
Continues, Foreign Journalists Mistreated in Wake of Smuggled Video by 
Blind Activist Chen Guangcheng,'' 15 February 11.
    \81\ Josh Rogin, ``U.S. Officials Feared Chen Guangcheng Had Cancer 
While in Embassy,'' Foreign Policy, 7 May 12; Keith B. Richburg et al., 
``Chinese Activist Chen Leaves U.S. Embassy for Hospital, Is Surrounded 
by Police,'' Washington Post, 3 May 12.
    \82\ Thomas Kaplan et al., ``Dissident From China Arrives in U.S., 
Ending an Ordeal,'' New York Times, 19 May 12.
    \83\ Gillian Wong, ``Blind Activist: China Says It'll Investigate 
Abuse,'' Associated Press, reprinted in Yahoo! News, 8 May 12.
    \84\ ``Chen Says Beijing Broke Promise,'' Radio Free Asia, 1 August 
12; Erik Eckholm, ``Even in New York, China Casts a Shadow,'' New York 
Times, 18 June 12. See also ``Chen Nephew Faces Murder Trial,'' Radio 
Free Asia, 7 August 12.
    \85\ ``Fears for Chen Family, Supporters,'' Radio Free Asia, 8 May 
12; Human Rights in China, ``Family of Chen Kegui Rejects Officially 
Appointed Lawyers,'' 25 July 12.
    \86\ Human Rights in China, ``Family of Chen Kegui Rejects 
Officially Appointed Lawyers,'' 25 July 12.
    \87\ ``Guards Return to Chen's Village,'' Radio Free Asia, 24 
August 12.
    Notes to Section II--Freedom of Residence and Movement

    \1\ PRC Regulations on Household Registration [Zhonghua renmin 
gongheguo hukou dengji tiaoli], issued and effective 9 January 58.
    \2\ Kam Wing Chan, ``Crossing the 50 Percent Population Rubicon: 
Can China Urbanize to Prosperity?'' Eurasian Geography and Economic, 
Vol. 53, No.1 (2012), 67-68.
    \3\ Ibid., 66-67.
    \4\ Ibid., 67.
    \5\ China has signed and expressed intent to ratify the ICCPR. 
Universal Declaration of Human Rights, adopted and proclaimed by UN 
General Assembly resolution 217A (III) of 10 December 48, arts. 2, 
13(1); International Covenant on Civil and Political Rights (ICCPR), 
adopted by UN General Assembly resolution 2200A (XXI) of 16 December 
66, entry into force 23 March 76, arts. 2(1), 12(1), 12(3), 26.
    \6\ Kam Wing Chan, ``Crossing the 50 Percent Population Rubicon: 
Can China Urbanize to Prosperity?'' Eurasian Geography and Economics, 
Vol. 53, No.1 (2012), 68-69; Tom Holland, ``Third of China's City-
Dwellers Are Still Second Class Citizens,'' South China Morning Post, 4 
April 12; Feng Ya, ``National Development and Reform Commission 
Official: The Household Registration System Cannot Be Simply 
Abolished'' [Fagaiwei guanyuan: huji zhidu buneng jiandan quxiao 
liaozhi], China National Radio, reprinted in Xinhua, 26 June 12.
    \7\ National Bureau of Statistics, ``Quantity, Structure, and 
Characteristics of New Generation Migrant Workers'' [Xinshengdai 
nongmingong de shuliang, jiegou he tedian], 11 March 11; Li Xiaohong, 
``Development Report on China's Floating Population: Post 80s Migrants 
Gradually Take Lead Role in Mobile Army'' [Zhongguo liudong renkou 
fazhan baogao: 80 hou jian cheng liudong da jun zhujue], People's 
Daily, reprinted in Xinhua, 10 October 11.
    \8\ ``Young Migrant Workers Not Well Adapted in City,'' Xinhua, 
reprinted in China Daily, 8 December 11; Lin Meilian, ``Outcasts No 
Longer,'' Global Times, 5 July 12.
    \9\ Raymond Li, ``Migrants' Children Learn of Education 
Inequality,'' South China Morning Post, 6 March 12; ``A Wound in 
Society, Left-Behind Children Struggle With the Law,'' Xinhua, 30 May 
12; Gao Hanbing, ``No Hukou or Housing Permit Make It Difficult for 
Migrant Children To Attend School'' [Mei hukou mei fang zheng, 
nongmingong zidi shangxue nan], Dongbei News Net, 5 July 12. According 
to a 2012 National Population and Family Planning Commission report on 
migrants, the percentage of migrant children in Beijing (3.5 percent), 
Shanghai (5.1 percent), and Guangzhou (5.3 percent) who do not attend 
school is higher than the national average (2.1 percent). Sun Tiexiang, 
``Population and Family Planning Commission Releases `2012 Development 
Report on China's Floating Population' '' [Renkou jisheng wei fabu 
``zhongguo liudong renkou fazhan baogao 2012''], Xinhua, 6 August 12, 
reprinted in China Development Gateway, 7 August 12.
    \10\ See, e.g., Matthew Jukes and Liu Meng, ``Parents Claim 2 
Detained At Protest,'' Global Times, 6 July 12; `` `We Want To Go To 
School,' Say Children of Chinese Migrant Workers,'' France 24, 18 June 
12; Wang Jing and Chen Ruofei, ``Beating of Boy Sparks Three Days of 
Unrest,'' Caixin, 3 July 12; John Blau, ``Unhappy Migrant Workers in 
China Are a Growing Problem,'' Deutsche Welle, 27 June 12.
    \11\ Kan Feng, ``2012 Cities Bluebook: Development of China's 
Cities Face Ten Major Challenges'' [2012 nian chengshi lanpishu: 
zhongguo chengshi fazhan mianlin shi da tiaozhan], China News Service, 
reprinted in People's Daily, 14 August 12; Liu Rong, ``City Bluebook: 
500 Million Farmers Will Need To Be `Urbanized' in the Next 20 Years'' 
[Chengshi lanpishu: weilai 20 nian you jin 5 yi nongmin xuyao ``shimin 
hua''], People's Daily, 15 August 12; Yu Qian, ``More Than Half of All 
Chinese Live in Cities, as Rural Exodus Continues,'' Global Times, 15 
August 12. The CASS report notes that urban dwellers totaled 691 
million in 2011, which accounted for 51.27 percent of China's 
population. This is the first time in China's history that the urban 
population is greater than the rural population.
    \12\ See, e.g., Yin Pumin, ``Breaking the Lock,'' Beijing Review, 
22 March 12; Lan Lan, ``More Live in Cities, but Reform Still Needed,'' 
China Daily, 26 March 12; ``Wen Jiabao: Actively and Steadily Advance 
Reform of the Household Registration System, Promote Implementation of 
the Residence Permit System'' [Wen jiabao: jiji wentuo tuijin huji 
guanli zhidu gaige tuidong shixing juzhuzheng zhidu], People's Daily, 5 
March 12.
    \13\ Yin Pumin, ``Breaking the Lock,'' Beijing Review, 22 March 12.
    \14\ See, e.g., State Council General Office, Circular Regarding 
the Active and Sound Implementation of Household Registration System 
Reform [Guowuyuan bangongting guanyu jiji wentuo tuijin huji guanli 
zhidu gaige de tongzhi], 26 February 12; State Council, Circular 
Regarding Issue of the National ``12th Five-Year'' Plan for Population 
Development [Guowuyuan guanyu yinfa guojia renkou fazhan ``shi er wu'' 
guihua de tongzhi], 23 November 11, art. 3(4); ``Authorized Release: 
The Outline for the PRC's 12th Five Year Plan for National Economic and 
Social Development'' [Shouquan fabu: zhonghua renmin gongheguo guomin 
jingji he shehui fazhan di shi er ge wu nian guihua gangyao], Xinhua, 
16 March 11.
    \15\ ``Wen Jiabao: Actively and Steadily Advance Reform of the 
Household Registration System, Promote Implementation of the Residence 
Permit System'' [Wen jiabao: jiji wentuo tuijin huji guanli zhidu gaige 
tuidong shixing juzhuzheng zhidu], People's Daily, 5 March 12.
    \16\ State Council General Office, Circular Regarding Issue of the 
National ``12th Five-Year'' Plan for the Basic Public Services System 
[Guowuyuan guanyu yinfa guojia jiben gonggong fuwu tixi ``shi er wu'' 
guihua de tongzhi], 11 July 12; ``Incremental Household Registration 
Reform Helps To Equalize Public Services'' [Jianjin shi huji gaige 
zhuli gonggong fuwu jundenghua], Chinese Central Television, 21 July 
12; Xuyang Jingjing, ``Hukou Restrictions To Be Loosened To Give Equal 
Access to Resources,'' Global Times, 20 July 12.
    \17\ State Council, Circular Regarding the Active and Sound 
Implementation of Household Registration System Reform [Guowuyuan 
bangongting guanyu jiji wentuo tuijin huji guanli zhidu gaige de 
tongzhi], 26 February 12.
    \18\ ``The Ease and Difficulty of Household Registration Reform'' 
[Huji gaige yi yu nan], New Century, reprinted in Caixin, 5 March 12; 
``State Council: Household Registration Open in Small- and Medium-Level 
Cities, Exchanging Land for Hukou Residency Is Prohibited'' [Guoban 
zhong xiao chengshi huji fangkai jinzhi tudi huan hukou], Caixin, 23 
February 12; ``Separate and Unequal,'' China Economic Review, 5 April 
12; Yue Zhen, ``Cai Jiming: What Harm Is There in Opening Household 
Registration in Large Cities?'' [Cai jiming: fangkai da chengshi huji 
you he fang], Caixin, 7 March 12; Liu Yuhai, ``Next Step in Household 
Registration Reform: Equalizing Public Services'' [Huji gaige xiayibu: 
gonggong fuwu jundenghua], 21st Century Business, 27 March 12.
    \19\ Deng Yuwen, ``China's Huji Problem,'' Tianda Institute, 21 
April 12 (reprinted in and translated by China Elections and 
Governance).
    \20\ See, e.g., ``Progressive Reform: Shenzhen Advances Household 
Registration Reform'' [Gaige jinxing shi: shenzhen tuijin huji gaige], 
CCTV Economic News Broadcast, reprinted in World of Finance, 7 April 
12; ``Deciphering `Hangzhou Floating Population Service Management 
Regulations' Educational Barriers Cited as Concern in Applying for 
Hangzhou Residency Permit'' [Jiedu ``hangzhou shi liudong renkou fuwu 
guanli tiaoli'' hangzhou shenqing juzhuzheng she xueli menkan yin 
guanzhu], Land Resources Net, 1 June 12; Yang Fang, ``Shandong Will 
Abolish Temporary Residence Permit System, Floating Population Can 
Enjoy Residential Benefits'' [Shandong jiang quxiao zanzhuzheng zhidu 
liudong renkou ke xiangyou shimin daiyu], Shandong Business News, 
reprinted in Xinhua, 21 June 12.
    \21\ Wang Bin, ``Shandong Household Registration Reforms: Education 
and Employment Will Hereafter No Longer Be Linked With Hukou Status'' 
[Shandong huji gaige: jinhou jiaoyu jiuye xin gui bu yu hukou xingzhi 
guagou], Jinan Daily, reprinted in Western Net, 30 March 12; ``Migrant 
Workers Can Apply To Settle in Shandong, Jinan, and Qingdao, Residency 
Threshold Not Reduced'' [Wailai wu gong dou ke shenqing luohu shandong 
jinan qingdao chengqu luohu menkan wei jiang], Shandong Business News, 
reprinted in Soufun Net, 1 April 12.
    \22\ Tom Holland, ``Third of China's City-Dwellers Are Still Second 
Class Citizens,'' South China Morning Post, 4 April 12; Li Zijun, 
``Over Half of Employable Floating Population Does Not Have Social 
Insurance'' [Guoban jiuye liudong renkou mei shebao], Beijing Business 
Today, 10 October 11; All-China Federation of Trade Unions, ``The 
Conditions of New Generation Migrant Workers in Enterprises: A 2010 
Study and Policy Recommendations'' [2010 nian qiye xinshengdai 
nongmingong zhuangkuang diaocha ji duice jianyi], 21 February 11; Kam 
Wing Chan, ``Crossing the 50 Percent Population Rubicon: Can China 
Urbanize to Prosperity?'' Eurasian Geography and Economics, Vol. 53, 
No. 1 (2012), 75.
    \23\ Universal Declaration of Human Rights, adopted and proclaimed 
by UN General Assembly resolution 217A (III) of 10 December 48, art. 
13; International Covenant on Civil and Political Rights, adopted and 
proclaimed by UN General Assembly resolution 2200A (XXI) of 16 December 
66, entry into force 23 March 76, art. 12.
    \24\ PRC Passport Law [Zhonghua renmin gongheguo huzhao fa], issued 
29 April 06, effective 1 January 07, art. 13(7); PRC Exit and Entry 
Control Law [Zhonghua renmin gongheguo chujing rujing guanli fa], 
issued 30 June 12, effective 1 July 13, art. 12(5).
    \25\ ``In Xinyu, Li Sihua Unaware Passport Had Been Revoked for Two 
Months'' [Xinyu li si hua huzhao bei fei liang yue jing bu zhiqing], 
Voice of America, 16 June 12; Chinese Human Rights Defenders, ``Jiangxi 
Independent Candidate Li Sihua Intercepted En Route to Hong Kong'' 
[Jiangxi duli canxuanren li si hua fu gang bei lanjie jingguo], 17 June 
12.
    \26\ ``In Xinyu, Li Sihua Unaware Passport Had Been Revoked for Two 
Months'' [Xinyu li si hua huzhao bei fei liang yue jing bu zhiqing], 
Voice of America, 16 June 12.
    \27\ Chinese Human Rights Defenders, ``Chinese Human Rights 
Briefing February 28-March 5, 2012,'' 7 March 12; Chinese Human Rights 
Defenders, ``Independent Candidate Li Sihua Is Taken Away by `Police' 
at Guangzhou Baiyun Airport'' [Duli canxuanren li sihua zai guangzhou 
baiyun jichang bei ``jingfang'' dai zuo (zhi yi)], 29 February 12.
    \28\ Chinese Human Rights Defenders, ``Record of Sichuan Democracy 
Activist Chen Yunfei Prevented From Leaving Shuangliu Airport'' 
[Sichuan minzhu weiquan renshi chen yunfei zai shuangliu jichang bei 
zuzhi chu guan ji], 20 June 12.
    \29\ See, e.g., Chinese Human Rights Defenders, ``Chinese Human 
Rights Briefing November 23-29, 2011,'' 30 November 11; ``Entire Course 
of Events Surrounding Chen Yunfei and Others Rescuing Petitioners 
Imprisoned in Black Jails'' [Chen yunfei deng ren jiejiu hei jianyu 
guanya fangmin quan guocheng], Boxun, 10 December 11.
    \30\ ``Ai Weiwei: Still Can't Leave China,'' Voice of America, 21 
June 12.
    \31\ ``Ai Weiwei Has Passport Confiscated, No Freedom To Leave the 
Country'' [Ai weiwei huzhao bei moshou wu chuguo ziyou], Radio France 
Internationale, 26 June 12.
    \32\ ``Ai Weiwei: Still Can't Leave China,'' Voice of America, 21 
June 12.
    \33\ ``Ai Weiwei Still Prohibited From Leaving the Country, 
Overseas Fame Steadily Increases'' [Ai weiwei reng beijin chuguo haiwai 
shengyu youzengwujian], Radio Free Asia, 23 June 12.
    \34\ Universal Declaration of Human Rights, adopted and proclaimed 
by UN General Assembly resolution 217A (III) of 10 December 48, art. 9; 
International Covenant on Civil and Political Rights, adopted by UN 
General Assembly Resolution 2200A (XXI) of 16 December 66, entry into 
force 23 March 76, art. 9(1).
    \35\ Liu Kailong, ``Cheng Xue of Wuhan City Prevented From Leaving 
Home, Mayor's Hotline Claims Public Security Bureau Had a Directive 
From Above To Arrange for Gang To Block Door '' [Wuhan shi cheng xue 
bei du zai jia shizhang rexian cheng gonganju zhipai hei shehui du men 
shi shangji zhishi], Canyu, reprinted in Boxun, 19 February 12; Lara 
Farrar, ``My Shanghai Next Door Neighbor Is Chinese Dissident Feng 
Zhenghu,'' Huffington Post, 11 June 12; Tania Branigan, ``Chinese 
Activist Feng Zhenghu Held Under Shanghai House Arrest,'' Guardian, 11 
June 12.
    \36\ ``Concern Over Activist's Health,'' Radio Free Asia, 11 June 
12; ``Fears for Blind Activist's Family,'' Radio Free Asia, 14 February 
12; Chinese Human Rights Defenders, ``Guangdong Independent Chinese PEN 
Center Member Ye Huo Asked To `Drink Tea' '' [Guangdong duli zhongwen 
bihui huiyuan ye huo bei `` `hecha' ''], 28 April 12.
    \37\ Michael Bristow, ``China Keeps Close Eye on Government 
Opponents,'' BBC, 20 February 12; Guan Xiaoling, Chinese Human Rights 
Defenders, ``Jilin Petitioner Zhao Guixiang Kidnapped and Then Detained 
by Beijing Police'' [Jilin fangmin zhao gui xiang zai beijing bei 
jingfang bangjia hou juliu], reprinted in Boxun, 6 March 12; Ren 
Changling, Chinese Human Rights Defenders, ``Li Kuichun of Fuzhou Went 
to Hebei To Handle Affairs. Kidnapped by Interceptors'' [Fuzhou li kui 
chun dao hebei banshi bei jie fang ren bangjia], reprinted in Boxun, 7 
March 12.
    \38\ Wu Yu, ``Zhu Yufu Is Sentenced to Seven Years for `A Short 
Poem' '' [Zhu yufu ``yi shou xiao shi'' pan qi nian], Deutsche Welle, 
10 February 12; Sui-Lee Wee, ``China Again Targets `Subversion' Ahead 
of Leadership,'' Reuters, 19 January 12.
    \39\ ``Many Rights Activists Are Still Under House Arrest After 
Conclusion of Two Sessions'' [Lianghui jieshu hou reng you duo wei 
weiquan renshi zao ruanjin], Radio Free Asia, 19 March 12; ``Strict 
Controls Put on Petitioners in All Parts of the Country Ahead of NPC 
and CPPCC Meetings, Those Taking Risks To Petition Are Watched 
Closely'' [Lianghui qian yan kong gedi fang min maoxian shangfang wang 
bei guanzhu], Radio Free Asia, 26 February 12; Chinese Human Rights 
Defenders, ``A Number of Shanghai Petitioners Arrested for Submitting 
Materials at Two Sessions, Protest Against Injustices Held at Old 
Summer Palace'' [Shanghai fang min xiang lianghui di cailiao duo ren 
bei zhua, zai yuanmingyuan jingqu su yuanqing], 5 March 12, reprinted 
in Boxun, 6 March 12.
    \40\ Chinese Human Rights Defenders, ``As `June 4' Approaches, 
Rights Activists in Xi'an are Taken Away on a `Trip' '' [``Liu si'' 
lailin, xi'an weiquan renshi bei daizou ``luyou''], 2 June 12; Chinese 
Human Rights Defenders, ``Shanghai Police Drop in To Warn Wang Kouma 
Not To Go Out on June 4'' [Shanghai jingcha shangmen jinggao wang kouma 
liu si bude waichu], 4 June 12; Chinese Human Rights Defenders, ``On 
the Eve of June 4, Anhui Dissident Gu He's Home is Under `Guard' '' 
[Liu si qianxi anhui yiyirenshi gu he jia bei ``zhan gang''], 3 June 
12.
    \41\ ``On Four Year Anniversary of Sichuan Earthquake Parents of 
Child Victims Are Put Under Surveillance, Victims' Families Clash With 
Urban Management Officers in Dujiangyan'' [Chuanzhen si zhounian yu'nan 
tong jiazhang bei jiankong dujiangyan nan shu yu chengguan fasheng 
chongtu], Radio Free Asia, 13 May 12; ``Authorities Again Apply 
``Tiger's Claw'' To Clamp Down on Rights During Four-Year Anniversary 
of Sichuan Earthquake'' [Chuanzhen si zhounian dangju zai shi hu zhua 
qianzhi weiquan], Radio Free Asia, 11 May 12.
    \42\ Chinese Human Rights Defenders, ``Chen Guangcheng: A Special 
Bulletin-Updates on Situation of Chen Guangcheng & His Family Members, 
Relatives & Supporters Since Chen's Flight for Freedom,'' 2 July 12.
    \43\ Tania Branigan, ``China Accused of Crackdown on Family and 
Friends of Dead Activist,'' Guardian, 17 August 12; Verna Yu, ``Police 
Charge Activist Who Cast Doubt on Suicide,'' South China Morning Post, 
10 August 12; ``China Activist Gets Hard Labour in Tiananmen Row,'' 
Agence France-Presse, reprinted in Yahoo! News, 23 July 12; Chinese 
Human Rights Defenders, `` `Chinese Human Rights Defenders Net' 
Statement Regarding Hunan Authorities Wonton Suppression of Rights 
Activists and Blocking of the Truth of Li Wangyang's Death'' [`Weiquan 
wang' jiu hunan dangju dasi da ya weiquanrenshi fengsha li wangyang 
siwang zhenxiang de shengming], 18 July 12. According to the non-
governmental organization Chinese Human Rights Defenders, upwards of 20 
people have faced police harassment and detention for their involvement 
with Li's case. Chinese Human Rights Defenders, ``Li Wangyang Autopsy 
`Suicide' Verdict Announced Today, Dozens of Hunan Rights Activists 
Being Controlled'' [Li wangyang shijian ``zisha'' jielun jinri gongbu, 
shushi ming hunan weiquanrenshi bei kongzhi], 12 July 12.
    \44\ Chinese Human Rights Defenders, ``Beijing Rights Lawyer Ni 
Yulan's Daughter Dong Xuan Placed Under House Arrest'' [Beijing weiquan 
lushi ni yulan zhi nu dong xuan bei ruanjin], 11 April 12.
    \45\ ``Ni Yulan's Daughter Is Prevented From Traveling to Holland 
To Accept Award on Behalf of Her Mother, Netherlands Ministry of 
Foreign Affairs Engage In Negotiations With Chinese'' [Ni yulan nuer 
qianwang helan dai mu lingjiang bei zu helan waijiaobu chumian yu 
zhongfang jiaoshe], Radio Free Asia, 27 January 12; ``Empty Chair 
Represents Ni Yulan Unable To Accept Award'' [Ni yulan wufa lingjiang 
kong deng daibiao], Radio Free Asia, reprinted in Sina, 2 February 12.
    \46\ Simon Leys, ``He Told the Truth About China's Tyranny,'' New 
York Review of Books, 9 February 12; ``Liu's Parole Rumors Rejected,'' 
Radio Free Asia, 29 August 12.
    Notes to Section II--Status of Women

    \1\ Convention on the Elimination of All Forms of Discrimination 
against Women, adopted and opened for signature, ratification, and 
accession by UN General Assembly resolution 34/180 of 18 December 79, 
entry into force 3 September 81. China signed the convention on July 
17, 1980, and ratified it on November 4, 1980. See United Nations 
Treaty Collection, Chapter IV, Human Rights, Convention on the 
Elimination of All Forms of Discrimination against Women, last visited 
14 September 12.
    \2\ Convention on the Elimination of All Forms of Discrimination 
against Women, adopted and opened for signature, ratification, and 
accession by UN General Assembly resolution 34/180 of 18 December 79, 
entry into force 3 September 81, art. 7.
    \3\ The PRC Law on the Protection of Women's Rights and Interests 
and the PRC Electoral Law of the National People's Congress and Local 
People's Congresses stipulate that an ``appropriate number'' of female 
deputies should serve at all levels of people's congresses. PRC Law on 
the Protection of Women's Rights and Interests [Zhonghua renmin 
gongheguo funu quanyi baozhang fa], enacted 3 April 92, effective 1 
October 92, amended 28 August 05, art. 11; PRC Electoral Law of the 
National People's Congress and Local People's Congresses [Zhonghua 
renmin gongheguo quanguo renmin daibiao dahui he difang geji renmin 
daibiao dahui xuanju fa], enacted 1 July 79, amended 10 December 82, 2 
December 86, 28 February 95, 27 October 04, 14 March 10, art. 6.
    \4\ State Council Information Office, National Human Rights Action 
Plan of China (2012-2015), reprinted in Xinhua, 11 June 12, sec. 
III(2); PRC State Council, ``PRC Outline for the Development of Women'' 
[Zhongguo funu fazhan gangyao], issued 30 July 11, sec. 3(4).
    \5\ State Council Information Office, National Human Rights Action 
Plan of China (2012-2015), reprinted in Xinhua, 11 June 12, sec. 
III(2).
    \6\ The target of 30 percent female representation in leadership 
positions by 1995 was set by the UN Commission on the Status of Women 
at its 34th session in 1990. ``Target: 30 Percent of Leadership 
Positions to Women by 1995--United Nations Commission on the Status of 
Women,'' United Nations Publications, reprinted in Bnet, June 1990.
    \7\ State Councilor Liu Yandong is reportedly the only woman who 
holds a position in the Political Bureau of the Communist Party Central 
Committee. Jen-Kai Liu, ``The Main National Leadership of the PRC,'' 
China Data Supplement, Journal of Current Chinese Affairs, Vol. 19, No. 
3 (2011), 3; Kerry Brown, ``Chinese Politics--Still a Man's World,'' 
CNN World Blog, 27 August 12; ``Liu Yandong,'' China Vitae, last 
visited 4 September 12.
    \8\ Kerry Brown, ``Chinese Politics--Still a Man's World,'' CNN 
World Blog, 27 August 12. See also Didi Kirsten Tatlow, ``Chinese 
Women's Progress Stall on Many Fronts,'' New York Times, 6 March 12.
    \9\ Jen-Kai Liu, ``The Main National Leadership of the PRC,'' China 
Data Supplement, Journal of Current Chinese Affairs, Vol. 19, No. 3 
(2011), 3; Michael Forsythe and Yidi Zhao, ``Women Knowing China Men 
Rule Prove Mao's Half the Sky Remains Unfulfilled,'' Bloomberg News, 23 
June 11.
    \10\ State Council Information Office, ``Assessment Report on the 
National Human Rights Action Plan of China (2009-2010),'' Xinhua, 14 
July 11, IV(2). Zhang Liming, a Chinese official quoted in a March 2012 
Xinhua report, confirmed that this statistic remains current. It is 
unclear whether Zhang's sources were official. See He Dan, ``Women 
Deputies Call for Greater Female Voice,'' Xinhua, 8 March 12.
    \11\ ``Number of Deputies to All the Previous National People's 
Congresses'' [Lijie quanguo renmin daibiao dahui daibiao renshu], China 
Statistical Yearbook 2011, 2011, Table 23-1.
    \12\ He Dan, ``Women Deputies Call for Greater Female Voice,'' 
Xinhua, 8 March 12.
    \13\ See, e.g., ``Women Village Officials All Too Rare,'' Southern 
Daily, reprinted in Women's Watch-China, 30 November 11.
    \14\ ``More Chinese Women Elected Village Cadres,'' China News 
Center, 6 March 12.
    \15\ PRC Organic Law of the Villagers' Committees [Zhonghua renmin 
gongheguo cunmin weiyuanhui zuzhi fa], passed 4 November 98, amended 28 
October 10, art. 6, 25.
    \16\ Women's Watch-China, ``2009 Women's Watch-China Annual 
Report,'' 23 August 10, 12. See also Leta Hong Fincher, ``Marriage Laws 
in Modern China Still Leave Women Behind,'' Women News Network, 24 
August 12. According to the Women News Network report, ``The All China 
Women's Federation says the most urgent problem facing rural women in 
China is the absence of property rights. In theory, women in China have 
had legally recognized rights to land and property. But in practice, 
they have lost land rights mainly through marriage, divorce, 
inheritance, widowhood and urban migration.''
    \17\ Didi Kirsten Tatlow, ``Chinese Law Could Make Divorced Women 
Homeless,'' New York Times, 7 September 11.
    \18\ Ibid.; Leta Hong Fincher, ``Marriage Laws in Modern China 
Still Leave Women Behind,'' Women News Network, 24 August 12. According 
to official statistics cited in the Women News Network report, 
``According to the latest government statistics from the All China 
Women's Federation, . . . in China in 2005 . . . 80 percent of 
household heads were men. The vast majority of residential property in 
China is registered to the `household head,' which is usually the man . 
. . household heads almost always control the property, deciding 
whether or when to sell it and how to use it.''
    \19\ Shenzhen Municipal National People's Congress Standing 
Committee, ``Shenzhen Special Economic Zone Gender Equality Promotion 
Regulations'' [Shenzhen jingji tequ xingbie pingdeng cujin tiaoli], 
passed 28 June 12, issued 10 July 12, effective 1 January 13; You 
Chunliang and Hui Zhen, ``Shenzhen Comes Out With First National Gender 
Equality Regulations, Protects Women's Lawful Rights and Interests'' 
[Shenzhen chutai guonei shoubu xingbie pingdeng tiaoli baohu nuxing 
hefa quanyi], Legal Daily, reprinted in People's Daily, 2 July 12.
    \20\ Shenzhen Municipal National People's Congress Standing 
Committee, ``Shenzhen Special Economic Zone Gender Equality Promotion 
Regulations'' [Shenzhen jingji tequ xingbie pingdeng cujin tiaoli], 
passed 28 June 12, issued 10 July 12, effective 1 January 13; 
``Shenzhen Passes China's First Anti-Gender Discrimination Law,'' China 
Briefing, 23 August 12.
    \21\ Shenzhen Municipal National People's Congress Standing 
Committee, ``Shenzhen Special Economic Zone Gender Equality Promotion 
Regulations'' [Shenzhen jingji tequ xingbie pingdeng cujin tiaoli], 
passed 28 June 12, issued 10 July 12, effective 1 January 13, arts. 22-
24, 29. For a definition of gender discrimination, see Articles 4 and 
5. For guidelines on analyzing and assessing gender equality, see 
Article 11. For provisions on assessing and eliminating gender 
discrimination in education, see Article 14. For provisions on gender 
discrimination in media advertising, see Article 21. For provisions on 
handling gender discrimination disputes, see Article 28. For provisions 
on sexual harassment, see Articles 22, 23, and 29. For provisions on 
domestic violence, see Articles 24 and 25.
    \22\ International Covenant on Economic, Social and Cultural Rights 
(ICESCR), adopted by General Assembly resolution 2200A (XXI) of 16 
December 66, entry into force 3 January 76, art. 7. China signed the 
ICESCR on October 27, 1997, and ratified it on March 27, 2001. See also 
PRC Employment Promotion Law [Zhonghua renmin gongheguo jiuye cujin 
fa], enacted 30 August 07, effective 1 January 08, art. 3.
    \23\ PRC Labor Law [Zhonghua renmin gongheguo laodong fa], enacted 
5 July 94, effective 1 January 95, amended 10 October 01, arts. 12, 13; 
PRC Law on the Protection of Women's Rights and Interests [Zhonghua 
renmin gongheguo funu quanyi baozhang fa], enacted 3 April 92, 
effective 1 October 92, amended 28 August 05, arts. 22-27; PRC 
Employment Promotion Law [Zhonghua renmin gongheguo jiuye cujin fa], 
enacted 30 August 07, effective 1 January 08, art. 3.
    \24\ PRC State Council, ``PRC Outline for the Development of 
Women'' [Zhongguo funu fazhan gangyao], issued 30 July 11, sec. 3(3). 
The outline calls for officials to ``ensure females may enjoy an equal 
right to work,'' and to ``eliminate gender discrimination in 
employment.''
    \25\ He Dan, ``Women Still Face Bias on the Job, Survey Finds,'' 
China Daily, 22 October 11; PRC Central People's Government, ``All-
China Women's Federation Pays Close Attention to the Problem of 
Discrimination Against Chinese Females in Some Areas'' [Quanguo fulian 
feichang guanzhu zhongguo nuxing zai yixie fangmian shou qishi wenti], 
21 October 11.
    \26\ He Dan, ``Women Still Face Bias on the Job, Survey Finds,'' 
China Daily, 22 October 11.
    \27\ ``Report: Discrimination Prevalent in Civil Service Hiring,'' 
Caixin, 21 November 11.
    \28\ Ibid.
    \29\ Beijing Yirenping Center, ``Letter of Opinion Regarding 
Revising or Cancelling the Gynecological Exam Requirement in the 
`Commonly Used Standards for Physical Examinations in Civil Servant 
Hiring' '' [Guanyu xiugai huo quxiao ``gongwu yuan luyong tijian 
tongyong biaozhun'' zhong fuke tiyan xiangmu de jianyi xin], 19 March 
12. See also ``Women Workers in China Standing Up to Discrimination,'' 
China Labour Bulletin, 19 April 12.
    \30\ He Dan, ``Women Still Face Bias on the Job, Survey Finds,'' 
China Daily, 22 October 11.
    \31\ ``Women in the Labor Force in China,'' Catalyst, last visited 
4 September 12. To arrive at this number, Catalyst analyzed statistics 
from the World Economic Forum's 2011 ``Global Gender Gap Report,'' 
which ranked China 61st in the world. See also Ricardo Hausmann, Laura 
D. Tyson, and Saadia Zahidi, Global Gender Gap Report: 2011, World 
Economic Forum, 2011.
    \32\ ``Guangdong Female Employee Dismissed While on Maternity 
Leave, Files a Lawsuit for Employment Discrimination on Women's Day'' 
[Guangdong nugong xiu chanjia zao citui funujie qisu gongsi xingbie 
qishi], Guangdong News Net, 9 March 12. See also ``Women Workers in 
China Standing Up to Discrimination,'' China Labour Bulletin, 19 April 
12.
    \33\ ``Guangdong Female Employee Dismissed While on Maternity 
Leave, Files a Lawsuit for Employment Discrimination on Women's Day'' 
[Guangdong nugong xiu chanjia zao citui funujie qisu gongsi xingbie 
qishi], Guangdong News Net, 9 March 12; ``Women Workers in China 
Standing Up to Discrimination,'' China Labour Bulletin, 19 April 12.
    \34\ PRC Law on the Protection of Women's Rights and Interests 
[Zhonghua renmin gongheguo funu quanyi baozhang fa], enacted 3 April 
92, effective 1 October 92, amended 28 August 05, art. 27.
    \35\ PRC State Council, Special Provisions for the Work Protection 
of Female Employees [Nu zhigong laodong baohu tebie guiding], issued 
and effective 28 April 12.
    \36\ Ibid., art. 5.
    \37\ PRC State Council, Provisions on the Work Protection of Female 
Employees [Nu zhigong laodong baohu guiding], issued 21 July 88, 
effective 1 September 88, art. 8.
    \38\ PRC State Council, Special Provisions for the Work Protection 
of Female Employees [Nu zhigong laodong baohu tebie guiding], issued 
and effective 28 April 12, art. 7.
    \39\ Currently, retirement ages for male and female government and 
Party officials are 60 and 55, respectively, while retirement ages for 
male and female workers in general are 60 and 50, respectively. 
``China's Compulsory Retirement Age for Males and Females Challenged 
for Violating Constitution'' [Woguo nannu tuixiu nianling guiding 
beitiqing weixian shencha], China Law Education, 16 March 06. For 
information on the current debate about raising the retirement age, see 
Chen Xin, ``Retirement Age Will Be Pushed Back: Minister,'' China 
Daily, 22 March 12.
    \40\ Chen Xin, ``Retirement Age Will Be Pushed Back: Minister,'' 
China Daily, 22 March 12.
    \41\ Ibid.
    \42\ ``Women Should Retire at 60 Under Proposal,'' China Daily, 
reprinted in Women's Watch-China, 5 March 12.
    \43\ Chen Xin, ``Retirement Age Will Be Pushed Back: Minister,'' 
China Daily, 22 March 12.
    \44\ PRC Law on the Protection of Women's Rights and Interests 
[Zhonghua renmin gongheguo funu quanyi baozhang fa], enacted 3 April 
92, effective 1 October 92, amended 28 August 05, art. 46; PRC Marriage 
Law [Zhonghua renmin gongheguo hunyin fa], enacted 10 September 80, 
effective 1 January 81, amended 28 April 01, art. 3; PRC Criminal Law 
[Zhonghua renmin gongheguo xingfa], enacted 1 July 79, amended 14 March 
97, effective 1 October 97, amended 25 December 99, 31 August 01, 29 
December 01, 28 December 02, 28 February 05, 29 June 06, 28 February 
09, 25 February 11, arts. 234, 236, 260.
    \45\ See, e.g., ``Law on Domestic Violence,'' China Daily, 8 May 
12. According to All-China Women's Federation statistics from 2011, 
approximately one in four Chinese women have experienced domestic 
violence. See also ``More Than Half Chinese Suffer Domestic Violence: 
Survey,'' CRIenglish, 14 May 12. According to an online survey released 
by the Maple Women's Psychological Counseling Center in May 2012, of 
1,858 respondents (both male and female), 54.6 percent had experienced 
some form of domestic violence--including ``vocal or sexual abuse, 
restraints on freedom, beating, and even scalding and knife attacks.''
    \46\ PRC Law on the Protection of Women's Rights and Interests 
[Zhonghua renmin gongheguo funu quanyi baozhang fa], enacted 3 April 
92, effective 1 October 92, amended 28 August 05, art. 46; PRC Marriage 
Law [Zhonghua renmin gongheguo hunyin fa], enacted 10 September 80, 
effective 1 January 81, amended 28 April 01, art. 3. For Chinese 
experts' discussion of the shortcomings of current national-level 
legislation, see ``All-China Women's Federation Strongly Promotes Anti-
Domestic Violence Law'' [Quanguo fulian litui fan jiating baoli fa], 
People's Representative News, 31 December 09; Women's Watch-China, 
``Proposal for Law on Prevention and Curbing of Domestic Violence Comes 
Out'' [Yufang he zhizhi jiating baoli fa jianyi gao chulu], 28 November 
09; ``China Scholars Call for Attention on `Anti-Domestic Violence 
Legislation' '' [Zhongguo xuezhe huyu guanzhu ``fan jiating baoli'' 
lifa], Radio Free Asia, 13 January 10. See also ``All-China Women's 
Federation Proposes, Highlights Need for Draft Anti-Domestic Violence 
Legislation,'' Congressional-Executive Commission on China, 2 February 
10.
    \47\ See CECC 2011 Annual Report, 10 October 11, 124; CECC 2010 
Annual Report, 10 October 10, 132; CECC 2009 Annual Report, 10 October 
09, 168.
    \48\ ``Advisor Calls for Domestic Violence Law,'' Xinhua, reprinted 
in China Daily, 10 March 12; ``85% of People Favor Law Against Domestic 
Violence,'' Xinhua, reprinted in China Daily, 13 March 12; Valerie Tan, 
``China Considers Law Against Domestic Violence,'' Channel News Asia, 
18 November 11.
    \49\ All-China Women's Federation, ``Child Abuse Highlights Need 
for Anti-Domestic Violence Laws,'' 11 June 12; Yan Shuang, ``Crazy 
English Founder Threatened To Kill Me, Says Wife,'' Global Times, 13 
April 12; ``Advisor Calls for Domestic Violence Law,'' Xinhua, 10 March 
12.
    \50\ He Dan, ``Domestic Violence Law Should Be Broad,'' China 
Daily, 12 March 12.
    \51\ State Council Information Office, National Human Rights Action 
Plan of China (2012-2015), reprinted in Xinhua, 11 June 12, sec. 
III(2).
    \52\ Convention on the Elimination of All Forms of Discrimination 
against Women, adopted and opened for signature, ratification, and 
accession by UN General Assembly resolution 34/180 of 18 December 79, 
entry into force 2 September 81, art. 11. China signed the convention 
on July 17, 1980, and ratified it on November 4, 1980. See United 
Nations Treaty Collection, Chapter IV, Human Rights, Convention on the 
Elimination of All Forms of Discrimination against Women, last visited 
14 September 12.
    \53\ PRC Law on the Protection of Women's Rights and Interests 
[Zhonghua renmin gongheguo funu quanyi baozhang fa], enacted 3 April 
92, effective 1 October 92, amended 28 August 05, arts. 40, 58; PRC 
State Council, Special Provisions for the Work Protection of Female 
Employees [Nu zhigong laodong baohu tebie guiding], issued and 
effective 28 April 12, art. 11. See also Women's Watch-China, ``Annual 
Report 2008,'' 23 October 09, 30.
    \54\ PRC Law on the Protection of Women's Rights and Interests 
[Zhonghua renmin gongheguo funu quanyi baozhang fa], enacted 3 April 
92, effective 1 October 92, amended 28 August 05, arts. 40, 58; PRC 
State Council, Special Provisions for the Work Protection of Female 
Employees [Nu zhigong laodong baohu tebie guiding], issued and 
effective 28 April 12, art. 11; Women's Watch-China, ``Annual Report 
2008,'' 23 October 09, 30.
    \55\ Women's Watch-China, ``2009 Women's Watch-China Annual 
Report,'' 23 August 10, 24.
    \56\ Tang Yu, ``Sexual Harassment in the Workplace, What 
Difficulties Exist in Defending One's Rights'' [Zhichang xing saorao 
weiquan heqi nan], China Worker Net, 7 January 11; Gao Zhuyuan, ``The 
Evil of Sexual Harassment,'' China Daily, 2 June 11. See also Luo 
Wangshu and Cao Yin, ``More Sexual Assault at Work Reported,'' China 
Daily, 5 January 12.
    \57\ See, e.g., Therese Hesketh et al., ``The Consequences of Son 
Preference and Sex-Selective Abortion in China and Other Asian 
Countries,'' Canadian Medical Association Journal, 14 March 11, 1-2; 
Mikhail Lipatov et al., ``Economics, Cultural Transmission, and the 
Dynamics of the Sex Ratio at Birth in China,'' Proceedings of the 
National Academy of Sciences of the United States of America, Vol. 105, 
No. 49 (2008), 19171. According to this study, ``The root of the [sex 
ratio] problem lies in a 2,500-year-old culture of son preference.'' 
See also Chu Junhong, ``Prenatal Sex Determination and Sex-Selective 
Abortion in Rural Central China,'' Population and Development Review, 
Vol. 27, No. 2 (2001), 260; Joseph Chamie, ``The Global Abortion Bind: 
A Woman's Right To Choose Gives Way to Sex-Selection Abortions and 
Dangerous Gender Imbalances,'' Yale Global, 29 May 08. For discussion 
of the continued practice of sex-selective abortion and its impact, see 
``Ban on Sex Testing To Help Balance Girl-Boy Ratio,'' Xinhua, 
reprinted in Global Times, 25 May 12.
    \58\ See ``China's Sex Ratio at Birth Dropping,'' North Side Net, 
translated in Women of China, 12 July 12. According to this report, 
which cites a 2012 National Population and Family Planning Commission 
Bulletin, ``China's sex ratio at birth in 2011 was 117.78, representing 
a drop of 0.16 compared to 2010 . . . . The ratios of 2008, 2009 and 
2010 were respectively 120.56, 119.45 and 117.94.''
    \59\ State Commission for Population and Family Planning, Ministry 
of Health, State Food and Drug Administration, PRC Regulations 
Regarding the Prohibition of Non-Medically Necessary Gender 
Determination Examinations and Sex-Selective Termination of Pregnancy 
[Guanyu jinzhi fei yixue xuyao de taier xingbie jianding he xuanze 
xingbie de rengong zhongzhi renshen de guiding], issued 29 November 02, 
effective 1 January 03. For a discussion of these regulations, see 
``China Bans Sex-Selection Abortion,'' Xinhua, reprinted in China Net, 
22 March 03.
    \60\ Mikhail Lipatov et al., ``Economics, Cultural Transmission, 
and the Dynamics of the Sex Ratio at Birth in China,'' Proceedings of 
the National Academy of Sciences of the United States of America, Vol. 
105, No. 49 (2008), 19171; Wei Xing Zhu et al., ``China's Excess Males, 
Sex Selective Abortion and One Child Policy: Analysis of Data From 2005 
National Intercensus Survey,'' British Medical Journal, 9 April 09, 4-
5; Chinese Academy of Social Sciences, ``Difficulty Finding a Wife in 
10 Years: 1 Out of Every 5 Men To Be a Bare Branch'' [10 nian zhihou 
quqi nan, 5 ge nanren zhong jiuyou 1 ge guanggun], 27 January 10.
    \61\ PRC State Council, PRC Outline for the Development of Children 
(2011-2020) [Zhongguo ertong fazhan gangyao (2011-2020 nian)], issued 
30 July 11, sec. 3(5).
    \62\ State Council Information Office, National Human Rights Action 
Plan of China (2012-2015), reprinted in Xinhua, 11 June 12, sec. 
III(3). The National Human Rights Action Plan states, ``Discrimination 
against girls will be eliminated. The state . . . bans identification 
of the sex of a fetus for other than medical purposes and termination 
of pregnancy in the case of a female fetus.'' See also ``Ban on Sex 
Testing To Help Balance Girl-Boy Ratio,'' Global Times, reprinted in 
People's Daily, 25 May 12.
    \63\ ``China Gender Gap Fuelling Human Trafficking: Report,'' 
Agence France-Presse, reprinted in China Post, 22 September 10. See 
also Human Rights Watch, ``World Report 2012: China,'' January 2012; 
World Health Organization, Office of the High Commissioner for Human 
Rights, United Nations Population Fund, United Nations Children's Fund, 
and United Nations Entity for Gender Equality and the Empowerment of 
Women, ``Preventing Gender-Biased Sex Selection,'' 14 June 11, 5; Susan 
W. Tiefenbrun and Christie J. Edwards, ``Gendercide and the Cultural 
Context of Sex Trafficking in China,'' Fordham International Law 
Journal Vol. 32, No. 3 (2009), 752; Therese Hesketh et al., ``The 
Effect of China's One-Child Family Policy After 25 Years,'' New England 
Journal of Medicine, Vol. 353, No. 11 (2005), 1173; Nicholas Eberstadt, 
``A Global War Against Baby Girls: Sex-Selective Abortion Becomes a 
Worldwide Practice,'' Handbook of Gender Medicine, reprinted in All 
Girls Allowed, 1 May 11. According to Eberstadt's report, ``Some 
economists have hypothesized that mass feticide, in making women 
scarce, will only increase their `value'--but in settings where the 
legal and personal rights of the individual are not secure and 
inviolable, the `rising value of women' can have perverse and 
unexpected consequences, including increased demand for prostitution 
and an upsurge in the kidnapping and trafficking of women (as is now 
reportedly being witnessed in some women-scarce areas in Asia)[.]''
    \64\ Human Rights Watch, ``World Report 2012: China,'' January 
2012.
    Notes to Section II--Human Trafficking

    \1\ The specific phrase used to describe the concept of trafficking 
in Chinese government documents, including the National Plan of Action 
on Combating Trafficking in Women and Children (2008-2012), as well as 
related regulations, circulars, and opinions, is guaimai funu ertong, 
which literally means ``the abduction and sale of women and children.'' 
See, for example, State Council General Office, ``Circular on the State 
Council General Office's Issuance of China's National Plan of Action on 
Combating Trafficking in Women and Children (2008-2012)'' [Guowuyuan 
bangongting guanyu yinfa zhongguo fandui guaimai funu ertong xingdong 
jihua (2008-2012 nian) de tongzhi], 13 December 07. See also Ministry 
of Public Security, ``Qinghai Province Implementing Rules and 
Regulations for the Plan of Action on Combating Trafficking in Women 
and Children (2008-2012)'' [Qinghai sheng fandui guaimai funu ertong 
xingdong jihua shishi xize (2008-2012 nian)], 22 December 09; Ministry 
of Public Security, Zhuzhou Municipal People's Government, ``Zhuzhou 
Municipal People's Government Office Circular Regarding the Issuance of 
Zhuzhou Municipality's Action Plan on Combating Trafficking in Women 
and Children'' [Zhuzhou shi renmin zhengfu bangongshi guanyu yinfa 
zhuzhou shi fandui guaimai funu ertong xingdong jihua de tongzhi], 31 
December 09; Bazhong Municipal People's Government, ``Opinion of 
Bazhong Municipal People's Government Office Regarding the 
Implementation of China's National Action Plan on Combating Trafficking 
in Women and Children (2008-2012)'' [Bazhong shi renmin zhengfu 
bangongshi guanyu guanche guowuyuan ``zhongguo fandui guaimai funu 
ertong xingdong jihua (2008-2012 nian)'' de shishi yijian], 30 
September 09.
    \2\ ``China's Top Legislature Ends Bimonthly Session, Adopts Tort 
Law,'' Xinhua, 26 December 09; UN Protocol to Prevent, Suppress and 
Punish Trafficking in Persons, Especially Women and Children, 
Supplementing the United Nations Convention against Transnational 
Organized Crime, adopted by General Assembly resolution 55/25 of 15 
November 00, entered into force 25 December 03. This protocol is also 
commonly referred to as the Palermo Protocol because it was adopted in 
Palermo, Italy, in 2000.
    \3\ The PRC Criminal Law defines trafficking as ``abducting, 
kidnapping, buying, trafficking in, fetching, sending, or transferring 
a woman or child, for the purpose of selling the victim.'' PRC Criminal 
Law [Zhonghua renmin gongheguo xingfa], passed 1 July 79, effective 1 
October 97, amended 14 March 97, 25 December 99, 31 August 01, 29 
December 01, 28 December 02, 28 February 05, 29 June 06, 28 February 
09, 25 February 11, art. 240.
    \4\ PRC Criminal Law [Zhonghua renmin gongheguo xingfa], passed 1 
July 79, effective 1 October 97, amended 14 March 97, 25 December 99, 
31 August 01, 29 December 01, 28 December 02, 28 February 05, 29 June 
06, 28 February 09, 25 February 11, arts. 240, 244, 358. For additional 
information on this topic, see Office To Monitor and Combat Trafficking 
in Persons, U.S. Department of State, ``Trafficking in Persons Report 
2012--China,'' 19 June 12, 118. According to this report, ``[I]t 
remains unclear whether [articles 240, 358, and 244] prohibit the use 
of common non-physical forms of coercion, such as threats and debt 
bondage, as a form of `forcing workers to labor' or `forced 
prostitution' and whether acts such as recruiting, providing, or 
obtaining persons for compelled prostitution are covered.''
    \5\ PRC Criminal Law [Zhonghua renmin gongheguo xingfa], passed 1 
July 79, effective 1 October 97, amended 14 March 97, 25 December 99, 
31 August 01, 29 December 01, 28 December 02, 28 February 05, 29 June 
06, 28 February 09, 25 February 11, arts. 240(4), 244, 358(3). See also 
Office To Monitor and Combat Trafficking in Persons, U.S. Department of 
State, ``Trafficking in Persons Report 2012--China,'' 19 June 12, 119. 
``[I]t remains unclear whether, under Chinese law, children under the 
age of 18 in prostitution are victims of trafficking regardless of 
whether force is involved.''
    \6\ The PRC Criminal Law defines trafficking as ``abducting, 
kidnapping, buying, trafficking in, fetching, sending, or transferring 
a woman or child, for the purpose of selling the victim.'' PRC Criminal 
Law [Zhonghua renmin gongheguo xingfa], passed 1 July 79, effective 1 
October 97, amended 14 March 97, 25 December 99, 31 August 01, 29 
December 01, 28 December 02, 28 February 05, 29 June 06, 28 February 
09, 25 February 11, art. 240.
    \7\ PRC Criminal Law [Zhonghua renmin gongheguo xingfa], passed 1 
July 79, effective 1 October 97, amended 14 March 97, 25 December 99, 
31 August 01, 29 December 01, 28 December 02, 28 February 05, 29 June 
06, 28 February 09, 25 February 11, arts. 244, 358. See also Office To 
Monitor and Combat Trafficking in Persons, U.S. Department of State, 
``Trafficking in Persons Report 2009--China,'' 16 June 09, 106. 
``China's definition of trafficking does not prohibit non-physical 
forms of coercion, fraud, debt bondage, involuntary servitude, forced 
labor, or offenses committed against male victims, although some 
aspects of these crimes are addressed in other articles of China's 
criminal law.''
    \8\ UN Protocol to Prevent, Suppress and Punish Trafficking in 
Persons, Especially Women and Children, Supplementing the United 
Nations Convention against Transnational Organized Crime (UN TIP 
Protocol), adopted by General Assembly resolution 55/25 of 15 November 
00, entered into force 25 December 03, art. 3(a). Article 3(a) of the 
UN TIP Protocol states: ```Trafficking in persons' shall mean the 
recruitment, transportation, transfer, harbouring or receipt of 
persons, by means of the threat or use of force or other forms of 
coercion, of abduction, of fraud, of deception, of the abuse of power 
or of a position of vulnerability or of the giving or receiving of 
payments or benefits to achieve the consent of a person having control 
over another person, for the purpose of exploitation. Exploitation 
shall include, at a minimum, the exploitation of the prostitution of 
others or other forms of sexual exploitation, forced labour or 
services, slavery or practices similar to slavery, servitude or the 
removal of organs.''
    \9\ The PRC Criminal Law defines trafficking as ``abducting, 
kidnapping, buying, trafficking in, fetching, sending, or transferring 
a woman or child, for the purpose of selling the victim.'' PRC Criminal 
Law [Zhonghua renmin gongheguo xingfa], passed 1 July 79, effective 1 
October 97, amended 14 March 97, 25 December 99, 31 August 01, 29 
December 01, 28 December 02, 28 February 05, 29 June 06, 28 February 
09, 25 February 11, art. 240.
    \10\ Zhu Shanshan, ``Shandong Baby Trafficking Ring Taken Down,'' 
Global Times, 4 November 11; ``178 Kids Rescued in China Human 
Trafficking Bust,'' CBS News, 7 December 11; ``2,000 Abducted Children 
Identified via DNA Bank,'' Xinhua, reprinted in China Daily, 1 March 
12; ``Chinese Police `Smash' Trafficking Gang, Frees 181,'' BBC, 6 July 
12; Chen Xin, ``Police Pledge To Fight Child Trafficking,'' China 
Daily, reprinted in People's Daily, 7 July 12; Liu Baijun, 
``Representative Chen Xiurong Suggests Punishing the Buyer Market in 
the Trafficking of Women and Children'' [Chen xiurong daibiao jianyi 
chengzhi guaimai funu ertong maifang shichang], Legal Daily, 12 March 
12. An official quoted in the Legal Daily report suggested that the 
human trafficking buyer market can be broken down into three main 
categories: 1) purchasing children for the purpose of adoption, 2) 
purchasing women for the purpose of marriage, and 3) abducting or 
purchasing women or children for the purpose of forced prostitution or 
child begging. The official recommended additional punishments for the 
purchasers in these cases as well as adjustments to national family 
planning policies in order to remedy China's sex ratio imbalance.
    \11\ The end result of exploitation is one of the required elements 
of a trafficking case under Article 3 of the UN TIP Protocol. UN 
Protocol to Prevent, Suppress and Punish Trafficking in Persons, 
Especially Women and Children, Supplementing the United Nations 
Convention against Transnational Organized Crime, adopted by General 
Assembly resolution 55/25 of 15 November 00, entered into force 25 
December 03, art. 3(c).
    \12\ CECC, 2009 Annual Report, 10 October 09, 175. For more 
information on distinctions between ``human smuggling'' and ``human 
trafficking,'' see U.S. Immigration and Customs Enforcement, ``Human 
Smuggling and Trafficking,'' 20 January 10.
    \13\ United Nations Office on Drugs and Crime, ``Trafficking in 
Persons and Migrant Smuggling,'' last visited 6 September 12.
    \14\ Ibid.
    \15\ Office To Monitor and Combat Trafficking in Persons, U.S. 
Department of State, ``Trafficking in Persons Report 2012--China,'' 19 
June 12, 120.
    \16\ Ibid.; Human Rights Watch, ``World Report 2012--North Korea,'' 
22 January 12.
    \17\ Office To Monitor and Combat Trafficking in Persons, U.S. 
Department of State, ``Trafficking in Persons Report 2012--China,'' 19 
June 12, 118. See also CECC, 2008 Annual Report, 31 October 08, 118. As 
documented and defined internationally, major forms of human 
trafficking include forced labor, bonded labor, involuntary domestic 
servitude, child soldiers, forced prostitution, children exploited for 
commercial sex, child sex tourism, and debt bondage and involuntary 
servitude among migrant laborers.
    \18\ Office To Monitor and Combat Trafficking in Persons, U.S. 
Department of State, ``Trafficking in Persons Report 2012--China,'' 19 
June 12, 118.
    \19\ Ibid. See also, for example, Alisha Hassan, ``Malaysia Arrest 
6 Chinese Women in Sex Trafficking Raid,'' Bikya Masr, 14 July 12; 
``Woman `Kidnapped and Trafficked Through 10 Countries,''' BBC, 9 May 
12; ``Chinese Madam Jailed for Trafficking in Ulster,'' News Letter, 6 
July 12; Mark Fisher, ``CNN Freedom Project Airing Reports of CA Human 
Trafficking Task Force This Week,'' Examiner, 11 June 12; ``Chinese 
Police Free 24,000 Abducted Women and Children,'' BBC, 11 March 12.
    \20\ Office To Monitor and Combat Trafficking in Persons, U.S. 
Department of State, ``Trafficking in Persons Report 2012--China,'' 19 
June 12, 118. See also, for example, Phil Thornton, ``Kachin Women Sold 
as Chinese Brides,'' South Asia Wired, reprinted in Radio Netherlands 
Worldwide, 26 January 12; ``Nepali Girls Being Trafficked to China,'' 
Republica, reprinted in Xnepali, 30 January 12; ``Trafficking of 
Ugandan Women to Asia on the Rise,'' Voice of America, 16 February 12; 
George Thomas, ``North Korean `Bride Slaves' Sold Into Misery,'' CBN 
News, 19 February 12; Hanna Hindstrom, ``Female Migrants See Dark Side 
of China's Border,'' Democratic Voice of Burma, 24 February 12; 
``Vietnam Arrests 6 for Allegedly Trafficking Women,'' Associated 
Press, reprinted in Straits Times, 20 March 12.
    \21\ See, for example, ``Kunming Families of Group of Disappeared 
[Children] Report to the Police, Denounced by Police for Starting 
Rumors'' [Kunming lianhuan shizong an jiashu baojing bei jingfang chi 
wei zaoyao], East Net, reprinted in CCVIC.com, 9 May 12; ``23 Men 
Abduct and Sell 15 Mentally Disabled Women, Oldest Criminal Suspect Is 
79,'' Yangcheng Nightly News, reprinted in Sina, 14 February 12; Zhou 
Wenting, ``Factory Caught Using Child Labor,'' China Daily, 14 February 
12; ``Police Rescue 41 Women From Forced Prostitution,'' Xinhua, 
reprinted in CRIenglish, 17 March 12. See also, Human Rights Watch, 
``World Report 2012--China,'' 22 January 12; ``Chinese Netizens Join 
Efforts To Save Abused Boy,'' Xinhua, 13 July 12; Madison Park, 
``Bullied Chinese Boy Recovering From Assault,'' CNN, 16 July 12; 
Office To Monitor and Combat Trafficking in Persons, U.S. Department of 
State, ``Trafficking in Persons Report 2012--China,'' 19 June 12, 118.
    \22\ Office To Monitor and Combat Trafficking in Persons, U.S. 
Department of State, ``Trafficking in Persons Report 2012--China,'' 19 
June 12, 118. According to this report, ``The [Chinese] government did 
not release any statistics relating to the trafficking of forced labor 
victims or the trafficking of men.''
    \23\ ``Tibet Battles Women Trafficking,'' Radio Free Asia, 24 
August 12.
    \24\ UN Protocol to Prevent, Suppress and Punish Trafficking in 
Persons, Especially Women and Children, Supplementing the United 
Nations Convention against Transnational Organized Crime, adopted by 
General Assembly resolution 55/25 of 15 November 00, entered into force 
25 December 03, art. 3.
    \25\ Zhang Yan, ``More Women Kidnapped for Brides,'' China Daily, 3 
December 11. Chen Shiqu, director of the anti-trafficking office under 
the Ministry of Public Security, reported in December 2011 that ``[t]he 
number of foreign women trafficked to China is definitely rising.''
    \26\ The China Daily reported in March 2012 that China's sex ratio 
at birth ``stands at exactly 117.78 males born for every 100 females'' 
and ``it is estimated that by 2020, China will have 24 million more men 
than women of marriageable age.'' Shan Juan, ``Gender Imbalance Set To 
Ease,'' China Daily, 30 March 12. A previous study issued by the 
Chinese Academy of Social Sciences reported that by 2020, the number of 
Chinese males of marriageable age may exceed the number of Chinese 
females of marriageable age by 30 to 40 million. Chinese Academy of 
Social Sciences, ``Difficulty Finding a Wife in 10 Years: 1 Out of 
Every 5 Men To Be a Bare Branch'' [10 nian zhihou quqi nan, 5 ge nanren 
zhong jiuyou 1 ge guanggun], 27 January 10.
    \27\ Mikhail Lipatov et al., ``Economics, Cultural Transmission, 
and the Dynamics of the Sex Ratio at Birth in China,'' Proceedings of 
the National Academy of Sciences of the United States of America, Vol. 
105, No. 49 (December 2008), 19171. According to this study, ``The root 
of the [sex ratio] problem lies in a 2,500-year-old culture of son 
preference.'' Wei Xing Zhu et al., ``China's Excess Males, Sex 
Selective Abortion and One Child Policy: Analysis of Data From 2005 
National Intercensus Survey,'' British Medical Journal, 9 April 09, 4-
5.
    \28\ See, e.g., SOS Children's Villages Canada, ``Young Women 
Fleeing Myanmar Trafficked in China as Brides,'' 5 November 11. See 
also Office To Monitor and Combat Trafficking in Persons, U.S. 
Department of State, ``Trafficking in Persons Report 2012--China,'' 19 
June 12, 119. According to the U.S. State Department report, ``The 
Director of the Ministry of Public Security's Anti-Trafficking Task 
Force stated in the reporting period that ``[t]he number of foreign 
women trafficked to China is definitely rising'' and that ``great 
demand from buyers as well as traditional preferences for boys in 
Chinese families are the main culprits fueling trafficking in China.''
    \29\ ``Chinese Women Taught To Avoid People-Traffickers,'' Xinhua, 
reprinted in China Daily, 8 March 10.
    \30\ Kathleen E. McLaughlin, ``Borderland: Sex Trafficking on the 
China-Myanmar Border,'' Global Post, 26 October 10; ``Women Tricked, 
Trafficked Into China,'' Radio Free Asia, 4 March 11; Zhang Yan, ``More 
Women Kidnapped for Brides,'' China Daily, 3 December 11. According to 
the China Daily report, ``[the director of the Ministry of Public 
Security's anti-trafficking office] said the lack of natural barriers, 
such as rivers or mountains in the border areas between China and 
Southeast Asian countries, in addition to poverty in some regions in 
these countries, contribute to the rising trafficking of foreign 
women.''
    \31\ ``30 Persons With Mental Disabilities Rescued From Slave Labor 
in Illegal Brick Kilns in Henan, Returned Home Without Accompaniment'' 
[Henan hei zhuanyao 30 ming zhizhang nugong huo jiejiu fanxiang wuren 
peihu], Beijing Times, reprinted in China News Net, 7 September 11.
    \32\ Human Rights Watch, ``World Report 2012 - China,'' 22 January 
12.
    \33\ ``More Women Trafficked to China as Brides,'' Xinhua, 
reprinted in Global Times, 3 December 11.
    \34\ ``Child Labor Claim at Electronics Plant Probed,'' Shanghai 
Daily, reprinted in China Internet Information Center, 13 February 12; 
Zhou Wenting, ``Factory Caught Using Child Labor,'' China Daily, 14 
February 12.
    \35\ ``Kunming Families of Group of Disappeared [Children] Report 
to the Police, Denounced by Police for Starting Rumors'' [Kunming 
lianhuan shizong an jiashu baojing bei jingfang chi wei zaoyao], East 
Net, reprinted in CCVIC.com, 9 May 12.
    \36\ ``China's Top Legislature Ends Bimonthly Session, Adopts Tort 
Law,'' Xinhua, 26 December 09; UN Protocol to Prevent, Suppress and 
Punish Trafficking in Persons, Especially Women and Children, 
Supplementing the United Nations Convention against Transnational 
Organized Crime, adopted by General Assembly resolution 55/25 of 15 
November 00, entered into force 25 December 03, art. 3(a).
    \37\ PRC Criminal Law [Zhonghua renmin gongheguo xingfa], issued 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, art. 244; ``Eighth 
Amendment to the Criminal Law of the People's Republic of China'' 
[Zhonghua renmin gongheguo xingfa xiuzheng'an (ba)], 25 February 11, 
item 38.
    \38\ UN Protocol to Prevent, Suppress and Punish Trafficking in 
Persons, Especially Women and Children, Supplementing the United 
Nations Convention against Transnational Organized Crime, adopted by 
General Assembly resolution 55/25 of 15 November 00, entered into force 
25 December 03, art. 3(a).
    \39\ PRC Criminal Law [Zhonghua renmin gongheguo xingfa], issued 1 
July 79, effective 1 October 97, art. 244; PRC Criminal Law [Zhonghua 
renmin gongheguo xingfa], issued 1 July 79, amended 14 March 97, 
effective 1 October 97, amended 25 December 99, 31 August 01, 29 
December 01, 28 December 02, 28 February 05, 29 June 06, 28 February 
09, 25 February 11, art. 244. See also CECC, 2011 Annual Report, 10 
October 11, 129.
    \40\ Topics that need to be addressed in domestic legislation to 
bring it into compliance with the UN TIP Protocol include protection 
and rehabilitation of victims of trafficking (see UN TIP Protocol art. 
6.3), addition of non-physical forms of coercion into the legal 
definition of trafficking (see UN TIP Protocol art. 3(a)), commercial 
sexual exploitation of minors, (see UN TIP Protocol Art. 3(c and d)), 
and trafficking of men (see UN TIP Protocol Art. 3(a)). See UN Protocol 
to Prevent, Suppress and Punish Trafficking in Persons, Especially 
Women and Children, Supplementing the United Nations Convention against 
Transnational Organized Crime, adopted by General Assembly resolution 
55/25 of 15 November 00, entered into force 25 December 03; Office To 
Monitor and Combat Trafficking in Persons, U.S. Department of State, 
``Trafficking in Persons Report 2012--China,'' 19 June 12, 119.
    \41\ ``UNIAP--Trafficking Victims Protection Training Seminar'' 
[Lianheguo fanguai jigou jian xiangmu (UNIAP) -baohu guaimai shouhairen 
peixun yantaohui], China Development Brief, 10 April 12; ``Social 
Welfare [Organization] and International Organization on Migration Hold 
Symposium, Strike Hard Against Human Trafficking, Protect Rights and 
Interests of Workers Abroad'' [Shehui fuli yu guoji yimin zuzhi zhaokai 
yantaohui yanda renkou guaimai baohu wailao quanyi], Jinbian Nightly 
News, 14 March 12.
    \42\ Office To Monitor and Combat Trafficking in Persons, U.S. 
Department of State, ``Trafficking in Persons Report 2012--China,'' 19 
June 12, 120.
    \43\ Office To Monitor and Combat Trafficking in Persons, U.S. 
Department of State, ``Trafficking in Persons Report 2011--China,'' 27 
June 11, 124.
    \44\ Zhang Yan, ``More Women Kidnapped for Brides,'' China Daily, 3 
December 11; Zhang Yan, ``Cross-Border Human Trafficking Cases 
Rising,'' China Daily, 12 August 11.
    \45\ Zhang Yan, ``More Women Kidnapped for Brides,'' China Daily, 3 
December 11.
    \46\ Office To Monitor and Combat Trafficking in Persons, U.S. 
Department of State, ``Trafficking in Persons Report 2012--China,'' 19 
June 12, 121.
    \47\ Ibid., 120. See, e.g., ``Ministry of Public Security Launches 
`Anti-Trafficking' Hotline'' [Gonganbu kaishe `daguai' rexian], Xunqin 
Net, 13 November 11.
    \48\ Office To Monitor and Combat Trafficking in Persons, U.S. 
Department of State, ``Trafficking in Persons Report 2012--China,'' 19 
June 12, 120.
    \49\ State Council Information Office, National Human Rights Action 
Plan of China (2012-2015), reprinted in Xinhua, 11 June 12, sec. 
III(2).
    \50\ Office To Monitor and Combat Trafficking in Persons, U.S. 
Department of State, ``Trafficking in Persons Report 2012--China,'' 19 
June 12, 118.
    \51\ Ibid. For information on the significance of the tier 
placements see, Office To Monitor and Combat Trafficking in Persons, 
U.S. Department of State, ``Trafficking in Persons Report 2012--Tier 
Placements,'' 19 June 12. According to the U.S. Department of State, 
countries placed on the Tier 2 Watch List are ``[c]ountries whose 
governments do not fully comply with the [Trafficking Victim Protection 
Act's] minimum standards, but are making significant efforts to bring 
themselves into compliance with those standards AND: a) The absolute 
number of victims of severe forms of trafficking is very significant or 
is significantly increasing; b) There is a failure to provide evidence 
of increasing efforts to combat severe forms of trafficking in persons 
from the previous year; or c) The determination that a country is 
making significant efforts to bring itself into compliance with minimum 
standards was based on commitments by the country to take additional 
future steps over the next year.''
    \52\ Office To Monitor and Combat Trafficking in Persons, U.S. 
Department of State, ``Trafficking in Persons Report 2012--China,'' 19 
June 12, 118.
    Notes to Section II--North Korean Refugees in China

    \1\ See, e.g., ``China Defenses Repatriation of N. Koreans,'' 
Caijing, 29 February 12; ``China Returns Refugees to N. Korea,'' Agence 
France-Presse, reprinted in South China Morning Post, 24 February 12; 
Song Sang-ho, ``N.K. Defectors in China Face Repatriation,'' Korea 
Herald, 14 February 12; ``China `Repatriates 15 N. Korean Defectors,' 
'' Chosun Ilbo, 10 October 11.
    \2\ The Commission observed numerous reports describing China's 
longstanding policy position that North Korean refugees are illegal 
economic migrants. See, e.g., Ministry of Foreign Affairs, ``Foreign 
Ministry Spokesperson Hong Lei's Regular Press Conference on February 
22, 2012'' [2012 nian 2 yue 22 ri waijiaobu fayanren hong lei juxing 
lixing jizhehui], 22 February 12; ``South Korea Passes Resolution on 
North Korean Refugees,'' BBC, 27 February 12; ``China Halts 
Repatriation of N. Korean Defectors,'' Chosun Ilbo, 19 April 12.
    \3\ Democratic People's Republic of Korea Ministry of State 
Security, People's Republic of China Ministry of Public Security, 
Mutual Cooperation Protocol for the Work of Maintaining National 
Security and Social Order in the Border Area, signed 12 August 86, art. 
4, reprinted in North Korea Freedom Coalition. The protocol commits 
each side to treat as illegal those border crossers who do not have 
proper visa certificates, except in cases of ``calamity or unavoidable 
factors.'' According to a report commissioned by UNHCR the validity of 
``this document cannot be authenticated, but it does not seem 
implausible.'' James Seymour, ``China: Background Paper on the 
Situation of North Koreans in China,'' commissioned by the UN High 
Commissioner for Refugees, Protection Information Section, January 
2005, 13.
    \4\ ``China To Repatriate `Hundreds' of N.Koreans,'' Chosun Ilbo, 
27 February 12; ``China Deports 5,000 N.Korea Refugees Annually: 
Activists,'' Agence France-Presse, reprinted in Google, 1 November 11.
    \5\ Donald Kirk, ``North Korean Women Are Being Sold Into `Slavery' 
in China,'' Christian Science Monitor, 11 May 12. Other estimates put 
the total number of North Korean refugees living in China between 
10,000 and 40,000. Due to the difficulty of accurately measuring the 
number of North Korean refugees living in China, no reliable statistics 
are available. Andrei Lankov, ``Underground Railroad Faces Barriers,'' 
Asia Times, 16 March 12.
    \6\ UN Convention relating to the Status of Refugees (1951 
Convention), adopted by UN General Assembly resolution 429 (V) of 14 
December 50, arts. 1, 33. Article 1 of the 1951 Convention defines a 
refugee as someone who, ``owing to well-founded fear of being 
persecuted for reasons of race, religion, nationality, membership of a 
particular social group or political opinion, is outside the country of 
his nationality and is unable or, owing to such fear, is unwilling to 
avail himself of the protection of that country . . . .'' Article 33 of 
the 1951 Convention mandates that ``[n]o Contracting State shall expel 
or return (`refouler') a refugee in any manner whatsoever to the 
frontiers of territories where his life or freedom would be threatened 
on account of his race, religion, nationality, membership of a 
particular social group or political opinion.'' UN Protocol Relating to 
the Status of Refugees (1967 Protocol), adopted by UN General Assembly 
resolution A/RES/2198 of 16 December 66, entry into force 4 October 67. 
The Chinese government acceded to the 1951 Convention and the 1967 
Protocol in September 1982, but has not adopted legislation to 
implement the treaties.
    \7\ These activities appear to be focused in the Chinese provinces 
bordering North Korea and include the installation of new security 
equipment, crackdowns on illegal border crossers, and increased 
identification checks. ``Jilin, Yanbian To Clear Out Foreigner `Three 
Illegals,' Ministry of Foreign Affairs Denies Xenophobic Charges'' 
[Jilin yanbian qingli ``sanfei'' waiguoren waijiaobu fouren paiwai], 
Oriental Morning Post, 25 May 12; Mok Yong Jae, ``New Law To Add to 
Defection Risk,'' Daily NK, 2 July 12.
    \8\ ``China Installs Silent Alarm System Against N.K. Defectors,'' 
Yonhap, 23 March 12; ``China Installs Alarm System To Grab Refugees: 
Report,'' Agence France-Presse, reprinted in Economic Times, 23 March 
12.
    \9\ Zhang Liang, `` `Three Illegal' Personnel's `Hidden' Crimes 
Difficult To Investigate and Deal With'' [``Sanfei'' renyuan 
``yinshen'' weifa fanzui nan chachu], Legal Daily, 25 May 12; ``What's 
Behind China's Fresh Crackdown on N.Koreans?'' Chosun Ilbo, 26 May 12.
    \10\ One media report alleged the increase in arrests of North 
Korean refugees in China stemmed from a January 2012 agreement between 
North Korea and China ``to step up efforts to uncover and detain 
defectors in their [Chinese] jurisdictions.'' Lee Seok Young, ``More 
Defections, More Arrests,'' Daily NK, 17 February 12. It is unclear 
whether North Korean agents were operating in China under agreements 
made with the Chinese government. Lee Seok Young, ``NSA Flying Ever 
Higher Still,'' Daily NK, 31 January 12; Lee Beom Ki, ``50 NSA Agents 
Cross Sino-NK Border at Sanhe,'' Daily NK, 27 February 12; ``N. Korean 
Soldiers Shoot Refugee in China: Activist,'' Agence France-Presse, 
reprinted in Google News, 6 November 11.
    \11\ John M. Glionna, ``North Korea's Kim Jong Un Wages Defector 
Crackdown,'' Los Angeles Times, 5 January 12; ``[Editorial] U.N. Focus 
on Defectors,'' Korea Herald, 22 February 12.
    \12\ ``Chinese Policy on North Korean Defectors Decried,'' Los 
Angeles Times, reprinted in San Francisco Chronicle, 15 February 12; UN 
High Commissioner for Refugees, ``UNHCR Urges Humanitarian Solution for 
Detained North Koreans,'' 24 February 12; Song Sang-ho, ``N.K. 
Defectors in China Face Repatriation,'' Korea Herald, 14 February 12; 
``29 N.Korean Defectors `Face Repatriation,' '' Chosun Ilbo, 14 
February 12.
    \13\ Lee Chi-dong, ``Clinton Urges China To Stop Repatriation of N. 
Korean Defectors,'' Yonhap, 9 March 12; Paula Hancocks, ``China Has 
Repatriated North Korean Defectors, South Korean Official Says,'' CNN, 
9 March 12.
    \14\ U.S. Committee for Refugees and Immigrants, ``World Refugee 
Survey 2009: China,'' (2010); David Hawk, Committee for Human Rights in 
North Korea, ``The Hidden Gulag,'' Second edition (2012), 118.
    \15\ U.S. Committee for Refugees and Immigrants, ``World Refugee 
Survey 2009: China,'' (2010).
    \16\ Bureau of Democracy, Human Rights, and Labor, U.S. Department 
of State, ``Country Report on Human Rights Practices--2011, China 
(Includes Tibet, Hong Kong, and Macau),'' 24 May 12.
    \17\ Human Rights Watch, ``World Report 2012: North Korea,'' 
January 2012; Bureau of Democracy, Human Rights, and Labor, U.S. 
Department of State, ``Country Report on Human Rights Practices--2011, 
China (Includes Tibet, Hong Kong, and Macau),'' 24 May 12.
    \18\ Sanghee Bang et al., Citizens' Alliance for North Korean Human 
Rights, ``Survival Under Torture: Briefing Report on the Situation of 
Torture in the DPRK,'' NKHR Briefing Report No. 2, September 2009, 24-
31; UN Office of the High Commissioner for Human Rights, ``Report of 
the Special Rapporteur on the Situation of Human Rights in the 
Democratic People's Republic of Korea,'' 21 February 11, para. 65; 
Yoonok Chang et al., Peterson Institute for International Economics, 
``Migration Experiences of North Korean Refugees: Survey Evidence From 
China,'' Working Paper No. 2008-4, March 2008, 10.
    \19\ Stephen Haggard and Marcus Noland, East-West Center, 
``Repression and Punishment in North Korea: Survey Evidence of Prison 
Camp Experiences,'' Politics, Governance, and Security Series, No. 20, 
5 October 09, 11-12.
    \20\ Yoonok Chang et al., Peterson Institute for International 
Economics, ``Migration Experiences of North Korean Refugees: Survey 
Evidence From China,'' March 2008, 6; Tom O'Neill, ``Escape From North 
Korea,'' National Geographic, February 2009; David Hawk, Committee for 
Human Rights in North Korea, ``The Hidden Gulag,'' Second edition 
(2012), 119, 121; Kim Hee-jin, ``One-Time Defectors Say Repatriation 
Could Be Fatal,'' Korea JoongAng Daily, 24 February 12.
    \21\ Under the 1951 Convention and its 1967 Protocol, the Chinese 
government is obligated to refrain from repatriating refugees ``sur 
place.'' UN Office of the High Commissioner for Human Rights, 
``Handbook on Procedures and Criteria for Determining Refugee Status 
Under the 1951 Convention and the 1967 Protocol relating to the Status 
of Refugees,'' January 1992, (b) paras. 94-105; UN Office of the High 
Commissioner for Human Rights, ``Report of the Special Rapporteur on 
the Situation of Human Rights in the Democratic People's Republic of 
Korea,'' 21 February 11, para. 65.
    \22\ Lee Hae Young, Committee for Human Rights in North Korea, 
``Lives for Sale: Personal Accounts of Women Fleeing North Korea to 
China,'' 1 October 09, 46-49; Yoonok Chang et al., Peterson Institute 
for International Economics, ``Migration Experiences of North Korean 
Refugees: Survey Evidence From China,'' March 2008, 15.
    \23\ Office To Monitor and Combat Trafficking in Persons, U.S. 
Department of State, ``Trafficking in Persons Report 2012--China,'' 19 
June 12, 120.
    \24\ Lee Tae-hoon, ``Female North Korean Defectors Priced at 
$1,500,'' Korea Times, 5 May 10; Melanie Kirkpatrick, ``North Korea: 
Human Traffickers and the Chinese Market for Brides,'' Daily Beast, 20 
August 12.
    \25\ Office To Monitor and Combat Trafficking in Persons, U.S. 
Department of State, ``Trafficking in Persons Report 2012--China,'' 19 
June 12, 120.
    \26\ Office To Monitor and Combat Trafficking in Persons, U.S. 
Department of State, ``Trafficking in Persons Report 2012--Korea, 
Democratic People's Republic of,'' 19 June 12, 209.
    \27\ Donald Kirk, ``North Korean Women Sold Into `Slavery' in 
China,'' Christian Science Monitor, 11 May 12.
    \28\ Lee Hae Young, Committee for Human Rights in North Korea, 
``Lives for Sale: Personal Accounts of Women Fleeing North Korea to 
China,'' 1 October 09, 28-33; ``North Korean Trafficked Brides,'' Radio 
Free Asia, 30 April 09; Melanie Kirkpatrick, ``North Korea: Human 
Traffickers and the Chinese Market for Brides,'' Daily Beast, 20 August 
12.
    \29\ Escaping North Korea: The Plight of the Defectors, Hearing of 
the Tom Lantos Human Rights Commission, U.S. House of Representatives, 
23 September 10, Testimony of Su Jin Kang; David Hawk, Committee for 
Human Rights in North Korea, ``The Hidden Gulag,'' Second edition 
(2012), 114.
    \30\ ``Women Tricked, Trafficked Into China,'' Radio Free Asia, 4 
March 11.
    \31\ Lee Hae Young, Committee for Human Rights in North Korea, 
``Lives for Sale: Personal Accounts of Women Fleeing North Korea to 
China,'' 1 October 09, 20-21; Lee Tae-hoon, ``Female North Korean 
Defectors Priced at $1,500,'' Korea Times, 5 May 10; Melanie 
Kirkpatrick, ``North Korea: Human Traffickers and the Chinese Market 
for Brides,'' Daily Beast, 20 August 12.
    \32\ Office To Monitor and Combat Trafficking in Persons, U.S. 
Department of State, ``Trafficking in Persons Report 2012--Korea, 
Democratic People's Republic of,'' 19 June 12, 209; ``Christian 
Missionaries Go Online To Help North Korean Refugees in China,'' Voice 
of America, 27 December 10.
    \33\ Nam You-Sun, ``N.Korean Women Up for Sale in China: 
Activist,'' Agence France-Presse, reprinted in Google, 12 May 10; The 
Rising Stakes of Refugee Issues in China, Staff Roundtable of the 
Congressional-Executive Commission on China, 1 May 09, Testimony of 
Suzanne Scholte, President, Defense Forum Foundation; Song Sang-ho, 
``China Blamed for Defector Abuse,'' Korean Herald, reprinted in 
AsiaOne, 31 May 12.
    \34\ Lee Hae Young, Committee for Human Rights in North Korea, 
``Lives for Sale: Personal Accounts of Women Fleeing North Korea to 
China,'' 1 October 09, 33-36; The Rising Stakes of Refugee Issues in 
China, Staff Roundtable of the Congressional-Executive Commission on 
China, 1 May 09, Testimony of Suzanne Scholte, President, Defense Forum 
Foundation; Melanie Kirkpatrick, ``North Korea: Human Traffickers and 
the Chinese Market for Brides,'' Daily Beast, 20 August 12.
    \35\ UN Convention relating to the Status of Refugees (1951 
Convention), adopted by UN General Assembly resolution 429 (V) of 14 
December 50, arts. 1, 31-33; Protocol relating to the Status of 
Refugees (1967 Protocol), adopted by UN General Assembly resolution A/
RES/2198 of 16 December 66, entry into force 4 October 67.
    \36\ Protocol to Prevent, Suppress and Punish Trafficking in 
Persons, Especially Women and Children (UN TIP Protocol), supplementing 
the United Nations Convention against Transnational Organized Crime, 
adopted and opened for signature, ratification, and accession by UN 
General Assembly resolution A/RES/55/25 of 15 November 00, entry into 
force 29 September 03, art. 7.
    \37\ Article 9 of the UN TIP Protocol provides that ``States 
Parties shall establish comprehensive policies, programmes and other 
measures: (a) To prevent and combat trafficking in persons; and (b) To 
protect victims of trafficking in persons, especially women and 
children, from revictimization.'' Protocol to Prevent, Suppress and 
Punish Trafficking in Persons, Especially Women and Children (UN TIP 
Protocol), supplementing the United Nations Convention against 
Transnational Organized Crime, adopted and opened for signature, 
ratification, and accession by UN General Assembly resolution A/RES/55/
25 of 15 November 2000, entry into force 29 September 03, art. 9. 
Article 6 of the Convention on the Elimination of All Forms of 
Discrimination against Women provides that ``States Parties shall take 
all appropriate measures, including legislation, to suppress all forms 
of traffic in women and exploitation of prostitution of women.'' 
Convention on the Elimination of All Forms of Discrimination against 
Women, adopted and opened for signature, ratification, and accession by 
UN General Assembly resolution 34/180 of 18 December 79, entry into 
force 3 September 81, art. 6.
    \38\ Song Sang-ho, ``China Blamed for Defector Abuse,'' Korean 
Herald, reprinted in AsiaOne, 31 May 12; Mok Yong Jae, ``Kim Not the 
Only One Tortured,'' Daily NK, 1 August 12; Kang Hyun-kyung, ``Torture 
Allegation Raises Concern About Korean Detainees,'' Korea Times, 1 
August 12.
    \39\ ``S Korean Activists Detained in China,'' Agence France-
Presse, reprinted in South China Morning Post, 15 May 12.
    \40\ ``Four South Koreans Being Held in China,'' Voice of America, 
15 May 12; ``FM Pledges Swift Release of S. Korean Activists Detained 
in China,'' Korea Herald, 17 May 12.
    \41\ Choe Sang-Hun, ``South Korean Activist Says He Was Tortured in 
China,'' New York Times, 25 July 12; Choe Sang-Hun, ``Seoul Demands 
That China Respond to Torture Allegation,'' New York Times, 31 July 12.
    Notes to Section II--Public Health

    \1\ Trudy Rubin, ``Worldview: NGOs a Paradox in Today's China,'' 
Philadelphia Inquirer, 23 May 10. According to Minister of Health Chen 
Zhu, quoted in this article, ``NGOs have an indispensable role in 
health care. . . . The participation of NGOs has played an active role 
in raising social awareness and ending stigma and in prevention 
measures.''
    \2\ Regulations on the Registration and Management of Social 
Organizations [Shehui tuanti dengji guanli tiaoli], issued and 
effective 25 October 98, arts. 9-19; Yu Fangqiang, ``Challenges for 
NGOs in China,'' Asia Catalyst, 26 June 09.
    \3\ State Administration of Foreign Exchange, Circular on Issues 
Concerning the Management of Foreign Exchange Donated to or by Domestic 
Institutions [Guojia waihui guanli ju guanyu jingnei jigou juanzeng 
waihui guanli youguan wenti de tongzhi], issued 30 December 09, 
effective 1 March 10. See also Verna Yu, ``Beijing Tightens Rules on 
Foreign Funding of NGOs,'' South China Morning Post, 12 March 10; Cara 
Anna, ``NGOs in China Say Threatened by New Donor Rules,'' Associated 
Press, reprinted in Google, 12 March 10; Chinese Human Rights 
Defenders, ``China Human Rights Briefing March 9-15, 2010: Prominent 
NGO Raise [sic] Concern Over New Regulations on Receiving Foreign 
Funding,'' 16 March 10.
    \4\ See, e.g., Yu Fangqiang, ``Challenges for NGOs in China,'' Asia 
Catalyst, 2 June 09. See also CECC, 2011 Annual Report, 10 October 11, 
151; CECC, 2010 Annual Report, 10 October 10, 147-48.
    \5\ He Dan and Huang Yuli, ``NGOs Get Boost From Shenzhen Register 
Reforms,'' China Daily, 21 August 12.
    \6\ ``Police Warn China Activist Against Speaking Out,'' Agence 
France-Presse, reprinted in Google, 16 October 11. Police warnings 
reportedly followed Hu's public criticism of proposed changes to the 
PRC Criminal Law as well as his advocacy on behalf of fellow rights 
advocate Chen Guangcheng.
    \7\ ``Hu Jia Takes Risks, Fights Again for the Rights and Interests 
of People Living With AIDS'' [Hu jia maoxian zai wei aizibing ren 
zhengqu quanyi], Radio Free Asia, 24 November 11.
    \8\ ``Dissidents Under Pressure Over Holiday,'' Radio Free Asia, 17 
January 12. Upon his return home, Hu Jia reported that officials' 
interrogation ``focused on my vocal support for other [dissidents],'' 
noting that officials ``want to suppress such discussion.'' Hu has used 
his microblog as a platform to advocate on behalf of other advocates, 
including HIV/AIDS advocate Tian Xi. For more information on Tian Xi's 
case, see ``Tian Xi: `As Long as I Am Living, I Will Not Gullibly 
Believe the Government's Promises' '' [Tian xi: ``wo hai huozhe, buyao 
qingxin xiang zhengfu de chengnuo''], Radio Free Asia, 11 July 12.
    \9\ Josh Chin and Brian Spegele, ``Dissidents Report Renewed 
Pressures,'' Wall Street Journal, 3 May 12; Matthew Robertson, 
``Chinese Dissident Hu Jia Arrested,'' Epoch Times, 12 June 12.
    \10\ Mark MacKinnon, ``Love, Dissident-Style: The Saga of Hu Jia 
and Zeng Jinyan,'' Globe and Mail, 20 April 12. According to this 
report, officials have deployed ``16 people--eight at the gates of 
[Hu's apartment complex] Freedom City, eight more who wait 24 hours a 
day in two unmarked cars'' to monitor Hu Jia's activities.
    \11\ Wang Kala and Di Dongnuo, ``Beijing Huiling Applies for 
`Regularization'; Refused Three Times in One Day'' [Beijing huiling 
shenqing ``zhuanzheng'' yiri bei ju san ci], Beijing News, 29 February 
12; He Dan and Guo Rui, ``Charity Law `Vital' for Sector To Grow,'' 
China Daily, 14 March 12.
    \12\ Wang Kala and Di Dongnuo, ``Beijing Huiling Applies for 
`Regularization'; Refused Three Times in One Day'' [Beijing huiling 
shenqing ``zhuanzheng'' yiri bei ju san ci], Beijing News, 29 February 
12. Beijing News reported in February that, ``In three months, Beijing 
Huiling faces `running out of food,' the money in their account is only 
enough to pay three more months of wages.'' See also Chinese Human 
Rights Defenders, ``China Human Rights Briefing March 6-12, 2012,'' 14 
March 12. For additional information on the difficulties Huiling and 
other NGOs have faced in registration, see ``The Embarrassment of 
`Grassroots' Civil Society Public Interest Organizations'' [``Caogen'' 
minjian gongyi zuzhi de ganga], Legal Weekly, 12 July 12.
    \13\ ``Hebei Demands Every Social Organization Register With Civil 
Affairs Bureau or Be Banned'' [Hebei yaoqiu ge shehui zuzhi dao 
minzheng bumen zhuce fouze jiang bei qudi], Radio Free Asia, 30 March 
12.
    \14\ Liu Hongqiao, ``Hebei Directed To Tighten Up Management of 
Social Organizations, Grassroots Organizations May Be Banned'' [Hebei 
bei zhi shoujin shetuan guanli caogen zuzhi huo bei qudi], Caixin, 28 
March 12.
    \15\ PRC Employment Promotion Law [Zhonghua renmin gongheguo jiuye 
cujin fa], passed 30 August 07, effective 1 January 08, arts. 29, 30; 
PRC Law on the Protection of Disabled Persons [Zhonghua renmin 
gongheguo canjiren baozhang fa], passed 28 December 90, amended 24 
April 08, effective 1 July 08, arts. 3, 25, 30-40; PRC Law on the 
Prevention and Control of Infectious Diseases [Zhonghua renmin 
gongheguo chuanranbing fangzhi fa], issued 21 February 89, amended 28 
August 04, effective 1 December 04, art. 16. See also Ministry of 
Education, ``Circular Regarding Further Standardizing Physical 
Examinations [Prior to] School Enrollment or Employment To Protect the 
Rights of Hepatitis B Surface Antigen Carriers to School Enrollment or 
Employment'' [Guanyu jinyibu guifan ruxue he jiuye tijian xiangmu weihu 
yigan biaomian kangyuan xiedaizhe ruxue he jiuye quanli de tongzhi], 
issued 10 February 10.
    \16\ Tan Zongyang, ``Campaign To End Discrimination and Help 
Disabled Become Teachers,'' China Daily, 13 September 11; ``640 People 
Send Letter to Taiwan Headquarters of Inventec, Protesting 
Discrimination'' [640 ren zhixin yingye da taiwan zongbu kangyi qishi], 
XGO.com.cn, 2 November 11; Wan Jing, ``Hepatitis B Carrier Who Fought 
for the `Right To Eat in a Dining Hall' Wins Case Today, Compensated 
20,000 Yuan'' [Yigan xiedaizhe taoyao ``jiucanquan'' jinri huopei 
liangwan yuan], Legal Daily, reprinted in Legal Risk, 19 December 11.
    \17\ ``HIV-Positive Teachers Urge China To End Discrimination,'' 
BBC, 28 November 11; ``Report: Discrimination Prevalent in Civil 
Service Hiring,'' Caixin, 21 November 11; ``HIV Positive Teachers To 
Petition China Government,'' Agence France-Presse, reprinted in China 
Digital Times, 29 November 11. For information on the results of one 
successful discrimination case, see Wan Jing, ``Hepatitis B Carrier Who 
Fought for the `Right To Eat in a Dining Hall' Wins Case Today, 
Compensated 20,000 Yuan'' [Yigan xiedaizhe taoyao ``jiucanquan'' jinri 
huopei liangwan yuan], Legal Daily, reprinted in Legal Risk, 19 
December 11.
    \18\ Yu Fangqiang, ``[Commentary] China's First Lawsuit on 
Discrimination Against a Person Living With HIV/AIDS,'' Asia Catalyst, 
25 October 11.
    \19\ Ibid.
    \20\ Ibid. According to Yu Fangqiang, ``[T]he civil service has a 
physical examination manual which describes HIV/AIDS as follows: 100% 
of people with HIV will spread the disease, and without treatment, most 
people who have HIV will die within two years. Therefore, when an HIV-
positive diagnosis is made, the physical examination is immediately 
declared `unsatisfactory.' ''
    \21\ ``Report: Discrimination Prevalent in Civil Service Hiring,'' 
Caixin, 21 November 11. According to this article, ``[The China 
University of Political Science and Law report] took China's civil 
service to task for only allowing people under the age of 35 to sit for 
its exam, as well as for barring people with AIDS or diabetes from 
taking the test.'' See also ``HIV/AIDs Discrimination in Workplace,'' 
CNTV, reprinted in Xinhua, 1 December 11.
    \22\ Hepatitis B Foundation, ``Hepatitis B Carriers Need Not Apply: 
Discrimination in China,'' 1 September 11.
    \23\ ``Report: Discrimination Prevalent in Civil Service Hiring,'' 
Caixin, 21 November 11.
    \24\ Human Rights Watch, ``World Report 2012: China,'' 22 January 
12; Beijing Yirenping Center, ``Many Activities on Human Rights of 
People With Disability Were Carried Out at the Beginning of 2012,'' 30 
January 12; ``State Agencies Fall Short of Regulations in Proportion of 
Disabled Persons Hired'' [Guojia jiguan zhaolu canjiren bili diyu falu 
guiding], Legal Daily, reprinted in Beijing Youth Net, 17 January 12; 
Cheng Yingqi, ``Colorblind Man Seeks Help From Blind Justice,'' China 
Daily, 7 April 12.
    \25\ For the Anhui province case, see ``HIV-Infected Man Appeals 
Ruling,'' Radio Free Asia, 27 April 11; ``Courts Hear China's First 
HIV/AIDS Employment Discrimination Cases,'' Congressional-Executive 
Commission on China, 31 March 11.
    \26\ For the Sichuan province case, see ``Experts Call for 
Amendments to Civil Servant Physical Examination Standards, Do Away 
With AIDS Employment Discrimination'' [Zhuanjia huyu xiugai gongwuyuan 
tijian biaozhun xiaochu aizi jiuye qishi], Worker Daily, reprinted in 
Sichuan Online, 6 July 11.
    \27\ Human Rights Watch, ``World Report 2012: China,'' 22 January 
12. According to the Human Rights Watch report, ``On September 8 an 
HIV-positive school teacher launched a wrongful dismissal suit against 
the Guizhou provincial government after it refused to hire him on April 
3 due to his HIV status.'' For the outcome of the Guizhou case, see 
``HIV-Positive Teachers Urge China To End Discrimination,'' BBC, 28 
November 11. According to the BBC report, ``A third lawsuit was filed 
in Guizhou province, but the judge is said to have refused to accept 
it.''
    \28\ For a report discussing the outcomes of all three cases, see 
Jin Jianyu, ``HIV-Positive Civil Service Applicants Appeal for 
Employment Rights,'' Global Times, 29 November 11. ``According to media 
reports, two of the applicants, who are from the provinces of Anhui and 
Sichuan, lost their cases during their second trials, while the third 
person's case, which was to be heard in Guizhou Province, was never 
accepted.'' See also CECC, 2011 Annual Report, 10 October 11, 136.
    \29\ ``China Fights Against AIDS Discrimination,'' CNTV, 3 March 
12.
    \30\ Human Rights Watch, ``World Report 2012: China,'' 22 January 
12.
    \31\ ``China Fights Against AIDS Discrimination,'' CNTV, 3 March 
12. According to this report, ``Xiao Duan believes the biggest 
challenge facing those living with HIV is discrimination, especially, 
and surprisingly, from the doctors meant to treat them. He said, `Now 
society shows much more understanding than before. But we still feel 
discriminated against, when we go to hospital as many refuse to accept 
HIV positive people. As a result, many of us cannot get treatment.' ''
    \32\ ``AIDS Patient Fights Discrimination in China,'' Agence 
France-Presse, reprinted in Youtube, 23 July 12. According to one 
Chinese expert quoted in this video, ``Even if their conditions 
deteriorate or they display more severe symptoms, they won't go get 
checked out.''
    \33\ Wei Na, ``Blind Ambition Blocked,'' Global Times, 30 September 
11; Beijing Yirenping Center, ``Yirenping Launched Advocacy Campaigns 
on the Visually Disabled Persons' Equal Right to Education Together 
With Hundreds of People With Visual Handicap,'' 30 October 11.
    \34\ Beijing Yirenping Center, ``Yirenping Launched Advocacy 
Campaigns on the Visually Disabled Persons' Equal Right to Education 
Together With Hundreds of People With Visual Handicap,'' 30 October 11. 
According to this report, ``Yirenping submitted a proposal letter to 
[the Self-Study Examination Instruction Group of the National Higher 
Education Committee] recommending specific rules be created for people 
with visual disabilities to take self-study examinations. One blind 
volunteer carried out a survey showing that only Guangdong Province 
allows the visually disabled to take self-study exams. Four activists 
with visual handicap submitted a proposal letter signed by 101 disabled 
people calling on BEEI to protect blind persons' equal rights to taking 
self-study exam. And one student, who practiced in Yirenping this 
summer, helped Yirenping to contact with [Hong Kong Blind Union] hoping 
for its backing. All these activities were in part based on the events 
that took place in September that Dong Lina, a girl with visual 
impairment, was refused to take the self-study examination held in 
Beijing because of her disability.''
    \35\ International Covenant on Economic, Social and Cultural Rights 
(ICESCR), adopted by UN General Assembly resolution 2200A (XXII) of 16 
December 66, entry into force 3 January 76, art. 12(1). China signed 
the ICESCR on 27 October 97 and ratified it on 27 March 01.
    \36\ ``State Council Legislative Affairs Office Solicits Opinions 
on the `Mental Health Law (Draft)' Full Text'' [Guowuyuan fazhiban jiu 
``jingshen weisheng fa (caoan)'' zheng yijian], China News Net, 
reprinted in NetEase, 10 June 11.
    \37\ National People's Congress, ``Mental Health Law (Draft) Text 
and Explanation of Draft'' [Jingshen weisheng fa (caoan) tiaowen ji 
caoan shuoming], 29 October 11.
    \38\ Wang Shu, ``Draft Mental Health Law Second Review: Some of the 
More Controversial Provisions Have Been Deleted'' [Jingshen weisheng fa 
caoan ershen, shanchu bufen zhengyi jiaoda tiaokuan], Beijing News, 28 
August 12.
    \39\ ``Call for End to `Psychiatric' Detention,'' Radio Free Asia, 
27 October 11.
    \40\ See, e.g., Calum MacLeod, ``Chinese Put in Mental Hospitals To 
Quiet Dissent,'' USA Today, 29 December 11. See also ``Officials Review 
Second Draft of Mental Health Law, Final Draft Expected in 2012,'' 
Congressional-Executive Commission on China, 19 March 12.
    \41\ Convention on the Rights of Persons with Disabilities, adopted 
by UN General Assembly resolution A/61/611 of 6 December 06, arts. 22, 
24-28. See also ``Officials Review Second Draft of Mental Health Law, 
Final Draft Expected in 2012,'' Congressional-Executive Commission on 
China, 19 March 12; Wang Shu, ``Draft Mental Health Law Second Review: 
Some of the More Controversial Provisions Have Been Deleted'' [Jingshen 
weisheng fa caoan ershen, shanchu bufen zhengyi jiaoda tiaokuan], 
Beijing News, 28 August 12; Zhao Yinan, ``Mental Patients May Access 
Courts,'' China Daily, 28 August 12; Chinese Human Rights Defenders, `` 
`The Darkest Corners': Abuses of Involuntary Psychiatric Commitment in 
China,'' 6 August 12.
    \42\ China signed the Convention on March 30, 2007, and ratified it 
on August 1, 2008.
    \43\ See ``Officials Review Second Draft of Mental Health Law, 
Final Draft Expected in 2012,'' Congressional-Executive Commission on 
China, 19 March 12.
    \44\ Chinese Human Rights Defenders, `` `The Darkest Corners': 
Abuses of Involuntary Psychiatric Commitment in China,'' 6 August 12. 
Chinese Human Rights Defenders submitted this report to the UN 
monitoring body of the Convention on the Rights of Persons with 
Disabilities in advance of China's session on its compliance scheduled 
for September 2012.
    \45\ As for unofficial statements, one domestic observer, Huang 
Xuetao, director of the Equity & Justice Initiative--a Shenzhen-based 
non-governmental organization that coordinates projects on mental 
health--was cited in a December 2011 USA Today report saying that the 
law is expected to be finalized sometime in 2012. See Calum MacLeod, 
``Chinese Put in Mental Hospitals To Quiet Dissent,'' USA Today, 29 
December 11.
    \46\ ``Ministry of Health Promises To Abolish Prisoner Organ 
Donations'' [Weishengbu chengnuo quxiao siqiu qiguan juanxian], Sina, 
23 March 12; ``China To Abolish Transplanting Organs From Condemned 
Prisoners Within 3-5 Years,'' Xinhua, 22 March 12.
    \47\ Regulations on Human Organ Transplants [Renti qiguan yizhi 
tiaoli], passed 21 March 07, effective 1 May 07.
    \48\ ``China Launches Organ Donation System,'' Xinhua, 25 August 
09. See also CECC, 2009 Annual Report, 10 October 09, 188.
    \49\ PRC Criminal Law [Zhonghua renmin gongheguo xingfa], issued 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, art. 234.
    \50\ ``Illegal Kidney Trade Trial Concludes in Central China,'' 
Xinhua, 10 August 12; Yang Jinghao, ``10 Mln Yuan Organ Case Set for 
Trial in Beijing,'' Global Times, reprinted in People's Daily, 1 March 
12.
    \51\ Tom Phillips, ``Chinese Organ Trafficking Ring Dismantled,'' 
Telegraph, 5 August 12; ``China Nabs 137 for Organizing Organ Sale,'' 
Xinhua, 4 August 12.
    \52\ ``Chinese Experts Urge Transparent Organ Donation System,'' 
Xinhua, 23 March 12; Guo Jiali, ``Lifting the Lid on China's Illegal 
Kidney Trade,'' China Internet Information Center, 27 March 12.
    \53\ ``Police Crack Underground Organ-Trade Criminal Ring,'' Global 
Times, 27 October 11; Clifford Coonan, ``Clampdown on China's Black 
Market for Organs,'' Irish Times, 1 November 11; Xu Kai and Sun Tao, 
``Caijing Investigates Illegal Organ Transplant Trading Network,'' 
Caijing, 14 February 12; Yang Jinghao, ``10 Mln Yuan Organ Case Set for 
Trial in Beijing,'' Global Times, reprinted in People's Daily, 1 March 
12; Guo Jiali, ``Lifting the Lid on China's Illegal Kidney Trade,'' 
China Internet Information Center, 27 March 12.
    \54\ UN Committee against Torture, ``Consideration of Reports 
Submitted by States Parties Under Article 19 of the Convention: 
Concluding Observations of the Committee against Torture--China,'' 21 
November 08, 10; David Matas and David Kilgour, Bloody Harvest: Revised 
Report Into Allegations of Organ Harvesting of Falun Gong Practitioners 
in China, 31 January 07, 40-44. See also CECC, 2009 Annual Report, 10 
October 09, 188.
    \55\ Damien Gayle, ``An Organ Is Sold Every Hour, WHO Warns: Brutal 
Black Market on the Rise Again Thanks to Diseases of Affluence,'' Daily 
Mail, 27 May 12. See also Denis Campbell and Nicola Davison, ``Illegal 
Kidney Trade on Rise as Demand Outstrips Supply,'' Sydney Morning 
Herald, 29 May 12; Nicola Davison, ``In China, Criminals Fill the 
Kidney Donor Deficit,'' Guardian, 27 May 12.
    \56\ Damien Gayle, ``An Organ Is Sold Every Hour, WHO Warns: Brutal 
Black Market on the Rise Again Thanks to Diseases of Affluence,'' Daily 
Mail, 27 May 12.
    Notes to Section II--The Environment

    \1\ Ministry of Environmental Protection, ``2011 Bulletin on 
China's Environmental Conditions'' [2011 nian zhongguo huanjing 
zhuangkuang gongbao], 6 June 12. The bulletin notes progress in 
reducing some pollutants, including carbon oxygen demand (COD) and 
sulfur dioxide, among others.
    \2\ Yale University Yale Center for Environmental Law and Policy et 
al., ``Towards a China Environmental Performance Index (CEPI),'' 
January 2012, 1.
    \3\ ``Former Deputy Director of the Ministry of Environmental 
Protection: Last Year China's Losses Due to Pollution Exceeded Two 
Trillion'' [Yuan huanbao zongju fujuzhang: qunian zhongguo huanjing 
wuran sunshi chao 2 wanyi], Xinhua, 13 March 12. According to the 
Xinhua story, a former deputy minister of the Ministry of Environmental 
Protection estimated that environmental losses had reached 5 to 6 
percent of the GDP. He also calculated that environmental pollution 
caused losses amounting to 2.35 to 2.82 trillion yuan (US$371 to $445 
billion) in 2011.
    \4\ Wang Qian and Li Jing, ``Groundwater Gets Worse, Land Agency 
Says,'' China Daily, 21 October 11. According to the China Daily 
article, authorities reportedly classified as bad more than 57 percent 
of the groundwater monitored in 182 cities. Jin Zhu, ``Taking Aim on 
Water Quality Woes,'' China Daily, reprinted in People's Daily, 17 
February 12; Gong Jing, ``China's Bohai Sea Drowns in Discharged 
Waste,'' Caixin, 14 September 11; ``Nearly 80 Pct of China's Wetlands 
Poorly Protected: Survey,'' Xinhua, 2 February 12.
    \5\ Zheng Xin and Li Jing, ``Industries Top Cause of Pollution,'' 
China Daily, 16 December 11; ``Dust and Haze To Become the Leading 
Cause of Lung Cancer'' [Huimai jiang chengwei feiai zhibing touhao 
yuanxiong], Huashangbao, 27 November 11.
    \6\ Yu Dawei, ``Chinese Waste: The Burning Issue,'' New Century 
Weekly, reprinted in Chinadialogue, 26 January 12; Wang Jiuliang, 
``Beijing Besieged by Garbage,'' Cross-Currents E-Journal, University 
of California, Berkeley, December 2011.
    \7\ Ministry of Environmental Protection, ``2011 Bulletin on 
China's Environmental Conditions'' [2011 nian zhongguo huanjing 
zhuangkuang gongbao], 6 June 12; Zhang Fan, ``Sweeping Pollution Under 
the Rug,'' Caixin, 9 April 12.
    \8\ Ministry of Environmental Protection, ``2011 Bulletin on 
China's Environmental Conditions'' [2011 nian zhongguo huanjing 
zhuangkuang gongbao], 6 June 12; Tan Siying, ``A Heavy-Metal Burden,'' 
Chinadialogue, 18 April 12; Ye Tieqiao, ``Heavy Metal Pollution 
Incidents Occur in Succession'' [Zhongjinshu wuran shijian pinfa], 
China Youth Daily, 1 February 12; Friends of Nature et al., ``The Other 
Side of Apple II,'' 31 August 11, 3.
    \9\ Wu Wencong, ``State Sounds Battle Cry Against Pollution,'' 
China Daily, reprinted in People's Daily, 21 March 12; Li Jing, ``China 
Still Targeting Heavy-Metal Polluters,'' Xinhua, 4 March 12.
    \10\ Jin Zhu, ``Rapid Growth Triggers Environmental Accidents,'' 
China Daily (USA), 7 February 12. The article cited Ministry of 
Environmental Protection (MEP) statistics.
    \11\ Chen Jia, ``Two-thirds of Chinese Cities Face Water 
Shortages'' [Woguo 2/3 chengshi queshui jiang shixing zui yange shui 
ziyuan guanli], Southern Metropolitan Daily, 17 February 12.
    \12\ Bao Xiaodong and Zhang Xinyuan, ``Building on `Toxic Land,' '' 
Southern Weekend, reprinted in Chinadialogue, 12 January 12.
    \13\ Ye Tieqiao, ``Heavy Metal Pollution Incidents Occur in 
Succession'' [Zhongjinshu wuran shijian pinfa], China Youth Daily, 1 
February 12; Wang Hairong, ``Thwarting Dirty Migration,'' Beijing 
Review, No. 6, 9 February 12; ``Inner Mongolia Halts 467 Mining 
Projects,'' Xinhua, reprinted in China Daily, 18 February 12. According 
to the Xinhua report, expanding mining operations in Inner Mongolia 
have been part of a mining boom, but have contributed to ecological 
damages and led to disputes with local populations. ``Ministry of 
Environmental Protection: Rural Pollution Emissions Account for Half of 
the Country's Pollution'' [Huanbaobu: nongcun wuran paifang yi zhan 
zhongguo ``banbi jiangshan''], China Youth Daily, 3 June 11. According 
to the June 2011 China Youth Daily article, environmental protection 
efforts in rural areas lag far behind those in urban areas. Institute 
of Public and Environmental Affairs (IPE) and Natural Resources Defense 
Council, ``Open Environmental Information: Taking Stock,'' 16 January 
12, 26-27. The IPE study indicates the level of information disclosure 
is lower in central and western provinces than it is in eastern areas.
    \14\ National People's Congress, ``Environmental Protection Law 
Revisions (Draft) Articles'' [Huanjing baohufa xiuzheng'an (caoan) 
tiaowen], 31 August 12.
    \15\ Ibid., item 22. According to the draft revisions, Article 35 
says ``the State Council and local people's governments will include 
completion of environmental protection objectives in evaluations of 
lower level governments and environmental protection administrative 
departments at the same level, and other responsible parties. The 
evaluation results shall be open to the public.'' Other segments of the 
Article's language that had strengthened incentives was previously 
reported to have been removed. See Xu Chao and Ren Zhongyuan, 
``Environmental Protection, Endangered,'' Caixin, 8 December 11; 
``Wrestling Over Revisions to Environmental Law Transforms 
Environmental Conditions From Bad to Worse'' [Jueli huanbaofa xiuding 
gaibian huanjing meikuang yuxia jumian], Caixin, reprinted in Tencent, 
6 December 11; ``Environmental Protection Law Draft Revisions: 
Authorities Remove Language Regarding Strengthening Public 
Participation, Accountability, and Transparency,'' CECC, China Human 
Rights and Rule of Law Update, No. 2, 18 May 12, 3.
    \16\ National People's Congress, ``Environmental Protection Law 
Revisions (Draft) Articles'' [Huanjing baohufa xiuzheng'an (caoan) 
tiaowen], 31 August 12. According to the draft revisions, authorities 
made no changes to Article 6, which in a previous draft contained 
additional language regarding support for public participation. For 
more information about the language authorities removed from previous 
drafts regarding public participation, see the following articles: Xu 
Chao and Ren Zhongyuan, ``Environmental Protection, Endangered,'' 
Caixin, 8 December 11; ``Wrestling Over Revisions to Environmental Law 
Transforms Environmental Conditions From Bad to Worse'' [Jueli 
huanbaofa xiuding gaibian huanjing meikuang yuxia jumian], Caixin, 
reprinted in Tencent, 6 December 11. See also ``Environmental 
Protection Law Draft Revisions: Authorities Remove Language Regarding 
Strengthening Public Participation, Accountability, and Transparency,'' 
CECC, China Human Rights and Rule of Law Update, No. 2, 18 May 12, 3.
    \17\ Ministry of Environmental Protection, Letter Regarding 
Soliciting Comments on Environmental Protection Standards 
``Environmental Impact Assessment Technical Guidelines on Public 
Participation (Draft for Comment)'' [Guanyu zhengqiu guojia huanjing 
baohu biaozhun ``huanjing yingxiang pingjia jishu daoze gongzhong 
canyu'' (zhengqiu yijiangao) yijian de han], reprinted in China 
Environmental Standards Net, 16 February 11. As of [June 2012], 
authorities had not yet passed the guidelines.
    \18\ Wang Wei, ``Analysis of `Serious Environmental Accident Crime' 
Article of Criminal Law 8th Revision'' [Xingfa xiuzheng an ba ``zhongda 
huanjing wuran shiguzui'' xiuding jiedu], China Environment News, 
reprinted in Dongfang Fayan, 20 March 11.
    \19\ State Council, Opinion Regarding Strengthening Key 
Environmental Protection Work [Guowuyuan guanyu jiaqiang huanjing baohu 
zhongdian gongzuo de yijian], 20 October 11. The Opinion includes the 
general directives to improve prominent environmental health problems 
and reform the environmental protection system and mechanisms.
    \20\ State Council, Circular Regarding Issue of the National 
``Twelfth Five-Year'' Plan for Environmental Protection [Guowuyuan 
guanyu yinfa guojia huanjing baohu ``shierwu'' guihua de tongzhi], 15 
December 11. The 12th Five-Year Plan included language about the 
establishment of a ``social action system'' (shehui xingdong tixi) 
through which ``all people'' may participate (in environmental 
protection) (section 2.2(4)). Related aims in the Plan include: 
Establishing mechanisms through which society can participate in 
emergency management (section 5.1(2)); supporting environmental public 
interest suits (section 8.11); and strengthening open government 
information and public supervision, including disclosure of information 
about polluting enterprises and nuclear safety, as well as the 
establishment of a mandatory enterprise toxic and hazardous substance 
disclosure system (section 8.11).
    \21\ ``Our Country's Water Resources Indicators To Be Included in 
Local Government Officials' Evaluation System'' [Woguo shui ziyuan 
zhibiao jiang naru difang guanyuan kaohe tixi], Economic Information 
Report (Xinhua), 17 February 12. The Economic Information Report 
article cites an official source who indicated that official 
assessment, and evaluation and accountability systems for county-level 
and above government officials, will be modified to include indicators 
related to balanced water resource development, use, conservation, and 
protection. ``State Council Implements Most Stringent Water Resource 
Management System, Establishes Three Red Lines'' [Guowuyuan shixing zui 
yange shui ziyuan guanli zhidu queli sanhongxian], Huagu Finance and 
Economics, 16 February 12. According to the Huagu article, the Opinion 
stipulates ``three red lines,'' or three overarching objectives: 
Reducing overall water use; decreasing industrial water usage and 
increasing the efficiency of irrigation; and reducing pollution in 
rivers and lakes. See also ``Most Stringent Water Resource Management 
System Will Be Implemented, Three Red Lines Will Become Evaluation 
Criteria'' [Zui yange shui ziyuan guanli zhidu jiang zhixing san 
hongxian cheng kaohe zhibiao], China Youth Daily, reprinted in Xinhua, 
21 February 12.
    \22\ Ministry of Environmental Protection, Circular Regarding 
Further Strengthening Hydroelectric Power Project Environmental 
Protection Work [Guanyu jinyibu jiaqiang shuidian jianshe huanjing 
baohu gongzuo de tongzhi], 6 January 12. The Circular prohibits 
development of areas clearly protected by environmental laws and 
regulations, and it maintains the public's right to know, to 
participate, and to derive benefits.
    \23\ Ministry of Environmental Protection, ``Environmental 
Standards Putting Into Effect as of Sept. 1, 2011,'' 8 September 11. 
According to this article, the two guidelines are: The Technical 
Guideline for Environmental Impact Assessment--Ecological Impact (HJ 
19-2011) and the Guideline for Technical Review of Environmental Impact 
Assessment on Construction Projects (HJ 616-2011).
    \24\ Ministry of Environmental Protection, Certain Opinions 
Regarding Initiation of Environmental Pollution Damage Assessment Work 
[Guanyu kaizhan huanjing wuran sunhai jianding pinggu gongzuo de ruogan 
yijian], 25 May 11. The Opinions outline steps to establish a system to 
estimate pollution damages. (Such a system is useful in environmental 
tort cases when determining how much compensation citizens should 
receive.)
    \25\ Ministry of Environmental Protection, Guidelines for Drafting 
Corporate Environmental Reports [Qiye huanjing baogaoshu bianzhi 
daoze], issued 24 June 11, effective 1 October 11. The Guidelines, if 
implemented, may help improve enterprise pollution information 
disclosure.
    \26\ State Council Information Office, ``National Human Rights 
Action Plan of China (2012-2015),'' 11 June 12, item 7. The plan 
stipulates that ``China will strengthen its environmental protection 
work to guarantee the public's environmental rights focusing on serious 
environmental pollution affecting the people's life, like heavy metal 
pollution, drinking water pollution, and air, soil and marine 
contamination.'' It also states authorities will, among other actions, 
amend the PRC Environmental Protection Law, improve water and air 
quality in some areas, expand nature reserves and forest coverage, 
intensify prevention and control of radioactive waste pollution, 
enforce strict monitoring and control over dangerous chemicals, and 
improve ``environmental monitoring and supervision mechanisms,'' the 
``cooperative mechanisms for the enforcement of environmental laws,'' 
and the ``accountability system for major environmental pollution and 
accidents.''
    \27\ Xia Jun, ``China's Courts Fail the Environment,'' 
Chinadialogue, 16 January 12; Wang Hairong, ``Thwarting Dirty 
Migration,'' Beijing Review, No. 6, 9 February 12. The Beijing Review 
article discusses local protectionism (leading to lax enforcement). 
``Decline in Local Green Priorities Warned,'' China Daily, 6 July 12. 
The China Daily article notes a warning by a Ministry of Environmental 
Protection vice minister who said that ``pollution worsened and 
supervision loosened in some regions [in the first half of 2012] as 
some local authorities relaxed restrictions on emissions.'' China's 
western region reportedly was predominantly affected. ``MEP Finds 
Rampant Violations on Nature Reserves,'' Caixin, 9 March 12. The March 
9 Caixin article above notes non-compliance with regulatory measures, 
i.e., it notes that an official Chinese report found that the 
boundaries of national nature reserves in 40 of the 303 reserves 
studied were permanently shrunk because of illegal construction 
projects. The report also detailed the illegal activities occurring in 
two nature reserves, including unlawful mineral and oil extraction, oil 
pipelines, logging, and road building. Andrew Jacobs, ``China Says It 
Curbed Spill of Toxic Metal in River,'' New York Times, 30 January 12; 
``Cadmium Pollution Exposes Lax Regulations,'' Xinhua, 3 February 12. 
The New York Times and Xinhua articles detail companies' non-compliance 
with environmental laws in a case linked to a major cadmium spill in 
the Longjiang River in Guangxi Zhuang Autonomous Prefecture. The Xinhua 
article notes lax implementation of environmental laws and regulations 
in the case. ``Large Enterprises and Projects Unabashedly Flout 
Environmental Laws'' [Da qiye da xiangmu huanjing weifa diqi shizu], 
Legal Daily, 5 June 12. The Legal Daily article notes non-compliance 
with environmental laws by several central-level enterprises and 
projects, including airports.
    \28\ Wang Jin and Yan Houfu, ``Barriers and Solutions to Better 
Environmental Enforcement in China,'' paper presented at the Ninth 
International Conference on Environmental Compliance and Enforcement, 
20-24 June 2011, 497-98.
    \29\ Ibid., 495-98; Yin Pumin, ``Heavy Metal Danger,'' Beijing 
Review, No. 8, 23 February 12; Wang Hairong, ``Thwarting Dirty 
Migration,'' Beijing Review, No. 6, 9 February 12.
    \30\ Wang Jin and Yan Houfu, ``Barriers and Solutions to Better 
Environmental Enforcement in China,'' paper presented at the Ninth 
International Conference on Environmental Compliance and Enforcement, 
20-24 June 2011, 497-98; Xia Jun, ``China's Courts Fail the 
Environment,'' Chinadialogue, 16 January 12; Yang Dazheng et al., 
``China Deluged by Toxic Sludge,'' Southern Daily Group, reprinted and 
translated in Chinadialogue, 17 August 12.
    \31\ Hou Shasha, ``Last Year 4,843 Government Officials at County/
Section Level or Above Were Investigated'' [Qunian 4843 ming xianchu ji 
yishang guanyuan bei chachu], Beijing Daily, 7 January 12.
    \32\ Xia Jun, ``China's Courts Fail the Environment,'' 
Chinadialogue, 16 January 12. According to the author, if courts do not 
accept environmental lawsuits, then citizens reportedly have little 
legal recourse to gain compensation for harms, and companies have fewer 
incentives to comply with environmental laws.
    \33\ Zhao Yinan, ``Draft Limits Scale of Class-Action Lawsuits,'' 
China Daily, 25 April 12; Linden Ellis, ``Giving the Courts Green 
Teeth: Current Developments in Environmental Enforcement in China,'' 
Woodrow Wilson International Center for Scholars, China Environment 
Forum, 22 October 09; Gao Jie, ``Yunnan Province Announces Plan To 
Expand Environmental Protection Courts and Guide Public Interest 
Litigation,'' Greenlaw, 21 May 09.
    \34\ Wang Hairong, ``Thwarting Dirty Migration,'' Beijing Review, 
No. 6, 9 February 12. According to the Beijing Review article, an 
official at the All-China Environment Federation noted that most of the 
public interest suits the group filed were rejected by courts for 
inappropriate legal standing. Other reasons for not accepting the cases 
reportedly include concerns about a flood of environmental litigation, 
and local protectionism. Xia Jun, ``China's Courts Fail the 
Environment,'' Chinadialogue, 16 January 12. According to the 
Chinadialogue article, other reasons why courts do not accept cases 
include local government interference, inadequate guidelines for 
assessing environmental damages, and ``social stability.''
    \35\ ``Chinese Fishermen File Lawsuit in US Court Against 
ConocoPhillips Over 2011 Oil Spills,'' Associated Press, reprinted in 
Washington Post, 2 July 12.
    \36\ PRC Civil Procedure Law [Zhonghua renmin gongheguo xingshi 
susong fa], passed 9 April 91, amended 28 October 07, 31 August 12, 
art. 55. For information regarding various drafts of the article and 
related commentary on the article's language, see, e.g., Qie Jianrong, 
``Open Letter Issued Calling on Legislative Entities To Redesign Legal 
Provisions: Environmental Organizations Say That This May Block Their 
Entrance to Participating in Environmental Public Interest Lawsuits'' 
[Fa gongkaixin yuqing lifa bumen chongxin sheji falu tiaokuan: huanbao 
zuzhi cheng qi canyu huanjing gongyi susong damen huo bei fengdu], 
Legal Daily, 16 August 12. The provision states only ``organs and 
relevant social organizations stipulated by law'' may file lawsuits. 
``Civil Procedure Law Draft Receives Consideration, Committee Members 
Suggest Law Include Language About Public Interest Lawsuits'' [Minsufa 
caoan shou shenyi weiyuan jianyi jiang wen bao naru gongyi susong], 
Phoenix Net, 28 April 12; ``Civil Procedure Law Amendments (Draft) 
Explanation of Provisions and Draft,'' National People's Congress Net, 
reprinted in Legal Daily, 17 December 11.
    \37\ ``At the Start Standing Is Not Obvious, Probably Few Public 
Interest Lawsuits for the Time Being'' [Qidong zhuti buminglang gongyi 
susong huo zhanshi bu duo], Legal Daily, 4 September 12; ``Expert 
Opinion: Public Interest Lawsuit Procedural System Still Not 
Independent'' [Zhuanjia guandian: gongyi susong chengxu zhidu youdai 
duli], Legal Daily, 4 September 12; Chen Liping, ``Wang Shengming: 
Standing in Public Interest Lawsuits Could Be Clarified by Relevant 
Laws'' [Wang shengming: gongyi susong zhuti ke you xiangguan falu 
mingque], Legal Daily, 4 September 12.
    \38\ Qie Jianrong, ``Chromium Slag Pollution Case for 10 Million in 
Damages Already Formally Accepted by Court'' [Yin gezha wuran suopei 
qianwan an yi zhengshi lian], Legal Daily, 20 October 11; 
``Difficulties With Environmental Public Interest Suits: Hard To Obtain 
Evidence, Assessment Costs High'' [Huanjing gongyi susong zhi kun: 
quzheng nan pinggu feiyong gao], China Weekly, reprinted in Sina, 16 
April 12. In May, the environmental tribunal under the Qujing 
Intermediate People's Court presided over pretrial negotiations, and 
the court reportedly had two meetings about the case in July and 
August. For more information, see Cao Yin and Guo Anfei, ``Talks Begin 
in Landmark NGO Environment Case,'' China Daily, 24 May 12; Friends of 
Nature, ``Green Protests on the Rise in China,'' 14 August 12.
    \39\ Yan Zhijiang, ``All-China Environment Federation in Guiyang 
Wins Environment Public Interest Litigation Case'' [Zhonghua huanbao 
lianhehui guiyang daying huanjing gongyi susong'an], Legal Daily, 4 
January 11; ``First Local Environmental Public Interest Litigation Case 
Trial Opened December 30'' [Bentu huanjing gongyi susong diyi an 12 yue 
30 ri kaiting shenli], Guiyang News Net, reprinted in Guiyang Public 
Environmental Education Center, 31 December 10; ``Guizhou First Non-
Governmental Organization Filed Environmental Public Interest Lawsuit 
Enters Judicial Process'' [Guizhou shouli minjian huanbao zuzhi tiqi de 
huanjing gongyi susong jinru sifa chengxu], Guiyang Public 
Environmental Education Center, 23 November 10.
    \40\ ``Difficulties With Environmental Public Interest Suits: Hard 
To Obtain Evidence, Assessment Costs High'' [Huanjing gongyi susong zhi 
kun: quzheng nan pinggu feiyong gao], China Weekly, reprinted in Sina, 
16 April 12.
    \41\ ``Power Plant Activist Detained,'' Radio Free Asia, 16 August 
12.
    \42\ Ibid.
    \43\ ``Controversy Surrounding Hainan `Environmental Crusader'--
Southern Weekend First To Voice Support for Liu Futang'' [Zhengyi 
hainan ``huanbao doushi'' nanfang zhoumo shou wei liu futang fasheng], 
Maopu Forum, 11 August 12.
    \44\ Ibid.
    \45\ Ibid.
    \46\ ``Chinese Activist Defies Officials in Fight To Save Lake,'' 
Agence France-Presse, reprinted in Taipei Times, 3 October 11. Wu 
Lihong is the environmental advocate who exposed pollution in the Lake 
Tai area for many years and was later imprisoned for three years on 
trumped-up charges for extortion and fraud. Upon his release, Wu 
reported mistreatment by officials while in detention and in prison. 
``Environmental Activist Wu Lihong Released, Alleges Abuse,'' CECC 
China Human Rights and Rule of Law Update, 4 June 10, 2; CECC, 2007 
Annual Report, 10 October 07, 138; Robert Saiget, ``China 
Environmentalist Alleges Brutal Jail Treatment,'' Agence France-Presse, 
11 May 10.
    \47\ ``Chinese Activist Defies Officials in Fight To Save Lake,'' 
Agence France-Presse, reprinted in Taipei Times, 3 October 11.
    \48\ ``Environmentalist Zhang Changjian Ends Flight'' [Huanbao 
renshi zhang changjian jieshu taowang], Radio Free Asia, 4 August 11. 
For more information on this incident, see Chinese Human Rights 
Defenders, reprinted in Blogspot, ``Fujian Province, Pingnan Police 
Return Some Confiscated Items to Zhang Changjian'' [Fujian pingnan 
jingfang tuihuan zhang changjian bufen bei kouya de wupin], 2 August 
11; Chinese Human Rights Defenders, ``China Human Rights Briefing July 
13-19, 2011,'' 19 July 11. For more information on Zhang Changjian, his 
unsuccessful attempts to register the environmental group ``Pingnan 
Green Home,'' and Zhang's previous successful efforts to assist more 
than 1,700 people in several local villages to win an environmental 
damages tort case against a local polluting chemical plant in 2002, see 
the August 4 Radio Free Asia report above, and ``Eight Cases That 
Mattered,'' Chinadialogue, 26 July 11.
    \49\ ``Environmentalist Zhang Changjian Ends Flight'' [Huanbao 
renshi zhang changjian jieshu taowang], Radio Free Asia, 4 August 11.
    \50\ Tibetan Centre for Human Rights and Democracy, ``Four Tibetan 
Environmental Activists Detained in Tawu,'' 15 March 12; ``Tibetan NGOs 
Must `Register' or Close,'' Radio Free Asia, 3 May 12.
    \51\ ``Villagers Complain About Hunan Coal Mine Pollution for Ten 
Years With No Result'' [Hunan meikuang wuran cunmin shi duo nian tousu 
wumen], BBC, 16 November 11.
    \52\ Large-scale demonstrations erupted in Deqing county, Huzhou 
municipality, Zhejiang province, in June 2011, after years of citizen 
complaints over pollution from a chemical company that purportedly was 
operating without approval from environmental officials. Authorities 
arrested, charged, and sentenced Song Laifa and Lu Songbai, who 
represented the citizens in negotiations with the factory, for 
extortion. Authorities found them guilty but exempted them from 
punishment and released them. Sun Xuyang, ``Villagers Sue Factory, Are 
Sued for Blackmail,'' Southern Metropolitan Daily, reprinted in China 
Green News, 20 October 11; ``No Jail Time for Chemical Plant 
Protesters,'' Caixin, 13 December 11. For more information, see also 
``Publicize Deqing Lu Songbai Environmental Protection Rights Case 
Indictment'' [Gongbu deqing lu songbai huanbao weiquan an qisu shu], 
Ding Jinkun's Caixin blog, 29 September 11; ``Zhejiang Deqing Chemical 
Enterprise Pollution, Villager Rights Defender Accused of Extorting 
Compensation'' [Zhejiang deqing huagong qiye wuran cunmin weiquan 
suopei beikong lesuo], Caixin, 20 October 11; ``Zhejiang Deqing 
Villager Rights Defender Found Guilty Without Criminal Punishment'' 
[Zhejiang deqing weiquan cunmin bei mianyu xingshi chufa], Caixin, 9 
December 11.
    \53\ In Gutian county, Ningde city, Fujian province, in September 
2011, authorities reportedly clashed with more than 1,000 citizens 
protesting water pollution that citizens believed had caused a large 
fish kill, and during the conflict five villagers were injured. ``More 
Than 1,000 Rural Residents Block Road, Protest Pollution'' [Yu qian 
cunmin dulu kangyi wuran], Mingpao, reprinted in Sina Hong Kong, 5 
September 11. For more information, see also ``Min River Polluted 
Resulting in Fish Losses Worth 1.5 Billion Yuan'' [Minjiang shuizhi 
shou wuran yu huo sunshi da 1.5 yi yuan], Radio Free Asia, reprinted in 
Boxun, 5 September 11; ``Officials Claim Large Scale Fish Kill in Min 
River Due to Lack of Oxygen, Fishermen Suspect Due to Factory 
Pollution'' [Minjiang daguimo si yu guanfang cheng yin queyang yumin yi 
qiye paiwu], Beijing Morning Post, reprinted in Chinanews.com, 7 
September 11.
    \54\ Shi Jiangtao, ``Truth About Pollution Still Shrouded by 
Secrecy,'' South China Morning Post, 27 January 12. The SCMP article 
notes an official estimate of a 30 percent increase in pollution-
related protests annually. Wang Jin, ``China's Green Laws Are 
Useless,'' Chinadialogue, 23 September 10. The Chinadialogue article 
notes a Peking University professor estimated in 2010 that disputes 
over pollution had been increasing by 20 to 25 percent annually since 
1996.
    \55\ ``Shantou Lian River Pollution Serious, Villagers Gather in 
Protest'' [Shantou lianjiang wuran yanzhong, cunmin jizhong kangyi], 
Shantou Civil Law Net, 31 January 12; ``Shantou, Guangdong 50,000 
People Demonstrate, `Occupy' Government Building'' [Shantou 5 wanren 
shiwei ``zhanling'' zhengfulou], Mingpao, reprinted in Sina, 21 
December 11. The Mingpao article provides an estimate of 50,000 
participants. ``More Than 10,000 People Protest Against Construction of 
Power Plant in Haimen, Guangdong'' [Guangdong haimen yu wan minzhong 
kangyi fandui jian dianchang], BBC, 20 December 11; Gillian Wong, 
``Thousands Protest China Town's Planned Coal Plant,'' Associated 
Press, reprinted in Guardian, 20 December 11. The Associated Press 
article presents one citizen's estimate of participants at 20,000 
people. ``Chinese Police Fire Tear Gas at Power Station Protesters,'' 
Reuters, reprinted in Guardian, 22 December 11.
    \56\ Ministry of Environmental Protection, Department of 
Environmental Impact Assessment, Circular Regarding Deferment of 
Examination and Approval of the Environmental Impact Assessment Report 
for the First Stage Construction of Units #3 and #4 of the Huaneng 
Power Plant in Haimen, Shantou [Guanyu zhanhuan shenpi huaneng shantou 
haimen dianchang yiqi gongcheng 3 hao, 4 hao jizu huanjing yingxiang 
baogaoshu de tongzhi], 29 November 11. According to this Circular, the 
local environmental protection bureau ordered the company to halt 
construction at two of the units at the station, but the company 
continued construction on one of the units. The national-level Ministry 
of Environmental Protection then issued a Circular regarding 
temporarily deferring the EIA approval.
    \57\ Gillian Wong, ``Thousands Protest China Town's Planned Coal 
Plant,'' Associated Press, reprinted in Guardian, 20 December 11; 
``Haimen Protesters Reveal Inside Story of Protests to BBC'' [Haimen 
shiweizhe xiang BBC jieshi kangyi neimu], BBC, 22 December 11; ``More 
Than 10,000 People Protest Against Construction of Power Plant in 
Haimen, Guangdong'' [Guangdong haimen yu wan minzhong kangyi fandui 
jian dianchang], BBC, 20 December 11; ``Chinese Police Fire Tear Gas at 
Power Station Protesters,'' Reuters, reprinted in Guardian, 22 December 
11; ``Shantou, Guangdong 50,000 People Demonstrate, `Occupy' Government 
Building'' [Shantou 5 wanren shiwei ``zhanling'' zhengfulou], Mingpao, 
reprinted in Sina, 21 December 11; ``Revolt Spreading in Guangdong,'' 
Agence France-Presse, reprinted in Taipei Times, 21 December 11.
    \58\ ``Chinese Police Fire Tear Gas at Power Station Protesters,'' 
Reuters, reprinted in Guardian, 22 December 11; Gillian Wong, 
``Thousands Protest China Town's Planned Coal Plant,'' Associated 
Press, reprinted in Guardian, 20 December 11; ``Haimen Tensions 
Persist,'' Radio Free Asia, 22 December 11; Malcolm Moore, 
``Reassessing the Wukan `Revolution,' '' World Today, Vol. 68, No. 3, 
April 2012. The World Today article noted that, as of April, officials 
continued to hold at least three people in detention.
    \59\ International Federation of Journalists, ``IFJ Press Freedom 
in China Campaign Bulletin: January 8 2012,'' 8 January 12; ``China 
Police Fire Teargas, TV Shows Confessions,'' Reuters, reprinted in New 
York Times, 23 December 11.
    \60\ Malcolm Moore, ``Reassessing the Wukan `Revolution,' '' World 
Today, Vol. 68, No. 3, April 2012.
    \61\ ``10,000 Yinggehai Town Residents Oppose Construction of 
Factory, Protest to the End for Fear Pollution Will Harm Environment,'' 
Radio Free Asia, 11 March 12. According to the March 11 RFA article, 
the protest erupted after officials moved forward with construction 
despite a written petition in opposition with 8,000 signatures. ``Large 
Number of Armed Police Fire Tear Gas To Suppress Thousands of People 
Demonstrating in Hainan'' [Hainan wanren shiwei dapi wujing chudong 
cuileidan zhenya], Apple Daily, reprinted in China Gate, 12 March 12; 
``Hainan Clash Between Police and Citizens Continues, More Than a 
Thousand Paramilitary Police Seal Village'' [Hainan jingmin chongtu 
chixu yu qian wujing fengcun], Radio Free Asia, 12 April 12. According 
to the April RFA article, during the April protest, citizens reportedly 
stormed government buildings, causing damage. The same report alleges 
that authorities detained 17 people. One citizen told RFA reporters 
that tens of residents were injured. Reports have not provided further 
details about those detained or the reason for their detention. Ning 
Yuan and Ren Mingchao, ``Hainan Yinggehai Township Power Plant 
`Shifted' to the North 2 Km Because of Residents' Opposition'' [Hainan 
yinggehai zhen dianchang yin jumin fandui xiang bei ``nuo'' 2 gongli], 
China Youth Daily, reprinted in Sohu, 17 April 12. According to the 
reprinted China Youth Daily article, authorities reportedly planned to 
move the power plant project two kilometers from its location because 
of the residents' ``attitude.''
    \62\ Tania Branigan, ``Anti-Pollution Protesters Halt Construction 
of Copper Plant in China,'' Guardian, 3 July 12. The Guardian article 
notes large differences in the estimated numbers of participants in the 
demonstration, ranging from thousands to tens of thousands. ``Worries 
Over Industrial Pollution Lead to Large-Scale Clash Between Police and 
Citizens in Sichuan'' [Gongye wuran youlu yinfa sichuan da guimo 
jingmin chongtu], Voice of America, 3 July 12. The VOA article notes 
municipal police officials posted a notice prohibiting illegal 
demonstrations and demanded that people who organized the protest 
should turn themselves in within three days or face harsh punishment.
    \63\ ``China Copper Project Suspended After Protest,'' Caijing, 3 
July 12.
    \64\ Fiona Tam, ``Rally of Thousands Forces Factory Halt,'' South 
China Morning Post, 3 July 12.
    \65\ Tania Branigan, ``Anti-Pollution Protesters Halt Construction 
of Copper Plant in China,'' Guardian, 3 July 12.
    \66\ ``Gag on Writer Li Chengpeng After Surveying Shifang'' [Canyu 
shifang diaocha zuojia li chengpeng zao jinyan], Deutsche Welle, 5 July 
12. For information on how the Chinese media covered the Shifang 
incident, see David Bandurski, ``In China's Papers, Sichuan Unrest Is 
Just a Business Story,'' China Media Project, 5 July 12.
    \67\ ``Firm Pledges Clean-Up After Riots,'' Radio Free Asia, 19 
September 11. According to this article, the solar panel factory had 
apologized for mismanagement leading to pollution problems that 
triggered the protests. The report noted citizen complaints that 
Haining authorities ignored the concerns villagers had about the health 
impacts of pollution linked to the New York-listed Jinko Solar Holding 
Co. Jonathan Watts, ``Solar Panel Factory Protests Tarnish China's 
Clean-Tech Efforts,'' Guardian, 18 September 11. The Guardian article 
notes an environmental official said the factory had not met pollution 
standards since April 2011, despite official admonitions.
    \68\ Royston Chan, ``China Quells Village Solar Pollution 
Protests,'' Reuters, 18 September 11.
    \69\ ``Firm Pledges Clean-Up After Riots,'' Radio Free Asia, 19 
September 11; Royston Chan, ``Villagers Protest China Plant 
Pollution,'' Reuters, 18 September 11; Jonathan Watts, ``Solar Panel 
Factory Protests Tarnish China's Clean-Tech Efforts,'' Guardian, 18 
September 11.
    \70\ Harold Thibault, ``Environmental Activism Gains a Foothold in 
China,'' Le Monde, reprinted in Guardian, 21 August 12; ``Chinese City 
Halts Waste Project After Thousands Protest,'' Bloomberg News, 29 July 
12.
    \71\ Mark McDonald, ``Taking It to the Street in China,'' New York 
Times, 29 July 12.
    \72\ ``Chinese City Halts Waste Project After Thousands Protest,'' 
Bloomberg News, 29 July 12.
    \73\ Carlos Tejada, ``China Move Reflects Sensitivity on 
Pollution,'' Wall Street Journal, 30 July 12; Fiona Tam, ``Pupils 
Harassed Over Plant Protest in Qidong,'' South China Morning Post, 25 
July 12.
    \74\ ``Asahi Shimbun Correspondent Beaten by Chinese Police,'' 
Asahi Shimbun, 29 July 12.
    \75\ ``Tibetan Shot Dead in Anti-Mining Protest in Markham,'' 
Phayul, 16 August 12; ``Tibetan Shot Dead in Protest,'' Radio Free 
Asia, 16 August 12.
    \76\ ``Tibetan Shot Dead in Protest,'' Radio Free Asia, 16 August 
12.
    \77\ ``Disclosure of Environmental Information Is Ice-Breaking 
Journey That Still Needs Legal `Escort' '' [Huanjing xinxi gongkai 
pobing zhi lu rang xu falu ``huhang''], Legal Daily, 27 April 12. 
Premier Wen said ``promote proactive disclosure of environmental impact 
assessments and other information related to projects, expand efforts 
to disclose information about monitoring of pollution that exceeds 
standards, and make public information about the management of large 
environmental incidents in a timely manner.''
    \78\ Institute of Public and Environmental Affairs and Natural 
Resources Defense Council, ``Open Environmental Information: Taking 
Stock,'' April 2012, 2-3. According to the report, the number of cities 
with a score of more than 60 points (considered a ``passing'' score) 
increased from 11 in 2009-2010 to 19 in 2011 (p. 13). The study noted 
that ``environmental information disclosure has already put pressure on 
emitting industries in a number of cities . . . '' (p. 31). The report 
notes, however, that 65 out of 113 cities were below the minimum scores 
for making public company compliance records (p. 16). The report also 
notes that, while the number of city government agencies responding to 
and providing information related to citizen requests continued to 
increase, channels to request information remain obstructed in a number 
of cities (p. 17).
    \79\ Ibid., 2, 26.
    \80\ For information on PM2.5, see U.S. Environmental Protection 
Agency, ``Fine Particle (PM2.5) Designations: Basic Information,'' last 
visited 14 September 12.
    \81\ Ministry of Environmental Protection, Technical Regulation on 
Ambient Air Quality Index (Provisional) [Huanjing kongqi zhiliang zhi 
shu (AQI) jishu guiding (shixing)], issued 29 February 12, effective 1 
January 16; ``Pollution Measures for Public Feedback,'' China Daily, 
reprinted in Xinhua, 17 November 11.
    \82\ Ministry of Environmental Protection, ``Circular Regarding 
Implementation of `Environmental Air Quality Standards' '' [Guanyu 
shishi ``huanjing kongqi zhiliang biaozhun'' (GB3095-2012) de tongzhi], 
29 February 12. The notice outlines when certain cities will begin to 
include PM2.5 in environmental monitoring and air quality reports.
    \83\ Angel Hsu, ``Clearing the Haze,'' Chinadialogue, 19 October 
11; Jeremy Page, ``Under Public Pressure, Beijing Opens Up Air Quality 
Monitoring Center,'' Wall Street Journal, 9 November 11; Shi Jiangtao, 
``Access to Full Smog Data Still Out of Sight,'' South China Morning 
Post, 17 November 11.
    \84\ Jeremy Page, ``Microbloggers Pressure Beijing To Improve Air 
Pollution Monitoring,'' Wall Street Journal, 8 November 11; ``PM2.5 in 
Air Quality Standards, Positive Response to Net Campaign,'' Xinhua, 1 
March 12.
    \85\ Gu Ruizhen, ``Environmental Protection Ministry: General 
Public in Favor of Inclusion of PM2.5 Standards'' [Huanbaobu: gongzhong 
pubian zancheng jiang PM2.5 naru biaozhun], Xinhua, 7 December 11; Gu 
Ruizhen, ``Ministry of Environmental Protection Officials Asked 
Questions by Reporter in Solicitation of Public Comment on 
`Environmental Air Quality Standards' '' [Huanbaobu guanyan jiu 
``huanjing kongqi zhiliang biaozhun'' gongkai zhengqiu yijian qingkuang 
da jizhe wen], Xinhua, 16 November 11.
    \86\ ``Beijing Officials Mum on Air Quality Readings,'' Caixin, 6 
December 11; Zheng Shuzhou, ``Beijing Netizens Application for 
Disclosure of PM2.5 Data Refused'' [Beijing wangyou shenqing gongkai 
PM2.5 shuju zaoju], Southern Metropolitan Daily, 22 November 11; Wang 
Xing, ``Disclosing PM2.5 Data Application Trials'' [Gongkai PM2.5 shuju 
de shenqing shiyan], Southern Metropolitan Daily, 11 January 12.
    \87\ Te-Ping Chen, ``Following Beijing, Hong Kong Releases PM2.5 
Pollution Data,'' Wall Street Journal, 9 March 12. Beijing began to 
release PM2.5 data in late January, and Guangdong and Hong Kong began 
releasing data in March. Cai Wenjun, ``Release of All PM2.5 Readings 
Starts Today,'' Shanghai Daily, reprinted in People's Daily, 27 June 
12. Shanghai began releasing daily PM2.5 data to the public in June 
2012.
    \88\ Wan Jing, ``Survey Reveals: Half Provincial-Level 
Environmental Protection Departments Did Not Provide List of Companies 
That Caused a Problem'' [Diaocha xianshi: banshu shengji huanbaoting bu 
tigong zhaoshi qiye mingdan], Legal Daily, 20 February 12. For 
information on the Chinese Academy of Social Science's survey, see Wan 
Jing, ``China's Open Government Information Annual Report (2011) 
Issued'' [Zhongguo zhengfu toumingdu niandu baogao (2011) fabu], Legal 
Daily, 20 February 12.
    \89\ Yin Pumin, ``Heavy Metal Danger,'' Beijing Review, No. 8, 23 
February 12.
    \90\ ``Pang Hurui: Guangxi Cadmium Pollution Incident Reflects 
`Shortcomings' in Open Government Information'' [Pang hurui: guangxi ge 
wuran shijian zheshe zhengfu xinxi gongkai ``duanban''], People's 
Daily, 14 February 12; Andrew Jacobs, ``China Fires 7 Officials After 
Spill,'' New York Times, 4 February 12. According to the New York Times 
article, authorities removed an environmental protection official along 
with at least six other officials from their jobs for not reporting the 
spill in a timely manner and for making mistakes in the cleanup 
process.
    \91\ Ministry of Environmental Protection General Office, Letter 
Regarding Soliciting Suggestions on ``Environmental Monitoring 
Management Regulations'' (Draft for Comment) [Guanyu zhengqiu 
``huanjing jiance guanli tiaoli'' (zhengqiu yijian gao) yijian de han], 
27 April 09.
    \92\ Qie Jianrong, ``Urge Revisions of `Environmental Monitoring 
Management Regulation' '' [Huyu xiugai ``huanjing jiance guanli 
tiaoli''], Legal Daily, 19 February 12.
    \93\ Regulations of the People's Republic of China on Open 
Government Information [Zhonghua renmin gongheguo zhengfu xinxi gongkai 
tiaoli], issued 5 April 07, effective 1 May 08. For more information, 
see ``China Commits to `Open Government Information' Effective May 1, 
2008,'' CECC China Human Rights and Rule of Law Update, May 2008, 2. 
The State Environmental Protection Administration passed its version of 
the OGI regulations in April of 2007. State Environmental Protection 
Administration, Measures on Open Environmental Information (Trial) 
[Huanjing xinxi gongkai banfa (shixing)], issued 11 April 07, effective 
1 May 08. For more information, see ``SEPA Issues Measures on Open 
Environmental Information,'' CECC China Human Rights and Rule of Law 
Update, January 2008, 5.
    \94\ Ministry of Environmental Protection, ``Ministry of 
Environmental Protection 2011 Annual Open Government Information 
Report'' [Huanjing baohubu zhengfu xinxi gongkai gongzuo 2011 niandu 
baogao], 23 March 12.
    \95\ Ibid.
    \96\ Lei Cheng, ``An Environmental Organization Open Information 
Request Regarding Financials for Yunnan Company Involved in Chromium 
Pollution Refused'' [Yi huanbao zuzhi shenqing gongkai yunnan ge wuran 
qiye rongzi xinxi bei ju], China Youth Daily, 17 February 12. The 
environmental organization filed the requests with two government 
ministries and a bank.
    \97\ Ibid.
    \98\ Ibid. The three organizations discussed in the article refused 
to grant the Open Government Information requests for three different 
reasons: The information was a ``company secret,'' the ``information 
requested is not within the scope of the organization,'' and the 
information had not been shared first with the company involved 
(because of ``network technology limitations'').
    \99\ Liu Xiaoxing, ``Open Government Information Impossible? '' 
[Gongkai xinxi fei deng sifa jiuji buke?], China Environmental News, 15 
February 12. According to this article, when the local environmental 
protection bureau (EPB) did not provide the information, the All-China 
Environment Federation (ACEF) filed an administrative reconsideration 
request with the EPB at the next highest level, but the county EPB did 
not respond. The ACEF filed a court case with the Qingzhen City 
Intermediate People's Court and won the case.
    \100\ Wang Junxiu, ``Enterprise Environmental Monitoring Reports 
Are Commercial Secrets? '' [Qiye huanjing jiance baogao shi shangye 
mimi?], China Youth Daily, 7 June 12.
    \101\ Ibid.; Elizabeth Balkan, ``Dirty Truth About China's 
Incinerators,'' Chinadialogue, 4 July 12.
    \102\ Elizabeth Balkan, ``Dirty Truth About China's Incinerators,'' 
Chinadialogue, 4 July 12.
    \103\ Wang Junxiu, ``Enterprise Environmental Monitoring Reports 
Are Commercial Secrets? '' [Qiye huanjing jiance baogao shi shangye 
mimi?], China Youth Daily, 7 June 12; Elizabeth Balkan, ``Dirty Truth 
About China's Incinerators,'' Chinadialogue, 4 July 12.
    \104\ Ibid.
    \105\ International Energy Agency, ``Global Carbon-Dioxide 
Emissions Increase by 1.0 Gt in 2011 to Record High,'' 24 May 12.
    \106\ State Council Information Office, ``China's Policies and 
Actions for Addressing Climate Change,'' reprinted in Xinhua, 22 
November 11, secs. I and II. In addition to this white paper, the China 
National Climate Center and the Chinese Academy of Social Sciences 
issued a book titled ``Climate Change Green Paper: Report on Addressing 
Climate Change (2011)--Durban Dilemma and China's Strategic Choices.'' 
Wang Qian, ``Climate Change Green Paper: Report on Addressing Climate 
Change (2011) Released'' [Qihou bianhua lupishu: yingdui qihou bianhua 
baogao (2011) fabu], Xinhua, reprinted in China Central Government Net, 
11 November 11.
    \107\ State Council, ``Circular Regarding 12th Five-Year Greenhouse 
Gas Emissions Control Work Plan'' [Guowuyuan guanyu ``shier wu'' 
kongzhi wenshi qiti paifang gongzuo fang'an de tongzhi], 13 January 12, 
item 5. For more information on the carbon trading market, including 
problems already encountered, see Wang Tao, ``China's Carbon Market 
Challenge,'' Chinadialogue, 21 May 12. For more information on the 
newly established think tank tasked with designing the carbon trading 
system, see Lan Lan, ``China Launches Climate Change Think Tank,'' 
China Daily, 11 June 12.
    \108\ State Council Information Office, ``China's Policies and 
Actions for Addressing Climate Change,'' reprinted in Xinhua, 22 
November 11, sec. IV (1-2, 4). The white paper listed numerous 
lifestyle choices made by individuals. According to the white paper, 
the actions by non-governmental organizations (here the paper refers to 
professional organizations and associations, and social organizations 
directly affiliated with government agencies) include experiments, 
contests, media forums, training, information provision, and education 
campaigns.
    \109\ Renmin University, ``China Human Development Report 2009/10, 
China and a Sustainable Future: Towards a Low Carbon Economy and 
Society,'' Commissioned by the United Nations Development Program, 
April 2010, 86. ``Where public participation does exist, it is often on 
inequitable terms or does not provide adequate opportunity for public 
inputs. Little information on procedures and timing for public 
participation is available.'' Bruce Gilley, ``Authoritarian 
Environmentalism and China's Response to Climate Change,'' 
Environmental Politics, Vol. 21, No. 2 (March 2012), 291-92.
    \110\ State Council Information Office, ``China's Policies and 
Actions for Addressing Climate Change,'' reprinted in Xinhua, 22 
November 11, sec. IV(2). According to the white paper, the 
organizations engaging in these types of activities include the China 
Energy Conservation Association and the All-China Federation of Trade 
Unions. For information about the direct links between these two 
organizations and government agencies or the Party, see China Energy 
Conservation Association, ``Instructions on Becoming a Member'' [Ruhui 
shuoming], 8 October 11 (this article notes the China Energy 
Conservation Association is ``directed'' by the National Development 
and Reform Commission and the State Quality Inspection Administration); 
All-China Federation of Trade Unions, ``Main Duties of the All-China 
Federation of Trade Unions'' [Zhonghua quanguo zong gonghui zhuyao 
zhize], last visited 20 March 12 (this article notes that the All-China 
Federation of Trade Unions is a ``mass organization'' ``led'' by the 
Chinese Communist Party).
    \111\ Barbara Finamore, Natural Resources Defense Council, 
``China's Domestic Climate Commitments Reach a Global Audience in 
Tianjin,'' Natural Resources Defense Council Switchboard Blog, 7 
October 10. Vice Chair of the National Development and Reform 
Commission Xie Zhenhua reportedly said that China would do its utmost 
to ``increase the transparency of its actions in terms of tackling 
climate change and integrating our measure into global efforts.''
    \112\ Melissa M. Chan, ``Are China's Carbon Emissions Understated? 
'' China Digital Times, 12 June 12. The China Digital Times cited a 
Washington Post article based on a study in the journal Nature Climate 
Change, noting that researchers postulated two reasons for the 
discrepancies, both related to coal consumption data.
    \113\ Axel Michaelowa and Perspectives GmbH, ``Rule Consistency of 
Grid Emission Factors Published by CDM Host Country Authorities,'' 14 
February 11, 7-10, 16. According to this international report, Chinese 
authorities do not provide sufficient information about the sources of 
data they use to assess increased energy efficiency that may result 
from Clean Development Mechanism (CDM) projects. (CDM projects involve 
investments by developed countries for which the investing country 
would receive certified emission credits toward national greenhouse gas 
(GHG) emission reduction targets.)
    \114\ Wenran Jiang and Zining Liu, Jamestown Foundation, ``Energy 
Security in China's 12th Five-Year Plan,'' China Brief, Vol. 11, No. 11 
(17 June 11); National Development and Reform Commission, ``Medium and 
Long-Term Development Plan for Renewable Energy in China (Abbreviated 
Version),'' China Net, September 2007, secs. 3.2, 4, 4.1.
    \115\ ``Dam Eviction Activist Detained,'' Radio Free Asia, 20 
February 12. For more information on previous major protests in 2010 
and 2004 related to the construction of the Pubugou dam, see CECC, 2010 
Annual Report, 10 October 10, 152.
    \116\ ``Large-Scale Protest Brewing With 100,000 People in the 
Huaihua Dam Area After 6 Years of Unsuccessful Rights Defense Work'' 
[Huaihua kuqu 10 wan minzhong 6 nian weiquan buguo yunliang da guimo 
kanyi youxing], Radio Free Asia, 2 February 12.
    \117\ Ibid.
    \118\ UN Human Rights Council, reprinted in UN Office of the High 
Commissioner for Human Rights, Report of the Special Rapporteur on the 
Right to Food, Olivier De Schutter, Addendum, Mission to China, A/HRC/
19/59/Add.1, 20 January 12.
    \119\ Ibid. According to the report, the Special Rapporteur urged 
Chinese authorities to suspend non-voluntary resettlement of nomadic 
herders and ``allow for meaningful consultations'' with impacted 
communities. In addition, according to the report, the reasoning behind 
the ``return grazing land to grassland'' (tuimu huancao) campaign 
``puts much more emphasis on the role of overgrazing than do the 
internationally accepted standards in grasslands science,'' possibly 
contributing to an overemphasis on herder relocation programs.
    \120\ Ibid.
    Notes to Section III--Civil Society

    \1\ Shawn Shieh, The International Center for Not-for-Profit Law, 
``NGO Law Monitor: China,'' last visited 30 August 12.
    \2\ Thomas von Hippel and Knut Benjamin Pissler, ``Nonprofit 
Organizations in the People's Republic of China,'' in Comparative 
Corporate Governance of Non-Profit Organizations, eds. Klaus J. Hopt 
and Thomas von Hippel (Cambridge: Cambridge University Press, 2010), 
14, 22.
    \3\ International Covenant on Civil and Political Rights (ICCPR), 
adopted by UN General Assembly resolution 2200A (XXI) of 16 December 
66, entry into force 23 March 76, art. 22.
    \4\ Regulations on the Registration and Management of Social 
Organizations [Shehui tuanti dengji guanli tiaoli], issued and 
effective 25 October 98, art. 3; Temporary Regulations on the 
Registration and Management of Non-Governmental, Non-Commercial 
Enterprises [Minban fei qiye danwei dengji guanli zanxing tiaoli], 
issued and effective 25 October 98, art. 3; Regulations on the 
Management of Foundations [Jijinhui guanli tiaoli], issued 8 March 04, 
effective 1 June 04, art. 9. Social organizations (SOs) are voluntary 
organizations; they include academic, professional, or trade 
organizations, as well as voluntary associations of individuals with a 
common interest. Non-governmental, non-commercial enterprises (NGNCEs) 
are non-governmental service providers, including schools, hospitals, 
sports organizations, or employment service organizations. Foundations 
are non-profit and non-governmental organizations managed through the 
use of funds voluntarily donated by foreign and domestic social 
organizations. Foundations often promote the development of scientific 
research, culture, education, social welfare, and social services. For 
more information, see ``Chinese Civil Society Organizations,'' 
Congressional-Executive Commission on China, 12 August 05. For a 
comprehensive overview of the legal framework for civil society 
organizations in China, see Thomas von Hippel and Knut Benjamin 
Pissler, ``Nonprofit Organizations in the People's Republic of China,'' 
in Comparative Corporate Governance of Non-Profit Organizations, eds. 
Klaus J. Hopt and Thomas von Hippel (Cambridge: Cambridge University 
Press, 2010), 428-77.
    \5\ Regulations on the Registration and Management of Social 
Organizations [Shehui tuanti dengji guanli tiaoli], issued and 
effective 25 October 98, art. 3; Temporary Regulations on the 
Registration and Management of Non-Governmental, Non-Commercial 
Enterprises [Minban fei qiye danwei dengji guanli zanxing tiaoli], 
issued and effective 25 October 98, art. 3; Regulations on the 
Management of Foundations [Jijinhui guanli tiaoli], issued 8 March 04, 
effective 1 June 04, art. 9.
    \6\ Ministry of Civil Affairs, Circular Regarding Who May Serve as 
a Sponsor Organization [Guanyu chongxin queren shehui tuanti yewu 
zhuguan danwei de tongzhi], issued February 00, arts. 2-4. A review of 
national social organizations (SOs) approved in 2011 shows that sponsor 
organizations continue to be government or Party bureaus and mass 
organizations. The review was conducted on the chinanpo.gov.cn Web site 
set up by the Ministry of Civil Affairs. The Web site allows users to 
access the annual review results for approved national organizations, 
including SOs; non-governmental, non-commercial enterprises; and 
foundations for 2011. The list of corresponding sponsor organizations 
includes many government ministries, such as the Ministry of Culture, 
and mass organizations, such as the All-China Federation of Trade 
Unions.
    \7\ Regulations on the Registration and Management of Social 
Organizations [Shehui tuanti dengji guanli tiaoli], issued and 
effective 25 October 98, art. 28; Temporary Regulations on the 
Registration and Management of Non-Governmental, Non-Commercial 
Enterprises [Minban fei qiye danwei dengji guanli zanxing tiaoli], 
issued and effective 25 October 98, art. 20; Regulations on the 
Management of Foundations [Jijinhui guanli tiaoli], issued 8 March 04, 
effective 1 June 04, art. 35.
    \8\ Thomas von Hippel and Knut Benjamin Pissler, ``Nonprofit 
Organizations in the People's Republic of China,'' in Comparative 
Corporate Governance of Non-Profit Organizations, eds. Klaus J. Hopt 
and Thomas von Hippel (Cambridge: Cambridge University Press, 2010), 
84.
    \9\ Regulations on the Registration and Management of Social 
Organizations [Shehui tuanti dengji guanli tiaoli], issued and 
effective 25 October 98, art. 13(2); Temporary Regulations on the 
Registration and Management of Non-Governmental, Non-Commercial 
Enterprises [Minban fei qiye danwei dengji guanli zanxing tiaoli], 
issued and effective 25 October 98, art. 11(3).
    \10\ Regulations on the Registration and Management of Social 
Organizations [Shehui tuanti dengji guanli tiaoli], issued and 
effective 25 October 98, arts. 10(1), (5).
    \11\ Temporary Measures on the Suppression of Illegal Civil Society 
Organizations [Qudi feifa minjian zuzhi zanxing banfa], issued and 
effective 6 April 00, art. 2.
    \12\ ``Ganzi Tibetan Autonomous Prefecture Civil Affairs Bureau 
Announcement on Unregistered Social Organizations and the Launch of 
Annual Inspection Activities'' [Ganzi zangzu zizhizhou minzheng ju 
guanyu dui shehui zuzhi weijing dengji zhuce he niandu jiancha kaizhan 
huodong xiangguan shixiang de gonggao], Ganzi Daily, 27 April 12; 
``Sichuan Ganzi Prefectural Government To Conduct a Thorough 
Investigation of Civil Society Organizations, Tibetan Autonomous Region 
Implements Real-Name Internet System'' [Sichuan ganzi zhou zhengfu 
yancha minjian zuzhi, xizang zizhiqu shixing hulian wang shiming zhi], 
Radio Free Asia, 6 May 12.
    \13\ ``Hebei Demands Civil Society Groups Register With Civil 
Affairs Bureau or Face Prohibition'' [Hebei yaoqiu ge shehui zuzhi dao 
minzheng bumen zhuce fouze jiang bei qudi], Radio Free Asia, 30 March 
12.
    \14\ Regulations on the Registration and Management of Social 
Organizations [Shehui tuanti dengji guanli tiaoli], issued and 
effective 25 October 98, art. 31; Temporary Regulations on the 
Registration and Management of Non-Governmental, Non-Commercial 
Enterprises [Minban fei qiye danwei dengji guanli zanxing tiaoli], 
issued and effective 25 October 98, art. 23; Regulations on the 
Management of Foundations [Jijinhui guanli tiaoli], issued 8 March 04, 
effective 1 June 04, art. 36.
    \15\ Fiona Tam, ``NGOs Say Easing of Registration Rules Is 
Limited,'' South China Morning Post, 2 April 12.
    \16\ Shen Tingting, ``Opportunities and Challenges--Women's NGOs in 
China,'' Asia Catalyst, 3 May 12; Liu Haiyang, ``As Foreign Funding 
Dries Up, Gansu NGOs Find It Harder To Survive,'' China Development 
Brief, No. 51 (2011), 12 June 12.
    \17\ State Administration of Foreign Exchange, Circular on Relevant 
Issues Concerning the Administration of Donations in Foreign Exchange 
by Domestic Institutions [Guojia waihui guanliju guanyu jingnei jigou 
juanzeng waihui guanli youguan wenti de tongzhi], issued 25 December 
09, effective 1 March 10, arts. 3, 5(3). For a discussion of these 
rules, see CECC, 2010 Annual Report, 10 October 10, 163.
    \18\ Fiona Tam, ``NGOs Say Easing of Registration Rules Is 
Limited,'' South China Morning Post, 2 April 12.
    \19\ Shen Xinwang, ``Ministry of Civil Affairs Official: There Have 
Been No Instances of `Social Organizations Opposing the Government' '' 
[Minzheng bu guanyuan: ``shehui zuzhi duikang zhengfu'' qingkuang 
meiyou chuxian], China News Net, 21 May 12.
    \20\ Ibid.
    \21\ Ibid.
    \22\ Wang Kala and Di Dongnuo, ``Beijing Huiling Applies for 
`Regularization'; Refused Three Times in One Day'' [Beijing huiling 
shenqing ``zhuanzheng'' yiri bei ju san ci],'' Beijing News, 29 
February 12.
    \23\ Ibid.
    \24\ ``Hebei Demands Civil Society Groups Register With Civil 
Affairs Bureau or Face Prohibition'' [Hebei yaoqiu ge shehui zuzhi dao 
minzheng bumen zhuce fouze jiang bei qudi], Radio Free Asia, 30 March 
12.
    \25\ Shen Tingting, ``Opportunities and Challenges--Women's NGOs in 
China,'' Asia Catalyst, 3 May 12.
    \26\ He Dan and Guo Rui, ``Charity Law `Vital' for Sector To 
Grow,'' China Daily, reprinted in People's Daily, 14 March 12.
    \27\ ``China Demands More Transparency From Charity Foundations,'' 
Xinhua, reprinted in People's Daily, 25 April 12.
    \28\ Ministry of Civil Affairs, Solicitation for Public Comment of 
``Certain Regulations Concerning Standards of Foundation Behavior 
(Trial)'' [Guanyu guifan jijinhui xingwei de ruogan guiding (shixing) 
gongkai zhengqiu yijian], 24 April 12; Shawn Shieh, The International 
Center for Not-for-Profit Law, ``NGO Law Monitor: China,'' last visited 
30 August 12.
    \29\ Narada Foundation, ``Feedback From Some Foundations for 
`Certain Regulations Concerning Standards of Foundation Behavior 
(Trial)' '' [Bufen jijinhui dui ``guanyu guifan jijinhui xingwei de 
ruogan guiding (shixing)'' de fankui yijian], 4 May 12.
    \30\ Ministry of Civil Affairs, Certain Regulations Concerning 
Standards of Foundation Behavior (Trial) [Guanyu guifan jijinhui 
xingwei de ruogan guiding (shixing)], art. 1(11).
    \31\ Shawn Shieh, The International Center for Not-for-Profit Law, 
``NGO Law Monitor: China,'' last visited 30 August 12.
    \32\ ``Guangdong Labor NGOs Cleared Out, Social `Spring Breeze' Has 
Brought Forth a Severe Winter'' [Yue laogong NGO zao qingsuan ``shegai 
chunfeng chuilai handong''], Mingpao, 9 June 12; Zhang Zhiru, 
``Guangdong Labor NGOs Face Big Purge, Government Equally Incorporates 
With One Hand and Suppresses With the Other'' [Guangdong laogong NGO 
mianlin dazhengsu, zhengfu shoubian he daya liang shou bingzhong], 
China Worker Rights Net, 8 June 12; Deng Jingyin, ``Forced To Close, 
NGOs Win Sympathy,'' Global Times, 10 September 12; ``Many Shenzhen 
Labor Rights NGOs Are Forced To Move Following Inspections'' [Shenzhen 
duojia laogong weiquan jigou zao jiancha hou bei qiangzhi yaoqiu 
banqian], Radio Free Asia, 10 September 12.
    \33\ Deng Jingyin, ``Forced To Close, NGOs Win Sympathy,'' Global 
Times, 10 September 12; ``Many Shenzhen Labor Rights NGOs Are Forced To 
Move Following Inspections'' [Shenzhen duojia laogong weiquan jigou zao 
jiancha hou bei qiangzhi yaoqiu banqian], Radio Free Asia, 10 September 
12.
    \34\ Zhang Zhiru, ``Guangdong Labor NGOs Face Big Purge, Government 
Equally Incorporates With One Hand and Suppresses With the Other'' 
[Guangdong laogong NGO mianlin dazhengsu, zhengfu shoubian he daya 
liang shou bingzhong], China Worker Rights Net, 8 June 12.
    \35\ Shen Xinwang, ``Ministry of Civil Affairs Official: There Have 
Been No Instances of `Social Organizations Opposing the Government' '' 
[Minzheng bu guanyuan: ``shehui zuzhi duikang zhengfu'' qingkuang 
meiyou chuxian], China News Net, 21 May 12.
    \36\ Ibid.
    \37\ Ibid.
    \38\ Ibid.
    \39\ Ibid.; Shawn Shieh, The International Center for Not-for-
Profit Law, ``NGO Law Monitor: China,'' last visited 30 August 12.
    \40\ Beijing Municipal People's Congress Standing Committee, 
Zhongguancun National Innovation Demonstration Zone Ordinance 
[Zhongguancun guojia zizhu chuangxin shifan qu tiaoli], issued and 
effective 23 December 10, art. 16; Tong Shuquan, ``Four Major Types of 
Social Organizations Registration About To Be Completely Open'' [Si 
dalei shehui zuzhi dengji shenpi jiang quanbu fangkai], Beijing Daily, 
26 February 11.
    \41\ Hunan Province, Changde City, Jinshi District Bureau of Civil 
Affairs, ``Civil Affairs Ministry and Shanghai City Signed Cooperative 
Agreement To Formally Initiate the Building of a National Model Modern 
Civil Administration'' [Minzhengbu yu shanghai shi qianshu hezuo xieyi 
zhengshi qidong guojia xiandai minzheng shifan qu jianshe], 5 July 10.
    \42\ Ministry of Civil Affairs and Shenzhen Municipal People's 
Government, Cooperative Agreement on Pushing Forward With Integrated 
Reforms of Civil Affairs Undertakings [Tuijin minzheng shiye zonghe 
peitao gaige hezou xieyi], 25 August 11, art. 11; CECC, 2010 Annual 
Report, 10 October 10, 163-64.
    \43\ Lian Huiling, ``Yunnan CSOs Will Be Able To Apply for Direct 
Registration With MCA This Year'' [Yunnan shehui zuzhi jinnian ke 
zhijie xiang minzheng shenqing dengji], Yunnan Net, 26 February 12.
    \44\ Fifth People's Congress Standing Committee of Shenzhen City, 
Ordinance for the Promotion of Social Construction in the Shenzhen 
Special Economic Zone [Shenzhen jingji tequ shehui jianshe cujin 
tiaoli], issued 12 January 12, effective 1 March 12, art. 43.
    \45\ Huang Yuli, ``Shenzhen Tests Reforms of Social 
Organizations,'' China Daily, 29 February 12.
    \46\ Shenzhen Municipal Communist Party Committee and Shenzhen 
Municipal People's Government General Office, Opinion Concerning the 
Further Development and Standardization of Local Civil Society 
Organizations [Guanyu jinyibu fazhan he guifan wo shi shehui zuzhi de 
yijian], issued 24 September 08, reprinted in Shenzhen Ministry of 
Civil Affairs, 28 September 11, art. 5.
    \47\ Li Qiang, ``Guangdong Civil Society Organizations Can Directly 
Apply To Be Established'' [Yue shehui zuzhi ke zhijie shenqing 
chengli], Nanfang Daily, reprinted in Department of Civil Affairs of 
Guangdong Province, 2 July 12; Xiang Songyang, ``Guangdong Opens Gates 
for Civil Society Organization Registration, Loosening Restrictions 
Anticipate Stricter Controls'' [Guangdong shehui zuzhi dengji kaizha 
kuanjin zhihou geng dai yanguan], Nanfang Daily, 5 July 12.
    \48\ Lu Yi et al., ``Guangdong Publicly Issues First Government 
Catalogue for the Procurement of Services, Includes Aid to the Elderly 
and Disabled, Among Others'' [Guangdong gongbu shoupi zhengfu goumai 
fuwu mulu, baohan zhu lao zhu can deng], Southern Daily, reprinted in 
China Law Info, 15 August 12.
    \49\ Michael Standaert, ``Government Crackdown on Labor Groups 
Worsens in South China,'' Global Post, 2 September 12.
    \50\ Wan Yanhai, ``New Guangdong Civil Society Law Falls Back on 
Convention'' [Wan yanhai pinglun: guangdong shehui zuzhi xin zheng 
luoru sutao], Radio Free Asia, 13 June 12.
    \51\ Zhu Fengjun, ``When Will Government Procurement of Services 
Extend to Ordinary NGOs?'' [Zhengfu caigou fuwu, he shi luoru xunchang 
NGO jia?], Southern Metropolitan Daily, 11 June 12.
    \52\ Ministry of Civil Affairs Working Group on Regulating Seminar 
and Forum Activities, Circular Concerning the Issuance of ``Measures 
for the Administration of Seminar and Forum Activities by Social 
Organizations'' [Guanyu yinfa ``shehui zuzhi juban yantaohui luntan 
huodong guanli banfa'' de tongzhi], 23 March 12, arts. 4, 8, 9(2); Chen 
Qiao, ``Beijing Regulation Prohibits Posing as `Social Organization' in 
Order To Hold Seminars and Charge Fees'' [Beijing guiding shehui zuzhi 
yanjin zhi guaming heban luntan huo shouqu feiyong], Jinghua Times, 9 
June 12.
    \53\ Ministry of Civil Affairs Working Group on Regulating Seminar 
and Forum Activities, Circular Concerning the Issuance of ``Measures 
for the Administration of Seminar and Forum Activities by Social 
Organizations'' [Guanyu yinfa ``shehui zuzhi juban yantaohui luntan 
huodong guanli banfa'' de tongzhi], 23 March 12, art. 4.
    \54\ Zheng Jinran and Xu Jingxi, ``Govt Plans To Give All NGOs 
Equal Treatment,'' China Daily, 8 May 12.
    \55\ Ibid.
    \56\ State Administration for Religious Affairs, Chinese Communist 
Party Central Committee United Front Work Department, National 
Development and Reform Commission, Ministry of Civil Affairs, Ministry 
of Finance, and State Administration of Taxation, Opinion Encouraging 
and Standardizing Involvement by Religious Organizations in Charitable 
Activities [Guanyu guli he guifan zongjiaojie congshi gongyi cishan 
huodong de yijian], 16 February 12, art. 1.
    \57\ Ibid.
    \58\ Ibid., art. 2, para. 2(2).
    \59\ Ibid., arts. 1, 2(1).
    \60\ State Council Information Office, ``National Human Rights 
Action Plan of China (2012-2015),'' 11 June 12, sec. II, art. 6.
    \61\ ``China Amends Civil Procedure Law Following Third Reading,'' 
Xinhua, 31 August 12; Jin Jianyu, ``Experts Call for Clarity on Lawsuit 
Amendment,'' Global Times, 1 September 12; Wu Jiang, `` `Relevant 
Organizations' Can Raise Public Interest Litigation'' [``Youguan 
zuzhi'' ke ti gongyi susong], Beijing News, 1 September 12.
    \62\ Qie Jianrong, ``Open Letter Issued Calling on Legislative 
Entities To Redesign Legal Provisions: Environmental Organizations Say 
That This May Block Their Entrance to Participating in Environmental 
Public Interest Lawsuits'' [Fa gongkaixin yuqing lifa bumen chongxin 
sheji falu tiaokuan: huanbao zuzhi cheng qi canyu huanjing gongyi 
susong damen huo bei fengdu], Legal Daily, 16 August 12.
    \63\ PRC Civil Procedure Law [Zhonghua renmin gongheguo xingshi 
susong fa], passed 4 April 91, amended 28 October 07, 31 August 12, 
art. 55. For information regarding various drafts of the article and 
related commentary on the article's language, see, e.g., Qie Jianrong, 
``Open Letter Issued Calling on Legislative Entities To Redesign Legal 
Provisions: Environmental Organizations Say That This May Block Their 
Entrance to Participating in Environmental Public Interest Lawsuits'' 
[Fa gongkaixin yuqing lifa bumen chongxin sheji falu tiaokuan: huanbao 
zuzhi cheng qi canyu huanjing gongyi susong damen huo bei fengdu], 
Legal Daily, 16 August 12. The draft article stated that only ``organs 
and relevant social groups stipulated by law'' may file lawsuits. Shang 
Xi, ``Civil Procedure Law Draft Receives Consideration, Committee 
Members Suggest Law Include Language About Public Interest Lawsuits'' 
[Minsufa caoan shou shenyi weiyuan jianyi jiang wen bao naru gongyi 
susong], Beijing Times, reprinted in Phoenix Net, 28 April 12; ``Civil 
Procedure Law Amendments (Draft) Explanation of Provisions and Draft,'' 
National People's Congress Net, reprinted in Legal Daily, 17 December 
11.
    \64\ Wu Jiang, `` `Relevant Organizations' Can Raise Public 
Interest Litigation'' [``Youguan zuzhi'' ke ti gongyi susong], Beijing 
News, 1 September 12; Chen Liping, ``Wang Shengming: Standing in Public 
Interest Lawsuits Could Be Clarified by Relevant Laws'' [Wang 
shengming: gongyi susong zhuti ke you xiangguan falu mingque], Legal 
Daily, 4 September 12.
    \65\ Jin Jianyu, ``Experts Call for Clarity on Lawsuit Amendment,'' 
Global Times, 1 September 12. National People's Congress Standing 
Committee Legislative Affairs Commission Deputy Director Wang Shengming 
notes that, ``according to the Ministry of Civil Affairs, there were 
462,000 `social organizations' (shehui zuzhi) registered in 2011; among 
them, 250,000 were designated as `social groups' (shehui tuanti) and 
200,000 as `non-governmental and non-commercial enterprises' (minban 
feiqiye danwei).'' Wu Jiang, `` `Relevant Organizations' Can Raise 
Public Interest Litigation'' [``Youguan zuzhi'' ke ti gongyi susong], 
Beijing News, 1 September 12.
    Notes to Section III--Institutions of Democratic Governance

    \1\ ``Xi Jinping, Continuously Adhere to and Bring Into Full Play 
the Party's Unique Advantage'' [Xi Jinping: shizhong jianchi he 
chongfen fahui dang de dute youshi], Seeking Truth, reprinted in 
Communist Party of China News Net, 1 August 12.
    \2\ ``At the End of 2009 Total Number of Party Members Reaches 
77,995,000 Nationally'' [Jiezhi 2009 niandi quanguo dangyuan zongshu da 
7799.5 wan ming], Chinese Communist Party News Net, 28 June 10. There 
are 6,629 urban street Communist Party organizations, 34,224 town 
organizations, 80,000 residential committees, and 598,000 village 
committees.
    \3\ Ibid. At the end of 2009, out of the country's 570,000 public 
service organizations, 471,000 have Party organizations.
    \4\ Ibid. At the end of 2009, the breakdown of the number of Party 
members in various organizations is as follows: Out of 13,000 eligible 
``social organizations'' (shehui tuanti), 12,000 have Party 
organizations, and out of 16,000 eligible ``nonprofit enterprises'' 
(minban feiqiye), 15,000 have Party organizations.
    \5\ J. David Goodman, ``Journalists Should Be Government 
Mouthpieces, Chinese Media Leader Says,'' New York Times, 5 December 
11. The President of state broadcaster China Central Television, Hu 
Zhanfan reportedly said, ``[t]he first social responsibility and 
professional ethic of media staff should be understanding their role 
clearly and be a good mouthpiece.'' ``Beijing Issues Microblog 
Management Regulation: Announces 11 Types of Illegal Content'' 
[Beijingshi chutai weibo guanli guiding: fabu shiyi lei neirong weifa], 
Beijing Evening News, reprinted in Xinhua blog, 16 December 11. 
According to the Xinhua report above, Beijing issued a regulation 
outlawing 11 types of content. ``China Wants To Ban Movie Content That 
Disturbs Social Stability in Latest Tightening of Media,'' Associated 
Press, reprinted in Washington Post, 14 December 11. According to the 
AP article above, a State Council draft law would ban 13 types of 
content in films.
    \6\ Lester Ross et al., ``Chinese Communist Party Central Committee 
Tightens Controls on Cultural Industry,'' WilmerHale Law Firm, 28 
October 11. Authorities reportedly took measures to safeguard 
``national cultural security'' and develop ``socialist culture with 
Chinese Characteristics'' by strengthening political education and 
traditional Chinese culture.
    \7\ Du Rong, ``Launch the Year of Grassroots Development While 
Striving for Excellence and Innovation in Activities--Central 
Organization Department Spokesperson Answers Journalists' Questions'' 
[Zai chuangxian zhengyou huodong zhong kaizhan jiceng zuzhi jianshe 
nian--zhongyang zuzhibu fuzeren da jizhe wen], 8 February 12.
    \8\ Zhao Yang, ``To Obtain a License To Practice, a Lawyer Must 
Take an Oath Within Three Months'' [Huo lushi zhiye xuke sange yue nei 
ying xuanshi], Legal Daily, 21 March 12. According to the Legal Daily, 
the Ministry of Justice is requiring that new applicants or lawyers 
renewing their license take an oath of loyalty to the Party, the 
country, and the people of China within three months of obtaining a 
lawyers' license. Ministry of Justice, ``Ministry of Justice Issues 
Notice of Decision To Establish Lawyer's Oath of Allegiance System'' 
[Sifabu xiafa jianli lushi xuanshi zhidu jueding de tongzhi], 21 March 
12; ``China Says Lawyers Must Take Oath of Loyalty to Communist Party 
To Raise Their Moral Quality,'' Associated Press, reprinted in 
Washington Post, 21 March 12.
    \9\ Peter Simpson, ``China's Vice President Orders More Thought 
Control Over Students,'' Telegraph, 5 January 12; Tang Jingli et al., 
``The 20th National University Party Building Work Meeting Closes'' [Di 
ershici quanguo gaoxiao dangjian gongzuo huiyi bimu], Ministry of 
Education, 6 January 12. According to the Ministry of Education article 
above, in January, education ministry Party officials told university 
Party members that Party building in institutions of higher education 
was of great significance this year, and called on them to strengthen 
development of ideological and political theory curriculum.
    \10\ ``Make Effort To Fill the Three Gaps in Party Building in 
Private Businesses'' [Nuli tianbu feigong dangjian sange kongbai dian], 
Xinhua, reprinted in United Front Work Department, 25 May 12; ``Chinese 
VP Stresses Party Role in Non-Public Sector,'' Xinhua, 21 March 12; 
Zhongshan City People's Government, Zhongshan City Communist Party 
Committee and Zhongshan City People's Government, Implementing Opinion 
Regarding Strengthening Social Construction and Innovation in Social 
Management [Zhonggong zhongshan shiwei zhongshanshi renmin zhengfu 
guanyu jiaqiang shehui jianshe chuangxin shehui guanli de shishi 
yijian], 1 September 11, art. 19.
    \11\ ``Chinese Official Urges Greater Social Management Efforts To 
Foster Cultural Construction,'' Xinhua, 25 October 11. According to the 
Xinhua article, Zhou Yongkang, a member of the Standing Committee of 
the Political Bureau of the Communist Party Central Committee, stated 
that authorities needed to deepen research and management of social 
organizations to promote their healthy development. Numerous local 
governments issued opinions stipulating authorities should strengthen 
Party building within social organizations. See, e.g., Zhongshan City 
People's Government, Zhongshan City Communist Party Committee, 
Zhongshan City People's Government Implementing Opinion Regarding 
Strengthening Social Construction and Innovation in Social Management 
[Zhonggong zhongshan shiwei zhongshanshi renmin zhengfu guanyu jiaqiang 
shehui jianshe chuangxin shehui guanli de shishi yijian], 1 September 
11, art. 19; ``Changde Office Issues Document (2011) No. 6, Changde 
Communist Party Committee Office and Changde City People's Government 
Office Opinion Regarding Strengthening Social Organization Development 
and Management'' [Changban fa (2011) 6 hao zhonggong changde shiwei 
bangongshi changdeshi renmin zhengfu bangongshi guanyu jiaqiang shehui 
zuzhi jianshe guanli de yijian], 9 January 12, art. 3.
    \12\ ``Chinese President Hu Jintao Stresses Communist Party Control 
Over Fast-Modernizing Military,'' Associated Press, reprinted in 
Washington Post, 28 January 12; Minnie Chan, ``Party Steps Up Efforts 
To Keep Generals in Line,'' South China Morning Post, 22 March 12. 
According to the SCMP, two newspapers published a series of 
commentaries reminding the army to remain loyal to Hu Jintao. ``Chinese 
Premier Wen Reasserts Communist Party Control Over Military in Speech 
to Legislature,'' Associated Press, reprinted in Washington Post, 5 
March 12. See also Michael S. Chase, ``Army Day Coverage Stresses PLA's 
Contributions and Party Control,'' China Brief, Vol. XII, No. 16, 
Jamestown Foundation, 17 August 12, 3-6.
    \13\ International Covenant on Civil and Political Rights (ICCPR), 
adopted by UN General Assembly resolution 2200A (XXI) of 16 December 
66, entry into force 23 March 76, art. 25; UN Office of the High 
Commissioner for Human Rights, General Comment No. 25: The Right To 
Participate in Public Affairs, Voting Rights and the Right of Equal 
Access to Public Service, CCPR/C/21/Rev.1/Add.7, 7 December 96. Under 
General Comment 25 to the ICCPR, this language requires that: ``Where 
citizens participate in the conduct of public affairs through freely 
chosen representatives, it is implicit in article 25 that those 
representatives do in fact exercise governmental power and that they 
are accountable through the electoral process for their exercise of 
that power'' (Item 7); ``The right to vote at elections and referenda 
must be established by law and may be subject only to reasonable 
restrictions . . . . [p]arty membership should not be a condition of 
eligibility to vote, nor a ground of disqualification'' (Item 10); 
``Freedom of expression, assembly and association are essential 
conditions for the effective exercise of the right to vote and must be 
fully protected . . .'' (Item 12); ``The right of persons to stand for 
election should not be limited unreasonably by requiring candidates to 
be members of parties or of specific parties . . .'' (Item 17); An 
``independent electoral authority should be established to supervise 
the electoral process and to ensure that it is conducted fairly, 
impartially and in accordance with established laws which are 
compatible with the Covenant . . . .'' (Item 20).
    \14\ International Covenant on Civil and Political Rights (ICCPR), 
adopted by UN General Assembly resolution 2200A (XXI) of 16 December 
66, entry into force 23 March 76. China has signed, but has not yet 
ratified, the ICCPR. In the 2009-2010 National Human Rights Action Plan 
issued by the Chinese government in April 2009, officials stated that 
the ICCPR was one of the ``fundamental principles'' on which the plan 
was framed, and that the government ``will continue legislative, 
judicial and administrative reforms to make domestic laws better linked 
with this Covenant, and prepare the ground for approval of the ICCPR.'' 
State Council Information Office, National Human Rights Action Plan of 
China (2009-2010), reprinted in Xinhua, 13 April 09, Introduction, sec. 
V(1).
    \15\ Universal Declaration of Human Rights, adopted and proclaimed 
by UN General Assembly resolution 217A(III) of 10 December 48, art. 21. 
``Everyone has the right to take part in the government of his country, 
directly or through freely chosen representatives . . . . The will of 
the people shall be the basis of the authority of government, this 
shall be expressed in periodic and genuine elections which shall be by 
universal and equal suffrage and shall be held by secret vote or by 
equivalent free voting procedures.''
    \16\ ``Chinese Communist Party Issues Document Requiring 
Strengthening Dynamics of Official Positions for Non-Party Members'' 
[Zhonggong fawen yaoqiu jiaqiang dangwai ganbu zhuren lidu], Caixin, 16 
April 12. For example, as of June 2012, only 2 central-level ministry 
directors and 10 vice-directors were non-Communist Party members.
    \17\ ``Hu Jintao's Report at the Chinese Communist Party 17th Party 
Congress Meeting'' [Hu Jintao zai zhongguo gongchandang di shiqici 
quanguo daibiao dahuishang de baogao], People's Daily, 15 October 07.
    \18\ ``Central Committee on Comprehensive Order Adds 11 Member 
Units, Will Engage in Special Security Work'' [Zhongyang zongzhiwei 
zeng 11 chengyuan danwei, jiang zuohao zhian deng zhuanxiang gongzuo], 
Xinhua, reprinted in China Economic Net, 9 October 11. The original 
organization was called the Central Committee for Comprehensive 
Management of Social Order. (This organization also has been referred 
to as the Central Committee for Comprehensive Management of Public 
Security.)
    \19\ ``Peaceful Road With Chinese Characteristics Out of 20 Years 
of Comprehensive Management'' [Zongzhi 20 nian zouchu yitiao zhongguo 
tese pingan zhilu], Legal Daily, 1 March 11. For more information, see 
``Resolving Social Management Risks: Social Strata Mobility Maintains 
Balance in Society'' [Jiesi fengxian shehui guanli: jieceng liudong shi 
shehui baochi pingheng], Outlook Weekly, 8 January 11.
    \20\ ``Central Committee on Comprehensive Order Adds 11 Member 
Units, Will Engage in Special Security Work'' [Zhongyang zongzhiwei 
zeng 11 chengyuan danwei jiang zuohao zhian deng zhuanxiang gongzuo], 
Xinhua, reprinted in China Economic Net, 9 October 11; ``The Chinese 
Communist Party Maintains Stability With Innovative Thinking: Control 
Through a Strong Shift to Multi-Management'' [Zhonggong weiwen siwei yu 
shi chuangxin: you qiangli kongzhi xiang duoyuan guanli zhuanbian], 
China News Net, reprinted in People's Daily, 27 September 11.
    \21\ Chen Baocheng, ``18 Provinces Complete Provincial-Level 
Comprehensive Order Name Change'' [18 sheng fen wancheng shengji 
zongzhi wei gengming], Caixin, 11 April 12.
    \22\ ``The Chinese Communist Party Maintains Stability With 
Innovative Thinking: Control Through a Strong Shift to Multi-
Management'' [Zhonggong weiwen siwei yu shi chuangxin: you qiangli 
kongzhi xiang duoyuan guanli zhuanbian] China News Net, reprinted in 
People's Daily, 27 September 11; ``Central Committee on Comprehensive 
Order Adds 11 Member Departments, Will Engage in Special Security 
Work'' [Zhongyang zongzhiwei zeng 11 chengyuan danwei jiang zuohao 
zhian deng zhuanxiang gongzuo], Xinhua, reprinted in China Economic 
Net, 9 October 11. According to the Xinhua article, the Committee will 
conduct research, coordinate actions, and promote policies and 
mechanisms in eight main areas: One, specialized population management 
work; two, service management work for new types of economic and social 
organizations; three, management work of ``special populations'' (which 
includes released prisoners, targets of community corrections, and drug 
addicts); four, specialized work in maintaining social order (which 
includes cracking down on organized crime and eliminating ``evil'' 
elements, and investigating and remediating social order in key areas 
and prominent security problems); five, specialized work in preventing 
juvenile delinquency; six, specialized work in keeping social order in 
and around schools; seven, specialized work in jointly protecting 
roads, railways, communication and electric power transmission lines, 
oil and gas pipelines, and telecommunications, radio, and television 
facilities; eight, specialized work in perfecting and strengthening 
social management laws, regulations, and policies.
    \23\ Ed Zhang, `` `Social Management' Unlikely To Offer Much in the 
Way of Justice,'' South China Morning Post, 16 October 11.
    \24\ Yu Keping, ``A Shift Towards Social Governance in China,'' 
East Asia Forum, 9 September 11.
    \25\ ``Hu Jintao's Report at the Chinese Communist Party 17th Party 
Congress Meeting'' [Hu jintao zai zhongguo gongchandang di shiqici 
quanguo daibiao dahuishang de baogao], People's Daily, 15 October 07, 
item 8.6. Regarding ``social management'' and ``social stability,'' 
President Hu Jintao said the following: ``[We should] improve social 
management and safeguard social stability and unity. Social stability 
is the common aspiration of the people and an important prerequisite 
for reform and development. [We should] improve the structure of social 
management comprising Party committee leadership, government 
responsibility, nongovernmental support, and public participation, and 
improve the system of social management at the primary level. [We 
should] . . . maximize factors conducive to harmony, and minimize those 
detrimental to it. We should properly handle contradictions among the 
people, improve the system for handling complaints in the form of 
letters and visits from the public, and strengthen the mechanism for 
safeguarding the rights and interests of the people in which the Party 
and government play the leading role.''
    \26\ Yu Keping, ``A Shift Towards Social Governance in China,'' 
East Asia Forum, 9 September 11.
    \27\ Ibid.
    \28\ Ibid.
    \29\ Ibid. According to the article by Yu Keping, the Party seeks 
to improve ``social management'' and improve government capacity to 
deliver public services by improving laws and regulations.
    \30\ ``Hu Jintao: Solidly Improve Scientific Social Management, 8 
Comments on How To Improve Social Management'' [Hu jintao: zhazhashishi 
tigao shehui guanli kexuehua shuiping tichu 8 tiao yijian gaishan 
shehui guanli], People's Daily, 19 February 11. The phrase ``under the 
leadership of the Party, with responsibilities delegated to the 
government, with coordination by society, and with participation from 
the public'' is repeated in many other documents. See, e.g., ``The 
Outline of the People's Republic of China's 12th Five-Year Plan for 
National Economic and Social Development'' [Zhonghua renmin gongheguo 
guomin jingji he shehui fazhan di shier ge wunian guihua gangyao], 
issued 16 March 11, chap. 37 (1); Yu Keping, ``A Shift Towards Social 
Governance in China,'' East Asia Forum, 9 September 11; ``Guangdong 
Central Party Committee and the Guangdong People's Government Decision 
Regarding Strengthening Social Construction (Summary)'' [Zhonggong 
guangdong shengwei guangdong sheng renmin zhengfu guanyu jiaqiang 
shehui jianshe de jueding (gangyao)], Southern Net, 20 July 11.
    \31\ Xu Lin and Zhao Yang, ``Understanding the Riddle of 
Guangdong's Social Affairs Committees'' [Jiemi guangdong shehui gongzuo 
weiyuanhui], Southern Daily, 9 August 11. According to the Southern 
Daily article, the social affairs committee in Guangdong province is 
comprised of members of 24 Party and government organizations. The 
committee reportedly is the ``working department'' for the provincial 
Party committee and the ``functional mechanism'' for the provincial 
government. The committee is responsible for researching and handling 
the major problems in social affairs work. All cities and counties 
(including county-level cities and districts) in Guangdong are to 
establish similar social affairs mechanisms at the local level.
    \32\ Joseph Fewsmith, `` `Social Management' as a Way of Coping 
With Heightened Social Tensions,'' China Leadership Monitor, No. 36 
(Winter 2012), 1. Fewsmith discusses Zhou Yongkang's statements about 
``social coordination.'' See also Wang Hongru, ``China Social 
Innovation and Management Opinion Issued, Limits Readership to County 
and Group-Level Officials or Higher'' [Zhongguo shehui chuangxin guanli 
yijian chutai xian xian tuanji yishang ganbu yuedu], China Net, 20 
September 11. According to the China Net article, ``social 
coordination'' (shehui xietong) also refers to nurturing and managing 
social organizations. Zhao Yimei, ``Shanghai Pudong: Professionalized 
`Stability Preservation Mothers' '' [Shanghai pudong: zhuanyehua de 
``weiwen mama''], Southern Weekend, 4 January 12. The Southern Weekend 
article indicates that authorities will delegate some ``social 
stability'' tasks to mass organizations or social groups.
    \33\ Zhao Yimei, ``Shanghai Pudong: Professionalized `Stability 
Preservation Mothers' '' [Shanghai pudong: zhuanyehua de ``weiwen 
mama''], Southern Weekend, 4 January 12. The article describes some of 
the All-China Women's Federation work maintaining ``social stability,'' 
including convincing petitioners to abandon their petitioning 
activities.
    \34\ The CPC Central Committee General Office, Office of the State 
Council, Opinion Regarding Strengthening and Improving Development of 
Urban Residence Committees [Guanyu jiaqiang he gaijin chengshi shechu 
jumin weiyuanhui jianshe de yijian], issued 9 November 10. The preface 
of this Opinion emphasized the ``more prominent [residence committee] 
function of safeguarding social stability, the increasing importance of 
community residence committees to take on social management tasks, and 
the more urgent service demands of community resident committees by 
citizens.''
    \35\ Charles Hutzler, ``Watching Dissidents Is a Booming Business 
in China,'' Associated Press, reprinted in Huffington Post, 28 May 12. 
According to the Associated Press article, local authorities in 
conjunction with school employees monitored and restricted the 
movements of democracy advocate Yao Lifa on a day-to-day basis.
    \36\ ``China: Student Informant System To Expand, Limiting School 
Autonomy, Free Expression,'' Open Source Works, reprinted in Central 
Intelligence Agency Directorate of Intelligence, 23 November 10.
    \37\ ``Beijing Addresses New Challenges in Social Management, Makes 
Innovations in Comprehensive Management Work Mechanisms'' [Beijing 
yingdui shehui guanli xin tiaozhan chuangxin zongzhi gongzuo xin 
tizhi], Xinhua, 18 June 10.
    \38\ Zhao Yimei, ``Shanghai Pudong: Professionalized `Stability 
Preservation Mothers' '' [Shanghai pudong: zhuanyehua de ``weiwen 
mama''], Southern Weekend, 4 January 12. In one example, in one area of 
Pudong district in Shanghai municipality, over 5,000 All-China Women's 
Federation members and volunteers from society reportedly would contact 
every household as part of ``5-level network'' to conduct ``rights 
defense and stability maintenance'' tasks. See also Charles Hutzler, 
``Watching Dissidents Is a Booming Business in China,'' Associated 
Press, reprinted in Huffington Post, 28 May 12.
    \39\ See, e.g., ``Zhou Yongkang Emphasized: To Strengthen and 
Innovate Social Management, It Must Be Implemented at the Grassroots 
Level'' [Zhou yongkang qiangdiao: jiaqiang he chuangxin shehui guanli 
yao luoshi dao jiceng], Xinhua, 2 November 11; ``Thoroughly Advance 
Comprehensive Pilot Projects for Social Management Innovations and as a 
Whole Raise the Scientific Level of Social Management Standards'' 
[Shenru tuijin shehui guanli chuangxin zonghe shidian cong zhengti 
shang tigao shehui guanli kexuehua shuiping], Xinhua, 7 February 12 
(Open Source Center, 7 February 12). The February Xinhua article notes 
37 pilot projects in ``innovating social management'' at the local 
level. ``Communities Half Full, Should Organize a Residents' Committee 
Election'' [Shequ ruzhu guoban, ying zuzhi juweihui xuanju], People's 
Daily, 5 September 11. According to the People's Daily article, Beijing 
authorities consider communities the ``first line of defense'' in 
maintaining social harmony and stability. ``China Trains Grassroots 
Party Officials To Boost Social Management,'' Xinhua, 4 June 11. 
According to the June Xinhua article, Party secretaries from 40,000 
township and neighborhood committees and 680,000 village and community 
Party organizations began to attend training sessions in Beijing in May 
2011. The sessions will last for a year.
    \40\ ``Summary of National Activities Launched To Send Party Cadres 
Down to the Grassroots Across the Country'' [Quanguo gedi kaizhan 
dangyuan ganbu xia jiceng huodong zongshu], Xinhua, 25 March 12. 
According to the March 25 Xinhua article, authorities sent cadres to 
remote areas, places where citizens needed assistance, places with 
large-scale problems, and areas with many conflicts. See also ``From 
the Center to the Local, National Widespread Activities To Send Party 
Cadres to Grassroots'' [Cong zhongyang dao difang quanguo guangfan 
kaizhan dangyuan ganbu xia jiceng huodong], China News Net, 9 April 12. 
According to the China News Net article, authorities sent approximately 
20,000 cadres to the countryside in Tibet, and in Hebei, they sent 
14,000. ``Zhou Yongkang's Instructions and Requirements Regarding 
Ministry of Public Security Launch of `Three Visits Three Appraisals' 
To Deepen the `Big Visits' Activities'' [Zhou yongkang jiu gong'anbu 
bushu kaizhan ``sanfang sanping'' shenhua ``dazoufang'' huodong pishi 
yaoqiu], China Police Net, 10 January 12. According to the China Police 
Net article, the current ``Three Appraisals'' activities are a 
deepening of the previous ``Big Visits'' campaign. Song Zhijing, 
``Hebei 15,000 Cadres Sent Down to Countryside'' [Hebei 15,000 ganbu 
xiaxiang], Beijing News, 29 February 12. According to the Beijing News 
article, Hebei provincial Party authorities sent down 15,000 cadres to 
5,010 villages. The cadres reportedly will live in the villages for 
eight months to assist with economic development and at the same time 
conduct work on maintaining stability to ensure that no large-scale 
mass incidents occur prior to October 2012 when the program concludes. 
According to the article, if the cadres do not complete their tasks, 
they cannot return home.
    \41\ ``Focus on Social Management's Difficult Problems, Really 
Resolving Contradictions Requires Putting People First'' [Jujiao shehui 
guanli nanti yiren weiben caineng zhenzheng huajie maodun], Xinhua, 
reprinted in People's Daily, 19 February 11. According to the Xinhua 
article, in an economic development zone in Hefei city, Anhui province, 
119 responsible personnel would ``learn about the affairs of 100 
households'' in the city's 21 communities, engaging in ``face-to-face'' 
service provision and coordinating social management work. In Dongcheng 
district, Beijing municipality, ``network management'' personnel work 
to set up a database with information on ``people, land, property, 
matters, and sentiments.''
    \42\ ``From the Center to the Local, National Widespread Activities 
To Send Party Cadres to Grassroots'' [Cong zhongyang dao difang quanguo 
guangfan kaizhan dangyuan ganbu xia jiceng huodong], China News Net, 9 
April 12. See also ``Tibet Supervision Head: For the First Time in 
Tibet's History Work Teams Are Stationed in Every Village'' [Xizang 
jianchazhang: xizang lishishang shouci suoyou cun dou paizhu 
gongzuodui], China Net, reprinted in Phoenix Net, 8 March 12. According 
to the China Net article, the work teams went door to door to carry out 
surveys to discover the needs of households and to do research. The 
teams conducted stability maintenance work, resolved some disputes over 
resources, and worked on historical problems, especially focusing on 
rural anti-splittism. Tian Zhilin, ``Qi Zhala Visits Cadres Stationed 
in Curpu Monastery and Nenang Monastery Emphasizing Vigorous 
Implementation and Good Innovative Monastery Management Work'' [Qi 
zhala zai kanwang weiwen chubusi nailangsi zhusi ganbu shi qiangdiao], 
China Tibet News, 31 January 12 (Open Source Center, 15 February 12). 
According to the China Tibet News article, the Party also stationed 
work groups in monasteries and strove for the objective of ``no major, 
moderate, or even minor incidents,'' and to enhance and make 
innovations in monastery management. ``Tibet Issues Emergency 
Notification: Cadres Absent or Shirking Responsibilities Will Be 
Terminated on the Spot'' [Xizang fa jinji tongzhi: ganbu lin zhen 
tuisuo yilu jiudi mianzhi], Tibet Daily, reprinted in Auyi News.com, 6 
February 12. According to the Tibet Daily report, officials in the 
Tibetan Autonomous Region Party Discipline Inspection Commission 
reportedly issued two ``urgent'' circulars calling upon officials at 
all levels to strengthen political awareness and social stability work. 
One announcement indicated cadres who fail to maintain social stability 
would be punished.
    \43\ ``China Boosts Police Presence in Xinjiang Region Amid Concern 
Over Religious Extremism,'' Associated Press, 30 January 12. According 
to the AP article, a regional official urged local authorities to 
``further improve their capabilities for maintaining social stability 
and amplify the crackdown on religious extremist activities.''
    \44\ CECC, 2011 Annual Report, 10 October 11, 159.
    \45\ Charles Hutzler, ``Watching Dissidents Is a Booming Business 
in China,'' Associated Press, reprinted in Huffington Post, 28 May 12.
    \46\ Ibid.
    \47\ Ibid.; Michael Wines, ``Prominent Chinese Dissident Hu Jia Is 
Released From Jail,'' New York Times, 26 June 11; United States 
Commission on International Religious Freedom, ``4/27/2011: USCIRF: 
Easter Detentions Show Need for Religious Freedom Priority in U.S.-
China Relations,'' 27 April 11.
    \48\ Chinese Human Rights Defenders, ``Chen Wei `Crime of Inciting 
Subversion of State Power' Full Text of Sentencing Document'' [Chen wei 
``shandong dianfu guojia zhengquan zui'' panjue shu quanwen], 12 
January 12; Chinese Human Rights Defenders, ``Veteran Democracy 
Activist Chen Wei Gets 9 Years for Speech Crime,'' 23 December 11; 
Michael Wines, ``China Jails Human Rights Activist for 9 Years,'' New 
York Times, 23 December 11.
    \49\ Gillian Wong, ``China Activist Given 10 Years' Jail for 
Subversion,'' Associated Press, reprinted in Google, 26 December 11.
    \50\ Ibid.; Chinese Human Rights Defenders, ``Guizhou Human Rights 
Defender Chen Xi Sentenced to 10 Years, 3 Years Deprivation of 
Political Rights'' [Guizhou renquan han weizhe chen xi bei panchu youqi 
tuxing 10 nian, boquan 3 nian], 26 December 11.
    \51\ Chinese Human Rights Defenders, ``China Human Rights Briefing, 
February 21-27, 2012,'' 29 February 12.
    \52\ Ibid.
    \53\ ChinaAid, ``Hangzhou Intermediate Court February 10, 2012, 
Sentences Zhu Yufu to Seven Years in Prison'' [Hangzhou zhongyuan 2 yue 
10 ri (2012) kaiting panjue zhu yufu tuxing 7 nian], 10 February 12; 
``Activists: Chinese Dissident Writer Sentenced to 7 Years' Jail for 
Poem Deemed Subversive,'' Associated Press, reprinted in the Washington 
Post, 10 February 12.
    \54\ Chinese Human Rights Defenders, ``China Human Rights Briefing, 
March 20-26, 2012,'' 28 March 12; CHRD notes that the charges against 
Xue may be linked to a letter he jointly wrote to bring attention to 
the suspicious death of Qian Yunhui, a village leader from Zhejiang 
province. Chinese Human Rights Defenders, ``Activist Xue Mingkai 
Sentenced to Four Years' Imprisonment for `Subverting State Power' '' 
[Yiyi renshi xue mingkai beikong ``dianfu guoji zhengquan zui'' huoxing 
4 nian], 26 March 12. According to the March 26 CHRD article, Xue was 
initially charged with ``inciting subversion of state power'' when 
officials detained him in February 2011 as part of the crackdown after 
on-line calls for ``Jasmine'' protests. It is unknown why authorities 
modified his charges. For more information on Xue, see Chinese Human 
Rights Defenders, ``Summary of Xue Mingkai,'' 28 February 10.
    \55\ Chinese Human Rights Defenders, ``Liu Xianbin Case Trial Oral 
Judgment Announcement of 10 Years, Family and Lawyers Cannot Visit'' 
[Liu xianbin an fating koutou xuanpan shi nian xingqi, jiaren lushi 
wufa huijian], 25 March 11.
    \56\ ``Guo Quan Case: Jiangsu Provincial High People's Court 
Criminal Judgment'' [Guo quan an: jiangsu sheng gaoji renmin fayuan 
xingshi caidingshu], Boxun, 4 January 10.
    \57\ Edward Wong, ``Lawyer Says Hong Kong Violated Chinese 
Dissident's Rights,'' New York Times, 26 January 10.
    \58\ ``Hunan Democracy Party Member Xie Changfa Receives Heavy 
Sentence of 13 Years at Trial'' [Hunan minzhudang chengyuan xie changfa 
yishen bei zhongpan shisannian], Civil Rights and Livelihood Watch, 1 
September 09.
    \59\ Chinese Human Rights Defenders, ``China Human Rights Briefing, 
August 10-15, 2011,'' 16 August 11.
    \60\ Chinese Human Rights Defenders, ``Chongqing City Citizen Huang 
Chengcheng Sent to RTL Because of `Jasmine Speech' '' [Chongqing shimin 
huang chengcheng yin ``molihua yanlun'' bei laojiao], 15 August 11. 
According to the sentencing document, Huang asked others to meet him 
and said that he would be carrying flowers or ``jasmine tea.''
    \61\ Charles Hutzler, ``Watching Dissidents Is a Booming Business 
in China,'' Associated Press, reprinted in Huffington Post, 28 May 12.
    \62\ Ibid.
    \63\ Ibid.
    \64\ Zheng Zhiwen, ``People's Daily: Political Restructuring 
Steadily Progressing'' [Renmin ribao: zhengzhi tizhi gaige wenbu 
tuijin], People's Daily, 14 May 12.
    \65\ ``China Premier Calls for Political Reforms,'' Al Jazeera, 14 
March 12.
    \66\ Michael Wines, ``Wen Calls for Political Reform but Sidesteps 
Details,'' New York Times, 14 March 12.
    \67\ ``Wen Jiabao: Five Key and Difficult Points With China's 
Future Political Structural Reforms'' [Wen jiabao: zhongguo weilai 
zhengzhi tizhi gaige you 5 da zhongdian he nandian], Caijing, 14 
September 11. In his September 2011 speech, Wen Jiabao reportedly said 
China should reform the Party and national leadership systems.
    \68\ Zhu Jingruo and Wang Minghao, ``Beijing Clean Government Risk 
Prevention and Control Highlights `Separation of Powers' '' [Beijing 
lianzheng fengxian fangkong aoxian ``fenquan''] Beijing News, reprinted 
in People's Daily, 28 November 11.
    \69\ State Council Information Office, ``National Human Rights 
Action Plan of China (2012-2015),'' 11 June 12, part II, no. 8. The 
plan states that the ``government will make unremitting efforts to 
improve the system of supervision, strengthen restraints on and 
supervision over the exercise of power, and earnestly guarantee 
citizens' right of democratic supervision.'' Among other items, the 
plan describes the sectors and areas in which supervision will be 
strengthened and states that people's congresses' powers of supervision 
will be strengthened and those of the Chinese People's Political 
Consultative Conference will be given ``full play.''
    \70\ ``Seven Chinese Provinces, Regions Conclude Lawmaker Elections 
at County, Township Legislatures,'' Xinhua, 19 October 11.
    \71\ National People's Congress, Election Law of the National 
People's Congress and the Various Levels of Local People's Congresses 
of the People's Republic of China [Zhonghua renmin gongheguo quanguo 
renmin daibiao dahui he difang geji renmin daibiao dahui xuanjufa], 
passed 1 July 79, amended 10 December 82, 2 December 86, 28 February 
95, 27 October 04, 14 March 10, art. 2.
    \72\ Ibid., art 2.
    \73\ Ibid., art. 29. Candidates also may be nominated by either a 
political party, local people's congress delegates, or a ``mass 
organization.''
    \74\ Wei Huanhuan, ``Beijing Election Observation'' [Beijing xuanju 
guancha], New Citizen Law Net, reprinted in China Elections and 
Governance, 29 November 11. For example, the New Citizen Law Net 
article noted that in one voting district in Beijing municipality, only 
candidates nominated by ``small groups'' would be allowed on the 
candidate list. See also Chinese Human Rights Defenders, ``Independent 
Candidates Face `Filter' of `Consultation Brewing' '' [Duli canxuanren 
zaoyu ``xieshang yunniang'' de ``guoluwang''], 27 October 11.
    \75\ ``President Hu Gains Votes, No Independent Candidates are 
Elected'' [Hu zong you de piao duli canxuanren wu de xuan], Mingpao, 
reprinted in Sina, 9 November 11; Chinese Human Rights Defenders, 
``China Human Rights Briefing, November 2-7, 2011,'' 15 November 11; 
What ``Democracy'' Means in China After Thirty Years of Reform, Staff 
Roundtable of the Congressional-Executive Commission on China, 22 May 
09, Testimony of Melanie Manion, Professor of Public Affairs and 
Political Science, University of Wisconsin-Madison. See also 
``Officials Discourage and Prevent `Independent Candidates' From 
Getting on Official Ballots in Local People's Congress Elections,'' 
CECC China Human Rights and Rule of Law Update, No. 1, 24 January 12, 
3.
    \76\ Song Wei and Zhu Anqi, ``Procuratorial Sector To Supervise 
Full Process of 2011-2012 Term-Change Elections (Hot Topic Follow-Up)'' 
[Jiancha jiguan quancheng jiandu huanjie xuanju (redian zhuizong)], 
People's Daily, 24 August 11. A national directive indicated that under 
the direction of the Party, officials from procuratorate agencies would 
coordinate with discipline inspection commissions, [Party] organization 
departments, and election agencies to inspect and supervise end-of-term 
elections for local people's congresses, Party committees, people's 
congresses, and people's political consultative conferences at the 
provincial, city, county, and township levels. See also ``Sichuan 
Conducts Specific Inspection To Ensure Honesty, Decency in Local Term-
Change Elections'' [Sichuan kaizhan zhuanxiang ducha quebao huanjie 
gongzuo fengqing qizheng], China Discipline Inspection Paper, reprinted 
in People's Daily, 2 August 11.
    \77\ Song Wei and Zhu Anqi ``Procuratorial Sector To Supervise Full 
Process of 2011-2012 Term-Change Elections (Hot Topic Follow-Up)'' 
[Jiancha jiguan quancheng jiandu huanjie xuanju (redian zhuizong)], 
People's Daily, 24 August 11.
    \78\ Hai Zhen, ``This Year, Township and Town People's Congress 
End-of-Term Elections Will Optimize Structure of Representatives'' 
[Jinnian xiangzhen renda huanjie xuanju jiang youhua daibiao jiegou], 
Hohhot Daily, 20 September 11. The Standing Committee of the People's 
Congress in Hohhot city, Inner Mongolia planned to ``optimize'' 
(youhua) the mix of deputies on township/town congresses by adding 
additional representatives who are workers, farmers, herdsmen, and 
technical professionals. Chinese Human Rights Defenders, ``Independent 
Candidates Face `Consultation Brewing' `Filter' '' [Duli canxuanren 
zaoyu ``xieshang yunniang'' de ``guoluwang''], 27 October 11. According 
to the CHRD article, in the Haidian election in Beijing, the election 
committee reportedly thought that the candidate should be an 
outstanding female, non-party member, who previously has held office. 
Sharon LaFraniere, ``In China, Political Outsiders Turn to Microblog 
Campaigns,'' New York Times, 31 October 11. According to the NYT 
article, an election committee in Guangzhou municipality initially 
dictated they wanted a female worker who was not a Party member to be a 
candidate. The committee reportedly later rescinded the order. 
According to Article 6 of the PRC Election Law cited below, 
``[d]eputies to people's congresses at the national and local levels 
shall be broadly representative. There shall be appropriate numbers of 
deputies at the grassroots level, particularly from among workers, 
farmers, and intellectuals. There shall be appropriate numbers of 
female deputies, and their proportions shall be increased gradually.'' 
The law does not specify the definition of ``broadly representative''; 
nor does it indicate how such representation is to be achieved. 
National People's Congress, Election Law of the National People's 
Congress and the Various Levels of Local People's Congresses of the 
People's Republic of China, passed 1 July 79, amended 10 December 82, 2 
December 86, 28 February 95, 27 October 04, 14 March 10.
    \79\ Chinese Human Rights Defenders, ``Guizhou Human Rights 
Defender Chen Xi Sentenced to 10 Years, 3 Years Deprivation of 
Political Rights'' [Guizhou renquan hanweizhe chen xi bei panchu youqi 
tuxing 10 nian, boquan 3 nian], 26 December 11. According to the 
December 26 CHRD article, authorities detained, arrested, and sentenced 
Chen Xi to 10 years in prison after he announced his intention to seek 
nominations to run in the local people's congress elections. For more 
information on Chen's case, see Gillian Wong, ``China Activist Given 10 
Years' Jail for Subversion,'' Associated Press, reprinted in Google, 26 
December 11. Authorities also arrested Hong Maoxuan; for more 
information see the following articles: Chinese Human Rights Defenders, 
``China Human Rights Briefing, August 29-September 6, 2011,'' 7 
September 11; ``Urgent Attention: Henan Shangcheng County Detention 
Center Purposefully Allows Farmer Leader Hong Maoxuan's Illness To 
Continue To Worsen'' [Jinji guanzhu: henan shangchengxian kanshousuo 
you yi rang nongmin lingxiu hong maoxuan de bingqing jixu ehua], Canyu, 
reprinted in Boxun, 4 November 11; Chinese Human Rights Defenders, 
``Villager Leader Hong Maoxuan Arrested on Suspicion of `Obstructing 
Official Business,' Lawyer Visit Prohibited'' [Nongmin lingxiu hong 
maoxuan bei yi ``fanghai gongwu zui'' daibu lushi huijian zaoju], 1 
September 11.
    \80\ Louisa Lim, ``Tweeting to Electoral Victory in China? Maybe 
Not,'' National Public Radio, 14 September 12; ``Candidates Pressured 
Ahead of Poll,'' Radio Free Asia, 21 October 11.
    \81\ Chinese Human Rights Defenders, ``Fourteen Types of Repressive 
Tactics Suffered by China's Independent Candidates'' [Zhongguo duli 
canxuanren zaoyu de shisi zhong yazhi shouduan], 31 October 11; Chinese 
Human Rights Defenders, ``Because Chengdu Independent Candidate Li 
Shuangde Participated in Elections, His Mother Was Warned and 
Threatened By the Police'' [Chengdu duli houxuanren li shuangde yin 
jingxuan lianlei muqin shoudao jinggao weixie], 19 November 11; 
``Candidates Pressured Ahead of Poll,'' Radio Free Asia, 21 October 11.
    \82\ Wei Huanhuan, ``Beijing Election Observation'' [Beijing xuanju 
guancha], New Citizen Law Net, reprinted in China Elections and 
Governance, 29 November 11; Sharon LaFraniere, ``In China, Political 
Outsiders Turn to Microblog Campaigns,'' New York Times, 31 October 11; 
Chinese Human Rights Defenders, ``As Guiyang Election Day Draws Near, 
All Candidates and Their Supporters Disappear on Vacation'' [Guiyang 
xuanju ri linjin, ge duli houxuanren he zhichizhe bei shizong luyou], 6 
November 11; ``Candidates Pressured Ahead of Poll,'' Radio Free Asia, 
21 October 11; Chinese Human Rights Defenders, ``Record of 13 Beijing 
Civic Election Candidates' Fifth Time in Promoting the Law'' [Beijing 
13 ming gongmin canxuanren xuanju pufa xuanchuan diwuzhan jishi], 2 
October 11.
    \83\ ``Directives From the Ministry of Truth: July 5-September 28, 
2011,'' China Digital Times, 20 October 11. Beijing propaganda 
authorities prohibited news about ``independent candidates'' or 
election workshops and Guangdong propaganda officials disallowed 
reports about ``independent candidate'' Liang Shuxin. Sharon 
LaFraniere, ``In China, Political Outsiders Turn to Microblog 
Campaigns,'' New York Times, 31 October 11. Beijing officials 
reportedly gave an order to media authorities to censor news of 
independent candidates. Chinese Human Rights Defenders, ``Fourteen 
Types of Repressive Tactics Suffered by China's Independent 
Candidates'' [Zhongguo duli canxuanren zaoyu de shisi zhong yazhi 
shouduan], 31 October 11. Officials in one location posted election 
signs and lists of candidates in concealed locations. ``Clampdown on 
Eve of Poll,'' Radio Free Asia, 7 November 11. Many candidates found 
their messages to voters on microblogs had been removed or their 
microblogs blocked.
    \84\ ``Democracy Candidates Barred From Beijing Elections,'' Voice 
of America, 8 November 11; Peter Foster, ``China Bars Democracy 
Activists From Elections,'' Telegraph, 7 November 11.
    \85\ Priscilla Jiao, ``Candidates Harassed As Voters Go to Polls,'' 
South China Morning Post, 9 November 11.
    \86\ ``Voters `Misled' at Polls,'' Agence France-Presse, reprinted 
in Radio Free Asia, 8 November 11; ``Sun Wenguang's Election Speech 
Repeatedly Suppressed, Fairness of NPC Elections Called Into Question'' 
[Sun wenguang canxuan yanjiang zao lianfan daya renda xuanju 
gongzhengxing shou zhiyi], 12 December 11; Chinese Human Rights 
Defenders, ``China Human Rights Briefing, November 8-14, 2011,'' 28 
November 11.
    \87\ Chinese Human Rights Defenders, ``Sun Wenguang: Not Allowed To 
Vote on Election Day'' [Sun wenguang: toupiaori bu de toupiao], 13 
December 11.
    \88\ ``Election Protest in Chengdu,'' Radio Free Asia, 21 November 
11; Chinese Human Rights Defenders, ``China Human Rights Briefing, 
February 28-March 5, 2012,'' 7 March 12.
    \89\ PRC Organic Law of the Villagers' Committees, issued and 
effective on 4 November 98, amended 28 October 10. According to Article 
2 of this amended law, a village committee is ``a mass organization of 
self-government at the grassroots level, in which villagers administer 
their own affairs, educate themselves and serve their own needs and in 
which elections are conducted, decisions adopted, administration 
maintained and supervision exercised by democratic means.'' ``A 
villagers' committee shall manage the public affairs and public welfare 
undertakings of the village, mediate disputes among villagers, help 
maintain the public order, and convey villagers' opinions and demands 
and make suggestions to the people's government. A villagers' committee 
shall be responsible and report to the villagers' assembly or the 
villagers' representatives' assembly.'' According to Article 4 of the 
amended law, the Party branches at the village level should play ``the 
core leading role'' [in village governance].
    \90\ Evan Osnos, ``Campaign 2012 With Chinese Characteristics,'' 
New Yorker, Letter From China Blog, 24 February 12; ``Wang Xubing: 
Research on Problems With Village Committee Democratic Elections'' 
[Wang xubing: cunmin weiyuanhui minzhu xuanju wenti yanjiu], China 
Reform, 14 March 12; ``Report Declares Guangzhou Village Grassroots 
Election Bribery Relatively Common'' [Baogao cheng guangzhou nongcun 
jiceng xuanju huixuan xianxiang jiao wei pubian], Southern Metropolitan 
Daily, reprinted in Xinhua, 18 October 11. According to the Southern 
Metropolitan Daily article, the Guangzhou Academy of Social Sciences 
conducted a report on village elections in Guangzhou that included a 
survey of vote buying. Researchers found that vote buying in village 
committee elections in the municipality was ``relatively common.''
    \91\ Wang Guoliang, ``Village Committee End-of-Term Elections 
Basically Complete'' [Cunweihui huanjie xuanju jiben wancheng], Anhui 
Daily, 4 November 11; Zhu Lei and Zhou Ran, ``Must Those Elected to 
Village Committees Be High School Graduates and Under 35? '' [Xuan 
cunwei bixu gaozhong xueli 35 sui yixia?], People's Daily, 10 October 
11 (Open Source Center, 11 October 11). According to the People's Daily 
article, in one case, candidates who had won preliminary elections in 
five villages were asked to step out of the races because they were 
over 35 or they were not high school graduates. A township official 
reportedly said that the decision was based on a document issued by 
higher level officials. An Anhui Provincial People's Congress official 
denied that the Congress had issued such a rule.
    \92\ Zhou Hucheng, ``Expert: Bribery Problems No Reason To Give Up 
on Village Democracy in China'' [Qing yi fazhan de yanguang kandai 
nongcun jiceng huixuan], Shanghai Dongfang Zaobao, 21 October 11 (Open 
Source Center, 21 October 11); Evan Osnos, ``Campaign 2012 With Chinese 
Characteristics,'' New Yorker, Letter From China Blog, 24 February 12.
    \93\ Chai Yanfei and Zhao Yejiao, ``220,000 Chinese University 
Students Sent Down as Village Officials in the Field Sowing the Seeds 
of the Future'' [Zhongguo 22 wan daxuesheng cunguan tianjian ditou 
bozhong weilai], China News Net, 14 December 11. For information on 
some areas that passed incentive measures to entice students to remain 
in villages as officials, see Liu Changjian, ``College Student Village 
Officials Can Participate in Village Committee Elections'' [Daxuesheng 
cunguan ke canjia cunweihui xuanju], Hebei Daily, 26 July 11.
    \94\ ``Promote Reforms and Expand Democracy, Guangxi's 2011 Village 
and Township Party Committee End-of-Term Elections Conclude'' [Tuijin 
gaige kuoda minzhu guangxi 2011 nian xiang zhen dangwei huanjie 
jieshu], Guangxi News Net, 21 July 11; CECC, 2011 Annual Report, 10 
October 11, 164.
    \95\ ``More Chinese Women Elected Village Cadres,'' Xinhua, 6 March 
12; Mao Cuixiang, ``Haidong Prefecture's County and Township People's 
Congress Delegate Term-Change Elections End Smoothly'' [Haidong diqu 
xian xiang renda daibiao xuanju gongzuo xunli wancheng], Qinghai Daily, 
reprinted in Qinghai News Net, 10 August 11; Zhang Yue, ``Women in Each 
Area Proactively Participate in `Two Committee' End-of-Term Elections'' 
[Gedi funu jiji canyu cun ``liangwei'' huanjie], Anhui News, 4 August 
11; Zhou Lin and Shen Zu, ``Elect New Teams, Produce New Vitality, 
Bring a New Attitude'' [Xuanchu xinbanze huanchu xin huoli daichu xin 
fengqi], Fujian Daily, 6 August 11.
    \96\ PRC Organic Law of the Villagers' Committees [Zhonghua renmin 
gongheguo cunmin weiyuanhui zuzhifa], issued and effective 4 November 
98, amended 28 October 10, art. 32; Tong Shuquan, ``Our City To 
Complete Construction of All 3,943 Village Affairs Supervision 
Committees by Year's End, Village Affairs Supervision Committees To 
Supervise Collective Economies'' [Benshi niandi wancheng quanbu 3943 ge 
cunwu jiandu weiyuanhui jianshe cunwu jiandu weiyuanhui jiang jiancha 
jiti jingji], Beijing Daily, 14 August 11; Hou Jing, ``Establish 
`Village Affairs Supervisory Committee' To Closely Watch Collective 
`Money Bags' '' [Sheli ``cun jianwei'' kanjin jiti ``qian daizi''], 
Sichuan Daily, 1 August 11.
    \97\ Xiao Zhitao, ``More Than 50,000 Cases of Misconduct or Illegal 
Behavior by Rural Village Grassroots Party Members and Cadres 
Investigated and Handled Nationally in 2011'' [2011 nian quanguo chachu 
nongcun jiceng dangyuan ganbu weiji weifa anjian chao 5 wan jian], 
China National Radio, reprinted in People's Daily, 6 January 12.
    \98\ Hou Jing, ``Establish `Village Affairs Supervisory Committee' 
To Closely Watch Collective `Money Bags' '' [Sheli ``cun jianwei'' 
kanjin jiti ``qian daizi''], Sichuan Daily, 1 August 11. News reports 
do not indicate how ``supervisory committees'' accomplished this goal.
    \99\ Malcolm Moore, ``Reassessing the Wukan `Revolution,' '' The 
World Today, Vol. 68, No. 3, April 2012.
    \100\ ``No Institutional Innovation in Wukan Election: Official,'' 
Xinhua, reprinted in China Internet Information Center, 6 March 12.
    \101\ PRC Organic Law of the Villagers' Committees (2010 Revision), 
28 October 10 (Open Source Center, 28 October 10).
    \102\ ``Wukan Self-Autonomy,'' Caijing, 26 February 12; ``Organic 
Law of the Villagers' Committees of the People's Republic of China 
(2010 Revision),'' Open Source Center, 28 October 10, art. 12. 
According to the Caijing article, the Wukan government reportedly 
wanted to choose the election committee as per Article 12(1) of the PRC 
Organic Law of the Villagers' Committees, which stipulates that the 
Villager Assembly, Village Representative Assembly, or Small Group 
meetings choose the members of the election committee. The villagers, 
however, wanted to use a different method, and they prevailed. The 
villagers directly nominated 100 villagers, a number reduced to 50 
candidates through a process not detailed in the news story. All 
eligible voters voted for the 11-member election committee through 
secret ballots at a Villager Assembly meeting on February 1. The 
villagers elected to be on the election committee could not also run 
for village committee positions, as is stipulated in Article 12(2) of 
the PRC Organic Law of the Villagers' Committees.
    \103\ ``31 Provincial-Level [Organizations] Proactively Disclose 
28,850,000 Government Information Items'' [31 ge shengji zhudong 
gongkai zhengfu xinxi 2885 wan duo tiao], Legal Daily, reprinted in 
Xinhua, 1 March 12. According to the Xinhua article, authorities set up 
100 county-level pilot projects experimenting with electronic access to 
open government affairs and government services. In addition, 
authorities further emphasized the construction of mechanisms to 
combine open government affairs and government services by continuing 
to build administrative service centers across the country at all 
levels. As of the end of 2011, authorities at provincial-level 
administrative areas had built 2,912 service centers; at the county 
level, they had built 2,534 centers; and at the township and street 
levels, they had built 30,377 centers. The story below points out, 
however, that in some cases, basic information about these centers and 
their services, such as their addresses, was not publicized. Wan Jing, 
``Survey Reveals: Administrative Examination and Approval in Nearly 70% 
of Government Departments Not Transparent'' [Diaocha xianshi: jin 
qicheng zhengfu bumen xingzheng shenpi bu touming], Legal Daily, 20 
February 12.
    \104\ ``Wen Jiabao Chairs Opening of State Council Standing 
Committee Meeting'' [Wen jiabao zhuchi zhaokai guowuyuan changwu 
huiyi], Xinhua, 18 April 12. In April, the State Council Standing 
Committee reiterated that disclosure of information should be a basic 
principle.
    \105\ Ren Hang, ``2011 Political Circle Corruption: Breakthroughs 
and Prospects'' [2011 Zhengtan fanfu: tupo yu zhanwang], People's Forum 
Political Forum Bi-Weekly, reprinted in Study Times, 7 February 12. 
Measures to improve the transparency of Party affairs included county 
Party committee transparency trial pilot projects in each provincial-
level area. Several provincial and city governments instituted measures 
to improve open government affairs and transparency at lower 
administrative levels. Liu Changjian, ``Our Province Plans Legislation 
To Establish Village Affairs Supervisory Organizations'' [Wosheng ni 
lifa jian cunwu jiandu jigou], Hebei Daily, 26 July 11 (Open Source 
Center, 26 July 11); Tang Qianhao, Ministry of Supervision, ``Guangxi 
Deepens Open Government Affairs and Elevates Grassroots Government 
Services'' [Guangxi shenhua zhengwu gongkai tisheng jiceng fuwu 
shuiping], 27 July 11; ``1,518 Towns and Villages in Jiangxi Province 
Practice Disclosure of Government Affairs'' [Jiangxisheng 1,518 ge 
xiangzhen quanbu shixing zhengwu gongkai], Jiangxi Daily, reprinted in 
People's Daily, 18 May 11; Xuan Wanming, ``Village Affairs `Basking in 
the Light,' `Household Property' Known for Thousands of Kilometers'' 
[Wangshang ``shai'' cunwu qianli zhi ``jiadi''], Anhui Daily, reprinted 
in Anhui News, 19 August 11.
    \106\ ``31 Provincial-Level [Organizations] Proactively Disclose 
28,850,000 Government Information Items'' [31 ge shengji zhudong 
gongkai zhengfu xinxi 2885 wan duo tiao], Legal Daily, reprinted in 
Xinhua, 1 March 12.
    \107\ Ibid.
    \108\ ``Supreme Court Presiding Judge: Half of All Publicized 
Lawsuit Cases Refused at Courts' Door'' [Zuigao fatingzhang: banshu 
xinxi gongkai susong'an bei fayuan ju zhi menwai], China Youth Daily, 
reprinted in Legal Daily, 28 November 11. When authorities released the 
measure for public comment, they reportedly received ``several 
hundred'' responses. The China Youth Daily article reported that many 
of the responses included questions regarding proposed Article 11, 
which outlined conditions under which information should not be 
disclosed.
    \109\ Ibid. The measure is titled ``Provisions Regarding Certain 
Questions in Trying Open Government Information Cases.''
    \110\ Lin Yunshi, ``Wen Jiabao: All Provincial-Level Governments To 
Disclose Official Information in `Three Areas' Within Two Years'' [Wen 
jiabao: shengji zhengfu liangnian nei quanmian gongkai ``sangong''], 
Caixin, 18 April 12.
    \111\ Office of the State Council, Circular Regarding the 
Distribution of the 2012 Open Government Information Key Work Plan 
[2012 zhengfu xinxi gongkai zhongdian gongzuo anpai], 28 April 12.
    \112\ US-China Business Council, ``China Regulatory Transparency 
Scorecard,'' updated April 2012, 3.
    \113\ Ibid., 4. The report measures rules and regulations in two 
ways using a narrow and a broad definition. Under the narrow 
definition, the State Council published 120 (73 percent) out of 164 
documents on its Web site. Authorities posted an additional 16 
documents (10 percent) on various other ministry Web sites. Less than 
half (77 documents) posted on these Web sites were posted for the full 
30-day period. Under the broad definition, the State Council published 
50 percent of documents (130 out of 259) on a designated State Council 
Legislative Affairs Office Web site and an additional 12 percent (31 
more documents) on various ministry Web sites. More than half of those 
posted were posted for the full 30 days (87 out of 161). These figures 
are an improvement over the last reporting period. More detailed 
information on compliance during the previous US-China Business Council 
reporting period may be found in the US-China Business Council, ``PRC 
Transparency Tracking,'' updated April 2011.
    \114\ Wan Jing, `` `China's Open Government Information Annual 
Report (2011)' Issued'' [``Zhongguo zhengfu toumingdu niandu baogao 
(2011)'' fabu], Legal Daily, 20 February 12. According to the Legal 
Daily article, the report titled ``Annual Report on Chinese Government 
Transparency (2011)'' (Zhongguo zhengfu toumingdu niandu baogao (2011)) 
features results from surveys sent to 59 national State Council 
departments, 26 provincial government departments, and 43 large city 
government departments.
    \115\ Ibid.
    \116\ Wan Jing, ``Survey Reveals: Formulation Processes for Over 
50% of Ministry and Commission Provisions Not Transparent'' [Diaocha 
xianshi: chao 5 cheng buwei guifanxing wenjian zhiding guocheng bu 
touming], Legal Daily, 20 February 12. The CASS report also found that 
the information provided regarding regulatory documents was not up to 
date.
    \117\ Zhao Yinan, ``Govt Bodies Flunk `Transparency' Test,'' China 
Daily, 29 September 11. According to the China Daily article, the 
Peking University's Center for Public Participation Studies and 
Supports issued the report based on a survey of 200 government 
departments based on 2010 information. The report also found that 
better information disclosure continued to be associated with higher 
levels of economic development.
    \118\ Zhang Lujing, ``Tsinghua Issued Report Saying Only 7 Out of 
81 City Governments Met Financial Transparency Requirements'' [Qinghua 
fabu baogao cheng 81 ge shi zhengfu caizheng toumingdu jin 7 ge jige], 
China Economic Weekly, reprinted in Phoenix Net, 12 June 12.
    \119\ Center for Public Participation Studies and Supports, Peking 
University, ``China Government Transparency Watch,'' Vol. 2, 29 
February 12, 7; Ng Tze-wei, ``Court Websites Fail Transparency Test,'' 
South China Morning Post, 1 March 12. According to the South China 
Morning Post, the study reportedly examined Web site transparency 
related to the following issues: The staff and administrative structure 
of the court, litigation guidelines, news about trials and court 
judgments, judgment enforcement actions, and general information about 
the court's work. According to the same article, 26 provincial-level 
higher court and 43 city-level intermediate court Web sites ``lagged'' 
behind government department Web sites. ``The study reportedly found 
that only 1/5 of the courts disclosed information on enforcement 
actions or provided information about court judgments.''
    \120\ Wan Jing, `` `China's Open Government Information Annual 
Report (2011)' Issued'' [``Zhongguo zhengfu toumingdu niandu baogao 
(2011)'' fabu], Legal Daily, 20 February 12.
    \121\ Liao Shuinan, ``How Many `Internal Documents' Will Never See 
the Light? '' [You duoxiao ``neibu wenjian'' buneng jianguang], 
Shenzhen Commercial News, 6 January 12.
    \122\ Lei Cheng, ``An Environmental Organization Open Information 
Request Regarding Financials for Yunnan Company Involved in Cadmium 
Pollution Refused'' [Huanbao zuzhi shenqing gongkai yunnan ge wuran 
qiye rongzi xinxi bei ju], China Youth Daily, 17 February 12. According 
to this article, two government organizations and a bank refused to 
grant the OGI request filed by an environmental group about lending to 
the company linked to the dumping case.
    \123\ Yao Jianli, ``Report Finds That the Degree of Governmental 
Financial Transparency Depends a Great Deal on Promotional Efforts of 
Higher Level Governments'' [Baogao renwei caizheng toumingdu gaodi 
henda chengdushang qujue yu shangji zhengfu tuidong lidu], 21st Century 
Business Herald, 30 May 12.
    \124\ Lei Cheng, ``An Environmental Organization Open Information 
Request Regarding Financials for Yunnan Company Involved in Cadmium 
Pollution Refused'' [Huanbao zuzhi shenqing gongkai yunnan ge wuran 
qiye rongzi xinxi bei ju], China Youth Daily, 17 February 12.
    \125\ Wan Jing, `` `China's Open Government Information Annual 
Report (2011)' Issued'' [``Zhongguo zhengfu toumingdu niandu baogao 
(2011)'' fabu], Legal Daily, 20 February 12.
    \126\ Chinese Human Rights Defenders, ``Public Government 
Information Considered Irrelevant, Nantong City Planning Department 
Loses First Trial Case'' [Zhengfu xinxi gongkai wen buduiti, nantongshi 
guihuaju yishen baisu], 16 December 11. In this example, in December 
the Chongchuan District People's Intermediate Court in Nantong city, 
Jiangsu province, ruled in favor of resident Hu Suixiang, who filed an 
open government information request about land development plans and 
approvals to the city planning bureau, which denied his request.
    \127\ Will Clem, ``Open Information Law Will Be Overhauled, Judge 
Says,'' South China Morning Post, 29 November 11. Courts reportedly 
``refused to handle'' 30 percent of the cases and just turned down 
others before they got to court.
    \128\ Wen Jiabao, ``Make Authority Operate in the Light'' [Rang 
quanli zai yangguang xia yunxing], Seeking Truth, 16 April 12, 3. Wen 
Jiabao noted that, to improve governance, local officials should not 
use ``red letter documents'' (local official documents) to impose 
additional responsibilities or duties on citizens, enterprises, or 
other social groups not included in national laws.
    \129\ ``Survey Regarding Village Collective `Three Resources' 
Management'' [Guanyu nongcun jiti ``sanzi'' guanli de diaoyan], China 
Discipline Inspection Press, 26 September 11 (Open Source Center, 13 
December 11). According to the China Discipline Inspection Press 
article, Sichuan provincial authorities conducted surveys of village 
finances and collectively owned funds and resources and made 
suggestions about how to introduce more financial accountability. 
``Jiangxi: Carry Out Village Committee Members' End-of-Term Economic 
Responsibility Audits'' [Jiangxi: cunweihui chengyuan renqi liren 
tuixing jingji zeren shenji], People's Daily, 10 October 11 (Open 
Source Center, 13 December 11); Mai Zhengwei, ``Conduct Economic 
Responsibility Audits of Outgoing Village (Residents') Committee 
Members'' [Dui cun (ju) weihui chengyuan jinxing liren jingji zeren 
shenji], Tibet Daily, 9 October 11 (Open Source Center, 13 December 
11). According to the People's Daily and Tibet Daily articles, at least 
two provinces introduced mid- and end-of-term auditing practices for 
officials to evaluate an official's management of village finances and 
transparency of village affairs. Zhu Zhang'an, ``Hengshan `Village 
Officials' Compete To Fulfill Election Promises'' [Hengshan ``cunguan'' 
jingxiang duixian jingxuan chengnuo], Hunan Daily, 16 August 11. In 
several locations, authorities established ``top-down'' mechanisms to 
supervise and evaluate village Party and village committee candidate 
election pledges.
    \130\ ``There Is a Chance That Administrative Procedure Law 
Revisions Will Be Included in Next Year's Legislative Plan'' [Xingzheng 
susongfa xiugai youwang lieru mingnian lifa jihua], Xinhua, reprinted 
in China News Net, 31 December 11.
    \131\ PRC Administrative Procedure Law [Zhonghua renmin gongheguo 
xingzheng susong fa], adopted 4 April 89, effective 1 October 90, art. 
2; Zhang Wei, ``Scholar Says Administrative Procedure Lawsuits Scope 
Too Narrow, Needs Substantial Revision'' [Xuezhe cheng xingzheng 
susongfa shouan fanwei guozhai xuyao dafudu xiugai], Legal Daily, 
reprinted in China News Net, 4 May 11; Jiang Ming'an, ``Commentary 
Analyzing Six Major Unresolved Problems in Administrative Procedure Law 
Revisions'' [Pinglun xi xingzheng susongfa xiugai liu da nanti daijie], 
Legal Daily, reprinted in China News Net, 30 November 11.
    \132\ ``China To Address Social Problems in Rural Areas,'' Xinhua, 
28 February 12.
    \133\ Michael Wines, ``A Village in Revolt Could Be a Harbinger for 
China,'' New York Times, 25 December 11.
    \134\ ``Pay Attention to Grassroots Governance: Move Away From 
Errors of `Selective Governance' '' [Guanzhu jiceng zhili: zouchu 
``xuanzexing zhili'' wuqu], Xinhua, 27 October 11.
    \135\ Human Rights Watch, `` `Beat Him, Take Everything Away': 
Abuses by China's Chengguan Para-Police,'' 23 May 12, 2.
    \136\ Ibid., 2, 4.
    \137\ Ibid., 9, 41-43.
    \138\ ``Newspaper Lashes Out at Political `Falsehoods,' '' Xinhua, 
13 February 12.
    \139\ Communist Party Central Committee General Affairs Office, 
Party and Government Leading Cadres Selection and Appointment Work 
Responsibility Investigation Measure (Provisional) [Dangzheng lingdao 
ganbu xuanbo renyong gongzuo zeren zhuijiu banfa (shixing)], issued 31 
March 10; Office of the Party Central Committee, Office of the State 
Council, Provisional Measure Regarding Carrying Out Party and 
Government Leading Cadre Accountability [Guanyu shixing dangzheng 
lingdao ganbu wenze de zhanxing guiding], issued and effective 12 July 
09, art. 10. The measure indicates that a dismissed Party or government 
leading cadre cannot resume a post with the equivalent of his former 
duties for a period of one year. It does not indicate if or when a 
dismissed official may assume a different post with different duties.
    \140\ Chen Xiao, ``Scholars Claim Almost 100% of Officials Held 
Accountable Resume Office, Seems Like Removed Officials Are on Paid 
Leave'' [Xuezhe cheng wenti guanyuan jihu 100% fuchu mianzhi ru tong 
daixin xiujia], Legal Daily, 14 December 11; ``Why Can't Investigations 
of Officials `Get to the Bottom?' Improve Official Responsibility 
System'' [Weihe guanyuan zhuize ``bujiandi''? wanshan dui guanyuan de 
zhuize zhidu], Southern Metropolitan Daily, 30 December 11. According 
to the Southern Metropolitan Daily article, the scope of the 
responsibility system is not wide enough to be able to take action 
against officials who direct a lower level official to take the fall 
for them with the promise of a higher level position at a later time. 
`` `Officials Removed From Posts Resume Duties': Accountability Should 
Not Be `Facetious Forthrightness' '' [``Mianzhi guanyuan fuchu'' wenze 
bu yao ``wei haoshuang''], China Youth Daily, 7 December 11; ``Several 
Officials Who Are Held Accountable and Punished for the Sanlu Incident 
Resume Duties or Are Promoted'' [Duo ming yin sanlu shijian shouchu 
guanyuan fuchu huo bei tibo], Chongqing Evening News, reprinted in 
People's Daily, 28 December 09; ``Revelation: Official Accountability 
Is Not `On Leave Treatment' '' [Qiyue: guanyuan wenze bushi ``xiujiashi 
zhiliao''], Economic Monitor Net, 11 February 12; ``Luoyang 
Environmental Official Removed From Post Because of Pollution Incident 
Resumes Office Within Two Months'' [Luoyang huanbao guanyuan yin wuran 
shijian ting zhi bu zu liang yue fuchu], Dahe Net, 16 February 12; 
``Officials Who Are Held Accountable and Then Resume Their Duties 
Generate Debate'' [Bei wenze guanyuan fuchu yinfa zhengyi], Sichuan 
Legal Bulletin, 11 December 11. ``Incidents in Which Officials Were 
Found Accountable and Then Quietly Resumed Office Have Occurred One 
After Another, Scholars Say It Is Harmful to Popular Sentiment'' [Wenze 
guanyuan xiaoran fuchu shijian pinfa xuezhe cheng shangle minxin], 
Zhejiang Daily, reprinted in China News Net, 5 January 12.
    \141\ Chen Xiao, ``Scholars Claim Almost 100% of Officials Held 
Accountable Resume Office, Seems Like Removed Officials Are on Paid 
Leave'' [Xuezhe cheng wenti guanyuan jihu 100% fuchu mianzhi ru tong 
daixin xiujia], Legal Daily, 14 December 11. The Legal Daily article 
argues there are no clear criteria stipulating when a dismissed 
official may resume duties in the civil service.
    \142\ Ibid.; `` `Officials Removed From Posts Resume Duties': 
Accountability Should Not Be `Facetious Forthrightness' '' [``Mianzhi 
guanyuan fuchu'' wenze bu yao ``wei haoshuang''], China Youth Daily, 7 
December 11; ``Unscathed by Scandals, Official Promoted,'' Caixin, 18 
April 12. According to the Caixin article, in one case, a citizen noted 
that Meng Xuenong, who was dismissed first for his role in the coverup 
of the 2003 SARS epidemic and a second time for covering up news of 
mudslides in Shanxi in 2008, obtained a position on a committee under 
the Party Central Committee that is responsible for the management of 
Party officials and grassroots organizations nationally. Also see, 
e.g., ``Several Officials Who Are Held Accountable and Punished for the 
Sanlu Incident Resume Duties or Are Promoted'' [Duo ming yin sanlu 
shijian shouchu guanyuan fuchu huo bei tibo], Chongqing Evening News, 
reprinted in People's Daily, 28 December 09; ``Luoyang Environmental 
Official Removed From Post Because of Pollution Incident Resumes Office 
Within Two Months'' [Luoyang huanbao guanyuan yin wuran shijian ting 
zhi bu zu liang yue fuchu], Dahe Net, 16 February 12; ``Officials Who 
Are Held Accountable and Then Resume Their Duties Generate Debate'' 
[Bei wenze guanyuan fuchu yinfa zhengyi], Sichuan Legal Bulletin, 11 
December 11; ``Incidents in Which Officials Were Found Accountable and 
Then Quietly Resumed Office Have Occurred One After Another, Scholars 
Say It Is Harmful to Popular Sentiment'' [Wenze guanyuan xiaoran fuchu 
shijian pinfa xuezhe cheng shangle minxin], Zhejiang Daily, reprinted 
in China News Net, 5 January 12.
    \143\ ``First Instance Verdict Announced in Case of Wang Lijun 
Bending the Law for Selfish Ends, Defecting, Abusing One's Power, and 
Accepting Bribes'' [Wang lijun xunsi wangfa, pantao, lanyong zhiquan, 
shouhui an yishen xuanpan], Xinhua, 24 September 12.
    \144\ ``In Accordance With the Law Wang Lijun Indicted for Bending 
the Law for Selfish Ends, Defection, Abuse of Power, and Accepting 
Bribes'' [Wang lijun xunsiwangfa, pantao, lanyong zhiquan shouhui an 
yifa tiqi gongsu], Xinhua, 5 September 12; Jeremy Page, ``Police Chief 
in Bo Scandal Faces Charges in Chengdu,'' Wall Street Journal, 6 
September 12; Ian Johnson and Jonathan Ansfield, ``Key Figure in 
Scandal That Felled Bo Xilai Is Charged,'' New York Times, 6 September 
12.
    \145\ ``The Dignity of the Law Cannot Be Easily Trampled--
Eyewitness Account of the Trial of Bogu Kailai and Zhang Xiaojun for 
Suspected Intentional Homicide'' [Falu de zunyan burong jianta--bogu 
kailai, zhang xiaojun shexian guyi sharen an tingshen jishi], Xinhua, 
reprinted in People's Daily, 10 August 12; ``Bogu Kailai Sentenced to 
Death With Reprieve,'' China Daily, 21 August 12. The China Daily 
article also contains information on the sentences of public security 
officers involved in covering up the case. Yuan Yuan, ``A Gripping 
Murder Case: Bogu Kailai Confesses to Murder,'' Beijing Review, 21 
August 12.
    \146\ ``Beijing Blocks Online Talk of Gu Case,'' Agence France-
Presse, reprinted in South China Morning Post, 27 July 12.
    \147\ Christina Larson, ``China's Fishy Show Trial,'' Foreign 
Policy, 20 August 12; Yanzhong Huang, ``Gu Kailai Trial: Drama Ended? 
'' Council on Foreign Relations, 20 August 12; Andrew Jacobs, ``China 
Defers Death Penalty for Disgraced Official's Wife,'' New York Times, 
20 August 12. According to the New York Times article, Bogu's family 
asserted authorities forced her to accept government-appointed lawyers.
    \148\ Christina Larson, ``China's Fishy Show Trial,'' Foreign 
Policy, 20 August 12; Ho Pin, ``A Chinese Murder Mystery, Far From 
Solved,'' New York Times, 15 August 12; Yanzhong Huang, ``Gu Kailai 
Trial: Drama Ended? '' Council on Foreign Relations, 20 August 12; 
``Chinese Politics on Trial,'' Wall Street Journal, 20 August 12.
    \149\ Andrew Jacobs, ``China Defers Death Penalty for Disgraced 
Official's Wife,'' New York Times, 20 August 12; Andrew Jacobs, ``In 
China, Gu Kailai's Reprieve Reinforces Cynicism,'' New York Times, 20 
August 12.
    \150\ ``Chongqing Municipal Party Committee Alters Principal 
Comrade in Charge'' [Chongqing shiwei zhuyao fuze tongzhi zhiwu 
tiaozheng], Xinhua, 15 March 12.
    \151\ ``Exclusive Release: Chinese Communist Party Central 
Authorities To Investigate Bo Xilai for Serious Discipline Violations'' 
[Shouquan fabu: zhonggong zhongyang jueding dui bo xilai tongzhi 
yanzhong weiji wenti li'an diaocha], Xinhua, 10 April 12.
    \152\ ``Chinese Communist Party Central Committee Decides To Expel 
Bo Xilai From the Party, Discharge Him From His Public Offices, and 
Take Disciplinary Action'' [Zhonggong zhongyang jueding jiyu bo xilai 
kaichu dangji, kaichu gongzhi chufen], Xinhua, 28 September 12. ``Bo 
Xilai Expelled From CPC, Public Office,'' Xinhua, 28 September 12. 
According to the Xinhua articles, authorities suspect that Bo abused 
his power in relation to the Wang Lijun and Bogu Kailai cases, used his 
office to profit others, accepted bribes, ``violated organizational and 
personal discipline,'' and had ``improper sexual relationships'' with 
women, among other crimes.
    \153\ ``Firmly Uphold Correct Decision of the Party Central 
Committee'' [Jianjue yonghu dang zhongyang de zhengque jueding], 
Xinhua, reprinted in Sina, 11 April 12; ``Rule of Law, Purity of Party 
Highlighted in Handling Bo's Case,'' Xinhua, 16 April 12.
    \154\ ``People's Daily Commentator: Firmly Uphold Correct Decision 
of the Party Central Committee'' [Renmin ribao pinglunyuan: jianjue 
yonghu dang zhongyang de zhengque jueding], People's Daily, 11 April 
12; ``Chongqing Residents From All Walks of Life Firmly Support the 
Decision of the Central Party'' [Chongqing gejie biaoshi jianjue yonghu 
dang zhongyang zhengque jueding], Xinhua, reprinted in Caijing, 11 
April 12; ``Cadres and the Public Across the Country Believe the 
Central Decision Reflects Strict Administration of the Party and Firm 
Determination To Adhere to Rule of Law'' [Gedi ganbu chunzhong renwei, 
zhongyang jueding tixianle cong yan zhidang, yi fazhi guo de jueding 
juexin], Caixin, 11 April 12.
    \155\ ``People's Daily Calls for Stability After Bo's Case 
Exposed,'' Xinhua, 12 April 12; Teddy Ng, ``PLA Is Target of Bo Media 
Blitz,'' South China Morning Post, 17 April 12; ``Be Highly Conscious 
of Political Discussion and Consider Overall Observance of Discipline'' 
[Gaodu zijuede jiangzhengzhi gu daju shou jilu], People's Liberation 
Army Daily, reprinted in People's Daily, 27 March 12.
    \156\ Wen Jiabao, ``Make Authority Operate in the Light'' [Rang 
quanli zai yangguang xia yunxing], Seeking Truth, 16 April 12.
    \157\ ``Premier Wen Promises Improved Administrative 
Transparency,'' Xinhua, 26 March 12.
    \158\ Wen Jiabao, ``Make Authority Operate in the Light'' [Rang 
quanli zai yangguang xia yunxing], Seeking Truth, 16 April 12.
    \159\ ``A Number of Provinces Establish Corruption Prevention 
Bureaus; Anticorruption Legislation Has Become a Priority in China'' 
[Duo sheng chengli yufang fubai ju zhongguo fanfu lifa yicheng dangwu 
zhiji], Southern Metropolitan Daily, reprinted in Xinhua, 11 October 
11.
    \160\ ``China Launches Anti-Corruption Campaign Targeting Rural 
Development,'' Xinhua, 22 February 12.
    \161\ Becky Koblitz and James M. Zimmerman, ``China Corruption & 
White Collar Crimes Watch: China Strengthens Supervision Over Civil 
Servants,'' Martindale, 8 March 12.
    \162\ `` `Citizen Watch' Founder Guo Yongfeng Without Freedom After 
Release'' [``Gongmin jianzheng'' faqizhe guo yongfeng huoshi hou reng 
wu ziyou], Deutsche Welle, 5 September 11; Chinese Human Rights 
Defenders, ``Shenzhen Dissident Guo Yongfeng Is Harassed and Threatened 
by National Security Forces'' [Shenzhen yijian renshi guo yongfeng bei 
guobao saorao weixie], 17 January 12.
    \163\ Chinese Human Rights Defenders, ``China Human Rights Briefing 
June 12-19, 2012,'' 20 June 12.
    \164\ Tibetan Centre for Human Rights and Democracy, ``Tibetans 
Beaten, Arrested for Protesting Official Corruption,'' 17 April 12. 
``Villagers Attacked for Protesting Graft,'' Radio Free Asia, 17 April 
12.
    \165\ ``Sichuan Officials Suspected of Gobbling Up Relief Donations 
Trigger Demonstration by Nearly 1,000 People'' [Sichuan guanyuan yi tun 
shankuan yinfa jin qian ren shiwei], Radio Free Asia, 26 April 12.
    \166\ David Bandurski, ``No Power for Media, No Power for 
Citizens,'' China Media Project, 3 July 12.
    Notes to Section III--Commercial Rule of Law

    \1\ China became a member of the World Trade Organization (WTO) on 
December 11, 2001. A list of members and their dates of membership is 
available on the WTO Web site.
    \2\ A complete and up-to-date compilation of information on China's 
participation in the World Trade Organization (WTO), including 
principal accession documents (Working Party Report, Protocol of 
Accession, General Counsel decision), schedules, trade policy reviews, 
and dispute case documents can be found on the WTO Web site. China's 
commitments are outlined in these documents, as well as in those WTO 
agreements that are applicable to all members, such as the General 
Agreement on Tariffs and Trade (GATT 1947) and the Trade-Related 
Aspects of Intellectual Property Rights (TRIPS).
    \3\ WTO: Will China Keep Its Promises? Can It? Hearing of the 
Congressional-Executive Commission on China, 6 June 02, Testimony of 
Grant D. Aldonas, Under Secretary of Commerce for International Trade.
    \4\ Doug Palmer, ``China Drift Toward More State Control 
`Troubling': U.S.,'' Reuters, 30 November 11; Stanley Lubman, ``China's 
State Capitalism: The Real World Implications,'' Wall Street Journal, 1 
March 12.
    \5\ Office of the United States Trade Representative, ``2011 Report 
to Congress on China's WTO Compliance,'' December 2011, 2.
    \6\ Ibid., 60-61.
    \7\ Ibid., 61, citing State Council, Guiding Opinions on Promoting 
the Adjustment of State-Owned Assets and Restructuring of State-Owned 
Enterprises. State Council Guiding Opinions on Promoting the Adjustment 
of State-Owned Assets and Restructuring of State-Owned Enterprises 
[Guanyu tuijin guoyou ziben tiaozheng he guoyou qiye chongzu de zhidao 
yijian], issued 5 December 06. For information on the seven strategic 
sectors, see also, ``China Defines Key National Economic Sectors,'' 
Xinhua, reprinted in PRC Central People's Government, 18 December 06.
    \8\ Derek Scissors, Heritage Foundation, ``The Facts About China's 
Currency, Chinese Subsidies, and American Jobs,'' 4 October 11.
    \9\ Office of the United States Trade Representative, ``2011 Report 
to Congress on China's WTO Compliance,'' December 2011, 2.
    \10\ U.S. Department of Commerce, ``22nd U.S.-China Joint 
Commission on Commerce and Trade Fact Sheet,'' 21 November 11. 
``Strategic, newly-emerging industries'' include ``high-end equipment 
manufacturing, energy-saving and environmentally-friendly technologies, 
biotechnologies, new generation information technologies, alternative 
energy, advanced materials and new energy vehicles.''
    \11\ World Trade Organization, Report of the Working Party on the 
Accession of China, WT/ACC.CHN/49, 1 October 01, para. 46.
    \12\ Office of the United States Trade Representative, ``2011 
Report to Congress on China's WTO Compliance,'' December 2011, 60.
    \13\ World Bank and State Council Development Research Center, 
``China 2030: Building a Modern, Harmonious, and Creative High-Income 
Society,'' World Bank (2012), xv.
    \14\ ``Shattering the Facade,'' Economist, 14 April 12.
    \15\ See, e.g., Office of the United States Trade Representative, 
``2011 Report to Congress on China's WTO Compliance,'' December 2011, 
60, for a discussion of China's WTO obligations and the Chinese 
government's intervention in the activities of the state-owned and 
state-invested enterprises.
    \16\ World Bank and State Council Development Research Center, 
``China 2030: Building a Modern, Harmonious, and Creative High-Income 
Society,'' World Bank (2012), xv.
    \17\ Ibid., xvi, 27.
    \18\ Gao Liang, ``Confidently Have Larger and Stronger SOEs'' 
[Lizhi qi zhuang de zuoda zuoqiang guoyou qiye], Red Flag, 26 March 12; 
Qian Jin, ``The Key to Reform Is To Distinguish State-Owned Enterprises 
From Public Enterprises'' [Gaige de guanjian shi qufen guoyou qiye yu 
gongying qiye], Seeking Truth, 30 March 12. See also ``Establish a 
Modern State-Owned Enterprise System With Chinese Characteristics'' 
[Goujian zhongguo tese xiandai guoyou qiye zhidu], Study Times, 26 
March 12.
    \19\ Teddy Ng, ``Push To Privatise SOEs `a Foreign Plot,' '' South 
China Morning Post, 11 April 12.
    \20\ See, e.g., Mark MacKinnon, ``Bo's Fall a Victory for China's 
Reformers,'' Globe and Mail, 21 April 12.
    \21\ ``Authorized Release: CPC Central Committee To File Case To 
Investigate the Issue of Comrade Bo Xilai's Serious Violations'' 
[Shouquan fabu: zhonggong zhongyang jueding dui bo xilai tongzhi 
yanzhong weiji wenti li'an diaocha], Xinhua, 10 April 12.
    \22\ ``Shattering the Facade,'' Economist, 14 April 12. See also 
Evan Osnos, ``China's Crisis,'' New Yorker, 30 April 12.
    \23\ State Council, Several Opinions To Encourage and Guide the 
Healthy Development of Private Investment [Guowuyuan guanyu guli he 
yindao minjian touzi jiankang fazhan de ruogan yijian], 7 May 10. See 
also State Council General Office, Circular on the Division of Work on 
Important Tasks in Encouraging and Guiding the Healthy Development of 
Private Investment [Guowuyuan bangongting guanyu guli he yindao minjian 
touzi jiankang fazhan zhongdian gongzuo fengong de tongzhi], 22 July 
10.
    \24\ ``Wen Jiabao Chairs Forum To Listen to Opinions and Proposals 
From People From All Walks of Life Concerning the Government's Work 
Report'' [Wen jiabao zhuchi zhaokai zuotanhui tingqu ge shi renshi dui 
zhengfu gongzuo baogao yijian he jianyi], Xinhua, 12 February 12; Zhong 
Jingjing, ``National Development and Reform Commission Requests 
Publication of Detailed Implementing Rules and Regulations on Private 
Investment During the First Half of the Year'' [Fagaiwei yaoqiu 
shangban nian chutai minjian touzi shishi xize], Beijing News, 
reprinted in People's Daily, 22 February 12.
    \25\ National Development and Reform Commission, Compilation of 
Detailed Implementing Rules and Regulations on Encouraging the 
Development of Private Investment [Guli minjian touzi fazhan shishi 
xize wenjian huibian], 27 July 12.
    \26\ Commission interview with senior official from the U.S. 
Department of Commerce.
    \27\ ``At the Opening Ceremony of the Sixth Summer Davos Economic 
Forum, Wen Jiabao Answers Questions at Roundtable with Business 
Executives'' [Wen jiabao zai di liu jie xiaji dawosi luntan kaimushi he 
qiyejia zuotanhui shang dawen], Xinhua, 11 September 12.
    \28\ Laurie Burkitt and Loretta Chao, ``Chinese Clarify Rules To 
Challenge Monopolies,'' Wall Street Journal, 9 May 12; Supreme People's 
Court, Provisions Regarding Several Questions on Applicable Law for 
Hearing Civil Suits Concerning Monopolistic Conduct [Zuigao renmin 
fayuan guanyu shenli yin longduan xingwei yinfa de minshi jiufen anjian 
yingyong falu ruogan wenti de guiding], issued 3 May 12, effective 1 
June 12, art. 9. For a discussion of the rules, see ``Chinese Supreme 
People's Court Sets Framework for Antitrust Litigation,'' Jones Day 
Client Alert, 8 May 12. Article 17 of China's Antimonopoly Law defines 
dominant market position as ``a market position held by a business 
operator having the capacity to control the price, quantity or other 
trading conditions of commodities in relevant market, or to hinder or 
affect any other business operator to enter the relevant market.'' PRC 
Antimonopoly Law [Zhonghua renmin gongheguo fan longduan fa], issued 30 
August 07, effective 1 August 08, art. 17.
    \29\ For a discussion of foreign investment in China, see James M. 
Zimmerman, China Law Deskbook (Chicago: American Bar Association, 
2010), Volume I, Chapter 4, with a detailed discussion of the approval 
process on 137 to 144. For an example of policy guidance of foreign 
investment, see, e.g., State Council, Several Opinions on Further 
Improving the Work of Using Foreign Investment [Guowuyuan guanyu 
jinyibu zuohao liyong waizi gongzuo de ruogan yijian], issued 6 April 
10, and ``China Revises Foreign Investment Guidance Catalogue,'' CECC 
China Human Rights and Rule of Law Update, No. 2, 18 May 12.
    \30\ Ministry of Commerce, ``Mission,'' 7 December 10; National 
Development and Reform Commission, ``Main Functions of the NDRC,'' last 
visited 9 September 11.
    \31\ National Development and Reform Commission and Ministry of 
Commerce, ``Foreign Investment Guidance Catalogue (2011 Revision)'' 
[Waishang touzi chanye zhidao mulu (2011 nian xiuding)], issued 24 
December 11, effective 30 January 12.
    \32\ Lester Ross, Robert Woll, and Kenneth Zhou, ``China Releases 
New Foreign Investment Catalogue,'' Wilmer Hale, 12 January 12; ``China 
Revises Foreign Investment Guidance Catalogue,'' CECC China Human 
Rights and Rule of Law Update, No. 2, 18 May 12.
    \33\ National Development and Reform Commission, ``Relevant 
Official From the National Development and Reform Commission Answers 
Questions on the `Foreign Investment Guidance Catalogue (2011 
Revision)' '' [Guojia fazhan gaige wei youguan fuze ren jiu ``waishang 
touzi chanye zhidao mulu (2011 nian xiuding)'' da jizhe wen], 17 
January 12.
    \34\ Ibid. See also CECC, 2011 Annual Report, 10 October 11, 178, 
and ``China Revises Foreign Investment Guidance Catalogue,'' CECC China 
Human Rights and Rule of Law Update, No. 2, 18 May 12.
    \35\ Han Tianyang, ``Foreign Auto Investment No Longer 
`Encouraged,' '' China Daily, 9 January 12; National Development and 
Reform Commission, ``Relevant Official From the National Development 
and Reform Commission Answers Questions on the `Foreign Investment 
Guidance Catalogue (2011 Revision)' '' [Guojia fazhan gaige wei youguan 
fuze ren jiu ``waishang touzi chanye zhidao mulu (2011 nian xiuding)'' 
da jizhe wen], 17 January 12; Sharon Terlep, ``Car Makers Gauge Shift 
in China's Auto Policy,'' Wall Street Journal, 6 January 12. Foreign 
invested enterprises in the encouraged category are eligible for tax 
incentives, as well as other benefits. See Lester Ross, Robert Woll, 
and Kenneth Zhou, ``China Releases New Foreign Investment Catalogue 
(2011),'' Wilmer Hale, 12 January 12, which also discusses the removal 
of automobile manufacturing from the encouraged category.
    \36\ AmCham China, ``2012 China Business Climate Survey Report,'' 
(2012), 15. 2011 was the first year AmCham China included questions 
concerning licensing in its business climate survey. In 2011, 35 
percent responded to a related question that the awarding of licenses 
had become more onerous. AmCham China, ``2011 China Business Climate 
Survey,'' (2011), 16, 18.
    \37\ American Chamber of Commerce in China, American Business in 
China 2012 White Paper (2012), 10.
    \38\ Ibid.
    \39\ John Bussey, ``U.S. Attacks China Inc.,'' Wall Street Journal, 
3 February 12. Concerning retaliation against foreign investors in 
China in general, see ``Bryson Says Auto Parts Companies' Reticence To 
Fight China Hinders Trade Action,'' World Trade Online, 28 March 12; 
``USTR Seeks Info From Manufacturers on Forced Technology Transfer to 
China,'' China Trade Extra, 31 January 12; and Keith Bradsher, ``Trade 
War in Solar Takes Shape,'' New York Times, 9 November 11.
    \40\ John Bussey, ``U.S. Attacks China Inc.,'' Wall Street Journal, 
3 February 12.
    \41\ For a discussion of China's outbound investment approval 
system, see CECC, 2011 Annual Report, 178-79.
    \42\ See, e.g., ``Chinese Enterprises' Overseas Investments Lack 
Risk Management, and Even More Lack Overall Strategy'' [Zhongqi haiwai 
touzi que fengxian guanli geng que quanju zhanlue], China Review News, 
14 April 12.
    \43\ For information on the Wenzhou outbound investment program, 
see Kevin Yao, ``China May Allow More Overseas Investment: Central Bank 
Head,'' Reuters, 3 April 12.
    \44\ State-Owned Assets Supervision and Administration Commission, 
Provisional Measures on Monitoring the Overseas Assets of Central-Level 
Enterprises [Zhongyang qiye jingwai guoyou zichan jiandu guanli zanxing 
banfa], issued 14 June 11, effective 1 July 11; State-Owned Assets 
Supervision and Administration Commission, Provisional Measures on 
Administering Overseas State-Owned Assets of Central-Level Enterprises 
[Zhongyang qiye jingwai guoyou chanquan guanli zanxing banfa], issued 
14 June 11, effective 1 July 11. See also ``Central-Level State-Owned 
Enterprises Lost 4 Trillion Yuan Worth of Overseas Assets, the State-
Owned Assets Supervision and Administration Commission Increases 
Supervision'' [Yang qi siwanyi haiwai zichan pinfan xian ju kui 
guoziwei huoxian du lou], Sohu, 8 December 10.
    \45\ State-Owned Assets Supervision and Administration Commission, 
Provisional Measures on Supervising and Managing Overseas Investments 
of Central-Level State-Owned Enterprises [Guoziwei fabu zhongyang qiye 
jingwai touzi jiandu guanli zanxing banfa], PRC Central People's 
Government, 11 April 12. See also ``China Enterprises' Overseas 
Investments Lack Risk Management, and Even More Lack Overall Strategy'' 
[Zhongqi haiwai touzi que fengxian guanli geng que quanju zhanlue], 
China Review News, 14 April 12; State-Owned Assets Supervision and 
Administration Commission, ``State-Owned Assets Supervision and 
Administration Commission Announces `Tentative Measures on Supervision 
and Management of Central-Level State-Owned Enterprises' Foreign 
Investments'' [Guowuyuan guoziwei gongbu ``zhongyang qiye jingwai touzi 
jiandu guanli zanxing banfa''], 11 April 12; Bao Chang, ``New Rules for 
Overseas Deals,'' China Daily, 12 April 12.
    \46\ Ministry of Commerce, ``MOFCOM Issues `Guidebook on Safety of 
Chinese Overseas Entities and Personnel' '' [Shangwubu fabu ``jingwai 
zhong zi qiye jigou he renyuan anquan guanli zhinan''], 10 February 12; 
``Rapid Growth in Outbound Investment by Chinese Companies, Overseas 
Mergers and Acquisitions Are Noteworthy'' [Zhongguo qiye duiwai touzi 
zengzhang xunmeng haiwai bing gou biaoxian qiangyan], China Economic 
Net, 1 March 12.
    \47\ ``China To Introduce First Overseas Investment Law,'' Caijing, 
20 April 12.
    \48\ See, e.g., National People's Congress, PRC Outline of the 12th 
Five-Year Plan on National Economic and Social Development [Zhonghua 
renmin gongheguo guomin jingji he shehui fazhan di shier ge wunian 
guihua gangyao], passed 14 March 11, issued 16 March 11, chap. 52, sec. 
2., outlining in broad terms China's goals and strategy for outbound 
investment; and ``Minister: China Wants To Convert US Debt Holdings 
Into Investment in Roads, Railways,'' Associated Press, reprinted in 
Washington Post, 2 December 11.
    \49\ Zhou Yan, ``Energy Investing Benefits World,'' China Daily, 3 
April 12. See also Andrew Erickson and Gabe Collins, ``China's New 
Strategic Target: Arctic Minerals,'' Wall Street Journal, 18 January 
12; and Ryan Dezember, ``China's Footprint in U.S. Oil: A State-by-
State List,'' Wall Street Journal, 7 March 12, concerning Chinese oil 
companies' acquisitions of energy assets in the United States.
    \50\ ``Chinese Capital Investments Overseas Undergo Three 
Noteworthy Major Changes'' [Zhong zi qiye haiwai shougou chao qi 
yunyong san da bianhua ling ren guanzhu], Xinhua, 12 February 12.
    \51\ See, e.g., National People's Congress, PRC Outline of the 12th 
Five-Year Plan on National Economic and Social Development [Zhonghua 
renmin gongheguo guomin jingji he shehui fazhan di shier ge wunian 
guihua gangyao], passed 14 March 11, issued 16 March 11, chap. 52, sec. 
2; State Council General Office, Guiding Opinion on Speeding 
Development of High Tech Services Industry [Guowuyuan bangongting 
guanyu jiakuai fazhan gao jishu fuwu ye de zhidao yijian], issued 12 
December 11, sec. 4(vii). See also Ding Qingfen and He Wei, ``China's 
Outbound Investment Still In Beginning State,'' China Daily, 19 April 
12, concerning investment priority options in developing and developed 
countries.
    \52\ Chinascope, ``Communism's Cultural Expansion: Communist 
Control `Goes Abroad,' '' April 2012.
    \53\ ``China Export-Import Bank 20 Billion Yuan To Finance Press 
and Publication's `Going Out' Activities'' [Jinchukou yinhang 200 yi 
zhichi xinwen chuban ``zou chuqu''], People's Daily, 4 July 12.
    \54\ ``China's State TV Making Huge Global Expansion, but Political 
Fetters Remain,'' Associated Press, reprinted in Washington Post, 31 
January 12; ``General Administration of Press and Publications: Support 
All News Publishing Enterprises To Run Newspapers and Periodicals 
Overseas'' [Xinwen chuban zongshu: zhichi suoyou xinwen chuban qiye dao 
jingwai banbao bankan], Xinhua, 15 February 12; Chinascope, 
``Communism's Cultural Expansion: Communist Control `Goes Abroad,' '' 
April 2012.
    \55\ Michael Cieply, ``After AMC Acquisition, Chinese Mogul Sees 
$10 Billion in New U.S. Investment,'' New York Times, 4 September 12. 
See also Richard Verrier, ``Chinese Cinema Firm Is Seeking To Buy All 
or Part of AMC,'' Los Angeles Times, 9 May 12.
    \56\ ``Overseas Investment by Chinese Companies Increased Swiftly 
With Noteworthy Acquisitions'' [Zhongguo qiye duiwai touzi zengzhang 
xunmeng haiwai binggou biaoxian qiangyan], China Economic Net, 1 March 
12.
    \57\ Ibid.
    \58\ U.S. Department of the Treasury, Report to Congress on 
International Economic and Exchange Rate Policies, 25 May 12, 13-15. 
See also Eric Morath and Michael R. Crittenden, ``U.S. Says Yuan Still 
Undervalued,'' Wall Street Journal, 25 May 12; and ``Geithner 
Highlights Key Role for RMB Appreciation in Global Rebalancing,'' China 
Trade Extra, 23 April 12. Using a calculation based on purchasing power 
parity, Arvind Subramanian estimates that the yuan was 31 percent 
undervalued in 2010. Tom Orlik, ``China's Yuan Still in Prison,'' Wall 
Street Journal, 17 April 12.
    \59\ William R. Cline and John Williamson, ``The Current Currency 
Situation,'' Peterson International Institute for International 
Economics, Policy Brief 11-18, November 2011.
    \60\ Ten Years in the WTO: Has China Kept Its Promises?, Hearing of 
the Congressional-Executive Commission on China, 13 December 11, 
Testimony of Alan Price, Partner and Chair of the International Trade 
Practice, Wiley Rein LLP, 8. According to Mr. Price's testimony, 
``China's currency undervaluation . . . constitutes a countervailable 
subsidy under the WTO's SCM Agreement, as it constitutes a financial 
contribution by the Chinese government, which confers a benefit upon 
its recipient. Moreover, consistent with the WTO ruling in United 
States-Tax Treatment for `Foreign Sales Corporations,' China's currency 
manipulation appears to be a prohibited export subsidy because it is 
designed to principally benefit China's exporters.''
    \61\ ``News Analysis: China Increases the `Elasticity' of the 
Exchange Rate, Furthering Internationalization of the Renminbi'' 
[Xinwen fenxi: zhongguo zengqiang huilu `tanxing' zhutui renminbi 
guojihua jincheng], Xinhua, 14 April 12. See also ``Renminbi to U.S. 
Dollar Trading Band Relaxed'' [Renminbi dui meiyuan bofu fan bei 
huanjie shengzhi yuqi], Shanghai Securities Journal, reprinted in 21st 
Century Business Herald, 16 April 12; ``Treasury Report Finds Yuan 
Undervalued, Misaligned But Stops Short of Formal Manipulator 
Finding,'' China Trade Extra, 28 December 11.
    \62\ Lingling Wei, ``Shanghai Planning Trial Yuan Fund Program,'' 
Wall Street Journal, 2 April 12. According to the article, the controls 
``remain part of a long-standing policy aimed at managing the yuan's 
exchange rate and protecting the country's creaking financial system 
from external shocks.''
    \63\ ``China To Steadily Make Yuan Convertible on Capital 
Account,'' Xinhua, 10 April 12.
    \64\ Ministry of Commerce Circular Concerning Relevant Questions in 
the Use of Renminbi in Foreign Direct Cross-Border Investment 
[Shangwubu guanyu kuojing renminbi zhijie touzi youguan wenti de 
tongzhi], issued and effective 12 October 11; John V. Grobowski et al., 
``Circular on Issues Concerning Cross-Border RMB Direct Investment,'' 
Faegre & Benson China Law Update, 1 November 11; People's Bank of 
China, Administrative Measures on Renminbi Settlement for Foreign 
Direct Investment [Waishang zhijie touzi renminbi jiesuan yewu guanli 
banfa], issued 13 October 11; John V. Grobowski et al., 
``Administrative Measures on Renminbi Settlement for Foreign Direct 
Investment,'' Faegre & Benson China Law Update, 1 November 11; Jason 
Wang and Lin Yuan, ``Open Gate for Cross-Border RMB FDI Flows,'' China 
Law & Practice, December 2011/January 2012.
    \65\ ``Yuan Tries Out a Bigger Role,'' Wall Street Journal, 1 May 
12; People's Bank of China, Ministry of Finance, Ministry of Commerce, 
General Administration of Customs, State Administration of Taxation, 
China Banking Regulatory Commission Circular Concerning Issues in 
Enterprise Management of Renminbi Settlement in Export of Goods 
[Zhongguo renmin yinhang caizhengbu shangwubu haiguan zongshu guojia 
shuiwu zongju zhongguo yinhang ye jiandu guanli weiyuanhui guanyu 
chukou huowu maoyi renminbi jiesuan qiye guanli youguan wenti de 
tongzhi], issued 3 February 12.
    \66\ Wang Hui, ``Important Measures in Promoting RMB 
Internationalization,'' People's Daily, 11 April 12.
    \67\ Lingling Wei, ``More Steps Considered in Push To Open Yuan,'' 
Wall Street Journal, 11 April 12.
    \68\ National Development and Reform Commission, ``National 
Development and Reform Commission, Shanghai Municipal Government 
Spokesmen Answer Questions Concerning `Plan for Establishment of 
International Finance Center During the Five-Year Plan' '' [Guojia 
fazhangaige wei, shanghai shi zhengju you guan fuze ren jiu ``shi er 
wu' shiqi shanghai guoji jinrong zhongxin jianshe guihua'' da jizhe 
wen], 30 January 12. See also ``China To Make Shanghai Global Yuan Hub 
by 2015,'' New York Times, 30 January 12, concerning Hong Kong's role.
    \69\ Yang Xun, ``China's Foreign Exchange Reserves Decreases,'' 
Beijing Daily, reprinted in People's Daily, 17 January 12.
    \70\ ``Exclusive-China Central Bank To Create FX Investment 
Vehicle,'' Reuters, reprinted in New York Times, 9 December 11.
    \71\ ``Minister: China Wants To Convert U.S. Debt Holdings Into 
Investment in Roads, Railways,'' Associated Press, reprinted in 
Washington Post, 2 December 11.
    \72\ China became a member of the WTO on December 11, 2001. A list 
of members and their dates of membership is available on the WTO Web 
site.
    \73\ WTO: Will China Keep Its Promises? Can It?, Hearing of the 
Congressional-Executive Commission on China, 6 June 02, Testimony of 
Grant D. Aldonas, Under Secretary of Commerce for International Trade. 
Mr. Aldonas was a Commissioner at the time of the hearing in 2002. See 
also Mr. Aldonas's testimony at the Commission's hearing on the 10th 
anniversary of China's accession to the WTO. Ten Years in the WTO: Has 
China Kept Its Promises?, Hearing of the Congressional-Executive 
Commission on China, 13 December 11, Testimony of Grant Aldonas.
    \74\ Ten Years in the WTO: Has China Kept Its Promises?, Hearing of 
the Congressional-Executive Commission on China, 13 December 11, 
Testimony of Alan H. Price, Partner and Chair of the International 
Trade Practice, Wiley Rein LLP.
    \75\ Office of the United States Trade Representative, ``2011 
Report to Congress On China's WTO Compliance,'' December 2011, 2.
    \76\ Peter Ford, ``How WTO Membership Made China the Workshop of 
the World,'' Christian Science Monitor, 14 December 11, citing James 
McGregor, author and senior counselor with APCO business consultancy in 
Beijing. According to this article, China's trade has grown fivefold 
since accession, and China is now the largest exporter in the world.
    \77\ Office of the United States Trade Representative, ``2011 
Report to Congress On China's WTO Compliance,'' December 2011, 2.
    \78\ Ibid.
    \79\ Office of the United States Trade Representative, ``United 
States Seeks Detailed Information on China's Internet Restrictions,'' 
19 October 11.
    \80\ World Trade Organization Committee on Subsidies and 
Countervailing Measures, ``Request From the United States to China 
Pursuant to Article 25.10 of the Agreement,'' Doc. 11-4946, 11 October 
11.
    \81\ For information on the role of the Chinese government in 
foreign investment in China, see Foreign Investment in China, in this 
section. For details on foreign exchange regulation, see James M. 
Zimmerman, China Law Deskbook (Chicago: American Bar Association, 
2010), Volume I, 481-495. See Bob Davis and Jason Dean, ``State-Run 
Firms Are the Giants of China's Economy,'' AsiaNews, reprinted in Wall 
Street Journal, 23 February 12, concerning the role of state-owned 
enterprises (SOEs) in furthering the government's ``buy-China 
procurement policy''; Andrew Szamosszegi and Cole Kyle, U.S.-China 
Economic and Security Review Commission, ``An Analysis of State-Owned 
Enterprises and State Capitalism in China,'' 26 October 11, 3. For a 
study on state capitalism in China, including the ``institutional 
ecology'' in which SOEs operate and the relationship between the state-
owned sector and the party-state, see Li-Wen Lin and Curtis J. 
Milhaupt, ``We Are the (National) Champions: Understanding the 
Mechanisms of State Capitalism in China,'' Stanford Law Review, Vol. 65 
(forthcoming 2013). For a discussion of the relationship between state 
ownership and state control of SOEs, see Stanley Lubman, ``China's 
State Capitalism: The Real World Implications,'' Wall Street Journal, 1 
March 12. The Report of the Working Party on the Accession of China 
raised concerns about government influence on the commercial decisions 
of SOEs. World Trade Organization, Report of the Working Party on the 
Accession of China, WT/ACC/CHN/49, 1 October 01, para. 44.
    \82\ Office of the United States Trade Representative, ``Remarks by 
United States Ambassador to the World Trade Organization Michael Punke 
on the China Transitional Review of the Protocol of Accession to the 
WTO Agreement,'' 30 November 11.
    \83\ Ibid.
    \84\ ``Bryson Says Auto Parts Companies' Reticence To Fight China 
Hinders Trade Action,'' World Trade Online, 28 March 12; Frances 
Robinson, ``U.S. Pledges To Hold China to WTO Rules,'' Wall Street 
Journal, 16 December 11; ``USTR Seeks Info From Manufacturers on Forced 
Technology Transfer to China,'' China Trade Extra, 31 January 12.
    \85\ Keith Bradsher, ``Trade War in Solar Takes Shape,'' New York 
Times, 9 November 11.
    \86\ Ibid.
    \87\ World Trade Organization, ``Disputes by Country/Territory.''
    \88\ World Trade Organization, DS440, China--Anti-Dumping and 
Countervailing Duties on Certain Automobiles From the United States, 
Request for Consultations by the United States, Doc. No. 12-3623, 9 
July 12; Office of the United States Trade Representative, ``Obama 
Administration Challenges China's Export Subsidies to Auto and Auto 
Parts Manufacturers in China,'' 17 September 12. For an earlier case 
concerning the auto sector, which was initiated in 2006, see World 
Trade Organization, DS340, China--Measures Affecting Imports of 
Automobile Parts--Current Status, last visited 30 August 12.
    \89\ World Trade Organization, DS440, China--Anti-Dumping and 
Countervailing Duties on Certain Automobiles From the United States, 
Request for Consultations by the United States, Doc. No. 12-3623, 9 
July 12.
    \90\ Kenneth Rapoza, ``China Gets Revenge on Obama With Tariff on 
U.S. Autos,'' Forbes, 15 December 11; Frances Robinson, ``U.S. Pledges 
To Hold China to WTO Rules,'' Wall Street Journal, 16 December 11.
    \91\ World Trade Organization, DS399, United States--Measures 
Affecting Imports of Certain Passenger Vehicle and Light Truck Tyres 
From China, Summary of the Dispute to Date, last visited 30 August 12. 
For a discussion of and background on the case, see CECC, 2011 Annual 
Report, 10 October 11, 175.
    \92\ World Trade Organization, DS 450, ``China--Certain Measures 
Affecting the Automobile and Automobile Parts Industries, Request for 
Consultations by the United States,'' Doc. No. 12-5061, 20 September 
12; Office of the United States Trade Representative, ``Obama 
Administration Challenges China's Export Subsidies to Auto and Auto 
Parts Manufacturers in China,'' 17 September 12.
    \93\ World Trade Organization, DS431, China--Measures Related to 
the Exportation of Rare Earths, Tungsten and Molybdenum, Request for 
Consultations by the United States, Doc. No. 12-1425, 15 March 12; 
World Trade Organization, DS431, ``China--Measures Related to the 
Exportation of Rare Earths, Tungsten and Molybdenum,'' Summary of the 
Dispute to Date, last visited 17 September 12. According to the Summary 
of the Dispute to Date, the restraints include ``export duties, export 
quotas, minimum export price requirements, export licensing 
requirements and additional requirements and procedures in connection 
with the administration of the quantitative restrictions.'' The 
European Union requested consultations with China concerning rare 
earths on March 13, 2012. World Trade Organization, DS432, China--
Measures Related to the Exportation of Rare Earths, Tungsten and 
Molybdenum, Request for Consultations by the European Union, Doc. No. 
12-1445, 15 March 12. Japan requested consultations with China 
concerning rare earths on March 13, 2012. World Trade Organization, 
DS433, China--Measures Related to the Exportation of Rare Earths, 
Tungsten and Molybdenum, Request for Consultations by Japan, Doc. No. 
12-1446, 15 March 12.
    \94\ World Trade Organization, DS394, China--Measures Related to 
the Exportation of Various Raw Materials, Request for Consultations by 
the United States, Doc. No. 09-3133, 25 June 09. The covered materials 
are various forms of bauxite, coke, fluorspar, magnesium, manganese, 
silicon carbide, silicon metal, yellow phosphorus, and zinc. The 
European Union requested consultations with China concerning 
exportation of certain raw materials on June 23, 2009. World Trade 
Organization, DS395, China--Measures Related to the Exportation of 
Various Raw Materials, Request for Consultations by the European 
Communities, Doc. No. 09-3134, 25 June 09. Mexico requested 
consultations with China concerning exportation of certain raw 
materials on August 21, 2009. World Trade Organization, DS398, China--
Measures Related to the Exportation of Various Raw Materials, Request 
for Consultations by Mexico, Doc. No. 09-4027, 26 August 09.
    \95\ World Trade Organization, DS394, China--Measures Related to 
the Exportation of Various Raw Materials, Reports of the Panel, Doc. 
No. 11-3179, 5 July 11.
    \96\ World Trade Organization, DS394, China--Measures Related to 
the Exportation of Various Raw Materials, Reports of the Appellate 
Body, Doc. No. 12-0544, 30 January 12.
    \97\ World Trade Organization, DS413, China--Certain Measures 
Affecting Electronic Payment Services, Summary of the Dispute to Date, 
viewed 23 July, last visited 17 September 12.
    \98\ World Trade Organization, DS427, China--Anti-Dumping and 
Countervailing Duty Measures on Broiler Products from the United 
States, Summary of the Dispute to Date, last visited 17 September 12; 
World Trade Organization, DS414, China--Countervailing and Anti-Dumping 
Duties on Grain Oriented Flat-Rolled Electrical Steel from the United 
States, Summary of the Dispute to Date, last visited 17 September 12.
    \99\ World Trade Organization, DS407, China--Provisional Anti-
Dumping Duties on Certain Iron and Steel Fasteners from the European 
Union, Summary of the Dispute to Date, last visited 17 September 12; 
World Trade Organization, DS425, China--Definitive Anti-Dumping Duties 
on X-Ray Security Inspection Equipment from the European Union, Summary 
of the Dispute to Date, last visited 17 September 12.
    \100\ Ministry of Commerce, ``General Office of Leading Group for 
National Cracking Down on IPR Infringement and Counterfeit and Shoddy 
Goods Works With the National Development and Reform Commission and 
Eight Other Departments To Make Plans for Special Rectification of Key 
Products in Rural Markets'' [Quanguo daji qinquan jiamao gongzuo 
lingdao xiaozu bangongshi lianhe fazhan gaige wei deng 9 bumen bushu 
nongcun shichang zhongdian shangpin zhuanxiang zhengzhi], 20 January 
12. U.S. imports of counterfeit goods from China include 
pharmaceuticals and electronic parts used in U.S. military hardware. 
David Usborne, ``Counterfeit Chinese Goods Now Threaten U.S. 
Military,'' Independent, 23 May 12; U.S. Customs and Border Protection 
and U.S. Immigration and Customs Enforcement, U.S. Customs and Border 
Protection Office of International Trade, ``Intellectual Property 
Rights: Fiscal Year 2011 Seizure Statistics,'' last visited 17 
September 12, 12.
    \101\ Office of the United States Trade Representative, ``2011 
Report to Congress on China's WTO Compliance,'' December 2011, 86. 
Measures have included, for example, the agreement at the 2011 meeting 
of the Joint Commission on Commerce and Trade to establish a State 
Council-level enforcement structure. Office of the United States Trade 
Representative, ``2011 Report to Congress On China's WTO Compliance,'' 
December 2011, 89; Ministry of Commerce, ``Web Site of National 
Cracking Down on IPR Infringement and Counterfeit and Shoddy Goods Has 
Been Officially Launched'' [Zhongguo daji qinquan jiamao gongzuo wang 
ji zhongguo xinyong qiye wangluo zhan zhengshi qidong], 11 April 12.
    \102\ AmCham China, ``2012 China Business Climate Survey Report,'' 
2012, 19.
    \103\ ``China To Develop Cultural Industry Into Pillar One,'' 
Intellectual Property Rights in China, 21 February 12; ``The State 
Council Executive Meeting: Strengthen IPR Protection and Speed Up the 
Development of the Next-Generation Internet Industry,'' Intellectual 
Property Rights in China, 28 December 11; PRC State Intellectual 
Property Office, ``10 Government Departments: Support Strategic 
Industries With Intellectual Property To Develop the International 
Market'' [Shi buwei: zhichi juyou zhishi chanquan de zhanluexing 
xinxing chanye kaituo guoji shichang], 21 October 11.
    \104\ U.S. Customs and Border Protection and U.S. Immigration and 
Customs Enforcement, U.S. Customs and Border Protection Office of 
International Trade, ``Intellectual Property Rights: Fiscal Year 2011 
Seizure Statistics,'' last visited 17 September 12, 12. In 2011, 62 
percent of the seized counterfeit goods were from China and 18 percent 
from Hong Kong.
    \105\ Office of the United States Trade Representative, ``2011 
Report to Congress On China's WTO Compliance,'' December 2011, 93.
    \106\ U.S. Customs and Border Protection and U.S. Immigration and 
Customs Enforcement, U.S. Customs and Border Protection Office of 
International Trade, ``Intellectual Property Rights: Fiscal Year 2011 
Seizure Statistics,'' last visited 17 September 12, 11.
    \107\ ``China To Develop Cultural Industry Into Pillar One,'' 
Intellectual Property Rights in China, 21 February 12. See also 
Priscilla Jiao, ``Pressure on Local Cadres To Combat Counterfeit 
Goods,'' South China Morning Post, 9 April 12.
    \108\ ``State-Owned Chinese Company Indicted on Conspiracy 
Charges,'' China Compliance Digest, No. 3, 17 February 12; Michael A. 
Riley and Ashlee Vance, ``China Corporate Espionage Boom Knocks Wind 
Out of U.S. Companies,'' Bloomberg, 15 March 12.
    \109\ Michael A. Riley and Ashlee Vance, ``China Corporate 
Espionage Boom Knocks Wind Out of U.S. Companies,'' Bloomberg, 15 March 
12.
    \110\ Office of the United States Trade Representative, ``2012 
Special 301 Report,'' April 2012, 26; Robert D. Atkinson, Information 
Technology and Innovation Foundation, ``Enough is Enough: Confronting 
Chinese Innovation Mercantilism,'' February 2012, 33-36.
    \111\ Robert D. Atkinson, Information Technology and Innovation 
Foundation, ``Enough is Enough: Confronting Chinese Innovation 
Mercantilism,'' February 2012, 33.
    \112\ U.S. Food and Drug Administration, FDA Fact Sheet: Increasing 
FDA Capacity in China, 13 February 12.
    \113\ Xu Dan et al., ``Confirmation: `Pesticide Residue' Does Not 
Exceed `Pesticide Standards'; Chinese Tea Safe'' [Qiuzheng: ``nongyao 
canliu'' bu dengyu ``nongyao chaobiao'' wo guo chaye anquan], People's 
Daily, 2 May 12; Wang Shengzhi et al., ``Pesticide Residue Found in 
Salt Production Industries, Some in Cooking Salt in 12 Provinces/
Municipalities'' [12 sheng shi chuxian nongyao feizha shengchan gongye 
yan bufen shang canzhuo], Xinhua, reprinted in Huanqiu Net, 31 January 
12.
    \114\ Gutter oil initially referred to waste oil restaurants dumped 
into drains. See, e.g., Alice Yan, ``Ban To Curb `Gutter Oil' 
Operators,'' South China Morning Post, 12 October 11; Chen Dongsheng, 
``New Type of Gutter Oil Brings Forth What Kind of Warnings? '' 
[Digouyou ``tuichenchuxin'' dailai hezhong jingshi], Legal Daily, 10 
April 12; Laurie Burkitt, ``Chinese Gutter Oil Attains New Level of 
Gross,'' Wall Street Journal, 3 April 12. See also ``Three Ministries: 
Crimes Involving Illegal Reused Cooking Oil May Be Subject to Death 
Penalty'' [San bumen: digouyou fanzui zhufan leifan ke pan sixing], 
China News, reprinted in Sina, 24 February 12, concerning application 
of the death penalty to crimes involving reused cooking oil.
    \115\ Zou Wei and Fang Lie, ``Public Security Bureau Destroys 
Trans-Provincial Criminal Network and Seizes Over 3,200 Tons of Gutter 
Oil'' [Gonganbu cuihui kuasheng fanzui wangluo chakou digouyou 3200 yu 
dun], Xinhua, reprinted by Sina, 3 April 12.
    \116\ State Council, State Council Decision on Strengthening Food 
Safety Work [Guowuyuan guanyu jiaqiang shipin anquan gongzuo de 
jueding], issued 23 June 12; General Administration of Quality 
Supervision, Inspection and Quarantine, Measures on Managing Safety of 
Imported and Exported Food [Guojia zhiliang jiandu jianyan jianyi 
zongju ``jinchukou shipin anquan guanli banfa''], issued 13 September 
11, effective 1 March 12, (on safety of imported and exported food); 
``China Issues Regulation on Infant Formula,'' Xinhua, 4 February 12, 
(concerning infant formula); Sun Tiexiang and Hu Hao, ``State Food and 
Drug Administration: Will Unite To Develop Supervision and Examination 
of School Cafeteria Food Safety'' [Guojia shipin yaopin jiandu 
guanliju: jiang lianhe kaizhan xuexiao shitang shipin anquan ducha 
gongzuo], Xinhua, 4 May 12, (concerning school cafeteria food); 
Ministry of Agriculture, ``Ministry of Agriculture Issues Circular 
Soliciting Opinions on `Measures Managing Organic Food Labeling (Draft 
for Comments)' '' [Nongyebu guanyu gongkai zhengqiu ``luse shipin 
biaozhi guanli banfa (zhengqiu yijian gao)'' yijian de tongzhi], 
Legislative Affairs Office of the State Council, issued 6 February 12, 
(concerning organic food labeling); Ministry of Industry and 
Information Technology, ``Circular Concerning Publishing `2012 Key 
Points in Work Plan on Food Safety' '' [Guanyu yinfa ``2012 nian shipin 
anquan zhongdian gongzuo shishi fang'an'' de tongzhi], issued 13 March 
12. For a discussion of the State Council Decision on Strengthening 
Food Safety Work, see ``State Council Issues White Paper on Food 
Safety,'' Baker & McKenzie Client Alert, August 2012.
    \117\ ``National Food Safety Office Director Convenes Conference, 
Li Keqiang and Hui Liangyu Make Important Comments and Criticisms'' 
[Quanguo shi an ban zhuren huiyi zhaokai li keqiang hui liangyu zuo 
zhongyao pishi], Xinhua, 8 December 11. See also ``Chinese Vice Premier 
Urges Harsh Punishments for Food Safety Violations,'' Xinhua, 8 
February 12; Jin Zhu, ``Govt Gets Tough on Food Safety, Quality,'' 
China Daily, 10 February 12; ``Gov't Should Intensify Supervision Over 
Small Food Processors: Report,'' Xinhua, 10 April 12.
    \118\ ``Coca-Cola Chlorine-Tainted Drinks Recall Stirs Public 
Discontent,'' Xinhua, 4 May 12; Zhou Wenting, ``Chongqing's Wal-Marts 
To Close for 15 Days,'' China Daily, 11 October 11; Wei Biao and Yuan 
Xun, ``Shanxi Province Bureau of Quality and Technical Supervision Will 
Investigate Suspected Chlorine in Coca-Cola Drinks'' [Shanxi sheng 
zhijian ju ru zhu diaocha yihan ``lu'' kekoukele yinliao], Xinhua, 20 
April 12; Zhou Wenting, ``Stores Pulling Red Bull on Health Fears,'' 
Xinhua, 13 February 12.
    Notes to Section III--Access to Justice

    \1\ Zhang Yan, ``Legal Aid Helps Most Vulnerable Among Us,'' China 
Daily, 16 May 12; Chen Qide, ``Measures Taken To Push Forward Free 
Legal Aid Service,'' China Daily, 17 November 11; ``Judicial Organs 
Urged To Serve the People,'' Xinhua, 17 April 12.
    \2\ State Council Information Office, ``National Human Rights 
Action Plan of China (2012-2015),'' 11 June 12.
    \3\ Universal Declaration of Human Rights, adopted and proclaimed 
by UN General Assembly resolution 217A (III) of 10 December 48, art. 8.
    \4\ International Covenant on Civil and Political Rights, adopted 
by UN General Assembly resolution 2200A (XXI) of 16 December 66, entry 
into force 23 March 76, art. 2.
    \5\ PRC Constitution, adopted 4 December 82, amended 12 April 88, 
29 March 93, 15 March 99, 14 March 04, art. 126.
    \6\ Dui Hua Foundation, ``Moving the Mountain: China's Struggle for 
Death Penalty Reform,'' Dui Hua Human Rights Journal, 1 September 11.
    \7\ Xuyang Jingjing, ``Human Rights Plan Released,'' Global Times, 
12 June 12; He Weifang, ``Judicial Independence in Trials Requires 
Extensive Public Awareness'' [Sifa duli shenpan xuyao guangfan de 
gongzhong renzhi], Southern Weekend, 9 December 11; Ng Tze-wei, ``Rule 
of Law's Shocking Absence Laid Bare,'' South China Morning Post, 5 July 
12.
    \8\ Chen Guangcheng, ``How China Flouts Its Laws,'' New York Times, 
29 May 12.
    \9\ ``Reform Itself Changes National Circumstances'' [Gaige benshen 
jiushi gaibian guoqing], China Business View, 19 May 12 (translated in 
Dui Hua Human Rights Journal, 28 June 12).
    \10\ Gillian Wong, ``China Says Lawyers Must Swear Allegiance to 
Party,'' Associated Press, reprinted in Boston Globe, 21 March 12; For 
CECC analysis, see ``Authorities Deny Human Rights Lawyers Professional 
License Renewals,'' CECC China Human Rights and Rule of Law Update, No. 
9, 10 December 10, 2.
    \11\ ``Liu Xiaoyuan's Law Firm Faced Obstruction for Years and 
Faces Dissolution'' [Liu xiaoyuan suoshu lushi lou nianjian shou zunao 
mianlin jiesan], Radio Free Asia, reprinted in Boxun, 30 March 12.
    \12\ Chinese Human Rights Defenders, ``China Human Rights Briefing 
March 20-26, 2012,'' 28 March 12.
    \13\ Stanley Lubman, ``Lawyers' New Party Loyalty Oath: A Sign of 
Weakness,'' Wall Street Journal, 26 March 12; ``China Orders Lawyers To 
Pledge Allegiance to Communist Party,'' Reuters, reprinted in New York 
Times, 21 March 12; Gillian Wong, ``China Says Lawyers Must Swear 
Allegiance to Party,'' Associated Press, reprinted in Boston Globe, 21 
March 12; Zhao Yang, ``Ministry of Justice Issues Notice of Decision To 
Establish Lawyer's Oath of Allegiance System'' [Sifa bu xia fa jianli 
lushi xuanshi zhidu jueding de tongzhi], Legal Daily, reprinted on the 
Ministry of Justice Web site, 21 March 12.
    \14\ Sui-Lee Wee, ``China Orders Lawyers to Pledge Allegiance to 
Communist Party,'' Reuters, 21 March 12.
    \15\ Tania Branigan, ``China: Lawyers Fear New Regulation Against 
`Disrupting' Hearings,'' Guardian, 29 August 12; Chen Xiao, ``Solicited 
Opinions for Supreme People's Court Criminal Procedure Judicial 
Interpretation Cite Concerns'' [Zuigao fayuan xing su sifa jieshi 
zhengqiu yijian yin guanzhu], Legal Weekly, reprinted in Legal Daily, 
29 August 12. PRC Criminal Procedure Law [Zhonghua renmin gongheguo 
xingshi susong fa], enacted 1 July 79, amended 17 March 96, 14 March 
12, effective 1 January 13.
    \16\ Lei Jun, ``Criminal Procedure Law Interpretation's Article 250 
Causes Controversy; Lawyer Penalties Accused of Lacking Basis'' [Xing 
su shi fa yijian 250 tiao yin zhengyi fa lushi bei zhi que yiju], 
Beijing Times, reprinted in People's Daily, 1 September 12; Liang Chen, 
``Lawyers Face Being Disbarred,'' Global Times, 27 August 12.
    \17\ Liang Chen, ``Lawyers Face Being Disbarred,'' Global Times, 27 
August 12.
    \18\ Tania Branigan, ``China: Lawyers Fear New Regulation Against 
`Disrupting' Hearings,'' Guardian, 29 August 12.
    \19\ Liang Chen, ``Lawyers Face Being Disbarred,'' Global Times, 27 
August 12.
    \20\ Ibid.
    \21\ Xinfang bureaus are found throughout the Chinese bureaucracy, 
including offices of the Party, police, government, procuratorates, 
courts, and people's congresses. Individual petitioning may take the 
form of one dissatisfied citizen going to multiple xinfang bureaus 
repeatedly over the course of several months or years. Collective or 
mass petitioning may involve attempts to organize demonstrations, 
speeches, or marches of people seeking to present their grievances. The 
capital city, Beijing, where the central government and high-level 
officials are located, is an especially prominent destination for 
petitioners from all over China.
    \22\ Carl F. Minzner, ``Xinfang: An Alternative to Formal Chinese 
Legal Institutions,'' Stanford Journal of International Law, Vol. 42 
(2006).
    \23\ See, e.g., petitioning cases: ``Labor Camp for Petitioning 
Mother,'' Radio Free Asia, 16 March 12; Chinese Human Rights Defenders, 
``Villagers Petitioning Provincial Party Committee Detained in 
Shaanxi'' [Shanxi xi'an xinguang cun cunmin lianxu dao sheng wei 
shangfang bei zhua], reprinted in Blogspot, 7 June 12; Chinese Human 
Rights Defenders, ``Chengdu Petitioner Zheng Zhonghua and Others 
Detained in Black Jail for Petitioning in Beijing'' [Chengdu fangmin 
zheng zhonghua deng ren yin beijing shangfang bei guan hei jianyu], 8 
March 12; ``Chen Shuwei Held After Petitioning in Beijing'' [Chen 
shuwei beijing shangfang hou zao kongzhi], Radio Free Asia, 11 November 
11; ``Mothers of June 4 Dead Arrested for Petitioning in Beijing'' 
[Liusi sinanzhe muqin dao beijing shangfang beibu], Radio Free Asia, 28 
November 11.
    \24\ Zhang Han, ``Pressuring Petitioners,'' Global Times, 27 
October 10.
    \25\ Lin Yan and Cui Li, ``Media Analyzes Faith in Petitions No 
Faith in the Law Phenomenon: Some Judges Use Law as a Profit-Making 
Measure'' [Meiti xi xinfang bu xin fa xianxiang: yixie faguan ba falu 
dang mouli shouduan], China Youth Daily, reprinted in the Legal Daily, 
28 March 12; ``Cracking the Rights Defense Predicament of `Faith in 
Petitions, No Faith in Law' '' [Pojie ``xinfang buxin fa'' de weiquan 
kunjing], Chinese Communist Party News Net, 7 May 12; `` `Faith in 
Petitioning, No Faith in Law' Due to Ineffective Judicial Relief'' 
[``Xinfang bu xinfa'' yuanyu sifa jiuji buli], Sichuan News Net, 18 
January 12.
    \26\ Wang He, ``More Than 50 Percent of Xinfang Cases `Related to 
Laws or Appeals,' '' [Chao wucheng xinfang shixiang ``shefa shesu''], 
Guangzhou Daily, 28 June 12.
    \27\ Ibid.
    \28\ Ibid.
    \29\ ``China Top Leaders Vow To Better Handle People's Petitions,'' 
Xinhua, 14 July 12.
    \30\ ``Officials Urged To Beef Up Process of Handling Public's 
Complaints,'' Xinhua, 13 January 12.
    \31\ State Council Information Office, ``National Human Rights 
Action Plan of China (2012-2015),'' 11 June 12; State Council 
Information Office, ``National Human Rights Action Plan of China (2009-
2010),'' 13 April 09, sec. II (6).
    \32\ ``Supreme People's Court Work Report'' [Zuigao renmin fayuan 
gongzuo baogao], Xinhua, reprinted in National People's Congress of the 
People's Republic of China, 19 March 12.
    \33\ Ibid.
    \34\ Zou Le, ``New Ticket System Could Add Up to Measures Hindering 
Travel to Beijing,'' Global Times, 27 February 12.
    \35\ Ibid.
    \36\ Verna Yu, ``Beijing Blitz Takes Aim at Notorious `Black 
Jails,' '' South China Morning Post, 2 December 11; Chinese Human 
Rights Defenders, `` `The Darkest Corners': Abuses of Involuntary 
Psychiatric Commitment in China,'' 6 August 12, 3.
    \37\ Chinese Human Rights Defenders, reprinted in Blogspot, 
``Chongqing Petitioner Zhang Dingfen Goes Missing in Beijing in the 
Night'' [Chongqing fangmin zhang dingfen deng shenye zai beijing 
shizong], 19 October 11; Chinese Human Rights Defenders, ``China Human 
Rights Briefing October 27-November 2, 2011,'' 4 November 11; Chinese 
Human Rights Defenders, ``China Human Rights Briefing December 7-13, 
2011,'' 14 December 11.
    \38\ Chinese Human Rights Defenders, ``Liaoning Petitioner Zhu 
Guiqin Kidnapped and Raped, Police Ignored Her Report'' [Liaoning 
fangmin zhu guiqin zao bangjia jianwu, baoan jingfang buli], 16 April 
12.
    \39\ ``Women Petitioners Risk Rape,'' Radio Free Asia, 20 April 12.
    \40\ Xu Kai and Zhang Youyi, ``Re-Education Through Labor Reform 
Hits Critical Point,'' Caijing, 28 August 12.
    \41\ Carlos Tejada and Josh Chin, ``Mother Freed From Labor Camp 
After Online Protest,'' Wall Street Journal, 10 August 12; ``Chinese 
Mother Released After Protesting Against Rapists' Sentences,'' 
Associated Press, reprinted in Guardian, 10 August 12.
    \42\ Adam Minter, ``China's Microbloggers Take on Re-Education 
Camps,'' Bloomberg, 15 August 12; ``Chinese Mother Released After 
Protesting Against Rapists' Sentences,'' Associated Press, reprinted in 
Guardian, 10 August 12.
    \43\ ``Mother of Underage Rape Victim Released From Chinese Labor 
Camp,'' Xinhua, 10 August 12.
    \44\ Human Rights Watch, ``An Alleyway in Hell: China's Abusive 
`Black Jails,' '' 12 November 09, 2; Human Rights Watch, ``Closing 
China's Network of Secret Jails,'' 9 December 10.
    \45\ Human Rights Watch, ``An Alleyway in Hell: China's Abusive 
`Black Jails,' '' 12 November 09, 3.
    \46\ ``Officials Punished After `Petitioner' Beaten,'' Xinhua, 
reprinted in China Daily, 25 September 11; Zhao Chenyan, `` `Black 
Jails' for Petitioners Banned,'' China Daily, 1 December 11; Guo Chao, 
``Beijing Security Companies Prohibited From Participating in 
Interception of Petitioners'' [Beijing bao'an gongsi jincan yu 
jiefang], Beijing News, 1 December 11.
    \47\ Guo Chao, ``Beijing Security Companies Prohibited From 
Participating in Interception of Petitioners'' [Beijing baoan gongsi 
jin canyu jiefang], Beijing News, 1 December 11; Deng Jingyin, 
``Beijing Police Crack Down on Black Jails,'' Global Times, 2 December 
11; Verna Yu, ``Beijing Blitz Takes Aim at Notorious `Black Jails,' '' 
South China Morning Post, 2 December 11.
    \48\ ``Officials Punished After `Petitioner' Beaten,'' Xinhua, 
reprinted in China Daily, 25 September 11; Zhao Chenyan, `` `Black 
Jails' for Petitioners Banned,'' China Daily, 1 December 11; Guo Chao, 
``Beijing Security Companies Prohibited From Participating in 
Interception of Petitioners'' [Beijing baoan gongsi jin canyu jiefang], 
Beijing News, 1 December 11.
    \49\ Sun Chunying et al., ``Solidly Accomplish Judicial and 
Administrative Agencies' Work To Maintain Social Stability'' [Zhashi 
zuohao sifa xingzheng jiguan weihu shehui wending gongzuo], Legal 
Daily, 13 July 12; ``Supreme People's Court Work Report'' [Zuigao 
renmin fayuan gongzuo baogao], Xinhua, reprinted in National People's 
Congress, 19 March 12; China Labour Bulletin, ``Supreme People's Court 
Stresses Mediation of Civil Disputes,'' 13 March 12.
    \50\ ``China's Grassroots Mediation Organizations Resolve Over 
400,000 Disputes in 2011,'' Xinhua, 23 December 11; Cui Qingxin, 
``China Has Established More Than 31,000 Professional and Industrial 
Mediation Organizations'' [Woguo gong jianli gelei hangye xing, zhuanye 
xing renmin tiaojie zuzhi 3.1 wan duoge], Xinhua, 23 December 11.
    \51\ Ibid.
    \52\ ``Supreme People's Court Work Report'' [Zuigao renmin fayuan 
gongzuo baogao], Xinhua, reprinted in National People's Congress, 19 
March 12.
    \53\ ``People's Mediation Success Rate Surpasses 90 Percent'' 
[Renmin tiaojie chenggong lu chao jiucheng], People's Daily, 12 July 
12.
    \54\ PRC People's Mediation Law [Zhonghua renmin gongheguo renmin 
tiaojie fa], issued 28 August 10, effective 1 January 11; For CECC 
analysis, see ``New People's Mediation Law Takes Effect,'' 
Congressional-Executive Commission on China, 10 February 11.
    \55\ PRC People's Mediation Law [Zhonghua renmin gongheguo renmin 
tiaojie fa], issued 28 August 10, effective 1 January 11, chap. 1, art. 
1.
    \56\ Ibid., chap. 1, arts. 2-5.
    \57\ Carl F. Minzner, ``China's Turn Against Law,'' American 
Journal of Comparative Law, Vol. 59, No. 4 (fall 2011); Stanley Lubman, 
``Civil Litigation Being Quietly `Harmonized,' '' Wall Street Journal, 
31 May 11; Willy Lam, ``Beijing Tightens Control Over Courts,'' Asia 
Times, 25 June 11.
    \58\ Li Xiaofu, Longyang District People's Court, ``On the System 
of Judicial Validation of People's Mediation'' [Qiantan renmin tiaojie 
xieyi sifa queren zhidu], 28 May 12.
    \59\ China Labour Bulletin, ``Supreme People's Court Stresses 
Mediation of Civil Disputes,'' 13 March 12.
    \60\ Zhao Yang, ``Over 310,000 Migrant Workers Receive Aid'' 
[Nongmingong shouyuan chao 31 wan renci], Legal Daily, 8 February 12; 
``More Disadvantaged Chinese Receive Legal Aid,'' Xinhua, 7 February 
12.
    \61\ Zhang Yan, ``Ministry of Justice: Migrant Workers Are Largest 
Group Receiving Legal Aid'' [Sifabu: Nongmingong wei falu yuanzhu zui 
da shouyi qunti], China Daily, 16 May 12.
    \62\ Cui Qingxin, ``Ministry of Justice: The 2012 National Legal 
Aid Cases Expected To Exceed One Million Cases'' [Sifabu: 2012 nian 
quanguo falu yuanzhu anjian youwang tupo baiwanjian], Xinhua, reprinted 
in Legal Daily, 26 January 12.
    \63\ Zhao Yang, ``Over 310,000 Migrant Workers Receive Aid'' 
[Nongmingong shouyuan chao 31 wan renci], Legal Daily, 8 February 12.
    \64\ PRC Criminal Procedure Law [Zhonghua renmin gongheguo xingshi 
susong fa], enacted 1 July 79, amended 17 March 96, effective 1 January 
97, art. 34.
    \65\ Ibid., arts. 33-34.
    \66\ State Council, Regulations on Legal Aid [Falu yuanzhu tiaoli], 
enacted 16 July 03, effective 1 September 03, art. 11.
    \67\ PRC Criminal Procedure Law [Zhonghua renmin gongheguo xingshi 
susong fa], enacted 1 July 79, amended 17 March 96, 14 March 12, 
effective 1 January 13, art. 34.
    \68\ PRC Criminal Procedure Law [Zhonghua renmin gongheguo xingshi 
susong fa], enacted 1 July 79, amended 17 March 96, effective 1 January 
97, arts. 33-34.
    \69\ PRC Criminal Procedure Law [Zhonghua renmin gongheguo xingshi 
susong fa], enacted 1 July 79, amended 17 March 96, 14 March 12, 
effective 1 January 13, art. 34.
    \70\ Zhao Yang, `` `Provisions on Handling Legal Aid Cases and 
Procedural Requirements' Answers Reporter's Questions,'' [``Banli falu 
yuanzhu anjian chengxu guiding'' da jizhe wen], Legal Daily, 10 May 12.
    \71\ Ibid.
    \72\ Ibid.
    \73\ See, e.g., Human Rights in China, ``Guizhou Dissidents Under 
Strict Watch as Authorities Clean Up for Party Congress,'' 7 August 12; 
Chris Buckley, ``Will China Punish the Family of Blind Activist? '' 
Reuters, reprinted in Christian Science Monitor, 30 April 12; ``Police 
`Detain' Relatives of Dead Activist,'' South China Morning Post, 7 June 
12; Edward Wong, ``First a Black Hood, Then 81 Captive Days for an 
Artist in China,'' New York Times, 26 May 12.
    \74\ Chinese Human Rights Defenders, ``As `June 4' Approaches, 
Rights Activists in Xi'an Are Taken Away on `Travel' '' [``Liu si'' 
lailin, xi'an weiquan renshi bei daizou ``luyou''], 2 June 12.
    \75\ See, e.g., Chinese Human Rights Defenders, ``Because of 
Interest in Li Wangyang, Many Rights Activists Invited to Tea or 
Summoned; Group of Hunan Activists Still Missing'' [Yin guanzhu li 
wangyang duo ming weiquan renshi bei hecha, chuanhuan, hunan yipi 
weiquan renshi reng shizong], 6 July 12.
    \76\ ``China Detains Dozens of Activists,'' Radio Free Asia, 2 
August 12.
    \77\ Chinese Human Rights Defenders, ``China Human Rights Briefing 
April 24-May 3, 2012,'' 4 May 12; Matthew Robertson and Lea Zhou, 
``Chen's Lawyer Jiang Tianyong Captured, Beaten, and Put Under House 
Arrest,'' Epoch Times, 9 May 12.
    \78\ ``China Blocks Human Rights Lawyers From Defending Nephew of 
Blind Activist Chen,'' Associated Press, reprinted in Fox News, 18 May 
12.
    \79\ Chinese Human Rights Defenders, ``China Human Rights Briefing 
June 27-July 6, 2012,'' reprinted in Amnesty International UK, 6 July 
12.
    \80\ Xu Zhiyong, ``An Account of My Recent Disappearance,'' 
translated by Seeing Red in China, 21 June 12.
    \81\ See, e.g., Human Rights Watch, ``China: Beijing's `Assurances' 
on Chen Guangcheng Must Be Monitored,'' 2 May 12; Perry Link, ``Silent 
Protest,'' New Republic, 25 January 12; Josh Chin and Brian Spegele, 
``Dissidents Report Renewed Pressures,'' Wall Street Journal, 3 May 12; 
Renee Xia, ``Rule of Law? Not in China,'' Los Angeles Times, 10 May 12; 
``Activists Rally at UN for Chinese Lawyer Gao Zhisheng,'' New Tang 
Dynasty Television, 23 January 12.
    Notes to Section IV--Xinjiang

    \1\ Zhang Chunxian, ``Strive To Achieve Development by Leaps and 
Bounds and Lasting Peace and Stability in Xinjiang--Report on the 
Eighth Congress of the Communist Party of China of the Xinjiang Uyghur 
Autonomous Region'' [Wei shixian xinjiang kuayueshi fazhan he changzhi 
jiuan er fendou--zai zhongguo gongchandang xinjiang weiwuer zizhiqu 
dibaci daibiao dahui shang de baogao], Xinjiang Daily, 3 November 11 
(Open Source Center, 4 November 11).
    \2\ Ibid.
    \3\ See information that follows in this section as well as, e.g., 
Amnesty International, ``China: Authorities Widen Crackdown After 
Xinjiang Riots,'' 10 July 09; Yi Changchun, ``Shuimogou District 
Launches 100-Day Special Rectification Work Mobilization Meeting'' 
[Shuiqu zhaokai bairi zhuanxiang zhengzhi gongzuo dongyuan dahui], 
Xinjiang Peace Net, 16 December 10; CECC, 2011 Annual Report, 10 
October 11, 194; CECC, 2010 Annual Report, 10 October 10, 201; CECC, 
2009 Annual Report, 10 October 09, 245-48.
    \4\ See discussions and related endnotes in, e.g., CECC, 2011 
Annual Report, 10 October 11, 194-95; CECC, 2008 Annual Report, 31 
October 08, 168.
    \5\ Yang Jinghao, ``Police Shoot Dead 7 Terrorists in Xinjiang,'' 
Global Times, 30 December 11.
    \6\ ``Women Killed, Children Captured in Standoff,'' Radio Free 
Asia, 30 December 11.
    \7\ ``China [sic] Police Kill 7 Kidnappers in Hostage Rescue in 
Xinjiang,'' Xinhua, 29 December 11; Yang Jinghao, ``Police Shoot Dead 7 
Terrorists in Xinjiang,'' Global Times, 30 December 11; ``Armed Clashes 
in Xinjiang,'' Radio Free Asia, 29 December 11; ``Women Killed, 
Children Captured in Standoff,'' Radio Free Asia, 30 December 11. For 
CECC analysis, see ``Status of Uyghur Children in Detention Unknown 
Following Border Clash,'' CECC China Human Rights and Rule of Law 
Update, No. 2, 18 May 12, 3.
    \8\ Xuyang Jingjing, ``Xinjiang Tightens Inspection,'' Global 
Times, 20 June 12; ``Police Begin House Searches in Xinjiang,'' Agence 
France-Presse, reprinted in South China Morning Post, 19 June 12; 
Uyghur American Association, ``Notice Informs Locals of Mandatory 
Residence Searches in Hotan Community; Police Reserve the Right To `Use 
Force' To Enter Homes,'' 18 June 12; ``Freedom of Religion? Xinjiang 
Schools Need To Prove No Illegal Religious Activities,'' [Zongjiao 
xinyang ziyou? xinjiang gexiao xu ban wu feifa zongjiao huodong 
zhengming], Boxun, 16 June 12.
    \9\ ``Xiong Xuanguo: Strive To Push Ahead With Normalization of 
Stability and Maintenance Work'' [Xiong xuanguo: zhuoli tuijin weiwen 
gongzuo changtaihua], Xinjiang Legal Daily, 16 December 11; Zhang 
Chunxian, ``Strive To Achieve Development by Leaps and Bounds and 
Lasting Peace and Stability in Xinjiang--Report on the Eighth Congress 
of the Communist Party of China of the Xinjiang Uyghur Autonomous 
Region'' [Wei shixian xinjiang kuayueshi fazhan he changzhi jiuan er 
fendou--zai zhongguo gongchandang xinjiang weiwuer zizhiqu dibaci 
daibiao dahui shang de baogao], Xinjiang Daily, 3 November 11 (Open 
Source Center, 4 November 11).
    \10\ ``Xinjiang To Recruit 8,000 Police Officers To Boost Security 
in Rural Areas,'' Xinhua, 30 January 12.
    \11\ Ibid.
    \12\ ``Thousands of Special Police Transferred to Urumqi,'' Xinhua, 
reprinted in People's Daily, 24 November 11; Rena Wubuli, ``A Thousand 
Special Police Enrich Urumqi Municipality's Grassroots Police 
Stations'' [Qian ming tejing chongshi wu shi jiceng paichusuo], 
Xinjiang Daily, 24 November 11 (Open Source Center, 26 November 11).
    \13\ For more information on the Forum, see CECC, 2010 Annual 
Report, 10 October 10, 207-8, and ``Central Leaders Hold Forum on 
Xinjiang, Stress Development and Stability as Dual Goals,'' CECC China 
Human Rights and Rule of Law Update, No. 6, 12 July 10, 3. For 
comprehensive reporting on the forum from Chinese media, see, e.g., Zou 
Shengwen and Gu Ruizhen, ``The CPC Central Committee and State Council 
Hold Xinjiang Work Forum; Hu Jintao, Wen Jiabao Give Important 
Speeches; Zhou Yongkang Gives a Concluding Speech'' [Zhonggong 
zhongyang guowuyuan zhaokai xinjiang gongzuo huitan, hu jintao wen 
jiabao fabiao zhongyao jianghua, zhou yongkang zuo zongjie jianghua], 
Xinhua, 20 May 10 (Open Source Center, 23 May 10). For information on 
past development efforts, see, e.g., CECC, 2009 Annual Report, 10 
October 09, 263-64.
    \14\ Jiao Mingzhong, ``Heilongjiang Province Party and Government 
Administration Delegation Arrives in Xinjiang for Inspection and 
Greetings, and Conducting a New Round of Xinjiang Counterpart 
Assistance Work'' [Heilongjiangsheng dangzheng daibiaotuan dida 
xinjiang kaocha weiwen zuohao xinyilun yuanjiang gongzuo], Dongbei News 
Net, reprinted in Hexun, 20 June 12; ``144 Xinjiang Cadres Go to the 
Center, To Serve in National Bodies While Carrying Out Provincial and 
Municipal Counterpart Assistance'' [Xinjiang 144 ming ganbu fu 
zhongyang, guojia jiguan he duikou yuanjiang shengshi guazhi], Xinjiang 
Metropolitan Daily, reprinted in Xinhua, 26 March 12.
    \15\ ``Zhang Chunxian Discusses the Changes That Have Taken Place 
in Xinjiang in the Two Years Since the Xinjiang Work Forum Was Held'' 
[Zhang chunxian tan zhongyang xinjiang gongzuo huitan zhaokai 2 nian 
lai xinjiang bianhua], Xinhua, reprinted in TenCent News, 21 May 12; 
Han Jing et al., ``Thousands of Relocated Xinjiang Herders: `We Are 
Still Good Neighbors in the City' '' [Xinjiang qianhu mumin banqian: 
``zai chengli women hai zuo haolinju''], China News, 29 June 12; 
``China Plans To End Nomadic Life,'' Radio Free Asia, 5 June 12. For 
more information on grasslands policy and on initiatives announced at 
the Forum, see CECC, 2011 Annual Report, 10 October 11, 108, 196, 197; 
CECC, 2010 Annual Report, 10 October 10, 207-8.
    \16\ See generally Human Rights Watch, `` `No One Has the Liberty 
To Refuse': Tibetan Herders Forcibly Relocated in Gansu, Qinghai, 
Sichuan, and the Tibet Autonomous Region,'' June 2007; Human Rights in 
China, ``China: Minority Exclusion, Marginalization and Rising 
Tensions,'' 2007, 14; China's Ethnic Regional Autonomy Law: Does It 
Protect Minority Rights? Staff Roundtable of the Congressional-
Executive Commission on China, 11 April 05, Testimony of Christopher P. 
Atwood, Associate Professor, Department of Central Eurasian Studies, 
Indiana University. For CECC analysis, see ``State Council Opinion 
Bolsters Grazing Ban, Herder Resettlement,'' Congressional-Executive 
Commission on China, 18 October 11.
    \17\ ``Xinjiang To Recruit 8,000 Police Officers To Boost Security 
in Rural Areas,'' Xinhua, 30 January 12. For reference to the 
government's claim that Uyghur migrants had ``incited rioters,'' see 
``Slum, Shanty Towns To Be Removed From Urumqi,'' Xinhua, 11 July 10. 
For previous reporting on efforts in the XUAR to monitor migrants, with 
a focus on Uyghur migrants, within the region, see CECC, 2011 Annual 
Report, 10 October 11, 195; CECC, 2010 Annual Report, 10 October 10, 
210. For CECC analysis on the July 2009 demonstrations and riots in 
Urumqi, see ``Xinjiang Authorities Forcefully Suppress Demonstration, 
Restrict Free Flow of Information,'' CECC China Human Rights and Rule 
of Law Update, No. 4, 2009, 2.
    \18\ ``Urumqi Builds Homes for Shantytown Residents,'' Xinhua, 
reprinted in China Daily, 17 February 12.
    \19\ See, e.g., Yang Yonghua, ``Bortala Slum Transformation 
Embodies Putting People First'' [Bole shi penghuqu gaizao tixian yiren 
weiben], Xinjiang People's Broadcast Service, reprinted in China 
Xinjiang, 8 November 10; Zhao Guangping, ``Fukang City Slum District 
Transformation Enables Residents' Dreams of Peaceful Life'' [Fukang shi 
penghuqu gaizao yuanle jumin anju meng], Tianshan Net, 13 December 10; 
Tao Tao and Chen Zhe, ``Entering the Slum Districts: Urumqi Slum 
Transformation, Sunshine To Benefit the People'' [Zoujin penghuqu: 
wulumuqi shi penghu gaizao yangguang huimin], Xinjiang News Net, 5 
February 11.
    \20\ PRC Criminal Procedure Law [Zhonghua renmin gongheguo xingshi 
susong fa], enacted 1 July 79, amended 17 March 96, 14 March 12, 
effective 1 January 13, arts. 50, 54; Stanley Lubman, ``China's 
Criminal Procedure Law: Good, Bad and Ugly,'' Wall Street Journal, 21 
March 12.
    \21\ Stanley Lubman, ``China's Criminal Procedure Law: Good, Bad 
and Ugly,'' Wall Street Journal, 21 March 12; Sharon LaFraniere, 
``China Acts To Give Defendants Greater Rights,'' New York Times, 8 
March 12.
    \22\ National People's Congress Standing Committee, National 
People's Congress Standing Committee Decision Concerning Issues Related 
To Strengthening Anti-Terrorism Work [Quanguo renda changweihui guanyu 
jiaqiang fan kongbu gongzuo youguan wenti jueding], passed 29 October 
11.
    \23\ Ibid., arts. 2-6.
    \24\ Zhao Yinan, ``China Creates Legal Framework on Terrorism,'' 
China Daily, 30 October 11; ``Anti-Terror Legal Dilemma in Rights and 
Security,'' Global Times, 25 October 11; Ng Tze-Wei, ``First Anti-
Terror Draft Now Under NPC Scrutiny,'' South China Morning Post, 26 
October 11.
    \25\ ``Anti-Terror Law Changes Raise Concern,'' Radio Free Asia, 3 
November 11; Ng Tze-Wei, ``Fears Over New Rules on ID and `Terrorism,' 
'' South China Morning Post, 30 October 11. Compare to definitions in, 
e.g., International Convention for the Suppression of the Financing of 
Terrorism, adopted by UN General Assembly resolution A/RES/54/109 of 9 
December 99, entry into force 10 April 02, art. 2(1)(b), and UN 
Security Council, Security Council Resolution 1566 (2004) Concerning 
Threats to International Peace and Security Caused by Terrorism, 8 
October 04, S/RES/1566 (2004). For discussion on definitions of 
terrorism, see Steiner et al., International Human Rights in Context, 
Oxford University Press, 2008, third edition, 375-78.
    \26\ Xinjiang Uyghur Autonomous Region High People's Court, 
``Annual Report on Work of Xinjiang Courts (2011)'' [Xinjiang fayuan 
gongzuo niandu baogao (2011 nian)], reprinted in Xinjiang Court, 11 
January 12; ``Xinjiang Uyghur Autonomous Region High People's Court for 
First Time Issues Annual Work Report'' [Xinjiang weiwuer zizhiqu gaofa 
shouci duiwai fabu niandu baogao], Xinjiang Metropolitan Daily, 
reprinted in Tianshan Net, 19 January 12. For information about the 
reported terrorist attacks, see CECC, 2011 Annual Report, 10 October 
11, 194-95.
    \27\ Han Xiaoyi, ``Xinjiang Last Year Completed Trials in 376 Cases 
of Crimes for Endangering State Security'' [Xinjiang qunian shenjie 
weihai guojia anquan fanzui anjian 376 jian], People's Daily, 16 
January 11.
    \28\ ``Xinjiang Official Stresses Fighting Separatism, Says 198 
Sentenced for Deadly Riot,'' Xinhua, 7 March 10; ``198 People in 97 
Cases Already Tried and Sentenced in Urumqi `7-5' Incident'' [Wulumuqi 
``7-5'' shijian yi shenli xuanpan 97 an 198 ren], Xinhua, 7 March 10. 
See also analysis in ``198 People in Xinjiang Reportedly Sentenced in 
Trials Marked by Lack of Transparency,'' CECC China Human Rights and 
Rule of Law Update, No. 4, 21 April 10, 2.
    \29\ See, e.g., ``Promoting Increased Transparency in China's 
Criminal Justice System,'' Dui Hua Foundation, February 2009.
    \30\ Yan Wenlu, ``President of Xinjiang High People's Court: 
Conclusion of More Than 400 Cases Involving Crimes of Endangering State 
Security'' [Xinjiang gao fayuan zhang: shenjie weihai guojia anquan 
fanzui an 400 yu jian], China News Service, 12 January 12 (summarized 
in Open Source Center, 13 January 12); Guo Qian, ``High Court Report: 
Caseload for Suits and Petitions Last Year Decreases by More Than 
Half'' [Gaofa baogao: qunian she su xinfang liang xiajiang chao yiban], 
Xinjiang Daily, 13 January 12; Xinjiang Uyghur Autonomous Region High 
People's Court, ``Annual Report on Work of Xinjiang Courts (2011)'' 
[Xinjiang fayuan gongzuo niandu baogao (2011 nian)], reprinted in 
Xinjiang Court, 11 January 12; Han Xiaoyi, ``Xinjiang Last Year 
Completed Trials in 376 Cases of Crimes for Endangering State 
Security'' [Xinjiang qunian shenjie weihai guojia anquan fanzui anjian 
376 jian], People's Daily, 16 January 11.
    \31\ Cao Zhiheng, ``Xinjiang Courts in Total Conclude at Least 268 
Cases of Endangering State Security'' [Xinjiang fayuan gong shenjie 
weihai guojia anquan fanzui anjian 268 qi], Xinhua, 10 January 09; Dui 
Hua Foundation, ``State Security Stats Highlight Ethnic Unrest, Lack of 
Names,'' Dui Hua Human Rights Journal, 8 February 12. See also analysis 
in ``State Security Cases From Xinjiang Appear To Surge in 2008,'' CECC 
China Human Rights and Rule of Law Update, No. 1, 2009, 3.
    \32\ Amnesty International, ``Annual Report 2011--China,'' 31 March 
12; World Uyghur Congress, ``World Press Freedom Day: One Year On, 
Violation of Uyghurs' Freedom of Expression Still Continuing,'' 3 May 
12. For more information on these cases, see CECC, 2011 Annual Report, 
10 October 11, 198-99, and the Commission's Political Prisoner 
Database, records 2009-00448, 2009-00449, 2010-00106, 2010-00238, and 
2010-00253.
    \33\ For background information on how authorities in the XUAR have 
targeted religious and political publications in censorship campaigns, 
see ``Xinjiang Authorities Target Religious and Political Publications 
in Censorship Campaigns,'' Congressional-Executive Commission on China, 
31 March 11.
    \34\ ``Xinjiang Wensu Burns `Illegal Propaganda Materials': 
Stability and Maintenance Work Group Enters Village for Person-to-
Person `Education' '' [Xinjiang wensu fenhui ``feifa xuanchuan pin'' 
weiwen gongzuozu jincun ren ding ren ``jiaoyu''], Radio Free Asia, 5 
March 12.
    \35\ Ibid.
    \36\ ``Local Officials in Xinjiang Continue Curbs Over Religious 
Practice,'' CECC China Human Rights and Rule of Law Update, No. 1, 14 
February 12, 3; Xinjiang Uyghur Autonomous Region Communications 
Department, ``Transportation Department's `Sweeping Away Pornography 
and Striking Down Illegal Publications' Work Success Is Apparent'' 
[Jiaotong yunshu huanjie ``saohuang dafei'' gongzuo chengxiao 
mingxian], 14 November 11.
    \37\ See, e.g., Municipal Propaganda Department Media Bureau, 
``City of Artush Launches `Pre-Ramadan' Special Action To Clean Up and 
Inspect the Publication Market'' [Atushishi kaizhan ``zhaiyue'' qian 
chubanwu shichang qingli jiancha zhuanxiang xingdong], Artush Party 
Construction Net, 12 July 12; ``Local Officials in Xinjiang Continue 
Curbs Over Religious Practice,'' CECC China Human Rights and Rule of 
Law Update, No. 1, 14 February 12, 3; Urumqi Municipal Organization 
Department, ``Urumqi City, Tianshan District, Dawan Neighborhood 
Administrative Committee's `Four Cardinal Principles' To Occupy Firmly 
Ideological and Moral Positions of the Youth'' [Wulumuqishi tianshanqu 
dawanpianqu guanweihui ``sige jianchi'' laolao zhanling weichengnianren 
sixiang daode chendi], 7 November 11.
    \38\ For more information about their cases, see the Commission's 
Political Prisoner Database, records 2009-00449 and 2010-00253.
    \39\ Andrew Jacobs, ``China Imprisons 3 Men Who Maintained Uighur 
Web Sites,'' New York Times, 30 July 10; Amnesty International, ``China 
Convicts Uighur Web Managers on State Security Charges,'' 30 July 10.
    \40\ For more information about his case, including estimated date 
of release from prison, see CECC, 2010 Annual Report, 10 October 10, 
206-7, and the Commission's Political Prisoner Database, record 2010-
00106.
    \41\ For more information on various legal restrictions, see CECC, 
2011 Annual Report, 10 October 11, 200-201.
    \42\ Zhang Chunxian, ``Strive To Achieve Development by Leaps and 
Bounds and Lasting Peace and Stability in Xinjiang--Report on the 
Eighth Congress of the Communist Party of China of the Xinjiang Uyghur 
Autonomous Region'' [Wei shixian xinjiang kuayueshi fazhan he changzhi 
jiuan er fendou--zai zhongguo gongchandang xinjiang weiwuer zizhiqu 
dibaci daibiao dahui shang de baogao], Xinjiang Daily, 3 November 11 
(Open Source Center, 4 November 11).
    \43\ ``Xinjiang To Recruit 8,000 Police Officers To Boost Security 
in Rural Areas,'' Xinhua, 30 January 12. For additional information, 
see Security Measures in this section.
    \44\ State Administration for Religious Affairs, ``State 
Administration for Religious Affairs' 2012 Main Points of Work'' 
[Guojia zongjiao shiwuju 2012 nian gongzuo yaodian], 16 January 12.
    \45\ ``Nine Uyghurs Jailed Over Religious Activities,'' Radio Free 
Asia, 6 June 12. The Shule County Intermediate People's Court sentenced 
one of the men, Sidik Kurban, to 15 years in prison on charges of 
``inciting ethnic separatism.''
    \46\ ``Uyghurs Detained in Hotan,'' Radio Free Asia, 21 February 
12. For more information regarding the arrest of Uyghurs for taking 
part in ``illegal religious activities,'' see ``Xinjiang Continues 
Suppression of Religion, More Than 10 People Arrested in the North'' 
[Xinjiang chixu daya zongjiao beibu shi duo ren beibu], Radio Free 
Asia, 7 March 12; ``Xinjiang Wensu Burns `Illegal Propaganda 
Materials': Stability and Maintenance Work Group Enters Village for 
Person-to-Person `Education' '' [Xinjiang wensu fenhui ``feifa 
xuanchuan pin'' weiwen gongzuozu jincun ren ding ren ``jiaoyu''], Radio 
Free Asia, 5 March 12.
    \47\ Xiong Kunxin, ``Religious Freedom Doesn't Trump Protection of 
Minors,'' Global Times, 12 June 12; Shao Wei, ``Kids in Illegal 
Xinjiang Missionary Spot Rescued,'' China Daily, 6 June 12; ``12 
Children Hurt as China Police Raid Religious School,'' Associated 
Press, reprinted in Independent, 6 June 12. The Xinjiang government 
enforces extensive legal controls over children's freedom of religion 
and parents' right to impart religious teachings. For more information, 
see Xinjiang Uyghur Autonomous Region Implementing Measures for the 
``Law on the Protection of Minors'' [Xinjiang weiwuer zizhiqu shishi 
``weichengnianren baohu fa'' banfa], issued and effective 25 September 
93; Xinjiang Uyghur Autonomous Region Regulation on the Protection of 
Minors [Xinjiang weiwuer zizhiqu weichengnianren baohu tiaoli], issued 
25 September 09, effective 1 December 09. See also analysis in ``New 
Regulation in Xinjiang Appears To Expand Controls Over Children's 
Religious Freedom (Includes Update),'' CECC China Human Rights and Rule 
of Law Update, No. 1, 8 January 10, 2.
    \48\ ``Xinjiang Hotan Deals With Case of Confinement of Children, 
Illegal Teaching of Quran, 12 Children Burnt'' [Xinjiang hetian chuzhi 
kongzhi ertong feifa jiaojing an 12 ming ertong shaoshang], Tianshan 
Net, reprinted in Yongzhou Life Net, 6 June 12; Shao Wei, ``Kids in 
Illegal Xinjiang Missionary Spot Rescued,'' China Daily, 6 June 12; 
``12 Children Hurt as China Police Raid Religious School,'' Associated 
Press, reprinted in Independent, 6 June 12; ``Police Raid on Religious 
School in Xinjiang Leads to Violent Clash'' [Jingcha tuxi xinjiang 
zongjiao xuexiao yinfa baoli chongtu], BBC, 6 June 12.
    \49\ ``12 Children Hurt as China Police Raid Religious School,'' 
Associated Press, reprinted in Independent, 6 June 12.
    \50\ ``Death in Detention Draws Denigration,'' Radio Free Asia, 4 
June 12.
    \51\ Ibid.
    \52\ Ibid.
    \53\ Hejing County Bureau of Civil Affairs, ``Hejing County Bureau 
of Civil Affairs Widely Launches Activity on `Let New Trends in 
Civilization Enter 10,000 Homes' '' [Hejing xian minzhengju guangfan 
kaizhan ``wenming xinfeng jin wan jia huodong''], reprinted in People's 
Government of Hejing, 16 September 11; ``Xinjiang Yining To Mandate 
Diluted Religious Consciousness on the Streets'' [Xinjiang yining 
jiedao ni qiangzhi danhua zongjiao yishi], BBC, 15 December 11; ``Aksu 
District Bureau of Agriculture, Wushi County Bureau of Agriculture 
Issues `People's Conditions Packet' to Farmers'' [Wushi xian nongyeju 
xiang nonghu fafang ``minqingbao''], reprinted in Xinjiang Agriculture 
Information Net, 24 July 12.
    \54\ Hejing County Bureau of Civil Affairs, ``Hejing County Bureau 
of Civil Affairs Widely Launches Activity on `Let New Trends in 
Civilization Enter 10,000 Homes' '' [Hejing xian minzhengju guangfan 
kaizhan ``wenming xinfeng jin wan jia huodong''], reprinted in People's 
Government of Hejing, 16 September 11.
    \55\ ``Restrictions Imposed on Aid Recipients,'' Radio Free Asia, 
27 July 12. The RFA report refers to a pledge document RFA obtained 
from Turkey-based Istiqlal TV which RFA states was, according to 
Istiqlal TV, ``distributed in primarily Uyghur-populated areas of the 
Xinjiang Uyghur Autonomous Region, such as the southwestern cities of 
Hotan, Aksu, and Kashgar.'' Based on the language in the RFA report, it 
is unclear whether or not the document was distributed only in the 
referenced urban areas, or throughout the municipalities.
    \56\ See, e.g., Ruoqiang County Women's Federation, ``Circular 
Regarding the `Key Points of Propaganda Work of the Ruoqiang County 
Women's Federation in 2012' '' [Guanyu ``ruoqiang xian fulian 2012 nian 
xuanchuan gongzuo yaodian'' de tongzhi], reprinted in Ruoqiang County 
People's Government, 9 April 12; Kashgar Municipal People's Government, 
``Kashgar Municipality Holds `Women Buwi' Training Class'' [Kashi shi 
juban ``nu buwei'' peixun ban], 24 October 11; ``Hami District Women's 
Federation Actively Educates and Guides `Buwi' Women To Fully Exert 
Their Role as Women in Economics and Society'' [Hami diqu fulian jiji 
jiaoyu he yindao ``buwei'' nuxing chongfen fahui funu zai jingji shehui 
zhong de zuoyong], Xinjiang Party Construction Net, 13 August 12. For 
information on earlier steps to increase regulation of buwi, see 
``Xinjiang Authorities Train, Seek To Regulate Muslim Women Religious 
Figures,'' CECC China Human Rights and Rule of Law Update, No. 4, 2009, 
2, and ``Xinjiang Authorities Tighten Controls Over Muslim Women,'' 
CECC China Human Rights and Rule of Law Update, No. 5, 4 June 10, 2.
    \57\ See, e.g., Hao Qiujie, ``Songtake Township Prepares Well for 
Publicity and Education Work During Ramadan'' [Songtake xiang zhashi 
zuohao zhaiyue qijian xuanchuan jiaoyu gongzuo], Artush Party 
Construction Net, 12 July 12; Hotan County Local Taxation Bureau, Hotan 
County, ``Hotan County Revenue Department Launches Pre-Ramadan 
Restaurant Inspection Work'' [Hetian xian dishui ju kaizhan zhaiyue 
qian canyin ye jiancha gongzuo], 27 June 12; ``Yecheng County 
Industrial and Commercial Bureau To Actively Carry Out Propaganda and 
Education About Normal Business in the Restaurant Industry During 
Ramadan'' [Yecheng xian gongshang ju jiji zuo hao zai zhaiyue yueqi 
canyin ye zhengchang yingye xuanchuan jiaoyu gongzuo], Jinguoyu Net, 
reprinted in Yecheng Life Services Net, 11 July 12; ``Jeminai County 
Working Group Visits Places of Worship and Religious Figures To Ensure 
the Security and Stability of the Month of Ramadan'' [Jimunai xian 
gongzuozu zoufang zongjiao changsuo ji zongjiao renshi quebao zhaiyue 
qijian anquan wending], Xinjiang Party Construction Net, 11 July 12; 
Yang Liming, Bay County Yuanyi Station, ``Bay County Yuanyi Station 
Severe Poverty Location Launches People's Livelihood Service Week'' 
[Baicheng xian yuanyi zhan shenru fupin dian kaizhan minsheng fuwu zhou 
huodong], reprinted in Xinjiang Bay County Government Web site, 12 July 
12; ``Jiande Community Holds `Ethnic Unity Starts With Me' Group Day 
Activity'' [Jiande shequ juban ``minzu tuanjie, cong wo zuoqi'' tuanri 
huodong], Xinjiang Yutian Party Construction Net, 13 July 12. For 
additional information on controls over Ramadan in recent years, see, 
e.g., ``Xinjiang Authorities Implement Ramadan Curbs Amid Renewed 
Pledges for Tight Controls Over Religion,'' Congressional-Executive 
Commission on China, 11 October 11.
    \58\ ``No Respite in Ramadan Controls,'' Radio Free Asia, 8 August 
12.
    \59\ ``China Steps Up Curbs on Muslims,'' Radio Free Asia, 23 July 
12.
    \60\ Kathrin Hille, ``China Bans Religious Activities in 
Xinjiang,'' Financial Times, 2 August 12; ``Xinjiang Muslims Irked by 
Government Restrictions,'' Voice of America, 7 August 12; Arch 
Puddington, ``The China Exception: Keeping Uighurs Well Fed for 
Ramadan,'' Freedom House, 8 August 12.
    \61\ ``Scholar Gets Website Warning,'' Radio Free Asia, 10 August 
12.
    \62\ ``Xinjiang Armed Police Enter Mosques During Ramadan--
Conflicts Could Intensify'' [Xinjiang wujing zhaiyue zouru qingzhensi--
maodun huo jihua], Uyghur Online, 7 August 12.
    \63\ ``Xinjiang Muslims Irked by Government Restrictions,'' Voice 
of America, 7 August 12; Le Ran, ``Ilham Tohti: Prohibiting Muslims 
From Fasting Counterproductive for Stabilizing Xinjiang'' [Yilihamu: 
jinzhi musilin fengzhai dui wending xinjiang shide qi fan], Deutsche 
Welle, reprinted in Uyghur Online, 3 August 12; ``China Steps Up 
Campaign Against Ramadan Fasting for Uighurs; Experts Fear Backlash,'' 
Associated Press, reprinted in Washington Post, 3 August 12.
    \64\ In Chinese law, see, e.g., PRC Constitution, enacted and 
effective 4 December 82, amended 12 April 88, 29 March 93, 15 March 99, 
14 March 04, arts. 4, 121; PRC Regional Ethnic Autonomy Law (REAL), 
enacted 31 May 84, effective 1 October 84, amended 28 February 01, 
arts. 10, 21, 37. The 2005 Implementing Provisions for the REAL affirm 
the freedom to use and develop minority languages but also place 
emphasis on the use of Mandarin by promoting ``bilingual'' education 
and bilingual teaching staff. State Council Provisions on Implementing 
the PRC Regional Ethnic Autonomy Law [Guowuyuan shishi ``zhonghua 
renmin gongheguo minzu quyu zizhifa'' ruogan guiding], issued 19 May 
05, effective 31 May 05, art. 22. In international law, see, e.g., 
International Covenant on Civil and Political Rights (ICCPR), adopted 
by UN General Assembly resolution 2200A (XXI) of 16 December 66, entry 
into force 23 March 76, arts. 26, 27.
    \65\ Gao Jihui et al., `` `Combination Punch' Promotes Bilingual 
Education, a Million Kids Benefit'' [``Zuhe quan'' tuidong shuangyu 
jiaoyu baiwan haizi shouyi], Xinjiang Television Station, 22 October 
11.
    \66\ Ibid.; Jing Bo, ``750,000 Ethnic Minority Students in Xinjiang 
Receive `Bilingual' Education'' [Xinjiang 75 wan shaoshu minzu xuesheng 
jieshou ``shuangyu'' jiaoxue], Xinjiang Daily, reprinted in Xinhua, 12 
January 10. The 2010 article refers to students ``receiving bilingual 
education'' (jieshou shuangyu jiao) rather than students in ``bilingual 
classes'' (shuangyuban xuesheng), but the two categories appear to be 
roughly comparable, based on seemingly interchangeable use of the terms 
in the 2011 article. If the figure for students ``receiving bilingual 
education'' includes a broader number than those in formal bilingual 
classes, then the number of students ``receiving'' bilingual education 
in 2011 could exceed the 1.2 million enrolled in bilingual classes.
    \67\ Gao Jihui et al., `` `Combination Punch' Promotes Bilingual 
Education, a Million Kids Benefit'' [``Zuhe quan'' tuidong shuangyu 
jiaoyu baiwan haizi shouyi], Xinjiang Television Station, 22 October 
11; Xinjiang Uyghur Autonomous Region Party Committee and People's 
Government, Xinjiang Uyghur Autonomous Region Mid- to Long-Term 
Education Reform and Development Plan (2010-2020) [Xinjiang weiwuer 
zizhiqu zhongchangqi jiaoyu gaige he fazhan guihua gangyao (2010-2020 
nian)], issued 21 January 11, item 14.
    \68\ Xinjiang Uyghur Autonomous Region Party Committee and People's 
Government, Xinjiang Uyghur Autonomous Region Mid- to Long-Term 
Education Reform and Development Plan (2010-2020) [Xinjiang weiwuer 
zizhiqu zhongchangqi jiaoyu gaige he fazhan guihua gangyao (2010-2020 
nian)], issued 21 January 11, item 14; Jing Bo, ``Xinjiang Promulgates 
`Outline of Education Plan' '' [Xinjiang gongbu ``jiaoyu guihua 
gangyao''], Tianshan Net, 22 January 11 (noting date of issue of the 
reform plan). For more information, see analysis in ``Xinjiang 
Authorities Accelerate Promotion of Mandarin-Focused Bilingual 
Education,'' Congressional-Executive Commission on China, 10 May 11.
    \69\ See, e.g., Uyghur Human Rights Project, ``Uyghur Language 
Under Attack: The Myth of `Bilingual' Education in the People's 
Republic of China,'' 24 July 07, 5-6; D.T., Human Rights in China, 
``Uyghur Culture Faced With Endless Campaigns,'' China Rights Forum, 
No. 4, 2007, 99-101.
    \70\ Liu Yabei, ``2012 `Gaoban' Entrance Examination Successfully 
Held'' [2012 nian nei gao ban zhaosheng kaoshi shunli juxing], Xinjiang 
Class, 3 July 12.
    \71\ Mao Yong and Zhou Shengbin, ``National Finals for the Inner 
High School Classes' `Thank the Great Motherland' Speech Contest Held 
in Urumqi'' [Nei gao ban ``gan'en weida zuguo'' yanjiang quanguo zong 
juesai wulumuqi juxing], Xinhua, reprinted in Tianjin Net, 16 November 
10.
    \72\ For May 2010 statistics, see ``The Tianshan Witnesses a New 
Hope: A Review of XUAR Educational Development'' [Tianshan jianzheng 
xin xiwang: xinjiang weiwuer zizhiqu jiaoyu fazhan zongshu], Xinhua, 
reprinted in PRC Central People's Government, 19 May 10.
    \73\ Liu Lumei, ``Xinjiang Academy of Social Sciences: 2011 
Research Report on Construction of People's Livelihood in Xinjiang'' 
[Xinjiang sheke yuan: 2011 nian xinjiang minsheng jianshe yanjiu 
baogao], reprinted in Tianshan Net, 28 December 11 (Tianshan Net cites 
source as 2011-2012 Xinjiang Economic Analysis and Forecast Bluebook 
[``2011-2012 nian xinjiang jingji xingshi fenxi yu yuce qingkuang'' 
lanpishu]). For information on reward programs in earlier years, see 
CECC, 2010 Annual Report, 10 October 10, 209-10.
    \74\ ``This Year 110,000 People in Xinjiang Profited From the Rural 
Population Planning Reward System Policies'' [Jinnian xinjiang 11 wan 
ren shouyi nongcun jihua shengyu teshu jiangli zhengce], Xinjiang 
Daily, reprinted in China Ethnicities News, 30 October 11. For 
background on the program as initially launched, see, e.g., Zepu County 
Population and Family Planning Committee, ``Rural Family Planning 
Household Special Reward System for Three Southern Xinjiang District 
and Prefectural Areas'' [Nanjiang san dizhou nongcun jihua shengyu 
jiating teshu jiangli zhidu], 4 September 08, reprinted in Zepu 
People's Government, 12 April 11.
    \75\ ``National Population and Family Planning Commission Starts 
Series of Operations To Support Xinjiang'' [Guojia renkou jishengwei 
qidong zhiyuan xinjiang xilie xingdong], China Population News, 
reprinted in National Population and Family Planning Commission, 3 
November 09. For additional analysis, see ``Authorities Begin New 
Incentive Initiative To Continue Population Control in Xinjiang,'' CECC 
China Human Rights and Rule of Law Update, No. 1, 8 January 10, 2.
    \76\ Liu Lumei, ``Xinjiang Academy of Social Sciences: 2011 
Research Report on Construction of People's Livelihood in Xinjiang'' 
[Xinjiang sheke yuan: 2011 nian xinjiang minsheng jianshe yanjiu 
baogao], reprinted in Tianshan Net, 28 December 11 (Tianshan Net cites 
source as 2011-2012 Xinjiang Economic Analysis and Forecast Bluebook 
[``2011-2012 nian xinjiang jingji xingshi fenxi yu yuce qingkuang'' 
lanpishu]).
    \77\ Xinjiang Autonomous Region Population and Family Planning 
Commission, ``Rural Special Reward System in Three Southern Xinjiang 
District and Prefectural Areas Is Again Enlarged'' [Xinjiang nanjiang 
san dizhou nongcun teshu jiangli zhengce zaidu kuomian], reprinted in 
Tianshan Net, 17 March 11.
    \78\ For reference to the term ``Muslim Reproductive Health 
Project'' see, e.g., Jiang Yan, ``Muslim Reproductive Health Project 
Extends Benefits to Nearly 300,000 Muslim Masses in Yining County'' 
[Musilin shengzhi jiankang xiangmu huiji yining xian jin 30 wan musilin 
qunzhong], Tianshan Net, 29 September 11.
    \79\ Jiang Yan, ``Muslim Reproductive Health Project Extends 
Benefits to Nearly 300,000 Muslim Masses in Yining County'' [Musilin 
shengzhi jiankang xiangmu huiji yining xian jin 30 wan musilin 
qunzhong], Tianshan Net, 29 September 11; XUAR Population and Family 
Planning Commission, ``Association Information--August 22'' [Xiehui 
xinxi], 22 August 11.
    \80\ Xinjiang Uyghur Autonomous Region Population and Family 
Planning Commission, ``XUAR Population and Family Planning Commission 
Convenes Party and Clean Politics and Birth Planning Association Work 
Meeting'' [Zizhiqu renkou jishengwei zhaokai dang feng lianzheng xing 
feng jianshe he jihua shengyu xiehui gongzuo huiyi], 9 January 12.
    \81\ Jiang Yan, ``Muslim Reproductive Health Project Extends 
Benefits to Nearly 300,000 Muslim Masses in Yining County'' [Musilin 
shengzhi jiankang xiangmu huiji yining xian jin 30 wan musilin 
qunzhong], Tianshan Net, 29 September 11; ``China Population Planning 
Association Muslim Reproductive Health Project Exchange Activity 
Convened in Xinjiang'' [Zhongguo jisheng xie musilin shengzhi jiankang 
xiangmu jiaoliu huodong zai wo qu juxing], Tianshan Net, 13 December 
11; Yumin County, Aleteng Yemule Village Government, `` `Muslim Public 
Reproductive Health' Project Launch Ceremony Is Held in Aleteng Yemule 
Village'' [``Musilin qunzhong shengzhi jiankang'' xiangmu qidong yishi 
zai aleteng yemule xiang zhaokai], 23 May 12.
    \82\ See, e.g., PRC Constitution, enacted and effective 4 December 
82, amended 12 April 88, 29 March 93, 15 March 99, 14 March 04, art. 4; 
PRC Regional Ethnic Autonomy Law [Zhonghua renmin gongheguo minzu quyu 
zizhifa], issued 31 May 84, effective 1 October 84, amended 28 February 
01, art. 9; PRC Labor Law [Zhonghua renmin gongheguo laodongfa], issued 
5 July 94, effective 1 January 95, art. 12; PRC Employment Promotion 
Law [Zhonghua renmin gongheguo jiuye cujinfa], issued 30 August 07, 
effective 1 January 08, art. 28. See also legal analysis in 
``Governments in Xinjiang Continue To Sponsor, Sanction Job Recruitment 
That Discriminates Against Ethnic Minorities,'' CECC China Human Rights 
and Rule of Law Update, No. 2, 2009, 3; Kashgar Job Recruitment Net, 
``Kashgar Minxin Supermarket/Cashiers'' [Kashi minxin chaoshi/
shouyinyuan], 22 May 12; Xinjiang Meizhoutuo Investment Company, 
``Xinjiang Meizhoutuo Investment Company Seeks Cashiers (Urgent)'' 
[Xinjiang meizhoutuo touzi guanli gongsi zhaopin shouyinyuan (jipin)], 
reprinted in 01hr.com, 16 July 12; Xinjiang University College of 
Humanities, ``Xinjiang Changji Vocational and Technical College 2012 
Personnel Recruitment Notice'' [Xinjiang changji zhiye jishu xueyuan 
2012 nian rencai zhaopin qishi], 15 March 12; ``Table for 2012 Xinjiang 
Civil Servant Posts'' [2012 xinjiang gongwuyuan luyong zhiwei biao], 
reprinted in Baidu, 4 June 12 (Baidu does not identify the source of 
the table). For more information regarding job discrimination against 
ethnic minorities in Xinjiang, see ``Job Discrimination Against Ethnic 
Minorities Continues in Xinjiang,'' Congressional-Executive Commission 
on China, 31 March 11.
    \83\ Wang Xiaojuan, ``Xinjiang Formally Implements `Employment 
Promotion Law' Measures'' [Xinjiang shishi ``jiuye cujinfa'' banfa 
zhengshi shishi], Xinjiang Net, reprinted in Xinjiang Education 
Information Net, 8 February 12; Yunshui Chanxin, ``XUAR To Implement 
the Employment Promotion Law To Stabilize People's Livelihood'' 
[Xinjiang weiwuer zizhiqu shishi jiuye cujinfa wengu minsheng zhi ben], 
Tianshan Net, reprinted in Xinhua, 9 March 12. For the text of the law, 
see Measures for the XUAR To Implement the National Employment 
Promotion Law [Xinjiang weiwuer zizhiqu shishi zhonghua renmin 
gongheguo jiuye cujinfa banfa], passed 1 December 11, effective 1 
February 12. For earlier state media reporting on the draft version of 
the measures, see Pan Congwu, ``Employing Units Must Not Stipulate 
Discriminatory Hiring Conditions'' [Yongren danwei bude guiding jiuye 
qishixing tiaojian], Legal Daily, 9 October 11.
    \84\ See, e.g., PRC Employment Law [Zhonghua renmin gongheguo jiuye 
cujinfa], issued 30 August 07, effective 1 January 08, and analysis in 
``Xinjiang Draft Legal Measures Promote Hiring Ethnic Minorities, 
Against Track Record of Employment Discrimination,'' CECC China Human 
Rights and Rule of Law Update, No. 1, 24 January 12, 4.
    \85\ For a description of the draft measures, see Pan Congwu, 
``Employing Units Must Not Stipulate Discriminatory Hiring Conditions'' 
[Yongren danwei bude guiding jiuye qishixing tiaojian], Legal Daily, 9 
October 11. For comparison with the PRC Employment Promotion Law, see, 
e.g., PRC Employment Law [Zhonghua renmin gongheguo jiuye cujinfa], 
issued 30 August 07, effective 1 January 08, arts. 3, 26, 28, as well 
as analysis in ``Xinjiang Draft Legal Measures Promote Hiring Ethnic 
Minorities, Against Track Record of Employment Discrimination,'' CECC 
China Human Rights and Rule of Law Update, No. 1, 24 January 12, 4.
    \86\ For information on discriminatory hiring practices in past 
years and applicable laws in this area, see, e.g., CECC, 2011 Annual 
Report, 10 October 11, 203-4, and legal analysis in ``Governments in 
Xinjiang Continue To Sponsor, Sanction Job Recruitment That 
Discriminates Against Ethnic Minorities,'' CECC China Human Rights and 
Rule of Law Update, No. 2, 11 March 09, 3.
    \87\ See, e.g., ``Estimate of the Number of Those Employed Through 
Transfer of Rural Excess Labor Force in Xinjiang Reaches 2.2 Million'' 
[Xinjiang nongye fuyu laodongli zhuanyi jiuye renshu yuji dadao 220 
wan], Xinjiang Metropolitan News, reprinted in Xinhua, 9 December 11, 
for reference to this phrase.
    \88\ ``In 2011, Xinjiang Achieved the Transfer and Employment of 
2.58 Million Rural Surplus Laborers'' [2011 nian xinjiang shixian 
nongcun fuyu laodongli zhuanyi jiuye 258 wan renci], Xinjiang Daily, 
reprinted in PRC Central People's Government, 22 March 12; Chinese 
Communist Party Xinjiang Uyghur Autonomous Region Committee 
Agricultural Work Office, ``200 Million Surplus Rural Laborers To Be 
Transferred by the XUAR This Year'' [Jinnian zizhiqu jiang zhuanyi 
nongcun fuyu laodongli 200 wan ren], 22 March 12. A previous estimate 
of figures for 2011 included an estimation of 150,000 people from the 
region who had been transferred to jobs in other areas of China, out of 
a total of 2.2 million people transferred to jobs outside their 
immediate home area (see ``Estimate of the Number of Those Employed 
Through Transfer of Rural Excess Labor Force Reaches 2.2 Million'' 
[Xinjiang nongye fuyu laodongli zhuanyi jiuye renshu yuji dadao 220 
wan], Xinjiang Metropolitan News, reprinted in Xinhua, 9 December 11; 
Li Min, ``2.2 Million Occurrences of Transfer of Rural Excess Labor 
Force in 2011 in Xinjiang'' [2011 nian xinjiang zhuanyi nongcun fuyu 
laodongli 220 wan ren ci], Tianshan Net, 9 December 11. The central 
government figures issued in March did not provide this breakdown.
    \89\ CECC, 2008 Annual Report, 31 October 08, 179; CECC, 2009 
Annual Report, 10 October 09, 264-66; CECC, 2010 Annual Report, 10 
October 10, 211-12.
    \90\ See, e.g., ``Xinjiang Nileke Urges Transfer of Surplus Labor; 
Over 300 Workers Head Off for Work'' [Xinjiang nileke licu fuyu 
laodongli zhuanyi jiuye 300 yu ren waichu wugong], Xinjiang News Net, 
reprinted in Ministry of Human Resources and Social Security, 17 July 
12; Wu Yunhua, ``Rural Labor Transfer Brings New Hope for Prosperity'' 
[Laodongli zhuanyi dailai zhifu xin xiwang], Xinjiang Today, 14 May 12.
    \91\ For general background on the project, see ``Demolition of 
Kashgar's Old City Draws Concerns Over Cultural Heritage Protection, 
Population Resettlement,'' CECC China Human Rights and Rule of Law 
Update, No. 3, 2009, 2. For more information on concerns regarding the 
resettlement of Old City residents and the project's impact on Uyghur 
cultural heritage, see Uyghur Human Rights Project, ``Living on the 
Margins: The Chinese State's Demolition of Uyghur Communities,'' 2 
April 12.
    \92\ ``In Kashgar Nearly 20,000 Households of Old City Residents Go 
Into New Homes'' [Kashi shi jin liangwan hu laochengqu jumin hui qian 
xinju], Kashgar Daily, reprinted in Huaxia, 4 November 11.
    \93\ Stefan Geens, ``The Last Days of Old Kashgar--An Update,'' 
Ogleearth.com, 24 February 12.
    \94\ ``Chinese Western Border City Kashgar Has Cracked the World-
Class Problem of the Transformation of the Old City'' [Zhongguo xibu 
biancheng kashi pojie laocheng gaizao shijie ji nanti], Xinhua, 13 
September 09.
    \95\ See, e.g., Michael Wines, ``To Protect an Ancient City, China 
Moves To Raze It,'' New York Times, 27 May 09; ``China Remodels Silk 
Road City but Scars Run Deep,'' Agence France-Presse, 7 August 11 (Open 
Source Center, 7 August 11).
    \96\ Uyghur Human Rights Project, ``Living on the Margins: The 
Chinese State's Demolition of Uyghur Communities,'' 2 April 12, 29-54.
    \97\ Ye Xiaomin, ``Xinjiang Peaceful Resident, Prosperous Citizen 
Project To Start in Late March'' [Xinjiang anju fumin gongcheng 3 yuedi 
luxu kaigong], Tianshan Net, 2 March 12; Wang Yuanyuan, ``By the End of 
the `12th Five-Year' Plan, Xinjiang Will Have Completed the 
Construction of 1.5 Million Peaceful Resident, Prosperous Citizen 
Houses'' [``Shierwu'' mo xinjiang jiang wancheng 150 wan hu anju fumin 
fang de jianshe], Xinjiang Net, reprinted in Xinhua, 2 March 12.
    \98\ ``Two More Uyghurs Get Life Sentences,'' Radio Free Asia, 27 
January 12.
    \99\ Ibid.
    \100\ Zhou Yingfeng and Cui Qingxin, ``Our Country Busts Major 
Terrorist Group Case, Details on Public Security Bureau Announcement'' 
[Woguo pohuo zhongda kongbu zuzhi an gonganbu gongbu xiangqing], 
Xinhua, 24 June 10 (Open Source Center, 24 June 10).
    \101\ See CECC, 2010 Annual Report, 10 October 10, 212-13.
    \102\ United Nations High Commissioner for Refugees, ``The 
Exclusion Clauses: Guidelines on Their Application,'' December 1996, 
II(i)(10). See also Monette Zard, ``Exclusion, Terrorism and the 
Refugee Convention,'' Forced Migration Review, June 2002; CECC, 2010 
Annual Report, 10 October 10, 213.
    \103\ Uyghur American Association, ``Reports: Uyghur Asylum Seekers 
Deported From Cambodia Sentenced to Life, 17 Years in Prison,'' 26 
January 12.
    \104\ Ibid.
    Notes to Section V--Tibet

    \1\ Office of His Holiness the Dalai Lama, ``Press Statement,'' 25 
January 10. According to the January 25 press statement, the Dalai 
Lama's envoys would arrive in China ``tomorrow'' (i.e., January 26, 
2010) for the ``ninth round of dialogue.''
    \2\ ``Press Conference on Central Govt's Contacts With Dalai Lama 
(Text),'' China Daily, 11 February 10. After the ninth round of 
dialogue, Zhu Weiqun referred to the gap between the eighth and ninth 
rounds as ``the longest interval after we resumed contact and talks in 
2002.''
    \3\ China Directory 2012, ed. Radiopress (Tokyo: JPM Corporation, 
Ltd., December 2011), 17.
    \4\ Ibid., 27.
    \5\ ``Official: Dalai Lama `Stubborn in Talks, Not True to His 
Word,' '' People's Daily, 26 March 09. According to the article, ``Zhu 
has been dealing with Tibet-related issues since 1998 and has been 
personally involved in all the contacts and talks with the Dalai Lama 
side since 2003.'' ``Press Conference on Central Govt's Contacts With 
Dalai Lama (Text),'' China Daily, 11 February 10. According to the 
article, Zhu Weiqun presided at the State Council Information Office 
press conference to provide a briefing on the January 2010 (ninth) 
round of dialogue. ``Kalon Tripa Accepts Resignations of Special Envoy 
Lodi G. Gyari and Envoy Kelsang Gyaltsen,'' Tibetan Government-in-
Exile, 3 June 12. Without naming Zhu Weiqun, the article refers to him 
as ``[o]ne of the key Chinese interlocutors in the dialogue process.''
    \6\ ``Zhu Weiqun Talks About Dalai and Other Issues With EU 
Officials, Scholars, and Reporters'' [Zhu weiqun yu oumeng guanyuan, 
xuezhe, jizhe tan dalai deng wenti], China Tibet Online, 29 December 11 
(translated in Open Source Center, 12 January 12). United Front Work 
Department Executive Deputy Head Zhu Weiqun told a gathering in 
Brussels that included European Union officials, ``[We] want to talk 
about things like the Dalai Lama stopping all separatist and sabotage 
activities as well as recognizing Taiwan as part of China under the 
premise of satisfying the central government's basic requirements on 
him, such as recognizing that Tibet has been an inalienable part of 
China since ancient times.''
    \7\ ``Zhu Weiqun Talks About Dalai and Other Issues With EU 
Officials, Scholars, and Reporters'' [Zhu weiqun yu oumeng guanyuan, 
xuezhe, jizhe tan dalai deng wenti], China Tibet Online, 29 December 11 
(translated in Open Source Center, 12 January 12); ``State Council 
Information Office Holds News Conference on Contacts and Discussions 
Between Concerned Central Departments and the Dalai Lama's Private 
Representatives,'' Xinhua, 2 February 10 (translated in Open Source 
Center, 3 February 10) (Zhu stated that if the Dalai Lama fulfills 
preconditions, then Chinese officials can have a ``discussion'' about 
the Dalai Lama's ``personal future and the future of those around 
him''); ``Press Conference on Central Govt's Contacts With Dalai Lama 
(Text),'' China Daily, 11 February 10 (referring to the Dalai Lama's 
envoys, Zhu stated, ``What they can do is to talk with us about things 
related to the future of the Dalai Lama and, at most, a small party 
around him, . . . .''). For additional information on Communist Party 
preconditions on the Dalai Lama, see, e.g., ``China Demands That the 
Dalai Lama Fulfill Additional Preconditions to Dialogue,'' 
Congressional-Executive Commission on China, 30 July 08.
    \8\ Office of His Holiness the Dalai Lama, ``Statement of His 
Holiness the Dalai Lama on the 52nd Anniversary of the Tibetan National 
Uprising Day,'' 10 March 11. The Dalai Lama stated: ``The Chinese 
government claims there is no problem in Tibet other than the personal 
privileges and status of the Dalai Lama. The reality is that the 
ongoing oppression of the Tibetan people has provoked widespread, deep 
resentment against current official policies.''
    \9\ For more information on the Tibetan autonomous areas of China, 
see CECC, ``Special Topic Paper: Tibet 2008-2009,'' 22 October 09, 22-
24. In China there are 1 provincial-level area of Tibetan autonomy, 10 
prefectural-level areas of Tibetan autonomy, and 2 county-level areas 
of Tibetan autonomy. The area of the Tibet Autonomous Region (TAR) 
(approximately 1.2 million square kilometers), the 10 TAPs 
(approximately 1.02 million square kilometers), and 2 Tibetan 
autonomous counties (TACs) (approximately 0.019 million square 
kilometers) totals approximately 2.24 million square kilometers. The 10 
TAPs make up approximately 46 percent of the TAR/TAP/TAC total area. 
According to China's 2000 census data, the Tibetan population of the 
TAR (approximately 2.43 million persons), the 10 TAPs (approximately 
2.47 million persons), and the 2 TACs (approximately 0.11 million 
persons) totaled approximately 5.01 million Tibetans. The Tibetan 
population of the 10 TAPs made up approximately 49 percent of the TAR/
TAP/TAC total Tibetan population as of 2000. Department of Population, 
Social, Science and Technology Statistics, National Bureau of 
Statistics, and Department of Economic Development, State Ethnic 
Affairs Commission, Tabulation on Nationalities of 2000 Population 
Census of China (Beijing: Ethnic Publishing House, September 2003), 
Tables 10-1, 10-4; Steven Marshall and Susette Cooke, Tibet Outside the 
TAR: Control, Exploitation and Assimilation: Development With Chinese 
Characteristics (Washington, DC: Self-published CD-ROM, 1997), Table 7, 
citing multiple Chinese sources. Table 7 provides the following 
information. Tibet Autonomous Region (1.2 million square kilometers, or 
463,320 square miles). Qinghai province: Haibei (Tsojang) TAP (52,000 
square kilometers, or 20,077 square miles), Hainan (Tsolho) TAP (41,634 
square kilometers, or 16,075 square miles), Haixi (Tsonub) Mongol and 
Tibetan AP (325,787 square kilometers, or 125,786 square miles), 
Huangnan (Malho) TAP (17,901 square kilometers, or 6,912 square miles), 
Guoluo (Golog) TAP (78,444 square kilometers, or 30,287 square miles), 
and Yushu (Yushul) TAP (197,791 square kilometers, or 76,367 square 
miles). Gansu province: Gannan (Kanlho) TAP (45,000 square kilometers, 
or 17,374 square miles) and Tianzhu (Pari) TAC (7,150 square 
kilometers, or 2,761 square miles). Sichuan province: Ganzi (Kardze) 
TAP (153,870 square kilometers, or 59,409 square miles); Aba (Ngaba) 
Tibetan and Qiang AP (86,639 square kilometers, or 33,451 square 
miles); and Muli (Mili) TAC (11,413 square kilometers, or 4,407 square 
miles). Yunnan province: Diqing (Dechen) TAP (23,870 square kilometers, 
or 9,216 square miles). The Table provides areas in square kilometers; 
conversion to square miles uses the formula provided on the Web site of 
the U.S. Geological Survey: 1 square kilometer = 0.3861 square mile.
    \10\ Office of the Spokesperson, U.S. Department of State, 
``Statement by Special Coordinator for Tibetan Issues Maria Otero,'' 24 
January 12. Under Secretary Otero also serves as the U.S. Special 
Coordinator for Tibetan Issues.
    \11\ ``Kalon Tripa Accepts Resignations of Special Envoy Lodi G. 
Gyari and Envoy Kelsang Gyaltsen,'' Tibetan Government-in-Exile, 3 June 
12. The article attributes the quoted remarks to the envoys' 
resignation letter.
    \12\ Ibid. The article attributes the quoted remarks to the envoys' 
resignation letter.
    \13\ For additional information and analysis on Tibetan self-
immolation, see CECC, ``Special Report: Tibetan Self-Immolation--Rising 
Frequency, Wider Spread, Greater Diversity,'' 22 August 12.
    \14\ The Commission has not enumerated as a political, religious, 
or cultural protest the reported June 27, 2012, self-immolation of 
Dekyi Choezom in Yushu (Yulshul) Tibetan Autonomous Prefecture, Qinghai 
province. According to reports, she committed self-immolation to 
protest against property expropriation. See, e.g., ``Tibetan Woman Sets 
Herself Alight,'' Radio Free Asia, 2 July 12. According to the report, 
a local resident, speaking on condition of anonymity, said, ``She moved 
to the area a couple of years ago and the self-immolation was in 
protest against the confiscation of her residence.''
    \15\ For information on the self-immolations prior to December 
2011, see CECC, ``Special Report: Tibetan Monastic Self-Immolations 
Appear To Correlate With Increasing Repression of Freedom of 
Religion,'' 24 January 12. (There are two prefectural-level areas of 
ethnic Tibetan autonomy in Sichuan province: Ganzi (Kardze) Tibetan 
Autonomous Prefecture and Aba (Ngaba) Tibetan and Qiang AP. For a map 
and additional information on Tibetan autonomous prefectures, see CECC, 
``Special Topic Paper: Tibet 2008-2009,'' 22 October 09, 22-24.)
    \16\ As of August 27, 2012, eight self-immolations took place in 
Qinghai province: International Campaign for Tibet, ``Tibetan Self-
Immolations Continue and Spread in Tibet Into 2012,'' 9 January 12 
(self-immolation in Dari (Darlag) county, Guoluo (Golog) TAP); 
``Tibetan Monk Self-Immolates in Yushu,'' Voice of America, 10 February 
12 (self-immolation in Chenduo (Tridu) county, Yushu (Yulshul) TAP); 
``Monk Burns To Protest Monastery Intrusion,'' Radio Free Asia, 17 
February 12 (self-immolation in Tianjun (Themchen) county, Haixi 
(Tsonub) Mongol and Tibetan Autonomous Prefecture); ``Tibetan Monk 
Self-Immolates in Rebkong, Thousands Gather To Pray and Protest,'' 
Voice of America, 14 March 12 (self-immolation in Rebgong (Tongren) 
county, Huangnan (Malho) TAP); ``Farmer Dies in New Burning Protest,'' 
Radio Free Asia, 17 March 12 (self-immolation in Tongren county, 
Huangnan TAP); International Campaign for Tibet, ``Hundreds of Tibetans 
Face Down Police To Gather for Cremation of Tibetan Who Self-Immolated 
Today,'' 15 June 12 (self-immolation in Jianzha (Chentsa) county, 
Huangnan TAP); ``Two Tibetans Set Themselves on Fire in West China,'' 
Associated Press, 21 June 12, reprinted in Huffington Post (two self-
immolations in Chenduo county, Yushu TAP). (There are six prefectural-
level areas of ethnic Tibetan autonomy in Qinghai province: Haibei 
(Tsojang) Tibetan Autonomous Prefecture (TAP), Hainan (Tsolho) TAP, 
Haixi (Tsonub) Mongol and Tibetan AP, Huangnan (Malho) TAP, Guoluo 
(Golog) TAP, and Yushu (Yulshul) TAP. For a map and additional 
information on Tibetan autonomous prefectures, see CECC, ``Special 
Topic Paper: Tibet 2008-2009,'' 22 October 09, 22-24.) For additional 
information and analysis on Tibetan self-immolation, see CECC, 
``Special Report: Tibetan Self-Immolation--Rising Frequency, Wider 
Spread, Greater Diversity,'' 22 August 12.
    \17\ As of August 27, 2012, two self-immolations took place in 
Gansu province: ``Tibetan School Girl Dies in Self-Immolation 
Protest,'' Voice of America, 5 March 12 (self-immolation in Maqu 
(Machu) county, Gannan (Kanlho) TAP); ``Mother of Two Burns Herself and 
Dies in Eastern Tibet,'' Voice of America, 7 August 12 (self-immolation 
in Hezuo (Tsoe) city, Gannan TAP). (There is one prefectural-level area 
of ethnic Tibetan autonomy in Gansu province: Gannan (Kanlho) Tibetan 
Autonomous Prefecture. For a map and additional information on Tibetan 
autonomous prefectures, see CECC, ``Special Topic Paper: Tibet 2008-
2009,'' 22 October 09, 22-24.) For additional information and analysis 
on Tibetan self-immolation, see CECC, ``Special Report: Tibetan Self-
Immolation--Rising Frequency, Wider Spread, Greater Diversity,'' 22 
August 12.
    \18\ As of August 27, 2012, four self-immolations took place in the 
TAR: International Campaign for Tibet, ``First Self-Immolation in Tibet 
Autonomous Region; Former Monk Sets Himself on Fire,'' 1 December 11 
(self-immolation in Changdu (Chamdo) county, Changdu prefecture); 
Tibetan Centre for Human Rights and Democracy, ``China Confirms Twin 
Self-Immolation in Lhasa,'' 28 May 12 (two self-immolations in Lhasa 
city, TAR). According to the TCHRD report, one of the May 27 Lhasa 
self-immolators (Dargye) hailed from Aba county, Aba T&QAP, Sichuan 
province; the other May 27 Lhasa self-immolator (Dorje Tseten) hailed 
from Xiahe (Sangchu) county, Gannan (Kanlho) TAP, Gansu province. 
Tibetan Centre for Human Rights and Democracy, ``Tibetan Dies of Self-
Immolation in Damshung,'' 11 July 12 (self-immolation in Dangxiong 
(Damshung) county, Lhasa municipality). For additional information and 
analysis on Tibetan self-immolation, see CECC, ``Special Report: 
Tibetan Self-Immolation--Rising Frequency, Wider Spread, Greater 
Diversity,'' 22 August 12.
    \19\ For information on the crackdown at Kirti Monastery following 
monk Phuntsog's self-immolation in February 2009, see ``After Monk's 
Suicide: Coerced Removal and `Education' for Monks; Possible Murder 
Charges,'' Congressional-Executive Commission on China, 17 August 11.
    \20\ For reports characterizing self-immolators' protests during 
the period beginning October 2011 (in chronological order according to 
the date of self-immolation), see, e.g., International Campaign for 
Tibet, ``17 Year Old Tibetan Monk From Kirti Monastery Self-Immolates 
in New Protest,'' 3 October 11 (Kalsang Wangchug ``carried a photo of 
the Dalai Lama and was shouting slogans against the Chinese 
government''); ``Two Tibetan Youths Self-Immolate,'' Radio Free Asia, 7 
October 11 (Choephel and Khayang shouted, ``Tibet has no freedom,'' 
and, ``Invite the Dalai Lama back to Tibet''); ``Teenager Torches 
Himself in Protest,'' Radio Free Asia, 15 October 11 (Norbu Dradul 
shouted, ``Freedom for Tibet'' and ``Let the Dalai Lama Return to 
Tibet''); ``Tibetan Woman Sets Herself on Fire,'' Voice of America, 17 
October 11 (Tenzin Wangmo ``called for the return of . . . the Dalai 
Lama and freedom for Tibet''); Sherab Woeser, ``Fire Spreads in Tibet--
Monk Self Immolates in Kardze,'' Phayul, 25 October 11 (Dawa Tsering 
``shouted slogans for the return of His Holiness the Dalai Lama . . . 
and the re-unification of the Tibetan people''); ``Second Nun Dies in 
Protest,'' Radio Free Asia, 3 November 11 (Palden Choetso chanted 
``Free Tibet,'' ``Long live His Holiness the Dalai Lama,'' and ``Let 
His Holiness return to Tibet''); Tendar Tsering, ``Tenzin Phuntsok 
Passes Away in Chinese Hospital, Wife Feared Arrested,'' Phayul, 9 
December 11 (witnesses reportedly heard Tenzin Phuntsog ``shouting 
freedom slogans''); ``Tsultrim, Tenyi, and Norbu Damdul All Succumb to 
Injuries,'' Phayul, 10 January 12 (eyewitnesses reportedly heard Tennyi 
and Tsultrim shout slogans including, ``We want the return of His 
Holiness the Dalai Lama to Tibet''); ``Thousands Attend Sopa Rinpoche's 
Funeral; Protests Reported,'' Phayul, 17 January 12 (Zoepa reportedly 
shouted slogans ``calling for Tibet's freedom and the long life of . . 
. the Dalai Lama''); International Campaign for Tibet, ``New 
Information on Latest Self-Immolation, Tibetans Critically Injured by 
Police,'' 18 January 12 (Lobsang Jamyang called for ``the long life of 
the Dalai Lama and for freedom in Tibet''); ``Tibet in Flames: Rigzin 
Dorje Dies in Hospital, Lobsang Kunchok's Limbs Amputated,'' Phayul, 4 
March 12 (Rigzin Dorje ``set his body on fire raising slogans against 
the Chinese government''); ``18-Year-Old Tibetan Nun Dies After Self-
Immolation,'' Voice of America, 12 February 12 (Tenzin Choedron 
``shouted slogans against the Chinese government when [she] set herself 
ablaze''); ``Another Tibetan Self-Immolation From Restive Ngaba,'' 
Voice of America, 13 February 12 (Lobsang Gyatso ``shouted slogans 
against China when he set himself ablaze''); ``Monk Burns To Protest 
Monastery Intrusion,'' Radio Free Asia, 17 February 12 (Damchoe Zangpo 
``had objected to the cancelling by Chinese authorities of a 
traditional prayer festival at the monastery and to the presence of 
Chinese security forces''); Tendar Tsering, ``Monks Fleeing Monastery 
Fearing Persecution,'' Phayul, 24 February 12 (Nangdrol ``called for 
freedom in Tibet and return of the Dalai Lama from exile''); ``Tibetan 
School Girl Dies in Self-Immolation Protest,'' Voice of America, 5 
March 12 (Tsering Kyi had told friends, ``We should do something--life 
is meaningless if we don't do something for Tibet.''); International 
Campaign for Tibet, ``Tibetan Student and Widowed Mother Self-Immolate 
in Tibet,'' 5 March 12 (Rinchen shouted slogans including ``Return His 
Holiness to Tibet'' and ``We need freedom''); ``Tibet Continues To 
Burn: Third Self-Immolation in Three Days,'' Phayul, 5 March 12 (Dorje 
``raised slogans protesting the Chinese government's policies in 
Tibet''); Free Tibet, ``Jamyang Palden,'' last visited 4 May 12 
(Jamyang Palden shouted, ``Let His Holiness return!'' and, ``Freedom 
for Tibet and the Tibetan language!''); ``Monk Burns Himself Amid Mass 
Protests,'' Radio Free Asia, 16 March 12 (Lobsang Tsultrim shouted 
``slogans against Chinese rule''); Free Tibet, ``Largest Protest in 
Living Memory in Rebkong After Father Sets Himself on Fire,'' 17 March 
12 (Sonam Dargyal shouted, ``Let His Holiness the Dalai Lama return to 
Tibet''); ``Fire Rages on: Tibetan Monk Dies in Fiery Protest,'' 
Phayul, 29 March 12 (Sherab shouted ``protests against Chinese 
government repression''); Tibetan Centre for Human Rights and 
Democracy, ``Twin Self-Immolation in Barkham County,'' 30 March 12 
(Tenpa Dargyal and Chime Palden ``set themselves on fire while shouting 
slogans against the Chinese government''); Tendar Tsering, `` `Restore 
Freedom in Tibet' Demands Twin Self-Immolators in Last Message,'' 
Phayul, 24 April 12 (Choephag Kyab and Sonam reportedly left a voice 
message stating that their self-immolations were ``for the protection 
of [Buddhism]'' in Tibet and for the ``restoration of Tibet's 
freedom''); Tibetan Centre for Human Rights and Democracy, ``Two 
Tibetan Youngsters Self-Immolate in Jyekundo, One Dies,'' 20 June 12 
(sources: ``The two youngsters were carrying Tibetan national flags and 
shouted slogans, calling for freedom in Tibet, return of [the Dalai 
Lama] and for the long life of [the Dalai Lama]''); Tibetan Centre for 
Human Rights and Democracy, ``Tibetan Dies of Self-Immolation in 
Damshung,'' 11 July 12 (sources: Tsewang Dorje ``walked some distance 
and called for the long life of [the Dalai Lama]''); ``18-Year-Old Monk 
Sets Himself on Fire, Latest in Spate of Tibetan Self-Immolations,'' 
Voice of America, 17 July 12 (source: Lobsang Lozin ``took up to 80 
steps towards government buildings while still ablaze and shouted 
slogans''); ``Self-Immolator Identified as Kirti Monk Lobsang 
Tsultrim,'' Phayul, 7 August 12 (``[with] flames leaping out of his 
body, [Lobsang Tsultrim] was heard raising slogans, but they were 
[unintelligible]''); ``Mother of Two Burns Herself and Dies in Eastern 
Tibet,'' Voice of America, 7 August 12 (sources: Drolkar Tso ``shouted 
slogans calling for freedom in Tibet and return of the [Dalai Lama]''); 
``Self-Immolator Choepa Passes Away,'' Phayul, 11 August 12 (sources: 
Choepa ``while engulfed in high flames had raised slogans''); 
International Campaign for Tibet, ``Local Tibetans Beaten Following 
Three More Self-Immolations in Tibet,'' 15 August 12 (sources: While 
burning, Lungtog and Tashi were ``shouting protest slogans on the Ngaba 
street leading from Kirti monastery to the town''); ``Two Ngaba Self-
Immolators Succumb to Their Injuries,'' Voice of America, 27 August 12 
(Lobsang Kalsang and Damchoe reportedly ``shouted slogans against 
Chinese policies in Tibet while engulfed in flames'').
    \21\ For Commission analysis of Chinese government regulatory 
intrusion upon Tibetan Buddhist affairs, see, e.g., CECC, ``Special 
Report: Tibetan Monastic Self-Immolations Appear To Correlate With 
Increasing Repression of Freedom of Religion,'' 24 January 12; 
``Tibetan Buddhist Affairs Regulations Taking Effect in Tibetan 
Autonomous Prefectures,'' Congressional-Executive Commission on China, 
10 March 11; ``New Legal Measures Assert Unprecedented Control Over 
Tibetan Buddhist Reincarnation,'' Congressional-Executive Commission on 
China, 22 August 07. For measures issued by China's central government, 
see, e.g., State Administration for Religious Affairs, Management 
Measures for Tibetan Buddhist Monasteries [Zangchuan fojiao simiao 
guanli banfa], passed 29 September 10, effective 1 November 10; State 
Administration for Religious Affairs, Measures on the Management of the 
Reincarnation of Living Buddhas in Tibetan Buddhism [Zangchuan fojiao 
huofo zhuanshi guanli banfa], passed 13 July 07, issued 18 July 07, 
effective 1 September 07.
    \22\ International Campaign for Tibet, ``Where is China Heading on 
Tibet?--Remarks by Lodi Gyaltsen Gyari to the Council on Foreign 
Relations Washington, DC, April 23, 2012,'' 23 April 12. In prepared 
testimony, Lodi Gyari, Special Envoy of His Holiness the Dalai Lama, 
stated, ``I am not here today to give you a report on my progress 
because there is nothing new to say on that front.'' Referring to the 
``volatile situation in Tibet,'' he said, ``The Chinese government's 
failure to grasp the reality of this situation and to act responsibly 
is of serious concern to many governments.''
    \23\ Gillian Wong, ``Tibetan Immolations, Largely Unnoticed, Among 
History's Biggest Waves of Suicide-by-Fire,'' Associated Press, 2 April 
12, reprinted in Star Tribune (``this is one of the biggest waves of 
self-immolation in the last six decades''); Michael Biggs, ``Self-
Immolation by Tibetans,'' Oxford University Press blog, 9 April 12. 
According to the article, the only larger wave of self-immolations in 
``the last half century'' was ``in India in 1990, when over a hundred 
students killed themselves or attempted suicide to protest against 
affirmative action for lower castes.''
    \24\ See, e.g., ``Monks' Radical Moves in Tibet Opposed,'' Xinhua, 
15 March 12 (remark attributed to Premier Wen Jiabao: ``China opposes 
radical moves taken by a number of Tibetan monks such as self-
immolation, as these actions disturb and undermine social harmony.''); 
``Zhu Weiqun Talks About Dalai and Other Issues With EU Officials, 
Scholars, and Reporters'' [Zhu weiqun yu oumeng guanyuan, xuezhe, jizhe 
tan dalai deng wenti], China Tibet Online, 29 December 11 (translated 
in Open Source Center, 12 January 12) (Zhu Weiqun: ``The Dalai Lama 
wants to turn Tibetan Buddhism into a religion of suiciders and self-
immolators . . . .''); ``Investigations Show Political Motive Behind 
Self-Immolations in Tibetan-Populated Regions,'' Xinhua, 7 March 12 (Wu 
Zegang, head of the Aba (Ngaba) Tibetan and Qiang Autonomous Prefecture 
government: ``[The Dalai Clique] . . . are leading Tibetan Buddhism 
onto the track of extremism . . . and are not hesitant to use terrorism 
to reach their objectives''). For additional information and analysis, 
see CECC, ``Special Report: Tibetan Self-Immolation--Rising Frequency, 
Wider Spread, Greater Diversity,'' 22 August 12.
    \25\ See, e.g., ``Religious Activities Remain Normal in Sichuan,'' 
Xinhua, reprinted in China Daily, 12 October 11 (Foreign Ministry 
Spokesman Liu Weimin said, `` `the Dalai Clique' . . . openly 
embellished and played [self-immolation] up, and spread rumors to 
incite [more self-immolations]''); ``A Self-Immolation Incident Occurs 
in Sichuan's Daofu County'' [Sichuan daofu xian fasheng yiqi zifen 
shijian], Xinhua, 3 November 11 (translated in Open Source Center, 5 
November 11) (according to ``a county official,'' ``initial 
investigations . . . showed that the event was another radical event 
that took place with the Dalai clique's orchestration, instigation and 
support''); ``Zhu Weiqun Talks About Dalai and Other Issues With EU 
Officials, Scholars, and Reporters'' [Zhu weiqun yu oumeng guanyuan, 
xuezhe, jizhe tan dalai deng wenti], China Tibet Online, 29 December 11 
(translated in Open Source Center, 12 January 12) (Zhu Weiqun: ``The 
Dalai Lama wants to turn Tibetan Buddhism into a religion of suiciders 
and self-immolators in order to serve his own political purpose; . . . 
.''); ``FM Warns US on Exploiting Tibet Issues,'' China Daily, 12 
January 12 (the article attributed to the MFA spokesperson the 
observation that self-immolations ``were organized, premeditated and 
instigated by overseas groups and people'').
    \26\ See, e.g., ``Investigations Show Political Motive Behind Self-
Immolations in Tibetan-Populated Regions,'' Xinhua, 7 March 12 (Wu 
Zegang, head of the Aba (Ngaba) Tibetan and Qiang Autonomous Prefecture 
government: ``[The Dalai Clique instigates] people to emulate this 
behavior and are not hesitant to use terrorism to reach their 
objectives''); ``A Self-Immolation Incident Occurs in Sichuan's Daofu 
County'' [Sichuan daofu xian fasheng yiqi zifen shijian], Xinhua, 3 
November 11 (translated in Open Source Center, 5 November 11) (county 
official: The ``Dalai Clique's'' intention is to ``promote separatist 
activities through employing brutal and terrorist acts in disguise''); 
``China: Dalai Lama Stance on Suicides Is Terrorism,'' Associated 
Press, 19 October 11, reprinted in Yahoo!.
    \27\ See, e.g., ``Investigations Show Political Motive Behind Self-
Immolations in Tibetan-Populated Regions,'' Xinhua, 7 March 12 (the 
head of the Aba T&QAP government described some self-immolators as 
``secularized monks with criminal records''); ``Self-Immolation 
Truth,'' Xinhua, 25 June 12, reprinted in China Internet Information 
Center (the article described two ``secularized monks'' who self-
immolated on September 6, 2011, as thieves).
    \28\ See, e.g., ``Self-Immolation Truth,'' Xinhua, 25 June 12, 
reprinted in China Internet Information Center (the article cited a 
psychologist stating that persons aged 18-22 are ``most prone to 
copycat suicides''); ``China Paints Self-Immolators as Distressed 
Criminals, Terrorists,'' Voice of America, 7 March 12 (the head of the 
Aba T&QAP reportedly accused ``the Dalai clique'' and others of 
``inciting more clerics and lay people to engage in copycat 
incidents'').
    \29\ China Directory 2012, ed. Radiopress (Tokyo: JPM Corporation, 
Ltd., December 2011, 17, 27). Zhu Weiqun is the Executive Deputy Head 
of the Party's United Front Work Department and Director of the General 
Office of the Party's Central Coordinating Group for Tibet Affairs.
    \30\ ``Zhu Weiqun Talks About Dalai and Other Issues With EU 
Officials, Scholars, and Reporters'' [Zhu weiqun yu oumeng guanyuan, 
xuezhe, jizhe tan dalai deng wenti], China Tibet Online, 29 December 11 
(translated in Open Source Center, 12 January 12).
    \31\ See, e.g., ``Xinhua Insight: Who Can Put an End to Self-
Immolation Tragedy?'' Xinhua, 22 June 12 (Open Source Center, 22 June 
12) (reports Tabe is ``undergoing functional rehabilitation in a 
private hospital room suite'' but does not identify the hospital); 
``Tibetan Monk Admits Spreading Shooting Rumors,'' Xinhua, reprinted in 
China Daily, 5 March 09; Tendar Tsering, ``Tabey Is Alive but Crippled: 
Woeser,'' Phayul, 17 December 11; International Campaign for Tibet, 
``Monk in Tibet Sets Himself on Fire; Shot by Police During Protest,'' 
27 February 09.
    \32\ See, e.g., ``1st Ld-Writethru: Tibetan Monk Jailed 11 Years 
for Murder in Self-Immolation Case,'' Xinhua, reprinted in China Daily, 
29 August 11; International Campaign for Tibet, ``Chinese Authorities 
Confirm Death of Monk After Self-Immolation; Military Crackdown at 
Kirti,'' 17 March 11; ``Protest Monk Dies,'' Radio Free Asia, 17 March 
11.
    \33\ See, e.g., ``Monk Sets Himself on Fire in SW China,'' Xinhua, 
15 August 11, reprinted in China Internet Information Center; ``Tibetan 
Monk Sets Himself Ablaze,'' Radio Free Asia, 15 August 11; Free Tibet, 
``Monk Dies After Setting Himself on Fire in Protest in Tibet,'' 15 
August 11.
    \34\ See, e.g., ``Self-Immolation Truth,'' Xinhua, 25 June 12, 
reprinted in China Internet Information Center (the article provided 
the survivors' names as ``Katrang'' and ``Konchok Tenpa''); ``Tibet in 
Flames: Rigzin Dorje Dies in Hospital, Lobsang Kunchok's Limbs 
Amputated,'' Phayul, 4 March 12; ``Two More Monks Self-Immolate,'' 
Radio Free Asia, 26 September 11; International Campaign for Tibet, 
``Two More Tibetan Monks From Kirti Monastery Set Themselves on Fire 
Calling for Religious Freedom,'' 26 September 11.
    \35\ See, e.g., International Campaign for Tibet, ``17 Year Old 
Tibetan Monk From Kirti Monastery Self-Immolates in New Protest,'' 3 
October 11; Free Tibet, ``Today's Fifth Self-Immolation in Tibet 
Establishes Unprecedented Trend,'' 3 October 11; ``Self-Immolation a 
`Worrying' Trend,'' Radio Free Asia, 4 October 11.
    \36\ See, e.g., ``Two Tibetans Injured in Self-Immolation,'' 
Xinhua, reprinted in China Daily, 8 October 11; Free Tibet, ``Teenage 
Faces of Tibetan Protest,'' 13 December 11; ``Two Tibetan Youths Self-
Immolate,'' Radio Free Asia, 7 October 11; International Campaign for 
Tibet, ``Two Tibetan Teenagers Set Fire to Themselves in Latest Protest 
in Ngaba; ICT Calls for Urgent Actions by Governments,'' 7 October 11.
    \37\ See, e.g., ``Tsultrim, Tenyi, and Norbu Damdul All Succumb to 
Injuries,'' Phayul, 10 January 12; ``Teenager Torches Himself in 
Protest,'' Radio Free Asia, 15 October 11; International Campaign for 
Tibet, ``Self-Immolations Continue in Tibet; 8th Young Tibetan Man Sets 
Fire to Himself in Ngaba,'' 16 October 11.
    \38\ See, e.g., ``Tibetan Woman Sets Herself on Fire,'' Voice of 
America, 17 October 11; Sherab Woeser, ``A Tibetan Nun Dies After Self-
Immolation, Situation in Tibet Spiraling Out of Control,'' Phayul, 17 
October 11; Edward Wong, ``Ninth Tibetan, a Nun, Immolates Herself in 
Anti-China Protest,'' New York Times, 17 October 11.
    \39\ See, e.g., Sherab Woeser, ``Fire Spreads in Tibet--Monk Self-
Immolates in Kardze,'' Phayul, 25 October 11; International Campaign 
for Tibet, ``11th Self-Immolation in Tibet; Kardze Monk Sets Fire to 
Himself During Religious Ceremony,'' 28 October 11; ``Burned Monk 
Refuses Treatment,'' Radio Free Asia, 8 November 11.
    \40\ See, e.g., Yuan Jian, ``A Self-Immolation Incident Occurs in 
Sichuan's Daofu County'' [Sichuan daofu xian fasheng yiqi zifen 
shijian], Xinhua, 3 November 11 (translated in Open Source Center, 5 
November 11); ``Tibetan Nun Dies of Self-Immolation,'' Xinhua, 
reprinted in China Daily, 3 November 11; ``Second Nun Dies in 
Protest,'' Radio Free Asia, 3 November 11; International Campaign for 
Tibet, ``Tibetan Nun Self-Immolates Today in Kardze: Continued 
Resistance Despite Chinese Crackdown,'' 3 November 11.
    \41\ See, e.g., ``Farmer in Stable Condition After Setting Himself 
on Fire,'' Xinhua, reprinted in China Daily, 2 December 11; ``Tibetan 
in New Self-Immolation Protest,'' Radio Free Asia, 1 December 11; 
International Campaign for Tibet, ``First Self-Immolation in Tibet 
Autonomous Region; Former Monk Sets Himself on Fire,'' 1 December 11; 
Tendar Tsering, ``Tenzin Phuntsok Passes Away in Chinese Hospital, Wife 
Feared Arrested,'' Phayul, 9 December 11.
    \42\ See, e.g., ``Self-Immolation Truth,'' Xinhua, 25 June 12, 
reprinted in China Internet Information Center (the article provided 
the names as ``Tsering'' and ``Darle'' and represented Darle as a 
survivor); ``Two Tibetans Set Themselves Ablaze,'' Radio Free Asia, 6 
January 12; ``Tsultrim, Tenyi, and Norbu Damdul All Succumb to 
Injuries,'' Phayul, 10 January 12.
    \43\ See, e.g., ``Tibetan Monk Dies From Self-Immolation,'' Xinhua, 
reprinted in China Daily, 9 January 12; International Campaign for 
Tibet, ``Tibetan Self-Immolations Continue and Spread in Tibet Into 
2012,'' 9 January 12; ``Thousands Attend Sopa Rinpoche's Funeral; 
Protests Reported,'' Phayul, 17 January 12; ``Dead Lama Urged Unity,'' 
Radio Free Asia, 20 January 12.
    \44\ See, e.g., ``Self-Immolation Truth,'' Xinhua, 25 June 12, 
reprinted in China Internet Information Center (the article provided 
the name as ``Lhorang Jamyang''); ``New Footage Depicts Self-Immolation 
in Tibet,'' Voice of America, 17 April 12; International Campaign for 
Tibet, ``New Information on Latest Self-Immolation, Tibetans Critically 
Injured by Police,'' 18 January 12; `` `No Regret' for Loss: Mother,'' 
Radio Free Asia, 18 January 12.
    \45\ See, e.g., ``Tibet Officials `Prepare for War,' '' Global 
Times, 10 February 12; International Campaign for Tibet, ``Tibetan Who 
Self-Immolated in Ngaba Was 19-Year Old Former Monk,'' 10 February 12; 
``Tibet in Flames: Rigzin Dorje Dies in Hospital, Lobsang Kunchok's 
Limbs Amputated,'' Phayul, 4 March 12.
    \46\ See, e.g., ``Tibetan Monk Self-immolates in Yushu,'' Voice of 
America, 10 February 12; ``Tibet Continues To Burn: Another Self-
Immolation Reported--Updated,'' Phayul, 10 February 12; International 
Campaign for Tibet, ``Self-Immolation Fact Sheet,'' updated 15 June 12.
    \47\ See, e.g., ``Tibetan Monk Sets Himself on Fire in SW China,'' 
Xinhua, reprinted in China Daily, 14 February 12; ``18-Year-Old Tibetan 
Nun Dies After Self-Immolation,'' Voice of America, 12 February 12.
    \48\ See, e.g., ``Tibetan Monk Sets Himself on Fire in SW China,'' 
Xinhua, reprinted in China Daily, 14 February 12; ``Another Tibetan 
Self-Immolation From Restive Ngaba,'' Voice of America, 13 February 12; 
International Campaign for Tibet, ``Nineteen Year Old Kirti Monk Sets 
Fire to Himself in Ngaba,'' 13 February 12.
    \49\ Although multiple reports place Damchoe Zangpo's self-
immolation in Tianjun (Themchen) county, Haixi (Tsonub) Mongol and 
Tibetan Autonomous Prefecture, a reliable, Tibetan-language map 
indicates that Bongtag Monastery is in neighboring Wulan county, Haixi 
M&TAP. See Atelier Golok, Tibet and Adjacent Areas Under Chinese 
Communist Occupation [Rgyal dmar gyi btsan `og tu gnas pa'i--bod dang 
sa `brel khog] (Dharamshala: Amnye Machen Institute, 1998). See, e.g., 
``Monk Burns To Protest Monastery Intrusion,'' Radio Free Asia, 17 
February 12; ``Tibetan Monk Dies of Self-Immolation,'' Voice of 
America, 17 February 12; International Campaign for Tibet, ``Self-
Immolation Fact Sheet,'' updated 15 June 12.
    \50\ See, e.g., International Campaign for Tibet, ``Tibetans Gather 
in Dzamthang for Vigil After Self-Immolation: Lhasa Crackdown Deepens 
in Buildup to Tibetan New Year,'' 19 February 12; ``Monks Thwart 
Attempt To Snatch Body,'' Radio Free Asia, 19 February 12; Tendar 
Tsering, ``Another Self-Immolation Days Ahead of Losar,'' Phayul, 19 
February 12.
    \51\ See, e.g., Lian Zhenxiang and Huang Wenxin, ``The Incident of 
the Student's Self-Immolation in Maqu, Gansu, Has Been Made Clear by 
Investigation'' [Gansu sheng maqu xuesheng zifen shijian yi chaming], 
Xinhua, 6 March 12 (translated in Open Source Center, 13 March 12); 
``Tibetan School Girl Dies in Self-Immolation Protest,'' Voice of 
America, 5 March 12; International Campaign for Tibet, ``Tibetan 
Student and Widowed Mother Self-Immolate in Tibet,'' 5 March 12.
    \52\ See, e.g., ``Two Female Tibetans Burn to Death,'' Radio Free 
Asia, 4 March 12; Free Tibet, ``Tibetan Mother Dies,'' 4 March 12; 
International Campaign for Tibet, ``Tibetan Student and Widowed Mother 
Self-Immolate in Tibet,'' 5 March 12.
    \53\ See, e.g., ``Third Self-Immolation in Three Days,'' Radio Free 
Asia, 5 March 12; Free Tibet, ``Third Self-Immolation in Tibet in as 
Many Days,'' 5 March 12; ``Tibet Continues To Burn: Third Self-
Immolation in Three Days,'' Phayul, 5 March 12.
    \54\ See, e.g., ``18-Year-Old Self-Immolates on Tibetan Uprising 
Day,'' Voice of America, 12 March 12; Free Tibet, ``Tibet Anniversary 
Marked With Teen Self-Immolation,'' 12 March 12; International Campaign 
for Tibet, ``Kirti Monk Who Self-Immolated on March 16 Dies in Custody; 
18-Year Old Monk Dies on March 10 in Self-Immolation Protest,'' 20 
March 12.
    \55\ See, e.g., ``Xinhua Insight: Who Can Put an End to Self-
Immolation Tragedy?'' Xinhua, 22 June 12 (Open Source Center, 22 June 
12) (reports medical care in ``makeshift hospital ward'' at Rongbo 
Monastery); ``Self-Immolation as Students Protest,'' Radio Free Asia, 
14 March 12; ``Tibetan Monk Self-Immolates in Rebkong, Thousands Gather 
To Pray and Protest,'' Voice of America, 14 March 12; International 
Campaign for Tibet, ``Tensions Escalate in Qinghai: Rebkong Self-
Immolation, Student Protest, Monks Commemorate March 10,'' 14 March 12.
    \56\ See, e.g., Tibetan Centre for Human Rights and Democracy, 
``Self-Immolation Protests Continue: Tibetan Monk Sets Self on Fire,'' 
16 March 12; ``Monk Burns Himself Amid Mass Protests,'' Radio Free 
Asia, 16 March 12; International Campaign for Tibet, ``Kirti Monk Who 
Self-Immolated on March 16 Dies in Custody; 18-Year Old Monk Dies on 
March 10 in Self-Immolation Protest,'' 20 March 12.
    \57\ See, e.g., ``Xinhua Insight: Who Can Put an End to Self-
Immolation Tragedy?'' Xinhua, 22 June 12 (Open Source Center, 22 June 
12) (reports decedent's name as ``Sonam Dargye''); Free Tibet, 
``Largest Protest in Living Memory in Rebkong After Father Sets Himself 
on Fire,'' 17 March 12; ``Farmer Dies in New Burning Protest,'' Radio 
Free Asia, 17 March 12; ``Thousands Protest in Rebkong, Sonam Dhargey 
Cremated,'' Phayul, 17 March 12.
    \58\ See, e.g., ``Kirti Monk Self-Immolates, Dies,'' Radio Free 
Asia, 28 March 12; Free Tibet, ``Fires of `Tibetan Spring' Continue,'' 
28 March 12; International Campaign for Tibet, ``Tibetan Self-
Immolations and Their Impact Expand,'' 29 March 12.
    \59\ See, e.g., ``Self-Immolation Truth,'' Xinhua, 25 June 12, 
reprinted in China Internet Information Center (the article provides 
the decedents' names as ``Chimed Palden'' and ``Nganlam''); 
International Campaign for Tibet, ``Self-Immolation of Two Tibetan 
Monks From Tsodun Monastery, Ngaba,'' 30 March 12; ``Monk Dies a Week 
After Burning,'' Radio Free Asia, 7 April 12; ``Self-Immolation Death 
Toll Rises to 25 in Tibet, Tenpa Darjey Passes Away,'' Phayul, 8 April 
12.
    \60\ See, e.g., ``Two Tibetan Cousins Self-Immolate,'' Radio Free 
Asia, 19 April 12; International Campaign for Tibet, ``Two Young 
Tibetan Men Die After Self-Immolation Protest in Ngaba Region,'' 19 
April 12; Tendar Tsering, `` `Restore Freedom in Tibet' Demands Twin 
Self-Immolators in Last Message,'' Phayul, 24 April 12.
    \61\ See, e.g., Xu Tianran, ``Tibet Officials Condemn Latest Self-
Immolation,'' Global Times, 29 May 12 (apparently misreports Dorje 
Tseten's name as Tobgye Tseten; origin Xiahe county [in Gannan Tibetan 
Autonomous Prefecture, Gansu province]; deceased); Tibetan Centre for 
Human Rights and Democracy, ``China Confirms Twin Self-Immolation in 
Lhasa,'' 28 May 12 (provides name Dorje Tseten); International Campaign 
for Tibet, ``Detentions, Fear After Lhasa Self-Immolations; Prayer 
Gathering in Dzamthang,'' 1 June 12 (age 19, left Gansu home after high 
school and moved to Lhasa).
    \62\ See, e.g., Xu Tianran, ``Tibet Officials Condemn Latest Self-
Immolation,'' Global Times, 29 May 12 (Dargye, origin Aba county [Aba 
T&QAP, Sichuan]); Tibetan Centre for Human Rights and Democracy, 
``China Confirms Twin Self-Immolation in Lhasa,'' 28 May 12 (provides 
name Dorje Tseten, age 22); International Campaign for Tibet, 
``Detentions, Fear After Lhasa Self-Immolations; Prayer Gathering in 
Dzamthang,'' 1 June 12 (age 25; former Kirti Monastery monk; worked as 
cashier in Lhasa restaurant).
    \63\ See, e.g., ``Self-Immolation Truth,'' Xinhua, 25 June 12, 
reprinted in China Internet Information Center (the article provided 
the name as ``Rechok''); Free Tibet, ``Latest Self-Immolation in 
Tibet,'' 30 May 12 (provides name as ``Rechog''); ``Thousands Honor 
Burned Mother,'' Radio Free Asia, 31 May 12 (provides name ``Rikyo,'' 
age 33, mother of three); International Campaign for Tibet, 
``Detentions, Fear After Lhasa Self-Immolations; Prayer Gathering in 
Dzamthang,'' 1 June 12 (from nomadic family); Tibetan Centre for Human 
Rights and Democracy, ``Tibetan Mother of Three Dies After Self-
Immolation,'' 1 June 12.
    \64\ See, e.g., ``1 Dies in Self-Immolation in NW China,'' Xinhua, 
15 June 12, reprinted in China Internet Information Center; 
International Campaign for Tibet, ``Hundreds of Tibetans Face Down 
Police To Gather for Cremation of Tibetan Who Self-Immolated Today,'' 
15 June 12; Tibetan Centre for Human Rights and Democracy, ``A Tibetan 
Nomad Dies After Burning Self,'' 15 June 12.
    \65\ See, e.g., Tibetan Centre for Human Rights and Democracy, 
``Two Tibetan Youngsters Self-Immolate in Jyekundo, One Dies,'' 20 June 
12 (Tenzin Khedrub disrobed in 2006; Ngawang Norphel hailed from Aba 
county, Aba T&QAP); ``Two Young Tibetans Self-Immolate,'' Radio Free 
Asia, 20 June 12; ``Two Tibetans Set Themselves on Fire in West 
China,'' Associated Press, 21 June 12, reprinted in Huffington Post 
(Xinhua reportedly described Tenzin Khedrub as a local herder and 
Ngawang Norphel as a migrant from Aba prefecture); ``Self-Immolator 
Hospitalized,'' Radio Free Asia, 21 June 12 (Ngawang Norphel reportedly 
was initially hospitalized in Xining); Tendar Tsering, ``Ngawang 
Norphel Passes Away in a Chinese Hospital,'' Phayul, 30 July 12 
(Ngawang Norphel reportedly died on July 30, 2012, in a hospital; he 
hailed from Nielamu (Nyalam) county, Rikaze (Shigatse) prefecture, 
Tibet Autonomous Region, not from Aba county as initially reported).
    \66\ See, e.g., ``Man Self-Immolates Near Lhasa,'' Radio Free Asia, 
9 July 12 (``a resident of Damshung's Chode village''); ``Self-
Immolating Youth Identified as Tsewang Dorjee, All Witnesses 
Arrested,'' Phayul, 10 July 12 (describes the self-immolator as ``a 22-
year-old nomad''); Tibetan Centre for Human Rights and Democracy, 
``Tibetan Dies of Self-Immolation in Damshung,'' 11 July 12.
    \67\ See, e.g., International Campaign for Tibet, ``Teenage Monk 
and Model Student Self-Immolates in Tibet,'' 17 July 12; Tibetan Centre 
for Human Rights and Democracy, ``Teenage Tibetan Monk Burns Self to 
Death in Ngaba,'' 17 July 12; ``18-Year-Old Monk Sets Himself on Fire, 
Latest in Spate of Tibetan Self-Immolations,'' Voice of America, 17 
July 12.
    \68\ See, e.g., ``Monk in New Burning Protest,'' Radio Free Asia, 6 
August 12; ``Self-Immolator Identified as Kirti Monk Lobsang 
Tsultrim,'' Phayul, 7 August 12; ``Lobsang Tsultrim Passes Away, Self-
Immolation Death Toll Reaches 37,'' Phayul, 8 August 12 (Lobsang 
Tsultrim ``passed away shortly after arriving at a hospital'' in 
Ma'erkang (Barkham), the Aba Tibetan and Qiang Autonomous Prefecture 
capital).
    \69\ See, e.g., ``Tibetan Woman Dies of Self-Immolation,'' Xinhua, 
8 August 12, reprinted in China Internet Information Center (Xinhua 
cited a written statement released by the Gannan Tibetan Autonomous 
Prefecture Communist Party Committee and provided Drolkar Tso's name as 
``Drung Gertso''); ``Mother of Two Burns Herself and Dies in Eastern 
Tibet,'' Voice of America, 7 August 12; ``Woman Strips, Self-
Immolates,'' Radio Free Asia, 7 August 12 (Drolkar Tso reportedly died 
as monks took her from Tso Monastery to her home).
    \70\ See, e.g., Tibetan Centre for Human Rights and Democracy, 
``Young Tibetan Nomad Sets Himself on Fire,'' 10 August 12; ``Third 
Burning Death in a Week,'' Radio Free Asia, 11 August 12 (RFA sources: 
``Choepa died as he was [taken] away by Chinese security forces''); 
``Self-Immolator Choepa Passes Away,'' Phayul, 11 August 12 (Tibetan 
monk living in India: ``Martyr Choepa passed away at around 3 pm (local 
time) the very day of his protest'').
    \71\ See, e.g., International Campaign for Tibet, ``Local Tibetans 
Beaten Following Three More Self-Immolations in Tibet,'' 15 August 12; 
``Protest Against Police Brutality,'' Radio Free Asia, 14 August 12; 
``Top Monks Summoned,'' Radio Free Asia, 15 August 12; ``2 Tibetans Die 
in Self-Immolation Protest in China's Sichuan,'' Voice of America, 15 
August 12.
    \72\ See, e.g., International Campaign for Tibet, ``Two Tibetan 
Teenage Relatives Self-Immolate in Ngaba,'' 28 August 12 (provides name 
of the former monk as Lobsang Damchoe); ``Two Ngaba Self-Immolators 
Succumb to Their Injuries,'' Voice of America, 27 August 12 (provides 
name of the former monk as Damchoe); ``Two Tibetans Self-Immolate,'' 
Radio Free Asia, 27 August 12 (provides name of the former monk as 
Damchoe).
    \73\ The protests and reported shootings were on January 23, 2012, 
in Luhuo (Draggo) county, Ganzi (Kardze) Tibetan Autonomous Prefecture; 
on January 24 in Seda (Serthar) county, Ganzi TAP; and on January 26 in 
Rangtang (Dzamthang) county, Aba (Ngaba) Tibetan and Qiang Autonomous 
Prefecture. See, e.g., ``Six Believed Killed in Protests,'' Radio Free 
Asia, 23 January 12 (shooting in Luhuo); ``Uprising in East Tibet Left 
6 Killed, Scores Wounded,'' Tibet Express, 23 January 12 (shooting in 
Luhuo); ``Gathering and Beating and Smashing Incident Occurs in 
Sichuan's Luhuo County'' [Sichuan luhuo xian fasheng juji, da za 
shijian], Xinhua, 24 January 12 (translated in Open Source Center, 24 
January 12) (shooting in Luhuo); International Campaign for Tibet, `` 
`New Year of Mourning' in Tibet: Police Again Open Fire Killing 
Tibetan,'' 25 January 12 (shootings in Luhuo and Seda); ``China Boosts 
Security in Tibet, Sichuan,'' Radio Free Asia, 25 January 12 (shootings 
in Luhuo and Seda); ``Fresh Police Station Attack Leaves One Rioter 
Dead, 14 Police Officers Injured in SW China,'' Xinhua, 25 January 12, 
reprinted in Open Source Center (shooting in Seda); ``Police Fire Again 
on Tibetans,'' Radio Free Asia, 26 January 12 (shooting in Rangtang); 
International Campaign for Tibet, ``Tibetan Student Killed, Several 
Injured, After Police Open Fire in Ngaba; News of Two More Prayer 
Vigils for New Year,'' 27 January 12 (shooting in Rangtang).
    \74\ For the Luhuo protest, see, e.g., Tibetan Centre for Human 
Rights and Democracy, ``One Tibetan Shot Dead in Drango Protest in 
Kandze,'' 23 January 12 (Luhuo: ``leaflets and posters that warned of 
more Tibetan self-immolations if the Chinese government did not listen 
to Tibetan concerns''); ``Six Believed Killed in Protests,'' Radio Free 
Asia, 23 January 12 (Luhuo: Unsigned poster said, ``[O]n the occasion 
of Chinese New Year, I am going to self-immolate''); ``Fresh Police 
Station Attack Leaves One Rioter Dead, 14 Police Officers Injured in SW 
China,'' Xinhua, 25 January 12 (reprinted in Open Source Center) 
(Luhuo: ``clash was fueled by a rumormonger claiming `three monks would 
set themselves on fire' ''). For the Seda protest, see, e.g., ``Five 
More Shot Dead,'' Radio Free Asia, 24 January 12 (Seda: ``sparked off 
from protests that began on Monday with posters calling for more self 
immolations''); International Campaign for Tibet, `` `New Year of 
Mourning' in Tibet: Police Again Open Fire Killing Tibetan,'' 25 
January 12 (Seda: ``leaflets or posters had been disseminated . . . 
encouraging Tibetans not to celebrate the New Year but to mark it by 
mourning [self-immolators]''). For the Rangtang protest, see, e.g., 
International Campaign for Tibet, ``Tibetan Student Killed, Several 
Injured, After Police Open Fire in Ngaba; News of Two More Prayer 
Vigils for New Year,'' 27 January 12 (Rangtang: ``leaflets . . . 
stating that the self-immolation protests . . . were calls for Tibetan 
freedom and for the return of the Dalai Lama, and that the self-
immolations would continue until authorities met these demands''); 
``Police Fire Again on Tibetans,'' Radio Free Asia, 26 January 12 
(Rangtang: ``poster declared that `Tibetans will never abandon their 
struggle and will continue to organize more campaigns until the demands 
of Tibetans who have self-immolated are met' '').
    \75\ ``Government Workers Warned Over Protests,'' Radio Free Asia, 
6 February 12 (``three counties in Sichuan province where Tibetans held 
protests . . . during which rights and exile groups believe at least 
six were killed and 60 injured''); ``Report Says 3 More People Set 
Themselves on Fire in China To Protest Its Tibet Policies,'' Associated 
Press, 5 February 12, reprinted in Washington Post (``Tibetan activist 
groups say at least six Tibetans were killed in the clashes'').
    \76\ The Commission observed official Chinese media reports on the 
incidents in Luhuo (Draggo) and Seda (Serthar), but not in Rangtang 
(Dzamthang). For the Luhuo protest, see, e.g., ``Gathering and Beating 
and Smashing Incident Occurs in Sichuan's Luhuo County'' [Sichuan luhuo 
xian fasheng juji, da za shijian], Xinhua, 24 January 12 (translated in 
Open Source Center, 24 January 12) (Luhuo: ``Some of them carried 
knives, threw stones at civil policemen and armed policemen on duty, 
stormed a public security station, smashed and destroyed two police 
vehicles and two fire engines . . . .''); ``Two Die in Assaults on 
Police in Sichuan,'' China Daily, 1 February 12 (Luhuo: ``The first 
riot started at about noon on Jan 23 . . . when a group of people . . . 
unloaded rocks, batons and blades from vehicles and began to march 
along the street, shouting slogans for `Tibet independence.' ''). For 
the Seda protest, see, e.g., ``Fresh Police Station Attack Leaves One 
Rioter Dead, 14 Police Officers Injured in SW China,'' Xinhua, 25 
January 12, reprinted in Open Source Center (Seda: ``[The mob] stormed 
the police station and attacked police with gasoline bottles, knives 
and stones. `They also opened fire at us, injuring 14 police officers.' 
''); ``Two Die in Assaults on Police in Sichuan,'' China Daily, 1 
February 12 (Seda: ``Another mob attacked a police station in Seda 
county, 154 km from Luhuo, the next afternoon, also firing flamed gas 
bottles at police officers and injuring 14 policemen'').
    \77\ For examples of international media and advocacy group reports 
on the Luhuo protest, see ``Six Believed Killed in Protests,'' Radio 
Free Asia, 23 January 12. According to the report on the Luhuo (Draggo) 
protest, a source said, ``Initially, a group of a few hundred shouted 
slogans calling for freedom for Tibet and the return of exiled 
spiritual leader the Dalai Lama . . . . When the protesters arrived in 
front of the local Chinese police, the police opened fire.'' The same 
source noted, ``The protest began in the morning,'' but by mid-
afternoon, ``The protesters have done serious damage, and have 
destroyed Chinese shops and other Chinese facilities in the area.'' For 
the Seda protest, see, e.g., International Campaign for Tibet, `` `New 
Year of Mourning' in Tibet: Police Again Open Fire Killing Tibetan,'' 
25 January 12. According to the report on the Seda (Serthar) protest, 
Tibetan sources living in exile said, ``[Hundreds] of Tibetans gathered 
peacefully, and armed police did not take any immediate action. But 
after some time, tear-gas was fired and police started shooting into 
the crowd.'' For the Rangtang protest, see, e.g., International 
Campaign for Tibet, ``Tibetan Student Killed, Several Injured, After 
Police Open Fire in Ngaba; News of Two More Prayer Vigils for New 
Year,'' 27 January 12. According to the report on the Rangtang 
(Dzamthang) protest, ``[When] police attempted to detain the . . . 
author of the leaflets . . . and were taking him away . . . they were 
met by a crowd . . . who attempted to block their way, and warned the 
police that [the] detention would provoke a larger protest. . . . 
[Police] responded by opening fire into the crowd . . . .''
    \78\ See CECC, ``Special Report: Tibetan Monastic Self-Immolations 
Appear To Correlate With Increasing Repression of Freedom of 
Religion,'' 24 January 12.
    \79\ For additional information, see CECC, ``Special Report: 
Tibetan Monastic Self-Immolations Appear To Correlate With Increasing 
Repression of Freedom of Religion,'' 24 January 12.
    \80\ The two unprecedented instances are the establishment within 
each Tibet Autonomous Region monastery of a Monastery Management 
Committee that includes government officials and Party members who 
reside within the monastery, and the opening of the Tibetan Buddhism 
Theological Institute in the TAR. See, e.g., Zou Le, ``Committees To 
Ensure Stability in Tibet's Monasteries,'' Global Times, 15 February 12 
(``Tibet began establishing monastery committees in November last year 
and managed to expand them to the regions' 1,787 monasteries early this 
year''); Chang Chuan, ``Tibetan Buddhist Theological Institute Is 
Completed and Open--Pagbalha Geleg Namgyai, Qin Yizhi Attend Ceremony, 
Zhu Weiqun, Hao Peng Speak, Luosang Jiangcun Unveils Signboard, Qizhala 
Presides Over Ceremony, 11th Panchen Erdini Qoigyi Gyibo Sends 
Congratulatory Message'' [Xizang foxue yuan luocheng kai yuan pabala 
gelie langjie qin yizhi chuxi dianli zhu weiqun hao peng jianghua 
luosang jiangcun jiepai--qizhala zhuchi shiyi shi banchan e'erdeni--
queji jiebu zhi hexin], Tibet Daily, 21 October 11, reprinted in China 
Tibet Information Center (translated in Open Source Center, 26 October 
11) (Tibetan Buddhism Theological Institute is ``first of its kind'').
    \81\ See, e.g., Li Chengye, ``While Speaking at the Regional 
Buddhist Association Forum, Chen Quanguo Stresses That It Is Necessary 
To Take a Clear-Cut Stand, Center on the Overall Picture, Educate, 
Guide, and Strengthen Services, Increase Accomplishment, and Make 
Contributions to Guiding Tibetan Buddhism To Adapt Itself to Socialist 
Society'' [Chen quanguo zai yu zizhiqu fojiao xiehui zuotan shi 
qiangdiao qizhixianming weirao daju jiaoyu yindao qianghua fuwu zengjin 
xiuyang wei yindao zangchuan fojiao yu shehuizhuyi shehui xiang shiying 
zuo gongxian], Tibet Daily, 29 October 11, reprinted in China Tibet 
Information Center (translated in Open Source Center, 31 October 11) 
(Chen Quanguo told TAR Buddhist Association Forum attendees to 
``promote the standardization and legalization of the management, 
service, and education'' in monasteries and nunneries); Chang Chuan, 
``Tibet Buddhist Theological Institute Is Completed and Open--Pagbalha 
Geleg Namgyai, Qin Yizhi Attend Ceremony, Zhu Weiqun, Hao Peng Speak, 
Luosang Jiangcun Unveils Signboard, Qizhala Presides Over Ceremony, 
11th Panchen Erdini Qoigyi Gyibo Sends Congratulatory Message'' [Xizang 
foxue yuan luocheng kai yuan pabala gelie langjie qin yizhi chuxi 
dianli zhu weiqun hao peng jianghua luosang jiangcun jiepai--qizhala 
zhuchi shiyi shi banchan e'erdeni--queji jiebu zhi hexin], Tibet Daily, 
21 October 11, reprinted in China Tibet Information Center (translated 
in Open Source Center, 26 October 11) (Chen Quanguo's ``instructions'' 
included, e.g., ``strengthen and innovate management of temples and 
monasteries by making it a key feature to routinely station cadres in 
temples and monasteries''; ``implement in its entirety the party's 
basic principles on religious work as well as state laws and decrees on 
managing religious affairs''; ``concentrate on remedying the problem of 
migrating clergy''; ``straighten out and regulate religious 
activities''; ``more effectively manage the reincarnation of Living 
Buddha[s]''; and ``reinforce social management and control as an 
effective approach to make sure that stability maintenance measures are 
implemented in all places'').
    \82\ See, e.g., Li Chengye, ``Chen Quanguo Gives Important 
Instructions on Further Improving the Work of Cadre Presence in 
Monasteries: Let Monks and Nuns Who Love Their Country and Their 
Religion Experience the Solicitude and Loving Care of Party and 
Government and Consciously Make Greater Contributions to the Building 
of Harmonious Tibet and Peaceful Tibet'' [Chen quanguo jiu jinyibu 
zuohao zhusi gongzuo zuochu zhongyao pishi rang aiguo aijiao sengni 
ganshoudao dang he zhengfu de guanxin aihu zijue wei goujian hexie 
xizang ping'an xizang zuochu gengda gongxian], Tibet Daily, 2 February 
12, reprinted in China Tibet Online (translated in Open Source Center, 
10 February 12) (Chen called for ``the broad ranks of cadres stationed 
in monasteries'' to provide monks and nuns ``greater solicitude and 
loving care'' so they ``become an important force in loving their 
country, loving their religion, observing regulations, abiding by laws, 
safeguarding stability, and building harmony''); Chang Chuan, ``Tibet 
Buddhist Theological Institute Is Completed and Open--Pagbalha Geleg 
Namgyai, Qin Yizhi Attend Ceremony, Zhu Weiqun, Hao Peng Speak, Luosang 
Jiangcun Unveils Signboard, Qizhala Presides Over Ceremony, 11th 
Panchen Erdini Qoigyi Gyibo Sends Congratulatory Message'' [Xizang 
foxue yuan luocheng kai yuan pabala gelie langjie qin yizhi chuxi 
dianli zhu weiqun hao peng jianghua luosang jiangcun jiepai--qizhala 
zhuchi shiyi shi banchan e'erdeni--queji jiebu zhi hexin], Tibet Daily, 
21 October 11, reprinted in China Tibet Information Center (translated 
in Open Source Center, 26 October 11) (among the priorities Zhu Weiqun 
listed for the development of Tibetan Buddhism at the Tibetan Buddhism 
Theological Institute: ``Firmly struggle against the Dalai clique''; 
``steadfastly safeguard the motherland's reunification and ethnic 
unity''; and ``consciously accept the government's management according 
to law'').
    \83\ The Communist Party does not acknowledge Tibetan religious 
devotion to the Dalai Lama, only that he influences Tibetans 
negatively. See, e.g., Li Chengye, ``While Speaking at the Regional 
Buddhist Association Forum, Chen Quanguo Stresses That It Is Necessary 
To Take a Clear-Cut Stand, Center on the Overall Picture, Educate, 
Guide, and Strengthen Services, Increase Accomplishment, and Make 
Contributions to Guiding Tibetan Buddhism To Adapt Itself to Socialist 
Society'' [Chen Quanguo zai yu zizhiqu fojiao xiehui zuotan shi 
qiangdiao qizhixianming weirao daju jiaoyu yindao qianghua fuwu zengjin 
xiuyang wei yindao zangchuan fojiao yu shehuizhuyi shehui xiang shiying 
zuo gongxian], Tibet Daily, 29 October 11, reprinted in China Tibet 
Information Center (translated in Open Source Center, 31 October 11) 
(Chen Quanguo: ``We should resolutely eliminate the reactionary 
influence of 14th Dalai [Lama] . . .'').
    \84\ The Commission is not aware of a similar institution elsewhere 
in the Tibetan areas of China. Chang Chuan, ``Tibet Buddhist 
Theological Institute Is Completed and Open--Pagbalha Geleg Namgyai, 
Qin Yizhi Attend Ceremony, Zhu Weiqun, Hao Peng Speak, Luosang Jiangcun 
Unveils Signboard, Qizhala Presides Over Ceremony, 11th Panchen Erdini 
Qoigyi Gyibo Sends Congratulatory Message'' [Xizang foxue yuan luocheng 
kai yuan pabala gelie langjie qin yizhi chuxi dianli zhu weiqun hao 
peng jianghua luosang jiangcun jiepai--qizhala zhuchi shiyi shi banchan 
e'erdeni--queji jiebu zhi hexin], Tibet Daily, 21 October 11, reprinted 
in China Tibet Information Center (translated in Open Source Center, 26 
October 11).
    \85\ China Directory 2012, ed. Radiopress (Tokyo: JPM Corporation, 
Ltd., December 2011), 17, 27.
    \86\ Chang Chuan, ``Tibet Buddhist Theological Institute Is 
Completed and Open--Pagbalha Geleg Namgyai, Qin Yizhi Attend Ceremony, 
Zhu Weiqun, Hao Peng Speak, Luosang Jiangcun Unveils Signboard, Qizhala 
Presides Over Ceremony, 11th Panchen Erdini Qoigyi Gyibo Sends 
Congratulatory Message'' [Xizang foxue yuan luocheng kai yuan pabala 
gelie langjie qin yizhi chuxi dianli zhu weiqun hao peng jianghua 
luosang jiangcun jiepai--qizhala zhuchi shiyi shi banchan e'erdeni--
queji jiebu zhi hexin], Tibet Daily, 21 October 11, reprinted in China 
Tibet Information Center (translated in Open Source Center, 26 October 
11).
    \87\ Zou Le, ``Committees To Ensure Stability in Tibet's 
Monasteries,'' Global Times, 15 February 12.
    \88\ See, e.g., Zou Le, ``Committees To Ensure Stability in Tibet's 
Monasteries,'' Global Times, 15 February 12 (``A [Monastery Management 
Committee] has been established in every monastery in the Tibet 
Autonomous Region''); Li Chengye, ``Regionwide Video-Teleconference on 
Stability Maintenance and Comprehensive Public Order Management by 
Public Security, Procuratorial, and Judicial Departments Emphasizes 
Need To Create New Situation in Regional Harmony and Stability and To 
Usher in Triumphant Opening of 18th CPC National Congress With 
Outstanding Achievements; Chen Quanguo, Hao Peng Deliver Speeches; 
Baima Chilin, Wu Yingjie, Gongbao Zhaxi, Qizhala, Deng Xiaogang Attend 
Meeting; Luosang Jiangcun Presides Over Meeting; Luobu Dunzhu Attends 
Meeting at Chamdo Branch Conference Hall'' [Quan qu zhengfa wei wen 
zong zhi gongzuo dianshi dianhua huiyi qiangdiao--nuli kaichuang quan 
qu hexie wending de xin jumian--yi youyi chengji yingjie dang de 18 
dasheng shengli zhaokai--chen quanguo hao peng jianghua baima chilin wu 
yingjie gongbao zhaxi qizhala deng xiaogang chuxi luosang jiangcun 
zhuchi luobu dunzhu chuxi changdu fenhuichang huiyi], Tibet Daily, 5 
January 12, reprinted in China Tibet Information Center (translated in 
Open Source Center, 16 January 12) (Chen Quanguo instructed government 
officials and Party cadres to ``strengthen and innovate management of 
temples and monasteries by making it a key feature to routinely station 
cadres in temples and monasteries''); Li Chengye, ``Chen Quanguo Gives 
Important Instructions on Further Improving the Work of Cadre Presence 
in Monasteries: Let Monks and Nuns Who Love Their Country and Their 
Religion Experience the Solicitude and Loving Care of Party and 
Government and Consciously Make Greater Contributions to the Building 
of Harmonious Tibet and Peaceful Tibet,'' Tibet Daily, 2 February 12, 
reprinted in China Tibet Online (translated in Open Source Center, 10 
February 12) (Chen said, ``The numerous comrades of the task forces for 
cadre presence in monasteries and the monastery management committees 
should build on their achievements and keep up their good work; . . . 
.'').
    \89\ Zou Le, ``Committees To Ensure Stability in Tibet's 
Monasteries,'' Global Times, 15 February 12 (the article described 
Monastery Management Committees as ``[headed] by government workers'').
    \90\ Chinese government and Party officials have provided 1,787 as 
the number of monasteries and nunneries in the TAR since at least 1996. 
Zou Le, ``Committees To Ensure Stability in Tibet's Monasteries,'' 
Global Times, 15 February 12 (the article refers to ``the regions' 
1,787 monasteries''); Shen Kaiyun, ``Actively Guide Religion To 
Accommodate Itself to Socialist Society,'' Tibet Daily, 4 November 96 
(translated in Open Source Center, 4 November 96) (in the TAR ``there 
are 1,787 monasteries'').
    \91\ Li Chengye, ``Chen Quanguo Gives Important Instructions on 
Further Improving the Work of Cadre Presence in Monasteries: Let Monks 
and Nuns Who Love Their Country and Their Religion Experience the 
Solicitude and Loving Care of Party and Government and Consciously Make 
Greater Contributions to the Building of Harmonious Tibet and Peaceful 
Tibet,'' Tibet Daily, 2 February 12, reprinted in China Tibet Online 
(translated in Open Source Center, 10 February 12).
    \92\ Chen Run'e, ``Be a Close Friend to Monks and Nuns'' [Zuo 
sengni de tiexin ren], Tibet Daily, 18 April 12, reprinted in China 
Tibet News. According to the report, cadres posted to monasteries 
``must establish and perfect records on monks and nuns who hold 
professional religious personnel certification, detailing and recording 
their individual information and their family circumstances.''
    \93\ Ibid.
    \94\ Li Chengye, ``Chen Quanguo Gives Important Instructions on 
Further Improving the Work of Cadre Presence in Monasteries: Let Monks 
and Nuns Who Love Their Country and Their Religion Experience the 
Solicitude and Loving Care of Party and Government and Consciously Make 
Greater Contributions to the Building of Harmonious Tibet and Peaceful 
Tibet,'' Tibet Daily, 2 February 12, reprinted in China Tibet Online 
(translated in Open Source Center, 10 February 12).
    \95\ ``List of Autonomous Region's Harmonious Model Monasteries and 
Patriotic Law-Abiding Advanced Monks and Nuns'' [Zizhiqu hexie mofan 
simiao he aiguo shoufa xianjin sengni mingdan], Tibet Daily, 3 May 12, 
reprinted in China Tibet News.
    \96\ Chinese government and Party officials have provided 46,000 as 
the approximate number of monks and nuns in the TAR since at least 
1996. State Council Information Office, White Paper: Sixty Years Since 
Peaceful Liberation of Tibet, Xinhua, 11 July 11, reprinted in 
Chinaview (the TAR has ``about 46,000 monks and nuns''); Shen Kaiyun, 
``Actively Guide Religion To Accommodate Itself to Socialist Society,'' 
Tibet Daily, 4 November 96 (translated in Open Source Center, 4 
November 96) (in the TAR there are ``over 46,000 nuns and monks'').
    \97\ Liu Xiangrui and Daqiong, ``Tibetan Monasteries Cited for 
Contributions to Harmony,'' China Daily, 20 April 12.
    \98\ See CECC, 2011 Annual Report, 10 October 11, 211-12; ``Tibetan 
Buddhist Affairs Regulations Taking Effect in Tibetan Autonomous 
Prefectures,'' Congressional-Executive Commission on China, 10 March 
11. See also Huangnan Tibetan Autonomous Prefecture Tibetan Buddhist 
Affairs Regulations [Huangnan zangzu zizhizhou zangchuan fojiao shiwu 
tiaoli], passed 4 September 09, approved and effective 24 September 09, 
arts. 22-23; Hainan Tibetan Autonomous Prefecture Tibetan Buddhist 
Affairs Regulations [Hainan zangzu zizhizhou zangchuan fojiao shiwu 
tiaoli], passed 8 July 09, approved and effective 31 July 09, arts. 18-
21; Haibei Tibetan Autonomous Prefecture Tibetan Buddhist Affairs 
Regulations [Haibei zangzu zizhizhou zangchuan fojiao shiwu tiaoli], 
passed 12 January 10, approved 18 March 10, effective 22 March 10, 
arts. 11(3), 35, 42(9), 43-45; Guoluo Tibetan Autonomous Prefecture 
Tibetan Buddhist Affairs Regulations [Guoluo zangzu zizhizhou zangchuan 
fojiao shiwu tiaoli], passed 22 March 10, approved and effective 30 
September 10, arts. 7(5), 17-19; Haixi Mongol and Tibetan Autonomous 
Prefecture Tibetan Buddhist Affairs Regulations [Haixi mengguzu zangzu 
zizhizhou zangchuan fojiao shiwu tiaoli], passed 8 March 10, approved 
27 May 10, effective 3 June 10, art. 17.
    \99\ ``Township governments guide selection of Masses Supervision 
and Appraisal Committee (MSAC) members from among village residents, 
herders, and monastery staff.'' CECC, 2011 Annual Report, 10 October 
11, 211. See also ``Tibetan Buddhist Affairs Regulations Taking Effect 
in Tibetan Autonomous Prefectures,'' Congressional-Executive Commission 
on China, 10 March 11; Huangnan Tibetan Autonomous Prefecture Tibetan 
Buddhist Affairs Regulations [Huangnan zangzu zizhizhou zangchuan 
fojiao shiwu tiaoli], passed 4 September 09, approved and effective 24 
September 09, art. 22; Hainan Tibetan Autonomous Prefecture Tibetan 
Buddhist Affairs Regulations [Hainan zangzu zizhizhou zangchuan fojiao 
shiwu tiaoli], passed 8 July 09, approved and effective 31 July 09, 
art. 19; Haibei Tibetan Autonomous Prefecture Tibetan Buddhist Affairs 
Regulations [Haibei zangzu zizhizhou zangchuan fojiao shiwu tiaoli], 
passed 12 January 10, approved 18 March 10, effective 22 March 10, art. 
43; Guoluo Tibetan Autonomous Prefecture Tibetan Buddhist Affairs 
Regulations [Guoluo zangzu zizhizhou zangchuan fojiao shiwu tiaoli], 
passed 22 March 10, approved and effective 30 September 10, art. 18; 
Haixi Mongol and Tibetan Autonomous Prefecture Tibetan Buddhist Affairs 
Regulations [Haixi mengguzu zangzu zizhizhou zangchuan fojiao shiwu 
tiaoli], passed 8 March 10, approved 27 May 10, effective 3 June 10, 
art. 17.
    \100\ Masses Supervision and Appraisal Committees (MSACs) may 
supervise and appraise monastic management and submit periodic reports 
to township- and county-level governments. See CECC, 2011 Annual 
Report, 10 October 11, 212; ``Tibetan Buddhist Affairs Regulations 
Taking Effect in Tibetan Autonomous Prefectures,'' Congressional-
Executive Commission on China, 10 March 11. See also Huangnan Tibetan 
Autonomous Prefecture Tibetan Buddhist Affairs Regulations [Huangnan 
zangzu zizhizhou zangchuan fojiao shiwu tiaoli], passed 4 September 09, 
approved and effective 24 September 09, art. 23(6); Hainan Tibetan 
Autonomous Prefecture Tibetan Buddhist Affairs Regulations [Hainan 
zangzu zizhizhou zangchuan fojiao shiwu tiaoli], passed 8 July 09, 
approved and effective 31 July 09, art. 21(3); Haibei Tibetan 
Autonomous Prefecture Tibetan Buddhist Affairs Regulations [Haibei 
zangzu zizhizhou zangchuan fojiao shiwu tiaoli], passed 12 January 10, 
approved 18 March 10, effective 22 March 10, art. 44(5); Guoluo Tibetan 
Autonomous Prefecture Tibetan Buddhist Affairs Regulations [Guoluo 
zangzu zizhizhou zangchuan fojiao shiwu tiaoli], passed 22 March 10, 
approved and effective 30 September 10, art. 19; Haixi Mongol and 
Tibetan Autonomous Prefecture Tibetan Buddhist Affairs Regulations 
[Haixi mengguzu zangzu zizhizhou zangchuan fojiao shiwu tiaoli], passed 
8 March 10, approved 27 May 10, effective 3 June 10, art. 17 (does not 
detail reporting requirements).
    \101\ None of the regulations contain provisions authorizing or 
instructing non-monastic MSAC members (e.g., village residents or 
herders) to reside within a monastery or nunnery. See, e.g., CECC, 2011 
Annual Report, 10 October 11, 211-12; ``Tibetan Buddhist Affairs 
Regulations Taking Effect in Tibetan Autonomous Prefectures,'' 
Congressional-Executive Commission on China, 10 March 11. See also 
Huangnan Tibetan Autonomous Prefecture Tibetan Buddhist Affairs 
Regulations [Huangnan zangzu zizhizhou zangchuan fojiao shiwu tiaoli], 
passed 4 September 09, approved and effective 24 September 09, art. 22; 
Hainan Tibetan Autonomous Prefecture Tibetan Buddhist Affairs 
Regulations [Hainan zangzu zizhizhou zangchuan fojiao shiwu tiaoli], 
passed 8 July 09, approved and effective 31 July 09, art. 19; Haibei 
Tibetan Autonomous Prefecture Tibetan Buddhist Affairs Regulations 
[Haibei zangzu zizhizhou zangchuan fojiao shiwu tiaoli], passed 12 
January 10, approved 18 March 10, effective 22 March 10, art. 43; 
Guoluo Tibetan Autonomous Prefecture Tibetan Buddhist Affairs 
Regulations [Guoluo zangzu zizhizhou zangchuan fojiao shiwu tiaoli], 
passed 22 March 10, approved and effective 30 September 10, art. 18; 
Haixi Mongol and Tibetan Autonomous Prefecture Tibetan Buddhist Affairs 
Regulations [Haixi mengguzu zangzu zizhizhou zangchuan fojiao shiwu 
tiaoli], passed 8 March 10, approved 27 May 10, effective 3 June 10, 
art. 17.
    \102\ Office of His Holiness the Dalai Lama, ``Statement of His 
Holiness the Fourteenth Dalai Lama, Tenzin Gyatso, on the Issue of His 
Reincarnation,'' 24 September 11. See also ``Dalai Lama Rejects 
Communist Party `Brazen Meddling' in Tibetan Buddhist Reincarnation,'' 
CECC China Human Rights and Rule of Law Update, No. 1, 24 January 12, 
3.
    \103\ For information on the Chinese government's claim to a 
historical basis for supervising the identifications of reincarnated 
Tibetan Buddhist teachers, see, e.g., ``Dalai Lama Rejects Communist 
Party `Brazen Meddling' in Tibetan Buddhist Reincarnation,'' CECC China 
Human Rights and Rule of Law Update, No. 1, 24 January 12, 3; ``The 
Dalai Lama Pursues `Tibetan Independence' by Manipulating 
`Reincarnation' '' [Dalai cao nong ``zhuanshi'' huati yi zai 
``zangdu''], People's Daily, 31 October 11 (translated in Open Source 
Center, 9 November 11); Ministry of Foreign Affairs, ``The 
Reincarnation of the Living Buddhas,'' 15 November 00; Ministry of 
Foreign Affairs, ``Did Tibet Become an Independent Country After the 
Revolution of 1911?'' 15 November 00.
    \104\ See, e.g., State Administration for Religious Affairs, 
Measures on the Management of the Reincarnation of Living Buddhas in 
Tibetan Buddhism [Zangchuan fojiao huofo zhuanshi guanli banfa], passed 
13 July 07, issued 18 July 07, effective 1 September 07.
    \105\ ``New Legal Measures Assert Unprecedented Control Over 
Tibetan Buddhist Reincarnation,'' Congressional-Executive Commission on 
China, 22 August 07.
    \106\ Office of His Holiness the Dalai Lama, ``Statement of His 
Holiness the Fourteenth Dalai Lama, Tenzin Gyatso, on the Issue of His 
Reincarnation,'' 24 September 11. See State Administration for 
Religious Affairs, Measures on the Management of the Reincarnation of 
Living Buddhas in Tibetan Buddhism [Zangchuan fojiao huofo zhuanshi 
guanli banfa], passed 13 July 07, issued 18 July 07, effective 1 
September 07.
    \107\ The Dalai Lama referred to the measures as ``Order No. 5.'' 
State Administration for Religious Affairs, Measures on the Management 
of the Reincarnation of Living Buddhas in Tibetan Buddhism [Zangchuan 
fojiao huofo zhuanshi guanli banfa], passed 13 July 07, issued 18 July 
07, effective 1 September 07.
    \108\ Office of His Holiness the Dalai Lama, ``Statement of His 
Holiness the Fourteenth Dalai Lama, Tenzin Gyatso, on the Issue of His 
Reincarnation,'' 24 September 11.
    \109\ Ibid. ``[The] person who reincarnates has sole legitimate 
authority over where and how he or she takes rebirth . . . . It is 
particularly inappropriate for Chinese communists, who explicitly 
reject even the idea of past and future lives, . . . to meddle in the 
system of reincarnation . . . .''
    \110\ Ibid. ``Such brazen meddling contradicts [Communist] 
political ideology and reveals their double standards. Should this 
situation continue in the future, it will be impossible for Tibetans 
and those who follow the Tibetan Buddhist tradition to acknowledge or 
accept it.''
    \111\ Office of His Holiness the Dalai Lama, ``A Brief Biography,'' 
last visited 10 May 12. The Dalai Lama was born in 1935.
    \112\ Office of His Holiness the Dalai Lama, ``Statement of His 
Holiness the Fourteenth Dalai Lama, Tenzin Gyatso, on the Issue of His 
Reincarnation,'' 24 September 11. ``When I am about ninety I will 
consult the high Lamas of the Tibetan Buddhist traditions, the Tibetan 
public, and other [Tibetan Buddhists], and re-evaluate whether the 
institution of the Dalai Lama should continue or not.''
    \113\ Ibid. ``If it is decided that . . . there is a need for the 
Fifteenth Dalai Lama to be recognized, responsibility . . . will 
primarily rest on . . . the Dalai Lama's Gaden Phodrang Trust.'' (The 
Commission has not observed information about the Trust or references 
to it that predate the statement.)
    \114\ Ibid. ``[Officers of the Trust] should seek advice and 
direction from [certain Tibetan Buddhist leaders and other entities] 
and carry out the procedures of search and recognition in accordance 
with past tradition. I shall leave clear written instructions about 
this.''
    \115\ CECC Staff Analysis. The assessment is based on observations 
in Tibetan areas of China by a Commission staffer over a period of 
years. See also ``Dalai Lama Rejects Communist Party `Brazen Meddling' 
in Tibetan Buddhist Reincarnation,'' CECC China Human Rights and Rule 
of Law Update, No. 1, 24 January 12, 3.
    \116\ ``Thoroughly Cleanse Our Region's Social Environment and 
Religion Environment'' [Qieshi jinghua wo qu shehui huanjing zongjiao 
huanjing], Tibet Daily, 7 December 11, reprinted in China Tibet News, 8 
December 11 (the article does not refer to monks and nuns (sengni)).
    \117\ CECC Staff Analysis. Farmers prefer to go on pilgrimage after 
harvest; nomads prefer to go after establishing grazing animals at 
winter pasture. The period around the full moon of the fourth Tibetan 
lunar month (late May or June), when Tibetan Buddhists observe the 
birth and enlightenment of the historical Buddha, is also an important 
time for pilgrimage. See also, e.g., Daniel J. Miller, Drokpa: Nomads 
of the Tibetan Plateau and Himalaya (Kathmandu: Vajra Publications, 
2008), 118, 125-26, 130; International Campaign for Tibet, ``When the 
Sky Fell to Earth: The New Crackdown on Buddhism in Tibet,'' 2004, 59.
    \118\ CECC Staff Analysis. A Commission staffer observed farmers 
and nomads on pilgrimage in numerous locations from the mid-1980s to 
the mid-1990s.
    \119\ ``Controls Slapped on Pilgrims,'' Radio Free Asia, 2 February 
12 (``Hundreds of Tibetan pilgrims returning from a religious gathering 
. . . are being detained, interrogated, and subjected to political `re-
education' ''); ``Pilgrims May Be Held for Months,'' Radio Free Asia, 
10 February 12 (source: ``There must be at least 700 or 800 of them 
detained in . . . Lhasa''); International Campaign for Tibet, 
``Lockdown in Lhasa at Tibetan New Year; Unprecedented Detentions of 
Hundreds of Tibetans After Dalai Lama Teaching in Exile,'' 22 February 
12 (``hundreds of Tibetans have been detained upon their return from a 
major religious teaching'').
    \120\ ``Beijing's Pilgrim `Flexibility' Puzzling,'' Radio Free 
Asia, 9 January 12 (``Chinese government allows up to 10,000 Tibetan 
pilgrims to travel to India to see the Dalai Lama at the `Kalachakra' 
ritual''); ``Controls Slapped on Pilgrims,'' Radio Free Asia, 2 
February 12 (``China had earlier allowed about 9,000 Tibetans to travel 
to India to take part in the ten-day Kalachakra''); International 
Campaign for Tibet, ``Lockdown in Lhasa at Tibetan New Year; 
Unprecedented Detentions of Hundreds of Tibetans After Dalai Lama 
Teaching in Exile,'' 22 February 12 (``7-8,000 Tibetans from inside 
Tibet attended a major religious ceremony, the Kalachakra'').
    \121\ ``Pilgrims May Be Held for Months,'' Radio Free Asia, 10 
February 12 (``Tibetans returning from a major Buddhist ritual in India 
may be held for up to four months''; source: ``[they] were put in the 
hotels and forced to do `political study' and confession.''); 
International Campaign for Tibet, ``Lockdown in Lhasa at Tibetan New 
Year; Unprecedented Detentions of Hundreds of Tibetans After Dalai Lama 
Teaching in Exile,'' 22 February 12 (``Tibetans detained following the 
Kalachakra have been held in detention centers, including one created 
in a school and one in an army camp''; ``[detainees] are being 
compelled to undergo `legal education.' ''); ``Pilgrims Freed After 
Two-Month Ordeal,'' Radio Free Asia, 3 April 12 (``pilgrims returning 
to areas in and around Lhasa were placed in hotels and other detention 
centers for `political reeducation' '').
    \122\ ``Pilgrims Freed After Two-Month Ordeal,'' Radio Free Asia, 3 
April 12. According to the report, ``authorities . . . on Tuesday 
[April 3] released hundreds of pilgrims detained more than two months 
ago.'' The released detainees were ``the last of a group that had been 
held in . . . Lhasa,'' but ``a group of 200'' remained detained in 
Shannan (Lhoka) prefecture, TAR.
    \123\ Reports observed by the Commission referred to detainees 
undergoing ``patriotic education'' or ``legal education''; none of the 
reports addressed specifically whether Tibetans had applied for and 
received official permits for travel to India, which are notoriously 
difficult for ethnic Tibetan citizens of China to obtain. See, e.g., 
Bureau of Democracy, Human Rights, and Labor, U.S. Department of State, 
July-December, 2010 International Religious Freedom Report: China 
(Includes Tibet, Hong Kong, Macau), 13 September 11. According to the 
report: ``In many areas during the reporting period, Public Security 
Bureaus (PSB) refused the passport applications of Tibetans. . . . Many 
Tibetans sought to travel to India for religious purposes . . . . Some 
attributed the passport restrictions to an official effort to hinder 
travel for those purposes. There were also instances in which 
authorities confiscated previously issued passports of Tibetans.''
    \124\ ``Monks, Nuns Abandon Monasteries,'' Radio Free Asia, 31 
January 12. The report provided monastery names as Driru, Pekar, 
Choeling, Tagmo, and Drongna, and the nunnery name as Jana.
    \125\ ``Tibetans Injured in Grenade Attack,'' Radio Free Asia, 19 
March 12. The report named the men as Karma Tharlam, Siga, Dzomlha Kar, 
Drukdrak (Drugdrag), and Tsegon.
    \126\ Yu Zhen, ``Tibetan Buddhist Monasteries in the Entire Region 
To Deepen the Carrying Out of Rule-of-Law Propaganda-Themed Education 
Activities'' [Quan qu zangchuan fojiao simiao shenru kaizhan fazhi 
xuanchuan zhuti jiaoyu huodong qidong], Tibet Daily, 11 May 12, 
reprinted in China Tibet News, 12 May 12.
    \127\ Ibid. For additional information on Baima Chilin's work on 
the campaign, see ``Biru County Convenes Tibetan Buddhist Monastery In-
Depth Development in Order To Promote Successive Generations of Senior 
Monks' Virtues of `Patriotic Love To Teach; Law-Abiding Compliance; 
Abandon Evil and Promote Good and Harmony; Pray for Peace,' as the 
Theme of Law Publicity and Education Activities Meeting'' [Biru xian 
zhaokai zai simiao sengni zhong shenru kaizhan yi hongyang lidai 
gaoseng dade ``aiguo aijiao, zunji shoufa, qi'e yangshan, chongshang 
hexie, qiqiu heping'' wei zhuti de fazhi xuanchuan jiaoyu huodong 
dongyuan dahui], Tibet Naqu News Agency, 2 July 12.
    \128\ China Directory 2012, ed. Radiopress (Tokyo: JPM Corporation, 
Ltd., December 2011), 17, 27.
    \129\ Zhu Weiqun, ``Some Thoughts on Existing Problems in the Field 
of Nationalities'' [Dui dangqian minzu lingyu wenti de jidian sikao], 
Study Times, 13 February 12 (translated in Open Source Center, 20 
February 12). Zhu stated: ``Touching on the issue of ethnic development 
trend, we must talk about the issue of ethnic mingling and 
amalgamation.''
    \130\ Ibid. Zhu quoted Zhou Enlai as saying: ``If assimilation is 
the natural amalgamation of all nationalities to move toward 
prosperity, that would be progressive. . . . In China's history, some 
nationalities have been constantly amalgamated and some new 
nationalities have constantly emerged; this is a universal and regular 
phenomenon.''
    \131\ Zhu Weiqun, ``Some Thoughts on Existing Problems in the Field 
of Nationalities'' [Dui dangqian minzu lingyu wenti de jidian sikao], 
Study Times, 13 February 12 (translated in Open Source Center, 20 
February 12) (``not adding any more localities with regional autonomy 
for ethnic minorities'').
    \132\ Zhu Weiqun, ``Some Thoughts on Existing Problems in the Field 
of Nationalities'' [Dui dangqian minzu lingyu wenti de jidian sikao], 
Study Times, 13 February 12 (translated in Open Source Center, 20 
February 12) (``I am personally predisposed to removing the `ethnicity' 
box from the residence identification card. . . .'').
    \133\ Zhu Weiqun, ``Some Thoughts on Existing Problems in the Field 
of Nationalities'' [Dui dangqian minzu lingyu wenti de jidian sikao], 
Study Times, 13 February 12 (translated in Open Source Center, 20 
February 12) (``promoting desegregated education for students of 
different nationalities''). Zhu states in the article: ``Now some of 
our educational and administrative measures have, by accident or 
design, weakened the education on the sense of nationhood and 
identification with the Chinese Nation.''
    \134\ Ibid. Zhu stated: ``Whether from the perspective of 
benefiting the development and progress of minority nationalities, or 
from the perspective of benefiting the Chinese Nation's unanimity, it 
is imperative to popularize the state's common spoken and written 
languages without fail.''
    \135\ See, e.g., PRC Constitution, issued 4 December 82, amended 12 
April 88, 29 March 93, 15 March 99, 14 March 04, arts. 4, 116, 121.
    \136\ PRC Regional Ethnic Autonomy Law (REAL) [Zhonghua renmin 
gongheguo minzu quyu zizhifa], issued 31 May 84, effective 1 October 
84, amended and effective 28 February 01, arts. 10, 19-21.
    \137\ Liu Ling, Chinese Academy of Social Sciences Institute of 
Ethnology and Anthropology, ``Persist in the Basic Political System, 
Resolve Ethnic Issues Through Development--An Outline of the Chinese 
Ethnic Theory Association Symposium'' [Jianchi jiben zhengzhi zhidu-zai 
fazhan zhong jiejue minzu wenti--zhongguo minzu lilun xuehui zuotanhui 
jiyao], 23 February 12.
    \138\ Ibid.
    \139\ Ai Feng, ``Tibet Supervision Head: For the First Time in 
Tibet's History, Work Teams Are Stationed in Every Village'' [Xizang 
jiancha zhang: xizang lishi shang shouci suoyou cun dou paizhu 
gongzuodui], China Net, 8 March 12, reprinted in Phoenix Net (``We 
mainly focused on five tasks determined by the Party Committee: one, 
strengthen the grass roots organization; . . .''); Li Chengye and Huang 
Zhiwu, ``Cordial Concern, Tremendous Encouragement--Sidelights on 
General Secretary Hu Jintao Joining Tibet Delegation in Breakout 
Session Deliberations'' [Qinqie de guanhuai juda de guwu--hu jintao 
zongshuji canjia xizang daibiaotuan fenzu shenyi ce ji], Tibet Daily, 
12 March 12 (translated in Open Source Center, 17 March 12) (``helped 
to build strong village-level party organizations'').
    \140\ Zou Le, ``Committees To Ensure Stability in Tibet's 
Monasteries,'' Global Times, 15 February 12 (the article refers to 
``the regions' 1,787 monasteries'').
    \141\ Ai Feng, ``Tibet Supervision Head: For the First Time in 
Tibet's History, Work Teams Are Stationed in Every Village'' [Xizang 
jiancha zhang: xizang lishi shang shouci suoyou cun dou paizhu 
gongzuodui], China Net, 8 March 12, reprinted in Phoenix Net. According 
to the article, ``NPC delegate and Supervision Department Head'' Weise 
(Woeser, Oezer) said it was ``the first time in history that work teams 
had been posted to every village in Tibet'' and that it would last 
``three years until the end of 2014, but maybe it'll go longer 
depending on conditions.'' According to China Directory 2012, Weise is 
Director of the TAR Supervision Department. China Directory 2012 
(Tokyo: Radiopress, December 2011), 435.
    \142\ Li Chengye and Huang Zhiwu, ``Cordial Concern, Tremendous 
Encouragement--Sidelights on General Secretary Hu Jintao Joining Tibet 
Delegation in Breakout Session Deliberations'' [Qinqie de guanhuai juda 
de guwu--hu jintao zongshuji canjia xizang daibiaotuan fenzu shenyi ce 
ji], Tibet Daily, 12 March 12 (translated in Open Source Center, 17 
March 12).
    \143\ Li Chengye, ``Speaking at a Video-Teleconference on the Work 
of Maintaining Social Stability in the Whole Region, Chen Quanguo 
Stresses That It Is Necessary To Keep the Warning Bell Ringing Long, 
Ensure No Danger of Anything Going Wrong, Do a Good Job in Carrying Out 
Practical Measures, Perform Well the Duties and Functions, and Further 
Consolidate and Develop the Good Situation of Harmony and Stability in 
the Region'' [Chen quanguo zai quan qu weihu shehui wending gongzuo 
dianshi dianhua huiyi shang qiangdiao--jingzhong changming wanyu yishi 
yong hao shi zhao jin hao zhize--jinyibu gonggu fazhan quan qu hexie 
wending de hao jumian], Tibet Daily, 28 September 11 (translated in 
Open Source Center, 5 October 11).
    \144\ ``Tibetan Singer Detained,'' Radio Free Asia, 23 April 12; 
``Tibetan Singer Arrested Over `Independence,' '' Phayul, 23 April 12. 
Based on the reports, public security officials detained Lolo (Lo Lo) 
in Yushu (Yulshul) TAP, Qinghai province, on April 19, 2012, several 
months after he released an album containing pro-independence lyrics. 
See the Commission's Political Prisoner Database, record 2012-00181, 
for more information on the case.
    \145\ ``Tibetan Culture Advocate `Detained,' '' Radio Free Asia, 13 
February 12; ``Building Bombed in Sichuan,'' Radio Free Asia, 29 
February 12. Based on the reports, in early February 2012, security 
officials detained ``Tibetan culture advocate'' Dawa Dorje in Lhasa 
city, TAR, after he convened a gathering of Tibetans in Chengdu city, 
Sichuan province, to encourage ``songs with themes that would promote 
the Tibetan language, race, and culture.'' See the Commission's 
Political Prisoner Database, record 2012-00074, for more information on 
the case.
    \146\ ``Tibetan Singer, Others Sentenced,'' Radio Free Asia, 3 
April 12; Tibetan Centre for Human Rights and Democracy, ``Tibetan 
Singer Sentenced for Patriotic Songs,'' 5 April 12. Based on the 
reports, in February 2012 public security officials detained singer 
Urgyen Tenzin after he released a DVD containing ``songs promoting 
Tibetan national identity'' (RFA); a court in Qinghai province 
sentenced him to two years' imprisonment around March 20. See the 
Commission's Political Prisoner Database, record 2012-00144, for more 
information on the case.
    \147\ ``Popular Tibetan Writer Detained,'' Radio Free Asia, 18 
February 12; Tibetan Centre for Human Rights and Democracy, ``Three 
Tibetan Writers Detained, One Sentenced,'' 20 February 12. Based on the 
reports, on February 15, 2012, security officials detained writer and 
school teacher Drubpa Kyab in Seda (Serthar) county, Ganzi (Kardze) 
TAP, Sichuan province; he had published compositions with titles such 
as ``Pain of This Era'' (RFA). See the Commission's Political Prisoner 
Database, record 2012-00092, for more information on the case.
    \148\ ``Tibetan Comedian Detained,'' Radio Free Asia, 24 February 
12. Based on the report, in early February 2012, security officials 
detained shopkeeper and satirist Athar in Litang (Lithang) county, 
Ganzi (Kardze) TAP, Sichuan province, prior to his planned release of a 
``video criticizing Chinese rule in Tibetan-populated regions.'' See 
the Commission's Political Prisoner Database, record 2012-00182, for 
more information on the case.
    \149\ Tendar Tsering, ``No Let Up in Kirti, Two More Monks 
Detained,'' Phayul, 25 November 11. Based on the report, on November 
21, 2011, public security officials detained Kirti Monastery monk 
Gyatso in Aba (Ngaba) county, Aba Tibetan and Qiang Autonomous 
Prefecture, Sichuan province; his ``compositions had appeared in 
regional magazines and newspapers.'' See the Commission's Political 
Prisoner Database, record 2011-00798, for more information on the case.
    \150\ Tibetan Centre for Human Rights and Democracy, ``Arbitrary 
Arrest of a Tibetan in Taktse,'' 18 November 11. Based on the report, 
on November 1, 2011, security officials detained farmer Lhaten in Dazi 
(Tagtse) county, Lhasa municipality, TAR; he was ``suspected of having 
a connection'' with imprisoned Tibetan documentary filmmaker Dondrub 
Wangchen. See the Commission's Political Prisoner Database, record 
2011-00783 for more information on Lhaten, and record 2008-00586 on 
Dondrub Wangchen.
    \151\ Brionie Pereira, ``Scholar and Writer Jailed for Three Years 
in Tibet, Another Arrested,'' Tibet Post International, 29 October 11; 
Tibetan Centre for Human Rights and Democracy, ``Writer Meycheh 
Arrested,'' 28 October 11. Based on the reports, on October 19, 2011, 
public security officials detained Choepa Lugyal (Meche) in Daowei 
(Dobi) Tibetan township, Xunhua (Yadzi) Salar Autonomous County, 
Haidong prefecture, Qinghai province; he was ``known for his prolific 
writing and insightful political commentary'' (TPI). See the 
Commission's Political Prisoner Database, record 2011-00752, for more 
information on the case.
    \152\ P. Sloyan, ``Young Tibetan Singer Choegon Arrested,'' Tibet 
Post International, 12 October 11. Based on the report, on September 
25, 2011, public security officials detained singer Choegon while he 
was en route from Jiangda (Jomda) county, Changdu (Chamdo) prefecture, 
TAR, to Lhasa city; authorities may have suspected that Choegon's music 
had a ``pro-Tibetan political agenda.'' See the Commission's Political 
Prisoner Database, record 2011-00720, for more information on the case.
    \153\ ``Tibetan Writer Sentenced,'' Radio Free Asia, 28 October 11; 
``Tibetan Man From Ngaba Arrested in Chengdu,'' Phayul, 5 October 10. 
Based on the reports, on October 1, 2010, public security officials in 
Chengdu city, the Sichuan province capital, detained writer and school 
teacher Dawa (Joleb Dawa), a resident of Aba county, Aba T&QAP, Sichuan 
(Phayul); a court in Ma'erkang (Barkham), the Aba prefecture capital, 
sentenced Dawa to three years' imprisonment (RFA). See the Commission's 
Political Prisoner Database, record 2010-00471, for more information on 
the case.
    \154\ For information on large-scale Tibetan student protests in 
Qinghai against policy changes that would reduce the status and use of 
Tibetan language in October 2010, see CECC, 2011 Annual Report, 10 
October 11, 214-16.
    \155\ Free Tibet, ``Hundreds of Students Join Tibet Protest,'' 8 
March 12. According to the report, the protesters were students at the 
Tongren (Rebgong) County National Middle School and the Chinese-
language textbooks replaced Tibetan-language textbooks on politics, 
history, geography, mathematics, biology, chemistry, and physics.
    \156\ International Campaign for Tibet, ``Tensions Escalate in 
Qinghai: Rebkong Self-Immolation, Student Protest, Monks Commemorate 
March 10,'' 14 March 10 (the Zeku students marched to the county 
government offices); ``Language Policy Comes Under Scrutiny,'' Radio 
Free Asia, 14 March 12 (students called for ``equality for all 
nationalities [and] freedom of language.'').
    \157\ Free Tibet, ``Hundreds of Students Join Tibet Protest,'' 8 
March 12.
    \158\ ``Language Policy Comes Under Scrutiny,'' Radio Free Asia, 14 
March 12.
    \159\ ``Tibetan Teachers Fired From Jobs,'' Radio Free Asia, 6 June 
12. The report stated that the dates of the firings were unknown.
    \160\ ``China Closes Tibetan Schools,'' Radio Free Asia, 15 May 12. 
According to the report's source, Lama Gewa is a former monk who 
instructed students on use of ``pure Tibetan language''; the curriculum 
included ``daily religious recitations and prayers for the long life of 
exiled spiritual leader the Dalai Lama.'' A report of a two-year 
sentence at a site near Xining, the Qinghai province capital, is ``not 
confirmed.'' See the Commission's Political Prisoner Database, record 
2012-00194, for more information on Lama Gewa's case.
    \161\ ``School Closed, Teachers Detained,'' Radio Free Asia, 18 
April 12 (``established in 1987 . . . with approval from Kardze . . . 
county authorities''; ``efforts toward preserving Tibetan language and 
culture had annoyed the local authorities''); Tibetan Centre for Human 
Rights and Democracy, ``Tibetan School Forcibly Closed, Teachers 
Arrested,'' 19 April 12 (``Khadrok Jamtse Rokten School''; ``offered 
classes in Tibetan language and culture for the last 20 years''; 
``Kardze County Public Security Bureau officers arrested the school's 
director, Nyendak and a teacher, Yama Tsering''); Tibetan Centre for 
Human Rights and Democracy, ``Chinese Government Notification Restricts 
Tibetan NGOs in Kardze,'' 2 May 12 (``school founded in 1989''; ``set 
up 20 years ago with full approval from the local authorities''; 
``classes in Tibetan language and culture''). See the Commission's 
Political Prisoner Database, records 2012-00176 on Nyandrag and 2012-
00177 on Yama Tsering, for more information on the cases.
    \162\ ``China Closes Tibetan Schools,'' Radio Free Asia, 15 May 12; 
Tendar Tsering, ``China Closes Tibetan Orphanage School in Amdo,'' 
Phayul, 14 May 12. According to the RFA report, the facility's 
director, Atsun Tsondru Gyatso, ``disappeared'' in January 2011 after 
local officials questioned him several times. See the Commission's 
Political Prisoner Database, records 2012-00178 on Sanggye Dondrub, 
2012-00179 on Jamyang, and 2012-00180 on Atsun Tsondru Gyatso, for more 
information on the cases.
    \163\ Xu Chang'an, ``News Observer: Political Bureau Done Mapping 
Out New General Strategy for Governing Tibet, Tibet Finishes Painting 
`Warm Spring Picture' of New Year'' [Xinwen guancha: zhengzhiju mou 
ding zhi zang xin fang lue, xizang hui jiu xinnian ``nuan chun tu''], 
Xinhua, 10 January 10 (translated in Open Source Center, 10 January 
10). For CECC analysis, see ``Communist Party Leadership Outlines 2010-
2020 `Tibet Work' Priorities at `Fifth Forum,' '' CECC China Human 
Rights and Rule of Law Update, No. 3, 16 March 10, 2.
    \164\ ``The CPC Central Committee and the State Council Hold the 
Fifth Tibet Work Forum'' [Zhonggong zhongyang guowuyuan zhaokai diwu ci 
xizang gongzuo zuotanhui], Xinhua, 22 January 10 (translated in Open 
Source Center, 25 January 10). See also CECC, 2010 Annual Report, 10 
October 10, 215-19; ``Communist Party Leadership Outlines 2010-2020 
`Tibet Work' Priorities at `Fifth Forum,' '' CECC China Human Rights 
and Rule of Law Update, No. 3, 16 March 10, 2.
    \165\ For information on the Fifth Tibet Work Forum implications 
for Tibetans in the Tibetan autonomous areas of China, see CECC, 2010 
Annual Report, 10 October 10, 215-19; ``Communist Party Leadership 
Outlines 2010-2020 `Tibet Work' Priorities at `Fifth Forum,' '' CECC 
China Human Rights and Rule of Law Update, No. 3, 16 March 10, 2; ``The 
CPC Central Committee and the State Council Hold the Fifth Tibet Work 
Forum'' [Zhonggong zhongyang guowuyuan zhaokai diwu ci xizang gongzuo 
zuotanhui], Xinhua, 22 January 10 (translated in Open Source Center, 25 
January 10).
    \166\ Chen Quanguo, ``Firmly and Unswervingly Take the Road of 
Development With Chinese and Tibetan Characteristics, and Struggle in 
Unity To Achieve Development by Leaps and Bounds and Long-Term 
Stability and Security'' [Jianding buyi zou you zhongguo tese xizang 
tedian fazhan luzi--wei shixian kuayueshi fazhan he changzhijiuan er 
tuanjie fendou], Tibet Daily, 18 November 11, reprinted in China Tibet 
Information Center (translated in Open Source Center, 4 December 11).
    \167\ Zhu Weiqun, ``Some Thoughts on Existing Problems in the Field 
of Nationalities'' [Dui dangqian minzu lingyu wenti de jidian sikao], 
Study Times, 13 February 12 (translated in Open Source Center, 20 
February 12).
    \168\ Ibid.
    \169\ Ibid. Zhu stated: ``For instance, mixed habitation has become 
more widespread for more people of all nationalities . . . . Our policy 
orientation should be to go along with this trend in depth and make it 
irreversible . . . .''
    \170\ Ibid. Zhu stated: ``In other words, economic support should 
give more emphasis to the geographical factors, such as hardship in 
natural environment and the masses living in poverty, as the criteria . 
. . rather than overly emphasizing support for a specific nationality. 
Using the geographical factor as the major focus point, the state will 
still implement most of its support among the minority people, but it 
will produce different results in social and political direction.''
    \171\ Ibid. Zhu stated: ``In other words, for every economic 
investment in the minority area, we should consider its significance to 
increasing unity, safeguarding stability, and consolidating national 
unification, and should consider how it can produce economic and 
political results.''
    \172\ For more information on the network of railways the Chinese 
government plans to build on the Tibetan plateau, see CECC, ``Special 
Topic Paper: Tibet 2008-2009,'' 22 October 09, 46-53; CECC, 2009 Annual 
Report, 10 October 09, 283-86; CECC, 2010 Annual Report, 10 October 10, 
223; CECC, 2011 Annual Report, 10 October 11, 217-18. See also 
``Qinghai-Tibet Railway To Get Six New Lines,'' China Daily, 17 August 
08. According to the report, ``The six new tracks include one from 
Lhasa to Nyingchi [Linzhi] and one from Lhasa to Xigaze [Rikaze], both 
in the Tibet autonomous region. Three tracks will originate from Golmud 
in Qinghai province and run to Chengdu in Sichuan province, Dunhuang in 
Gansu province, and Kuerle [Ku'erle] of the Xinjiang Uygur Autonomous 
Region. The sixth will link Xining, capital of Qinghai, with Zhangye in 
Gansu.'' ``Qinghai-Tibet Plateau To Embrace 6 More Railway Lines by 
2020,'' Xinhua, 3 December 08.
    \173\ Chen Quanguo, ``Firmly and Unswervingly Take the Road of 
Development With Chinese and Tibetan Characteristics, and Struggle in 
Unity To Achieve Development by Leaps and Bounds and Long-Term 
Stability and Security'' [Jianding buyi zou you zhongguo tese xizang 
tedian fazhan luzi--wei shixian kuayueshi fazhan he changzhijiuan er 
tuanjie fendou], Tibet Daily, 18 November 11, reprinted in China Tibet 
Information Center (translated in Open Source Center, 4 December 11).
    \174\ Tian Zhilin, ``Speed Up Process, Strive To Start Construction 
of Lhasa-Linzhi Segment of Sichuan-Tibet Railway This Year'' [Jiakuai 
jincheng zhengqu chuan zang tielu la lin duan niannei kaigong jianshe], 
Tibet Daily, 19 April 12, reprinted in China Tibet News.
    \175\ Ministry of Railways, ``Long-Term Railway Network Plan (2008 
Revision)'' [Zhong chang qi tielu wang guihua tu (2008 nian 
tiaozheng)], last visited 13 June 12. The Web page displays a graphic 
image of a map. The map key indicates existing railways, planned high-
speed railways, (other) planned railways, planned electrification of 
railways, and railway plans under investigation.
    \176\ ``Full Speed Ahead for Tibet Railway Extension,'' Xinhua, 17 
January 12.
    \177\ ``Tibet's New Railway To Open in 2014,'' China Daily, 2 
September 11.
    \178\ ``Tibet Starts Building 5th Civil Airport,'' Xinhua, 30 April 
09. According to the report, ``Construction on the 11-billion-yuan 
[US$1.61 billion] Qinghai-Tibet railway's extension line started in 
2008 and was expected to be completed in 2010.''
    \179\ Zhou Hongwu, ``Actively Build Harmonious Railway 
Construction'' [Jiji gou jian hexie tielu jianshe], Tibet Daily, 22 
April 12, reprinted in China Tibet News. The report referred to the 
need ``to better protect the legitimate rights and interests of railway 
constructors and to actively and effectively serve peaceful and 
harmonious railway construction,'' and noted that railway staff gave 
construction workers copies of laws including the `` `Contract Labor 
Law,' the `Civil Law,' the `Criminal Law,' the `Law on Administrative 
Punishment,' and the `Law on Petitioning.' ''
    \180\ ``China's Railways Ministry Auctions 30 Bln-Yuan Bonds,'' 
Xinhua, 8 November 11.
    \181\ Qi Yongdong, Aba Prefecture Government Information Work 
Office, ``First Revenues for the Aba Prefecture Section of the Chengdu-
Lanzhou Railway Enter the Coffers'' [Chenglan tielu aba zhou duan 
gongcheng shou bi shuikuan zhengshou ruku], reprinted in Aba Tibetan 
and Qiang Autonomous Prefecture People's Government, 27 March 12. For 
information on the railway's route to Aba prefecture via Shifang city 
in Deyang municipality, Sichuan province, see Shifang City Post-
Disaster Reconstruction Office, ``Chengdu-Lanzhou Railway Moves Toward 
a Schematic Map'' [Chenglan tielu xianlu zouxiang shiyitu], 28 November 
11.
    \182\ Aba Government Information Work Office, ``China Railway 
Second Department Specialist Group Travels to Mao County To Perform On-
Site Survey of Lanzhou Railway's Mao County Section Mainline Line Type 
and To Choose Railway Station Address'' [Zhong tie er yuan zhuanjia zu 
dao maoxian takan chenglan tielu maoxian duan ganxian xian xingji 
chezhan xuan zhi], reprinted in Aba Tibetan and Qiang Autonomous 
Prefecture People's Government, 20 August 10.
    \183\ Ministry of Railways, ``Long-Term Railway Network Plan (2008 
Revision)'' [Zhong changqi tielu wang guihua tu (2008 nian tiaozheng)], 
last visited 13 June 12. The Ministry of Railways map marks only two 
sites along the Chengdu-Lanzhou route: Jiuzhaigou, the seat of 
Jiuzhaigou county in Aba T&QAP, and Hadapu town, located in Dangchang 
county, Longnan municipality, Gansu province. Zhouqu (Drugchu) county 
is between Jiuzhaigou and Hadapu.
    \184\ Luorong Zhandui and Yang Minghong, ``Building Housing for the 
People a Violation of Human Rights?'' [Gei laobaixing xiujian zhufang 
qinfang le shenme renquan?], People's Daily, 27 January 12 (translated 
in Open Source Center, 31 January 12). The report said, ``According to 
statistics, 1.85 million [of those involved in agriculture and those 
half involved in agriculture and half involved in herding], 61% of 
Tibet's total population, had settled down by 2011.'' See also ``Over 1 
Million Tibetan Nomads Choose Settlement,'' Xinhua, 6 July 12, 
reprinted in People's Daily (Qinghai official: ``More than 270,000 
nomads have settled in Qinghai . . . in the three years since the 
campaign accelerated in 2009''). See CECC, 2011 Annual Report, 10 
October 11, 217 (based on official TAR statistics on forced settlement 
of nomadic herders and resettlement of farmers, the government had 
settled or resettled ``1.43 million farmers and herdsmen''--nearly two-
thirds of the TAR rural population); CECC, 2010 Annual Report, 10 
October 10, 224 (official TAR statistics on forced settlement of 
nomadic herders and resettlement of farmers totaled approximately 1.33 
million, about half the TAR Tibetan population).
    \185\ State Council General Office, Several Opinions on Promoting 
and Speeding Up Sound Development in Grazing Areas [Guowuyuan guanyu 
cujin muqu you hao you kuai fazhan de ruogan yijian], reprinted in PRC 
Central People's Government, 9 August 11.
    \186\ Tibetan Centre for Democracy and Human Rights, ``Four Tibetan 
Environmental Activists Detained in Tawu,'' 15 March 12. The report 
referred to but did not name a fourth detainee. See the Commission's 
Political Prisoner Database, records 2012-00173 on Lubum, 2012-00174 on 
Dragpa, and 2012-00175 on Dawa, for more information on the cases.
    \187\ ``Tsang Monastery on Security Watch,'' Radio Free Asia, 22 
March 12. According to the report, the posters appeared on March 15, 
2012, in multiple locations around Tsang Monastery.
    \188\ For the purpose of calculating average sentences, the 
Commission's Political Prisoner Database provides 20 years as a nominal 
length of a life sentence. Official Chinese information about the 
actual average time served by prisoners sentenced to life imprisonment 
is not available.
    \189\ In addition to the 597 Tibetan political prisoners believed 
or presumed to be currently detained or imprisoned and who were 
detained on or after March 10, 2008, the Commission's Political 
Prisoner Database recorded as of September 1, 2012, an additional 715 
Tibetan political prisoners detained or imprisoned on or after March 
10, 2008, who are known or presumed to have been released, or who 
reportedly escaped or died.
    \190\ For the purpose of calculating average sentences, the 
Commission's Political Prisoner Database provides 20 years as a nominal 
length of a life sentence. Official Chinese information about the 
actual average time served by prisoners sentenced to life imprisonment 
is not available.
    \191\ Ibid.
    Notes to Section VI--Developments in Hong Kong and Macau

    \1\ Hong Kong Legislative Council, Chief Executive (Amendment) Bill 
2010, introduced 10 December 10, passed 3 March 11, and Chief Executive 
Election (Amendment) Ordinance 2011, enacted 11 March 11. For details 
of the 2011 revision, see CECC, 2011 Annual Report, 10 October 11, 221.
    \2\ Hong Kong Legislative Council, Legislative Council (Amendment) 
Bill 2010, introduced 10 December 10, passed 5 March 11; Hong Kong 
Legislative Council, Legislative Council (Amendment) Ordinance 2011, 
enacted 11 March 11.
    \3\ Basic Law of the Hong Kong Special Administrative Region of the 
People's Republic of China, enacted by the National People's Congress 4 
April 90, effective 1 July 97, chap. IV, art. 45 (selection of the 
chief executive), art. 68 (selection of Legislative Council), and chap. 
1, art. 2 (``high degree of autonomy'').
    \4\ Tanna Chong, ``Xi Calls for End to Chaos and Mud-Slinging,'' 
South China Morning Post, 9 March 12.
    \5\ Te-Ping Chen, ``Hong Kong's Scandalous Election Too Much for 
China,'' Wall Street Journal, 13 March 12.
    \6\ ``The Worst System, Including All the Others,'' Economist, 31 
March 12.
    \7\ ``The Worst System, Including All the Others,'' Economist, 31 
March 12; Te-Ping Chen, ``Hong Kong's Scandalous Election Too Much for 
China,'' Wall Street Journal, 13 March 12; ``Xi Jinping Makes a 
Decision on Chief Executive Battle; Leung Chun-Ying To Be Elected by 
700 Votes in One Go,'' Apple Daily, 3 March 12 (Open Source Center, 3 
March 12); ``Beijing Lobbies in Push for a Leung Victory,'' South China 
Morning Post, 21 March 12.
    \8\ Te-Ping Chen, ``Hong Kong's Scandalous Election Too Much for 
China,'' Wall Street Journal, 13 March 12; Cheung Chi-fai, ``Ip, Wong 
Demand Clarity on Exco Rule,'' South China Morning Post, 19 March 12.
    \9\ ``The Worst System, Including All the Others,'' Economist, 31 
March 12.
    \10\ ``Xi Jinping Makes a Decision on Chief Executive Battle; Leung 
Chun-Ying To Be Elected by 700 Votes in One Go,'' Apple Daily, 3 March 
12 (Open Source Center, 3 March 12). The final result was 689 votes for 
Leung, 285 for Tang, and 76 for Ho. Government of the Hong Kong Special 
Administrative Region, ``The Fourth Term Chief Executive Election: 
Election Result,'' 25 March 12. Xi Jinping is the likely future leader 
of China. See, e.g., White House Press Office, ``Press Briefing on the 
Upcoming Visit of Chinese Vice President Xi Jinping to the United 
States,'' 10 February 12.
    \11\ ``Beijing Lobbies in Push for a Leung Victory,'' South China 
Morning Post, 21 March 12. Some of those who were lobbied refused, 
including tycoon Li Ka-shing, whom Xi Jinping asked directly to support 
Leung. Gary Cheng et al., ``Tycoon Won't Be Swayed--He's Backing 
Tang,'' South China Morning Post, 22 March 12.
    \12\ Keith Bradsher, ``Pro-Beijing Candidates Outmaneuver Opponents 
as Hong Kong Votes,'' New York Times, 10 September 12.
    \13\ Te-Ping Chen, ``Hong Kong Election Widens Political Divide,'' 
Wall Street Journal, 10 September 12.
    \14\ Ibid. Lai Ying-kit, ``Pan Democrats Declare Narrow Victory, as 
Radical Candidates Gain Supporters,'' South China Morning Post, 10 
September 12.
    \15\ Te-Ping Chen, ``Hong Kong Election Widens Political Divide,'' 
Wall Street Journal, 10 September 12.
    \16\ Keith Bradsher, ``Hong Kong Retreats on `National Education' 
Plan,'' New York Times, 8 September 12.
    \17\ Dennis Chong et al., ``Black Day for National Education as 
Tamar Site Is Swamped,'' South China Morning Post, 8 September 12.
    \18\ Keith Bradsher, ``Hong Kong Retreats on `National Education' 
Plan,'' New York Times, 8 September 12.
    \19\ ``Tens of Thousands of Hong Kong People Oppose Government's 
Plan for Middle and Elementary National Education'' [Xianggang shu wan 
ren kangyi gangfu jihua zhong de zhong xiao xue guomin jiaoyu], Radio 
Free Asia, 29 July 12; ``Some 90,000 People Take to Hong Kong Streets 
To Protest Against Pro-Beijing `National Education,' '' AsiaNews, 30 
July 12; Te-Ping Chen, ``Hong Kong Rally Slams `Brainwashing,' '' Wall 
Street Journal, 2 September 12.
    \20\ Jennifer Cheng, ``77 Primary Schools Give Complete No to 
National Education Curriculum,'' South China Morning Post, 31 August 
12; Ada Lee, ``Hunger-Strike Pupils Dismiss C.Y.'s Visit as `a Stunt,' 
'' South China Morning Post, 31 August 12; ``Withdrawing National 
Education Classes Not an Option, C.Y. Leung Says,'' South China Morning 
Post, 4 September 12.
    \21\ Olga Wong, ``National Education Can Still Be Shelved To Avoid 
a Crisis, Analysts Say,'' South China Morning Post, 4 September 12.
    \22\ Wang Ping, ``National Education Is Not `Brainwashing' 
(Reporter's Observations)'' [Guomin jiaoyu bu shi ``xi nao'' (jizhe 
guancha)], People's Daily, 7 May 12.
    \23\ Verna Yu, ``Indoctrination in Hong Kong,'' New York Times, 1 
August 12.
    \24\ ``Editorial: Brainwashing Hong Kong People, What Class Is This 
Miraculous?'' [Sheping: gei xianggang ren ``xinao'', shenme ke zheme 
shenqi?], Global Times, 1 August 12. For reaction to the editorial in 
Hong Kong, see Dennis Chong and Thomas Chan, ``Mainland Editorial 
Stokes Anger Over National Education,'' South China Morning Post, 2 
August 12.
    \25\ Lai Ying-kit, ``Thousands of University Students Boycott 
Classes Against National Education,'' South China Morning Post, 11 
September 12.
    \26\ Te-Ping Chen, ``Fiery Protests in Hong Kong as `Election' 
Heats Up,'' Wall Street Journal, 5 March 12.
    \27\ Polly Hui, ``Hong Kong Protesters Throw Paper Money for 
Dead,'' Wall Street Journal, 25 March 12.
    \28\ Te-Ping Chen, ``Tens of Thousands Turn Up for Tiananmen Vigil 
in Hong Kong,'' Wall Street Journal, 5 June 12.
    \29\ Reporters Without Borders, World Press Freedom Index 2011-
2012, 25 January 12. For 2010 rankings, see Reporters Without Borders, 
World Press Freedom Index 2010, 20 October 10.
    \30\ Reporters Without Borders, World Press Freedom Index 2011-
2012, 25 January 12.
    \31\ Ibid. According to the report, ``In the space of two months in 
the United States, more than 25 [journalists] were subjected to arrests 
and beatings at the hands of police who were quick to issue indictments 
for inappropriate behavior, public nuisance or even lack of 
accreditation.''
    \32\ Freedom House, Freedom of the Press 2012, Global Press Freedom 
Rankings, 2012.
    \33\ Joyce Man, ``Poll Shows Half Think Media Self-Censors,'' South 
China Morning Post, 25 April 12. See also ``More Hong Kong Residents 
Satisfied With Press Freedom in Hong Kong'' [Shimin dui xinwen ziyou 
manyi du huisheng], Mingpao, reprinted in Sina, 24 April 12.
    \34\ Mak Yinting, ``Opinion: Hong Kong Press Freedom Under Chinese 
Attack,'' CNN, 5 July 12.
    \35\ Basic Law of the Macao Special Administrative Region of the 
People's Republic of China, enacted by the National People's Congress 
31 March 93, effective 20 December 99, Annexes I, II.
    \36\ Alexandra Lages and Vitor Quinta, ``Political Reform Is Up to 
Beijing: Chief Executive,'' Macau Daily Times, 15 November 11.
    \37\ Vitor Quinta, ``No Surprises but a Good Policy Address: 
Lawmakers,'' Macau Daily Times, 15 November 11.
    \38\ ``Macau's Political Reform `Doesn't Need Approval': Expert,'' 
Macau Daily Times, 24 November 11; ``Beijing To Review MSAR Basic Law 
Next Week,'' Macau Daily Times, 18 December 11; PRC National People's 
Congress, National People's Congress Standing Committee Interpretation 
Concerning Annex I, Article 7 and Annex II, Article 3 of the ``Basic 
Law of the Macau Special Administrative Region of the People's Republic 
of China'' [Quanguo renda changweihui guanyu ``zhonghua renmin 
gongheguo aomen tebie xingzhengqu jibenfa'' fujian yi di qi tiao he 
fujian er di san tiao de jieshi], issued 31 December 11. See also 
``Interpretation on Macao Basic Law Adopted,'' Xinhua, reprinted in 
China Daily, 31 December 11. For an official discussion of the 
deliberation of the National People's Congress on the interpretation, 
see ``Chinese Legislature Deliberates Draft Interpretations on Macao 
Basic Law,'' PRC Central People's Government, 27 December 11.
    \39\ ``New Macau Launches Forum on Political Reform,'' Macau Daily 
Times, 1 February 12. According to Xinhua, ``The report, which reflects 
the majority opinion in Macao, proposes to maintain the current methods 
for selecting chief executives by an electoral committee, as well as 
uphold the current system of forming Macao's legislative council with 
members either directly and indirectly elected or commissioned.'' 
``Legislature Mulls Report on Macao Politics,'' Xinhua, reprinted in 
China Internet Information Center, 28 February 12.
    \40\ ``Democracy Coming at `Slow' Pace,'' Macau Daily Times, 19 
January 12; ``New Macau Launches Forum on Political Reform,'' Macau 
Daily Times, 1 February 12.
    \41\ ``Top Lawyer Warns of Electoral Corruption,'' Macau Daily 
Times, 9 January 12; ``Time Not Ripe for Universal Suffrage: Ho Lat 
Seng,'' Macau Daily Times, 2 February 12.
    \42\ ``NPC Approves Macau Political Reform,'' Macau Daily Times, 1 
March 12.
    \43\ Long Tuyou, ``Qiao Xiayang: Macau Basic Law Did Not Stipulate 
the Goal of a General Election'' [Qiao xiayang: aomen jibenfa meiyou 
guiding puxuan mubiao], China News Net, reprinted in PRC National 
People's Congress, 2 March 12.
    \44\ ``Agitation at Yesterday's Public Consultation on Political 
Reform,'' Macau Daily Times, 16 April 12.
    \45\ ``ATFPM Presents Poll About the Political Reform,'' Macau 
Daily Times, 25 April 12, quoting Jose Pereira Coutinho, president of 
the Macau Civil Servants Association and lawmaker, who said the 
government printed books with its favored solution, to guide public 
opinion, and conducted a flawed survey to gauge public opinion.
    \46\ Ibid., quoting Jose Pereira Coutinho, president of the Macau 
Civil Servants Association and lawmaker. See also ``Political Reform 
Proposals Vote Tomorrow: Decision Legitimized or Delegitimized by the 
Public Consultation? '' Macau Daily Times, 7 May 12.
    \47\ ``Beijing Gives Political Reform the Thumbs Up,'' Macau 
Business, 2 July 12.
    \48\ Viviana Segui, ``Electoral Laws Get Final Approval,'' Macau 
Daily Times, 30 August 12.
    \49\ Sum Choi, ``Political Reform Bills Back to AL, With More 
Controversies,'' Macau Daily Times, 17 July 12.

                                 <all>

</pre></body></html>
